<html>
<title> - Commerce, Justice, Science, and Related Agencies Appropriations Fiscal Year 2015</title>
<body><pre>[Senate Hearing 113-660]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-660

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                            Commerce, Justice, Science,

                                                   and Related Agencies

                                                         Appropriations

                                                            Fiscal Year
                                                                   2015


                                         113th CONGRESS, SECOND SESSION          

                                                      H.R. 4660/S. 2437



DEPARTMENT OF COMMERCE
DEPARTMENT OF JUSTICE
FEDERAL BUREAU OF INVESTIGATION
NATIONAL AERONAUTICS AND SPACE ADMINISTRATION
NONDEPARTMENTAL WITNESSES

























                                                        S. Hrg. 113-660

  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4660/S. 2437

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENTS OF COMMERCE AND 
 JUSTICE, AND SCIENCE, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING 
               SEPTEMBER 30, 2015, AND FOR OTHER PURPOSES

                               __________

                         Department of Commerce
                         Department of Justice
                    Federal Bureau of Investigation
             National Aeronautics and Space Administration
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-212 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                      COMMITTEE ON APPROPRIATIONS

               BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN M. COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
MARK L. PRYOR, Arkansas              MARK KIRK, Illinois
JON TESTER, Montana                  DANIEL COATS, Indiana
TOM UDALL, New Mexico                ROY BLUNT, Missouri
JEANNE SHAHEEN, New Hampshire        JERRY MORAN, Kansas
JEFF MERKLEY, Oregon                 JOHN HOEVEN, North Dakota
MARK BEGICH, Alaska                  MIKE JOHANNS, Nebraska
CHRISTOPHER A. COONS, Delaware       JOHN BOOZMAN, Arkansas

                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                                 ------                                

    Subcommittee on Commerce, Justice, Science, and Related Agencies

               BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, 
DIANNE FEINSTEIN, California             Ranking
JACK REED, Rhode Island              MITCH McCONNELL, Kentucky
MARK L. PRYOR, Arkansas              LAMAR ALEXANDER, Tennessee
MARY L. LANDRIEU, Louisiana          SUSAN M. COLLINS, Maine
JEANNE SHAHEEN, New Hampshire        LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                 LINDSEY GRAHAM, South Carolina
CHRISTOPHER A. COONS, Delaware       MARK KIRK, Illinois
                                     JOHN BOOZMAN, Arkansas

                           Professional Staff

                             Jeremy Weirich
                             Jennifer Eskra
                             Molly O'Rourke
                  Shannon Hutcherson Hines (Minority)
                        Allen Cutler (Minority)
                        Kolo Rathburn (Minority)

                         Administrative Support

                               Dan Broder
                      Hayley Alexander (Minority)
























                            C O N T E N T S

                              ----------                              

                                HEARINGS
                        Thursday, March 27, 2014

                                                                   Page

Federal Bureau of Investigation..................................     1

                        Thursday, April 3, 2014

Department of Justice: Office of the Attorney General............    35

                        Thursday, April 10, 2014

Department of Commerce: Office of the Secretary..................   137

                         Thursday, May 1, 2014

National Aeronautics and Space Administration....................   225

                              ----------                              

                              BACK MATTER

List of Witnesses, Communications, and Prepared Statements.......   421

Nondepartmental Witnesses........................................   267

Subject Index....................................................
    Department of Commerce--Office of the Secretary..............   425
    Department of Justice--Office of the Attorney General........   428
    Federal Bureau of Investigation..............................   430
    National Aeronautics and Space Administration................   431
    
    
 
COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, MARCH 27, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Shelby, Murkowski, Kirk, and 
Boozman.

                    FEDERAL BUREAU OF INVESTIGATION

STATEMENT OF HON. JAMES B. COMEY, JR., DIRECTOR


            opening statement of senator barbara a. mikulski


    Senator Mikulski. Good morning, everybody. The Subcommittee 
on Commerce, Justice, Science will come to order. This is our 
first hearing on the fiscal year 2015 budget. We are starting 
with the esteemed and much valued Federal Bureau of 
Investigation. We will have a two-part hearing. This will be an 
open session, with all Senators free to participate and ask 
their questions. When this concludes, we will adjourn for a 
classified hearing on the Bureau's needs, particularly in the 
global war against terrorism and cyber security and some of 
those that are more sensitive in terms of the need for global 
protection and global cooperation.
    We want to welcome Director Comey here for his very 
important appearance and we look forward to hearing his 
testimony in terms of the needs of the FBI. Last year we 
concluded I think with a vote on January 20 in which we were 
able to pass an omnibus bill for fiscal year 2014. Thanks to 
the work, bipartisan and bicameral, Senator Murray and 
Congressman Ryan were able to give us a budget and a top line 
cancelling the sequester, which had a draconian impact on both 
the function of core agencies like the FBI and on the morale.
    We look forward this year to moving ahead in an expeditious 
way to move this so that we could avoid that kind of crisis in 
budgeting that has been characteristic of the Congress for more 
now than 5 years.
    To get our work done, we will again listen to Director 
Comey on budget and priorities. It is his first time as the 
Director, but not our first meeting. We appreciate his 
competence, his candor and his long history of service.
    In welcoming you, Mr. Director, we want to thank the entire 
FBI for the way that they protect America. Whether it is 
fighting crime in organized crime, whether it's dealing with 
terrorists or predators, the FBI is on the job 24-7, 365 days a 
year, and we want them to know that they're appreciated, and we 
would like to show our appreciation to make sure they have the 
right resources and the right tools so that they can do the job 
that they were signed up to do. We believe that they are the 
unsung heroes.
    This hearing will focus on the FBI's vital work. As chair, 
I've reviewed the FBI's budget, which comes in at $8.4 billion. 
In fiscal year 2014 we had an increase of $762 million above 
the sequester request. So it was $762 million, and it sounds 
like it was a big bump-up, but it was a bump-up to keep us 
running in place.
    I'd like you to describe then about your need to retain 
talent, to recruit talent, and to train and educate the 
legendary training that goes on at Quantico. I understand that 
the 2015 request would keep the FBI moving while making sure 
our taxpayer dollars are spent wisely.
    Now, we know that the sequester caused the FBI to cancel 
training, to ration gas to 200 miles a week. We valued a much-
read and circulated document called ``Voices From the Field.'' 
This is where we heard from the FBI agents themselves. Not only 
did they fear furlough for their families, but they feared the 
impact on the mission. Then we heard they didn't have gas for 
their cars. What kind of--we can't do this. So we're going to 
make sure we're looking to you and listening to you to do this, 
so we'll be looking at the 21st century threats.
    We know that one of the major 21st century threats is in 
cyber space, whether it's the hackers, the cyber spies, or the 
cyber terrorists. We want to be clear in this hearing that 
cyber security is not the cyber surveillance that is the 
subject of much discussion at many levels in this Government 
and in others. We know that cyber security means protecting us 
from criminals out to steal credit card information, personal 
identities, companies' trade secrets, and even worse, whether 
it's to bring down the grid or bring down our financial 
services.
    We know the FBI's in the front line in this area, and that 
the request is $392 million for the Next Generation Cyber 
Initiative, $9 million less than 2014. So we want to know, what 
is it you want to do, either at this hearing or the classified 
one, and is this the resources to do it?
    One of the hallmarks of the FBI has really been working 
with local law enforcement. The joint task forces that have 
emerged receive kudos from around the Nation. Certainly in my 
own Baltimore metropolitan area, in the Washington metropolitan 
area, law enforcement speaks with such enthusiasm and such 
energy when they talk about these joint task forces, and that 
they can rely on the FBI, but keep law enforcement. We don't 
have a national police force in this country, but we have an 
American joint task force.
    So we want to know how in your budget, what this means to 
State and local. We've been concerned that these two face 
significant cuts.
    Finally, I'd like to mention the fact that you need a new 
headquarters. We know that the Hoover Building is dated and to 
the point of even being dysfunctional, that you're in 20 leased 
spaces. You know that two alpha delegations, Maryland and 
Virginia, are duking it out. We'll go through the competitive 
process, but my criteria, wearing my national hat, is that you 
need full consolidation. You don't need a micro-consolidation, 
because we want it to meet its functionality and security 
requirements for the next 50 years.
    So we look forward to listening to you and listening to the 
needs of really what is it to make sure how we have a robustly 
funded FBI, a 21st century FBI, for 21st century threats.
    I now turn to my vice chairman, who's been such an advocate 
in this area and has some key facilities in Alabama, Senator 
Shelby.


                 statement of senator richard c. shelby


    Senator Shelby. Thank you.
    Mr. Director, I want to welcome you to the committee. This 
is your first appearance before the subcommittee as FBI 
Director. I hope you will be coming to see us often.
    We had a good working relationship with your predecessor, 
Director Mueller, and we look forward to a similar relationship 
with you and the Bureau. The mission of the FBI is broad and 
multifaceted. Its responsibilities include, among other things, 
investigating terrorist attacks and cyber threats, targeting 
health care fraud, leading the Federal Government's efforts to 
analyze improvised explosive devices, routing out gang 
activity. The list goes on and on. You have a broad mandate.
    This broad mission requires the FBI to maintain focus on 
traditional criminal activities, while adapting to the new 
threats of this country. Terrorists and criminals are agile and 
sophisticated. The same is required of the Bureau. To remain 
effective, the Bureau must have the ability, I believe, to 
refocus and retool to address emerging threats. Without a plan 
to address such threats or a process for regularly reevaluating 
priorities, the FBI will find itself playing catch-up with the 
criminal elements it seeks to eliminate.
    The Bureau's 2015 budget, which is the subject of today's 
hearing, outlines the FBI's strategic priorities. According to 
the documents provided, these priorities have not substantially 
been redefined since 2011. This is particularly troubling given 
the growing cyber threat that the chairwoman mentioned that our 
Nation is facing.
    Recognizing the dynamic world in which we live and the 
tough fiscal climate that we face here, I want to be sure that 
the budget priorities of the Bureau truly reflect the threats 
that are facing this country. The ultimate goal of any 
prioritization effort should be an FBI that is efficient, 
effective, and, more importantly, nimble for the foreseeable 
future.
    I'm committed to working with you and the chair to ensure 
that we're targeting limited resources in a manner that 
safeguards taxpayer dollars while preserving public safety.
    Once again, we appreciate you taking this job as the head 
of the Bureau and we look forward to working with you.
    Thank you, Madam Chair.
    Senator Mikulski. I want to acknowledge that Senator Kirk 
is here. Senator, could you hold your statement until the 
Director finishes and we turn to questions, or do you need to 
leave?
    Senator Kirk. I will hold my statement.
    Senator Mikulski. Thank you very much.
    Director Comey.


             summary statement of hon. james b. comey, jr.


    Mr. Comey. Madam Chairwoman, Senator Shelby, Senator Kirk, 
members of the subcommittee: it's an honor to be here 
representing the great people of the FBI. This is my first 
appearance in what is a 10-year term that I'm very, very 
excited about because of those people. I have spent my first 6 
months traveling around trying to meet my troops, and what I 
discovered is that the magic of the FBI is its talent. We don't 
have a lot of stuff; we have remarkable people.
    What I found when I first took this job was that they were 
people who were very stressed by the impact that sequester was 
having on them, which Senator Mikulski, you mentioned. 
Everywhere around the country I heard from my folks about the 
difficulties they were encountering with vacancies, limitations 
on gas, the abolition of training, and Quantico being a ghost 
town.
    Thanks to this committee and other members of the Senate 
and the House, that changed in late January when the budget was 
passed. I'm now in a position where I'm restarting Quantico. 
I'm also looking to hire a thousand people to start to fill the 
almost 2,500 vacancies that we have--hundreds of special agents 
and intelligence analysts, to restock that magic of the FBI 
that is our talent.
    So, thank you so much for that on behalf of the men and 
women of the FBI. And we need those people because, as Senator 
Shelby said, the plate of threats that we face is remarkable.
    I'll start with our top priority, Counterterrorism. The 
threat that I've encountered returning to Government after 8 
years away is one that remains incredibly serious, but has 
changed. It has metastasized in ways that are striking. The 
primary tumor along the border of Afghanistan and Pakistan was 
dramatically reduced by the fight of our men and women in 
uniform and our Intelligence Community. But at the same time, 
that threat has metastasized into the lightly governed or 
ungoverned spaces in the world, especially in North Africa, 
around the Gulf, and around the Mediterranean. And also here at 
home with the growth of the people we call home-grown violent 
extremists. I don't like to call them ``lone wolves'' because 
that sounds dignified in a way that they don't deserve--folks 
who are able to access Al-Qaeda's hateful propaganda on the 
Internet and convince themselves, even without being directed, 
that they need to engage in some sort of jihad here at home and 
kill innocent Americans. So that metastasizing threat poses an 
enormous challenge to everybody in the Intelligence Community, 
but especially to the great people of the FBI.
    Counterintelligence remains a top priority of the Bureau 
because nation-states around the world still want to steal our 
secrets and they are finding new and sophisticated ways to do 
this, especially through cyber. So we remain on guard 24-7, as 
the chairwoman said, to protect that which is most important to 
our Nation.
    Cyber, as the chair said, touches everything I do. The 
reason is fairly easy to understand: we as Americans, as a 
Nation and as a people, have connected our entire lives to the 
Internet. It's where our children play, it's where our money 
is, it's where our health care is, it's where our 
infrastructure is, our secrets. So it's where those who would 
do us harm come at us--for our children, for our money, for our 
private information, for our Nation's secrets, and for our 
vital infrastructure. It touches everything the FBI is 
responsible for, so we are doing everything in our power to 
make sure we are deployed, equipped, and trained to address 
that threat.
    And of course, we're responsible for a host of criminal 
challenges, from public corruption to civil rights to white-
collar crime, gangs, human trafficking, and protecting our 
children. And we're doing that in 56 field offices all around 
this country and in offices all around the world every day.
    As, Madam Chairwoman, you said, we also have a 
responsibility to use the taxpayers' money to train and to 
assist State and local law enforcement. We have world-class 
facilities and world-class technical capabilities and we work 
hard to make them available to our brothers and sisters in law 
enforcement.
    The last thing I'll say is my travels have convinced me 
that the FBI is international in ways that would have been 
difficult to see just 10 years ago. Nearly everything we do 
that matters has an international dimension to it. So I am 
extremely proud of our legal attaches deployed around the 
world, who build relationships and do service for not just the 
FBI, but all the American people.


                           prepared statement


    So we're doing a lot of things and we do it through the 
people. As I said, the magic is the talent. I thank you so much 
for supporting those folks and for giving me the resources to 
make sure we have enough of those great folks.
    My hope for 2015 is to be able to sustain the progress we 
have made since late January, restock the talent of the FBI, 
and march out to meet those many challenges. I look forward to 
working with you on that.
    Thank you so much.
    [The statement follows:]
             Prepared Statement of Hon. James B. Comey, Jr.
    Good morning Chairwoman Mikulski, Vice Chairman Shelby, and members 
of the subcommittee. I look forward to discussing the FBI's fiscal year 
2015 budget request, as well as FBI programs and priorities for the 
coming year. On behalf of the men and women of the FBI, let me begin by 
thanking you for your ongoing support of the Bureau.
    Thanks to the support of this subcommittee, we now have a budget in 
place that that allows us to do more operationally, to hire and train 
new agents and intelligence analysts, and to backfill vacant positions 
in our field offices. We pledge to be the best possible stewards of the 
budget you have provided for us and to use it to maximum effect to 
carry out our mission.
    Today's FBI is a threat-focused, intelligence-driven organization. 
Each employee of the FBI understands that to mitigate the key threats 
facing our Nation, we must constantly strive to be more efficient and 
more effective.
    Just as our adversaries continue to evolve, so, too, must the FBI. 
We live in a time of acute and persistent terrorist and criminal 
threats to our national security, our economy, and our communities. 
These diverse threats facing our Nation and our neighborhoods 
underscore the complexity and breadth of the FBI's mission.
    We remain focused on defending the United States against terrorism, 
foreign intelligence, and cyber threats; upholding and enforcing the 
criminal laws of the United States; protecting civil rights and civil 
liberties; and providing leadership and criminal justice services to 
Federal, State, municipal, and international agencies and partners. Our 
continued ability to carry out this demanding mission reflects the 
support and oversight provided by this committee.
    The FBI's fiscal year 2015 budget request totals $8.3 billion in 
direct budget authority, including 34,970 permanent positions (13,050 
Special Agents, 3,048 Intelligence Analysts, and 18,872 professional 
staff). This request includes two program enhancements: 14 positions 
and $3.2 million for Mutual Legal Assistance Treaty reform, and $15 
million for operations and maintenance for the Terrorist Explosive 
Device Analytical Center (TEDAC) facility in Huntsville, Alabama.
    Let me summarize the FBI efforts that this funding supports.
                           national security
    The FBI is the lead domestic intelligence and law enforcement 
agency in the United States. Our complementary intelligence and law 
enforcement capabilities make up the key components of the Bureau's 
national security mission. They also illustrate the unique authorities 
and mission we have in the U.S. Intelligence Community. We collect 
intelligence to understand and identify the threats to the Nation. And 
when the time comes for action to prevent an attack, we disrupt threats 
using our law enforcement powers through our Joint Terrorism Task 
Forces (JTTFs).
    Much of the FBI's success can be credited to the longstanding 
relationships we enjoy with our intelligence, law enforcement, public, 
and private sector partners. With thousands of private and public 
business alliances and more than 4,100 JTTF members, including more 
than 1,500 interagency personnel from more than 600 Federal, State, 
territorial, and tribal partner agencies, the FBI's partnerships are 
essential to achieving our mission and ensuring a coordinated approach 
toward national security threats.
Counterterrorism
    As the lead agency responsible for countering terrorist threats to 
the United States and its interests overseas, the FBI integrates 
intelligence and operations to detect and disrupt terrorists and their 
organizations.
    Counterterrorism remains our top priority. The Boston Marathon 
bombings in April 2013 remind us that the terrorist threat against the 
United States remains persistent. The threat from homegrown violent 
extremists is of particular concern. These individuals present unique 
challenges because they do not share a typical profile; their 
experiences and motives are often distinct and personal. They are also 
increasingly savvy and willing to act alone, which makes them more 
difficult to identify and to stop.
    In the past 2 years, homegrown extremists have attempted to 
detonate improvised explosive devices or bombs at such high profile 
targets as the Federal Reserve Bank in New York, commercial 
establishments in downtown Chicago, the Pentagon, and the U.S. Capitol. 
Fortunately, these attempts and many others were thwarted. Yet the 
threat from such individuals remains.
    The foreign terrorist threat is similarly complex and ever 
changing. Overseas, we are seeing more groups and individuals engaged 
in terrorism, a wider array of terrorist targets, greater cooperation 
among terrorist groups, and continued evolution and adaptation in 
tactics and communication.
    Al-Qa'ida and its affiliates, especially al-Qa'ida in the Arabian 
Peninsula (AQAP), continue to represent a top terrorist threat to the 
Nation. These groups have attempted several attacks on the United 
States, including the failed Christmas Day airline bombing in 2009, and 
the attempted bombing of U.S.-bound cargo planes in October 2010.
    To better address this evolving threat, the FBI has established the 
Countering Violent Extremism (CVE) Office. This office leverages FBI 
resources and works with Federal counterparts to empower our local 
partners to prevent violent extremists and their supporters from 
inspiring, radicalizing, financing, or recruiting individuals or groups 
in the United States to commit acts of violence. The CVE Office 
facilitates an understanding of the catalysts to violent extremism, as 
well as its behavioral components and radicalization factors, and 
identifies possible inhibitors to these phenomena. The FBI is leading 
efforts to conduct outreach and raise community awareness, while 
upholding civil rights and civil liberties.
Counterintelligence
    We still confront traditional espionage--spies posing as diplomats 
or ordinary citizens. But espionage also has evolved. Spies today are 
often students, researchers, or businesspeople operating front 
companies. And they seek not only state secrets, but trade secrets, 
research and development, intellectual property, and insider 
information from the Federal Government, U.S. corporations, and 
American universities. Foreign intelligence services continue to grow 
more creative and more sophisticated in their methods to steal 
innovative technology, critical research and development data, and 
intellectual property, which erodes America's leading edge in business 
and poses a significant threat to national security.
    We remain focused on the growing scope of the insider threat--that 
is, when trusted employees and contractors use their legitimate access 
to information to steal secrets for the benefit of another company or 
country. This threat has been exacerbated in recent years as businesses 
have become more global and increasingly exposed to foreign 
intelligence organizations.
    To combat this threat, the FBI's Counterintelligence Division 
educates academic and business partners about how to protect themselves 
against economic espionage. We also work with the defense industry, 
academic institutions, and the general public to address the increased 
targeting of unclassified trade secrets across all American industries 
and sectors.
    Together with our intelligence and law enforcement partners, we 
must continue to protect our trade secrets and our state secrets, and 
prevent the loss of sensitive American technology.
Weapons of Mass Destruction
    As weapons of mass destruction (WMD) threats continue to evolve, 
the FBI uses its statutory authorities to lead all investigations 
concerning violations of WMD-related statutes, preparation, assessment, 
and responses to WMD threats and incidents within the United States. 
The FBI provides timely and relevant intelligence analyses of current 
and emerging WMD threats to inform decision makers, support 
investigations, and formulate effective countermeasures and tripwires 
to prevent attacks.
    To ensure an effective national approach to preventing and 
responding to WMD threats, the FBI created the Weapons of Mass 
Destruction Directorate integrating the necessary counterterrorism, 
intelligence, counterintelligence, and scientific and technological 
components into one organizational structure. Using this integrated 
approach, the Directorate leads WMD policy development, planning, and 
response to ensure its efforts result in a comprehensive response 
capability that fuses investigative and technical information with 
intelligence to effectively resolve WMD threats.
    To enable the prevention or disruption of WMD threats or attacks, 
FBI headquarters personnel, 56 field WMD coordinators, and two WMD 
assistant legal attaches oversee implementation of national and 
international initiatives and countermeasures. The FBI conducts 
outreach and liaison efforts with critical infrastructure partners, the 
private sector, academia, industry, and the scientific community to 
implement tripwires that prevent any actor--terrorist, criminal, 
insider threat, or lone offender--from successfully acquiring chemical, 
biological, radiological, or nuclear material or dissemination 
equipment. Through these efforts, the WMD Directorate supports the 
broader work of the U.S. Government as a leading partner and active 
contributor to policy decisions.
    The Counterproliferation Center (CPC) combines the operational 
activities of the Counterintelligence Division, the subject matter 
expertise of the Weapons of Mass Destruction Directorate (WMDD), and 
the analytical capabilities of both components to identify and disrupt 
proliferation activities. Since its inception in July 2011, the CPC has 
overseen the arrest of approximately 65 individuals, including several 
considered by the U.S. Intelligence Community to be major 
proliferators. Along with these arrests, the CPC has increased its 
operational tempo to collect valuable intelligence on proliferation 
networks.
Intelligence
    The FBI's efforts to advance its intelligence capabilities have 
focused on streamlining and optimizing the organization's intelligence 
components while simultaneously positioning the Bureau to carry out its 
responsibilities as the lead domestic intelligence agency.
    One way the FBI is enhancing our partnerships and our ability to 
address threats is through the Domestic Director of National 
Intelligence (DNI) Representative Program. Through this program, FBI 
senior-level field executives in 12 geographic locations are serving as 
DNI representatives throughout the United States. The Domestic DNI 
Representatives are working with Intelligence Community partners within 
their regions to understand the threat picture and develop a more 
coordinated and integrated Intelligence Community enterprise. A more 
unified and effective Intelligence Community will enhance the Nation's 
ability to share information with our law enforcement and private 
sector partners, and will prevent and minimize threats to our national 
security.
    In addition, we expanded the fusion cell model, which further 
integrates our intelligence and operational elements through teams of 
analysts embedded with agents in the operational divisions. These 
fusion cells examine the national and international picture and provide 
intelligence on current and emerging threats across programs, making 
connections that are not always visible at the field level. Providing 
standard criteria, these cells inform the Threat Review and 
Prioritization (TRP) process and develop National Threat Priorities for 
the field. The fusion cells assess the FBI's ability to collect 
intelligence to identify gaps, inform operational strategies, and 
mitigate threats to drive FBI operations. As a result, the fusion cells 
and TRP provide the field with clear guidance and a consistent process 
to identify priority threats, while ensuring FBI Headquarters has an 
effective way to manage and evaluate the most significant threats 
facing the country.
    This strategic, national-level perspective ensures the FBI is 
developing a complete picture of the threat environment and directing 
our resources at priority targets to stay ahead of our adversaries. 
This integration provides a cross-programmatic view of current threats 
and enables a nimble approach to identifying and addressing emerging 
threats.
Cyber
    We face cyber threats from state-sponsored hackers, hackers for 
hire, organized cyber syndicates, and terrorists. They seek our state 
secrets, our trade secrets, our technology, and our ideas--things of 
incredible value to all of us. They may seek to strike our critical 
infrastructure and our economy. The threat is so dire that cyber 
security has topped the Director of National Intelligence list of 
global threats for the second consecutive year.
    Given the scope of the cyber threat, agencies across the Federal 
Government are making cyber security a top priority. Within the FBI, we 
are targeting high-level intrusions--the biggest and most dangerous 
botnets, state-sponsored hackers, and global cyber syndicates. We want 
to predict and prevent attacks, rather than reacting after the fact.
    FBI agents, analysts, and computer scientists are using technical 
capabilities and traditional investigative techniques--such as sources 
and wires, surveillance, and forensics--to fight cyber crime. We are 
working side-by-side with our Federal, State, and local partners on 
Cyber Task Forces in each of our 56 field offices and through the 
National Cyber Investigative Joint Task Force (NCIJTF). Through our 24-
hour cyber command center, CyWatch, we combine the resources of the FBI 
and NCIJTF, allowing us to provide connectivity to Federal cyber 
centers, government agencies, FBI field offices and legal attaches, and 
the private sector in the event of a cyber intrusion.
    We also work with the private sector through partnerships such as 
the Domestic Security Alliance Council, InfraGard, and the National 
Cyber Forensics and Training Alliance. And we are training our State 
and local counterparts to triage local cyber matters, so that we can 
focus on national security issues.
    Our legal attache offices overseas work to coordinate cyber 
investigations and address jurisdictional hurdles and differences in 
the law from country to country. We are supporting partners at Interpol 
and The Hague as they work to establish international cyber crime 
centers. We continue to assess other locations to ensure that our cyber 
personnel are in the most appropriate locations across the globe.
    We know that to be successful in the fight against cyber crime, we 
must continue to recruit, develop, and retain a highly skilled 
workforce. To that end, we have developed a number of creative staffing 
programs and collaborative private industry partnerships to ensure that 
over the long term we remain focused on our most vital resource--our 
people.
                                criminal
    We face many criminal threats, from complex white-collar fraud in 
the financial, healthcare, and housing sectors to transnational and 
regional organized criminal enterprises to violent crime and public 
corruption. Criminal organizations--domestic and international--and 
individual criminal activity represent a significant threat to our 
security and safety in communities across the Nation.
Public Corruption
    Public corruption is the FBI's top criminal priority. The threat--
which involves the corruption of local, State, and federally elected, 
appointed, or contracted officials--strikes at the heart of government, 
eroding public confidence and undermining the strength of our 
democracy. It impacts how well U.S. borders are secured and 
neighborhoods are protected, how verdicts are handed down in court, and 
how well public infrastructure such as schools and roads are built. The 
FBI is uniquely situated to address this threat, with our ability to 
conduct undercover operations, perform electronic surveillance, and run 
complex cases. However, partnerships are critical and we work closely 
with Federal, State and local authorities in pursuing these cases. One 
key focus is border corruption. The Federal Government protects 7,000 
miles of U.S. land border and 95,000 miles of shoreline. Every day, 
more than a million visitors enter the country through one of 327 
official ports of entry along the Mexican and Canadian borders, as well 
as through seaports and international airports. Any corruption at the 
border enables a wide range of illegal activities, potentially placing 
the entire Nation at risk by letting drugs, guns, money, and weapons of 
mass destruction slip into the country, along with criminals, 
terrorists, and spies. Another focus concerns election crime. Although 
individual States have primary responsibility for conducting fair and 
impartial elections, the FBI becomes involved when paramount Federal 
interests are affected or electoral abuse occurs.
Financial Crimes
    We have witnessed an increase in financial fraud in recent years, 
including mortgage fraud, healthcare fraud, and securities fraud.
    The FBI and its partners continue to pinpoint the most egregious 
offenders of mortgage fraud. With the economy and housing market still 
recovering in many areas, we have seen an increase in schemes aimed 
both at distressed homeowners and at lenders. Our agents and analysts 
are using intelligence, surveillance, computer analysis, and undercover 
operations to identify emerging trends and to find the key players 
behind large-scale mortgage fraud. We also work closely with the 
Department of Housing and Urban Development, Postal Inspectors, the 
IRS, the FDIC, and the Secret Service, as well as with State and local 
law enforcement offices.
    Healthcare spending currently makes up about 18 percent of our 
Nation's total economy. These large sums present an attractive target 
for criminals--so much so that we lose tens of billions of dollars each 
year to healthcare fraud. Healthcare fraud is not a victimless crime. 
Every person who pays for healthcare benefits, every business that pays 
higher insurance costs to cover their employees, every taxpayer who 
funds Medicare, is a victim. Schemes can cause actual patient harm, 
including subjecting patients to unnecessary treatment, providing sub-
standard services and supplies, and by passing potentially life-
threatening diseases due to the lack of proper precautions. As 
healthcare spending continues to rise, the FBI will use every tool we 
have to ensure our healthcare dollars are used to care for the sick--
not to line the pockets of criminals.
    Our investigations of corporate and securities fraud have also 
increased substantially in recent years. As financial crimes become 
more sophisticated, so must the FBI. The FBI continues to use 
techniques such as undercover operations and Title III intercepts to 
address these criminal threats. These techniques are widely known for 
their successful use against organized crime, and they remain a vital 
tool to gain concrete evidence against individuals conducting crimes of 
this nature on a national level.
    Finally, the FBI recognizes the need for increased cooperation with 
our regulatory counterparts. Currently, we have embedded agents and 
analysts at the Securities and Exchange Commission and the Commodity 
Futures Trading Commission, which allows the FBI to work hand-in-hand 
with U.S. regulators to mitigate the corporate and securities fraud 
threat. Furthermore, these relationships enable the FBI to identify 
fraud trends more quickly, and to work with our operational and 
intelligence counterparts in the field to begin criminal investigations 
when deemed appropriate.
Gangs/Violent Crime
    Violent crimes and gang activities exact a high toll on individuals 
and communities. Today's gangs are sophisticated and well organized; 
many use violence to control neighborhoods and boost their illegal 
money-making activities, which include robbery, drug and gun 
trafficking, fraud, extortion, and prostitution rings. Gangs do not 
limit their illegal activities to single jurisdictions or communities. 
The FBI is able to work across such lines, which is vital to the fight 
against violent crime in big cities and small towns across the Nation. 
Every day, FBI Special Agents work in partnership with State and local 
officers and deputies on joint task forces and individual 
investigations.
    FBI joint task forces--Violent Crime Safe Streets, Violent Gang 
Safe Streets, and Safe Trails Task Forces--focus on identifying and 
targeting major groups operating as criminal enterprises. Much of the 
Bureau's criminal intelligence is derived from our State, local, and 
tribal law enforcement partners, who know their communities inside and 
out. Joint task forces benefit from FBI surveillance assets and our 
sources track these gangs to identify emerging trends. Through these 
multi-subject and multi-jurisdictional investigations, the FBI 
concentrates its efforts on high-level groups engaged in patterns of 
racketeering. This investigative model enables us to target senior gang 
leadership and to develop enterprise-based prosecutions.
Transnational Organized Crime
    More than a decade ago, the image of organized crime was of 
hierarchical organizations, or families, that exerted influence over 
criminal activities in neighborhoods, cities, or States. But organized 
crime has changed dramatically. Today, international criminal 
enterprises run multi-national, multi-billion-dollar schemes from start 
to finish. These criminal enterprises are flat, fluid networks with 
global reach. While still engaged in many of the ``traditional'' 
organized crime activities of loan-sharking, extortion, and murder, new 
criminal enterprises are targeting stock market fraud and manipulation, 
cyber-facilitated bank fraud and embezzlement, identify theft, 
trafficking of women and children, and other illegal activities. 
Preventing and combating transnational organized crime demands a 
concentrated effort by the FBI and Federal, State, local, and 
international partners. The Bureau continues to share intelligence 
about criminal groups with our partners, and to combine resources and 
expertise to gain a full understanding of each group.
Crimes Against Children
    The FBI remains vigilant in its efforts to eradicate predators from 
our communities and to keep our children safe. Ready response teams are 
stationed across the country to quickly respond to abductions. 
Investigators bring to this issue the full array of forensic tools such 
as DNA, trace evidence, impression evidence, and digital forensics. 
Through improved communications, law enforcement also has the ability 
to quickly share information with partners throughout the world, and 
our outreach programs play an integral role in prevention.
    The FBI also has several programs in place to educate both parents 
and children about the dangers posed by predators and to recover 
missing and endangered children should they be taken. Through our Child 
Abduction Rapid Deployment teams, Innocence Lost National Initiative, 
Innocent Images National Initiative, Office of Victim Assistance, and 
numerous community outreach programs, the FBI and its partners are 
working to keep our children safe from harm.
    The FBI established the Child Sex Tourism Initiative to employ 
proactive strategies to identify U.S. citizens who travel overseas to 
engage in illicit sexual conduct with children. These strategies also 
include a multi-disciplinary approach through partnerships with foreign 
law enforcement and non-governmental organizations to provide child 
victims with available support services. Similarly, the FBI's Innocence 
Lost National Initiative serves as the model for the partnership 
between Federal, State and local law enforcement in addressing child 
prostitution. Since its inception, more than 3,100 children have been 
located and recovered. The investigations and subsequent 1,450 
convictions have resulted in lengthy sentences, including twelve life 
terms.
Indian Country
    The FBI continues to maintain primary Federal law enforcement 
authority to investigate felony crimes on more than 200 Indian 
reservations nationwide. More than 100 Special Agents from 20 different 
field offices investigate these cases. In addition, the FBI has 14 Safe 
Trails Task Forces that investigate violent crime, drug offenses, and 
gangs in Indian Country and we continue to address the emerging threat 
from fraud and other white-collar crimes committed against tribal 
gaming facilities.
    Sexual assault and child sexual assault are two of the FBI's 
investigative priorities in Indian Country. Statistics indicate that 
American Indians and Alaska Natives suffer violent crime at greater 
rates than other Americans. Approximately 75 percent of all FBI Indian 
Country investigations concern homicide, crimes against children, or 
felony assaults.
    The FBI continues to work with tribes through the Tribal Law and 
Order Act of 2010 to help tribal governments better address the unique 
public safety challenges and disproportionately high rates of violence 
and victimization in many tribal communities. The act encourages the 
hiring of additional law enforcement officers for Native American 
lands, enhances tribal authority to prosecute and punish criminals, and 
provides the Bureau of Indian Affairs and tribal police officers with 
greater access to law enforcement databases.
                          science & technology
Laboratory Services
    The FBI Laboratory (``the Lab'') is one of the largest and most 
comprehensive forensic laboratories in the world. Operating out of a 
state-of-the-art facility in Quantico, Virginia, laboratory personnel 
travel the world on assignment, using science and technology to protect 
the Nation and support law enforcement, intelligence, military, and 
forensic science partners. The Lab's many services include providing 
expert testimony, mapping crime scenes and conducting forensic exams of 
physical and hazardous evidence. Lab personnel possess expertise in 
many areas of forensics supporting law enforcement and intelligence 
purposes, including explosives, trace evidence, documents, chemistry, 
cryptography, DNA, facial reconstruction, fingerprints, firearms, and 
WMD.
    One example of the Lab's key services and programs is the Combined 
DNA Index System (CODIS), which blends forensic science and computer 
technology into a highly effective tool for linking crimes. It enables 
Federal, State, and local forensic labs to exchange and compare DNA 
profiles electronically, thereby connecting violent crimes and known 
offenders. Using the National DNA Index System of CODIS, the National 
Missing Persons DNA Database helps identify missing and unidentified 
individuals.
    TEDAC is another example. TEDAC was formally established in 2004 to 
serve as the single interagency organization to receive, fully analyze, 
and exploit all priority terrorist Improvised Explosive Devices (IEDs). 
TEDAC coordinates the efforts of the entire government, including law 
enforcement, intelligence, and military entities, to gather and share 
intelligence about IEDs. These efforts help disarm and disrupt IEDs, 
link them to their makers, and prevent future attacks. Although 
originally focused on devices from Iraq and Afghanistan, TEDAC now 
receives and analyzes devices from all over the world.
    Additionally, FBI Evidence Response Teams (ERTs) are active in all 
56 field offices and include more than 1,200 members. The FBI supports 
and enables evidence collection capabilities of field ERTs and law 
enforcement partners by providing forensic training, resources, and 
expertise. The FBI also has forward-deployed evidence response 
capabilities to respond to terrorist attacks and criminal incidents 
involving hazardous materials (chemical, biological, nuclear, and 
radiological) in concert with local officials and FBI WMD experts.
Operational Technology
    Terrorists and criminals are increasingly adept at exploiting 
cutting-edge technologies to carry out or to mask their crimes. To 
counter current and emerging threats, the FBI actively deploys a wide 
range of technology-based tools, capabilities, and training that enable 
and enhance intelligence, national security, and law enforcement 
operations. In addition to developing state-of-the-art tools and 
techniques, the FBI also focuses on recruiting and hiring individuals 
who possess specialized skills and experience. These dedicated 
employees serve as technically trained agents, engineers, computer 
scientists, digital forensic examiners, electronics technicians, and 
other specialists. Collectively, these specialists enable lawful 
electronic surveillance, provide secure communications, decipher 
encrypted messages, reverse engineer malware, forensically examine 
digital evidence such as images and audio recordings, and much more.
    By way of example, the National Domestic Communications Assistance 
Center (NDCAC) is designed to leverage and share the law enforcement 
community's collective technical knowledge, solutions, and resources to 
address the challenges posed by advancing communications services and 
technologies. The NDCAC also works on behalf of Federal, State, local, 
and tribal law enforcement agencies to strengthen law enforcement's 
relationships with the communications industry.
    The FBI has also established 16 Regional Computer Forensic 
Laboratories (RCFLs) across the Nation. RCFLs serve as one-stop, full-
service forensics laboratories and training centers. All RCFL personnel 
in each of the 16 facilities across the country must earn FBI 
certification as digital forensics examiners and follow standardized 
evidence handling and operating procedures. RCFLs are staffed by 
Federal, State, and local law enforcement personnel who examine digital 
evidence in support of all types of investigations--cases involving 
everything from child pornography and terrorism to violent crime and 
economic espionage.
Criminal Justice Information Services
    The FBI Criminal Justice Information Services (CJIS) Division, 
located in Clarksburg, West Virginia, provides Federal, State, and 
local enforcement and other authorized users with timely access to 
criminal justice information through a number of programs, including 
the National Crime Information Center, the Uniform Crime Reporting 
program, and the National Instant Criminal Background Checks System.
    In addition, CJIS manages the Integrated Automated Fingerprint 
Identification System (IAFIS), which provides timely and accurate 
identification services by identifying individuals through name, date-
of-birth, fingerprint image comparisons, or other descriptors, and 
provides criminal history records on individuals for law enforcement 
and civil purposes. IAFIS is designed to process criminal fingerprint 
submissions in 2 hours or less and civil submissions in 24 hours or 
less. In fiscal year 2013, approximately 62.7 million fingerprint 
background checks were processed. The Next Generation Identification 
program advances the FBI's biometric identification and investigation 
services, providing new biometric functionality such as facial 
recognition, improved latent searches, and immediate responses related 
to the Repository for Individuals of Special Concern, a fingerprint 
index of wanted persons, sexual offender registry subjects, known or 
appropriately suspected terrorists, and other persons of special 
interest.
    CJIS also manages the Law Enforcement National Data Exchange (N-
DEx), a criminal justice information sharing network that allows law 
enforcement agencies to share law enforcement records from more than 
4,500 agencies with nearly 140,000 criminal justice users. The N-DEx 
network contains more than 225 million searchable records (incident 
reports, arrest reports, booking data, etc.). It is projected that by 
the end of fiscal year 2014, N-DEx information sharing will be 
available to law enforcement agencies representing almost 60 percent of 
the U.S. population.
                    critical incident response group
    The Critical Incident Response Group (CIRG) is a ``one stop shop'' 
for responding rapidly to crisis situations worldwide. Its 
professionals are on call around the clock, ready to support FBI 
operations and Federal, State, local, and international law enforcement 
partners in managing critical incidents and major investigations.
    The National Center for the Analysis of Violent Crime (NCAVC) 
provides operational support to FBI agents and law enforcement 
personnel on complex and time-sensitive cases.
    The Behavioral Threat Assessment Center (BTAC) assesses the 
potential threat of violence posed by persons of concern and as 
reflected in threatening communications. Issues traditionally addressed 
by the BTAC include school and workplace attacks, threats against 
Members of Congress and public figures, and threatening communications.
    The Violent Criminal Apprehension Program (ViCAP) is the national 
repository for violent crime cases--specifically those involving 
homicides, sexual assaults, missing persons, and unidentified human 
remains--helping to draw links between seemingly unconnected crimes. In 
2008, the FBI launched the ViCAP Web National Crime Database, which is 
available to law enforcement agencies through the secure Law 
Enforcement Online (LEO) website. Investigators can search ViCAP Web 
for nationwide cases similar to theirs and communicate with other U.S. 
law enforcement agencies to coordinate investigations based on these 
linkages. More than 5,000 Federal, State, and local law enforcement 
agencies have contributed to the 85,000-case ViCAP national violent 
crime database.
Active Shooter Training
    In the aftermath of the tragedy at Sandy Hook elementary school, 
the President announced the Now Is the Time initiative focused on 
protecting children and communities by reducing gun violence. A 
critical component of this initiative focuses on schools, institutions 
of higher education, and houses of worship. The FBI was assigned to 
lead law enforcement training to ensure coordination among agencies. To 
that end, we have trained more than 9,600 senior State, local, tribal, 
and campus law enforcement executives at conferences hosted by FBI 
field offices, and trained more than 6,300 first responders through 
tabletop exercises designed around facts similar to recent school 
shootings. To date, the FBI has provided our Advanced Law Enforcement 
Rapid Response Training course, an active shooter training program, to 
more than 1,400 officers from 613 agencies.
Tactical Operations & Crisis Response
    CIRG has a range of tactical resources and programs that support 
and provide oversight to the FBI and its partners. For example, each 
FBI field office has a SWAT team that is equipped with a wide array of 
specialized weaponry and is trained to engage in hazardous operations 
such as barricaded subjects, high-risk arrest/search warrants, 
patrolling through adverse terrain, and--in some field offices--
maritime interdictions. These teams include crisis negotiators who 
routinely respond to prison sieges, hostage takings, and kidnappings 
nationwide and provide assistance to State and local police 
negotiators. CIRG also manages the FBI Hostage Rescue Team--the U.S. 
Government's non-military, full-time counterterrorist tactical team--
which provides enhanced manpower, training, and resources to confront 
the most complex threats.
    The Hazardous Devices School at Redstone Arsenal in Huntsville, 
Alabama, is the Nation's only facility for training and certifying 
public safety bomb technicians to render safe hazardous devices. 
Managed by the FBI, the school has trained more than 20,000 State and 
local first responders since it opened in 1971. A natural extension of 
this school can be found in the FBI's own 249 Special Agent bomb 
technicians, who provide training to local and State bomb squads and 
serve as the workforce for the FBI's explosives-related operations 
worldwide.
                           victim assistance
    Through the Office for Victim Assistance (OVA), the FBI ensures 
that victims of crimes investigated by the FBI are afforded the 
opportunity to receive the services and notifications required by 
Federal law and the Attorney General Guidelines on Victim and Witness 
Assistance. Among its many services, OVA provides on-scene help to 
crime victims, assesses and triages their needs, and helps victims 
identify and secure counseling, housing, medical attention, and legal 
and immigration assistance. When other resources are not available, OVA 
administers special Victims of Crime Act funds to meet victims' 
emergency needs, including reunification travel, crime scene cleanup, 
replacement clothing, and shipment of victims' remains.
    Special services are provided to child victims. The Child 
Pornography Victim Assistance Program coordinates support and 
notification services for child victims of pornography and their 
guardians. The Forensic Child Interviewing Program ensures that 
investigative interviews of child victims and witnesses of Federal 
crimes are tailored to the child's stage of development and minimize 
any additional trauma. Additionally, a detailed protocol was recently 
developed for providing support to families of abducted children and 
assisting with post-recovery reunification and follow-up services. OVA 
is partnering with the Criminal Investigative Division's Violent Crimes 
Against Children Section and other agencies and organizations to 
improve the response to and services for minor victims of sex 
trafficking.
    The Terrorism and Special Jurisdiction Program provides emergency 
assistance to injured victims and families of American victims killed 
in terrorist attacks and serves as a permanent point of contact for 
terrorism victims. Victim Assistance Rapid Deployment Teams provide 
immediate, on-scene assistance to victims of domestic terrorism and 
mass violence, often at the request of local law enforcement agencies. 
These highly trained and experienced teams have responded to numerous 
mass casualty crimes since 2006, most recently to tragedies at Sandy 
Hook Elementary School, the Washington Navy Yard, and at the Boston 
Marathon.
                         information technology
    The FBI's Information and Technology Branch (ITB) provides 
enterprise-wide IT products and services to more than 36,000 FBI 
employees, contractors, and task force members, including managing more 
than 114,000 workstations and 46 mission-critical systems.
    The target of the ITB's current modernization efforts is to create 
the future FBI Information Environment. Technology provides a distinct 
advantage, allowing FBI users access to their critical data when, 
where, and how they need it. The FBI Information Environment will 
support development of new mission and business functionality within a 
defined and controlled IT framework. These modernization efforts will 
move the FBI toward an agile, responsive, and efficient services-based 
operating model, emphasizing reuse of enterprise services both to 
increase cost savings and to enhance the reliability of IT 
infrastructure and applications.
                         international offices
    One of the fundamental challenges of the 21st Century is stopping 
overseas threats from compromising the security of the United States. 
For this reason, the FBI maintains more than 80 offices overseas that 
cover more than 200 countries and territories. Though our successes 
have been many, the increase in crimes with an overseas nexus shows we 
must do more.
    The FBI continues to look for opportunities to open offices 
worldwide in the Middle East, Africa, Eurasia, the Americas, and Asia 
to target emerging terrorist, cyber, and criminal threats. Staff have 
strong cross-programmatic skills and work side-by-side with sister 
agencies, host governments, and corporate partners to take on threats. 
By targeting terrorists and criminals on their home turf--before their 
plots take shape--the FBI can stop those who wish to harm the United 
States before they have the capability to do so.
                                training
    In fiscal year 2014, the FBI plans to graduate approximately seven 
new groups of trainees by the end of the fiscal year--more than 300 
Special Agents. We also hope to fill six classes of new intelligence 
analysts.
    The National Academy provides law enforcement executives and 
investigators from State and local law enforcement agencies worldwide 
with advanced leadership training. The National Academy has continued 
to trained more executives, adding to its total of more than 47,000 
graduates to date.
    The FBI provides leadership, intelligence, and law enforcement 
assistance to its international training partners through a variety of 
programs designed to establish and strengthen cooperation and liaison 
between the FBI and its overseas counterparts. Courses offered include 
organized crime cases, anti-gang strategies, terrorist crime scene 
investigations, and street survival techniques. The FBI also 
administers the International Law Enforcement Academy (ILEA) in 
Budapest, Hungary, and supports other academies in Bangkok, Thailand; 
Gaborone, Botswana; and San Salvador, El Salvador; as well as the 
Regional Training Center in Lima, Peru. The curriculums of these 
academies are based on the FBI National Academy model. To date, more 
than 11,100 students have received ILEA training.
    Other key training programs include Leadership in Counterterrorism, 
which has trained more than 400 upper-level counterterrorism executives 
from State or national police agencies and chiefs or deputy chiefs of 
local agencies to date; the Domestic Security Executive Academy, which 
has trained more than 340 Federal executives and Fortune 1,000 
corporate security executives; the Law Enforcement Executive 
Development Seminar (LEEDS), a two-week program designed for chief 
executive officers of the Nation's mid-sized law enforcement agencies; 
and the National Executive Institute (NEI), a two-week executive 
training program that provides strategic leadership education and 
partnership opportunities for executives from the highest levels of the 
FBI and the largest U.S. and international law enforcement agencies.
                         leadership development
    We created the Leadership Development Program (LDP) to help prepare 
FBI employees to lead before taking formal leadership positions, by 
providing relevant tools, courses, and developmental experiences needed 
for success. These efforts are fostering a Bureau-wide cultural shift 
toward promoting long-term individual development to better operate in 
quickly developing transitions and crises.
    Since 2009, LDP has built a variety of integrated programs, 
including onboarding for both new employees and specific positions such 
as executives and senior managers, in-depth courses for both current 
and new supervisors and program managers, and a developmental program 
to prepare aspiring leaders before they are promoted. LDP's various 
programs were created by employees, for employees, and are designed to 
build upon one another over the course of an employee's career. They 
were originally benchmarked against successful models from our 
military, law enforcement, and intelligence partners, as well as 
private companies; as LDP has grown, other government agencies now 
reach out to benchmark against the FBI.
                                offsets
    The FBI's fiscal year 2015 budget request includes an offset of 
$168 million to pay for increases in existing costs, including pay 
raises, Federal Employees Retirement System contributions, State 
Department charges, and General Services Administration (GSA) rent, 
among others. The offset will be achieved through a combination of 
program efficiencies and administrative savings. In addition, the 
fiscal year 2015 request includes a $12 million offset to the Secure 
Work Environment (SWE) program. In fiscal year 2015, the SWE program 
will continue to maintain existing facilities while providing an 
increase in capabilities at high priority locations.
                               conclusion
    Responding to this complex and ever-changing threat environment is 
not new to the FBI. The resources this subcommittee provides each year 
are critical for the FBI's ability to address existing and emerging 
national security and criminal threats.
    Chairwoman Mikulski, Vice Chairman Shelby, and members of the 
subcommittee, I would like to close by thanking you for this 
opportunity to discuss the FBI's priorities. Chairwoman Mikulski, we 
are grateful for the leadership that you and this subcommittee have 
provided to the FBI. We would not be in the position we are today 
without your support. Your investments in our workforce, our 
technology, and our infrastructure make a difference every day at FBI 
offices in the United States and around the world, and we thank you for 
that support.
    I look forward to answering any questions you may have.

    Senator Mikulski. Well, that was very compelling testimony, 
Director. I think it was organized in the way our priorities 
are in terms of our national security threats, our criminal 
threats, support to our partners, particularly in our country, 
and those that are around the world.

                                 BUDGET

    But the FBI is, in terms of its $8 billion--and I think 
it's a bargain for what we get for $8 billion, when you think 
of the magnitude, of the number of agents, the analysts, the 
support staff, 60 places around the world, 56 field offices 
here.
    But your request really goes to people. It's not a big 
plane, it's not a big aircraft carrier. What we were able to do 
in fiscal year 2014 on a bipartisan basis I think allowed you 
to bring in 1,000 new critical positions; is that right?
    Mr. Comey. Yes, which I'm trying to fill by October 1.
    Senator Mikulski. Now, what in terms of--what is it that we 
need to help you keep that momentum going? The talent is not a 
spigot you can turn on. Unlike--and we're not knocking our 
friends in defense, but you know you can delay the purchase of 
an aircraft carrier, you can buy one less fighter plane, save a 
half a billion dollars. But here talent, both the trainers that 
you need, again at Quantico, and then the ability to recruit--
people, they don't want to be in a spigot job; they want to be 
in a real job, you know, where the spigot's on.
    Tell us what we need to do in our line items to really 
sustain the momentum and provide the adequacy in particularly 
key areas?
    Mr. Comey. Thank you, Senator Mikulski. As you said, the 
FBI is people. I have no battleships, no satellites. I have 
great men and women. What I need is to be able to hire the 
people that I'm trying to hire by October 1st and then continue 
to hire, because we're down almost 2,500 positions. So I need 
to be able to hire the new folks next fiscal year and pay and 
support those that we bring on this year. So just to continue 
the progress is what I need.
    Senator Mikulski. The purpose of this hearing is not fiscal 
year 2016, but then the biggest threat to your momentum would 
be not a stringent budget in fiscal year 2016, but a sequester 
that just goes across the board; is that correct?
    Mr. Comey. Yes, that would be sort of back to the future 
for us. If that were to happen, we'd again be in the position 
where we'd be rationing gas and not filling vacancies, and we'd 
be back to what we experienced the last 2 years.

                    STATE AND LOCAL LAW ENFORCEMENT

    Senator Mikulski. Now, let's go to State and local law 
enforcement in my time. These partnerships are key. We don't 
have a national police force. America doesn't want it. But we 
have an FBI that provides national resources and deals with 
Federal crime.
    You, meaning the Federal level, rely on local law 
enforcement to be eyes, ears, boots on the ground. It's the 
local police commissioner and the local police officer that 
often sees something and says something that makes a 
difference, whether it's fighting crime or dealing with the 
terrorist threat.
    I note a cut in the State and local law enforcement area. 
What do you anticipate in order, again, to sustain and maintain 
the relationships and the effort at the local level, like 
fighting gangs that I know Senator Kirk is so devoted to, a 
great concern of mine in the Baltimore area, the whole issue of 
child predators and the trafficking in children. So could you 
share with us then what you need in that area?
    Mr. Comey. Certainly, Senator. There's nothing we do--not 
nothing we do at all, but certainly nothing we do that matters, 
that we don't do in partnership with State and local law 
enforcement. The days of the lone fed are long gone. We work 
together to make sure we're gaining maximum leverage from each 
other, whether that's protecting kids, protecting 
neighborhoods, or protecting the Nation from terrorists.
    A bedrock of our counterterrorism response is our Joint 
Terrorism Task Forces. We have over 100. They are 50 percent 
State, local, and other Federal law enforcement agencies. So 
those partnerships are vital. Part of the glue that holds those 
partnerships together is our ability to offer training and 
technical assistance to our brothers and sisters at the State 
and local level. We had to shut all that down before the budget 
was passed at the end of January. So now we are again offering 
that training and assistance, and I'd like to be able to 
continue that.
    Senator Mikulski. There are other questions that I have, 
but I'm going to yield to Senator Shelby.
    Senator Shelby. Thank you, Madam Chair. I'll try to be 
brief, but I have a number of questions, Madam Chair.

                             CYBER SECURITY

    Director Comey, you've acknowledged the growing cyber 
security threat that was mentioned by the chair, facing our 
Nation and the challenges that are inherent in facilitating 
private industry reporting of attacks. It's been told to us 
that private industry often believes that their reports fall on 
deaf ears because they receive no feedback or little feedback 
or follow-up information about the status of some of the 
reports. This perception could be a serious impediment to the 
kind of information-sharing that you envision. I think it's 
important.
    My question is what steps are you taking or will you take 
to foster relationships with private industry and in turn 
increase the number of private industry participants in the 
Bureau's reporting system, which I think is essential here? And 
would you also speak directly to the concerns regarding the 
industry reporting process and the fact that the information 
exchange is perceived as a one-way street? You know, it's got 
to be both because you have to rely on a lot of that.
    Mr. Comey. Thank you, Senator. Great question and a really 
important topic. One of the many great things about our amazing 
country is that our Internet is almost entirely in private 
hands. That's the way it should be. That's the engine of 
entrepreneurship and creativity in this country. One of the 
challenges that poses is that without the ability to share 
information effectively between the government and private 
enterprise, the law enforcers are left patrolling a street 
that, if you imagine, almost has 30-foot high solid walls on 
either side. I can declare that the street is safe, but I'm not 
really protecting the neighborhood because it's on the other 
side of the wall.
    We have to find a way to share information in both 
directions, consistent with protecting the great liberties that 
underlie this country. So we at the FBI, and the Federal 
Government as a whole, have to get better at sharing actionable 
information with the private sector; not just telling them 
there's a problem in your system, but telling them, here's what 
it is, here's what it means, here's what you can do about it. 
And they need to do the same. They have a lot of smart people 
in private industry. When they see something, they've got to be 
able to share it with us.
    So there are two things need to be done. We have to get 
better, and we're developing a whole host of ways to be more 
effective at our information-sharing. And we have to offer them 
clear rules of the road, so when they're looking to share 
information with us they understand how it will be used and how 
it might affect their shareholders, if it exposes them to 
lawsuits, and all the other things that come in this great 
country. So that bipartisan clarity needs to be offered.
    Senator Shelby. You're going to work on that, aren't you?
    Mr. Comey. We're working like crazy on that.
    Senator Shelby. That's good.

                        HAZARDOUS DEVICES SCHOOL

    The Hazardous Devices School. The FBI's Hazardous Devices 
School trains and certifies public safety bomb technicians. You 
know this well.
    Mr. Comey. Yes, sir.
    Senator Shelby. In addition to providing basic training for 
bomb technicians, the Hazardous Devices School of the Bureau is 
also responsible for providing training in electronic 
countermeasures and advanced training in priority threat 
scenarios. State and local technicians are the first line of 
defense in responding to bomb threats, working with the Bureau. 
Ensuring that they're aware of the latest trends and are 
properly trained I think is very important and this school does 
a lot of this.
    Could you talk just for a few minutes about the training 
capacity of your Hazardous Devices School today, specifically 
the number of students that it can accommodate, the number of 
classes offered annually, and the need that exists in terms of 
recertifying, as we evolve, the bomb technicians? And is there 
an unmet training need in the community, and if so how can we 
address it, because we've got 300 million people and we do have 
some threats.
    Mr. Comey. Yes. Thank you, Senator. We have many.
    One of the hidden gems of this country is the Hazardous 
Devices School, where, as you said, Senator, we train all bomb 
techs in the United States. So it's an effort that's a joint 
Federal effort that includes the Department of Defense, which 
is a key partner in the Hazardous Devices School. So it is a 
vital basic building block for people who want to become 
special agent bomb techs or want to become bomb techs in police 
departments.
    What we need to do to make sure we're taking advantage of 
that gem is be able to offer advanced training certifications 
for people who have gone out and become bomb techs to come back 
to get refresher training and to get advanced training on the 
latest devices and threats. So we've done a good job at 
offering the basic training. What we need to find a way to do 
is to re-source that additional training and sophisticated 
refresher training for those bomb techs.
    Senator Shelby. You're going to have to get ahead of the 
terrorists in many ways, are you not?
    Mr. Comey. Yes.
    Senator Shelby. Because if you lag behind technically 
speaking, we're in a real threat area.
    Mr. Comey. Yes, sir. There are smart, evil people laying 
awake at night trying to find ways to defeat us and to find the 
next thing that we haven't caught up with. We need to be just 
as smart and just as wide awake.

              TERRORIST EXPLOSIVE DEVICE ANALYTICAL CENTER

    Senator Shelby. The Terrorist Explosive Device Analytical 
Center, as we call it, TEDAC, is the single inter-agency 
organization to receive, fully analyze, and exploit all 
terrorist improvised explosive devices, or IEDs. Much of the 
TEDAC's work has come from Iraq and Afghanistan. But as U.S. 
forces withdraw from Afghanistan, TEDAC's focus will shift. I 
believe that the IED threat that we face at home or could face 
in the future makes the work of TEDAC probably more important 
than ever.
    What's the FBI's vision for a postwar TEDAC and will the 
skills and capabilities shift with the threat, and if so what 
will it look like? Because you've got to be nimble here. 
Although we've been fortunate and the Bureau's done a great job 
and other law enforcement people, we can't be so smug or secure 
to think that people can't build those improvised explosive 
devices here, because they can. What are your thoughts in this?
    Mr. Comey. That's exactly right, Senator. TEDAC is a 
lifesaver. It has saved lives in Afghanistan and in Iraq. It 
saves lives all around the world. And I agree with you 
completely, the drawdown in Iraq and Afghanistan will not 
signal a drawdown in terrorist efforts to kill us with these 
explosive devices. In fact, what's happened is a lot of the 
terrorists have learned techniques in the war zones that 
they're now looking to spread around the world. So we have to 
stay on top of our game there. We need to continue to make sure 
we're drawing on the military for their advice and guidance. 
But TEDAC will save lives for the indefinite future because the 
threat is indefinite.
    Senator Shelby. Madam Chair, I have a couple of more 
questions that I'd like to submit for the record for the 
Director, because I know we have another closed hearing after 
this.
    Senator Mikulski. Without objection, so ordered.
    I want to turn now to Senator Boozman, but before I do I 
want to acknowledge that Senator Kirk was here. He has a 
longstanding interest and advocacy in this area.
    We're doing 60 hearings in 6 weeks to move our deadlines. 
So Senators are stretched. But we want to also acknowledge that 
if Senator Kirk has any questions we'll submit them to the 
record. We also know his longstanding interest in fighting 
gangs, as we noted, and I'm sure he'll have questions in this 
area.
    Senator Boozman.
    Senator Boozman. Thank you, Madam Chair, very much.
    Thanks for being here. We appreciate you and appreciate the 
great job that the FBI does and the dedication that's 
represented there.

                         AGRICULTURE ESPIONAGE

    Recently in Arkansas we had a situation where some people 
were arrested for espionage in the farm sector. I'd like for 
you to talk about that a little bit. I think there's a lot of 
surprise that we saw that in Arkansas, again in the farm 
sector. Something I think is really important, it's kind of 
like--I'm an optometrist by training, an eye doctor, and so 
it's much better to prevent things than it is to let them 
happen. Can you talk a little bit about some of the things that 
you are doing, some of the things you'd like to do that aren't 
getting done, to really make our companies, make us as a 
Congress, aware that these things are going on, how we can help 
you in that regard?

                               ESPIONAGE

    Mr. Comey. Yes, thank you, Senator. There's no doubt that 
foreign nation-states, especially China, want to steal our 
ideas. The ideas of America are not just in Internet companies. 
They're often in the creative work that agriculture companies 
are doing to develop disease-resistant seeds or crops that will 
produce greater yields with less water, things that will help 
people.
    The source of that entrepreneurship and that energy are the 
great people here in the United States working in labs and 
working in companies. There are countries around the world 
that, rather than do that work, would like to steal it from us, 
which would sap that energy and that entrepreneurship and kill 
that spirit that's at the center of this country.
    So it's something we focus on constantly. It's the reason 
we have counterintelligence at the top of our list, because 
there are people in cases that we've brought who are looking to 
steal seed technology, every bit as much as people want to 
steal intellectual property on the Internet. So what we're 
doing is trying to make sure we're aggressive in those cases, 
so that when we catch folks doing that, they understand there's 
a cost to it. We're going to lock people up for that. It's not 
a freebie to take America's seed technology. And we're trying 
to put in place tripwires so that companies, whether it's 
agricultural companies or whether it's a software company, 
understand when they see something that doesn't seem right to 
them, they've got to call us, because bad people are looking to 
steal things that matter to you enormously.
    Those tripwires are very valuable and contributed in the 
case that you were referring to and other cases that we've 
brought that relate to agricultural theft.
    Senator Boozman. Very good.

                             CYBER SECURITY

    In a related area, cyber security, certainly you are doing 
a lot in that regard, I think hopefully in educating and again 
in getting after folks that are doing that. The private sector 
is doing a pretty good job of that, and the private sector has 
a tendency to perhaps be a little bit more innovative or move a 
little quicker with things. Can you talk about some of the 
public-private partnerships that you're pursuing in that 
regard, or are you pursuing public-private partnerships?
    Mr. Comey. Yes, we are, Senator, for the reasons you said. 
I spent the last 8 years working at two world-class companies 
in two different industries and there's no doubt that private 
industry is spending the money to get the talent on board to 
think in a good way about those challenges. So they've got a 
lot of brainpower.
    We have to be smart by connecting ourselves to that 
brainpower. I've got a lot of smart people. I don't have all 
the smart people in the world. A whole lot of them are in 
private enterprise. So as I said in response to Senator Shelby, 
we have to get better at connecting ourselves.
    Therefore a bunch of different ways in which we're trying 
to do that. We have an effort called Infraguard, where we're 
trying to join together in partnership all around the country 
with private industry. We have something called DSAC, the 
Domestic Security Alliance Council, to accomplish the same 
mission. But whatever it's name, we need to make sure we're 
connected to them.
    One of the obstacles is we live in a litigious society--I 
was the general counsel of two companies and I know as the 
general counsel you worry: if I cooperate with the government, 
is someone going to sue me, claim that I violated some 
obligation to protect information? It's one of the reasons I 
think it's so important that we, through legislation, offer 
those clear rules of the road to those general counsels so they 
can tell their tech geeks, you can go ahead and share this and 
here's what the rules are.

                         LEGAL ATTACHE OFFICES

    Senator Boozman. You mentioned in your testimony about 
opportunities to establish offices worldwide, in the Middle 
East, Africa. Can you talk about some of the barriers that 
you're running into in that regard or some of the obstacles 
perhaps that you face in trying to get that done?
    Mr. Comey. Well, in our Legal Attache program--we call them 
``LEGATs''--we have 64, I think that is the number, around the 
world. I have visited now ten of them and discovered that they 
are, as I said, not just a representative of the FBI, but of 
the entire United States, a tremendous force multiplier for us.
    So the obstacle is I simply need to make sure that I 
identify more good people and have the resources to develop 
those offices at embassies around the world. So I'm going to be 
looking to do more of that early in my tenure. It's simply a 
question of identifying the talent and having the resources to 
do it.
    Senator Boozman. Thank you, Madam Chair.
    Senator Mikulski. Thank you, Senator.
    The question of the international assistance I think is 
really something the committee needs to pay attention to. I 
believe there are 60 LEGAT offices around the world. Am I 
correct?
    Mr. Comey. I think the number is 64.
    Senator Mikulski. Some are micro, but some are robust in 
countries where we need to be robust or have been invited?
    Mr. Comey. Yes, that's exactly right.
    Senator Mikulski. And they're not secret. They're known. In 
other words, the private sector--first of all, the host country 
knows, etcetera.
    Mr. Comey. That's correct.
    Senator Mikulski. They're usually cooperating locally and 
working regionally; am I correct?
    Mr. Comey. That's correct, Senator.
    Senator Mikulski. You want to add 14--the President's 
budget and I believe yours is 14 positions, for a modest $3.2 
million; is that correct?
    Mr. Comey. That's correct. That's what I meant by the 
resources to spread that great thing a little bit farther out.
    Senator Mikulski. Yes. And it would mean a lot to some of 
these countries for us to have a presence?
    Mr. Comey. Oh, yes. I got a call this morning with a 
foreign counterpart who asked me about that. They find them 
incredibly valuable as a gateway that swings both ways. It gets 
our country information, but also helps them get assistance, 
especially training for their law enforcement.
    Senator Mikulski. And a presence, that the FBI is not the 
KGB.
    Mr. Comey. We are not.
    Senator Mikulski. That's what I hear a lot.
    Mr. Comey. Nice to show people that.
    Senator Mikulski. Yes.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    Good morning, Director. I appreciate your leadership here. 
A couple years ago when your predecessor, Director Mueller, 
appeared before our subcommittee--this was in 2012--Senator 
Hutchison, who served on the committee as well, she and I asked 
him about the possible FBI misconduct in the investigation and 
the prosecution of Senator Ted Stevens. I'm assuming or I'm 
hopeful that in preparation for today's hearing your staff 
might have told you that it was a whistleblower complaint of an 
FBI agent named Chad Joy that first brought the misconduct to 
light.

         EMPLOYER MISCONDUCT RELATING TO STEVENS INVESTIGATION

    I haven't heard anything about the FBI's probe into Agent 
Joy's allegations since 2012. So the question that I have for 
you this morning: The Director at that meeting told the 
committee that the FBI's investigation of employee misconduct 
is still pending relating to the Stevens investigation. That 
was 2 years ago. We're here in 2014. So the question is whether 
or not the FBI's investigation has been concluded and, if so, 
what was the outcome of that investigation, and if there has 
been any corrective action taken if you could inform me?

                     SENATOR STEVENS INVESTIGATION

    Mr. Comey. Yes, Senator. Thank you for the question and for 
the opportunity to update you. I did learn about this in the 
last week and get briefed in detail. The Office of Professional 
Responsibility, OPR, inside FBI did investigate in response and 
identified an agent who had engaged in improper conduct, and 
the agent was severely disciplined. The discipline has been 
imposed. On top of that, we pushed out refresher training to 
the entire workforce, especially about our discovery 
obligations and how we expect them to conduct themselves during 
those investigations.
    So both broad remedial work was done and individual 
discipline was imposed for the agent involved.
    Senator Murkowski. Was there a report that was prepared, 
and if so would you be able to provide the subcommittee with a 
copy of that?
    Mr. Comey. I don't know--I'm sure something was written up 
because we always have written support for discipline imposed. 
I'll check and get back to you on it.
    [The information follows:]
                  opr report on ted stevens case agent
    Sensitive employee personnel information is contained in Office of 
Professional Responsibility reports. As such, the FBI can provide a 
briefing on these documents in an appropriate setting.

    Senator Murkowski. I'd appreciate that.
    I had also asked about whether or not the agent who had 
brought this issue to the forefront, Agent Joy, had received 
any recognition from the FBI for really stepping up there. 
Director Mueller indicated at that time he didn't know whether 
or not there had been anything that had been done to recognize 
Agent Joy.
    In fact what happened was that Agent Joy left the Bureau. 
He believes that his career was undermined by the 
whistleblowing. Again, as you are looking to this issue, if you 
might look into this specific situation regarding Agent Joy and 
really whether or not the Bureau did right by him, because I 
think we all pay attention to what goes on with whistleblower 
situations, but if there is a perspective or a view within the 
agency that not only are whistleblowers not rewarded, but in 
fact there are consequences, negative consequences at the end, 
that's something that I think we need to certainly be aware of.
    Mr. Comey. Thank you for raising that. I don't know, but 
I'll find out.
    [The information follows:]
                        agent joy whistleblowing
    The FBI can provide a briefing on this sensitive personnel matter 
in an appropriate setting.

    Senator Murkowski. I appreciate that.
    Mr. Comey. Because I share your belief that whistleblowers 
are essential to a healthy institution. And I have a practice 
now where I call individual agents and support people around 
the country to thank them, for not famous acts, but for good 
pieces of work. So I'm going to follow up and find out where 
this fellow is, because maybe it's worth a phone call from me.
    Senator Murkowski. I appreciate that.

                HUMAN TRAFFICKING IN NATIVE COMMUNITIES

    One final question then for you, and this relates to human 
trafficking in our Native communities, not a subject that any 
of us want to talk about particularly, but I think that this is 
an area that is grossly underreported. Research that documents 
the extent of a problem is often done in the universities and 
think tanks. My alma mater out in Oregon, Willamette University 
Law School, released a report on the extent of human 
trafficking in Oregon. In Alaska, it's the Salvation Army that 
has made the note that Natives are one of the populations most 
vulnerable to human trafficking. Traffickers apparently will 
sell Alaska Native women and girls believing that their 
ethnicity is more appealing to buyers. It sickens you to even 
be discussing it.
    The FBI budget document speaks to the Bureau's role in 
human trafficking, but it doesn't specifically address the 
commitment of resources to human trafficking that involves 
Native women, American Indians or Alaska Native women. We all 
know that this problem is continuing to grow. So I'd ask what 
the Bureau is doing today to address the problem, what more you 
could be doing in these areas, and in terms of your statistical 
capabilities to what extent is the Bureau able to track to 
victimization of American Indians, Alaska Native women who are 
trafficked, and is there more that we can do to focus on this 
demographic?
    Mr. Comey. Thank you for the question. The answer is I 
don't know, but it's something that I need to get smarter 
about, because I learned a lot in the 6, 7 months I've been on 
the job about human trafficking and I've been shocked by it, 
just as you are, and about crime in Native American 
communities. But I have not thought well about this specific 
human trafficking issue in Native American communities, but I 
will.
    This question of research is also very interesting to me. I 
don't know whether we do a good enough job at the national 
level to think well about the problem. Chairman Wolf in the 
House has suggested that maybe we ought to add that capability 
to the National Gang Intelligence Center, so that we have 
people who wake up every morning thinking about it 
holistically, which is also something I'm going to look at.
    But I will get smarter and get back to you.
    [The information follows:]
                 human trafficking of native americans
    The FBI is actively engaged in efforts to identify and combat human 
trafficking involving tribal communities. The FBI has strengthened its 
work through ongoing collaboration with U.S. Attorney's Offices and 
other Federal, State, local, and tribal partners. Through these 
partnerships, the FBI provides training, conducts investigations, and 
supports trafficking victims in tribal areas, including, in South 
Dakota and the Bakken oil-producing region of North Dakota and Montana.
    In January 2014, the FBI Office for Victim Assistance collaborated 
with the FBI Civil Rights Unit and Violent Crimes Against Children 
Section, as well as the Department of Health and Human Services, to 
conduct Webinar trainings for FBI personnel to commemorate National 
Slavery and Human Trafficking Prevention Month. Training topics 
included: coordinating large scale operations that focus on domestic 
minor sex trafficking; human trafficking in Indian Country and the 
Bakken region of North Dakota and Montana; identifying resources and 
services available to adult and foreign minor victims of human 
trafficking; and, understanding and identifying labor trafficking.

    Senator Murkowski. I appreciate that. We have resources 
clearly in Alaska that have been looking very specific to the 
issues as it relates to Alaska Native women, and I know your 
folks on the ground up north are very capable in this area. But 
if we can have a broader understanding as to the issue in this 
country as it relates to our indigenous people, particularly 
our women and girls, I think it would be a very important 
focus.
    Thank you, Madam Chairman.
    Senator Mikulski. The vice chairman has an additional 
question. I just would like to amplify what Senator Murkowski 
has said. Both she and then Senator Cantwell, who chaired our 
Committee on Indian Affairs that's Pacific Northwest-focused, 
have spent a lot of time really on what is happening to Native 
Americans in this country and particularly the women and the 
children. They're not only a great resource to you, but a great 
way for you, to point you to these resources where a lot of 
work has been done, but not a lot of action has happened.
    Does that summarize it, Senator?
    Senator Murkowski. Yes.
    Senator Mikulski. So look to us here and we can help you 
get smart about it, and then let's get a real action plan.
    Senator Shelby.
    Senator Shelby. Thank you, Madam Chair.

                CHILD EXPLOITATION AND CHILD PORNOGRAPHY

    I want to follow up on this area, Mr. Director. I have 
visited Eastern Europe and the Ukraine and other areas where a 
lot of the human trafficking of young women that have been 
abused, to say the least, as you well know, into forced 
prostitution of different kinds, child pornography, everything, 
just small children. That is a big, big business, especially 
the child pornography. It's international in scope. It's 
obviously--it's hard to stamp out.
    But in America, a lot of Americans are buying movies of 
this. It's sickening. But on the Banking Committee I remember 
Senator Sarbanes--I was chairman on the committee and he was 
ranking, and then he was chairman and I was ranking. We worked 
together on this a lot, dealing with the payment system, 
because the key is the credit card system, how do you pay for 
it?
    The FBI and the Justice Department have been very good. 
It's very complex, very hard to discern everything. But it's 
one of the worst things that you could imagine, and you have. 
And if you have children or grandchildren or both, you think, 
my gosh. But the trafficking, the human trafficking of young 
women and young children and the exploitation of it is 
something that the Bureau has been very good and the Justice 
Department. But it's such a massive thing to get our hands 
around.
    Do you want to address that at all, and the FBI's interest 
here?
    Mr. Comey. It is a massive problem, as big as the Internet. 
The explosion of the Internet has brought with it an explosion 
in child exploitation and child pornography. It's an enormous 
machine that at the back end people are viewing child 
pornography, at the front end children are being fed into the 
engine. It's one of the reasons that it drives me a bit crazy 
when I hear people say: Oh, they were just looking at child 
pornography. Your just looking at child pornography, first of 
all, is sick in and of itself and raises serious concerns about 
whether you're abusing children in your own life.
    Senator Shelby. But it pays for it.
    Mr. Comey. Yes. But it's their desire to see fresh images 
that powers the engine at the front and leads to this voracious 
consumption of child pornography. So there's no such thing in 
my view as just looking at child pornography. It's a serious 
crime. It has to be taken seriously. It's something that, as 
Senator Mikulski knows--who is one of the great supporters of 
our ``Innocent Images'' program--it's something we are 
passionate about. We have to send a message both to those who 
would profit from the business, those who would view and become 
the consumers that drives this engine, and those who would 
touch the children and destroy them to produce those images. So 
we have to hit the whole train.
    Senator Shelby. Have you had real cooperation from, say, 
the people of the Ukraine and Russia and some of these other 
countries where a lot of this trafficking and filming and 
everything takes place?
    Mr. Comey. The answer is yes, because, despite what 
political differences we may have, all humans are revolted by 
the abuse of children, exploitation of children. So that's an 
area in which we can find common ground even with the folks in 
Russia.
    Senator Shelby. Thank you, Madam Chairwoman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. There are many more questions to be 
asked, but we're now going to move to our classified hearing. 
So this subcommittee will temporarily recess and reconvene in 
closed session at the secure facility in the Capitol Visitors 
Center, where we can consider those matters that require more 
classified conversation, particularly in the global war against 
terrorism, espionage, and these other vile, vile, and repugnant 
international crimes against children.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                      shooting of ibragim todashev
    Question. What measures have you taken to ensure the American 
people that FBI shooting incidents, including the one in Florida last 
May, are investigated fairly and independently?
    Answer. In 1982, then Director William Webster approved the 
establishment of the Shooting Incident Review Group (SIRG) which is 
comprised of the Federal Bureau of Investigation (FBI) and the 
Department of Justice (DOJ) representatives to review and assess all 
shooting incidents involving FBI personnel. The SIRG provides the 
Director and FBI Headquarter Executive Management evaluative analyses, 
observations, and recommendations concerning operational, training, and 
other relevant issues, including the need for referral to the DOJ, 
Office of Inspector General (OIG), or the FBI's Internal Investigations 
Section for further administrative or disciplinary review, if deemed 
necessary. In 1995, the DOJ Office of Investigative Agency Policies 
adopted ``Resolution 13,'' which further formalized the process by 
which DOJ investigative agencies conduct post shooting incident 
reviews. Central to ``Resolution 13'' was the requirement that the 
intentional and unintentional discharge of a firearm by a DOJ employee 
be expeditiously reported, documented, investigated, and reviewed.
    In accordance with the establishment of the SIRG and ``Resolution 
13,'' the FBI utilizes a Shooting Incident Review Team (SIRT) to 
conduct an administrative inquiry of every Agent Involved Shooting 
(AIS) for the purpose of assessing and documenting the use of force 
incident, and to provide the DOJ Civil Rights Division sufficient 
information to make a prosecutorial determination. Each SIRT prepares a 
comprehensive report for the SIRG. Each SIRG meeting is attended by a 
representative of the DOJ OIG. The SIRG independently reviews FBI 
shooting incidents to determine whether the use of deadly force was 
reasonable, and in accord with the DOJ Deadly Force Policy and the law. 
The SIRT process is designed to inform affected field offices, and 
other FBI personnel, of findings or lessons learned from an 
operational, administrative, tactical, and training perspective.
    The FBI routinely conducts AIS reviews in coordination with State 
and local authorities. FBI SIRTs jointly conduct post-shooting 
interviews and coordinate reporting to ensure both State/local and DOJ 
prosecutorial offices have information necessary to make an independent 
prosecutorial decision. DOJ and State/local prosecutors have 
independent, concurrent jurisdiction regarding Federal and State 
charges and coordinate with each other as appropriate.
                            forensics reform
    Question. Would you agree that there must be national leadership in 
the area of forensic science, and that the Department of Justice, 
working with the FBI and other elements of the executive branch, can 
play a central role in the development of this important part of our 
criminal justice system?
    Answer. National leadership in the area of forensic science is of 
utmost importance. For over three quarters of a century, the Department 
of Justice and the FBI have served in such a leadership role, both 
nationally and internationally, for the forensic sciences.
    Question. Will you commit to working with me on the forensics 
reform bill that I introduced today?
    Answer. The FBI, in conjunction with other DOJ components takes the 
issue of improving forensics seriously and the Bureau would be glad to 
work with the Senator to provide feedback or technical assistance 
sought on legislation.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
                           white-collar crime
    Question. Could you please provide, in both real and proportional 
to the rest of the Department of Justice's (DOJ's) resources, what 
percentage of DOJ and the Federal Bureau of Investigation (FBI) 
resources have been dedicated to white-collar crime in general and 
mortgage fraud specifically over the past 20 years with a particular 
focus on times when high amounts of white-collar crime needed to be 
pursued, such as the economic fallout of the savings and loan crisis 
and the popping of the dot come bubble?
    Answer. As an intelligence-driven, law enforcement and national 
security organization, the FBI has responsibility to address a variety 
of threats to include Terrorism, Counterintelligence, Cyber and a 
multitude of Criminal threats to include Public Corruption, Civil 
Rights, Organized Crime, Complex Financial Crime, and Violent Crime. 
Each year, the FBI utilizes intelligence to determine the appropriate 
ranking of those threats. Within the priority area of Complex Financial 
Crime, the FBI addresses the threats of Securities and Commodities 
Fraud, Corporate Fraud and Mortgage Fraud, among others.
    Prior to the mortgage fraud crisis that emerged several years ago, 
the FBI did not track mortgage fraud separately, outside of its White-
Collar Crime program, and thus cannot provide trends from the past 20 
years. The chart below provides data since 2008.

                                                                   WHITE-COLLAR CRIME
--------------------------------------------------------------------------------------------------------------------------------------------------------
                         Type                               2008          2009          2010          2011          2012          2013          2014
--------------------------------------------------------------------------------------------------------------------------------------------------------
                 Department of Justice
 
Mortgage Fraud........................................  $ 69,546,000  $111,508,000  $151,984,000  $114,475,000  $141,308,000  $121,731,000  $129,338,000
Other White-Collar Crime..............................   435,120,000   478,570,000   436,598,000   532,399,000   528,001,000   569,322,000   586,553,000
                                                       -------------------------------------------------------------------------------------------------
      Total...........................................   504,666,000   590,078,000   588,582,000   646,874,000   669,309,000   691,053,000   715,891,000
                                                       -------------------------------------------------------------------------------------------------
            Federal Bureau of Investigation
 
Mortgage Fraud........................................    32,203,000    66,763,000    94,287,000    70,131,000    69,048,000    53,564,000    59,497,000
Other White-Collar Crime..............................    57,806,000    64,745,000    81,031,000   139,781,000   140,468,000   145,756,000   161,716,000
                                                       -------------------------------------------------------------------------------------------------
      Total...........................................    90,009,000   131,508,000   175,318,000   209,912,000   209,516,000   199,320,000   221,213,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Please provide estimates in the differences in the 
resource costs required for the pursuit of individuals versus that of 
companies. Additionally, could you please provide estimates of 
resources required to prepare a case to be taken to court versus 
establishing non-prosecution and deferred prosecution agreements with 
companies?
    Answer. Investigations into complex financial crimes commonly 
require the FBI to consider both individual and entity level criminal 
culpability. The investigations into individuals and entities have 
significant overlap as the individuals interviewed, documents analyzed, 
and investigative methods typically serve the dual purpose of 
uncovering the underlying facts, which may support charging 
individuals, entities, or both. Therefore, the FBI is unable to 
quantify the differences in resources required for the pursuit of an 
individual versus an entity. When investigating individuals, due to 
certain fact patterns, it is often appropriate to incorporate an 
investigation into the entity as well. An entity can also serve as a 
cooperator in investigations and the ultimate resolution reached with 
an entity can be significantly influenced by its level of cooperation, 
among other factors.
    With regard to the differences in resources dedicated to 
investigations going to court versus those that end in non-prosecution 
agreements (NPAs) or deferred prosecution agreements (DPAs), the FBI's 
investigative strategy is one that rests on the assumption that all 
criminal investigations will be taken to trial. Doing so ensures a 
comprehensive investigation has been conducted and that the FBI is 
positioned to withstand the scrutiny of a trial by jury, if necessary. 
Conducting an investigation in this manner enables the FBI to more 
persuasively articulate the nature of the offenses and the evidence of 
those offenses by the targeted individuals, thereby increasing the 
likelihood of individual pleas or corporate resolutions without the 
need for a trial. For that reason, there is no significant difference 
in the cost for the FBI to investigate cases that proceed to trial and 
cases resolved without a trial.
         criminal referrals from financial regulatory agencies
    Question. Please provide numbers for how many criminal referrals 
the FBI and DOJ has received from financial regulatory agencies year by 
year since 1990, broken down by referring agency. Has the number of 
criminal referrals from financial regulatory agencies changed over the 
past decade? Has there been a significant decline? If so, how does the 
FBI account for such a decline? What could the FBI do to train and 
encourage regulatory agencies to refer criminal activity for FBI 
investigation? Does the FBI have adequate resources to take on such 
activity?
    Answer. The FBI does receive referrals from Federal regulatory 
agencies, but the number of referrals is not tracked; therefore, the 
FBI cannot assess trends in referrals. The FBI does work closely with 
other law enforcement and regulatory agencies to address complex 
financial crime. Understanding the current threat picture is essential 
to appropriately address the complex financial crime threat. FBI 
headquarters is actively engaged with private sector and other 
governmental agencies to understand the nationwide complex financial 
crime threat. This collaboration enables the development of a holistic 
view of the threat and identification of nationwide and local trends.
    On a local level, the FBI is committed to working with local, State 
and Federal partners to investigate, prosecute, and collect and 
disseminate intelligence related to complex financial crimes. The FBI 
currently operates 21 Financial Crimes Task Forces throughout the 
United States. These task forces include at least 11 Federal agencies 
outside the Department, as well as partners within the Department, and 
over 30 local or State law enforcement and regulatory agencies. In 
total, the FBI is dedicating nearly 900 agents and more than $200 
million to combat corporate, mortgage, and securities fraud and other 
economic crimes.
    The FBI recognizes the importance and value in continuing to build 
and maintain strong working relationships with regulatory partners like 
the U.S. Securities and Exchange Commission (SEC) and the Commodity 
Futures Trading Commission (CFTC). As such, the FBI embedded 
Supervisory Special Agents and analysts within the SEC and CFTC to 
conduct real-time review of complaints and tips received by these 
agencies to determine if the information is relevant to an ongoing FBI 
investigation or should be referred for the opening of a new 
investigation. This greatly reduces the likelihood of relevant 
information slipping through the cracks. The placement of FBI personnel 
within these key regulatory agencies allows for earlier FBI involvement 
in parallel investigations and increases opportunities for the 
successful use of proactive and sophisticated techniques in complex 
investigations.
                 investigating multinational companies
    Question. The FBI is sometimes tasked with investigating very 
large, complex multinational companies, which could cost millions to 
investigate thoroughly. How does the FBI work with larger corporations 
in investigating criminal activity? How dependent is the FBI on 
information obtained through the internal investigations of companies? 
Does the FBI have adequate personnel to verify information provided by 
companies in their internal investigations? Could you please identify 
some examples of when the FBI has brought on experts from other 
agencies to assist in such investigations?
    Answer. It is true that the nature of financial crime is becoming 
more complex than ever before. The complexity is driven by the nature 
of the offenses, the use of technology and more frequently, the 
international scope of investigations. Companies may serve as 
witnesses, victims, or as the targets of investigations. Regardless of 
the role, if the company is not deemed to be inherently criminal in 
nature, e.g., an established corporation with legitimate business 
interests versus a corporation created for the sole purpose of 
operating a Ponzi scheme, the company can serve as a tremendous source 
of information and a resource that can be leveraged to develop a more 
efficient investigative strategy. For example, cooperating companies, 
through their internal investigations, can review documents, identify 
witnesses, and provide an initial analysis of data. Although these 
efforts on the part of the company can aid an investigation, it would 
be inaccurate to describe the relationship as one where the FBI is 
dependent on the company and its internal investigation. The FBI has 
alternative methods to relying on the company's cooperation. For 
example, the FBI can collect records via a search warrant (given 
appropriate authority). Voluntary production of records can be mutually 
beneficial to both the Government and the company, but it also 
introduces the risks of completeness and accuracy of the data produced. 
Given that the company is likely not impartial, the investigative 
strategy must address these added risks. These risks can be addressed 
through a number of investigative methods, including interviews, 
independent verification from an external source, detailed descriptions 
of the internal investigation process with company counsel, and/or 
conducting our own analysis of the records.
    FBI investigations into Complex Financial Crimes typically involve 
a number of FBI personnel, to include Special Agents, Forensic 
Accountants and Intelligence Analysts. The FBI also works closely with 
prosecuting offices and regulating agencies such as the Security 
Exchange Commision (SEC). The FBI regularly leverages experts and 
industry specialists from regulatory agencies conducting parallel 
investigations of Complex Financial Crimes. The use of these experts 
and industry specialists ranges from witness testimony during trial to 
serving as a resource during the investigation. For example, the FBI 
has utilized individuals from the Financial Industry Regulatory 
Authority-Criminal Prosecution Assistance Group (FINRA-CPAG) to analyze 
financial data, assess the risks associated with certain types of 
securities investments, review private placement agreements, and create 
summary data for trial. Economists and industry experts from the CFTC 
have identified, analyzed, and reported on brokerage records and 
provided technical assistance on investigations of commodity fraud. 
Industry specialists from the SEC have analyzed financial statements 
and served as Government witnesses during insider trading 
investigations. The FBI has also utilized the National Futures 
Association (NFA) for expert testimony on matters involving commodity 
fraud.
                          mortgage fraud cases
    Question. In fiscal year 2013, the number of suspicious activity 
reports (SARs) related to mortgage fraud dropped 25 percent to just 
over 69,000, but could you provide a breakdown of how many SARs were 
investigated, bundled into a larger investigation, or were found to 
have insufficient information for investigation? Is there a backlog of 
cases the FBI plans to pursue from this surge of SARs following the 
financial crisis?
    Answer. The FBI does not track, at the individual SAR level, 
whether SARs generate cases or are bundled into larger investigations. 
Each SAR filing does not equate to predication to initiate an 
investigation as an individual SAR may not provide enough information 
to open an investigation or multiple SARs may lead to one 
investigation. The FBI is unable to address every complaint of mortgage 
fraud, but attempts to work higher level cases which involve multiple 
victims, higher dollar losses or fraud activity, and/or target 
organized groups involved in the fraud. SARs are a valuable tool in 
identifying such networks but very often multiple SARs are associated 
with one group; therefore, these multiple SARs would be utilized to 
initiate one FBI investigation.
    The FBI does not track the quality or sufficiency of SAR data other 
than to assess whether they can be utilized for lead value and 
therefore incorporated into new or existing investigations. The FBI 
does not currently have a backlog of cases from SARs associated with 
the financial crisis.
               follow-up on deferred and non-prosecution
    Question. How does the FBI conduct follow-up on non-prosecution and 
deferred prosecution agreements to ensure that companies are making the 
necessary reforms?
    Answer. As elements of some deferred prosecution agreements (DPAs) 
and non-prosecution agreements (NPAs), companies are required to engage 
in remediation or compliance reforms. In such agreements, the 
Department of Justice includes a mechanism to ensure that companies may 
be taking the required actions. Generally speaking, this mechanism 
takes one of two forms: an independent compliance monitor who reports 
to the Department on a regular basis, or Department oversight, 
supported by mandatory self-reporting by the company on its efforts.
    As an example of a corporate monitorship, in a December 9, 2013 DPA 
resolving Foreign Corrupt Practices Act (FCPA)-related charges against 
Bilfinger SE (``Bilfinger''), Bilfinger agreed to retain a corporate 
monitor for not less than 18 months. The monitor's mandate under the 
DPA is to evaluate ``the effectiveness of the internal accounting 
controls, record-keeping, and financial reporting policies and 
procedures of the company as they relate to the company's current and 
ongoing compliance with the FCPA and other applicable anti-corruption 
laws[,]'' including an assessment of the executive board's and senior 
management's commitment to, and effective implementation of, the 
corporate compliance program imposed as part of the DPA. Furthermore, 
under the DPA, the monitor is required to consult regularly with, and 
disclose any violations of law to, the Department. If the monitor 
concludes that the company has not instituted effective reforms or has 
engaged in further misconduct, then the monitorship may be extended or 
other action taken. Otherwise, the monitorship ends at the conclusion 
of the 18 month period and, for the remaining 18 months of the DPA, 
Bilfinger is required to self-report to the Department in a manner 
consistent with that described below.
    As an example of oversight and self-reporting, in an April 9, 2014 
DPA resolving Foreign Corrupt Practices Act (FCPA)-related charges 
against Hewlett-Packard Polska, SP. ZO.O. (``HP Poland''), HP Poland is 
required to report to the Department annually during the 3-year term of 
the DPA regarding its ``remediation and implementation of the enhanced 
compliance measures'' that it agreed to undertake as part of the DPA. 
The Department, in its sole discretion, determines whether the terms of 
the DPA have been met. Pursuant to a reporting schedule established in 
the DPA, HP Poland is required to ``submit to the Department a written 
report setting forth a complete description of its remediation efforts 
to date, its proposals reasonably designed to improve the company's 
internal controls, policies, and procedures for ensuring compliance 
with the FCPA and other applicable anti-corruption laws, and the 
proposed scope of the subsequent reviews[,]'' which shall ``further 
monitor and assess whether the company's policies and procedures are 
reasonably designed to detect and prevent violations of the FCPA and 
other anti-corruption laws.'' Moreover, the DPA provides that, ``should 
the company discover any evidence or allegations of possible corrupt 
payments, false books and records, or the failure to implement or 
circumvention of internal accounting controls, including the existence 
of internal or external investigations into such conduct, the company 
shall promptly report such evidence or allegations to the Department.''
    Department prosecutors review the monitor reports and corporate 
self-reports, meet with the monitor and/or corporate representatives as 
appropriate to follow up on issues identified in the reports, and 
initiate further investigation where warranted. Under the terms of DPAs 
and NPAs, if the Department determines that a company has not made the 
required reforms, or has engaged in further misconduct, the Department 
has a range of options it may pursue, including but not limited to 
extending the terms of the DPA or NPA or declaring the company in 
breach of the DPA or NPA and instituting criminal prosecution against 
the company.
                               oig report
    Question. Has the FBI taken steps to raise the prioritization of 
mortgage and mortgage-related securities fraud within its various field 
offices?
    Answer. In its response to the OIG report, the Department noted 
that it has focused successfully on mortgage fraud violations. As the 
FBI data in the audit report itself reflects, the number of mortgage 
fraud convictions more than doubled from fiscal year 2009 to fiscal 
year 2010, i.e., from 555 to 1,087 convictions, and then increased 
further in fiscal year 2011 to 1,118 convictions. In addition, the 
Department concurred with all of the recommendations made by OIG 
including: ensure all agencies update online and other publicly 
available material related to the Distressed Homeowner Initiative; 
revisit results of Operation Stolen Dreams to determine if corrective 
action on publicly reported results is necessary; implement methodology 
for properly soliciting, collecting and reviewing information; revisit 
existing guidance on initiating mortgage fraud undercover operation; 
and develop a method to readily identify mortgage fraud criminal and 
civil enforcement efforts for reporting purposes.
    With respect to prioritization, in 2011, mortgage fraud was ranked 
as a priority area under the Criminal Investigative Division's Complex 
Financial Crime category. Not every type of fraud was ranked as a 
priority threat during this time period, which demonstrates that the 
FBI considered mortgage fraud to be among the most prominent financial 
crimes we faced at the time.
    We also recognize that the Inspector General contended that 
mortgage fraud was a low priority or not listed as a priority at 
various FBI Field Offices, including the Baltimore, Los Angeles, Miami, 
and New York offices. We note, however, that during the period covered 
by the audit, all threats were prioritized at the headquarters level, 
and that FBI field offices did not re-rank threats within their own 
geographical areas. As noted above, mortgage fraud was ranked as a 
priority threat, and the various field offices would have utilized that 
prioritization instead of coming up with their own rankings. Beginning 
in 2013, however, FBI field offices were required to rank their own 
threats based on domain assessments, ongoing intelligence collection 
and ultimately, with approval from FBI Headquarters. We can report that 
Baltimore, Los Angeles, Miami, and New York all rank mortgage fraud as 
a priority threat.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
              cyber security efforts with private industry
    Question. Given the growing cyber security threat facing our Nation 
and the challenges inherent in facilitating private industry reporting 
of attacks what is the FBI doing to facilitate participation in the 
EGuardian program?
    Answer. Uniquely tailored for the particular challenges of cyber, 
the ``Guardian for Cyber'' application expedites the triage and 
deconfliction of leads submitted from multiple sources, which are then 
immediately assigned and assessed by the FBI and other government 
agency (OGA) partners. The system now includes secure, cyber-specific 
incident submission portals that consolidate critical information 
provided by both law enforcement (eGuardian) and trusted industry 
stakeholders (iGuardian). This response provides information regarding 
engaging the private industry with iGuardian.
    The FBI's trusted industry partners have access to iGuardian, a 
secure method to report cyber intrusions and submit malware for 
analysis and feedback through the InfraGard Network. InfraGard is a 
partnership among the FBI and the private sector, educational 
institutions, local, State, and Federal Government organizations that 
are dedicated to protecting our national critical infrastructure by 
sharing information regarding both cyber and physical threats and 
vulnerabilities. InfraGard has a current active membership base of 
approximately 25,000 members.
    At the request of FBI's private industry partners, the FBI has 
presented iGuardian overviews to critical infrastructure associations, 
alliance councils, and conferences. The interest to join the iGuardian 
portal has been significant. From concept to development, the FBI has 
been working with these partners through a collaborative process to 
build a system to fulfill their needs. Every step of the way we have 
sought and incorporated private industry input.
    The FBI is executing an iGuardian pilot program with five cleared 
facilities and is scheduled to be launched through an enhanced portal 
on FBI.gov. Once launched, the FBI will initiate the process for 
industry to apply for access through FBI.gov. Additionally, the FBI is 
in the process of enhancing the portal to be utilized to report 
multiple hazards, to include Counterterrorism, Counterintelligence, 
Criminal, and Cyber.
    Question. Is this system open to all industries for reporting of 
cyber attacks? If not, what industries are participating? Is there a 
schedule to assimilate all industries into the system?
    Answer. The system is accessible to all industries through the 
FBI's InfraGard network. The enhanced iGuardian portal, to be used by 
general industry, in addition to InfraGard members, has been launched. 
Five large, cleared facilities have provided their assistance to the 
FBI in enhancing this portal and piloting its initiation. This will 
significantly expand the Federal Government's increased awareness of 
vulnerabilities in critical infrastructure networks, to better 
understand cyber-related threat vectors, and to facilitate a 
coordinated overall cyber incident response by the U.S. Government. The 
FBI anticipates the Defense Security Service (DSS) will support the 
iGuardian portal as a threat submission tool that could be used by all 
cleared facilities. This will satisfy numerous existing requirements 
described in the National Industrial Security Program Operating Manual 
(NISPOM), section 941, among others.
    The FBI is working as quickly as possible to fill the need to 
assimilate all industry into the iGuardian system, but there is no 
timeline established.
    Question. Are there currently any requirements for industry to 
report cyber attacks? If so, what are those requirements?
    Answer. The FBI is not aware of any requirement for industry to 
report to the FBI.
    Question. Do you have any way of knowing the percentage of attacks 
on each entity or industry that are actually reported?
    Answer. Due to the lack of required reporting by industry, the 
total number of cyber attacks made against entities and industries is 
unknown. Therefore, the Cyber Division cannot estimate the percentage 
of cyber attacks that are not reported to the FBI. However, based on 
data collected thus far, currently there are more than 4,100 reported 
incidents in Guardian categorized by sector, e.g. commercial sector, 
information technology, cleared defense contractors, Internet service 
providers, public health, financial services, education, and 
communications.
                             cyber security
    Question. Cyber security has topped the Director of National 
Intelligence's list of global threats for the second consecutive year. 
However, the FBI's mission prioritization does not seem to reflect the 
significance of the cyber threat we are facing. What's more, the budget 
request flat lines this growing threat. What reassurance can you give 
us that your mission prioritization is evolving with the threats our 
country is facing? Does this budget adequately resource the needs of 
the Bureau in key areas such as cyber security?
    Answer. Through the support of the Congress, the FBI received 
funding in fiscal year 2014 that ended the hiring freeze and allows FBI 
to start hiring again. The fiscal year 2014 hiring effort will include 
personnel who will be dedicated to cyber efforts. Additionally, the 
fiscal year 2014 appropriation included a program increase to support 
the Next Generation Cyber Initiative. These fiscal year 2014 resources 
are critical to enhancing the FBI's cyber capabilities in the face of 
the growing cyber threat. The fiscal year 2015 President's budget 
request includes funding to sustain the critical improvements and 
enhancements in cyber security provided in fiscal year 2014. Cyber 
Security remains an FBI priority in fiscal year 2015.
    The FBI's Cyber Division has developed and is implementing a new 
strategy, the Cyber Threat Team model, in which named threats are 
explicitly prioritized using an objective model, specialized teams of 
dedicated Field and HQ personnel are built for the highest priority 
threats, and detailed and explicit mitigation strategies are developed 
and implemented against these high priority threats.
                        hazardous devices school
    Question. Could you detail the training capacity of the Hazardous 
Devices School today? Specifically, the number of students that it can 
accommodate, the number of classes offered annually and the need that 
exists in terms of re-certifying bomb technicians?
    Answer. The current maximum throughput for the Hazardous Devices 
School (HDS) using the current curriculum is 1,214 students. HDS 
intends to operate at capacity in fiscal year 2015. In fiscal year 
2014, HDS is operating slightly below capacity due to cancellations in 
October 2013 during the lapse in appropriations, and will train 1,014 
bomb technician students in the following courses:
  --6 Bomb Technician Certification Courses (six weeks), instructing 24 
        students per class--(maximum capacity: 8 classes);
  --28 Bomb Technician Recertification Courses (one week, required 
        every 3 years for certified technicians), instructing 24 per 
        class--(maximum capacity: 30 classes);
  --1 Bomb Squad Commanders class for 30 students;
  --6 Stabilization Level III classes, with 12 students per class;
  --4 Advanced Electronic classes, with 12 students per class--(maximum 
        capacity: 6 classes); and
  --3 Electronic Countermeasure (ECM) classes, with 16 students per 
        class--(maximum capacity: 8 classes).
    Regarding the need for FBI's training at HDS, the FBI has 
approximately 1,300 students on the waiting list for its certification 
and/or recertification classes.
    Question. Is there an unmet training need in the bomb tech 
community and if so, are there sufficient resources in the budget 
request to meet that need? If not, please detail the unmet need and 
what additional resources would be required to do so.
    Answer. The Stabilization and Electronic Countermeasure (ECM) 
courses require the use of temporary duty FBI Special Agent Bomb 
Technician instructors, because the full-time instructor cadre at HDS 
is stretched to capacity to keep up with the certification and 
recertification course schedule. Also, HDS can only offer two 
operational classes at any given time because the school's equipment, 
vehicles, storage, and training facilities are used to capacity. At 
this time, there is an eleven-month waiting period for bomb technicians 
to attend the recertification course, a twelve-month backlog for the 
certification course, and a 6 to 7-month waiting list for the Advanced 
Electronics and ECM courses.
    As the domestic Improvised Explosive Device (IED) environment 
evolves, the need for advanced instruction to address sophisticated 
explosive device designs and attack methods continue to grow. Based on 
intelligence gathered from around the globe and exploited by the 
Terrorist Explosive Device Analytical Center (TEDAC), the FBI has 
developed several advanced courses for bomb technicians with a focus on 
standardized tactics, techniques, and render safe procedures (RSPs). 
These advanced courses focus on real, complex threats, such as vehicle-
borne, water-borne, and radio-controlled IEDs, suicide bombers, 
homemade or improvised explosives, weapons of mass destruction, and 
scenarios that require bomb technicians to operate side-by-side with 
tactical teams. Advancing FBI instruction at HDS is crucial to 
effectively meet the needs of the U.S. bomb technician community by 
teaching standardized operating procedures for bomb squads to defeat 
these threats. Central certification and curriculum development will 
also reduce training costs to both public safety bomb squads and the 
Federal Government. The FBI continues to evaluate resource needs and 
will work to expand the delivery of this advanced training to public 
safety bomb technicians within available resource levels.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                         online sex trafficking
    Question. Approximately how many FBI agents are designated to sex-
trafficking investigations?
    Answer. The FBI has more than 400 agents designated to 
investigations involving the abduction or disappearance of children, 
online sexual exploitation of children and the commercial sexual 
exploitation of children, i.e. sex trafficking of children.
    Question. How much funding is allocated to these sex-trafficking 
investigations?
    Answer. In fiscal year 2014, the FBI will spend approximately $107 
million on cases involving the abduction or disappearance of children, 
online sexual exploitation of children and the commercial sexual 
exploitation of children, i.e. sex trafficking of children. This amount 
includes both personnel and non-personnel resources.
    Question. What Web sites has the FBI identified as the leading Web 
sites for Internet sex trafficking?
    Answer. The FBI has identified more than 100 Web sites that cater 
to escort and sexual services advertisements. Many of these Web sites 
may focus on particular cities and/or regions, while others advertise 
escort and sexual services nationwide. In addition to these Web sites, 
social networking Web sites and dating Web sites are also being 
utilized to facilitate the advertisement of prostitution. For an 
advertisement offering a commercial sexual service to constitute 
Federal criminal sex trafficking, the victim induced to commit such 
conduct must either be under the age of 18 or an adult subjected to 
force, fraud, and coercion. Since the FBI does not want to promote the 
Web sites, specific Web site information will not be provided.
    Question. What is the FBI's determination of the percentage of ads 
posted on Backpage.com adult-services section is for prostitutes? What 
about other Web sites?
    Answer. Federal investigative resources are focused on eradicating 
sex trafficking, which occurs when children engage in commercial sex 
acts and when adults are compelled to engage in commercial sex acts 
through the use of force, fraud, or coercion. In the course of 
investigating sex trafficking, the FBI does review advertisements on 
Web sites for adult services. Through the course of that review, the 
FBI has determined a significant number of the advertisements posted on 
the adult-services section of identified Web sites are specific to 
prostitution. In addition to advertisements, many of these sites also 
offer review boards wherein active members can review and rate 
``prostitutes,'' discuss popular areas and venues for prostitution, and 
post intelligence of law enforcement activity and methodology. The 
volume of prostitution advertisements on social networking and dating 
Web sites is more difficult to quantify as the advertisements are 
embedded within user profiles and are not always accessible to law 
enforcement due to privacy measures implemented by the user. As for the 
advertisements posted on other Web sites specifically for escorts, the 
FBI has determined a significant number these advertisements are also 
specific to prostitution.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. The committee recesses and we'll 
reconvene in the Visitors Center.
    [Whereupon, at 10:48 a.m., Thursday, March 27, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]












  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Leahy, Landrieu, Shaheen, 
Merkley, Shelby, Collins, Murkowski, Graham, Kirk, and Boozman.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Chairwoman Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, and Science will come to order. And today, 
we will take testimony on the budget request from the 
Department of Justice.
    Today, we will be listening to the Attorney General, Eric 
Holder, testifying in behalf of the Justice Department, and, 
after that, we hope to hear from the Justice Department's 
Inspector General, Michael Horowitz, on important oversight 
issues. This is a subcommittee, not only of making sure we 
spend the right money in the right way, but also to make sure 
we have the wonderful advice of an Inspector General.
    We want to alert everyone, though, there could be the 
possibility of votes beginning at 11:30 a.m., so we're going to 
kind of move it.
    This hearing today is one of 60 hearings in 6 weeks, where 
we're doing very due diligence in taking a look at the request 
from these agencies and the President's budget.
    Today, we really take testimony from, I think, one of the 
most important agencies in the government constellation, the 
Department of Justice, who really has a very key job in making 
sure they keep America safe and--whether it's from Federal law 
enforcement, Federal prosecution, terrorism, but also the 
enforcement of other issues, the important enforcement of white 
collar crime, whether it's antitrust or mortgage fraud, to also 
civil rights and hate crimes. It is the Department of Justice; 
it is not the Department of Anti-Crime. And we're really proud 
of them.
    Mr. Attorney General, we want you to know we really salute 
the 112,000 employees who work for Justice--the 25,000 Federal 
agents, the roughly 18,000 prison guards and correctional 
staff, the 13,000 prosecutors and investigators, and those 
wonderful support staff, you know the GS-5, -7s, and -9s that 
really keep the government going. While you and I might get the 
headlines, they make sure that they keep it all going.
    We know we've had an amazing year. The marshals have 
arrested over 11,000 fugitive sex offenders; the FBI has 
dismantled 421 criminal enterprises; the DEA, 3400 drug-
trafficking organizations out of business and charged; and the 
U.S. Attorneys with charging over 83,000 defendants in criminal 
court--all that while facing sequester and slam-down government 
shutdown.
    So, just imagine, now, what you can do with certainty in 
funding. Under the Murray-Ryan budget, we have canceled 
sequester for 2014 and for 2015. We have our top line. So, we 
now want to really take a look at what your requests are.
    And my goals for the hearing are three priorities: 
community security, in terms of State and local, of course 
national security; oversight and accountability, in terms of 
spending dollars wisely; and to uphold the rule of law, protect 
civil liberties and communities.
    There is a request in here for $2.2 billion for State and 
local government that puts cops on the beat, puts away child 
abusers, processes rape kits, all of those things at the local 
level, and we will be getting your views and insights about how 
those partnerships are working and what, through the funding 
process, we can actually strengthen them to get better results 
and better enforcement. We also want to know that that thin 
blue line in the local community that protects us, like our 
local police officers, have the equipment that they need.

                           BUREAU OF PRISONS

    We also want to take a look at the issues related to our 
prisons. We know that you are leading a review on appropriate 
sentencing and how we can reduce the prison population without 
increasing risk to our communities. And you've looked at 
everything from compassionate parole for those prisoners that 
are now in their 70s and 80s to other creative things. We'd 
like to hear about that, but we also want to talk about what it 
is that we need to fund our prisons, and we need to make sure 
that we keep our prison guards safe.
    We met with the family and other correction officers 
related to Eric Williams, who was one of our prison guards 
murdered in a Federal penitentiary in Pennsylvania. It was just 
wrenching to hear what they do. They have ideas that they need 
for training, what they need to carry in the prisons, how they 
have to keep themselves safe with increasing violent criminals 
and increasingly mentally ill prisoners. So, we'd like to hear 
your thoughts on that.

                        BOSTON MARATHON BOMBING

    About this time last year, we were all gripped with the 
Boston Marathon. It really showed us how important national 
security is, that national security isn't in the Crimea or in 
the Middle East or in Iraq and Afghanistan, it was in the 
streets at the Boston Marathon. We had Marylanders injured. One 
our really beloved preschool teachers lost her leg there, 
cheering her mother on. They're back in Boston, and she's back 
on her feet. But, we want to make sure that never happens 
again. And we'd like your views on what we can do, in terms of 
national security.

                             CYBER SECURITY

    The other threat is cyber security. Mr. Attorney General, I 
hope you could join with us in drawing the distinction between 
cyber security and surveillance. As you know, a lot of people 
are spooked because of the Snowden revelations. And they talk 
about 2/15. I will tell you, my constituents are spooked by 
cyber security. If you go into a Target, and you go into a 
Michael's, the famous crafts store--some even go into Nieman 
Marcus--but, most of all, most of America is in places like 
Target, and the cybersecurity breach has been phenomenal. The 
cybersecurity breach now at universities, my own University of 
Maryland, Hopkins, they, themselves, that are really prime-time 
schools, now are hacking, stealing identities, stealing 
everything. So, from stealing our trade secrets to the kind of 
thing that's going on, we need to know, what do we need to do 
and what are the resources in cyber security?
    Every day, we count on the Justice Department to fulfill 
its mission and to protect our lives and protect our way of 
life, and to protect our Constitution. We need to hear from you 
what is the right funding that we need to make sure we do 
justice to the Justice Department.
    I now turn to my Vice Chairman, Senator Shelby, a very 
strong advocate of--in national security and also in supporting 
our local law enforcement. And we're particularly appreciative 
of his efforts in behalf of women and children.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chair.
    Welcome to the committee, again, Attorney General Holder.
    Today, we will hear from Attorney General Holder about the 
Department of Justice's 2015 budget request. Michael Horowitz, 
the Department's Inspector General--as the Chairperson has 
already said, will testify about his work and the difficulties 
he has encountered in executing his oversight responsibility. 
Today, I welcome you both.

                        FISCAL YEAR 2015 BUDGET

    The 2015 budget request for the Department of Justice 
totals $27.4 billion. I'm concerned that, while the 
Department's 2015 budget purports to recognize the multifaceted 
nature of the Department's work, it fails to truly prioritize 
anything but the administration's pet projects. Programs such 
as Smart on Crime, Now is the Time, and nearly 12 new grant 
programs, I believe take center stage. Meanwhile, law 
enforcement and national security priorities, the main mission, 
central mission, of the Department, I believe take a backseat. 
This approach is evident in the indiscriminate cuts required of 
nearly every component within the Department of Justice.
    The 2015 budget requires cuts totaling more than $500 
million. These cuts are characterized as miscellaneous program 
and administrative reductions, and will be identified once 
funds are appropriated. In short, it is the Department's own 
version, I believe, of an arbitrary sequester.
    Mr. Attorney General, Congress made a conscious decision to 
return to regular order, in part to put a stop, as you know, to 
indiscriminate cuts that your budget requires. A budget 
proposal that uses smoke and mirrors does not provide a stable 
foundation to safeguard national security, reduce violent 
crime, prosecute criminals, or support our State and local 
partners. It calls into question the Department's commitment to 
these requirements.
    I do not support the approach this budget has taken, and I 
look forward to working with you, Madam Chair, to ensure that 
Department of Justice is appropriately funded to carry out its 
central, its important, missions.

                           INSPECTOR GENERAL

    I also want to touch briefly on a topic of concern that the 
Chairperson has already mentioned and that directly impacts the 
Inspector General's ability to conduct much-needed oversight of 
the Department of Justice.
    Since arriving in 2012, Mr. Horowitz has worked diligently 
to investigate a myriad of trouble spots. Throughout the course 
of these investigations, however, the Inspector General 
encountered significant roadblocks. Specifically, he has not 
been provided unfettered access to materials essential to 
ongoing investigations and audits, unless the Attorney General 
approves that.
    Think about that. This is the Inspector General. You should 
provide him the material to see what's going on in your 
Department, good and bad.
    I strongly believe that the work of the Inspector General 
is essential to well-functioning government agency. They are 
independent and should not be encumbered by individuals in 
positions of power, even the Attorney General of the United 
States.
    Mr. Attorney General, yesterday the Chair and I sent you a 
letter on this matter. We expect that you will move swiftly to 
address our questions and resolve this controversy. But, 
without an independent Office of Inspector General that can 
truly carry out its oversight responsibilities, I'm concerned 
that the honesty and the integrity of the whole Department 
could be called into question. And that's something none of us 
want.
    Madam Chair, I thank you for your time, and I look forward 
to hearing more from the Attorney General and also the 
Inspector General.
    Thank you.
    Chairwoman Mikulski. Senator Collins, did you want to say 
anything, or do you want to go right to the testimony?
    Senator Collins. Madam Chair----
    Chairwoman Mikulski. You're welcome to do what you choose.
    Senator Collins [continuing]. Thank you very much.
    First of all, I want to welcome the Attorney General to the 
subcommittee today which has such great leadership on both 
sides of the aisle.
    I'm going to be directing my questions to you today on 
several topics. One has to do with our broken asylum-granting 
system, which the Department of Justice has jurisdiction with 
the Department of Homeland Security over. Another is the 
testing of the boundaries of executive power by this 
administration; in particular, the aggressive position the 
administration has taken with regard to the President's 
enforcement discretion. And third, I hope that--if you don't do 
so in your testimony, I will be asking you for an update on the 
Department of Justice's activities to bring to justice the 
attackers in the Benghazi case.
    So, thank you, Madam Chair.
    Chairwoman Mikulski. Mr. Attorney General.

                SUMMARY STATEMENT OF ERIC H. HOLDER, JR.

    Attorney General Holder. Well, good morning, and thank you, 
Chairwoman Mikulski, Ranking Member Shelby, Senator Collins, 
Senator Kirk, other distinguished members of the subcommittee. 
I want to thank you for the opportunity to appear before you 
today to discuss the President's fiscal year 2015 budget for 
the Justice Department and to provide an overview of the 
Department's recent achievements and ongoing priorities.
    Now, as we convene this morning, I know that we're all 
mindful of yesterday's mass shooting at Fort Hood. I am being 
regularly briefed on the situation, and I have directed that 
the full resources of the Department of Justice, and, in 
particular, the FBI, be made available to ensure the security 
of everyone on that base. We will work with local officials and 
the Department of Defense to provide assistance to those who 
need it and to help conduct a full and thorough Federal 
investigation.
    As this investigation unfolds and as we work to determine 
exactly what happened, and why, my thoughts and prayers will be 
with all those whose lives have been impacted by this terrible 
tragedy, and with the entire Fort Hood community, which has 
displayed such extraordinary strength and resilience since the 
horrific events of nearly 5 years ago.
    As President Obama said yesterday, it is heartbreaking that 
something like this has happened again. And we owe it to all of 
our men and women in uniform, and also to their families, to 
see that justice is done, to ensure that they are safe here at 
home, and to do everything in our power to prevent these too 
common tragedies from happening again.
    My colleagues and I are firmly committed to doing just 
that, and we are determined to continue building upon the 
exceptional work, I think, that the Justice Department 
employees have performed over the past year. Going forward, 
your support will enable us to build on the results that my 
colleagues have obtained, and to perform the vital mission with 
which we are entrusted.
    Many of our accomplishments over the past year are notable, 
and even historic, but none have been more important than our 
ongoing work to protect the American people from terrorism and 
other threats to our national security. Just last week, the 
Department achieved a major milestone when we secured the 
conviction of Sulaiman Abu Ghaith, the son-in-law of Osama bin 
Laden and a senior member of al-Qaeda, on terrorism-related 
charges. This verdict has proven that proceedings such as these 
can safely occur in the city that I am proud to call home, as 
in other locations across our great Nation. It was appropriate 
that this defendant, who very publicly rejoiced over the 
attacks on the World Trade Center, faced trial in the shadow of 
where those buildings once stood. We never doubted the ability 
of our Article III court system to administer justice swiftly 
in this case, as it has in hundreds of other cases involving 
terrorism defendants. And this outcome vindicates, I believe, 
the government's approach to securing convictions of senior al-
Qaeda leaders. It would be a good thing, I believe, for the 
country if this case has the result of putting that political 
debate to rest.
    The President's budget request would strengthen our 
national security work by investing a total of $4 billion in 
the Department's cutting-edge counterterrorism and national 
security programs, including 1.5 million to maintain and 
operate the FBI's new Terrorism Explosive Device Analytic 
Center facility in Alabama. The fiscal year budget also would 
invest in other key priorities, providing $273 million to 
bolster the Department's vigorous enforcement of Federal civil 
rights laws, including $8 million in new resources. It would 
also allocate $1.1 billion to support the administration's work 
to reduce gun violence. It would enhance the Department's 
ability to combat heinous crimes, like human- and sex-
trafficking, as well. And it would provide $173 million to 
support our efforts to strengthen the Federal criminal justice 
system as a whole through the groundbreaking Smart on Crime 
initiative that was announced last August.
    Now, this initiative comprises a range of targeted 
commonsense reforms, including modification to the Department's 
charging policies with regard to mandatory minimum sentences 
for certain nonviolent, low-level drug crimes, along with a 
renewed focus on evidence-based diversion, rehabilitation, and 
reentry programs. The fiscal year 2015 budget would sustain 
investments in the Bureau of Prisons reentry programs, 
including the Residential Drug Abuse Program, residential 
reentry centers, and reentry-specific education programs. These 
and other proven programs will help to make our criminal 
justice system not only more effective, but also, by freeing up 
resources for police and prosecutors as well as other vital law 
enforcement priorities, make our system significantly more 
efficient. And this, in turn, would enable us to further invest 
in the outstanding work that's performed every day by dedicated 
attorneys and support staff in each of the Department's 
litigating divisions and United States Attorneys' offices.

          CIVIL AND CRIMINAL FINES, PENALTIES, AND SETTLEMENT

    Thanks to their efforts during the fiscal year ending in 
2013, the Justice Department collected a total of more than $8 
billion in civil and criminal fines and penalties. And this 
represents more than double the approximately $3 billion in 
direct appropriations that pay for our 94 U.S. Attorneys' 
offices and main litigating divisions.
    During fiscal year 2012 and fiscal year 2013, the 
Department collected a combined total of more than $21 billion, 
a record amount for a 2-year span, and we've obtained a series 
of historic resolutions and taken other significant actions to 
ensure that we're serving as sound stewards of taxpayer dollars 
and protecting American consumers from fraud and other 
financial crimes.
    Last November, the Justice Department secured a $13 billion 
settlement with JPMorgan Chase & Company, the largest 
settlement with a single entity in the history of the United 
States, to resolve Federal and State civil claims related to 
the company's mortgage securitization processes.
    As part of our ongoing efforts to hold accountable those 
whose conduct sowed the seeds of the mortgage crisis, the 
Department also filed a lawsuit against the ratings firm S&P; 
and, with a $1.2 billion agreement that we reached with Toyota 
just last month, again the largest criminal penalty ever 
imposed on an automotive company, we're making good on our 
determination to protect consumers and to address fraud in all 
of its forms.

                           PREPARED STATEMENT

    I'm very eager to work with this subcommittee and with the 
entire Congress to build on these and other successes and to 
secure the timely passage of the President's budget request, 
which provides a total of $27.4 billion in discretionary 
resources for the Department of Justice, including $25.3 
billion for vital Federal programs and $2.1 billion for State, 
local, and tribal assistance programs, as well. This level of 
support will be essential to ensuring that we can continue to 
protect the American people and take important actions to 
strengthen our criminal justice system.
    I want to thank you once again for this opportunity to 
discuss this work with you today, and I'd be happy to answer 
any questions that you might have.
    Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Eric H. Holder, Jr.
    Good morning, Chairwoman Mikulski, Vice Chairman Shelby, and other 
distinguished members of the subcommittee. Thank you for the 
opportunity to appear before you today to highlight the President's 
fiscal year 2015 budget for the U.S. Department of Justice--and to 
discuss the Department's recent achievements and future priorities. I 
would also like to thank you for your leadership in securing the 
passage of the Consolidated Appropriations Act for fiscal year 2014, 
which restores Justice Department funding to pre-sequestration levels--
and even adds funding for key priorities.
    In February, as a result of the fiscal year 2014 appropriation, I 
was able to lift the Department-wide hiring freeze that had been in 
place for over 3 years, and had resulted in the loss of over 4,000 
employees. We are now able to fill critical vacancies and resume the 
normal hiring process for Federal agents, prosecutors, analysts and 
other staff we need to fulfill our varied missions, including: 
protecting the American people from terrorism and other national 
security threats; combating violent crime; eradicating financial fraud; 
and safeguarding the most vulnerable members of society.
    Across the board, I'm extremely proud of the exceptional work that 
Justice Department employees perform on a daily basis, despite 
escalating threats and challenges. They are a credit to the Department, 
to our Nation, and to the American people we are privileged to serve. 
Like you, I am committed to securing the resources and support the 
Department of Justice (DOJ) employees need to carry out their important 
duties--and to keep advancing the cause of justice that remains our 
common pursuit.
    The resources provided this fiscal year will help us carry out our 
critical law enforcement responsibilities and enhance public safety. 
The President's fiscal year 2015 budget request builds on the funds 
provided in fiscal year 2014 that are vital to thwarting sophisticated 
adversaries, protecting our citizens from gun violence and other types 
of crime, and maintaining safe and secure operations throughout the 
Federal correctional system.
    The President's fiscal year 2015 budget requests $27.4 billion in 
discretionary resources for the Department, including $25.3 billion for 
Federal programs and $2.1 billion for discretionary State, local, and 
tribal assistance programs. This represents a 0.4 percent increase over 
the fiscal year 2014 enacted level and allows the Department to 
continue its trajectory towards fiscal and operational health. More 
specifically, the President's fiscal year 2015 budget request:

  --Invests in criminal justice reform. The budget invests $173 million 
        in my ``Smart on Crime'' initiative, which is designed to 
        promote reforms to the criminal justice system that will 
        improve public safety, save money, and ensure the fair and 
        effective enforcement of Federal laws.
  --Invests in Federal civil rights enforcement. To help meet the 
        Nation's civil rights challenges, the fiscal year 2015 budget 
        invests a total of $273 million, including $8 million in new 
        resources, to support the Department's enforcement of Federal 
        civil rights laws, including laws on human trafficking, hate 
        crimes, disability rights, and many others.
  --Maintains critical counterterrorism and counterespionage programs, 
        as well as intelligence gathering and surveillance 
        capabilities. The budget invests a total of $4 billion to 
        sustain recent increases that support national security 
        investigations, including an enhancement of $15 million to fund 
        the costs of the Federal Bureau of Investigation's (FBI) new 
        Terrorist Explosive Device Analytical Center--or TEDAC--at 
        Redstone Arsenal in Alabama.
  --Supports the administration's initiative to reduce gun violence. 
        The budget invests a total of $1.1 billion in Federal and grant 
        programs in support of the President's ``Now is the Time'' 
        initiative, which includes $182 million to sustain investments 
        provided in fiscal year 2014. These resources will help ensure 
        that those who are not eligible to purchase or possess guns are 
        prevented from doing so. In addition, the request delivers 
        grant funding to continue the Comprehensive School Safety 
        Program, to encourage the development of innovative gun safety 
        technology, and to provide training for active shooter 
        situations.
  --Enhances efforts to combat and keep pace with increasingly 
        sophisticated and rapidly evolving cyber threats. Cybercrimes 
        are becoming more common, more sophisticated, and more 
        dangerous. The President's budget invests a total of $722 
        million, including $8 million in enhancements to Federal 
        programs and grants, to address computer intrusions and 
        cybercrimes and defend the security of the Department's 
        critical information networks.
  --Substantially improves the ability to provide legal assistance to 
        foreign law enforcement partners. In order to better assist 
        foreign government partners with investigating and prosecuting 
        criminals, the budget invests an additional $24 million to 
        reduce the current backlog of Mutual Legal Assistance Treaty 
        requests, to process requests in a matter of weeks, and to cut 
        overall response times in half by the end of 2015.
  --Sustains financial fraud law enforcement efforts. The budget 
        invests a total of $681 million in the Department's ongoing 
        efforts to investigate and prosecute mortgage fraud and 
        financial schemes that harm the American people and our 
        financial markets.
  --Strengthens enforcement of immigration laws and addresses the 
        immigration case backlog. To help increase efficiency in the 
        immigration courts, the budget requests enhancements of $23 
        million in order to add 35 new Immigration Judge Teams and 15 
        new Board of Immigration Appeals attorneys and to expand the 
        successful Legal Orientation Program as well as a pilot program 
        to implement additional efficiencies in the immigration program 
        overall.
  --Maintains safe and secure prison capacity. The budget provides $8.5 
        billion to maintain secure, controlled Federal prison and 
        detention facilities and to continue bringing newly completed 
        or acquired prisons on-line in order to protect public safety 
        by alleviating prison crowding. Further, the budget includes 
        resources to support implementation of the Prison Rape 
        Elimination Act in Federal, State, and local prisons and jails, 
        and to help inmates successfully transition back into their 
        communities.
  --Enhances State, local, and tribal law enforcement programs. In 
        total, the fiscal year 2015 budget requests $3 billion in 
        mandatory and discretionary funds for State, local and tribal 
        law enforcement assistance. These funds will allow the 
        Department to continue to support our State, local and tribal 
        partners who fight violent crime, combat violence against 
        women, and support victim assistance programs. The fiscal year 
        2015 request will bolster the Department's efforts to ensure 
        that Federal grant funding flows to evidence-based purposes and 
        helps to advance knowledge of what works in State and local 
        criminal justice systems.

    In addition, the fiscal year 2015 budget proposes additional 
discretionary investments as part of the Administration's Opportunity, 
Growth and Security Initiative. This initiative targets investments for 
State and local assistance grants, such as the Comprehensive School 
Safety Program and a new youth investment program; resources to speed 
up the process of bringing online newly completed or acquired prisons; 
and funding for the investigation and prosecution of the full spectrum 
of financial fraud.
    The fiscal year 2015 budget recognizes the multi-faceted nature of 
the Department's work and outlines spending priorities for critical 
mission areas. We must continue to grow both tougher and smarter on 
crime. This budget builds on the great work being done by the dedicated 
employees of the Department across the country and around the world to 
reduce violent crime and reform our criminal justice system.
                       becoming smarter on crime
    Just over 1 year ago, at my direction, the Justice Department 
launched a targeted review of the criminal justice system in order to 
identify reforms that would ensure Federal laws are enforced fairly and 
efficiently. In 2013, as part of this review, the Department studied 
all phases of the criminal justice system, including charging, 
sentencing, incarceration and reentry, to identify the practices that 
are successful at deterring crime and protecting the public.
    Today, a vicious cycle of poverty, criminality, and incarceration 
traps too many Americans and weakens too many communities. While we 
will continue to aggressively enforce Federal criminal statutes, we 
recognize that we cannot arrest and incarcerate our way to becoming a 
safer nation. To be effective, Federal efforts must also focus on other 
critical aspects of criminal justice, including prevention and reentry.
    With that in mind, the budget requests $173 million in support of 
the Department's efforts to promote alternatives to incarceration for 
people convicted of low-level, non-violent drug offenses, and invests 
in reentry programs in order to reduce recidivism among formerly 
incarcerated individuals. Each dollar spent on prevention and reentry 
at the Federal, State and local levels has the potential to save far 
more in incarceration costs.
          safeguarding the most vulnerable members of society
    Last month, I had the privilege of attending a celebration 
commemorating the upcoming 50th anniversary of the Civil Rights Act of 
1964 alongside many esteemed jurists, public servants and public safety 
officials. In the years that followed adoption of this landmark 
legislation, this struggle--to secure what President Johnson once 
called the ``dignity of man and the destiny of democracy''--would lead 
to the passage of the Voting Rights Act of 1965 and a range of other 
reforms, both large and small. Together, these changes altered the 
course of the 20th century. Moreover, they led the Department of 
Justice to take an active role in defending the civil rights to which 
everyone in this country is entitled--work that remains among our top 
priorities today.
    Since 2009, the Civil Rights Division has filed more criminal civil 
rights cases than at any other time in our history, including record 
numbers of police misconduct and human trafficking cases. Under the 
leadership of our Civil Rights Division and our Community Relations 
Service (CRS), we are using important tools like the Matthew Shepard 
and James Byrd Jr. Hate Crimes Prevention Act to prevent and respond to 
hate crimes on behalf of those who are victimized because of who they 
are, what they look like, or who they love. Under the leadership of the 
Civil Division, we are working diligently with our Federal agency 
partners to implement the Supreme Court's ruling in United States v. 
Windsor to make real the promise of equal protection under the law for 
all American families--and to extend applicable Federal benefits to all 
married same-sex couples. And we are vigorously enforcing Federal 
voting protections to help ensure that every eligible American has 
access to the franchise.
    The fiscal year 2015 budget will support the Department's 
appropriately aggressive enforcement of Federal civil rights laws in 
all of these areas, in addition to fair housing, fair lending, and 
disability rights, among many others. In total, the request seeks $273 
million to help meet the Nation's civil rights challenges, including an 
additional $8 million in program increases for the Civil Rights 
Division and CRS.
   protecting the american people from terrorism and other national 
                            security threats
    As I have said many times before, the Department's top priority 
must always be the protection of the American people from terrorism and 
other national security threats. The fiscal year 2015 budget provides a 
total of $4 billion in direct funding to maintain critical 
counterterrorism, counterespionage, intelligence collection, and 
national security oversight programs. In addition, the budget sustains 
recent increases that support national security investigations. The 
fiscal year 2015 budget also requests a $15 million program increase to 
fund the cost of operations and maintenance of the FBI's new TEDAC 
facility at Redstone Arsenal in Huntsville, Alabama, which will become 
operational in late 2014. TEDAC provides direct support to U.S. 
Government efforts to prevent and mitigate improvised explosive device 
attacks both in the United States and abroad, and has already provided 
critical assistance to domestic and international cases, including last 
year's Boston Marathon bombing.
    The FBI uses intelligence and investigations to combat national 
security threats and protect and defend the United States against 
terrorism and foreign intelligence threats. In fiscal year 2013, the 
FBI dedicated approximately 4,500 agents to investigating more than 
18,000 national security cases.
    The National Security Division (NSD) is responsible for overseeing 
terrorism investigations and prosecutions; handling counterespionage 
cases and matters; and assisting the Attorney General and other senior 
department and executive branch officials in ensuring that the national 
security-related investigations and activities of the United States are 
consistent with the Nation's laws and regulations, including those that 
protect privacy interests and civil liberties. In coordination with the 
FBI, the Intelligence Community, and the U.S. Attorneys' Offices, NSD's 
primary operational functions are to prevent acts of terrorism and 
espionage inside the United States and to facilitate the collection of 
information regarding the activities of foreign powers and their 
agents.
    The Department has had many noteworthy successes on the national 
security front. We have continued to: strengthen key intelligence-
gathering capabilities; refine our ability to identify and disrupt 
potential terrorist plots; and ensure that those charged with 
terrorism-related offenses are held accountable to the fullest extent 
of the law. From the recently-unsealed guilty plea of Ahmed Abdulkadir 
Warsame, a former senior al-Shabaab commander and emissary to al-Qaeda 
in the Arabian Peninsula, on charges of terrorism, to the extraordinary 
and highly-coordinated FBI-led response to last year's Boston Marathon 
bombing, the Department and its law enforcement allies have 
relentlessly worked to secure the American homeland and bring those who 
would harm our people to justice. In fact, just last week, the 
Department achieved a major milestone when we secured the conviction of 
Sulaiman Abu Ghayth, the son-in-law of Usama bin Laden and a senior 
member of al Qaeda, on terrorism-related charges.
    This verdict has proven that proceedings such as these can safely 
occur in the city I am proud to call home, as in other locations across 
our great Nation. It was appropriate that this defendant, who publicly 
rejoiced over the attacks on the World Trade Center, faced trial in the 
shadow of where those buildings once stood. We never doubted the 
ability of our Article III court system to administer justice swiftly 
in this case, as it has in hundreds of other cases involving terrorism 
defendants--and this outcome vindicates the Government's approach to 
securing convictions of senior al Qaeda leaders. It would be a good 
thing for the country if this case has the result of putting that 
political debate to rest.
    In addition to its national security work, the Department has 
successfully executed ground-breaking counterintelligence operations to 
safeguard sensitive U.S. military and strategic technologies and keep 
them from falling into the wrong hands. In February, Robert Patrick 
Hoffman II, a cryptologic technician with the Navy, was sentenced to 30 
years in prison for attempting to commit espionage on behalf of the 
Russian Federation against the United States. Working aboard or in 
conjunction with U.S. submarines for much of his naval career, Hoffman 
held security clearances and regularly received access to classified 
national defense information about U.S. submarines and their 
capabilities, and about adversaries, specific missions, and U.S. 
military and naval intelligence. Hoffman supplied to undercover FBI 
agents, among other things, national defense information classified at 
the levels of Secret and Top Secret/Sensitive Compartmented 
Information. By attempting to hand over some of America's most closely 
held military secrets, Hoffman put U.S. servicemembers and this country 
at risk.
    National security threats are constantly evolving, requiring 
significant resources to adapt to those threats. However, as President 
Obama noted in a speech at the Justice Department earlier this year, it 
is imperative that we continue working to protect our national security 
while upholding the civil liberties we all hold dear. In January, we 
and our partners in the Intelligence Community took a significant step 
toward fulfilling the President's commitment to greater transparency by 
permitting communications providers to disclose more information than 
ever before about the number of national security orders and requests 
they receive and the number of customer accounts targeted under those 
orders and requests. And as we move forward with the timely 
implementation of other reforms, my colleagues and I remain committed 
to working closely with Congress to implement the President's 
transparency directives and determine the best path forward for these 
programs.
   improving our ability to implement and enforce gun safety measures
    Gun violence has touched every State and locality in America, and 
addressing this epidemic remains a high priority for the Department. In 
2013, following the Newtown, Connecticut, school shootings, the 
administration proposed a range of legislative remedies to address mass 
shootings and reduce gun violence. The Department is working to 
implement a number of these actions and requests a total of $1.1 
billion in fiscal year 2015 to address violent gun crimes.
    Of the total, $1 billion in Federal law enforcement resources will 
allow the Department to ensure that those who are not eligible to 
purchase or possess guns are prevented from doing so. Within this 
amount, $182 million is included for the President's ``Now is the 
Time'' initiative to support additional background checks, allow for 
continued focus on inspections of federally-licensed firearms dealers, 
improve tracing and ballistics analysis, and keep guns out of the hands 
of dangerous criminals and other prohibited persons. The Department 
also has been working to strengthen the national background check 
system. For example, in January 2014, the Department proposed a rule to 
clarify the definition of persons prohibited for mental health reasons 
from receiving, possessing, shipping, or transporting firearms. 
Further, an additional $13 million is provided to the FBI to sustain 
the substantial investment made in the National Instant Criminal 
Background Check System (NICS) in fiscal year 2014.
    The Department is also taking a hard look at our Federal laws and 
our enforcement priorities to ensure that we are doing everything 
possible at the Federal level to keep firearms away from drug 
traffickers and other criminals. To support the enforcement of Federal 
laws, the Department is requesting an additional $22 million for the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), which will 
allow ATF to sustain the firearms enforcement and inspection efforts 
funded in fiscal year 2014.
    The budget also requests $147 million to help State and local 
governments continue to implement the administration's proposals for 
increasing firearms safety and supporting programs that help keep 
communities safe from mass casualty violence. In addition to the FBI's 
role with the Federal side of NICS, the Department is working to 
strengthen national background checks by addressing gaps in the State 
records currently available in NICS. Incomplete or insufficient records 
significantly hinder the ability of NICS to quickly confirm whether a 
prospective purchaser is prohibited from acquiring a firearm. In fiscal 
year 2015, the Department requests a total of $55 million in grant 
funding to further assist States in making more records available in 
NICS and enhancing the National Criminal History Improvement Program.
    Beyond keeping guns out of the wrong hands, we also want to help 
those on the ground prevent and mitigate violent situations when they 
do occur. To this end, the Office of Justice Programs (OJP), with the 
support of the FBI, will be providing a specialized training course for 
active shooter situations for law enforcement officers, first 
responders, and school officials. The Department is requesting a total 
of $15 million to support this training and other officer safety 
initiatives. In addition, the Department is requesting $75 million in 
grant funding for the Comprehensive School Safety Program, which was 
funded for the first time in fiscal year 2014. Finally, the budget 
includes $2 million for OJP to support the administration's challenge 
to the private sector to develop innovative and cost-effective gun 
safety technology. The funding for this initiative will provide prizes 
for those technologies that are proven to be reliable and effective.
 investigating cybercrime and protecting our nation's critical networks
    Like other national security threats, cyber threats are constantly 
evolving and require a coordinated and comprehensive plan for 
protection and response. The Department has a unique and critical role 
in cyber security that emphasizes domestic mitigation of threat actors 
and involves countering the threat by investigating and prosecuting 
intrusion cases, gathering intelligence in support of nation state 
attribution, and providing legal and policy support to other agencies. 
The Department is also responsible for establishing effective internal 
network defense and serving as a model for other departments and 
agencies.
    The fiscal year 2015 budget provides a total of $722 million for 
cyber enforcement and maintains recent increases for NSD's 
prosecutorial efforts and the FBI's Next Generation Cyber Initiative, 
which has enhanced capabilities to combat cyber threats from 
individuals, organized groups and rogue actors. The request also 
includes an increase of $3 million for the Criminal Division to 
strengthen its investigative and prosecutorial capabilities, and $5 
million to provide grants related to cybercrime and intellectual 
property enforcement.
    The Department is committed to carrying out its cyber security 
role, emphasizing intelligence and information sharing as well as the 
preservation of privacy, data confidentiality, and civil liberties. The 
administration is working to improve Government mechanisms for 
providing timely cyber threat information to the private sector so it 
can better protect and defend itself against cyber threats. Pursuant to 
an Executive Order on Improving Critical Infrastructure Cybersecurity, 
each Federal department and agency is also required to develop and 
implement privacy and civil liberties safeguards in concert with its 
cyber security activities.
    And although we work tirelessly to bring cyber criminals to 
justice, we need additional tools to strengthen the Justice 
Department's ability to combat crime and ensure individual privacy. 
I've recently called on Congress to create a strong national standard 
for quickly alerting consumers whose personal identifying information 
may be compromised. This would empower the American people to protect 
themselves if they are at risk of identity theft. It would enable law 
enforcement to better investigate these crimes. And it would hold 
compromised entities accountable when they fail to keep sensitive 
information safe. I hope I can count on your support.
     improving collaboration with foreign law enforcement partners
    Criminal activity transcends national boundaries, requiring the 
United States and its foreign partners to cooperate in the provision of 
evidence and the extradition of persons. Mutual Legal Assistance Treaty 
(MLAT) requests are the formal way in which countries request 
assistance in obtaining evidence located in a foreign country for 
criminal investigations and proceedings located in another country. 
However, delays and difficulties in obtaining evidence, especially 
Internet records, through the MLAT process are increasingly becoming a 
source of frustration for many of our foreign partners.
    Continued delays in producing this type of information to our 
foreign counterparts could reduce their compliance with U.S.-initiated 
MLAT requests and their cooperation with U.S. law enforcement agencies, 
thus hampering our ability to investigate crime and prosecute 
criminals. In his January speech on the review of signals intelligence, 
the President stated that he ``will devote the resources to centralize 
and improve the process we use to handle foreign requests for legal 
assistance, keeping our high standards for privacy while helping 
foreign partners fight crime and terrorism.'' Pursuant to the 
President's commitment, the Department is leading an interagency effort 
to update, improve, and accelerate the handling of requests from 
foreign governments for evidence requested pursuant to MLATs.
    Over the past decade, the number of requests for assistance from 
foreign authorities handled by the Criminal Division's Office of 
International Affairs has increased nearly 60 percent, and the number 
of requests for computer records has increased 10-fold. While the 
workload has increased dramatically, our ability to handle them has not 
kept pace. The Department's fiscal year 2015 budget requests a total of 
$44 million, including an increase of $24 million for the Criminal 
Division, the FBI and U.S. Attorneys, for the Department to 
significantly expand the number of personnel dedicated to reviewing and 
executing MLAT requests, and for technological enhancements to improve 
the way requests are analyzed, categorized, and prioritized. With these 
additional resources, the Department will implement a robust 
centralized processing system, reduce backlog, cut its response time by 
half by the end of 2015, and respond to legally sufficient requests in 
a matter of weeks. Additionally, the resources will support training 
efforts for foreign partners to ensure they can meet U.S. evidentiary 
standards, which will enable the Department to respond to their 
requests more quickly.
    This MLAT reform effort involves collaboration among the 
Departments of Justice, State, and Commerce. Funds identified in the 
fiscal year 2015 President's budget for improvements to the MLAT 
program will be coordinated across these departments and agencies as 
well as the commercial sector.
                prosecuting financial and mortgage fraud
    Protecting consumers, investors, and our financial markets from 
fraud is one of the Department's top priorities. The budget maintains 
support to investigate and prosecute financial and mortgage fraud, 
providing a total of $681 million for financial fraud enforcement. It 
also continues efforts to strengthen the Department's ability to pursue 
large-scale financial fraud.
    Fraud harms the American people and has the potential to undermine 
our financial markets, and fraudulent misconduct may have contributed 
to the worst economic crisis in recent history. With its criminal and 
civil enforcement tools, the Department plays a crucial role in 
achieving justice for those who have been victimized. Fraud cases are 
complex matters that can take years to investigate and prosecute. Last 
year, as part of our ongoing effort to hold accountable those whose 
conduct sowed the seeds of the mortgage crisis, the Department filed 
lawsuits against Bank of America and the ratings firm Standard & 
Poor's. Since 2009, we have filed criminal charges against more than 
46,000 white-collar defendants, more than half of whom are financial 
fraud defendants. And in November, the Department reached a $13 billion 
settlement with JPMorgan Chase & Co.--the largest settlement with any 
single entity in American history--to resolve Federal and State civil 
claims related to the company's mortgage securitization process. These 
results demonstrate that no firm, no matter how profitable, is above 
the law--and the passage of time is no shield from accountability. They 
also reinforce our commitment to integrity and equal justice in every 
case, in every circumstance, and in every community.
 enforcing immigration laws and addressing the immigration case backlog
    The Department has substantial responsibilities with respect to 
immigration, including enforcement, detention, judicial functions, 
administrative hearings, and litigation. The Department's Executive 
Office for Immigration Review (EOIR) maintains a nationwide presence, 
overseeing the immigration court and appeals processes, receiving cases 
directly from Department of Homeland Security enforcement personnel. 
EOIR's immigration court caseload is increasing to unsustainable 
levels. Between fiscal year 2009 and fiscal year 2013, the caseload 
pending adjudication grew by 56 percent--from 229,000 to 358,000.
    The fiscal year 2015 budget includes $23 million in new resources 
to support and advance EOIR's mission. Of this amount, $17 million is 
requested for EOIR to support 35 additional Immigration Judge Teams and 
15 additional Board of Immigration Appeals attorneys. An additional $3 
million is included to expand EOIR's Legal Orientation Program, which 
improves immigration court proceedings for those who are detained by 
increasing their awareness of their rights and the overall process. 
Another $3 million is requested to allow EOIR to continue the 
development and expansion of a pilot program that provides counsel to 
vulnerable populations, such as unaccompanied alien children, for which 
funding was provided in fiscal year 2014.
      maintaining safe and secure prison and detention facilities
    The Department continues to prioritize the maintenance of secure, 
controlled prison and detention facilities, as well as investment in 
programs that can reduce recidivism. Federal prisons are operating over 
30 percent above rated capacity. Spending on Federal prisons consumes a 
quarter of the Department's budget--an unsustainable figure that is 
nevertheless projected to continue to increase.
    As part of the ``Smart on Crime'' approach I announced last August, 
I directed a significant change to the Department's charging policies 
to ensure that people accused of certain low-level, non-violent Federal 
drug crimes receive sentences appropriate to their individual conduct--
and that stringent mandatory minimum sentences are reserved for the 
most serious crimes. Alongside other important reforms, this change 
will make our criminal justice system not only fairer, but also more 
efficient, reducing the burden on our overcrowded prison system and 
freeing up resources for police and prosecutors and other vital law 
enforcement priorities.
    The fiscal year 2015 budget includes funding to support this 
initiative, providing $8.5 billion for prisons and detention, including 
$6.9 billion for the Bureau of Prisons (BOP) and $1.6 billion for 
Federal Prisoner Detention under the U.S. Marshals Service. Included in 
the total is $29 million to sustain the investments made in fiscal year 
2014 for BOP's reentry programs, including the Residential Drug Abuse 
Program, Residential Reentry Centers, and reentry-specific education 
programs. In all, the budget requests a total of $660 million for BOP's 
reentry-related activities. These resources provide critical 
opportunities for inmates to successfully transition back into their 
communities. Further, $32 million in program increases are requested 
for Federal detention to pay for increases in the average daily 
detainee population under the U.S. Marshals Service.
   investing in state, local and tribal assistance programs that work
    The Department continues to support its partnerships with State, 
local, and tribal law enforcement. The fiscal year 2015 budget 
maintains these commitments without cutting the Department's Federal 
operational role. Simultaneously, the budget identifies efficiencies to 
help ensure that Federal resources are being targeted to the most 
effective grant programs. The fiscal year 2015 request for State, 
local, and tribal law enforcement assistance is $3 billion, including 
$2.1 billion for discretionary grants and $891 million for mandatory 
grants.
    The Department is requesting $1.5 billion for the Office of Justice 
Programs' discretionary grants. The request increases funding for an 
evaluation clearinghouse, an indigent defense initiative, and evidence-
based competitive programs. This includes funding to establish the 
Byrne Incentive Grants and Juvenile Justice Realignment Incentive 
grants, which will provide supplementary awards to States and 
localities using formula grant funds for evidence-based purposes. The 
budget also requests funding to address school safety and gun violence 
with resources to improve criminal history records information and for 
the Comprehensive School Safety Program, which initially received 
funding in fiscal year 2014. In addition, the budget requests $33 
million to support the Department's Access to Justice Initiative 
efforts, including to assess and improve the quality of indigent 
defense services in the United States. Finally, the request includes 
$35 million for a new grant for communities to develop plans and 
identify the most critical needs to address sexual assault prevention, 
investigation, prosecution and services, including addressing untested 
sexual assault evidence kits at law enforcement agencies or backlogged 
crime labs.
    The fiscal year 2015 budget includes a total of $423 million for 
the Office on Violence Against Women, and continues the 
administration's strong commitment to providing Federal leadership in 
developing the Nation's capacity to combat sexual assault and violence 
against women. The request includes an increase of $9 million for Legal 
Assistance to Victims Programs, Campus Violence, Grants to Support 
Families in the Justice System, and the Transitional Housing program. 
These programs fund proven and innovative interventions to save lives, 
hold abusers accountable, and rebuild families and communities. As a 
result of prior investments in this area, civil and criminal justice 
systems are more responsive to victims, and crimes of violence 
committed against women have declined in recent years. Even so, 
reducing such violence and meeting the needs of the almost 1.3 million 
women victimized annually by rape and sexual assault, and the nearly 
seven million victims of intimate partner violence each year, remains a 
critical priority.
    Finally, the request includes $274 million for Community Oriented 
Policing Services (COPS), which supports a $71 million increase for 
COPS Hiring and Tribal Law Enforcement programs. These resources will 
fund the hiring or retention of approximately 1,300 police officers and 
sheriffs' deputies across the United States, thereby supporting the 
efforts of State, local and tribal law enforcement agencies in meeting 
the challenge of keeping their communities safe.
                               conclusion
    Chairwoman Mikulski, Vice Chairman Shelby, and members of the 
subcommittee, I want to thank you for this opportunity to share the 
significant accomplishments of the Department over the past year, to 
highlight our ongoing priorities, and to discuss how the funding 
proposed in the fiscal year 2015 President's budget will help make the 
criminal justice system more effective and efficient.
    The Department recognizes the need for fiscal restraint, and we 
have focused our resources on priority initiatives. As evidenced by our 
national security and law enforcement achievements, and our continued 
ability to demonstrate a significant return on investment, we have 
proven our ability to target and respond to the Nation's highest 
priorities efficiently and effectively. I look forward to working with 
this subcommittee and with the entire Congress to build on these 
successes. And I would be happy to answer any questions you may have.

    Chairwoman Mikulski. Thank you very much, Mr. Attorney 
General.
    We're going to follow a 5-minute time limit and try to get 
to as many people as we can. And if there's a chance, we will 
do a second round.

                            FEDERAL PRISONS

    So, let me get right to my question. Mr. Attorney General, 
one of the biggest areas, in terms of the Justice Department, 
is the funding of Federal prisons. And my question to you is--
two--and we're concerned about two things--one, the adequacy of 
the funding; second, the protection of prison guards, looking 
back to that terrible death. And, number three, what is your 
plan? Because there are now 18,000 prison guards, doing a great 
job. We're very proud of our guards in the Cumberland 
facility--and the stress that they're under every day. But, 
you've got initiatives here. And now, the prison guard 
population is one-third of the Justice Department.
    So, we've got to keep the bad people off the street, but 
are we just loading up our Federal prisons, and are there other 
ways where we protect America? It's almost impossible to keep 
up with this prison population demand. Could you give us your 
views on the resources needed and the policy directions you see 
going in?
    Attorney General Holder. Well, I agree with you, Madam 
Chairwoman. We have to focus on looking at the intake, how many 
people we are bringing into our Federal prison system, and make 
sure that only those people who should be charged with Federal 
crimes are actually brought into the system. And so, that's one 
of the ways in which we can, I think, do a better job.
    The safety of the people who work at the Federal Bureau of 
Prisons, the people who are there in our system on a day-to-day 
basis, is what we must keep uppermost in our minds. Our budget 
request includes a total of $6.8 billion to maintain the 
enhancements provided in the 2014 budget and to support 
mandatory prison operations. And one of the things that we want 
to do, as well, is to prioritize the filling of staff positions 
so that we have adequate numbers of people in our prisons. That 
will not only mean that people are treated fairly, humanely in 
the system, it also keeps our employees safe. We have a renewed 
and good relationship with the union that represents our prison 
officers. And I think that, through the combination of the work 
that Director Samuels is doing, with the help of this 
committee, I think that we can keep our Bureau of Prisons 
adequately funded, and keep the people who work there safe.
    Chairwoman Mikulski. Well, I met with prison--well, of 
course, I've been up to the Cumberland prison, but also with 
prison guards that were mates of--teammates, if you will, of 
Officer Williams, who died in Pennsylvania. They had--they, 
through the union, really had very specific things that they 
felt they could do to--that they needed to do to protect 
themselves. And I would encourage you to have ongoing and 
regular meetings with them, because it's almost like--it's not 
labor management negotiation, it's safety conversation on 
protecting them so they can protect us.

                             HEROIN CRISIS

    In my time, I'm going to go to another question, and this 
goes to the heroin crisis. The heroin crisis is sweeping 
America. I'm now hearing it in my own State of Maryland, from 
county executives, cops on the beat, and so on. Heroin is 
selling in Baltimore today for $6 a bag. You know, cheaper than 
buying a bag of kale at a gourmet grocery store kind of thing. 
The Governor of Vermont made it the focus of the State of the 
Union. Senator Leahy has spoken. Could you share with us, one, 
your view on this, and what are the resources needed at the 
Department of Justice level and how you would work with State 
and local law enforcement on dealing with this, really, new 
epidemic that is both criminal and public health?
    Attorney General Holder. Well, I first started to hear 
about the resurgence of the use of heroin about 3 years or so 
ago as I was going around the country to various U.S. 
Attorneys' offices, and was struck by the fact that I was 
hearing about heroin. This was something that I had consigned, 
in my own mind, to a problem that existed in the 1960s. But, 
there is no question that over the course of these last few 
years this has become a national problem. It's not a regional 
problem, it's not a State problem; this is something that is 
national in significance.
    What we need to do is have a balanced approach to dealing 
with this issue. We need to have a strong enforcement component 
to it. Our Drug Enforcement Administration takes the lead in 
that regard. We've recovered record amounts of heroin coming 
from the Mexican cartels into the United States. But now, this, 
I think, is important--we need to focus on the public health 
component as well, and work with our partners at HHS and at 
CDC, to come up with ways in which we can educate people about 
the issues that surround heroin use, and also the connected 
problem of prescription drug abuse, the use of opioids, and how 
that leads to the use of heroin.
    This is all part of a problem that will require, I think, 
more than simply the Justice Department to really get at it, 
though I think we have to be in the lead, given our enforcement 
responsibilities that we take very seriously.
    Chairwoman Mikulski. My--thank you very much, Mr. Attorney 
General--my time is up. I'm going to turn to Vice Chairman 
Shelby.
    But, I think we cannot underestimate that this heroin 
matter is a new epidemic. And if we were hit by an infectious 
disease or a new kind of flu, we'd have Fauci, from NIH, and 
Francis Collins, and Sebelius on the edge of her chair, and 
Arne Duncan worrying about children in school needing 
vaccinations. I think we've got to go to the edge of our chair 
here.
    This is prescription drugs, this is prescription drug 
addiction that's then leading to people buying heroin because 
it's easier to get. We've got suburban people driving into 
Baltimore looking into heroin markets that were featured in 
some of those awful movies about us. I mean, we are really 
concerned about what this is, and it's--and I think, if we 
marshal the resources of the Federal Government, working with 
the American Medical Association, doctors in the community, et 
cetera, we can deal with this. This is not only crime, it is 
public health.
    And can I count on you to take the lead in this?
    Attorney General Holder. Yes, I will. And I will engage 
with other members of the Cabinet. But, beyond that, to go 
beyond the Federal Government to try to enlist others who I 
think have an interest, and should have an interest, in this--
as you've indicated, the American Medical Association and 
others--so that we can really get at this problem in a balanced 
way. This is simply not an enforcement problem, this is 
something we have to deal with as a public health issue as 
well.
    Chairwoman Mikulski. Right.
    Senator Shelby.
    Senator Shelby. Thank you.

                           DRUG-RELATED CRIME

    I just want to pick up on the Chairwoman's area, there. 
What percent of the people in Federal prison, roughly--and you 
might want to furnish the exact number, if you don't have it 
offhand--for the record--are in prison but related to drug 
abuse, drug use, drug sales, or connected to drugs?
    Attorney General Holder. Roughly 50 percent.
    Senator Shelby. Fifty percent.
    Attorney General Holder. Yes.
    Senator Shelby. And in the State, I believe it's higher 
than that.
    Attorney General Holder. I think that's correct. In most 
States, I think that the number is probably higher.
    Senator Shelby. What is the rate of--not just drug 
related--what's the rate of recidivism, repeat offenders, in 
the prison--that go into the prison system and go back, you 
know, after a while?
    Attorney General Holder. Again, that'll vary from State to 
State. I think the Federal rate is----
    Senator Shelby. I'm speaking of the Federal. The Federal.
    Attorney General Holder. Okay. Federal rate is roughly, I 
think, around 35-40 percent.
    Senator Shelby. About a third, more or less----
    Attorney General Holder. Right. I think that's about right.
    Senator Shelby [continuing]. Of the people who go to prison 
come back.
    Attorney General Holder. Right.
    Senator Shelby. So, basically, our prison systems, State 
and Federal, are challenged, to say the least, are they not, on 
rehabilitating----
    Attorney General Holder. Yes.
    Senator Shelby [continuing]. People, getting them back in 
society?
    Attorney General Holder. Absolutely.
    Senator Shelby. What percent of the Federal prison--of 
people in Federal prison are there connected in some way to 
violent crime, the people that we need to get off the streets, 
period?
    Attorney General Holder. I don't know----
    Senator Shelby. Can you furnish that for the record?
    Attorney General Holder. Yes, we can certainly furnish that 
for the record----
    Senator Shelby. Do you have----
    Attorney General Holder [continuing]. We have drug 
offenses, about 50 percent; weapons, explosives, arson, about 
5.4 percent. So----
    Senator Shelby. But, violent-related.
    Attorney General Holder. Yes.
    Senator Shelby. People that you wouldn't want in your 
neighborhood or your school or around your children----
    Attorney General Holder. Yes.
    Senator Shelby [continuing]. You know, period.
    Attorney General Holder. I can provide you with----
    Senator Shelby. Okay.
    Attorney General Holder [continuing]. A more precise 
number, Senator.
    [The information follows:]

    Question. What percentage of the Federal prison population is 
connected in some way to violent crime?
    Answer. Of the sentenced inmates in BOP custody, one third (33.8 
percent) are serving time for a violent offense, defined to include 
homicide, robbery, aggravated assault, sex offenses, weapons and 
explosives (68,486 out of 202,397). Half (49.5 percent) have a previous 
conviction for a violent offense (100,142 out of 202,397). Data as of 
August 30, 2014.

    Senator Shelby. Do you believe that a lot of our prisons 
are overcrowded, State and Federal?

                            FEDERAL PRISONS

    Attorney General Holder. Yes. If you look at the Federal 
prison system, we don't have enough beds for the people, and 
especially when you look at those people who we consider the 
most significant offenders. It's one of the reasons why we try 
to bring online more of our prisons.
    Senator Shelby. Do you believe it's the--when you make 
priorities, as a prosecutor, that you should look at violent 
crime and get people off the street, get them out of doing harm 
to other people in institutions first?
    Attorney General Holder. Sure. There are a range of things 
that we have to----
    Senator Shelby. Absolutely.
    Attorney General Holder [continuing]. Do in the Federal 
system. National security, violent crime, drug offenses. We 
have a range of things that we have to do, working with our 
State and local partners, as well. They do the vast majority of 
the prosecuting when it comes to violent crime.
    Senator Shelby. I know it's been said that the Department, 
led by you, is trying to figure ways out to lessen the impact 
of some tough sentencing, which is statutory, I think. So, a 
lot of that--a lot of the sentencing by Federal courts over--on 
drugs and other things, I believe that's according to statute. 
Is that right, Mr. Attorney General?

                           SENTENCING REFORM

    Attorney General Holder. There are certain mandatory 
minimum sentences that exist with regard to how we charge 
certain crimes. We have discretion as to----
    Senator Shelby. I'm talking about after they're sentenced, 
they're sentenced on--based on a statute, are they not?
    Attorney General Holder. There are guidelines that are 
advisory now, but they're no longer mandatory.
    Senator Shelby. Well, once a judge sentences a prisoner for 
X years after going through a court or a plea, do you have the 
power, as the Attorney General, to change that sentence?
    Attorney General Holder. I have limited amounts of power.
    Senator Shelby. Like what? Explain.
    Attorney General Holder. With regard to people, for 
instance, as the Chair was saying, people who I can release, or 
the director of Bureau of Prisons can release on the basis of 
compassionate release, somebody who is 70-80 years old, who is 
no longer a threat to society. I have that capacity. But, 
generally, the Attorney General----
    Senator Shelby. It's statutory, is it not?
    Attorney General Holder. Yes. Statutory and regulatory. 
But, generally, the Attorney General does not have the ability 
to reduce sentences. That is something the President can do.
    Senator Shelby. And if there's any change in the laws on 
sentencing, it came from Congress--it had come from Congress to 
modify, repeal, or enact something to supersede it, is that 
correct?
    Attorney General Holder. Yes. And that's why we are 
supporting the efforts of Senator Lee, Senator Leahy, and 
Senator----
    Senator Shelby. Okay.
    Attorney General Holder [continuing]. Durbin, to try to 
make changes to our Federal system.

                       ROLE OF INSPECTOR GENERAL

    Senator Shelby. I just have a few seconds left, but this is 
important, I think. A lot of us--I raised it in my opening 
statement--we're concerned about the issues raised dealing with 
the Inspector General. I think Congress has been clear, as has 
this committee, that the Inspector General must have unfettered 
access to any and all documents necessary to carry out his 
duties. Do you disagree with that?
    Attorney General Holder. I would say that the Inspector 
General should have access to those materials necessary to do 
the investigations that he does, and consistent with the laws 
that govern some of the material that he might want access to.
    Senator Shelby. Well, it's all consistent with the law, 
but----
    Attorney General Holder. Well, the law is written in such a 
way that, with regard to certain requests that are made, the 
Attorney General or the Deputy Attorney General has to make a 
determination that it can be appropriately shared.
    But, one thing I would point out. There has never been an 
instance, as long as I have been Attorney General, that the 
Inspector General has asked for materials that I have said he 
could not have. That has just not happened.
    Senator Shelby. It hasn't happened.
    Attorney General Holder. Has not happened.
    Senator Shelby. Do you believe that the Inspector General 
should have to seek your approval to access grand jury 
documents relevant to ongoing investigations, something that 
he's charged, statutorily, to investigate and oversee?
    Attorney General Holder. I think, as the law exists now 
with regard to grand jury material, wiretap information, there 
is an approval process that I think is an appropriate one to go 
through. But, as I said, there's never been an instance where, 
with regard to a request made by an Inspector General, I or the 
Deputy Attorney General have not said, ``You can't have access 
to that material.''
    Senator Shelby. Have you, or will you, direct the 
Department of Justice that you oversee to grant the Inspector 
General unfettered access to relevant documents to carry out 
his investigations within the Department, even though it might 
be detrimental to somebody in the Department of Justice, 
including yourself?
    Attorney General Holder. Yes. I mean, the question of 
whether or not this material is turned over or the Inspector 
General has access to it is not a function of who is under 
investigation or what harm is going to happen to the 
Department. It is really a function of making sure that we are 
following the----
    Senator Shelby. But, what if----
    Attorney General Holder [continuing]. Laws that exist.
    Senator Shelby [continuing]. He was investigating somebody 
high up in the Justice Department, and he had reason to do 
this, and he needed documents. Would you give him access to 
those documents? Would you cause him trouble?
    Attorney General Holder. They'd have access to the 
documents, as they have in the past.
    Senator Shelby. And you're not going to block the Inspector 
General from doing his work.
    Attorney General Holder. No. There is no tension between 
making sure the Inspector General has the documents that he or 
she needs and also making sure that the laws that govern the 
release of those materials are followed. And we have done so in 
the past.
    Senator Shelby. Well, if a head of the Department, even the 
Justice Department, like you or, say, Secretary of Energy or 
Secretary of State, or whatever, if you have an Inspector 
General there to do oversight and uncover wrongdoing, if they 
could say, ``You can't go there,'' it would impede their 
investigation, would it not?
    Attorney General Holder. Yes, but the Attorney General has 
a unique responsibility, in that I am the possessor of, for 
instance, grand jury material, wiretap information that the 
Secretary of State or Secretary of Energy would not have access 
to, and so, the need for the statutory requirements that we 
have to go through at the Justice Department are different than 
what would exist in other executive-branch agencies.
    Senator Shelby. But, the Inspector General at the 
Department of Justice couldn't do his job unless they had 
unfettered access to stuff he was seeking. You seem to be 
stalling on giving him access to things in the Justice 
Department. I don't understand that.
    Attorney General Holder. Well, you'll have the ability to 
talk to the Inspector General. I think he'll echo----
    Senator Shelby. Sure.
    Attorney General Holder [continuing]. What I've just said, 
which is that there has never been an instance where material 
has been sought that has not been granted to them.
    There was a question that was actually raised by Mr. 
Horowitz's predecessor about whether or not there was a legal 
basis for the position that we were taking. What we offered to 
do was to send it to the Office of Legal Counsel for a 
determination as to whether the view that the Attorney General 
or the Deputy Attorney General was taking was correct. The 
decision was made by the Inspector General not to have that OLC 
opinion done. We have copies of the letter, that I will be more 
than glad to make available to the committee, that shows that 
what we have done is consistent with the law and also 
consistent with the important responsibilities that the 
Inspector General has.
    [The information follows:]
summary of the department of justice office of the inspector general's 
 position regarding access to documents and materials gathered by the 
                    federal bureau of investigation

                              Introduction

    In November 2009, the Office of the Inspector General (OIG) 
initiated a review of the Department's use of the material witness 
statute, 18 U.S.C. Sec. 3144. Pursuant to our responsibilities under 
Section 1001 of the Patriot Act, a significant part of our review is to 
assess whether Department officials violated the civil rights and civil 
liberties of individuals detained as material witnesses in national 
security cases in the wake of the September 11 terrorist attacks. In 
addition, the review will provide an overview of the types and trends 
of the Department's uses of the statute over time; assess the 
Department's controls over the use of material witness warrants; and 
address issues such as the length and costs of detention, conditions of 
confinement, access to counsel, and the benefit to the Department's 
enforcement of criminal law derived from the use of the statute.
    In the course of our investigation, we learned that most of the 
material witnesses in the investigations related to the September 11 
attacks were detained for testimony before a grand jury. At our 
request, between February and September 2010 the Department of Justice 
National Security Division and three U.S. Attorneys' offices (Southern 
District of New York (SDNY), Northern District of Illinois (NDIL), 
Eastern District of Virginia (EDVA)) provided us with grand jury 
information concerning material witnesses pursuant to Fed. R. Crim. P. 
6(e)(3)(D), which permits disclosure of grand jury matters involving 
foreign intelligence information to any Federal law enforcement 
official to assist in the performance of that official's duties. We 
also sought a wide range of materials from other Department components, 
including the U.S. Marshals Service, the Federal Bureau of Prisons, and 
the Federal Bureau of Investigation (FBI). All of the Department's 
components provided us with full access to the material we sought, with 
the notable exception of the FBI.
    In August 2010, we requested files from the FBI relating to the 
first of 13 material witnesses. In October 2010, representatives of the 
FBI's Office of General Counsel informed us that the FBI believed grand 
jury secrecy rules prohibited the FBI from providing grand jury 
material to the OIG. The FBI took the position that it was required to 
withhold from the OIG all of the grand jury material it gathered in the 
course of these investigations. The FBI has also asserted that, in 
addition to grand jury information, it can refuse the OIG access to 
other categories of information in this and other reviews, including 
Title III materials, Federal taxpayer information; child victim, child 
witness, or Federal juvenile court information; patient medical 
information; credit reports; FISA information; foreign government or 
international organization information; information subject to non-
disclosure agreements, memoranda of understanding or court order; 
attorney client information; and human source identity information. The 
information we have requested is critical to our review. Among other 
things, we are examining the Department's controls over the use of 
material witness warrants, the benefit to the Department from the use 
of the statute, and allegations of civil rights and civil liberties 
abuses in the Department's post-9/11 use of the statute in the national 
security context. The requested grand jury information is necessary for 
our assessment of these issues.
    The FBI has also asserted that page-by-page preproduction review of 
all case files and e-mails requested by the OIG in the material witness 
review is necessary to ensure that grand jury and any other information 
the FBI asserts must legally be withheld from the OIG is redacted. 
These preproduction reviews have caused substantial delays to OIG 
reviews and have undermined the OIG's independence by giving the entity 
we are reviewing unilateral control over what information the OIG 
receives, and what it does not.
    The FBI's position with respect to production of grand jury 
material to the OIG is a change from its longstanding practice.\1\ It 
is also markedly different from the practices adopted by other 
components of the Department of Justice. The OIG routinely has been 
provided full and prompt access to grand jury and other sensitive 
materials in its reviews involving Department components in high 
profile and sensitive matters, such as our review of the President's 
Surveillance Program and the investigation into the removal of nine 
U.S. Attorneys in 2006. Those reviews would have been substantially 
delayed, if not thwarted, had the Department employed the FBI's new 
approach.
---------------------------------------------------------------------------
    \1\ Since 2001, when the OIG assumed primary oversight 
responsibility for the FBI, the OIG has undertaken numerous 
investigations which required review of the most sensitive material, 
including grand jury material and documents classified at the highest 
levels of secrecy. Through all of these reviews, the FBI never refused 
to produce documents and other material to the OIG, including the most 
sensitive human and technical source information, and it never asserted 
the right to make unilateral determinations about what requested 
documents were relevant to the OIG reviews. On the rare occasion when 
the FBI voiced concern based on some of the grounds now more broadly 
asserted in this matter, quick compromises were reached by the OIG and 
the FBI. Indeed, with only minor exceptions, the FBI's historical 
cooperation with the OIG has been exemplary, and that cooperation has 
enabled the OIG to conduct thorough and accurate reviews in a timely 
manner, consistent with its statutorily based oversight mission and its 
duty to assist in maintaining public confidence in the Department of 
Justice.
---------------------------------------------------------------------------
    In many respects, the material witness warrant review is no 
different from other recent OIG reviews conducted in connection with 
our civil rights and civil liberties oversight responsibilities under 
the Patriot Act in which Department components granted the OIG access 
to grand jury and other sensitive material. For example, in our review 
of the FBI's use of ``exigent letters'' to obtain telephone records, at 
our request the Department of Justice Criminal Division and the FBI 
provided us grand jury materials in two then ongoing sensitive media 
leak investigations involving information classified at the TS/SCI 
level. The grand jury materials were essential to our findings that FBI 
personnel had improperly sought reporters' toll records in 
contravention of the Electronic Communications Privacy Act and 
Department of Justice policy.\2\
---------------------------------------------------------------------------
    \2\ We described this issue in our report, A Review of the Federal 
Bureau of Investigation's Use of Exigent Letters and Other Informal 
Requests for Telephone Records, (January 2010).
---------------------------------------------------------------------------
    Similarly, in our review of the FBI's investigations pertaining to 
certain domestic advocacy groups, the OIG assessed allegations that the 
FBI had improperly targeted domestic advocacy groups for investigation 
based upon their exercise of First Amendment rights. In the course of 
this review, the FBI provided OIG investigators access to grand jury 
information in the investigations we examined. This information was 
necessary to the OIG's review as it informed our judgment about the 
FBI's predication for and decision to extend certain investigations. 
The lack of access to this information would have critically impaired 
our ability to reach any conclusions about the FBI's investigative 
decisions and, consequently, our ability to address concerns that the 
FBI's conduct in these criminal investigations may have violated civil 
rights and civil liberties.\3\
---------------------------------------------------------------------------
    \3\ Our findings are described in our report, A Review of the FBI's 
Investigations of Certain Domestic Advocacy Groups (September 2010).
---------------------------------------------------------------------------
    When the OIG has obtained grand jury material, the OIG has 
carefully adhered to the legal prohibitions on disclosure of such 
information. We routinely conduct extensive pre-publication reviews 
with affected components in the Department. The OIG has ensured that 
sensitive information--whether it be law enforcement sensitive, 
classified, or information that would identify the subjects or 
direction of a grand jury investigation--is removed or redacted from 
our public reports. In all of our reviews and investigations, the OIG 
has scrupulously protected sensitive information and has taken great 
pains to prevent any unauthorized disclosure of classified, grand jury, 
or otherwise sensitive information.
    For the reasons discussed below, the OIG is entitled to access to 
the material the FBI is withholding. First, the Inspector General Act 
of 1978, as amended (Inspector General Act or the Act), provides the 
OIG with the authority to obtain access to all of the documents and 
materials we seek. Second, in the same way that attorneys performing an 
oversight function in the Department's Office of Professional 
Responsibility (OPR) are ``attorneys for the government'' under the 
legal exceptions to grand jury secrecy rules, the OIG attorneys 
conducting the material witness review are attorneys for the government 
entitled to receive grand jury material because they perform the same 
oversight function. Third, the OIG also qualifies for disclosure of the 
grand jury material requested in the material witness review under 
amendments to the grand jury secrecy rules designed to enhance sharing 
of information relating to terrorism investigations.
I.  THE INSPECTOR GENERAL ACT
    The FBI's refusal to provide prompt and full access to the 
materials we requested on the basis of grand jury secrecy rules and 
other statutes and Department policies stands in direct conflict with 
the Inspector General Act. The Act provides the OIG with access to all 
documents and materials available to the Department, including the FBI. 
No other rule or statute should be interpreted, and no policy should be 
written, in a manner that impedes the Inspector General's statutory 
mandate to conduct independent oversight of Department programs. See, 
e.g., Watt v. Alaska, 451 U.S. 259, 267 (1981) (A court ``must read 
[two allegedly conflicting] statutes to give effect to each if [it] can 
do so while preserving their sense and purpose.'').
            A.  The Inspector General Act Grants the OIG Full and 
                    Prompt Access to any Documents and Materials 
                    Available to the DOJ, Including the FBI, that 
                    Relate to the OIG's Oversight Responsibilities
    The Inspector General Act is an explicit statement of Congress's 
desire to create and maintain independent and objective oversight 
organizations inside of certain Federal agencies, including the 
Department of Justice, without agency interference. Crucial to the 
Inspectors General (IGs) independent and objective oversight is having 
prompt and complete access to documents and information relating to the 
programs they oversee. Recognizing this, the Inspector General Act 
authorizes IGs ``to have access to all records, reports, audits, 
reviews, documents, papers, recommendations, or other material 
available to the applicable establishment which relate to programs and 
operations with respect to which that Inspector General has 
responsibilities under this Act.'' 5 U.S.C. App. 3 Sec. 6(a)(1). The 
Act also authorizes the IGs to ``request'' necessary ``information or 
assistance'' from ``any Federal, State, or local governmental agency or 
unit thereof,'' including the particular establishments the IGs 
oversee. Id. Sec. 6(a)(3); id. Sec. 12(5) (defining the term ``Federal 
agency'' to include the establishments overseen by the Inspectors 
General). Together, these two statutory provisions operate to ensure 
that the Inspectors General are able to access the information 
necessary to fulfill their oversight responsibilities.
    The only explicit limitation on IGs' right of access to information 
contained in the Inspector General Act concerns all agencies' 
obligation to provide ``information or assistance'' to the Inspectors 
General. However, this limitation does not apply to IGs' absolute right 
of access to documents from their particular agency. This circumscribed 
limitation provides that all Federal agencies shall furnish information 
or assistance to a requesting IG ``insofar as is practicable and not in 
contravention of any existing statutory restriction or regulation of 
the Federal agency from which the information is requested[.]'' 5 
U.S.C. Sec. 6(b)(1) (emphasis added).\4\
---------------------------------------------------------------------------
    \4\ The legislative history is silent on the reason for 
conditioning agencies' furnishing of ``information or assistance'' to 
all IGs on practicability or statutory restriction, but imposing no 
such limitation on an agency's absolute requirement to provide its 
documents to its own IG. However, there are possible explanations for 
the distinction. For example, providing access to documents and 
materials maintained in agency systems and files is simple, 
inexpensive, and an undeniable precondition to the fair, objective, and 
successful exercise of the IGs' oversight responsibilities. 
Accordingly, the Act's unconditional language authorizing IGs to have 
access to the documents and materials of the agency it oversees is 
understandable and sensible. In contrast, agencies may not always be 
able to fulfill requests for ``information or assistance'' immediately, 
even from their agency's IG. A request of one agency from another 
agency's IG may require more careful scrutiny because it would entail 
information being transmitted outside of the requested agency. In 
addition, busy agency schedules must be accommodated when fulfilling a 
request for an interview; subject matter experts may not be immediately 
available to interpret documents or may have left the agency's 
employment; responses to interrogatories often require revisions and 
approvals; and annotations, explanations, and written analyses of 
existing documents and materials can take significant amounts of time. 
Despite the OIG's historical success at reaching reasonable compromises 
with components of the DOJ responding to requests for ``information or 
assistance,'' the OIG readily acknowledges that circumstances could 
arise where a component's delay, difficulty, or even refusal in 
responding to a request for ``information or assistance'' would be 
reasonable. These considerations are not applicable, however, to IGs' 
access to documents and materials of the agency it oversees, and 
therefore, that provision of the Act authorizes access in absolute 
terms.
---------------------------------------------------------------------------
    Another provision of the Inspector General Act grants the 
Inspectors General discretion to report instances of noncooperation to 
the head of the relevant agency, whether that noncooperation impedes on 
the IGs' authority to obtain documents or ``information and 
assistance.'' Under that section, when an IG believes ``information or 
assistance'' is ``unreasonably refused or not provided, the Inspector 
General shall report the circumstances to the head of the establishment 
involved without delay.'' 5 U.S.C. App. 3 Sec. 6(b)(2). The FBI 
contends this reporting provision of the Act is a further limitation on 
the agencies' obligation to provide documents and ``information and 
assistance'' to the Inspectors General. The FBI has argued that the 
provision implicitly recognizes that requests for both documents and 
``information and assistance'' can be ``reasonably refused.''
    The OIG believes the FBI's reliance on this reporting section as 
limiting an IG's right of access to documents in the custody of the 
agency it oversees is misplaced. This provision of the Act is entirely 
consistent with the right of full and prompt access to documents and 
materials and does not create a limitation, explicit or implicit, on 
the authorities provided elsewhere in the Act. By granting the 
Inspectors General the discretion to decide that some instances of 
noncooperation by an agency do not rise to the level of a reportable 
incident, the provision accounts for the practical reality that many 
instances where Inspectors General are not granted access to documents 
or materials, or are not provided ``information or assistance'' in 
response to a request, do not merit a report to agency management.\5\
---------------------------------------------------------------------------
    \5\ For example, IG document requests can be very broad, 
particularly before IG investigators have learned the details of the 
program under review. In such instances, formal requests are often 
informally and consensually narrowed after discussions with the agency 
under review, and a report to the agency head is unnecessary. 
Similarly, an agency's failure to provide the Inspector General with 
access to a document is often inadvertent or such a minor inconvenience 
that the Inspector General could reasonably view the noncooperation as 
de minimis.
---------------------------------------------------------------------------
    To summarize, the Inspector General Act provides the Inspectors 
General a right of full and prompt access to documents and materials in 
the custody of the agency they oversee, a right to request 
``information or assistance'' from any agency that is modestly limited, 
and an obligation to report instances of agency noncooperation to the 
agency head when, in the judgment of the Inspector General, such 
noncooperation is unreasonable. Accordingly, the Act provides 
Inspectors General unconditional authority to gather documents and 
records in the custody of the agency they oversee, an authority 
necessary to obtain the basic information to conduct independent and 
objective reviews and investigations.
            B.  The Only Limitation on the OIG's Authority to Conduct 
                    Audits and Investigations within its Jurisdiction 
                    is Section 8E of the Inspector General Act, and 
                    that Limitation Must Be Invoked by the Attorney 
                    General
    In the law creating the DOJ OIG, Congress inserted an exception to 
the normal authority granted to Inspectors General. In a section 
captioned ``Special provisions concerning the Department of Justice,'' 
the IG Act provides the Attorney General the authority, under specified 
circumstances and using a specific procedure, to prohibit the OIG from 
carrying out or completing an audit or investigation, or from issuing 
any subpoena. See 5 U.S.C. App. 3 Sec. 8E. This authority may only be 
exercised by the Attorney General, 5 U.S.C. App. 3 Sec. 8E(a)(1)-(2), 
and only with respect to specific kinds of sensitive information. Id. 
Sec. 8E(a)(1). The Attorney General must specifically determine that 
the prohibition on the Inspector General's exercise of authority is 
necessary to prevent the disclosure of certain specifically described 
categories of information, or to prevent the significant impairment to 
the national interests of the United States. Id. Sec. 8E(a)(2). The 
Attorney General's decision must be conducted in writing, must state 
the reasons for the decision, and the Inspector General must report the 
decision to Congress within 30 days. Id. Sec. 8E(a)(3). These 
provisions represent an acknowledgement of the fact that the Department 
of Justice often handles highly sensitive criminal and national 
security information, the premature disclosure of which could pose a 
threat to the national interests.
    These exacting procedures confirm that the special provisions of 
Section 8E represent an extraordinary departure from the baseline rule 
that the Inspectors General shall have unconditional access to 
documents and materials, and broad authority to initiate and conduct 
independent and objective oversight investigations. These procedures 
also confirm that only the Attorney General, and not the FBI, has the 
power to prohibit the OIG's access to relevant documents and materials 
available to the Department.
II.   GRAND JURY SECRECY RULES
    The Federal Rules of Criminal Procedure provide the general rule of 
secrecy applicable to grand jury information and various exceptions to 
that general rule. One of the exceptions allows disclosure of grand 
jury information to ``an attorney for the government.'' This exception 
provides a basis, additional to and independent of the Inspector 
General Act, for disclosing the requested grand jury materials to the 
OIG.\6\ The OIG's reliance on the ``attorney for the government'' 
exception to obtain access to grand jury material is supported by an 
Office of Legal Counsel (OLC) opinion and a Federal court decision. OIG 
access to grand jury material under this exception is consistent with 
the broad authority granted to the OIG under the Inspector General Act, 
and it avoids an oversight gap so that Department employees cannot use 
grand jury secrecy rules to shield from review their adherence to 
Department policies, Attorney General Guidelines, and the Constitution. 
The ``attorney for the government'' exception allows for automatic 
disclosure of grand jury materials and is, therefore, particularly well 
suited to ensure that the OIG's ability to access documents and 
materials, and to access them promptly, is coextensive with that of the 
Department and the FBI.
---------------------------------------------------------------------------
    \6\ Rule 6(e)(3)(A)(i) provides: ``Disclosure of a grand jury 
matter--other than the grand jury's deliberations or any grand juror's 
vote--may be made to: (i) an attorney for the government for use in 
performing that attorney's duty. . . .'' Fed. R. Crim. P. 
6(e)(3)(A)(i).
---------------------------------------------------------------------------
            A.  OIG Attorneys Are ``Attorneys for the Government''
    In an unpublished opinion issued subsequent to United States v. 
Sells Engineering, Inc., 463 U.S. 418 (1983) (a Supreme Court opinion 
narrowly construing the term ``attorney for the government'' as used in 
the exception to the general rule of grand jury secrecy), the OLC 
determined that, even in light of the Court's decision, the Rule was 
broad enough to encompass Office of Professional Responsibility (OPR) 
attorneys exercising their oversight authority with regard to 
Department attorneys.
    In Sells, Civil Division attorneys pursuing a civil fraud case 
sought automatic access to grand jury materials generated in a parallel 
criminal proceeding. The Supreme Court interpreted the exception that 
provides for automatic disclosure of grand jury materials to 
``attorney[s] for the government'' for use in their official duties, as 
limited to government attorneys working on the criminal matter to which 
the material pertains. Sells, 463 U.S. at 427. The Court held that all 
other disclosures must be ``judicially supervised rather than 
automatic,'' id. at 435, because allowing disclosure other than to the 
prosecutors and their assistants would unacceptably undermine the 
effectiveness of grand jury proceedings by: (1) creating an incentive 
to use the grand jury's investigative powers improperly to elicit 
evidence for use in a civil case; (2) increasing the risk that release 
of grand jury material could potentially undermine full and candid 
witness testimony; and (3) by circumventing limits on the government's 
powers of discovery and investigation in cases otherwise outside the 
grand jury process. See id. at 432-33.
    In its unpublished opinion, OLC concluded that the three concerns 
the Supreme Court expressed in Sells were not present when OPR 
attorneys conduct their oversight function of the conduct of Department 
attorneys in grand jury proceedings. OLC concluded that as a delegee of 
the Attorney General for purposes of overseeing and advising with 
respect to the ethical conduct of department attorneys and reporting 
its findings and recommendations to the Attorney General, OPR is part 
of the prosecution team's supervisory chain. Thus, OPR attorneys may 
receive automatic access to grand jury information under the 
supervisory component inherent in the ``attorney for the government'' 
exception.
    OIG attorneys should be allowed automatic access to grand jury 
material in the performance of their oversight duties because OIG and 
OPR perform the identical functions within the scope of their 
respective jurisdictions. Like OPR attorneys conducting oversight of 
Department attorneys in their use of the grand jury to perform their 
litigating function, OIG attorneys are part of the supervisory chain 
conducting oversight of the conduct of law enforcement officials 
assisting the grand jury. Both the OIG and OPR are under the general 
supervision of the Attorney General, compare 28 C.F.R. 0.29a(a) (OIG) 
with 28 C.F.R. 0.39. Just like OPR, the Inspector General must ``report 
expeditiously to the Attorney General whenever the Inspector General 
has reasonable grounds to believe there has been a violation of Federal 
criminal law.'' 5 U.S.C. App. 3, Sec. Sec. 4(d) & 8E(b)(2). OIG 
attorneys make findings and recommendations to the Attorney General 
regarding the conduct of law enforcement officials assisting the grand 
jury, and the Attorney General then imposes any discipline or 
implements reform. Therefore, for purposes of the ``attorney of the 
government'' exception, the OIG is in the same position as OPR, both 
with respect to its oversight function and its relationship to the 
Attorney General.
    More to the point, whatever formal differences exist in the 
relative structures of the OIG and OPR, the two offices are 
functionally indistinguishable for purposes of access to grand jury 
materials for all of their oversight purposes. The risks to the secrecy 
of the underlying grand jury proceedings from disclosure to the OIG, if 
any, are no different from those created by automatic disclosure to 
OPR. OPR's oversight of the conduct of Department attorneys is an 
after-the-fact examination of what happened during the grand jury 
process, just as is OIG's oversight of law enforcement agents' conduct. 
OIG review of law enforcement conduct in such circumstances is not 
undertaken to affect the outcome of a civil proceeding related to the 
target of an underlying criminal investigation. Therefore, disclosure 
of grand jury materials to the OIG runs no risk of creating an 
incentive to misuse the grand jury process in order to improperly 
elicit evidence for use in a separate administrative or criminal 
misconduct proceeding against the target of the grand jury's 
investigation. Similarly, because our review is of law enforcement 
conduct and not of lay witnesses who are called to testify, the 
willingness of those witnesses to testify should not be implicated. OIG 
oversight also ensures that the Department's law enforcement officials 
who testify before the grand jury do so fully and candidly, and that 
Department employees do not ignore their legal obligations to the grand 
jury.
    Moreover, the OIG's inherent supervisory role with regard to 
Department employees who assist the grand jury was recognized by a 
Federal court overseeing proceedings relating to the death of Bureau of 
Prisons inmate Kenneth Michael Trentadue. The district court granted 
the government's motion for access to grand jury materials, finding 
that the OIG's investigation of alleged misconduct ``is supervisory in 
nature with respect to the ethical conduct of Department employees.'' 
The court stated that ``disclosure of grand jury materials to the OIG 
constitutes disclosure to `an attorney for the government for use in 
the performance of such attorney's duty[.]' '' In re Matters Occurring 
Before the Grand Jury Impaneled July 16, 1996, Misc. #39, W.D. Okla. 
(June 4, 1998).
    Accordingly, there is no principled basis upon which to deny OIG 
attorneys the same access as OPR is allowed to review grand jury 
materials necessary to carry out its oversight function. Both OPR and 
OIG attorneys require access to grand jury materials to fulfill a 
supervisory function directed at maintaining the highest standards of 
conduct for Department employees who assist the grand jury. As such, 
OIG attorneys should also be able to obtain automatic access to matters 
that pertain to law enforcement conduct in matters related to the grand 
jury within the jurisdiction of the OIG.
            B.  The OIG is entitled to Receive Grand Jury Materials 
                    Involving Foreign Intelligence Information
    Another exception to the general rule of grand jury secrecy allows 
an attorney for the government to disclose ``any grand-jury matter 
involving foreign intelligence, counterintelligence . . ., or foreign 
intelligence information . . . to any Federal law enforcement, 
intelligence, protective, immigration, national defense, or national 
security official to assist the official receiving the information in 
the performance of that official's duties.'' Fed. R. Crim. P. 
6(e)(3)(D). This exception was added in 2001 as part of the USA PATRIOT 
Act and was designed to enable greater sharing of information among law 
enforcement agencies and the intelligence community to enhance the 
government's effort to combat terrorism.\7\
---------------------------------------------------------------------------
    \7\ Public Law 107-56, Sec. 203(A)(1), 115 Stat. 272, 279-81 
(2001).
---------------------------------------------------------------------------
    This exception encompasses the OIG's request for the grand jury 
materials at issue in its material witness warrant review. The grand 
jury proceedings pursuant to which the materials were collected were 
all investigations of international terrorist activity conducted in the 
wake of the terrorist attacks of September 11, 2001. All of the grand 
jury information gathered in them is thus necessarily ``related to,'' 
``gathered . . . to protect against,'' or ``relates to the ability of 
the United States to protect against,'' among other things, 
``international terrorist activities.'' See 50 U.S.C. Sec. 401a and 
Rule 6(e)(3)(D). All of the grand jury material gathered in those 
investigations thus constitutes foreign intelligence, counter 
intelligence, or foreign intelligence information (collectively, 
Foreign Intelligence Information).
    In addition, OIG officials qualify as law enforcement officials 
within the meaning of the rule by virtue of the Inspector General's 
authority to conduct criminal investigations, apply for search 
warrants, make arrests, and investigate violations of civil rights and 
civil liberties. See, e.g., 5 U.S.C. App. 3 Sec. 6(e)(1); USA PATRIOT 
ACT, Public Law 107-56, Sec. 1001, 115 Stat. 272, 391 (2001). Also, the 
OIG's oversight activities constitute law enforcement duties for 
purposes of the foreign intelligence exception because they directly 
affect the design and implementation of the Department's law 
enforcement programs.
    The OIG has discussed the access issues with Department leadership 
and sought their assistance in resolving the dispute with the FBI. 
Although the Department's consideration of all these issues is ongoing, 
in July 2011, the Department concluded that, at a minimum, the foreign 
intelligence exception authorizes an ``attorney for the government'' to 
disclose grand jury information to the OIG for use in connection with 
OIG's law enforcement duties, such as the material witness warrant 
review, to the extent that the attorney for the government determines 
that the grand jury information in question involves foreign 
intelligence. Since then, an ``attorney for the government'' in the 
Department's National Security Division (a Department component under 
review in the Material Witness Warrant review), has been conducting a 
page-by-page review of the materials withheld by the FBI to determine 
whether they qualify as Foreign Intelligence Information under the 
exception before providing them to the OIG. In addition, the FBI has 
continued its own page-by-page review of some of the requested files to 
identify and redact grand jury and other categories of information, 
before the National Security Division attorney performs yet another 
review for the purpose of sending the material back to the FBI for the 
removal of grand jury foreign intelligence information redactions.
    The Department's confirmation that the foreign intelligence 
exception is one basis for authorizing the OIG to obtain access to 
grand jury information was helpful. However, the page-by-page review of 
the material being conducted by the FBI and National Security Division 
to implement that decision is unnecessary. In our view, such page-by-
page review is not necessary here because all of the grand jury 
material we have sought to date in the material witness review was 
collected in investigations of international terrorist activity 
conducted in the wake of the terrorist attacks of September 11, 2001, 
and thus necessarily falls within the very broad definitions of foreign 
intelligence, counterintelligence, or foreign intelligence information. 
See 50 U.S.C. Sec. 401a and Rule 6(e)(3)(D). Therefore, the exception 
allows the OIG to receive all of the grand jury information from those 
investigations.\8\
---------------------------------------------------------------------------
    \8\ As noted above, such page-by-page reviews are also improper 
because they are contrary to the provisions of the Inspector General 
Act granting the OIG broad access to any document or material that is 
available to the agency overseen; undermine the independence of the 
Inspector General by granting a component under review unilateral 
authority to determine what materials the Inspector General receives, 
and result in unacceptable delays in the production of materials 
necessary for the OIG to conduct its oversight.
---------------------------------------------------------------------------
    Although the Department's determination that the OIG is entitled to 
access to the requested grand jury information in the material witness 
review under the foreign intelligence exception is helpful, that 
decision does not resolve the access issue. First, it does not address 
access to grand jury material that does not involve foreign 
intelligence information. Second, the Department's preliminary decision 
under the foreign intelligence exception does not address access to 
grand jury material in other OIG reviews. And third, the decision has 
been construed by the National Security Division and the FBI to require 
page-by-page review of the information, thereby undermining the 
independence and timeliness of the OIG's review as described above. 
Accordingly, a full decision confirming the OIG's right of access to 
grand jury and other information under the Inspector General Act and 
the ``attorney for the government'' exception is still necessary to 
enable the OIG effectively to carry out its oversight mission.
III.   CONCLUSION
    The objective and independent oversight mandated by the Inspector 
General Act depends on the fundamental principle that the Inspectors 
General should have access to the same documents and materials as the 
establishments they oversee. This principle explains why the Inspector 
General Act grants the IGs access to the documents and materials that 
are available to their establishments. It explains why OIG 
investigators are routinely granted access to TS/SCI materials when 
reviewing TS/SCI programs. It explains why OIG investigators are 
routinely read into some of the government's most highly classified and 
tightly compartmented programs, such as the President's Surveillance 
Program and the programs involved in the Robert Hanssen matter. And it 
explains why any instance of unreasonable denial of access to documents 
or materials under the Inspector General Act must be reported to the 
head of the agency, and why the Attorney General's decision to preclude 
an OIG audit, investigation, or subpoena must be reported to Congress.
    The FBI's withholding of grand jury and other information is 
unsupported in law and contrary to the Inspector General Act and 
exceptions to the general rule of grand jury secrecy. The OIG is 
entitled to access under the Inspector General Act. Moreover, the OIG 
qualifies for two exceptions to the general rule of grand jury secrecy. 
See supra; see also 5 U.S.C. App. 3 Sec. 6; Fed. R. Crim. P. 
6(e)(3)(D), 6(e)(3)(A)(i). It is true, of course, that under Section 8E 
of the Inspector General Act, the Attorney General could deny the OIG 
access to the documents at issue, as many of the documents constitute 
sensitive information within the scope of that Section. See 5 U.S.C. 
App. 3 Sec. 8E. But the Attorney General has not done so, and until he 
makes the written determination required in Section 8E(a)(2) and sets 
out the reasons for his decision, the OIG is entitled to prompt and 
full access to the materials.
    Denying the OIG access to the materials it is seeking would also 
represent an unnecessary and problematic departure from a working 
relationship that has proven highly successful for years. Since its 
inception, the OIG has routinely received highly sensitive materials, 
including strictly compartmented counterterrorism and 
counterintelligence information, classified information owned by other 
agencies, and grand jury information, and it has always handled this 
information without incident. The OIG has always conducted careful 
sensitivity reviews with all concerned individuals and entities, both 
inside and outside the Department, prior to any publication of 
sensitive information, and it has been entirely reasonable and 
cooperative in its negotiations over such publications. The OIG's 
access to sensitive materials has never created a security 
vulnerability or harmed the Nation's interests; far from it, the OIG's 
access to sensitive information has markedly advanced the Nation's 
interests by enabling the independent and objective oversight mandated 
by Congress.
    Simply put, there is no reason, legal or otherwise, to depart from 
the time-tested approach of allowing the OIG full and prompt access to 
documents and using a thorough prepublication sensitivity review to 
safeguard against unauthorized disclosure of the information therein. 
Access to grand jury and other sensitive materials is essential to the 
OIG's work, perhaps never more so than when the OIG is overseeing such 
important national security matters as the Department's use of material 
witness warrants and the FBI's use of its Patriot Act authorities. But 
whatever the subject matter, the authorities and mandates of the 
Inspector General are clear, and neither grand jury secrecy rules nor 
any other statutory or internal policy restrictions should be read in a 
manner that frustrates or precludes the OIG's ability to fulfill its 
mission.

    Senator Shelby. But, we want to make sure the Inspector 
General can do his job, even in the Justice Department.
    Chairwoman Mikulski. Senator Shelby, why don't we, then, 
continue this with the Inspector General? And----
    Senator Shelby. We will.
    Chairwoman Mikulski [continuing]. Given the fact that 
there's an 11:30 vote----
    Senator Shelby. Okay.
    Chairwoman Mikulski [continuing]. We want to be sure 
members have a chance to----
    Senator Shelby. Thank you for your time.
    Chairwoman Mikulski [continuing]. Answer their questions. 
No, and not to stifle--this is really crucial----
    Senator Shelby. It is.
    Chairwoman Mikulski [continuing]. And we acknowledge the 
essential nature of this conversation. And we'll, hopefully----
    Senator Shelby. Sure.
    Chairwoman Mikulski [continuing]. Be able to squeeze in the 
Inspector General.
    Senator Collins.
    Senator Collins. Thank you.

                            GRANTING ASYLUM

    Mr. Attorney General, I mentioned, in my opening remarks, 
that the Department of Justice, along with the Department of 
Homeland Security, plays a critical role in reviewing claims 
for asylum. I believe that this system is seriously broken. It 
has allowed individuals to remain in this country under grants 
of asylum who never should have been allowed to remain here. 
And yet, it takes too long to adjudicate the legitimate cases 
of asylum-seekers, thus delaying their ability to work and 
support their families, and imposing a huge burden on 
communities' general assistance funds while these asylum-
seekers are waiting for their cases to be adjudicated.
    I'd like to give you an example of both, and then get your 
response and find out what you're doing with the Department of 
Homeland Security to improve the system.
    Later this month, as we who live in New England are 
particularly aware, it will be 1 year since the terrorist 
attacks at the Boston Marathon. The circumstances under which 
the perpetrators of the Boston Marathon bombing came to be in 
the United States underscores the need for reform of our asylum 
process. The younger of the two Tsarnaev brothers came to the 
U.S. on a tourist visa in 2002, and was granted asylum on his 
father's petition shortly thereafter. Now, asylum is supposed 
to be available only to those who can show a credible fear of 
persecution in their home country. Yet, the elder Tsarnaev came 
to the United States, leaving behind his wife and three other 
children in the country that he claimed to fear. So, it's 
difficult for me to understand how he possibly could have met 
the burden of proving a credible fear of persecution by the 
country in which he left his wife and remaining children.
    Even more troubling are the questions surrounding the grant 
of asylum to Ibragim Todashev. That is the Chechen immigrant 
who was killed while being questioned by the FBI agents and 
local law enforcement regarding his association with the 
Tsarnaevs and also a triple homicide. It turns out that he came 
to the U.S. in 2008 on a J-1 visa to participate in an exchange 
program that was sponsored by an entity in my State, the 
Council on International Education Exchange. And that is a J-1 
visa sponsor organization.
    Now, from the start, it appears that Todashev had no 
intention of complying with the J-1 visa rules. And indeed, 
shortly after he arrived, the Council withdrew their 
sponsorship of him because he failed to provide the required 
documentation with respect to employment. That very day, the 
Council in Maine instructed him to make immediate plans to 
leave the country, recorded the information on the Federal 
database that is used. And yet, despite this agency doing 
everything correct, and despite the fact that Mr. Todashev was 
out of compliance with the requirements of his visa, he was 
later granted asylum and even a green card. This shocked the 
entity in Maine that reported him from being out of compliance 
with the visa years ago.
    I find this very troubling. How is that a young man from 
Chechnya comes to the United States to participate in a 
cultural exchange program, immediately violates the conditions 
of his visa, is told to leave the country, and then is granted 
asylum? That, to me, shows there's a real problem with sharing 
of information and with the system.
    Now, on the other side, we have the problem of legitimate 
asylum-seekers, and they have been forced to rely on local 
governments for the money that they need to live on. In Maine, 
for example, the cities of Portland and Lewiston, alone, have 
contributed $10 million from their general assistance programs 
to support nearly 4,000 asylum-seekers and their families over 
the past 2 and a half years while they're awaiting the 
adjudicating of their claims to give them a work authorization.
    So, we've got problems on both ends of the spectrum, which 
suggests to me that the entire system is broken. What is the 
Department of Justice doing to work with the Department of 
Homeland Security to solve these very serious problems?
    Attorney General Holder. Well, the responsibility for the 
immigration system, I think, largely falls into the hands of 
DHS, but that is not to try to shirk the responsibility that 
the Justice Department has. We simply need more immigration 
judges. The number of cases that have been pending has 
continued to increase, an increase of 56 percent since 2009. 
Our budget request will enable EOIR, our EOIR, immigration 
component, to add 35 new immigration judge teams. That would 
increase our capacity to look at these cases, adjudicate them 
in an appropriate way, listen to the evidence, and make 
decisions that are based on the facts as they are actually 
developed. We simply don't have, at this point, the ability to 
do the job in as timely a way as I think we should have that 
ability to do.
    Senator Collins. Well, I support your request for 
additional resources, but, frankly, if those judges aren't 
looking at the databases and aren't looking at the information 
from DHS, consulting with the Department of State on whether 
there should be a credible fear of prosecution, looking at 
whether there are violations of visas, adding more judges won't 
solve the problem. I think we need to do both.
    Thank you, Madam Chairman.
    Chairwoman Mikulski. That was an eye opener. Thank you very 
much. It was very meaty. And it also shows, when we do 
immigration reform, we have to look at these practical 
implementations at the local level. What Maine is paying is 
stunning.
    Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chairman.
    Mr. Attorney General----
    Attorney General Holder. Good morning.
    Senator Shaheen [continuing]. Thank you very much for being 
here.

                   HEROIN AND PRESCRIPTION DRUG ABUSE

    As I'm sure you're aware, what we've seen in New Hampshire 
and northern New England is a real epidemic spread of heroin 
and prescription drug opioid use. And we're seeing that very 
much in New Hampshire over the last 10 years. The number of 
people admitted to State treatment programs has increased 90 
percent for heroin use and 500 percent for prescription drug 
use. And, just in the last year, we've seen double the number 
of deaths from heroin abuse between 2012 and 2013.
    Now, this summer, New Hampshire plans to institute a new 
prescription drug monitoring program in the State because of a 
Department of Justice grant that we have received. And I wonder 
if you could comment on how effective these types of monitoring 
programs have been in other parts of the country, and what 
other Federal resources might be available to help us in the 
States as we try and combat this real epidemic of heroin and 
prescription drug use?
    Attorney General Holder. Well, Senator, I think you're 
correct to point out--and the term that's used, I think, is a 
correct one, there is an epidemic. It is one that we certainly 
see in your State, in that region of the country, but it's 
something that we see nationwide. And I think we have to have a 
balanced approach to dealing with this. There has to be an 
enforcement component. The DEA will lead that. We have an 
increase of more than 320 percent, between 2008 and 2013, in 
the amount of heroin that we have taken from the cartels that 
was meant for our shores.
    But, beyond that, enforcement alone is not enough. We have 
to also make sure that we identify this problem as a public 
health problem. Police officers, doctors, educators. We have to 
come up with treatment programs, prevention programs, and 
educational programs.
    I don't think that we should repeat the mistake, frankly, 
that we made when we dealt with the crack epidemic, where we 
looked at it only as an enforcement issue. There has to be an 
enforcement component, but we have to bring into play all of 
these other resources that we have, including supporting the 
programs that you have described, these monitoring programs. It 
is why I think it is so important that our capacity to aid our 
State and local partners be made whole in our budget. These are 
issues that the Federal Government clearly has an interest in, 
but, on the ground, it's our State and local partners who have 
to do these kinds of things. And I want to have the ability, 
through our grant making ability, to support these efforts.

                            DRUG MONITORING

    Senator Shaheen. Well, thank you. And obviously the Byrne 
Justice grants have been very helpful to us in New Hampshire, 
and there has been a real coordinated effort on the part of law 
enforcement. I would hope that you might consider sending 
someone up from the Justice Department to meet with our local 
law enforcement officials as we try and address this issue, 
because, as you point out, it's going to require a multilevel 
approach to really do something to make a difference as we look 
at how many people are being affected.
    Can you talk a little bit about some of the other efforts 
the Department has undertaken to better integrate these kinds 
of strategies, other than--we know the Byrne grants are very 
helpful, we know that the monitoring programs are another way 
to try and address it. What else is the Department doing that 
can be helpful to States like New Hampshire?
    Attorney General Holder. Well, we certainly have a variety 
of things. I mean, we have a great U.S. Attorney in New 
Hampshire. And so, there is----
    Senator Shaheen. Who's doing a great job, I might add.
    Attorney General Holder [continuing]. And so, there is 
certainly the help that we can give on the enforcement side 
there.
    With regard to grants, I think that's certainly something 
that we want to consider. We have the COPS program, so that we 
have the ability to put more police officers on the ground, 
again, to deal with these kinds of issues. We also want to come 
up, I think, with programs that we work with the Department of 
Health and Human Services, as the Chair had suggested. This has 
to be something that is more than simply a Justice Department 
initiative. And I think that we have the ability now to really 
potentially nip this in the bud. But, I think that we have a 
relatively small window before this potentially gets even more 
out of control than it is.
    And I think, as I said, if we take a balanced approach 
involving agencies beyond the Justice Department making sure 
that we are supportive of our State and local partners, and so 
that we educate, and especially educate young people, about the 
dangers of prescription drug use, opioid use, and the problem 
with heroin use, I think that we can really have a significant 
impact on this problem.
    Senator Shaheen. Thank you.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Shaheen, we thank you for 
raising the issue here. We--also, others have raised it. I hear 
it, too. We've asked the Attorney General to really take the 
lead in interagency, because we've got to go to--starting with 
the prescription drug issue up to this. So, thanks.
    And I say to my members here that, as the Attorney General 
develops a strategy, we can arrange a staff briefing to get 
updates and make sure we put this in.
    Senator Kirk, a well-known anti-gang fighter.

                                 GANGS

    Senator Kirk. I wanted to ask you, Mr. Attorney General, 
about the $18 and a half million that this subcommittee has 
approved to fight gangs of national significance to also 
highlight the work of Anita Alvarez, the State's Attorney for 
Cook County, that took down an entire gang, called the Black 
Souls, at one shot with using resources from your Department. I 
would say that's a very good model that the public can get 
behind, taking out a whole gang. I would say that this was not 
one of the vast gangs--like we have the Gangster Disciples, 
over 18,000 members. There were 23 defendants, in the case of 
the Black Souls arrest in June.

                     GANGS OF NATIONAL SIGNIFICANCE

    I would just highlight that issue as a way of attacking 
this problem. We do have about 253 factions of the GDs in 
Chicagoland. If we can execute the $18-and-a-half-million 
strategy to whack a number of those factions and totally 
eliminate them, that you will have a lot of support from this 
subcommittee.
    Attorney General Holder. Well, I certainly appreciate that, 
Senator. I think you're right to identify that as a challenge 
that we have to meet. You know, Chicago, I think, in some ways, 
gets an unfair rap. This is not a problem that is Chicago only. 
This is a problem that exists throughout the country, this 
problem of gangs. Our Marshal Service plans to hire gang and 
technical operation group investigators in seven regional 
fugitive task forces. And we've begun that process, because we 
understand this is a problem that is really nationwide in 
scope. And the effort that you described, where you take down 
significant numbers of these gang members at one time, can 
really tend to cripple them. And so, we're looking to make 
those kinds of cases.
    We want to be strategic in the way in which we use the 
resources that we have. But, the reality is, unless we get at 
this gang problem, we won't get at what I think is really the 
root of our violence problem in too many of our cities. And, 
you know, as I said, it's just not Chicago, it goes well beyond 
Chicago.
    Senator Kirk. Yes. And----
    Madam Chairwoman.
    Chairwoman Mikulski. And, Senator Kirk, we want to continue 
the effort that you so ably undertook, and keep this going. 
You're onto something big, here, and we think it's crucial.
    Senator Kirk. Thank you.
    Chairwoman Mikulski. Senator Merkley.

                            FINANCIAL FRAUD

    Senator Merkley. Thank you, Madam Chair. And thank you.
    About a year ago, you set off a bit of a firestorm when you 
noted that one of the reasons that certain companies couldn't 
be prosecuted is because of the economic impact of potential 
indictments. And later, you backed off that a little bit. But, 
the general point continues to resonate that there have been a 
host of dramatic activities. It seems like every 3 months, we 
have another major scandal, and these scandals involve 
wrongdoing; and often at the heart of it is criminal 
wrongdoing, but largely the institution ends up paying a fine 
and everyone goes back to business as usual.
    I'm just kind of stunned by the list of things that have 
happened during the time that I've been in the Senate. We have 
offshore tax evasion by international banks, we have the 
manipulation of the LIBOR interest index, we have structured 
mortgage-backed securities that were designed to fail, we have 
foreclosure fraud, including robo-signing. We have the 
laundering, of which, I think, the premier example was Hong 
Kong Shanghai Bank Corporation, of what was estimated to be 
hundreds of billions of dollars, possibly a trillion dollars, 
and there were laundering activities that involved terrorist 
activities, drug rings, they involved transactions, the 
proceeds of transactions with states where we have economic 
sanctions that are very important to our national security, 
like our relationship with Iran, and trying to prevent Iran 
from having a nuclear weapon. We have the manipulation of 
electricity prices in an Enron-style scheme. I mean, it just--
the list goes on.

                         INDICTING CORPORATIONS

    Have we reached a different point now? Have we successfully 
tackled the issue of ``too big to fail'' and its close cousin, 
which is more in your realm, of ``too big to jail''?
    Attorney General Holder. Well, what I'd say is, first, that 
there might have been some misinterpretation, misunderstanding 
about what I said. So, I wouldn't say that I necessarily pulled 
back from what I said in that initial statement. Maybe I 
clarified it. But, let me be very clear. No institution is too 
big, no person is too important, to be held accountable in a 
criminal sense, if that is appropriate.
    And if you look at what we have done, beginning in 2013, 
and look at the guilty pleas we've gotten from financial 
industries--UBS, RBS, SAC Capital, Wegland, a Swiss bank; if 
you look at individuals, we've gotten individuals from 
JPMorgan, Goldman Sachs, Morgan Stanley, Credit Suisse, UBS, 
Rabobank, ICAP, Galleon, SAC, Stanford Financial Group. So, we 
have gotten pleas, both from institutions and from individuals. 
We've also done creative and, I think, appropriate things--
appropriately aggressive things with regard to our use of the 
civil law, as well.
    I am proud of what this Department has done in holding 
accountable people who were partially responsible for the 
mortgage meltdown that led to our financial crisis, and other 
things that we have done in the financial realm. This 
Department's record, under my leadership, will, I think, stand 
the test of time. And I'll compare it to any other Justice 
Department, any other Attorney General, at any other time.
    Senator Merkley. So, you would say there is no hesitation 
to pursue criminal charges because of the potential impact on 
an institution? I mean, Arthur Andersen was the example so 
often put forward. And certainly a large bank falling would 
have big reverberations. We all understand that, and that's 
been the dilemma. But, are you saying, today, that dilemma 
doesn't exist and it's not weighed at all by the Justice 
Department?
    Attorney General Holder. There are factors that we 
considered. There was a process that was begun under a Deputy 
Attorney General named Holder, back in the Clinton 
administration, where we put out a certain number of factors 
that have to be considered before a determination is made about 
when an institution is criminally prosecuted.
    If you go after an organization, and you put that 
organization out of business as a result of the indictment, 
that is something that I think you should appropriately 
consider. There are innocent people who then get punished--
potentially, employees, shareholders. Doesn't mean that you 
shouldn't--you might have to make the determination that 
because the company is a recidivist or the harm is so great 
that that is, in fact, the price that innocent people will have 
to pay.
    But, these are the kinds of things that we have to 
consider. And I think our track record shows that, where we 
have made the determination that people and institutions should 
be held accountable, we have not hesitated in doing so.
    Senator Merkley. Well, I'll close with this. I think what 
really stuck in my mind is that, the same week that the 
settlement came out with HSBC, which, I may be wrong, but I 
don't think involved any individuals being prosecuted--that 
same week, there was a story about a woman whose boyfriend 
stashed his drug money in a coffee can in her attic. And, if I 
recall right, I think she is serving 15 years in prison. And 
so, one involved a few dollars, the other hundreds of billions 
of dollars. And it just seemed like the sort of thing that 
sticks in people's minds as to whether the justice system is 
not weighted heavily in favor of the powerful. And I just want 
to encourage you to do all you can--and I understand that often 
it makes sense when individuals are involved, to go after the 
individuals rather than the institution, for the reasons we're 
discussing. But, it's important to our system in the United 
States that the powerful don't pay a fine while the ordinary 
person goes to prison.
    Attorney General Holder. Senator, you make an excellent 
point----
    Chairwoman Mikulski. Thank you very much. Thank you.
    Attorney General Holder. I was just going to say this. One 
of the reasons why our Smart on Crime initiative has at its 
base the notion that there has to be proportionality in regard 
to how we enforce the criminal law. And so, what I'm trying to 
do is work with Congress so that we put some sense of balance 
back into the system that has gotten a little out of balance. 
But, the concerns that you raise are very legitimate ones.
    Chairwoman Mikulski. Thank you very much, Senator Merkley.
    Senator Murkowski.

                                 DRUGS

    Senator Murkowski. Thank you, Madam Chairman. Madam 
Chairman, you have raised, as well as Senator Shaheen, the 
issue of apparent heroin and what we need to do as we move 
forward. And you've used the terminology that we need to be on 
the edge of our chair when it comes to issues like heroin.
    I would suggest, also--and I present this to you, Mr. 
Attorney General--that we are seeing an increasing level of 
synthetic drugs that are coming into our communities and doing 
great damage. And, of course, the problem is that, as a State, 
you can say that, based on this formulary, this is a drug under 
this schedule, but all these individuals have to do is change 
that formulary, and they evade or avoid those laws. We're 
seeing some really devastating impact in some of our very, very 
remote communities, where the only way to get these drugs is by 
the mail. And the drugs are coming into the community through 
the mail, and----
    Chairwoman Mikulski. Through the Post Office?
    Senator Murkowski. Through the United States Post Office, 
Madam Chairman.
    Attorney General Holder. Yes.
    Senator Murkowski. And it is--it's something that we've 
been trying to work on some issues up north, but, again, we're 
seeing--I don't know whether we call it an epidemic, a crisis, 
but we are being beat on these issues and the impact to our 
communities, again, utilizing legal processes to get these 
drugs in there that are, in many cases, wiping out families. 
So----
    Attorney General Holder. Well, Senator----
    Senator Murkowski [continuing]. We need some assistance, 
here.
    Attorney General Holder. Senator, you've raised something 
that I think is a point that we really need to focus on. And I 
had the same reaction that the Chair did when I first heard 
about this. But, you're right, the Postal Service, the mail, is 
being used to facilitate drug dealing. We need to work with the 
Postal Service to come up with ways in which we get at that 
problem. It is shocking to see the amount of drugs that get 
pumped into communities all around this country through our 
mail system. And we have to deal with that. That's a major 
problem that we have to deal with.
    Senator Murkowski. It is major. We need to be talking 
further about this. I've got some ideas, but we need to get on 
it yesterday.

                     PROSECUTION OF SENATOR STEVENS

    Mr. Attorney General, as you know, I continue to seek 
further answers in the miserable prosecution that brought 
Senator Ted Stevens down. We had the FBI Director, Mr. Comey, 
before the committee last week. He indicated, at that time, to 
me that the FBI agent who had brought about this whole issue, 
that he had been severely disciplined. He--the investigation 
came under scrutiny, he was severely disciplined. He didn't 
indicate what that was. And I think we all know there may be 
varying degrees of--what might be severe discipline to one is a 
slap on the wrist to another. Can you shed any light on the 
status of that individual, whether he's still working for the 
FBI? If so, in what capacity? I have requested from Mr. Comey a 
copy of the report to be submitted here to the subcommittee so 
we can further review it. But, it is important that we 
understand what happened.
    Attorney General Holder. Yes. I'll support that effort to 
make sure that you get that information with regard to the FBI 
agent. There also were two prosecutors, two lawyers, who were 
found to have acted inappropriately. They have been sanctioned. 
They have appealed the penalties that we sought to impose. And 
their appeals are now presently pending before the Merit 
Systems Protection Board. Once that body makes its 
determination, we'd be more than glad to share with you--I 
think that's appropriate--to share with you what the Board 
decides to do with those lawyers. But, we imposed sanctions 
against those lawyers, and that is now--as I said, that has 
been appealed to the MSPB.
    Senator Murkowski. And so, they're still working with the 
FBI?
    Attorney General Holder. I'm talking about the lawyers. The 
lawyers are still at--still at----
    Senator Murkowski. Excuse me. With Department of Justice.
    Attorney General Holder. They're still at the Department, 
yes.
    Senator Murkowski. So, I--again, I would suggest, you know, 
Is this really harsh discipline?
    Let me inquire further in this area. Last year, I 
introduced the Fairness in Disclosure of Evidence Act, and what 
we're attempting to do is ensure that the obligation to 
disclose the exculpatory evidence to Federal defendants, in 
accordance with Brady rules, is uniformly applied across the 
districts. I think we saw, in the Stevens case, that this was 
part of the problem. This bill was endorsed by broad spectrum 
of folks, but, at the end of the day, apparently was 
unacceptable to the Department. And yet, there was no real 
assistance or guidance, in terms of what was not acceptable to 
the Department.
    So, what I would ask of you--I mean, I can keep trying to 
write bills on this. I'm not going to give up. I think that 
this is too important. But, if you would be willing to work 
with us to determine what might be acceptable, in terms of 
those parameters--because, again, I think, when we lack 
uniformity with regards to these--this obligation to disclose 
this evidence, you're going to get outcomes that will not only 
be upsetting, but are difficult, then, to defend from within 
your Department.
    So, if you would give me some assurance that we can be 
working with you to try to better define this, I'd appreciate 
it.
    Attorney General Holder. Well, certainly we want to work 
with you and certainly maybe make available to you, or aware 
of, the training that we do in the Department. There----
    Senator Murkowski. We've been told about the training. But, 
again, you've got--you don't have uniformity across the 
districts. And so, if you're--if you've got training going on 
over here, and you focus in one area, and the application is 
different than we have over there, it doesn't achieve the same 
end result.
    Attorney General Holder. Yes. And that's something we've 
tried to eradicate through this training so that there is one 
person in every office, every U.S. Attorneys' Office--at least 
one--who can be seen as almost an ethics guru, a person to whom 
you can go if you have a question about what materials should 
be turned over. And we also try to make sure that every 
prosecutor understands his or her obligations under what is 
clear Supreme Court law, as defined in Brady and in subsequent 
cases.
    I think that the problems that were identified in the 
Senator Stevens case, and which I think justified my decision 
to dismiss the case, are not typical of what happens with 
Federal prosecutors around this country who, in millions of 
cases, making millions of decisions, are complying with their 
Brady and other ethical obligations.
    And I think there's a danger that we paint with too broad a 
brush the really terrible experience that we had in Stevens, 
and blame other people, other prosecutors who have not done 
anything improper, inappropriately, and they are seen in the 
same light.
    So, I'd be more than glad to work with you and talk to you 
about this issue, and try to come up with a way in which we can 
satisfy you that we are doing a good job. And if there are 
suggestions that you have about ways in which we can do this 
better, I'd be more than glad to sit down and talk to you and 
work with you in that regard.
    Senator Murkowski. Thank you, Madam Chairman.
    Chairwoman Mikulski. Senator Landrieu.
    Senator, before you begin, I want to advise the committee 
that the votes at 11:30 a.m., have been postponed to late this 
afternoon, now pending at approximately 4:30. Who knows.
    Senator Landrieu.

                    SAFETY OF CORRECTIONAL OFFICERS

    Senator Landrieu. Thank you, Attorney General Holder, for 
your service. And thank you, Madam Chair, for your leadership.
    I have three questions. One of them is about the safety of 
our corrections officers in some of our high-security Federal 
prisons. As you know, one of the challenges that the Chairwoman 
of this committee has taken up, and the Nation is focused on, 
is the overcrowding of our prisons, the per-capita--you know, 
the per-capita statistics about the number of people in prison 
in the U.S. We've had discussions about this, this morning. We 
need to change our policies, we need to provide additional 
resources. But, I want to focus specifically on the safety of 
our corrections officers.
    You may be aware that in Louisiana we had one of our 
corrections officers brutally----
    Attorney General Holder. Right.
    Senator Landrieu [continuing]. Brutally beaten and stabbed. 
He, because of the rules of the Department of Justice and the 
staffing requirements, was on a floor, Madam Chair, with 100 
prisoners out of their cells, and there was one security 
officer.

                            PRISON STAFFING

    Now, in the letter that I wrote to you, and you responded, 
one of the responses--part of the response was that you all had 
provided pepper spray for some of these officers. Now, I'm not 
sure how effective pepper spray is going to be, Mr. Secretary, 
in the hands of one officer with 100 prisoners out of their 
cells.
    So, the budget request to help upgrade the security for 
these officers was $79 million. It was not submitted in your 
budget. There are other priorities, I understand. But, did 
you--did this come up to you? Did it come to a lower level of 
decision about the allocation of resources to protect these 
officers that we're asking to do pretty dangerous jobs in 
pretty dangerous situations? And would you reconsider?
    Attorney General Holder. Well, the concerns you've raised 
are very legitimate, Senator. And what we're trying to do is 
work at this from two angles:
    First, to work with the union. We have a different 
relationship with the new leadership of the union, a new 
director of the Bureau of Prisons, and I think we have made 
really substantial progress in that relationship. It is not as 
antagonistic as it once was. And, I think, through that 
relationship and through the interaction that they're going to 
have, I think we'll do better.
    We're also prioritizing the filling of staff positions. The 
fiscal year 2015 request supports the hiring of 4300 new 
officers that were included in our 2014 enacted appropriation. 
We need, simply, more bodies, and that is why we are 
prioritizing filling staff positions, so that we have more 
people there, in addition to whatever else that we're doing 
with the union.
    Senator Landrieu. Okay. Well, I would appreciate your 
continued focus on that. The prison in Pollock is this 
particular situation, but I understand there have been 
literally dozens, if not, you know, hundreds, of incidents of 
attacks against correctional officers. And, while we do want to 
focus on the safety of the prisoners, which is important, as 
well, we really want to focus on the safety of the men and 
women in uniform doing their job to keep order in the prison 
and in our country.

               TRANSITION TECHNICAL ASSISTANCE PROVIDERS

    My second question is about domestic violence. It's 
something that the Chairman and I have supported, and many 
members of this committee, literally for years and years. 
There's some kind of new provision that you all are encouraging 
in the budget called ``transition officers''--I'm sorry, 
``technical assistance providers'' to the domestic violence 
shelters around the country. I've been hearing some complaints 
about that from my network of--that I trust; in and out of 
administrations, Republican and Democrat, they've been very, 
very good to do this work. They're saying that some of these 
transition technical assistance providers come in without a lot 
of knowledge about what's actually happening on the ground in 
our regions and in our cities. I'm encouraged that your budget 
includes 423 million to reinforce efforts to combat domestic 
violence. We rank, Louisiana, one of the top States, 
unfortunately, for domestic violence in the country.
    But, can you comment about this office, this new 
contractual arrangement with technical assistance providers? 
What are they supposed to be doing, and why are they needed?
    Attorney General Holder. Well, I'll be very honest with 
you, I'm not familiar with the complaints that you have raised. 
And perhaps our staffs can get together and we can get some 
more specifics about the complaints that have been raised so 
that we can examine who these people are and what the nature of 
the problems might be.
    We have an Office on Violence Against Women budget request 
of $423 million, and this whole notion of combating domestic 
violence, sexual assaults, and violence against women 
generally, is a priority for this Justice Department, and it 
has been a priority of mine throughout my career. To the extent 
that there are issues in the way in which we are using all--
those resources, I'd----
    Senator Landrieu. Well, I would----
    Attorney General Holder [continuing]. Like to spend some 
more time with you --
    Senator Landrieu [continuing]. Appreciate that, because I 
know it's been a priority, and I want to commend you and the 
President for your emphasis on it. But, that's what worries me, 
when this came up. So, I'll follow----
    And, Ms.--Madam Chairman, I'm just going to submit this 
question to the record.
    The New Orleans Police Department entered into a consent 
decree with your office. There doesn't seem to have--they don't 
have the review that was required yet. My question, in writing, 
What is causing the delay? And what process are you using to 
review the NOPD Justice? And I'll submit that in----

    [Note: See response to Senator Landrieu's question in the 
``Additional Committee Questions'' at the end of the hearing.]

    Attorney General Holder. Okay.
    Senator Landrieu [continuing]. Writing.
    Attorney General Holder. Thank you.
    Chairwoman Mikulski. Senator, that was excellent.
    Senator Boozman, you've been very patient.
    Senator Boozman. Thank you, Madam Chair, as always.
    And thank you for being here.
    I was looking--when you look back 15 years ago, the Bureau 
of Prisons' enacted budget was $3.1 billion. I think this year 
we're asking for--fiscal year is $6.9 billion, which I'm very 
supportive of. Senator Landrieu has outlined some of the 
problems that we have. I've had the opportunity to visit some 
prisons, and see that there are really difficult situations. 
The problem is--right now, it's taking up 25 percent of your 
budget--as opposed to, not too long ago, just 16 percent. So, 
we've got to do something to bend the cost curve.

                              DRUG COURTS

    One of the things that I'm being supportive of, very 
interested in, is drug courts. And a GAO study in 2011 
confirmed that drug courts reduce crime by up to 58 percent. 
The best drug courts cut crime rates in half, return $27 to 
their communities for every $1 invested.
    The other thing is, when people go off to prison, usually 
they're working, and help to support the family----
    Attorney General Holder. Right.
    Senator Boozman [continuing]. So you leave the family 
destitute.
    So, I would really encourage us to look at that. I think 
it's something--to me, it's just a no-brainer. We don't do a 
good job of supporting at the Federal level, our States aren't 
doing a good job of it. We do need to look and make sure that--
I say the good drug courts are returning that----we do need to 
have standards and make sure that they're doing things 
appropriately. But, again, if you could look at that, and I 
know that you are interested in, it's something that we can get 
done.
    The other thing I'm really concerned about as has been 
mentioned on several occasions today, is the prescription drug 
problem. Now, we don't want to put meth on the back burner, 
which it seems to be done a little bit, because, when I talk to 
our sheriffs--though it might not be used as much, it's the 
cause of the violent crime. It's the--when you look at who's in 
prison, you've got all these people using different things, but 
the people that are actually in prison causing violent crimes 
are meth-related. So, there's just something about that drug 
that totally rewires your system.
    But, in regard to the prescription drug problem, I really 
do wish you'd get a task force together. This is something that 
the CDC needs to be involved, the NIH and research, our 
prescribers--there's no good data as to how addictive this 
stuff is. And so, it's being overprescribed. We need to educate 
the prescribers more than we need to educate the individuals 
that are doing it.
    We all have these drug take-back days. You can go into some 
little community, and they have a drug take-back, and there'll 
be pounds and pounds of this stuff that come in. These are the 
good people, that actually go to the trouble to drop it off. As 
I visit with my sheriffs, going to the rehab centers and asking 
them where they're getting it, many of the people that got 
their prescription drug pills through the mail or whatever, it 
was sold to them through senior citizens that are supplementing 
their Social Security. The VA's been terrible about this, and 
they're doing a better job. You know, we're staying after----
    So, I guess what I would really encourage, we really need 
to get all of those groups together. Prescribing is a huge 
issue. We need to get really aggressive. I think that--my 
understanding is that probably the leading cause of accidental 
death in young people now is----
    Attorney General Holder. Drugs.
    Senator Boozman [continuing]. Prescription drugs and 
alcohol. If we had the same sort of casualty rate overseas, 
with young people dying as a result of some sort of situation 
we were in, as far as a war, there would be a tremendous 
uproar.
    But--I've gone on too long, but if you would just consider 
those things, I think we can actually do some good.
    Attorney General Holder. Well, Senator, I actually think 
that you didn't go on too long, because I think what you've 
talked about is extremely important. The use of drug courts is 
extremely important. About a third of our budget now is taken 
up by expenses connected to the Bureau of Prisons. And we 
certainly have to do all that we can to keep people who work in 
our prisons safe. But, if a third of the budget, and 
increasingly more of the budget, is going to the Bureau of 
Prisons, that's fewer prosecutors that we can hire, fewer 
agents who we can put out on the streets. And drug courts are a 
way in which we can handle these kinds of problems in a way 
that's more cost-effective, reduce the prison population, and 
that has all kinds of benefits that flow from it.
    We have focused on heroin here today, but your focus on 
meth is exactly right. This continues to be a problem that is 
directly connected, for whatever reason--pharmacological, I'm 
not sure--with violence. And we cannot lose sight of that 
problem, as well.
    So, the approaches that you are talking about, I think make 
a great deal of sense and are consistent with the approaches 
that we are trying to push as part of the Smart on Crime 
initiative, where we are looking at new, innovative ways--
evidenced-based ways in which we can deal with these issues. 
Strong enforcement--we're not giving up on that at all--but 
also looking at ways in which we deal with these drug problems 
in new ways, through, for instance, as you describe, drug 
courts, which I think have a great record, if done well, of 
turning people around, getting them off their habits, and 
cutting the recidivism rates, which ultimately saves us money.
    Senator Boozman. Thank you, Madam Chair.
    Chairwoman Mikulski. I'm turning to Senator Leahy, who 
spoke to me about the heroin problem and has continued to speak 
in a very forceful way.
    And you can hear where we are here, Mr. Attorney General. 
Senator Boozman has really outlined how, in some ways, the 
Federal Government are enablers, from the Post Office to the 
VA, giving drugs to one group, et cetera. And we've got--this 
is where the Interagency Task Force needs to happen, and I 
think sooner rather than later.
    Senator Leahy, I know you've spoken on this, and, of 
course, you're the chair of our Judiciary Committee. We're 
eager to hear your questions and, again, your----
    Senator Leahy. Well, I----
    Chairwoman Mikulski [continuing]. Expertise in this area.
    Senator Leahy. Madam Chair, I appreciate what you've said 
and what Senator Shaheen said earlier about what I've been 
doing up in Vermont. The Attorney General and I have known each 
other for a long time, long before he was Attorney General. 
We've talked about this a great deal.

                                 DRUGS

    I saw the article, the other day on the front page of the 
Post, about where they've tried to--I guess this was in New 
Jersey--have a program set up so that if somebody is having an 
overdose and one of the people with the person can call for 
medical help without being arrested----
    Attorney General Holder. Right.
    Senator Leahy [continuing]. Themselves. We actually did 
this in a thing called The Place, in Burlington, Vermont, for 7 
or 8 years, back in the late '60s and early '70s, because, as 
chief law enforcement officer of that county, I could put it 
off limits. The police agreed with me on that. Somebody could 
come in, having an overdose, their friends could come in. They 
just had to empty their pockets of any drugs they had, but 
nobody would follow up the record. We had young interns and 
residents at the medical school who volunteered their time to 
be there, one of whom is now a very noted surgeon in this area.
    So, I appreciate what you said. And Senator Shaheen and 
Senator Boozman and I have talked about this before.
    Also, just my--and--well, this is not the issue here 
today--Senator Murkowski talked about the Senator Stevens case. 
Just so it doesn't appear to be partisan, I totally agree with 
her. And you and I discussed that. I applauded your decision to 
dismiss that case. It should not have been handled the way it 
was. And I agree with that.
    On a happier note, when the Justice Department arrested 
Sulaiman Abu Ghaith, Osama bin Laden's son-in-law, you received 
a huge amount of criticism because you had read him his Miranda 
rights and did not bring him straight to Guantanamo so he might 
face a military commission and instead you said that America's 
strong enough, we can use our courts, the best in the world, 
and brought him to New York. And he was convicted--in fact, I'd 
much rather be the prosecutor in that case than the defense 
attorney--and demonstrated that--I think we've had three or 
four convictions in the military tribunals, we've had several 
hundred in our Federal courts. So, thank you for doing that. It 
proved that--proved to the rest of the world, we use our 
system, it works. And you got a good conviction there. So, I 
commend you on that.
    In Burlington, Vermont, we've implemented a community 
impact team approach, law enforcement tools for targeting drug 
traffickers, but also steering addicts to treatment. I would 
urge you and the Department to continue helping local and State 
governments in these kinds of programs.
    Attorney General Holder. Well, that is certainly our 
intention. It is interesting, I'd like to hear more about The 
Place and see how that worked. Those are the kinds of locally 
based, innovative kinds of things that we want to identify. If 
the evidence shows that they are effective, we want to try to 
support it. And that's why I think the grant making function of 
the Justice Department can be so important.
    We are working, as best we can, to deal with this epidemic 
of heroin, the continuing problem of meth. Drugs continue to be 
a problem for this Nation. The connection between drugs and 
violence is inescapable. The number of people who are on drugs 
or have drug-related crimes who are in our prisons is still 
exceedingly high. And no one should take from this Smart on 
Crime initiative any sense that we are retreating from our 
enforcement responsibilities in that regard. All we're trying 
to do is to come up with ways in which we can be more effective 
and ultimately knock down the recidivism rate by dealing with 
people who have drug problems that tend to breed crime.
    Senator Leahy. Well, your excellent U.S. Attorney in 
Vermont, Tris Coffin, has worked with the local and State, and 
that's been very helpful, to have the Justice Department so 
involved.
    I--in that regard, I know the Office of Juvenile Justice 
and Delinquency Prevention, we've mentioned, has indicated an 
intention to change eligibility requirements for grantees on a 
national mentoring program by requiring they have a presence in 
just 30 States rather than the current requirement they serve 
at least 45 States. Obviously, when you're representing the 
second-smallest State in the country, I worry--are you going to 
give priority to national programs that have shown a proven 
capacity?
    Attorney General Holder. Yes, we certainly want to 
support--again, what we want to do is try different things. 
And, for those things that the evidence shows work, we want to 
support those. And, to the extent that you have a concern about 
OJJDP's perhaps pulling back, that's something I'd like to talk 
to you about, or our staffs could talk about, because I don't 
want size to be the prime determinant as to how we are 
apportioning our funds or how we're using our grant making 
capability. We want to make sure that, in large cities and in 
small towns, to the extent that we can, a positive Justice 
Department presence is there.

                           IMMIGRATION COURTS

    Senator Leahy. And lastly, if I just might note, Madam 
Chair, the Nation's immigration courts are understaffed--you've 
got 32 vacancies, nearly half of the 200 immigration judges 
eligible for retirement, pending caseload has grown by 50 
percent. You've requested $17 million to support an additional 
35 immigration judges to help process the backlog of over 
350,000 cases. Is this a priority? Because I really worry that 
we're going to reach such a tipping point that justice will 
just be totally denied.
    Attorney General Holder. Yes. It is a priority. We have 
made a specific request for those 35 immigration judge teams. 
We think that that would have the potential to reduce a 
caseload, I think, of between 20- and 35,000 cases. We have to 
get at the backlog that exists. We can do that, I think, by 
coming up with innovative procedures and processes. But, I 
think, at base, we just simply need more immigration judges, 
and that's why we have included in our fiscal year 2015 request 
those additional funds for those additional teams.
    Senator Leahy. Thank you very much.
    Thank you, Madam Chair.
    Chairwoman Mikulski. And, Senator Leahy, we're sharing with 
the Attorney General your idea on how to look at cops on the 
beat involved in heroin, as well as the interagency.
    Senator Graham.
    Senator Graham. Thank you, Madam Chairman.

                            SEX TRAFFICKING

    My Reserve unit last night got a briefing from the FBI 
about 69 task forces that are dealing with crimes of sex 
trafficking, exploitation of young women, in particular. And I 
was just really impressed with what I saw. So, I want to come 
visit and see how can we maximize that. I think the committee 
would be astonished as to what's going on out there. At least I 
was, I'll just speak for myself. And I just want to commend you 
on that program.

                        EFFECTS OF SEQUESTRATION

    So, tell us, if you could--in 2016, sequestration kicks 
back in. Could you walk through, fairly quickly, what does it 
mean to your Department, future Attorney Generals, to be able 
to protect this Nation if sequestration is fully implemented, 
going forward?
    Attorney General Holder. I can tell you that it will have a 
devastating impact, as it did over the course of the last 
couple of years. Since I put into effect a hiring freeze, I 
guess 3 years or so ago, we lost about 4,000 people, in total, 
in the Justice Department--about 1,470 attorneys and support 
staff, 900 attorneys and support staff. We lost 6 percent of 
the roughly 10,000 lawyers in the Department. The FBI lost over 
900 agents, analysts, and other staff. DEA lost 700; ATF, 500; 
United States Marshals, 300.
    Those are pretty daunting numbers, and you can't expect the 
Justice Department to do the job that the American people want 
us to do, and that we want to do, if we are faced with that 
kind of issue again.
    I would not wish this upon any of my successors.
    Senator Graham. And it gets worse over time, right?
    Attorney General Holder. Absolutely. We have in place now a 
budget for the next 2 years that will, I think, help us make up 
some of the lost ground. But, unless we have, in 2016, a 
realistic budget that deals with the need--we can't have 
another flat budget, and we certainly can't go to 
sequestration--unless we have a budget that increases the 
amount of money that goes to the Justice Department, we're 
going to find ourselves in the same place. And, at the end of 
the day, it's going to have at some point, an effect on 
performance. It simply will.
    Senator Graham. We'll be less safe as a Nation?
    Attorney General Holder. I think that's absolutely right.

                               TERRORISM

    Senator Graham. Do you agree with me that we're still 
involved in a war against radical Islam, for lack of a better 
definition?
    Attorney General Holder. For lack of a better definition, I 
would agree with that, yes.
    Senator Graham. Okay. And homegrown terrorism is a threat 
that we have to deal with now? It's probably growing.
    Attorney General Holder. Absolutely, and it's----
    Senator Graham. So, our----
    Attorney General Holder. It is growing. That is the one 
that keeps me up at night.
    Senator Graham. Yes. Rightly so.
    Cyber attacks on this country, we're going to have to get 
ahead of that. A lot of infrastructure to be built. Do you 
agree?
    Attorney General Holder. Yes.
    Senator Graham. So, the threats we face are growing, and 
our budgets are shrinking?
    Attorney General Holder. That's right.
    Senator Graham. Who would have thought of that? The 
Congress. Okay? Not you. So, I hope the Congress will rethink 
this and we can, in bipartisan fashion, give some relief to 
sequestration, where Republicans give, Democrats give, and we 
replace it with something that will make sure the country's 
safe.
    Now, back to my favorite topic, how to defend America 
that's at war. I've always told you that I agree that Article 
III courts have a very viable role in the war on terror. And 
you've told me that you believe there's a place for military 
commissions. Are we still on the same sheet of music?
    Attorney General Holder. Agreed, yes.
    Senator Graham. Okay. Do you agree with me that enemy 
combatant status being conferred on a potential terrorist 
suspect is still lawful in this country, and we can hold 
somebody as an enemy combatant if they meet the criteria?
    Attorney General Holder. If they meet the criteria, yes, 
there is a legal basis to do that.
    Senator Graham. Okay. Do you agree with me that 
intelligence-gathering is very important when it comes to 
stopping potential attacks against the country?
    Attorney General Holder. I totally agree with that, and 
we've done so in the use of our Article III system, gathered 
intelligence from people before we have prosecuted them.
    Senator Graham. Okay. Now, how long have we held people at 
Guantanamo Bay as enemy combatants? Isn't there a group being 
held for years down there?
    Attorney General Holder. Yes, I think there are people 
there for----
    Senator Graham. Yes.
    Attorney General Holder [continuing]. There 10, 11, 12 
years.
    Senator Graham. So, this idea that bin Laden--we caught him 
because of waterboarding. People say that's not true. And I'm 
in that camp. I think we were able to catch bin Laden because 
we gathered intelligence over a long period of time from people 
held at Guantanamo Bay, and we put the puzzle together. Do you 
think that's a fair statement?
    Attorney General Holder. Yes, I think there were a variety 
of things that led to the death of bin Laden. Some was 
intelligence gathered from people who were detained at 
Guantanamo.
    Senator Graham. And some was outside.
    Attorney General Holder. Some outside.
    Senator Graham. Now, here's what I want to make sure you 
understand. I will support Article III courts, but, Mr. 
Attorney General, you'll never convince me that the criminal 
justice system is the best way to gather intelligence in a war. 
I don't know of any military in the world that uses their 
criminal justice system to gather intelligence from enemy 
combatants. They have a military intelligence-gathering 
process, which is a completely different legal endeavor. Do you 
agree that gathering intelligence is different than 
prosecuting?
    Attorney General Holder. Yes, it is. And it's why the 
process that we have put together involves the use of the HIG--
--
    Senator Graham. The HIG, yes, good system.
    Attorney General Holder. We put the HIG in there, they 
talk----
    Senator Graham. Yes.
    Attorney General Holder [continuing]. To people who we 
capture. We then put in a whole different team that's 
responsible for the trial of the case.
    Senator Graham. Okay. Convictions are great. I'm more 
worried about finding, from that suspect, what the enemy's up 
to. The trial is important. The son-in-law of bin Laden, how 
long was he interrogated before his Miranda rights were read?
    Attorney General Holder. I believe about a week or so. I'm 
not sure about that.
    Senator Graham. I think it's hours, not days.
    Attorney General Holder. All right. Well, I'm not----
    Senator Graham. And here----
    Attorney General Holder [continuing]. I'd have to----
    Senator Graham. Right.
    Attorney General Holder [continuing]. Get you a more----
    Senator Graham. Here's my only point. I think the Article 
III trial was the right venue for him. Here's where we differ. 
If we keep criminalizing the war--when we capture these guys, 
if we don't hold them for a period of time to gather 
intelligence, and put them right into the criminal justice 
system, I believe we're missing great opportunities to find out 
what the enemy's up to, because I personally believe that once 
you Mirandize someone and give them a lawyer, it is much harder 
to gather intelligence than it would be if you let your 
military and CIA officers lawfully--not torture--gather 
intelligence.
    So, I just hope that you'll be sensitive to this, because I 
think we're giving up intelligence-gathering opportunities by 
putting people in court right off the bat. And it makes it more 
likely we get attacked if we go down criminalizing the war. 
That's just my two cents' worth.
    Attorney General Holder. Well, I think our experience has 
shown--and I think, in some ways, it's surprising--that once we 
come into contact with these people, and even after they're 
given their rights, there is still, for whatever reason, a 
desire on their part to talk, and they waive their rights, 
frequently, and speak with us, and we've had, I think, very 
fruitful interactions, where we have gathered usable 
intelligence in the Article III setting. People, I think, tend 
to forget that--I have sent people to the military commissions. 
I think we have to have both. But, I don't think we should shy 
away from using a system that is tried and true----
    Senator Graham. I----
    Attorney General Holder [continuing]. And that I think 
has----
    Senator Graham. I'm way over my time. I couldn't agree----
    Chairwoman Mikulski. You are.
    Senator Graham [continuing]. With you more. I just want to 
make sure that, before we put them in the military commission 
and Article III courts, that we try to gather as much 
intelligence as possible, lawfully, before we try them. That's 
all I'm saying.
    Attorney General Holder. And look--and that's what we try 
to do.
    Chairwoman Mikulski. Mr. Attorney General, we thank you for 
your testimony today. And, as you could see, this is a pretty 
smart, aggressive committee, and--but, most of all, where 
we're--we really want to work across the aisle and, really, 
protecting our people, starting first of all with the 
Constitution. So, we want to protect the Constitution, we want 
to protect the people against all enemies, foreign and 
domestic. And that means the scam and scum who prey on people 
with greed, like mortgage fraud, all the way up to these 
despicable acts of terrorism. You've got a big job, and we wish 
you had a bigger budget, but we're going to take a good look at 
it and see how we can support you.
    Yes.
    Attorney General Holder. I just--maybe I could say just one 
thing, and that is a thank you to this committee and to the 
Chair, as well as Senator Shelby. We had dark days in 2013, and 
the flexibility that you allowed us with regard to moving money 
around meant that people at the Justice Department did not have 
to be furloughed, it meant that people had the basic ability to 
pay mortgages, to keep their kids in school, to buy groceries. 
It allowed the Justice Department to do its job, under very 
trying circumstances. We would not have been able to do that 
without the flexibility that you gave us.
    So, on behalf of the 113,000 men and women of the Justice 
Department, I want to thank you--this committee generally, but 
you two specifically--for that flexibility.
    Chairwoman Mikulski. Well, really, we could not have done 
it had we not worked on a bipartisan partnership and, really, 
with our colleagues in the House, Congressmen Rogers and Lowey. 
But, this is where we're trying to say, we're here--we're all 
in it together. We all take the same oath to the Constitution 
and to protect it. And so, we thank you for that. And you're in 
the front lines, and we're going to worry about the bottom 
lines.
    So, we're going to excuse you now and say that if there are 
questions related to the Attorney General, the record will be 
open, and we----
    Senator Shelby. Madam Chair.
    Chairwoman Mikulski [continuing]. Ask them to respond in 30 
days.
    We're going to go to the Inspector General now.
    Senator Shelby.
    Senator Shelby. Madam Chair, I have several questions for 
the record for the Attorney General, but I'm sure others do, 
too.
    Chairwoman Mikulski. Yes. So, the Senator's right will be 
protected, as are others.
    We're really doing these 60 hearings in 6 weeks, so there 
are many who wanted to come, but couldn't. So, there'll be 
additional questions.
    Thank you very much, Mr.----
    Attorney General Holder. Thank you.
    Chairwoman Mikulski [continuing]. Attorney General.
    So, we now call upon the Inspector General, Michael 
Horowitz.
    Mr. Horowitz, we're glad to see you, and we're glad a 
changing in the vote schedule allows us to take your testimony 
in person. Both Senator Shelby and I are vigorous supporters of 
the Inspector General system, and we look forward to your 
testimony and your advocacy here.
    Please proceed, sir.
STATEMENT OF HON. MICHAEL E. HOROWITZ, INSPECTOR 
            GENERAL
    Mr. Horowitz. Thank you, Madam Chairwoman and Ranking 
Member Shelby, members of the subcommittee. Thank you for 
inviting me to testify today, and for your continued strong 
support of our work.
    It would be hard for me to overstate the importance of 
having an appropriated budget this fiscal year that we can plan 
around and that will enable us to rebuild our staff, which 
shrunk by nearly 10 percent over the past 2 years. Moreover, 
removing furlough and shutdown threats provides a much-deserved 
boost to the morale of our staff, which has steadfastly 
performed at an extraordinarily high level over the past 2 
years.
    Since my appearance before you last June, our office has 
issued numerous reports that have important implications for 
the Department's budget and that promote transparency and 
increased efficiency. Just last month, for example, we reported 
on the Department's efforts to address mortgage fraud, we 
examined the operations of the Organized Crime Drug Enforcement 
Task Force Fusion Center, we audited the FBI's management of 
Terrorist Watch List nominations, and we reported on the 
Federal Bureau of Prisons' efforts to improve acquisitions 
through strategic sourcing, and we continue to conduct 
extensive oversight of the Department's cyber security efforts 
and its national security initiatives.
    For example, we are reviewing the FBI's implementation of 
its next-generation cyber initiative, as well as the FBI's 
regional computer forensic laboratories. We are reviewing, with 
three other inspector generals, the U.S. Government's handling 
and sharing of intelligence information leading up to the 
Boston Marathon bombing. We also continue our efforts to ensure 
that allegations from whistleblowers are reported, 
investigated, and handled appropriately.
    I'm proud that our efforts were recently recognized with 
certification from the Office of Special Counsel. We will 
continue to foster an open and effective environment for 
whistleblowers to come forward with information about waste, 
fraud, abuse, and misconduct.
    Late last year, in our Annual Top Management Challenges 
Report, we identified six areas where the Department is facing 
major challenges: addressing the crisis in the Federal prison 
system, protecting taxpayer funds from mismanagement and 
misuse, enhancing cyber security, safeguarding national 
security consistent with civil rights and civil liberties, 
ensuring effective and efficient law enforcement, and restoring 
confidence in the integrity, fairness, and accountability of 
the Department. I'd like to highlight the first two of those 
areas today.
    The crisis in the Federal prison system continues today. 
During my testimony before this subcommittee last year, I 
discussed at length two interrelated crises in the Federal 
prison system. The first is that costs continue to consume an 
ever-larger share of the Department's budget, with no evidence 
that the cost curve has been broken. For example, the BOP's 
budget continues to increase over the last 2 years at an even 
faster rate than the Department's budget. Moreover, while the 
number of Department employees has decreased since fiscal year 
2012, the number of BOP employees has increased during that 
same time. As a result, one out of every three Department 
employees now works for the BOP. In the past year, the 
Department has announced several new initiatives to address 
this challenge, but much will depend on the success of their 
implementation, which we will, of course, monitor.
    In connection with this challenge, the Department must 
consider its growing number of elderly inmates. From fiscal 
year 2010 to fiscal year 2013, the population of BOP inmates 
over age 65 increased by 31 percent, while the population of 
inmates 30 or younger decreased by 12 percent. This demographic 
trend has significant budgetary implications, because older 
inmates have higher healthcare costs and are more expensive to 
incarcerate. The OIG is currently conducting a review in this 
important area.
    The other half of the prison crisis, which was discussed 
earlier today, is ensuring the safety and security of staff and 
inmates in overcrowded Federal prisons. Despite having a nearly 
$7 billion budget as of November 2013, the BOP was operating 
its facilities at approximately 36 percent over rated capacity. 
Moreover, the BOP's inmate-to-staff--inmate-to-correctional-
officer ratio has remained at approximately 10 to 1 for more 
than a decade. In comparison, in 2005 the five largest State 
correctional systems had no more than an inmate-to-correctional 
ratio of over 6 to 1. Thus, not only must the Department 
evaluate the BOP's cost structure, it must also find ways to 
address capacity and staffing challenges.
    Avoiding wasteful and ineffective spending is another 
fundamental responsibility of Federal agencies in any budgetary 
environment, but it's particularly important in the current 
climate. In 2013, the OIG reports identified more than $35 
million in questioned costs and more than $4 million in 
taxpayer funds that could have been put to better use. The 
Department must remain vigilant on the monies it gives to third 
parties, whether contractors or grants, and make sure that they 
demonstrate that the money--the value that's being received is 
worth the money that's being given out.
    Let me turn briefly now to two areas of our effectiveness 
that I'd like to address. Providing strong and independent 
oversight of the IG's--of the ability of the IG to oversee the 
Department is critical. For any oversight agency to be 
conducted effectively, we must have complete and timely access 
to all records in our agency's possession that we deem relevant 
to our ongoing reviews. This is the principle Congress codified 
in Section 6 of the IG Act. Most of our audits and reviews are 
conducted with full and complete cooperation from the 
Department. However, there have been occasions when our office 
has had issues arise with timely access to certain records due 
to the Department's view that access was limited by other laws. 
Ultimately, in each instance, the Attorney General or the 
Deputy Attorney General provided the OIG with permission to 
receive the materials, and they have made it clear they will 
continue to do so, as necessary, going forward.
    However, requiring an Inspector General to request and 
receive permission from Department leadership in order to 
review critical documents impairs our independence and can 
delay our work unnecessarily. Stated simply, under the 
Inspector General Act, an Inspector General should be given 
prompt access to all relevant documents within the possession 
of the agency it is overseeing.
    Let me turn briefly to an issue, finally, that was 
discussed during my testimony before you last June. Unlike 
Inspectors General throughout the Federal Government, our 
office does not have the authority to investigate alleged 
misconduct by lawyers in the Department. In those instances, 
the Inspector General Act grants exclusive investigative 
authority to the Department's Office of Professional 
Responsibility. My office has long questioned the distinction 
between the treatment of agents who engage in alleged 
misconduct and those of Department attorneys. Last month, the 
independent, nonpartisan Project on Government Oversight issued 
a report that was critical of the OPR's lack of transparency, 
and recommended that Congress empower our office to investigate 
misconduct by DOJ attorneys.

                           PREPARED STATEMENT

    Our office's statutory and operational independence from 
the Department ensures the integrity of our investigations and 
that they occur through a transparent and publicly accountable 
process. Giving the OIG the ability to exercise jurisdiction on 
all attorney misconduct cases, just as it does in matters 
involving non-attorneys, would enhance the public's confidence 
in the outcomes of these important investigations and provide 
our office with the same authority as every other Inspector 
General.
    Thank you again. I look forward to working with the 
subcommittee, and I look forward to answering your questions.
    [The statement follows:]
             Prepared Statement of Hon. Michael E. Horowitz
    Chairwoman Mikulski, Senator Shelby, and members of the 
subcommittee:
    Thank you for inviting me to testify at today's hearing on the 
Department of Justice's (Department or DOJ) fiscal year 2015 budget 
request. At the outset, I want to thank the subcommittee for its 
continued strong support of our work. Perhaps the biggest challenge I 
have had in my 2 years as Inspector General has been trying to manage 
the staffing and budget for our 400-plus person agency as we faced, 
seemingly every few months, another budget crisis, with ever-present 
threats of furloughs and shutdowns. It would be hard for me to 
overstate the importance of having an appropriated budget for this 
current fiscal year that we can now plan around. Our current budget 
will enable us to rebuild our staff, which has shrunk by nearly 10 
percent over the past 2 years, thereby enhancing our ability to conduct 
oversight of the Department. Our fiscal year 2015 budget request is 
relatively straightforward--we are seeking funding at our current base 
level of $86.4 million, plus $2.2 million in adjustments to base to 
cover, for example, rent increases and other inflationary costs.
    Having a budget, and removing the furlough and shutdown threats, 
also provides a much-deserved boost to morale among Office of the 
Inspector General (OIG) employees, who have remained admirably 
dedicated to the office's mission despite the significant budget 
uncertainty of the past few years. As we prepare later this month to 
mark the 25th anniversary of our office's creation in April 1989, I am 
confident that we are an organization capable of conducting the high 
quality, independent oversight that Congress mandated so many years 
ago.
    In my testimony today, I would like to highlight some examples of 
our recent and ongoing oversight work, discuss two significant 
challenges facing the Department that will impact its fiscal year 2015 
budget, and briefly comment on two legislative initiatives that I 
believe would materially enhance the OIG's ability to conduct timely 
and independent oversight.
        recent doj oig oversight of the department's operations
    Our office has issued numerous reports since my appearance before 
the subcommittee last June that have important implications for the 
Department's budget, and that promote transparency, increase 
efficiency, and enhance our national security. The findings from four 
reports that we issued in just the last month exemplify these results. 
First, our audit of the Department's efforts to address mortgage fraud 
identified examples of DOJ-led efforts to prioritize the investigation 
and prosecution of mortgage fraud cases, but also found that, despite 
having been appropriated significant funding for the purpose, DOJ and 
the Federal Bureau of Investigation (FBI) did not uniformly ensure that 
mortgage fraud was prioritized at a level commensurate with its public 
statements. The OIG also found significant deficiencies in DOJ's and 
the FBI's ability to report accurately on its mortgage fraud efforts. 
Second, our report examining the operations of the Organized Crime Drug 
Enforcement Task Forces (OCDETF) Fusion Center (OFC) found deficiencies 
in the OFC's operations that could limit its contribution to the OCDETF 
Program's effectiveness in dismantling significant drug trafficking and 
money laundering organizations. We also found that OFC management took 
actions during our review that created difficulties for the OIG in 
obtaining information from OFC employees, and that there were 
reasonable grounds to believe that two OFC employees who met with us to 
describe concerns they had about the OFC's operations were subsequently 
subjected to adverse retaliatory personnel actions. Third, our follow-
up report on the FBI's management of terrorist watchlist nominations 
found that the FBI's time requirements for the submission of watchlist 
actions could be strengthened and identified weaknesses in the database 
used by the FBI to submit, monitor, and track non-investigative subject 
nominations. Finally, our report on the Federal Bureau of Prisons' 
(BOP) efforts to improve acquisition through strategic sourcing found 
that while the BOP had established national contracts and blanket 
purchase agreements, it had not established a program to implement and 
oversee the General Services Administration's (GSA) Federal Strategic 
Sourcing Initiative or other Federal strategic sourcing initiatives, 
and thus may be missing an opportunity for greater cost savings.
    Reviews completed at the end of the last fiscal year were similarly 
important. In September, we issued a report on the Bureau of Alcohol, 
Tobacco, Firearms and Explosives' (ATF) income-generating undercover 
operations in which we found that ATF did not properly authorize, 
manage, or monitor these investigations, misused their proceeds, and 
failed to properly account for 2.1 million cartons of cigarettes that 
were associated with these investigations, the retail value of which 
was more than $127 million. Also in September, we issued an interim 
report on the Department's use and support of unmanned aircraft systems 
(UAS), often referred to as ``drones,'' in which we found that the 
technological capabilities of drones--such as their ability to fly for 
extended periods of time and maneuver effectively yet covertly around 
residences--and the current, uncoordinated approach of Department 
components to using UAS may merit the Department developing consistent 
UAS policies to guide their use. Notably, that report also found that 
two of the Department's grantmaking components had failed to require 
award recipients to report specific data necessary to measure the 
success of UAS testing, or to share the results of their programs with 
the Department.
    In addition, we continue to conduct extensive oversight of the 
Department's efforts to combat significant crime issues, such as cyber 
security, and its national security initiatives. For example, we have 
initiated a review of the FBI's implementation of its Next Generation 
Cyber Initiative and a review of the FBI's Regional Computer Forensic 
Laboratories, among two of the Department's most important efforts to 
respond to the serious, rapidly evolving threat posed by cyber 
criminals. On national security issues, we are reviewing, with three 
other Inspectors General, the U.S. Government's handling of 
intelligence information leading up to the Boston Marathon bombings. 
This review is examining the information available to the U.S. 
Government before the bombings and the information-sharing protocols 
and procedures followed between and among the intelligence and law 
enforcement agencies. We also are continuing our reviews of the FBI's 
use of National Security Letters (NSL), requests for business records 
under Section 215 of the Foreign Intelligence Surveillance Act (FISA), 
the Department's use of pen register and trap-and-trace devices under 
FISA, and the Department's use of the material witness warrant statute, 
18 U.S.C. Sec. 3144. We are also continuing our review of the Federal 
Witness Security Program and will evaluate the Department's progress in 
implementing corrective measures in response to the recommendations 
contained in the interim report, which we discussed during my 
appearance before the subcommittee last June.
    In addition, our Investigations Division's case load continues 
unabated: during fiscal year 2013, it received more than 12,000 
complaints, had dozens of arrests and convictions resulting from 
corruption and fraud cases, and investigated allegations that resulted 
in more than 250 administrative actions against Department employees.
    Finally, before turning to our assessment of the challenges facing 
the Department, I would like to give you a brief update on our efforts 
to ensure that allegations against whistleblowers are reported, 
investigated, and handled appropriately. Among other initiatives, last 
year we developed an education program on whistleblower rights and 
protections for our employees, posted informational posters at our 
offices, and created a section our public Web site containing 
information about whistleblower rights for employees throughout the 
Department. I am proud to report that we were recognized for our 
efforts last year with certification from the Office of Special Counsel 
under 5 USC Sec. 2302(c). Additionally, we continue to lead a working 
group of Federal Whistleblower Ombudspersons that we helped launch 
through the Council of Inspectors General on Integrity and Efficiency 
(CIGIE). I will continue to increase awareness among my staff and 
provide the training and reporting mechanisms necessary to foster an 
open and effective environment for whistleblowers to come forward with 
information about waste, fraud, abuse, and misconduct within the 
Department.
               future work and top challenges facing doj
    Let me turn now to the issues that we feel represent significant 
challenges facing the Department of Justice in 2014, and will impact 
its budget in the coming fiscal year.
    In December 2013, we identified the following six major challenges 
for the Department:

  --Addressing the Crisis in the Federal Prison System;
  --Safeguarding National Security Consistent with Civil Rights and 
        Liberties;
  --Protecting Taxpayer Funds from Mismanagement and Misuse;
  --Enhancing Cybersecurity;
  --Ensuring Effective and Efficient Law Enforcement; and
  --Restoring Confidence in the Integrity, Fairness, and Accountability 
        of the DOJ.

    I would like to highlight for the subcommittee two challenges with 
potentially significant impacts on the Department's budget, and on its 
operational efficiency and effectiveness. A detailed discussion of our 
assessment of each challenge is available on in the ``Top Challenges'' 
section of our Web site, http://www.justice.gov/oig.
The Crisis in the Federal Prison System Continues
    During my testimony before the subcommittee last year, I discussed 
at great length the two interrelated crises the Department is facing 
regarding the Federal prison system. The costs of the Federal prison 
system continue to escalate, consuming an ever-larger share of the 
Department's budget. In an era of flat budgets, the continued growth of 
the prison system budget poses a threat to the Department's other 
critical programs--including those designed to protect national 
security, enforce criminal laws, and defend civil rights. Second, 
Federal prisons are facing a number of important safety and security 
issues, including, most significantly, that they have been overcrowded 
for years. Meeting this challenge will require a coordinated, 
Department-wide approach in which all relevant Department components 
participate in helping to reduce the costs and crowding in our prison 
system.
    The Department's leadership has acknowledged that rising prison 
costs threaten the Department's ability to fulfill its mission in other 
areas. Yet the costs of the Federal prison system continue to grow, 
with no evidence that the cost curve has been broken. For example, even 
though the Department's discretionary budget increased slightly from 
fiscal year 2012 to fiscal year 2014, the BOP's budget once again 
increased at an even faster rate, resulting in the BOP's share of the 
Department's budget continuing to grow. Moreover, while the number of 
Department employees has actually decreased since fiscal year 2012, the 
number of BOP employees has increased during that same time. As a 
result, the BOP now has over 38,000 employees, or approximately one-
third (33 percent) of all the employees at the Department.
    To its credit, in the past year the Department has announced 
several new initiatives to address this issue, such as an initiative to 
limit the number of defendants charged under statutes carrying 
mandatory minimum sentences, and the Smart on Crime initiative, which 
sets out five principles designed to identify reforms to enforce 
Federal laws more fairly and efficiently. Efforts to better align the 
investigative and prosecutive policies that drive incarceration costs 
with the Department's current budget situation represent important 
steps toward addressing rising Federal prison costs, but much will 
depend on the success of their implementation.
    The Department must also ensure that it is identifying and 
addressing the growing challenges that will affect the Federal prison 
budget in coming years. One ongoing challenge is BOP's management of 
its private prison contracts, which is the subject of an ongoing OIG 
review. Another such challenge is the increasing number of elderly 
inmates. From fiscal year 2010 to fiscal year 2013, the population of 
inmates over the age of 65 in BOP-managed facilities increased by 31 
percent, from 2,708 to 3,555, while the population of inmates 30 or 
younger decreased by 12 percent, from 40,570 to 35,783. This 
demographic trend has significant budgetary implications for the 
Department because older inmates have higher medical costs. The 
National Institute of Corrections has estimated that elderly inmates 
are roughly two to three times more expensive to incarcerate than their 
younger counterparts. For example, according to BOP data, in fiscal 
year 2011, the average cost of incarcerating a prisoner in a BOP 
medical referral center was $57,962 compared with $28,893 for an inmate 
in the general population. Moreover, inmate health services costs are 
rising: BOP data shows that the cost for providing health services to 
inmates increased from $677 million in fiscal year 2006 to $947 million 
in fiscal year 2011, a 40 percent increase. The OIG is currently 
reviewing the trends in the BOP's aging inmate population, the impact 
of incarcerating a growing population of aging inmates, the effect of 
aging inmates on the BOP's incarceration costs, and the recidivism rate 
of inmates age 50 and older who were recently released.
    Managing the cost of the Federal prison system is just part of the 
Department's challenge; it must also ensure the safety of staff and 
inmates in Federal prison and detention facilities. This task has been 
made exponentially harder by the prolonged, system-wide overcrowding in 
BOP's correctional facilities: as of November 2013, the BOP was 
operating with its facilities at approximately 36 percent over rated 
capacity, with medium security facilities operating at approximately 45 
percent over rated capacity and high security facilities operating at 
approximately 51 percent over rated capacity.
    The growth of the inmate population, along with the Department's 
tightened budget situation in recent years, has prevented the BOP from 
reducing its inmate-to-correctional officer ratio, which has remained 
at approximately 10-to-1 for more than a decade. In comparison, the 
Congressional Research Service reported that among the five largest 
State correctional systems in 2005--California, Texas, New York, 
Florida, and Georgia--the highest ratio of inmates to correctional 
officers was just over 6-to-1. And importantly, overcrowding at BOP 
institutions is not just a problem for the BOP; it also has a 
significant impact on the U.S. Marshals Service (USMS), which is 
responsible for housing pre-trial detainees and is projected to detain 
an average of 62,131 individuals per day in fiscal year 2014, a 15-
percent increase since fiscal year 2004. The USMS estimates that the 
BOP will only be able to house approximately 18 percent of USMS 
detainees, meaning that the USMS must pay to house the remainder--an 
average of about 50,000 detainees per day--in approximately 1,100 
State, local, or private facilities.
    There are several other important safety and security issues at 
Federal prison and detention facilities that the OIG is monitoring 
carefully. For example, the Prison Rape Elimination Act of 2003 (PREA) 
expanded the Department's responsibility to prevent the sexual abuse of 
inmates in BOP facilities and detainees in the custody of the USMS. The 
OIG's agents have long been involved in leading investigations of staff 
on inmate sexual misconduct, resulting in numerous criminal convictions 
and administrative actions by the BOP and the USMS. PREA also required 
the Department to issue national standards for preventing, detecting, 
reducing, and punishing sexual abuse in prison, which it did in May 
2012. With national standards in place, the Department must ensure that 
those standards are being met, which will require careful oversight of 
BOP, USMS, and Federal contract facilities, including residential 
reentry centers, and an extensive program for compliance auditing. The 
OIG intends to monitor the Department's efforts to ensure that the 
national standards are met.
DOJ Must Continue its Efforts to Protect Taxpayer Funds from 
        Mismanagement and Misuse
    Avoiding wasteful and ineffective spending is a fundamental 
responsibility of Federal agencies in any budgetary environment, but in 
the current climate of budget constraints the Department needs to take 
particular care to ensure that it is operating as efficiently and 
effectively as possible. The OIG's recent oversight work has 
demonstrated the challenges facing the Department. In fiscal year 2013 
alone, the OIG's reports, including those related to audits performed 
by independent auditors pursuant to the Single Audit Act, identified 
more than $35 million in questioned costs and more than $4 million in 
taxpayer funds that could be put to better use.
    The Department must remain particularly vigilant when taxpayer 
funds are distributed to third parties, such as grantees and 
contractors. In part due to the sheer volume of money and the large 
number of recipients involved, grant funds present a particular risk 
for mismanagement and misuse: according to the USASpending.gov Web 
site, from fiscal year 2009 through fiscal year 2013 the Department 
awarded approximately $17 billion in grants to thousands of 
governmental and non-governmental recipients.
    These risks were evident in a recent OIG audit which questioned 
nearly all of the more than $23 million in grant funds awarded by the 
Department to Big Brothers Big Sisters of America (BBBSA), which 
resulted in the Department's Office of Justice Programs (OJP) deciding 
to freeze the disbursement of all grant funds to BBBSA. Even so, it is 
my understanding that BBBSA subsequently submitted an application to 
the Department of Labor for grant funds and was awarded a grant 
totaling $5 million. This situation demonstrates the importance of 
ensuring that there is appropriate information sharing between grant-
making agencies across the Federal Government.
    The Department has reported taking important steps toward improving 
its management of this vast and diverse grantmaking effort. For 
example, the Associate Attorney General's Office established a Grants 
Management Challenges Workgroup that is responsible for developing 
consistent practices and procedures in a wide variety of grant 
administration and management areas. In January 2012, the Department 
issued policy and procedures the workgroup developed to implement the 
Department-wide high risk grantee designation program, which allows the 
Department to place additional restrictions on the use of funds it 
provides to grantees who, for example, are deemed financially unstable 
or have failed to conform to the terms and conditions of previous 
awards. The Department should continue to be aggressive in identifying 
high risk grantees and placing appropriate restrictions on their 
funds--or halting their funding altogether. It should also use the 
other tools at its disposal to mitigate the risk of releasing funds to 
grantees, such as ensuring that grantees have adequate accounting 
procedures in place to track their use of Department funds and actively 
seeking suspension and debarment of grantees in appropriate cases, 
especially where doing so will help to protect grant funds administered 
by other Federal agencies.
           strengthening the independent oversight of the doj
    Providing strong and effective independent oversight over agency 
operations is at the core of any OIG's mission. The taxpayers rightly 
expect much from Inspectors General, and it is important that we have 
the necessary tools to allow us to conduct our significant oversight 
responsibilities. The Inspector General Act provides us with many of 
those tools. However, there are several areas where our ability to 
conduct effective and independent oversight can be strengthened. I 
would like to highlight for you today two such areas that directly 
affect the work of the DOJ OIG.
Access to Documents Relevant to OIG Reviews
    For any OIG to conduct effective oversight, it must have complete 
and timely access to all records in the agency's possession that the 
OIG deems relevant to its review. This is the principle codified in 
Section 6(a) of the Inspector General Act, which authorizes Inspectors 
General ``to have access to all records, reports, audits, reviews, 
documents, papers, recommendations or other material available to the 
applicable establishment which relate to programs and operations with 
respect to which that Inspector General has responsibilities under this 
Act.'' This principle is both simple and important, because refusing, 
restricting, or delaying an OIG's access to documents may lead to 
incomplete, inaccurate, or significantly delayed findings or 
recommendations, which in turn may prevent the agency from correcting 
serious problems in a timely manner.
    Most of our audits and reviews are conducted with full and complete 
cooperation from Department components and with timely production of 
material. However, there have been occasions when our office has had 
issues arise with timely access to certain records due to the 
Department's view that access was limited by other laws. For example, 
issues arose in the course of our review of Operation Fast and Furious 
regarding access to grand jury and wiretap information that was 
directly relevant to our review. Similar issues arose during our 
ongoing review of the Department's use of Material Witness Warrants. 
Ultimately, in each instance, the Attorney General or the Deputy 
Attorney General provided the OIG with permission to receive the 
materials because they concluded that the two reviews were of 
assistance to them. The Attorney General and Deputy Attorney General 
have also made it clear that they will continue to provide the OIG with 
the necessary authorizations to enable us to obtain records in future 
reviews, which we of course appreciate. However, requiring an Inspector 
General to rely on permission from Department leadership in order to 
review critical documents in the Department's possession impairs the 
Inspector General's independence and conflicts with the core principles 
of the Inspector General Act.
    We have had similar issues raised regarding our access to some 
other categories of documents. And I understand from the Inspector 
General for the Peace Corps that her office has had a similar issue 
regarding access to records within her agency. Although our office has 
not yet had an instance where materials were ultimately withheld from 
us that were necessary to complete a review, we remain concerned about 
the legal questions that have been raised and the potential impact of 
these issues on our future reviews. Moreover, issues such as these 
have, at times, significantly delayed our access to documents, thereby 
substantially impacting the time required to complete the reviews.
    My view, and I believe the view of my colleagues in the Inspector 
General community, is straightforward and follows from what is 
explicitly stated in the Inspector General Act: an Inspector General 
should be given prompt access to all relevant documents within the 
possession of the agency it is overseeing. For a review to be truly 
independent, an Inspector General should not be required to obtain the 
permission or authorization of the leadership of the agency in order to 
gain access to certain agency records, and the determination about what 
records are relevant and necessary to a review should be made by the 
Inspector General and not by the component head or agency leadership. 
Such complete access to information is a cornerstone of effective 
independent oversight.
Limitations on the DOJ OIG's Jurisdiction
    Let me briefly turn to an issue that was discussed during my 
testimony last June before this subcommittee, which is an oversight 
limitation that is unique to my office: unlike Inspectors General 
throughout the Federal Government, our office does not have authority 
to investigate all allegations of misconduct within the agency we 
oversee. While we have jurisdiction to review alleged misconduct by 
non-lawyers in the Department, under Section 8E of the Inspector 
General Act, we do not have the same jurisdiction over alleged 
misconduct committed by Department attorneys when they act in their 
capacity as lawyers--namely, when they are litigating, investigating, 
or providing legal advice. In those instances, the Inspector General 
Act grants exclusive investigative authority to the Department's Office 
of Professional Responsibility (OPR). As a result, these types of 
misconduct allegations against Department lawyers, including those that 
may be made against the most senior Department lawyers (including those 
in leadership positions) are handled differently than misconduct 
allegations made against law enforcement agents or other Department 
employees.
    My office has long questioned this distinction between the 
treatment of misconduct by attorneys acting in their legal capacity and 
misconduct by other Department employees. Such a system cannot help but 
have a detrimental effect on the public's confidence in the 
Department's ability to review misconduct by its own attorneys. In 
recent months, others have expressed a similar concern. For example, 
the independent, non-partisan Project on Government Oversight (POGO) 
issued a report last month that was critical of OPR's longstanding lack 
of transparency and recommended empowering our office to investigate 
misconduct by DOJ attorneys. And I would like to thank Senator 
Murkowski for co-sponsoring S.2127, a bipartisan bill that would amend 
the Inspector General Act to enable our office to investigate 
allegations of attorney misconduct.
    The jurisdictional limitation on our office is a vestige of the 
fact that OPR preexisted the creation by Congress in 1988 of the DOJ 
OIG, resulting in the statutory carve-out on our jurisdiction. The 
Department has consistently taken the position that because OPR has 
specialized expertise in examining professional conduct issues 
involving Department lawyers, OPR should handle professional misconduct 
allegations against Department attorneys. Whatever merit such an 
argument may have had in 1988 when the OIG was established by Congress, 
it is surely outdated.
    Over the past 25 years, our Office has shown itself to be capable 
of fair and independent oversight of the Department, including 
investigating misconduct allegations against its law enforcement 
agents. Indeed, a similar argument was made many years ago by those who 
tried to forestall our Office's oversight of alleged misconduct by FBI 
agents. This argument against Inspector General oversight of the FBI 
was rejected, and we have demonstrated through the numerous 
investigations and reviews involving Department law enforcement matters 
since then, including our Operation Fast and Furious review, that our 
office has the means and expertise to handle the most sophisticated 
legal and factual issues thoroughly, effectively, fairly, and 
independently. Moreover, Inspectors General across the Federal 
Government have the authority to handle misconduct allegations against 
lawyers acting as such within their agencies, and they have 
demonstrated that they are fully capable of dealing with such matters. 
Seen in this context, the carve-out for OPR from our Office's oversight 
jurisdiction is best understood as an unnecessary historical artifact.
    Eliminating the jurisdictional exception for OPR in the Inspector 
General Act would ensure the ability of our Office to fully review and, 
when appropriate, investigate allegations of misconduct of all 
Department employees. Moreover, even with such a jurisdiction change, 
the Department's OPR would almost certainly remain in place to handle 
``routine'' misconduct allegations that do not require independent 
outside review by an OIG, much as the internal affairs offices at the 
FBI and the Department's other law enforcement components remain in 
place today even though the OIG's jurisdiction was expanded years ago 
to include those components. The current system with the law 
enforcement components works well, particularly given the OIG's limited 
resources. Each day, the OIG reviews new allegations of misconduct 
involving law enforcement personnel and determines which ones warrant 
investigation by an independent OIG, such as those that involve high-
level personnel, those that involve potential crimes and other serious 
misconduct, and those that involve significant issues related to 
conduct by management. Those that we determine do not meet these 
standards are returned to the law enforcement component's internal 
affairs unit for handling, although the OIG frequently requires the 
internal affairs unit to report back to the OIG on the outcome of its 
investigation or review.
    Our Office's statutory and operational independence from the 
Department ensures that our investigations of alleged misconduct by 
Department employees occur through a transparent and publicly 
accountable process. Unlike the head of OPR, who is appointed by the 
Attorney General and can be removed by the Attorney General, the 
Inspector General is a Senate confirmed appointee who can only be 
removed by the President after notification to Congress, and the 
Inspector General has reporting obligations to both the Attorney 
General and Congress.
    Giving the OIG the ability to exercise jurisdiction in all attorney 
misconduct cases, just as it does in matters involving non-attorneys 
throughout the Department, would enhance the public's confidence in the 
outcomes of these important investigations and provide our office with 
the same authority as other Inspectors General.
                               conclusion
    Due in large part to the continued support of this subcommittee, 
fiscal year 2013 represented a strong and productive year for the OIG, 
which we are continuing in fiscal year 2014. I look forward to working 
closely with this subcommittee to ensure that our office can continue 
its vigorous oversight through fiscal year 2015 and beyond.
    This concludes my prepared statement. I would be pleased to answer 
any questions that you may have.

    Chairwoman Mikulski. Thank you, Mr. Horowitz. You and your 
team do such a great job.
    And, tell me, how many employees do you have?
    Mr. Horowitz. We have on board now about 405, roughly.
    Chairwoman Mikulski. And what is your budget?
    Mr. Horowitz. $86.4 million is our base, and we've asked 
for that for the next fiscal year, plus 2.2 million in 
enhancements.
    Chairwoman Mikulski. So, it would be 2.2 million more.
    Mr. Horowitz. Correct.
    Chairwoman Mikulski. Is that correct? Well, we ask you to 
do a very important job overseeing $37 billion.

                      CYBER SECURITY IMPROVEMENTS

    I know Senator Shelby will be raising questions about 
access to records. I want to welcome your insights on prison 
reform, but I'm going to go to cyber security. It's an area of 
keen interest with me----
    Mr. Horowitz. Yes.
    Chairwoman Mikulski [continuing]. And have been an 
advocate. And one of the things I fear is techno-boondoggles.
    Mr. Horowitz. Right.
    Chairwoman Mikulski. You know, we go through the FBI case 
file thing. Now, we understand the FBI--excuse me, the fiscal 
'15 budget request from Justice is 722 million. They're 
actually decreasing it, though the threat is increasing. You 
note that--you cite 130 open recommendations for improving the 
security of the Department's own IT system. Could you comment 
on what you think are--where you think appropriate in an open 
and public session, so we don't tip any bad guys, here----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. What you think they need 
to do to improve their cyber security. And do you think it's 
money, do you think it's management, or do you think it's a 
government wide problem?
    Mr. Horowitz. Our----
    Chairwoman Mikulski. I have my own views. I would like to 
hear yours, sir.
    Mr. Horowitz. Yes. Our 130 recommendations come from our 
FISMA audits, which are obviously marked sensitive, given the 
nature of the information, but generally they have involved the 
handling of configurations of systems and account management of 
those systems, as well. We've made a number of very specific 
requests, and have outlined the issues that I think need to be 
addressed. I think, generally, it is a function of both the 
needs--additional needs, potentially, for the systems, as well 
as the possibility of the requirement for additional personnel. 
We, ourselves, for example, are struggling with both of those 
issues, as well, in a tightening budget environment, making 
sure we've got the right IT people, as well as enough funding 
for the right systems. And so, that's one of the things I've 
tried to do with our budget this year, is catch up, 
essentially, from where we fell behind over the last 2 years.
    Chairwoman Mikulski. Do you feel that the Justice 
Department is prime time in implementing your recommendations?
    Mr. Horowitz. I think that, in a number of areas, the 
Department needs to do a better job in implementing the 
recommendations we make faster, and going and looking at them 
seriously and taking them seriously. We continue to push on 
that. The Attorney General and the Deputy Attorney General, 
have supported that effort, and we will continue to press on 
that.
    Chairwoman Mikulski. So, you feel you have the support. So, 
again, I'll come back, is it a resource issue? Is it a 
consistent resource issue? Senators Shelby, Graham, others, 
have raised, you know, sequester----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. Closed--you know, slam 
down and shut down, furloughs. What's the issue, here? We can't 
hire tech people?
    Mr. Horowitz. I think it's probably a combination of both 
issues that you identified, that the needs continually change, 
they're continually evolving, technology is continually 
evolving, the threats are continually evolving; and that's one 
of the reasons, frankly, we've undertaken the next cyber 
initiative review, because Congress has given a substantial 
amount of money to the Department to undertake that effort, and 
that is a very significant part of the Department's budget and 
a critical part of dealing with threats, going forward.
    Chairwoman Mikulski. Well, thank you.
    We could ask more, but I'm going to turn to Senator Shelby, 
here.
    Senator Shelby. Thank you.
    Thank you, Mr. Inspector General. We appreciate the work 
you're doing, your dedication. And, as the Chairman said, we 
want to make sure you have the tools to do your job, because 
the Inspector General, whether it's in the Justice Department, 
whether it's in the Pentagon, or whether the--we created that 
position for a reason----
    Mr. Horowitz. Right.
    Senator Shelby [continuing]. And so forth. You know this 
well.

                        INSPECTOR GENERAL ACCESS

    Do you believe that you, the Inspector General of the 
Department of Justice, should have to seek approval of the 
Attorney General to access grand jury documents, or any 
documents, relevant to ongoing investigations?
    Mr. Horowitz. I don't, Senator. It's inconsistent, in my 
view, with the----
    Senator Shelby. With your mandate, is it?
    Mr. Horowitz. Correct. And the--with the Inspector 
General----
    Senator Shelby. Because, even though it's the Justice 
Department, but it could be any Department----
    Mr. Horowitz. Right.
    Senator Shelby [continuing]. If you have to go to the head 
of the Department, the Secretary----
    Mr. Horowitz. Right.
    Senator Shelby [continuing]. For example, a Cabinet-level 
position, to approve what you're seeking, it seems that could 
be, under dire circumstances, an impediment to doing your job.
    Mr. Horowitz. Well, and ultimately--that's correct--and 
ultimately, the letters that we've gotten from the Attorney 
General or the Deputy Attorney General----
    Senator Shelby. Yes.
    Mr. Horowitz [continuing]. Giving us access have focused on 
a finding that the review was important to their oversight of 
the Department. The Act sets it up such a way that the 
oversight decisions, I think, should be made by Inspectors 
General, not by the Secretaries or Cabinet hats.
    Senator Shelby. Have you been, basically--have you had 
unfettered access to relevant documents?
    Mr. Horowitz. In--with regard to certain records, we have 
only gotten them after the Attorney General----
    Senator Shelby. Right.
    Mr. Horowitz [continuing]. Or the Deputy General have made 
a determination----
    Senator Shelby. After you had to jump through a lot of 
hoops, right?
    Mr. Horowitz. After we had to get a letter from them to the 
component, informing them that they had the permission to give 
us the documents.
    Senator Shelby. Do you know if your fellow Inspector 
Generals, say, at the Department of State or Pentagon or 
Agriculture or, you name it--Commerce--do they have to jump 
through these hoops to do that?
    Mr. Horowitz. Well, I understand that there's one Inspector 
General at the Peace Corps, for example, who has tried to get 
records to do the oversight I think Congress expected in 
connection with sexual attacks on volunteers oversees, that has 
an opinion from her general counsel indicating that the IG Act 
does not give her authority to look at those records.

                           AUTONOMY OF OFFICE

    Senator Shelby. Have you thought about whether or not 
perhaps we need to address this legislatively, to be direct on 
this to Secretaries and--Attorney General, whoever--that they 
must furnish unfettered access to documents? Otherwise, you 
can't do your job.
    Mr. Horowitz. I think it's critical that Inspectors General 
have that ability to make the decision for themselves, and 
legislation obviously would clear it up entirely, and it's a 
relatively small fix, understanding legislation is always 
difficult to get enacted.
    Senator Shelby. Well, it might not be that hard to get 
enacted, when the Chair of an Appropriations Committee--who 
knows. But, I think that we need to make sure, under all 
circumstances, that you and your fellow Inspector Generals have 
unfettered access to documents that could root out wrongdoing 
in any Department.
    Mr. Horowitz. I couldn't agree more, Senator. And, I think, 
ultimately, that what's set up now is--Who should make that 
decision? Should it be the Inspector General who decides what's 
relevant----
    Senator Shelby. No.
    Mr. Horowitz [continuing]. And what's needed?
    Senator Shelby. I think you're put there to do that job, in 
your sworn oath to do that job.
    Thank you, Madam Chair.
    Chairwoman Mikulski. We believe the Inspector Generals--
this is a bipartisan----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. Approach that--should 
have access to the information, compliant with existing law. 
There are certain rules and so on. I'm not a lawyer. But, you 
know, there's legal compliance and there's access. So, that's 
one thing.
    Second thing, I am familiar with this--or becoming familiar 
with this Peace Corps situation. A young lady, who was a Peace 
Corps volunteer, saw another Peace Corps volunteer allegedly 
sexually assault, reported it, and then the Peace Corps server 
who reported it was murdered. Well--this is big.
    So, we want to maintain the integrity of the Inspector 
General process. We believe in the Inspector General process. 
Government should be never so big or so insulated or so 
isolated that it does not have an independent Senate-confirmed 
institution to red-team their work for waste, fraud, or other 
forms of mismanagement. So, we look forward to working with you 
on this.
    And, Mr. Inspector General, you come with an extensive 
background in sentencing, incarceration, and so on. You 
actually were head of the Sentencing Commission.
    Mr. Horowitz. I was a member of the Sentencing----
    Chairwoman Mikulski. Yes, sir. So, you come with, actually, 
hands-on experience. And you've seen the good and bad and ugly.
    Mr. Horowitz. Yes.
    Chairwoman Mikulski. So, we really welcome your insight on 
how we can reduce the prison population without increasing the 
risk to our communities. And also, the thoughts on how we can 
look out for the safety of our prison guard population, where 
they, themselves, don't feel that they're captive by the 
prisoners.
    You bring up a compassionate situation, the over 65. We 
welcome your insights. I think evidence shows that, if you 
committed murder, you're not likely to commit murder after 65. 
But, if you're a sexual predator, you'll be--you could be out 
in that playground once again.
    Mr. Horowitz. Right.
    Chairwoman Mikulski. So, we welcome your insights on how we 
can work constructively, evidence-based conceptual thinking, 
and your own experience, because you--you bring the experience 
of longitude from, really, enforcement to sentencing, and now 
the Inspector General. We're--we really appreciate your 
service.
    So, I'm going to ask the staff, on both sides of the aisle, 
because this has been raised----
    Mr. Horowitz. Yes.
    Chairwoman Mikulski [continuing]. By other members, so this 
is not a party thing----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. This is a committee 
thing--to meet with our staff on how we can implement, working 
with the Attorney General, prison reform. We also want to work 
with you--Senator Shelby and I--for you to get the access to 
the information that you need.
    Mr. Horowitz. Thank you.
    Chairwoman Mikulski. So, we're going to possibly be having 
votes soon, so--we could talk with you all day, but we're going 
to thank you for your service, look forward to these reports, 
ask staff to work hands-on----
    Mr. Horowitz. Absolutely.
    Chairwoman Mikulski [continuing]. With you, and look 
forward to bringing about some much needed reform.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairwoman Mikulski. If there's no further questions--
Senators may submit additional questions--this committee stands 
in recess to the call of the Chair.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Hon. Eric H. Holder, Jr.
           Questions Submitted by Senator Barbara A. Mikulski
                        stopping child predators
    Question. What was the level of funding for each component agency 
handling Adam Walsh Act efforts at the Department in fiscal year 2013 
and what is the level in fiscal year 2014? How does the Department 
coordinate efforts?
    Lead-in information from original document.--
          The National Center for Missing and Exploited Children 
        (NCMEC) estimates there are over 100,000 non-compliant sex 
        offenders at-large in the United States. The Adam Walsh Child 
        Protection and Safety Act of 2006 (Public Law 109-248) gave the 
        U.S. Marshals Service the authority to treat convicted sex 
        offenders as fugitives if they fail to register, as well as to 
        assist jurisdictions to locate and apprehend these individuals.

    Answer. The Department received a total of $186.5 million in fiscal 
year 2013 and $200.2 million in fiscal year 2014 for Adam Walsh Act 
(AWA) programs. The funding levels in thousands of dollars by component 
are as follows:

------------------------------------------------------------------------
                                                Fiscal year  Fiscal year
                   Component                        2013         2014
                                                  funding      funding
------------------------------------------------------------------------
Bureau of Prisons.............................        9,741        9,838
Criminal Division.............................        4,389        4,639
INTERPOL, Washington..........................        1,490        1,924
Office of Justice Programs....................       54,386       57,730
Office on Violence Against Women..............       22,281       27,000
United States Attorneys.......................       40,757       43,660
United States Marshals Service................       52,429       55,425
                                               -------------------------
      Total, Adam Walsh Act Resources.........      186,473      200,226
------------------------------------------------------------------------

    The primary vehicle for coordination of the AWA enforcement is the 
Sex Offender Sentencing, Monitoring, Apprehending, Registering, and 
Tracking (SMART) Office, which is part of the Office of Justice 
Programs and was authorized by the Adam Walsh Child Protection and 
Safety Act of 2006. The United States Marshals Service (USMS) Sex 
Offender Investigations Branch (SOIB) and National Sex Offender 
Targeting Center (NSOTC) work in conjunction with SMART to assist at 
all levels of domestic, international, military, and tribal law 
enforcement to identify, locate, and prosecute non-compliant sex 
offenders. In addition, USMS Sex Offender Investigations Coordinators 
(SOIC) coordinate sex offender enforcement with all necessary law 
enforcement partners in their districts, including Assistant U.S. 
Attorneys, registering agencies, local law enforcement, U.S. Probation, 
and local prosecutors.
    Personnel from the USMS and the National Center for Missing and 
Exploited Children (NCMEC) are assigned to the NSOTC, along with an 
agent from the Department of State's Diplomatic Security Service (DSS) 
and two members of the United States Army. The NSOTC has also assigned 
an intelligence analyst to the Customs and Border Protection Targeting 
Center, a Senior Inspector to USNCB-INTERPOL's Human Trafficking and 
Child Protection Division, and a contractor to serve as a liaison with 
the SMART Office. These employees work to track and verify information 
on sex offenders who travel abroad. The NSOTC also meets with the 
Office of Tribal Justice (OTJ) to discuss and coordinate DOJ programs 
and training related to Native American sex offenders.
    In addition, the Bureau of Justice Assistance administers the 
reallocation of funds derived from penalties against Byrne Justice 
Assistance Grant (JAG) awards to States that have not yet substantially 
implemented the requirements of the Sex Offender Registration and 
Notification Act (SORNA). The SMART Office assists interested 
jurisdictions in developing and/or enhancing programs designed to meet 
SORNA implementation requirements.
    Question. In fiscal year 2012, the Marshals Service estimated it 
needed a dedicated force of 500 deputies to fully implement the Adam 
Walsh Act. Have they reached this level yet? If not, why not and when 
will they reach this level?
    Answer. The USMS has an estimated 211 positions (160 operational 
and 51 administrative) and approximately $56 million available to 
support the AWA. With these resources, and with the growing 
partnerships with State, local, and tribal authorities, in fiscal year 
2013, the USMS opened 2,191 criminal investigations for violations of 
18 U.S.C. Sec. 2250. From those investigations, 316 Federal warrants 
were issued and 279 convictions were obtained. Additionally, the USMS 
planned and participated in over 390 sex offender related enforcement 
operations with 1,368 law enforcement agencies, resulting in 39,854 
compliance checks of known registered sex offenders.
    USMS continues to vigorously pursue violators of the AWA to stem 
the violence against children by targeting apprehension of sex 
offenders who prey on children; augment staffing in areas of the 
country with large numbers of non-compliant sex offenders; expand the 
staff at the NSOTC; and provide broader support to States in enforcing 
sex offender registration laws and in prosecuting non-compliant sex 
offenders.
    Question. In December 2012, the Marshals Service received 
administrative subpoena authority for these investigations in the Child 
Protection Act (Public Law 112-206). When were deputies first able to 
start using this authority? How many fugitive sex offenders have been 
arrested due to this authority?
    Answer. Following enactment of this legislation, the USMS formed a 
working group to ensure appropriate implementation of the 
administrative subpoena authority. The USMS realized the critical 
importance of developing clear policy and protocols with sufficient 
controls, oversight, and accountability to address privacy concerns 
with the information collected. The USMS analyzed risks involving 
privacy information and met with stakeholders to craft a policy that 
addressed and resolved several concerns. During this time, the USMS 
reviewed other systems and devised an implementation strategy that 
safeguarded the privacy of information. Because the administrative 
subpoena language limits and restricts its use, the USMS also addressed 
changes to its law enforcement database system to restrict access to 
the collected information.
    As of August 2014, all USMS Sex Offender Investigations Branch 
(SOIB) personnel and full-time Sex Offender Investigations Coordinators 
have been trained on the policy, standard operating procedures and 
updates to the Criminal Case Module in the Justice Detainee Information 
System (JDIS) including administrative subpoena enhancements. The 
enhancements allow the administrative subpoena process to be managed 
entirely within JDIS and allow access to documents and information to 
be restricted to only those with a vested interest in the case. 
Training sessions for district management were provided last October 
2014. This training provided a brief overview of the USMS 
Administrative Subpoena program and a detailed presentation on the 
request and approval process. The USMS/SOIB will continue to provide 
training on administrative subpoenas including programmatic and legal 
updates to USMS investigators during the SOIC Basic Training courses, 
and to district senior management during regional management trainings.
    The widespread use of administrative subpoenas did not begin until 
September 1, 2014. To date, 34 administrative subpoena requests have 
been submitted, of which 31 were approved and served, two were denied, 
and one is currently going through the approval process.
                           human trafficking
    Question. With multiple Justice Department agencies involved in 
fighting human trafficking, how are you coordinating efforts and 
tracking results?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. As the Department's anti-trafficking enforcement efforts 
continue to grow in scope, complexity, and impact, we are continuing to 
strengthen coordination among the many DOJ components participating in 
these efforts. The Department's Human Trafficking Working Group 
coordinates between and among DOJ components involved in victim 
assistance programs, State and local law enforcement grants and 
technical assistance programs, and Federal law enforcement. The Federal 
Enforcement Working Group coordinates among the Civil Rights Division's 
specialized Human Trafficking Prosecution Unit (HTPU), the Executive 
Office for United States Attorneys (EOUSA), the U.S. Attorneys' Offices 
(USAOs), FBI, and other Federal law enforcement agencies. HTPU and the 
Child Exploitation and Obscenity Section of the Department's Criminal 
Division (CEOS) coordinate extensively on cases and issues that affect 
child sexual exploitation, including sex trafficking of minors, which 
is within the subject matter expertise of CEOS, and international sex 
trafficking, sex trafficking of adults by force, fraud, and coercion, 
and forced labor which is within the subject matter expertise of HTPU. 
The Office of the Deputy Attorney General coordinates among DOJ 
agencies on policy issues, performance data, and interagency matters 
affecting multiple DOJ components.
    Question. How does the Justice Department collaborate with other 
Federal agencies like the Department of Homeland Security and 
Department of Labor? Do agencies regularly share information?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. Coordination among the Department of Justice (DOJ), 
Department of Homeland Security (DHS) and Department of Labor (DOL) has 
never been stronger. All of these agencies participate in the Federal 
Enforcement Working Group (FEWG), which brings together the National 
Program Managers and subject matter experts from HTPU, EOUSA, FBI Civil 
Rights Unit, DHS--Homeland Security Investigations--Human Smuggling and 
Trafficking Unit, DOL--Wage and Hour Division and DOL-OIG to streamline 
coordination among Federal investigators and Federal prosecutors both 
at the HQ level and at the regional level. Through the efforts of this 
interagency FEWG, in 2011 the Attorney General and Secretaries of 
Homeland Security and Labor jointly developed the Anti-Trafficking 
Coordination Team (ACTeam) Initiative. During Phase I of this 
Initiative, the FEWG conducted a nationwide rigorous, competitive, 
interagency selection process culminating in the launch of six Phase I 
Pilot ACTeams charged with implementing a coordinated interagency 
strategy to advance Federal human trafficking investigations and 
prosecutions. Based on the results of Phase I, the interagency FEWG 
unanimously agreed to initiate Phase II during 2014. In connection with 
this initiative, DOJ, DHS, and DOL jointly developed and delivered an 
intensive week-long Advanced Human Trafficking Training Program for 
interagency teams of Federal investigators and Federal prosecutors.
    In addition, DOJ and DHS collaborate extensively on their U.S.-
Mexico Bilateral Enforcement Initiative which has established 
coordination structures to exchange leads and evidence with Mexican law 
enforcement counterparts to more effectively apprehend traffickers, 
rescue victims, recover victims' children, and dismantle trafficking 
networks operating across the U.S.-Mexico border. DOJ and DOL meet 
regularly to collaborate on cross-training and cross-referral protocols 
to enhance victim identification capacity.
    To strengthen victim services, DOJ, HHS, and DHS co-chaired an 
interagency effort to develop the Federal Strategic Action Plan on 
Services for Victims of Human Trafficking in the United States 2013-
2017. The plan outlines Federal governmentwide goals for short- and 
long-term improvements in identifying and serving victims of human 
trafficking. A draft plan was circulated for informal public comment in 
April 2013 and a series of weekly interagency meetings was held to 
review the comments and improve the plan. The final plan was released 
at a survivor forum in January 2014 and is available at http://
www.ovc.gov/pubs/FederalHuman
TraffickingStrategicPlan.pdf.
    Question. How is the Department addressing sex trafficking on the 
Internet?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. The Department of Justice shares Congress's concerns about 
sex trafficking on the Internet. The Department has attacked this 
problem with a robust investigative and prosecutorial response, as well 
as through training and outreach. The Criminal Section of the Civil 
Rights Division (CRT) and CRT's Human Trafficking Prosecution Unit 
(HTPU), in collaboration with United States Attorneys' Offices (USAOs) 
nationwide, have principal responsibility for prosecuting human 
trafficking crimes, except for cases involving sex trafficking of 
minors. The Child Exploitation and Obscenity Section of the 
Department's Criminal Division (CEOS) shares responsibility and 
collaborates closely with USAOs nationwide in the investigation and 
prosecution of Federal cases involving child sexual exploitation, 
including the prostitution of children and the extraterritorial sexual 
abuse of children.
    In 2011, the Department expanded Project Safe Childhood (PSC). 
Founded in 2006, PSC had initially focused on the effective prevention, 
investigation, and prosecution of technology-facilitated child sexual 
exploitation crimes. In 2011, the Department broadened the program to 
cover all Federal child sexual exploitation crimes, including the sex 
trafficking of children and child sex tourism. As a result of the 
expansion of PSC, U.S. Attorneys conducted threat assessments of the 
harm posed in their districts by crimes involving the commercial sexual 
exploitation of children, resulting in enhanced ability to develop and 
share expertise on the prevention and prosecution of these crimes. In 
the Department's Strategic Plan for fiscal year 2014-2018, one of the 
four priority goals is to protect vulnerable populations by increasing 
the number of investigations and prosecutions concerning child 
exploitation, human trafficking, and non-compliant sex offenders, and 
by improving programs to prevent victimization, identify victims, and 
provide services. The Department co-led an interagency effort to 
develop the Federal Strategic Action Plan on Services for Victims of 
Human Trafficking in the United States, which is available at http://
www.ovc.gov/pubs/FederalHumanTraffickingStrategicPlan.pdf. This plan is 
intended to improve the response to all victims of trafficking, 
including those whose trafficking was facilitated by the Internet.
    The sections below provide examples of the Department's successful 
prosecutions, ongoing initiatives and partnerships with law enforcement 
agencies, and training and outreach efforts involving sex trafficking 
on the Internet.
1. A. Prosecutions
    United States v. Daniel Burton (D. Md.): In January 2014, Daniel 
Burton, a/k/a Snoop, age 30, of Capitol Heights, Maryland was sentenced 
to 262 months in prison followed by a lifetime term of supervised 
release following his guilty plea to the sex trafficking of a minor. 
According to his plea agreement, in March 2008, Burton recruited a 13-
year-old girl to engage in prostitution for him. Burton drove her to 
hotels, photographed her in lingerie, and advertised her on Craigslist 
for sexual services. The girl had sex with many clients that responded 
to the ads, and Burton kept all the money she earned. Burton provided 
the girl with alcohol, marijuana, and ecstasy. On April 8, 2008, law 
enforcement saw a Craigslist ad for the girl's sexual services and 
arranged a ``date.'' Law enforcement arrived at the hotel and arrested 
Burton, who was sitting outside.
    The case was investigated by the FBI-led Maryland Child 
Exploitation Task Force (MCETF), created to combat child prostitution, 
with members from 10 State and Federal law enforcement agencies. MCETF 
also partners with the Maryland Human Trafficking Task Force, formed in 
2007 to discover and rescue victims of human trafficking while 
identifying and prosecuting offenders.
    United States v. Weylin Rodriguez, et al. (M.D. Fla.): In March 
2013, Weylin Rodriguez received a sentence of life imprisonment 
following his conviction in November 2012 by a Federal jury for sex 
trafficking of three minors and two adults through the use of force, 
fraud, and coercion, as well as firearms offenses. Co-conspirators 
Tatjuana Joye and Pria Gunn pled guilty to one count of conspiracy to 
engage in sex trafficking of minors and by force, fraud and coercion. 
In December 2012, Gunn was sentenced to 46 months incarceration and in 
February 2013, Joye, who cooperated with the Government's 
investigation, was sentenced to time served. Rodriguez ran a 
prostitution ring called ``GMB'' (aka ``Get Money Bitch'') and lured 
several minors and young adults into his ring through a variety of 
means, including promising them jobs as models. Rodriguez advertised 
the victims on backpage.com and also forced the victims to walk the 
streets to pick up ``dates.'' The victims were required to follow 
numerous rules and give all the money from their ``dates'' to 
Rodriguez. To prevent the victims from leaving his ring, Rodriguez 
inflicted severe beatings on them and threatened them with guns.
    The FBI's Tampa, Florida Office, the Orlando Metropolitan Bureau of 
Investigation, and the Orange County (Florida) Sheriff's Office 
investigated the case, with additional investigation conducted by the 
Osceola County (Florida) Sheriff's Office and the Charlotte-Mecklenburg 
Police Department (North Carolina).
1. B. Investigations and Initiatives
    In 2003, the FBI established the Innocence Lost National Initiative 
(ILNI) as a means to combat the increasing frequency of commercial 
sexual exploitation of children through prostitution, much of which is 
initiated online via advertisements. The ILNI is victim centered, and 
is primarily designed to identify and recover children. Over the past 
11 years, the FBI and its partners have developed specific operations 
to target both the supply side (individuals responsible for the 
facilitation of this crime problem) and the demand side (those who pay 
to engage in sex with children).
    Over 2,100 investigations opened since the inception of the ILNI 
have resulted in over 1,450 convictions on Federal, State, and local 
charges, and over 3,100 children recovered and/or identified. The 
youngest victim was 9 years old. Substantial sentences of convicted 
pimps have been obtained, including 13 life sentences and many 
sentences ranging from 25 to 50 years in prison.
    The FBI has partnered with nearly 400 State, local, and Federal 
agencies to form 69 Child Exploitation Task Forces (CETF) throughout 
the United States. FBI field offices focus their resources on criminal 
enterprises engaged in the transportation of juveniles for the purpose 
of prostitution, using intelligence driven investigations and employing 
sophisticated investigative techniques. The FBI uses the Internet as an 
investigative tool to identify online advertisements for prostitution 
involving children located on over 100 Web sites.
    In addition, the FBI has coordinated seven iterations of Operation 
Cross Country (OCC) since June 2008. OCC is a national enforcement 
operation, conducted over 3-to-5-day periods, to combat commercial 
sexual exploitation of children through prostitution in the United 
States. FBI field offices, working with their law enforcement partners, 
participated in the operation by targeting venues such as truck stops, 
motels, and casinos where children are exploited, as well as the 
Internet. Law enforcement officers from over 450 local, State, and 
Federal law enforcement agencies joined together to recover victims and 
apprehend those who have victimized them. As a result of these 
operations, 434 child victims have been safely recovered and 581 pimps 
engaged in the commercial sexual exploitation of children have been 
arrested.
1. C. Training
    The Department has led and participated in numerous training events 
in recent years. CEOS provides advice and training to prosecutors, law 
enforcement personnel and government officials both worldwide and in 
the United States. The FBI also provides training and promotes 
interagency sharing of skills in investigating sexual exploitation 
offenses to develop a nationwide capacity to provide a rapid, 
effective, and measured investigative response to crimes against 
children.
    CEOS attorneys travel all over the world to conduct trainings for 
investigators, law enforcement and others involved in investigations 
and prosecutions of child exploitation offenses, including sex 
trafficking over the Internet. For example, CEOS attorneys participated 
in three separate training conferences in Mexico in 2013, including 
presenting at the Homeland Security Investigations Immigration and 
Customs Enforcement (HSI ICE) Human Trafficking Seminar in August 2013. 
CEOS also consults with numerous foreign delegations in the United 
States to discuss efforts to enhance worldwide efforts against child 
sexual exploitation crimes, including commercial sexual exploitation of 
children.
    Furthermore, in the United States, CEOS conducts trainings and 
participates in coordination meetings with law enforcement and 
prosecutors' offices. The FBI provides training on child exploitation 
investigations as well. Since 2003, the FBI has partnered with NCMEC to 
host Protecting Victims of Child Prostitution training courses. To 
date, over 1,300 law enforcement officers and prosecutors have received 
this training on the comprehensive identification, intervention, and 
investigation of the commercial sexual exploitation of children.
    Question. What is being done to address human trafficking on tribal 
land?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. The Department of Justice's strong commitment against human 
trafficking is represented in every United States Attorney's Office in 
each district. All USAOs participate in a human trafficking taskforce, 
where Indian country cases are discussed. In particular to Indian 
country, the Executive Office for United States Attorneys recently 
conducted a forensic interviewing class wherein DOJ employees were 
trained to better interview victims of human trafficking (including 
Native victims).
    Additionally, the FBI investigates human trafficking and other 
crimes that occur in Indian country. The FBI is also making a concerted 
effort to increase awareness through training of Federal and tribal law 
enforcement and victim specialists as well as supporting investigations 
as they are identified. The FBI is working to also provide training 
opportunities that highlight victim identification, investigative 
techniques, and available resources.
    From July 8, 2013 through July 12, 2013, the Department's Office on 
Violence Against Women (OVW) conducted a site visit to western North 
Dakota meeting with local law enforcement, tribal leaders, victim 
advocates, the U.S. Attorney for North Dakota, State and tribal 
coalition leaders, and service providers from both North Dakota and 
Montana. OVW is exploring providing funds to law enforcement and victim 
service providers in western North Dakota and eastern Montana to 
address domestic violence, sexual assault, stalking, and trafficking. 
In fiscal year 2012, the Bureau of Justice Assistance (BJA) solicited 
proposals to address the issue of human trafficking in Native American 
communities by developing and providing training to build awareness of 
the existence of human trafficking in Indian Country, and providing law 
enforcement and community stakeholders with the tools necessary to 
begin the process of victim identification, rescue and restoration, 
while providing appropriate consequences for perpetrators in a 
consistently applied manner. BJA received four applications through a 
competitive process and awarded $305,000 to the Upper Midwest Community 
Policing Institute (UMCPI) to develop and pilot the training.
    Since the award to UMCPI was made in September 2013, UMCPI, working 
with BJA, developed curriculums and delivered human trafficking 
trainings to tribal law enforcement. A summary of the curriculums and 
the training sessions is provided below.
Curriculum Development
    The Human Trafficking in Native American Communities curriculum was 
developed by UMCPI, based on recommendations from a focus group of 
subject matter experts that included State, tribal and municipal law 
enforcement personnel, some with expertise in human trafficking; 
Federal officials from the U. S. Attorney's Office--Western Washington 
and Department of Homeland Security; and State Social and Health Indian 
Child services unit. The curriculum provides training for tribal law 
enforcement, tribal leaders and community stakeholders that includes 
components covering: (1) basic understanding of human trafficking; (2) 
outreach to the community, tribal leaders and service providers; (3) 
the development of protocols and policies to increase the community's 
capacity to address human trafficking; and (4) specialized 
investigative and case coordination training for law enforcement.
    Tribal Youth Peer-to-Peer Human Trafficking in Indian Country 
Prevention Curriculum is an interactive, culturally responsive 
curriculum that is to be delivered by persons who currently work with 
Native American youth and who have completed the required train-the-
trainer program, offered by UMCPI. The curriculum is designed to 
provide Native American youth with an understanding of the types of 
human trafficking that can occur; how human trafficking can occur in 
their community and provide them with information to help them identify 
internal and external resources that can serve as protective factors 
against human trafficking crimes.
    UMCPI is also reviewing its other existing human trafficking 
training, to explore how such training may be customized for the Native 
American Community.
Trainings
  --Representatives from law enforcement, tribal council, social 
        services, casino security, wildlife law enforcement, courts, 
        and a gaming regulatory commission attended the Human 
        Trafficking in Native American Communities pilot training.
  --Representatives from education, recreation, tribal wellness 
        organizations and tribal council and a research organization 
        attended two Tribal Youth Peer-to-Peer Human Trafficking in 
        Indian Country Prevention pilot trainings.
Future Trainings
  --Two additional Human Trafficking in Native American Communities 
        pilot trainings are scheduled to be held between August and 
        December 2014.
    BJA is currently working with UMCPI to determine available funding 
for future training classes. Additional information about UMCPI's human 
trafficking training is available at its Web site, http://
www.umcpi.org/Services/NationalInitiatives/HumanTrafficking.aspx.
                              task forces
    Question. How does the Department ensure there is not duplication 
of effort across task forces? How is task force effectiveness measured? 
Which component agencies have the largest number of task forces?
    Lead-in information from original document.--
          The Justice Department has 570 task forces covering areas 
        from terrorism and fugitive apprehension to intellectual 
        property and child recovery. These task forces are comprised of 
        teams of not only Federal law enforcement but State and local 
        police and intelligence agencies working together to identify 
        and respond to crime at the local level.

    Answer. While several DOJ components operate task forces with 
similar missions, each component brings a unique set of experience and 
skills to its investigations. Further, DOJ has several deconfliction 
mechanisms, such as DEA's Special Operations Division (SOD) and the 
Organized Crime Drug Enforcement Task Forces (OCDETF) Fusion Center, to 
ensure that task forces are not conducting investigations of the same 
target. In fiscal year 2012 and fiscal year 2013, the Department 
consolidated or eliminated more than 40 task forces to reduce intra-
agency overlap and ensure efficient task force management. The 
Department recently adopted a mandatory policy regarding the use of 
deconfliction systems in the course of all current and future 
investigative activity, which took effect on May 30, 2014. 
Implementation of this policy will address investigative, target, and 
event data; improve effective coordination and collaboration of 
investigative activity; maximize departmental performance; and most 
importantly ensure officer safety. Regarding effectiveness, each of the 
agencies' task forces have a unique mission, defined goals, and 
individualized performance metrics incorporated into their overall 
agency leadership and culture. DEA operates 250 task forces, including 
its regional task forces, its Tactical Diversion Squads, and High 
Intensity Drug Trafficking Area (HIDTA) task forces. FBI operates 217 
Safe Streets and Safe Trails task forces focused on violent gangs, 
violent crime, and major theft, and the USMS operates 67 fugitive task 
forces, including its 7 Regional Fugitive Task Forces.
    Question. How have cuts by State and local governments to their law 
enforcement agencies impacted these operations? Have there been demands 
for additional task force help in communities or States that have had 
to downsize their public safety budgets? Or has participation in task 
forces declined because States and localities can't spare the personnel 
to participate?
    Answer. DOJ's investigative agencies have seen mixed impacts on 
State and local task force participation. For example, DEA's Tactical 
Diversion Squads have seen a significant increase in participation 
while participation on ATF's task forces and FBI's Joint Terrorism Task 
Forces has remained stable. In some localities, participation is down 
on FBI's criminal task forces while requests for operational assistance 
have increased.
                           assets forfeiture
    Question. What has been shared with State and local partner 
agencies via equitable sharing programs or as part of asset forfeiture 
in fiscal year 2012 and 2013 and what is expected to be shared in 
fiscal year 2014?
    Answer. The Department's Asset Forfeiture Program (AFP) made 
payments of $447.3 million in fiscal year 2012 and $657.2 million in 
fiscal year 2013 to State and local partner agencies through the 
equitable sharing program. In fiscal year 2014, the AFP made equitable 
sharing payments of $425.1 million to State and local partner agencies.
    Additionally, the Department's AFP made available $140.5 million in 
fiscal year 2012 and $154.7 million in fiscal year 2013 and fiscal year 
2014 for expenses incurred by State and local law enforcement officers 
participating in joint law enforcement operations with Federal 
agencies.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                           immigration courts
    Question. What will be the real impact, of an additional 35 
immigration judge teams, to the existing backlog when the staffing 
needs appear to be so dire?
    Lead-in information from original document.--
          I am concerned about the large and expanding docket of our 
        Nation's immigration court system. Between 2009 and 2013, the 
        pending caseload grew 50 percent. The Executive Office for 
        Immigration Review has stated the court system has 32 
        vacancies. To make matters worse, nearly half of the 200 
        immigration judges are eligible for retirement. However, I was 
        encouraged the Department of Justice requested a $17 million to 
        support an additional 35 Immigration Judge teams to help 
        process the backlog of over 350,000 cases.

    Answer. The addition of 35 Immigration Judge Teams will allow 
EOIR's immigration courts to process a greater number of pending cases. 
The number of pending cases over time depends on the volume of existing 
cases, new charging documents filed by DHS, and case completions. EOIRs 
current pending caseload volume in fiscal year 2014 is approximately 
389,000 proceedings. The number of annual completions by an Immigration 
Judge varies according to a number of factors, including the type of 
docket to which the judge is assigned. Taking into account variable 
completion rates among judges, EOIR estimates that 35 additional IJ 
teams will likely complete between 21,000 and 28,000 proceedings 
annually. The effect of this added productivity upon the pending 
caseload or backlog will depend on the number of additional charging 
documents filed by DHS during the same period. Finally, any gains in 
staffing and productivity may be lowered slightly due to normal staff 
attrition.
    Question. What other steps is EOIR taking to promote efficiencies 
to address the immigration court backlog?
    Answer. EOIR continues to work closely with DHS, other government 
agencies, and non-profit organizations to explore ways to promote 
efficiencies to address the immigration courts pending caseload. In 
conjunction with these groups, EOIR has conducted test pilots across 
the country in the areas of non-contested dockets, alternatives-to-
detention, pre-trial conferences, and unaccompanied alien children 
scheduling adjustments to try to streamline immigration proceedings.
    To improve the effective and efficient adjudication of immigration 
removal proceedings for vulnerable populations, such as unaccompanied 
alien children and detained aliens who are deemed mentally incompetent 
to represent themselves in immigration proceedings, EOIR dedicated over 
$3 million in fiscal year 2014 resources to provide legal aid services 
to these populations.
    Additionally, in fiscal year 2014, EOIR dedicated approximately 
$6.6 million for the Legal Orientation Program (LOP), which improves 
efficiencies in immigration court proceedings for detained aliens by 
increasing their awareness of their rights and the overall process. As 
a result of the increased funding provided in fiscal year 2014, EOIR 
expanded the program to provide these services at five additional adult 
facilities and four family detention facilities. Today, the LOP is 
available at 32 sites across the country. Evaluation reports have shown 
that LOP participants complete their immigration court cases in 
detention an average of 12 days faster than detainees who do not 
participate in an LOP, which saves the Government approximately $12.3 
million annually. EOIR has requested another $2.8 million in fiscal 
year 2015 to respond to elevated demand at existing LOP sites and to 
add 12 more sites.
                            forensics reform
    Question. Would you agree that there must be national leadership in 
the area of forensic science, and that the Department of Justice, 
working with the FBI and other elements of the executive branch, can 
play a central role in the development of this important part of our 
criminal justice system?
    Lead-in information from original document.--
          Last month, I introduced a comprehensive bill aimed at 
        strengthening and improving the forensic sciences used in the 
        criminal justice system. I am pleased that Senator Cornyn has 
        joined as a cosponsor of this bill, and hope that we can 
        continue to build support for this bipartisan, commonsense 
        bill. I know that the Department of Justice has been a leader 
        in the forensic sciences, particularly with regard to DNA 
        analysis in their FBI crime labs. But I think you will also 
        agree with me that more work needs to be done.

    Answer. Yes, the Department of Justice (DOJ) agrees that there must 
be national leadership in the area of forensic science. To that end, 
DOJ, in collaboration with the National Institute of Standards and 
Technology, established the National Commission on Forensic Science to 
provide Federal leadership in forensic science while also encouraging 
strong State and local participation. The Commission will have an 
important role in strengthening the validity and reliability of the 
forensic sciences and enhancing quality assurance and quality control. 
Scientifically valid and accurate forensic analysis supports all 
aspects of our justice system.
    Question. Will you commit to working with me on the forensics 
reform bill that I introduced last month?
    Answer. The Department is committed to working closely with you and 
others in Congress to strengthen forensic science. We are grateful for 
your interest in this important issue and will be glad to work with 
Congress on efforts to enhance the validity and reliability of forensic 
sciences.
                              budget cuts
    Question. Can you describe what DOJ programs have faced shrinking 
budgets in recent years and what impact, if any, this threatens to have 
on public safety?
    Lead-in information from original document.--
          In recent years the Bureau of Prisons' budget has expanded at 
        unprecedented levels despite overall funding for the Justice 
        Department remaining relatively stagnant.

    Answer. Since fiscal year 1994, the Federal prison population more 
than doubled, and the detention population more than tripled. As a 
result, the budget for prisons and detention has constituted an 
increasing portion of the Department's total budget. Prisons and 
detention costs increased from 27 percent of DOJ's discretionary budget 
in fiscal year 2000 to 31 percent in fiscal year 2013, leaving less 
funding for other DOJ functions even before sequester. During this same 
period, including grants for State and local law enforcement, funding 
for grants decreased from 26 percent of DOJ's fiscal year 2000 budget 
($4.0 billion) to 8 percent ($2.0 billion) in fiscal year 2013.
    If this trend continues unabated while DOJ's total authority 
remains flat, the discretionary funding available for other DOJ 
activities that protect public safety--including resources for 
investigation, prosecution, prevention, intervention, and assistance to 
State and local law enforcement--will decrease.
    This reality has only served to intensify the need for smarter 
investments to protect public safety. For this reason, on August 12, 
2013, the Attorney General announced his ``Smart on Crime'' initiative, 
which prioritizes prosecutions of the most serious cases, reforms 
sentencing policies to help control Federal prison spending and ensure 
that people convicted of low-level, non-violent drug offenses receive 
appropriate sentences, invests in alternatives to incarceration for 
low-level, non-violent offenders, and improves reentry to curb repeat 
offenses and re-victimization.
                            prisoner reentry
    Question. In furthering its goal of ensuring public safety, what 
has the Department of Justice found to be the most effective tools or 
methods to reducing recidivism rates?
    Lead-in information from original document.--
          Last year, Senator Portman and I introduced the Second Chance 
        Reauthorization Act, which is aimed at improving prisoner 
        reentry.

    Answer. The Department of Justice (DOJ) is committed to fulfilling 
the objectives outlined in the Second Chance Act (SCA). Reentry 
programming provides a major opportunity to reduce recidivism, save 
taxpayer dollars and make our communities safer. One of the primary 
goals of the SCA has been to reduce recidivism by using risk and needs 
assessments to identify returning offenders with moderate- to high-risk 
of returning to prison or jail. Focusing on these moderate- to high-
risk offenders allows agencies to concentrate their resources on those 
offenders with the most significant needs. The Department's Bureau of 
Justice Assistance (BJA) manages the SCA grant programs and believes 
that the most effective tools to prevent recidivism are a set of 
``comprehensive wrap-around services'' based on evidence-based programs 
that meet the identified needs of individual offenders. For example, it 
does little good to find an offender a job if his or her substance 
abuse or mental health problems are barriers to keeping the job. 
Likewise, simply having a place to live may not stabilize an offender 
unless he or she has access to supportive case management services 
designed to help him or her adjust to independent living situations. 
There are no ``silver bullets'' that will magically eradicate 
recidivism; rather, it takes a complete tool box of services to apply 
to each unique situation based on the specific needs of the returning 
offender.
    Bureau of Prisons (BOP) also offers a variety of programs to help 
inmates return to their communities as law-abiding citizens, including 
work, education, vocational training, substance abuse treatment, 
observance of faith and religion, psychological services and 
counseling, and other programs that impart essential life skills.
    To strengthen the focus on its reentry mission, BOP created the 
Reentry Services Division (RSD) in fiscal year 2013. RSD will enhance 
reentry programming and community resource transition, thereby 
decreasing the recidivism rate of released offenders and increasing 
public safety. RSD is comprised of five branches that were previously 
part of the Correctional Programs Division: National Reentry Affairs, 
Chaplaincy Services, Residential Reentry Management, Female Offenders, 
and Psychology Services.

Some of BOP's most successful programs include:

  --Federal Prison Industries (FPI or trade name UNICOR) is one of the 
        BOP's most important correctional programs. Approximately 
        13,000 inmates work in FPI. It has been proven to substantially 
        reduce recidivism. Research has demonstrated that inmates who 
        participate in the FPI are 24 percent less likely to reenter 
        the Federal system than similar non-participating inmates. FPI 
        gives inmates the opportunity to develop marketable work skills 
        and a general work ethic--both of which can lead to viable, 
        sustained employment upon release. This is particularly 
        noteworthy for reentry given the barriers to post-release 
        employment many offenders face. FPI also keeps inmates 
        productively occupied; inmates who participate are 
        substantially less likely to engage in misconduct.
    --FPI inmate employment has significantly decreased in recent 
            years. This decrease is a result of the downturn in the 
            economy, a decrease in supplies needed to support the war 
            effort, as well as legislative changes. Legislation enacted 
            over the past few years (including various provisions in 
            Department of Defense authorization bills and 
            appropriations bills) also have weakened FPI's standing in 
            the Federal procurement process by requiring FPI to compete 
            for the work of Federal agencies in many instances where it 
            was previously treated as a mandatory source of supply.
    --More recently, Congress has enacted legislation to assist in 
            enhancing inmate work opportunities. Staff in BOP's New 
            Business Development Group are dedicated to developing 
            repatriation and Prison Industries Enhancement 
            Certification Program (PIECP) opportunities, and are 
            enthusiastically pursuing many different products and 
            working with a number of different potential partners.
  --Educational programming provides inmates with an opportunity to 
        learn the functional skills that support their reintegration 
        into the community. Inmate education programs include literacy, 
        English-as-a-Second Language (ESL), occupational education, 
        advanced occupational education (AOE), parenting, release 
        preparation courses, and a wide-range of adult continuing, 
        wellness, and structured and unstructured leisure time 
        activities. At the end of fiscal year 2013, 34 percent of the 
        designated inmate population was enrolled in one of more 
        education/recreation program. Empirical research has found that 
        participation in educational programs leads to a 16 percent 
        reduction in recidivism by inmates who participate in these 
        programs.
  --The BOP's substance abuse strategy includes a required drug 
        education course, non-residential drug abuse treatment, 
        residential drug abuse treatment, and community transition 
        treatment. Because certain non-violent offenders who 
        successfully complete all components of this recidivism-
        reducing program are eligible for an incentive of up to 1 year 
        off their sentence, inmates are strongly motivated to 
        participate. Empirical research has shown that inmates who 
        complete the residential drug abuse treatment program are 16 
        percent less likely to recidivate and 15 percent less likely to 
        have a relapse in their substance use disorder use within 3 
        years after release (male inmates).
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
               prosecuting gitmo detainees in u.s. courts
    Question. Now that we have seen that conviction rates have been 
higher in Federal criminal courts than in Military Commissions, aren't 
there some GTMO detainees who we would be better off prosecuting in 
Federal criminal court, especially for conspiracy and material support?
    Answer. The Department has never doubted the ability of the Article 
III court system to administer justice swiftly and effectively in 
terrorism-related prosecutions. Hundreds of terrorism-related cases 
have demonstrated the effectiveness of this approach, including the 
March 2014 conviction by a Federal jury in Manhattan of Sulaiman Abu 
Ghayth, the son-in-law of Usama bin Laden and a senior member of al 
Qaeda, and the May 2014 conviction by a Federal jury in Manhattan of 
Mustafa Kamel Mustafa a/k/a ``Abu Hamza al Masri'', another al Qaeda-
linked figure who, among other things, conspired to establish a 
terrorist training camp here in the United States. The decision of 
whether to prosecute terrorism cases in Article III courts or in 
military commissions must be based on the facts and circumstances and 
our national security interests on a case-by-case basis. As you know, 
however, Section 1034 of the National Defense Authorization Act for 
fiscal year 2014 continues the ban against using Department of Defense 
funds to transfer Guantanamo detainees into the United States for any 
type of trial or any other purpose.
    Question. If GTMO detainees can be held safely and securely before, 
during, and after their trial in Federal criminal courts, when will we 
start bringing GTMO detainees into the United States for prosecution 
again?
    Lead-in information from original document.--
          Like you, I was pleased to see that, last month, a senior al-
        Qaeda figure named Sulaiman Abu Ghayth was convicted in Federal 
        criminal court of all three counts against him, which could 
        bring a sentence of life in prison.
          With the high rate of convictions we have seen in the Federal 
        courts since 9/11, I'd like to get your thoughts on 
        transferring detainees from Guantanamo for prosecution in the 
        U.S. Although Abu Ghayth was not transferred from Guantanamo, 
        he was a senior al-Qaeda figure. And there is the precedent of 
        Guantanamo detainee Ahmed Ghailani being transferred to New 
        York City where he was sentenced to life in prison in Federal 
        court for conspiracy to kill Americans even though he was 
        acquitted of most of the other charges against him.

    Answer. There is ample evidence that terrorism defendants can be 
held safely and securely before, during, and after trial in the United 
States. As you know, however, the National Defense Authorization Act 
for fiscal year 2014 continues the ban against using Department of 
Defense funds to transfer Guantanamo detainees into the United States 
for trial or any other purpose.
    Question. Will you please work with this Committee to oppose any 
restrictions on these transfers to the U.S. that would make it harder 
to bring these terrorists in Guantanamo to justice?
    Answer. The Administration remains committed to closing the 
detention facility at Guantanamo Bay, as continued operation of the 
facility weakens our national security. We welcomed the loosening of 
some of the restrictions related to the transfer of detainees to 
foreign countries in the National Defense Authorization Act for fiscal 
year 2014. However, the continuing restrictions on transfer of 
Guantanamo detainees to the United States and the remaining 
restrictions on transfer of detainees to third countries unnecessarily 
curtails the flexibility and options available to the executive branch. 
The Justice Department will continue to work with Congress to remove 
these transfer restrictions.
                            terrorist asylum
    Question. Mr. Attorney General, as you know, one of the arguments 
critics use to justify their position that more terrorists should be 
sent to Guantanamo is that they can be granted asylum if they are 
prosecuted on U.S. soil. What is your response to that claim?
    Answer. As explained more fully in the recently submitted 
congressional report requested by Section 1039 of the National Defense 
Authorization Act for fiscal year 2014, no Guantanamo detainee 
relocated to the United States would have a right to receive a grant of 
asylum in the United States. Asylum is a discretionary form of relief 
generally available to an alien who demonstrates, inter alia, that he 
was persecuted or has a well-founded fear of persecution in his country 
of nationality on account of his actual or imputed race, religion, 
nationality, membership in a particular social group, or political 
opinion. Although an alien who is physically present in the United 
States may, with limited exceptions, file an application for asylum, 
that application may be denied as a matter of discretion even if the 
alien were able to satisfy the eligibility requirements. Moreover, in 
many cases involving Guantanamo detainees, one or more of a number of 
statutory bars to eligibility could also apply. For example, an alien 
who has engaged in terrorist activity as described in INA 
Sec. 212(a)(3)(B), 8 U.S.C. Sec. 1182(a)(3)(B), is ineligible for 
asylum. An alien is also barred from obtaining asylum where he has 
ordered, incited, assisted, or otherwise participated in persecution on 
account of a protected ground or where there are reasonable grounds for 
regarding the alien as a danger to the security of the United States. 
Additionally, where an alien, having been convicted of a particularly 
serious crime, poses a danger to the community or where there are 
``serious reasons for believing that the alien has committed a serious 
nonpolitical crime'' outside the United States, the alien is also 
barred from receiving asylum.
  funding for the bureau of alcohol, tobacco, firearms and explosives 
                            (atf) attrition
    Question. How will the loss of special agents affect ATF's ability 
to conduct criminal investigations, train new agents, and carry out the 
Bureau's work?
    Answer. ATF's ability to effectively address violent crime in our 
communities and neighborhoods is directly tied to the number of special 
agents and industry operations investigators in our workforce. ATF 
faces several challenges including the anticipated retirement and 
attrition of hundreds of special agents in the next few years. While 
ATF has traditionally worked in partnership with State and local law 
enforcement agencies to leverage its capabilities and impact on violent 
crime, these approaches alone are not sufficient to overcome 
significant losses within its agent cadre. The loss of hundreds of 
special agents jeopardizes ATF's mission capacity; however, the fiscal 
year 2014 Appropriation began to address this challenge and ATF was 
able to hire approximately 217 special agents in fiscal year 2014. With 
the funding requested in the fiscal year 2015 President's budget, ATF 
will be able to sustain the hiring effort started this year.
    Question. What steps is ATF taking to address this attrition?
    Answer. ATF hired approximately 217 special agents in fiscal year 
2014 in an effort to offset the impact of recent attrition as well as 
projected future attrition and retirements. ATF anticipates that a 
sustained hiring effort will be required over the next several years in 
order to maintain the special agent cadre and ensure that there is no 
degradation of ATF's mission capability as a result of personnel loss.
    ATF is also revitalizing and expanding its advanced agent training 
programs and leadership development programs. For example, ATF has 
undertaken course redesign/review efforts related to its advanced 
investigations training program, the advanced firearms training 
program, and the Industry Operations Investigator (IOI) training 
programs. The goal for these efforts is to create updated curricula 
that can be broken out into individual modules and delivered by 
instructors already in the field. ATF is also accelerating its 
leadership development efforts. For example, ATF has completed 
development and implementation of the ATF Leadership Philosophy, which 
provides a consistent contextual basis for developing and emphasizing 
leadership principles throughout the organization. ATF has also 
initiated development of a new Leadership and Command course for agents 
in the supervisory and managerial ranks, addressing a critical need 
within those cadres. Further, ATF is investing in additional training 
opportunities for managers through the Center for Creative Leadership 
(CCL) and is increasing its support for its Aspiring Leaders and 
Leadership Enhancement programs.
    While hiring new agents serves as a numerical offset to attrition, 
many years of training and experience are required before a new agent 
is fully capable of replacing a senior agent. ATF is working to 
accelerate that development process, taking advantage of the existing 
experience of senior agents within the workforce to prepare new agents 
for the technical and leadership challenges that lie ahead.
    Question. How does the President's budget request for ATF address 
this attrition?
    Answer. ATF anticipates that a sustained hiring and training effort 
will be required over the next several years in order to maintain ATF's 
special agent cadre and ensure that ATF's mission capability is not 
degraded due to retirements and attrition. ATF hired approximately 217 
special agents in fiscal year 2014 in an effort to offset the impact of 
recent attrition as well as projected future retirements and the fiscal 
year 2015 President's budget sustains these hiring efforts.
    Question. How imperative is it that Congress fully fund ATF in line 
with the President's budget request?
    Answer. The fiscal year 2015 President's budget request includes 
$22 million in adjustments to base that sustains the momentum and 
positive steps the Bureau is made in fiscal year 2014 to address areas 
of concern and vulnerability. In particular, ATF anticipates that a 
sustained hiring and training effort will be required over the next 
several years in order to maintain ATF's special agent cadre and ensure 
that ATF's mission capability is not degraded due to retirements and 
attrition.
                      unaccompanied alien children
    Question. Have you considered developing dockets in immigration 
courts dedicated to children, so that non-profit organizations and pro 
bono attorneys can better coordinate legal representation and child 
advocates for children? If so, what steps have you taken thus far?
    Lead-in information from original document.--
          A recent surge in widespread organized crime and violence in 
        Central America has led to an unprecedented increase in the 
        number of unaccompanied alien children (UAC) crossing the U.S.-
        Mexico border. Many of these children wind up in the custody of 
        the Office of Refugee Resettlement. I applaud the work done for 
        these children by the Legal Orientation Program. However, the 
        Program doesn't serve children who have been released from 
        custody. Considering the increased numbers of these children, 
        and the fact that many of those already released from custody 
        still have pending immigration cases, more has to be done to 
        ensure these children have Child Advocates and attorneys to 
        represent them navigate immigration court.
          Congress allocated $315 million for the Executive Office for 
        Immigration Review (EOIR) and the Office of the Pardon Attorney 
        in the 2014 Consolidated Appropriations Act (Public Law 113-
        76), instructing DOJ to ``better serve vulnerable populations 
        such as children,'' and ``improve court efficiency through 
        pilot efforts aimed at improving legal representation.''

    Answer. EOIR has established ``juvenile dockets'' throughout the 
country to facilitate consistency, encourage child-friendly courtroom 
practices, and promote pro bono representation for unaccompanied alien 
children (UAC). Currently, there are juvenile dockets in 26 immigration 
court locations. In addition, DOJ has appointed an Assistant Chief 
Immigration Judge (ACIJ) for vulnerable populations, who has the 
responsibility for continuing the development and implementation of 
EOIR policy concerning vulnerable populations. The ACIJ is focusing on 
the UAC population in particular, and is working with EOIR's Office of 
Legal Access Programs and the various immigration courts to further 
improve training for court staff, as well as examine and implement 
improved procedures for handling UAC cases.
    Question. Will the DOJ take steps to allocate funds to provide 
legal representation for unaccompanied children?
    Answer. The Department of Justice, through EOIR, entered into a 
strategic partnership with the Corporation for National and Community 
Service (CNCS), which operates the AmeriCorps national service program, 
to provide legal aid to certain unaccompanied minors and to improve the 
effective and efficient adjudication of immigration removal proceedings 
involving those children. The Justice Department and CNCS partnership, 
known as Justice AmeriCorps, responds to Congress' direction to EOIR in 
its fiscal year 2014 appropriation ``to better serve vulnerable 
populations such as children [and to] improve court efficiency through 
pilot efforts aimed at improving legal representation.'' On September 
12, 2014, CNCS awarded $1.8 million in grants to organizations and 
coalitions providing services at approximately 17 sites. It is 
anticipated that the organizations and coalitions will begin providing 
legal representation services in January 2015.
    In addition, EOIR allocated $200,000 in funding to the Vera 
Institute of Justice to provide direct legal representation for 
unaccompanied children appearing before the Baltimore Immigration 
Court. The Baltimore Representation Initiative for Unaccompanied 
Children will be operational January 2015.
    Question. Will the DOJ commit to looking at how to expand access to 
legal counsel for immigrant children?
    Answer. The Department of Justice is committed to looking at how to 
expand access to legal counsel for immigrant children. In addition to 
launching the Justice AmeriCorps program and the Baltimore Initiative 
to provide legal aid to unaccompanied children, the Department 
continues to work closely with other government agencies and non-profit 
organizations to explore ways to increase access to legal services for 
unaccompanied children in removal proceedings, as well as other 
vulnerable populations. Over the past several years, EOIR, together 
with its government and non-governmental partners, has made great 
strides to improve the adjudication process for children. These 
include:
  --Issuing guidance to immigration court staff to implement more 
        child-friendly court practices and improve access to pro bono 
        legal services.
  --Creating special children's dockets at the majority of immigration 
        courts to better accommodate pro bono legal services and 
        implement more child-friendly court practices.
  --Expanding Immigration Judge training for hearing cases involving 
        children.
  --Facilitating Legal Access Programs funded by the Office of Refugee 
        Resettlement (ORR), which provides ``know your rights'' 
        presentations and pro bono legal services at all ORR shelter 
        care locations.
  --Creating the Legal Orientation Program for Custodians of UAC 
        (LOPC), which funds non-governmental organizations to provide 
        legal orientation presentations and pro bono referral services 
        to the custodians (adult caregivers) of UACs. The purpose of 
        this program is to inform UAC custodians of their 
        responsibilities in ensuring the child's appearance at all 
        immigration proceedings, as well as protecting the child from 
        mistreatment, exploitation and trafficking. In fiscal year 
        2014, EOIR allocated $2.5 million in funding to this program.
  --Engaging public stakeholders to improve access to pro bono legal 
        services, especially for children and family groups. These 
        ongoing efforts have included large stakeholder meetings with 
        EOIR's Director, Deputy Director, and Assistant Chief 
        Immigration Judges in cities with the largest unaccompanied 
        child populations.
                       immigration court backlog
    Question. Assuming that the 35 new immigration judge teams were to 
be filled, would that suffice for EOIR's needs?
    Answer. Hiring 35 Immigration Judge teams will assist EOIR with 
managing the incoming caseload. As of November 2014, EOIR's Immigration 
Judge Corps consists of 241 Immigration Judges, which is below an 
optimal staffing level to appropriately address the incoming and 
pending caseload. In light of the ongoing surge in immigration, 
especially along the Southwest Border, EOIR initiated the hiring of 
more than 30 Immigration Judges in fiscal year 2014 to address a 
longstanding shortfall exacerbated by a 5 percent to 10 percent 
attrition rate per year. EOIR anticipates the above-mentioned 35 
Immigration Judge teams in 2015 will allow EOIR to better address the 
incoming caseload and begin to reduce the pending caseload.
    Question. What impact will an additional 35 immigration judge teams 
have on the existing backlog?
    Answer. The addition of 35 Immigration Judge Teams will allow 
EOIR's immigration courts to process a greater number of pending cases. 
The number of pending cases over time depends on the volume of existing 
cases, new charging documents filed by the Department of Homeland 
Security (DHS), and case completions. EOIRs current pending caseload 
volume in fiscal year 2014 is approximately 389,000 proceedings. The 
number of annual completions by an Immigration Judge varies according 
to a number of factors, including the type of docket to which the judge 
is assigned. Taking into account variable completion rates among 
judges, EOIR estimates that 35 additional Immigration Judge (IJ) teams 
will likely complete between 21,000 and 28,000 proceedings annually. 
The effect of this added productivity upon the pending caseload or 
backlog will depend on the number of additional charging documents 
filed by DHS during the same period. Finally, any gains in staffing and 
productivity may be lowered slightly due to normal staff attrition.
    Question. What other steps is EOIR taking to promote efficiencies 
to address the immigration court backlog?
    Answer. EOIR continues to work closely with DHS, other government 
agencies, and non-profit organizations to explore ways to promote 
efficiencies to address the immigration courts pending caseload. In 
conjunction with these groups, EOIR has conducted test pilots across 
the country in the areas of non-contested dockets, alternatives-to-
detention, pre-trial conferences, and unaccompanied alien children 
scheduling adjustments to try to streamline immigration proceedings.
    To improve the effective and efficient adjudication of immigration 
removal proceedings for vulnerable populations, such as unaccompanied 
alien children and detained aliens who are deemed mentally incompetent 
to represent themselves in immigration proceedings, EOIR dedicated over 
$3 million in fiscal year 2014 resources to provide legal aid services 
to these populations.
    Additionally, in fiscal year 2014, EOIR dedicated approximately 
$6.6 million for the Legal Orientation Program (LOP), which improves 
efficiencies in immigration court proceedings for detained aliens by 
increasing their awareness of their rights and the overall process. As 
a result of the increased funding provided in fiscal year 2014, EOIR 
expanded the program to provide these services at five additional adult 
facilities and four family detention facilities. Today, the LOP is 
available at 32 sites across the country. Evaluation reports have shown 
that LOP participants complete their immigration court cases in 
detention an average of 12 days faster than detainees who do not 
participate in an LOP, which saves the Government approximately $16.6 
million annually. EOIR has requested another $2.8 million in fiscal 
year 2015 to respond to elevated demand at existing LOP sites and to 
add 12 more sites.
    Question. Since many people in immigration court lack attorneys and 
a basic understanding of the immigration court process, what steps is 
EOIR employing, or considering, to give these people better access to 
information so they can move through court proceedings more 
expeditiously without sacrificing due process?
    Answer. EOIR has established an Office of Legal Access Program to 
administer several programs and initiatives to provide people with 
better access to legal information and counsel. The programs and 
initiatives include: the Legal Orientation Program (LOP), the Legal 
Orientation Program for Custodians of Unaccompanied Alien Children 
(LOPC), Self Help Legal Centers, Self Help Guides, Model Hearing 
Program, and Pro Bono Liaison Judge meetings.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                       new orleans consent decree
    Question. What is causing the delay in Department of Justice's 
review of the New Orleans Police Department's policies?
    Lead-in information from original document.--
          As you know the New Orleans Police Department entered into a 
        consent decree with the Department of Justice in 2012. A 
        Federal court imposed an October deadline for the review of 
        important policies and those policies have not been fully 
        reviewed.

    Answer. A comprehensive Consent Decree designed to bring the New 
Orleans Police Department (NOPD) into compliance with the Constitution 
is in place, and in July 2013 the court appointed an experienced 
monitoring team to oversee implementation of the Decree.
    The Department and the city of New Orleans, with the Court's 
approval and oversight, have worked cooperatively to devise a policy 
review process that will allow the NOPD to adopt and implement policies 
that are consistent with the law as quickly and efficiently as 
possible.
    NOPD has provided a limited number of policies to DOJ and the 
Consent Decree Monitor (``Monitor''), and both DOJ and the Monitor have 
provided comments and suggestions regarding those policies in a timely 
manner. NOPD, DOJ, and the Monitor have worked together to revise those 
policies to ensure that they comply with the Consent Decree and 
applicable law, and to ensure that they will be effective for NOPD's 
particular needs. In some instances, that process is ongoing. In 
others, that process has been completed and DOJ and the Monitor have 
provided final approval for NOPD to adopt and implement those policies.
    The Department continues to work closely with the city and police 
department, as well as the Monitor, to facilitate transformative change 
and ensure reform of the New Orleans Police Department. The Department 
has reviewed, and will continue to review, all policies submitted to it 
in a timely fashion and in compliance with the Decree and all Court 
Orders.
    Question. What process is the Department of Justice utilizing to 
review NOPD's policies? Are there subject matter experts within the DOJ 
who are actively engaged in the review of the policies? If not, are the 
DOJ lawyers qualified to adequately and efficiently review the 
policies?
    Answer. Once NOPD submits policies to DOJ and the Monitor, DOJ 
lawyers review those policies to ensure that they comply with the law 
and the Consent Decree, are internally consistent, and provide NOPD 
officers with effective guidance. In performing that review, DOJ 
lawyers consult the Monitoring team, subject matter experts, and any 
other necessary sources in order to ensure that the review is thorough 
and effective.
    Question. Did the Department of Justice analyze the effects of 
creating the office of police secondary employment in New Orleans? Has 
the Department of Justice ever included provisions related to secondary 
employment in any other consent decree? If so, in which municipalities?
    Answer. The Department's investigation of NOPD revealed that NOPD's 
unregulated system of secondary employment was a significant 
contributor to unconstitutional policing in New Orleans. As detailed in 
the Department's findings letter, unregulated secondary employment both 
undermines the accountability structure within NOPD and encourages 
corruption, favoritism, and unprofessional and unconstitutional 
policing more broadly. For these reasons, which were specific to NOPD, 
for the first time, provisions related to secondary employment were 
included in the Consent Decree, which the city has agreed, and the 
Federal courts have found, is fair, adequate, and reasonable. In 
crafting the Consent Decree, DOJ worked with the city to create a 
system that would allow officers to continue to work secondary 
employment, but that would also address the ways in which secondary 
employment has contributed to a pattern or practice of unconstitutional 
conduct. DOJ remains committed to working with the city to ensure that 
its secondary employment system is fair and accountable.
    Question. Has the Department of Justice undertaken any efforts to 
regulate the Orleans Parish Sheriff's Office's paid detail system? Does 
the Department of Justice have a position on whether OPSO's staffing 
levels in the jail are affected by deputies performing paid details? 
Has the Department of Justice undertaken that analysis in light of its 
stated position that staffing is a major issue at the jail?
    Answer. The Department of Justice is enforcing compliance with the 
consent judgment it achieved in Jones v. Gusman, 12cv859, a pattern or 
practice civil rights case addressing conditions in the Orleans Parish 
Prison. Secondary employment by Sheriff Deputies is beyond the scope of 
that agreement. As required by the Prison Litigation Reform Act (PLRA), 
the terms of the consent judgment are narrowly tailored to address the 
constitutional violations in the jail. Among other terms, the consent 
judgment requires correctional staffing and supervision that is 
sufficient to adequately supervise prisoners, fulfill the terms of the 
consent judgment, and allow for the safe operation of the jail, 
consistent with constitutional standards. In February 2014, as required 
by the consent judgment, the Orleans Parish Sheriff's Office provided a 
staffing analysis and plan to all parties to the consent judgment and 
to the city of New Orleans. Staffing remains a very serious problem at 
the jail and the United States is attempting to determine the causes of 
the problem in the context of the litigation. The United States is 
aware of a substantial increase in the hiring of Deputies for paid 
details and assessing whether that increase has an impact on the 
implementation of the consent decree or raises justiciable issues. The 
Department of Justice is committed to vigorously enforcing the consent 
judgment, including all PLRA-compliant measures to achieve adequate 
staffing and supervision to address the ongoing unconstitutional 
conditions and unacceptable levels of violence in the jail.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
                     white collar crime prosecution
    Question. How many criminal prosecutions and convictions has the 
DOJ secured related to the 2008 crisis? If there is a stark difference, 
why is that so? To what degree have inadequate resources constrained 
DOJ's efforts? How many DOJ prosecutors work full time on white collar 
crime? Can you give me specific numbers on the following types of 
crimes (differentiate between full time and as a percentage of 
individual portfolios, please also differentiate from those who have 
been detailed to other assignments):
  --mortgage and securities fraud;
  --market manipulation in derivatives, oil or other commodities, 
        financial indices, or currencies;
  --offshore tax evasion;
  --money laundering and sanctions; and
  --payment system and other financial fraud.
    Lead-in information from original document.--
          In the Savings and Loan Crisis in the 1980's pervasive fraud 
        led to economic disaster. The DOJ during those years 
        aggressively stepped up its white collar task forces and over 
        150 people from DOJ and Treasury worked on Savings and Loan 
        fraud full time. By 1992, there had been over 1,100 criminal 
        prosecutions with over 839 convictions.
          By contrast, the DOJ's response to the recent crisis appears 
        much more muted.

    Answer. With regard to your first question on the number of 
criminal prosecutions and convictions that the Department has secured 
related to the 2008 crisis, it must be stated at the outset that the 
Department's position is, and always has been, that no person, and no 
corporation, is above the law. The Department is committed to 
aggressively investigating allegations of wrongdoing at financial 
institutions and, along with our law enforcement and regulatory 
partners, holding individuals and corporations responsible for their 
conduct through the criminal, civil, and administrative enforcement 
tools available to us. That being said, it is difficult to pinpoint 
precisely which cases are and are not directly related to the 
catastrophic economic events that began unfolding in 2008. What we can 
report is that the Department has prosecuted an incredible number of 
financial fraud cases since the inception of the financial crisis. 
Specifically, from fiscal year 2008 through the second quarter of 
fiscal year 2014, the United States Attorneys' Offices filed 21,544 
financial fraud cases against 31,349 defendants.\1\ During that same 
time period, 28,496 defendants were convicted of financial fraud 
crimes, and 18,063 were sentenced to prison for such crimes. Some of 
the more notable individuals in the financial industry prosecuted in 
the aftermath of the financial crisis are:
---------------------------------------------------------------------------
    \1\ Financial fraud encompasses the following program categories: 
Federal procurement fraud; Federal program fraud; financial institution 
fraud; bankruptcy fraud; advance fee schemes; other fraud against 
businesses; consumer fraud; securities fraud; commodities fraud; other 
investment fraud: mortgage fraud; or corporate fraud.
---------------------------------------------------------------------------
  --JP Morgan (London Whale individuals)
  --Goldman Sachs (Rajat Gupta; Matthew Taylor)
  --Morgan Stanley (Garth Peterson)
  --Credit Suisse (Kareem Serageldin and several others)
  --UBS (2 London Interbank Offered Rate (LIBOR) individuals and 
        individuals in antitrust cases)
  --Rabobank (3 LIBOR individuals)
  --ICAP (3 LIBOR individuals)
  --Galleon (Rajaratnam and several others)
  --SAC Capital (many)
  --Stanford Financial Group (Allen Stanford and others)
    Further, with respect to prosecutions of institutions, beginning in 
2013, the Department has obtained guilty pleas from the following 
financial industry institutions:
  --UBS Subsidiary (LIBOR) (plus $100 million fine)
  --RBS Subsidiary (LIBOR) (RBS parent paid $100 million penalty)
  --SAC Capital (plus $1.8 billion in fines and forfeiture)
  --Wegelin (Swiss Bank)
    Moreover, in November 2013, the Department announced the largest 
settlement with a single entity in American history: a $13 billion 
settlement with JPMorgan, to resolve Federal and State civil claims 
arising out of the packaging, marketing, sale and issuance of 
residential mortgage-backed securities by JPMorgan, Bear Stearns and 
Washington Mutual.
    With regard to your second question on the differences between the 
1980s savings and loan (S&L) crisis and the 2008 financial crisis, the 
circumstances of the two situations and the types of criminal conduct 
found in those two events were vastly different. In the S&L crisis, in 
part because of pervasive speculative lending practices by financial 
institutions, financial institution examiners and Federal investigators 
were confronted with hundreds of failed financial institutions across 
the country. The FBI's investigations of failed financial institutions 
reached its peak at 758 in July 1992. Financial Institution Fraud Unit, 
Financial Crimes Section, FBI, Financial Institution Fraud and Failure 
Report--Fiscal Year 2002 at 2-3 (2002), http://www.fbi.gov/stats-
services/publications/fiff-2002. Moreover, during the period of the 
late 1980s to the early 1990s, approximately 60 percent of the fraud 
reported by financial institutions related to bank insider abuse. Id. 
at 1. Those financial practices, which often involved collusion between 
bank insiders and outsiders as well as falsification of records by bank 
insiders regarding particular loans and borrowers, were vastly 
different in types from those associated with the 2008 crisis.
    With regard to your third question, concerning the degree to which 
inadequate resources have constrained the Department's efforts, the 
Department has sought appropriate resources to pursue all types of 
white-collar crime. The Department's efforts to combat financial fraud 
will continue to play a key role not only in ensuring that those who 
have engaged in fraudulent activities will be held accountable for 
their illegal conduct, but in deterring future fraudulent conduct and 
in recovering funds for fraud victims.
    With regard to your fourth and fifth questions, regarding the 
number of Department of Justice prosecutors who ``work full time on 
white collar crime,'' the Department does not maintain the precise type 
of statistical data you are seeking. While Assistant United States 
Attorneys often specialize in certain areas of criminal law and are 
assigned to specific sections within their offices' criminal divisions, 
they are generally not required to work full-time in any one area. This 
allows the United States Attorneys' offices flexibility in assigning 
cases and managing workload. Prosecutors track their time using 
category codes that describe the types of cases on which they have 
worked (e.g., white collar crime, violent crime, immigration). In 
fiscal year 2008, the United States Attorneys' offices devoted more 
than 831 full-time equivalent (FTE) workyears to white collar crime.\2\ 
That number has increased every fiscal year since then. The largest 
increase was between fiscal year 2008 and fiscal year 2009, when the 
number of FTE devoted to white collar crime rose by more than 100 FTE. 
The table below shows the FTE workyears for white collar crime over the 
last six fiscal years, including overtime hours (hours in excess of 40 
hours per week) that average more than 200 additional FTE per fiscal 
year.
---------------------------------------------------------------------------
    \2\ One FTE equals 2080 hours.
---------------------------------------------------------------------------
    [See Table below]
    Although there are white collar crime subcategories to which 
prosecutors can assign time, they are limited to financial institution 
fraud and healthcare fraud. Consequently, the Department cannot break 
down white collar crime FTE workyears according to the specific 
categories you identified. There are, however, specific components of 
the Department that are dedicated exclusively to prosecuting one or 
more types of white collar crime. With regards to the types of white-
collar crime mentioned in your questions, relevant components would 
include the Fraud Section of the Criminal Division, the Criminal 
Enforcement Sections of the Tax Division, and the Criminal Sections of 
the Antitrust Division. The Fraud Section of the Criminal Division has 
approximately 100 trial attorneys and supervisors, the Criminal 
Enforcement Sections of the Tax Division also have approximately 100 
trial attorneys and supervisors, and the Criminal Sections of the 
Antitrust Division have approximately 101 trial attorneys and 
supervisors.

                                             WHITE COLLAR CRIME FTE
----------------------------------------------------------------------------------------------------------------
                                                       Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal
                      Workyears                         year      year      year      year      year      year
                                                        2008      2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Attorney Workyears..................................    831.66    944.80    982.71   1028.79   1029.76   1067.29
Attorney 40+ Workyears..............................    180.65    194.32    226.29    227.75    226.07    225.75
Attorney and 40+ Workyears..........................   1012.31   1139.12   1209.00   1256.54   1255.83   1293.04
----------------------------------------------------------------------------------------------------------------

                             payment fraud
    Question. I'm very concerned about financial institutions and 
payments providers engaging in payments fraud or providing services to 
those engaged in illegal activities, such as lending into States in 
violation of State payday lending laws. Are you committed to continuing 
to investigate and pursue payment fraud and crack down on institutions 
that clear payments for illegal lenders?
    Answer. The Department of Justice (DOJ) is committed to protecting 
the American people from fraudulent practices in all industries. The 
Financial Institutions Reform, Recovery and Enforcement Act 
(``FIRREA'') allows for civil penalties in a variety of situations in 
which frauds are perpetrated affecting federally insured financial 
institutions. Those situations include instances where a financial 
institution knowingly participates in a fraud or processes transactions 
deliberately ignoring evidence that they are fraudulent. One key DOJ 
mission is to investigate violations of Federal law, especially those 
involving fraudulent conduct that threatens to harm the American 
public. We are working diligently to protect the public from this fraud 
by holding accountable those banks and payment processors that violate 
Federal law.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                       victims of child abuse act
    Question. Last year, Congress demonstrated its commitment to 
helping victims of child abuse by appropriating $19 million under the 
Victims of Child Abuse Act. I welcome DOJ's fiscal year 2015 request of 
$11 million for these programs, especially compared to levels in past 
budgets. Does DOJ plan to embrace an increased role in helping victims 
of child abuse in 2015 and beyond?
    Answer. The fiscal year 2015 President's budget request for the 
Office of Justice Programs (OJP) reflects the administration's strong 
support for addressing the needs of young people within the justice 
system and its commitment to promoting evidence-based programs and 
practices throughout the criminal and juvenile justice systems. The 
fiscal year 2015 President's budget request supports programs to serve 
victims of child abuse, to prevent and address youth violence, to 
improve outcomes of young people involved in the juvenile justice 
system, and ensure that all kids, particularly at-risk kids, are not 
swept up into the juvenile justice system. The request includes 
increased or continued funding for programs such as the Defending 
Childhood/Children Exposed to Violence Program ($23 million), Missing 
and Exploited Children's Programs ($67 million), and Title V Prevention 
Programs ($42 million)--a combined $34 million increase in fiscal year 
2015 over the fiscal year 2014 enacted levels for these programs.
    DOJ remains committed to utilizing existing resources to address 
the most urgent national priorities and to ensure the most efficient 
possible use of the juvenile justice funding appropriated under OJP. 
OJP will continue to respond to the changing needs of the juvenile 
justice community by providing greater flexibility in the use of 
funding (where allowed by statute) and improving coordination of these 
programs with other juvenile justice programs. The Office of Juvenile 
Justice and Delinquency Prevention (OJJDP) also will look at how other 
resources can be leveraged to help the Child Advocacy Centers (CACs) 
and Multi-Disciplinary Teams (MDTs) operate more efficiently and cost 
effectively.
                        bulletproof vest program
    Question. In your proposed fiscal year 2015 budget, you requested 
$22.5 million for the Bulletproof Vest Partnership Program. As you may 
know, I have joined several other Senators in advocating for a $30 
million appropriation for this program. What impact would this 
additional $ 7.5 million have on DOJ's ability to help State and local 
law enforcement acquire this life-saving equipment?
    Answer. The Bulletproof Vest Partnership (BVP) Program fills a 
critical need for State, local, and tribal law enforcement and public 
safety agencies by reimbursing them for up to half of the cost for 
qualifying, life-saving body armor for their officers. The fiscal year 
2015 funding request of $22.5 million is equal to the fiscal year 2014 
enacted level and will allow this program's activities to continue at 
their current level of effort. An additional $7.5 million would allow 
jurisdictions to purchase an estimated 8,700 additional vests.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                      fiscal year 2015 budget cuts
    Question. Why does the budget include undefined reductions to 
programs instead of providing an accurate funding picture for the 
Department? More importantly, why must these difficult decisions be 
made after the appropriations bills have passed?
    Lead-in information from original document.--
          The 2015 budget includes more than $500 million in 
        programmatic cuts. I am curious why the Department failed to 
        identify these cuts in advance of the budget submission. 
        Moreover, I question whether law enforcement components can 
        actually deliver the level of cuts required.

    Answer. The fiscal year 2015 budget provides an accurate funding 
picture of the Department by estimating the actual fiscal year 2015 
current services need, or the cost to maintain current operations and 
staffing levels planned through fiscal year 2015. In addition, the 
fiscal year 2015 budget is fiscally responsible in terms of spending 
because it meets the caps set by Congress in the Bipartisan Budget Act 
of 2013. In order to adhere to the congressionally directed caps, the 
DOJ Federal programs must absorb $503 million in unspecified program 
and administrative offsets. These offsets support anticipated 
inflationary increases, such as the costs for base pay, benefits and 
rent. These offsets are unspecified because of the limited time 
available between the enactment of the Bipartisan Budget Act and the 
conclusion of the fiscal year 2015 budget process. The $503 million in 
proposed offsets represents a fraction of the $1.6 billion in sequester 
cuts that the Department absorbed during the last 9 months of fiscal 
year 2013. DOJ program managers will have this fiscal year to identify 
opportunities for savings and prepare for the offsets.
    Question. Do you really believe that the FBI can cut $168 million, 
the U.S. Marshals Service can find $33 million, or that the U.S. 
Attorneys can eliminate $30 million from their budget--without cutting 
core mission requirements or essential personnel? And if so, why didn't 
you require them to do so before the budget was released?
    Answer. The Department proposed programmatic reductions in order to 
adhere to the fiscal year 2015 caps set by Congress with the Bipartisan 
Budget Act of 2013. The fiscal year 2013 sequester cut the salaries and 
expenses (S&E) appropriations of the Federal Bureau of Investigation 
(FBI) by $541.7 million, U.S. Marshals Services (USMS) by $59.1 million 
and U.S. Attorneys (USA) by $98.6 million. These cuts were much deeper 
than the programmatic offsets the fiscal year 2015 budget proposes and 
components will have more time to consider how to identify savings. 
Core mission requirements are not threatened because even with the 
proposed fiscal year 2015 offsets, S&E funding will essentially remain 
flat from the fiscal year 2014 appropriated levels for the FBI, USMS 
and USA.
                                doj cuts
    Question. According to your own statements, sequestration was 
devastating to the Department and its ability to perform core mission 
activities--why then will this version of sequestration be less 
devastating? Is there really that much fat to trim inside the 
Department of Justice?
    Lead-in information from original document.--
          In a 2013 Washington Post Op Ed on the impact of 
        sequestration you said, ``This shameful state of affairs is 
        unworthy of our great Nation, its proud history and our finest 
        legal traditions. In purely fiscal terms, the cuts imposed by 
        sequestration defy common sense . . .'' By eliminating the 
        discretionary sequester for 2014 and 2015 Congress has done its 
        part to ensure that the Department can be properly funded. 
        However, the Department's decision to include its own version 
        of a sequester in the 2015 budget request defies logic.

    Answer. The fiscal year 2015 request demonstrates the Department's 
continued commitment to fiscal prudence and adheres to the spending 
caps directed by Congress in the Bipartisan Budget Act of 2013. The 
fiscal year 2014 Appropriations Act restored the fiscal year 2013 
sequester funding cuts to the Department and provides sufficient 
resources to lift the hiring restrictions put in place on January 21, 
2011. Even with the proposed program offsets, law enforcement funding 
essentially remains flat from fiscal year 2014 to fiscal year 2015. 
However, these levels are significantly higher than the fiscal year 
2013 sequestered funding levels that hindered the Department's capacity 
to perform its mission. For example, funding for the Federal Bureau of 
Investigation increases by nearly 11 percent from fiscal year 2013 and 
funding for the U.S. Marshals Service and U.S. Attorneys increases by 
nearly 7 percent from fiscal year 2013.
                         smart crime initiative
    Question. First, what authority do you currently have to alter 
incarceration rates? Can you reduce sentences for incarcerated 
criminals, can you change the minimum sentence required for a drug 
crime--what action can you take?
    Lead-in information from original document.--
          The budget advances the Smart on Crime Initiative which seeks 
        to reform the criminal justice system by improving public 
        safety and saving money. Reducing the number of ``low-level'' 
        Federal crimes prosecuted and pursuing alternatives to 
        incarceration are listed as two of the initiative's core 
        principals. While reform of our criminal justice system is a 
        laudable goal, I am concerned that the principals of the 
        proposal may be contradictory and in fact, lead to higher crime 
        rates and an increase in the number of serious crimes 
        committed.

    Answer. Once a Federal offender is sentenced by a Federal judge, 
the Department of Justice generally cannot reduce the sentence imposed. 
But before sentencing, Federal prosecutors have always exercised 
discretion in the cases they bring and offenses they charge. Most 
criminal prosecutions are brought at the State level. Within that 
context, Federal prosecutors maximize the Federal enforcement 
contribution to improving public safety efforts by prosecuting the 
right criminal cases consistent with our mission. Our U.S. Attorneys 
set quality, evidence-based priorities for the types of cases we bring 
with an eye toward promoting public safety, deterrence, and fairness. 
This necessarily means focusing our resources on the most significant 
cases.
    Question. You have stated that the Department will shift to a focus 
solely on the most serious cases. First, I wonder how such a shift is 
not negligent. Second, how can you be sure that a focus on only the 
most serious cases will not result in an increase in crime rates or an 
escalation in the number of serious crimes committed?
    Answer. As stated above, most criminal prosecutions are brought at 
the State level. Federal prosecutions contribute to public safety 
efforts by prosecuting cases consistent with our particular mission. 
Our U.S. Attorneys collaborate with their State and local partners and 
set quality, evidence-based priorities for the types of cases we bring 
so that all of the public safety resources--local, State and Federal--
working together, will maximize public safety, deterrence, and 
fairness. This means in most districts focusing our Federal resources 
on the most significant cases. It does not mean that lower level 
offenders are not held accountable for their crimes. It does mean that 
Federal resources will be focused--as they must be given limits on 
those resources--on the more serious cases.
    Question. What happens to the criminals we decline to prosecute?
    Answer. Many lower level offenders will be prosecuted at the State 
level. However, some will be subject to diversion or other alternatives 
to imprisonment. These alternatives have a long history and allow non-
violent, less serious offenders who are in need of drug treatment, for 
example, to receive such treatment in lieu of imprisonment. If crafted 
properly, these alternatives can have the twin effects of reducing the 
burden on the Federal prisons and reducing crime rates.
    Question. Is this proposal the best path forward or is it simply a 
means to reduce the overall prison population in hopes of decreasing 
Federal spending on incarceration?
    Answer. The Smart on Crime Initiative is modeled after many State 
criminal justice reforms, which have reduced prison spending while 
improving public safety in States across the country. We continue to 
monitor and work with the States to determine the best approaches to 
achieving improved public safety while also achieving cost 
efficiencies.
    Question. Will this initiative simply shift more of the burden to 
the States?
    Answer. No. As stated previously, while many lower level offenders 
will indeed be prosecuted at the State level, some will be subject to 
diversion or other alternatives to imprisonment within the Federal 
criminal justice system.
                       tedac/hds/ncetr facilities
    Question. Could you speak to the importance of the facilities 
individually and collectively? Would you also explain how these 
facilities fit into the larger national security framework?
    Lead-in information from original document.--
          After many years of working with the Department and the FBI, 
        I was pleased to see that the 2015 budget included $15 million 
        for the FBI's new TEDAC Facility. The budget also includes 
        funding for the FBI's Hazardous Devices School and the ATF's 
        National Center for Explosives Training and Research. These 
        facilities are unique and serve important functions in the 
        overall national security framework.

    Answer. The FBI's Terrorist Explosive Device Analytical Center 
(TEDAC) and Hazardous Devices School (HDS) and ATF's National Center 
for Explosives Training and Research (NCETR) serve extremely important 
functions in protecting public safety and national security. While 
these three facilities are focused on combating explosives and their 
threat to the Nation, they each perform discrete missions in the phases 
of the forensic, intelligence and training cycle.

    TEDAC: Improvised Explosive Devices (IEDs) are one of the most 
readily available weapons utilized by terrorists and criminals to 
damage critical infrastructure and inflict casualties. The U.S. 
Government relies on TEDAC to conduct forensic and technical 
exploitation of IEDs and related materials collected around the globe 
in order to gather and share intelligence with domestic and foreign 
partners to identify bomb makers, to develop techniques to disarm and 
disrupt IEDs, and most importantly, to prevent future attacks. TEDAC 
also shares device design information with HDS to inform the training 
provided to bomb technicians responsible to render IEDs safe and 
protect our citizens.
    In February 2013, the President updated the national strategy 
focused on countering the IED threat. The implementation plan resulting 
from the updated policy statement calls for a ``single U.S. Government 
strategic-level IED exploitation center and repository of IEDs.'' TEDAC 
fulfills this mission and is the only U.S. Government entity that meets 
the requirement outlined in the 2013 Counter IED Implementation Plan. 
TEDAC operations will transition over the next few years from Quantico, 
Virginia to new facilities in Huntsville, Alabama, as a multi-phased 
construction effort concludes. These new facilities will enable TEDAC 
to continue supporting the national security framework through 
operations, such as nominating individuals to the Terrorist Screening 
Database and the Department of Defense Biometric Enabled Watchlist 
(BEWL), which biometrically matches IEDs examined by TEDAC to those 
included in DOD's Automated Biometrics Identification System (ABIS). In 
addition to continuing current operations, the facilities will house 
the TEDAC Improvised Explosives Detection and Synthesis (TIEDS) Center, 
which is a research and development partnership with the Department of 
Homeland Security (DHS). The TIEDS Center will conduct research and 
experimentation focused on improvised explosives synthesis and 
characterization, improvised explosives detection technologies, and 
testing and evaluation of Render Safe Procedures and tools in order to 
deliver real time information on IED threats to the intelligence, law 
enforcement, and homeland security communities. TEDAC's vast research 
experience with IEDs and visibility into the threat will allow for the 
development of appropriate countermeasures for TSA and other members of 
the homeland security community to stay ahead of the IED threat.
    The intelligence gleaned from TEDAC exploitation and analysis also 
feeds directly into curriculum development for training conducted by 
HDS. This enables bomb technicians and law enforcement partners to 
receive training on real threats that are being encountered worldwide 
and what countermeasures are needed for defeat.

    HDS: The HDS operates through a joint partnership between the FBI 
and the United States Army. The FBI administers HDS and maintains the 
sole authority to certify and accredit all of the approximately 3,100 
public safety bomb technicians assigned to 468 public safety bomb 
squads in the United States. The success of the public safety bomb 
technician community in the United States is, in large part, the result 
of standardized certification and render-safe procedure training. The 
standardized training at HDS enables bomb technicians assigned to 
different bomb squads to work effectively together in complex, multi-
jurisdiction operations, such as the Boston Marathon bombing response 
or the dozens of special events held each year, including the Super 
Bowl.
    HDS also provides advanced training in evolving threats such as 
radio-controlled IEDs, large vehicle-borne IEDs, suicide bombers, and 
improvised or homemade explosives. HDS develops and provides this 
training to address the threats posed by devices used by terrorists and 
criminal enterprises around the world. The intelligence that TEDAC 
provides through device exploitation is critical to defining and 
implementing advanced render safe training.
    Finally, standard certification and training is critical to 
national security as public safety bomb technicians trained at HDS are 
the first line of defense against the full spectrum of IED threats, 
including weapons of mass destruction (WMD). HDS trains bomb 
technicians to identify a potential WMD, to notify the FBI, and to 
integrate seamlessly with FBI Special Agent Bomb Technicians and 
national assets, should such resources be required. Without the 
standardized training that HDS provides, there is a real risk that 
Federal WMD response assets would not be notified about a potential WMD 
in time to take emergency action.
    In addition to TEDAC's identified role in the national Counter-IED 
strategy, the FBI, on behalf of the Department of Justice, leads the 
Joint Program Office for Countering IEDs, which coordinates the efforts 
of the Department and oversees the implementation of the U.S. policy to 
Counter IEDs.

    NCETR: The ATF's NCETR serves an integration function for ATF by 
bringing together NCETR resources with the United States Bomb Data 
Center, ATF's international bomb and arson training, ATF criminal 
investigations, ATF industry operations, TEDAC and HDS. NCETR also 
consolidates key ATF explosives, fire, canine, and response operations 
in Huntsville, Alabama. NCETR consists of the Explosives Enforcement 
and Training Division, the Explosives Research and Development 
Division, and the Fire Investigation and Arson Enforcement Division, 
all located at Redstone Arsenal, along with the National Canine 
Division in Front Royal, Virginia and ATF's partnership in the National 
Explosives Task Force in Washington, DC. ATF provides training 
facilities and the expertise of its training staff in the delivery of 
life-saving advanced explosives and arson training for our Nation's 
explosives handlers, bomb technicians, criminal investigators, State 
and local law enforcement personnel, and our military's EOD operators 
at NCETR.
    NCETR provides advanced explosives training and research that 
leverages lessons learned and best practices to provide focused support 
to ATF's core mission of investigating the criminal misuse of 
explosives and regulation of the industry, and to align this support 
with the whole-of-Government counter-IED effort.
    NCETR employs a layered approach to explosives training in support 
of the Whole of Government approach to the C-IED effort, and to meet 
the goals and tasks of the JPO Training and Operations working group. 
As an example, ATF's Advanced Explosives Disposal Techniques (AEDT) was 
developed by ATF and its State and local partners in the 1990's to 
address the high incidence of injuries and deaths to bomb technicians 
during explosives disposal operations. AEDT provides a ``cradle to 
grave'' approach to the identification, handling and disposal of 
commercial, military and homemade or improvised explosives materials. 
Everything from production methods, storage, explosives range 
management, environmental concerns, personal protective equipment and 
clothing, and the latest disposal tools and techniques are covered in 
AEDT. This includes a ground-breaking disposal tool and related 
techniques developed by an ATF agent, for which the U.S. Patent Office 
issued a patent. The tool and instruction on its application to 
disposal operations is given to every bomb technician attending the 
course.
    A follow up course entitled HME-Identification, Process and 
Disposal, furthers the bomb technicians' knowledge and confidence in 
the identification, processing, handling and disposal of some of the 
most dangerous explosives materials they will come in contact with, 
Homemade Explosives (HME). The HME course is attended by public safety 
bomb technicians as well as military Explosives Ordnance Disposal (EOD) 
personnel, stressing interoperability of personnel from both groups at 
scenes such as the Boston Marathon bombings.
    These are but two of the courses at NCETR that naturally complement 
the training delivered at the FBI's Hazardous Devices School, the 
school house for bomb technician certification and other advanced 
training.
    NCETR also provides training to military partners on a frequent 
basis. Through a long partnership and a full time liaison position with 
the Department of Defense (DOD), ATF delivers the HME-IPD course to a 
mixed class of public safety and military bomb technicians. NCETR 
program personnel have also developed HME-related and advanced Post-
Blast investigation courses in support of requests by U.S. military 
command staff to support the NATO Centers of Excellence in Spain and 
Slovakia.
    ATF is the only U.S. Government (USG) agency with fire and arson 
investigation as part of its core mission, and the sole USG agency with 
Special Agents qualified to testify as expert witnesses as to fire 
origin and cause, through the Certified Fire Investigator training 
program managed by NCETR. The programs that support that mission are 
now located at NCETR, including integrating ATF's fire investigation 
and arson enforcement operational and training programs, and support to 
the field through the National Response Teams, Certified Fire 
Investigators, and bomber and arsonist Profilers.
    Operationally, NCETR oversees the National Response Team, which 
responds to major bombings and explosions, IED incidents, as well as 
fire and arson incidents that require resources beyond the capabilities 
of State and local partner agencies. NCETR also oversees the combined 
Certified Explosives Specialist and Explosive Enforcement Officer 
program, ATF's subject matter experts for criminal investigations of 
matters related to explosions, bombings, explosives, IEDs and related 
activity. Not only does NCETR manage the training of these personnel, 
but it also coordinates the operational responses of personnel from 
across the country to large incidents anywhere in the U.S., and to 
locations outside the U.S. on request from foreign partners through the 
U.S. State Department. Well over 90 percent of the criminal acts 
involving explosions, explosives and bombings are non-terrorism related 
and ATF has responsibility for investigation of these incidents, as 
well as the origin and cause investigation of accidental explosions.
    The Explosives Research and Development Division (ERDD) at NCETR 
also supports ATF's role in the national security framework through a 
number of projects and ongoing and developing partnerships. ERDD is 
near completion in development of a $2.2 million project to develop a 
homemade explosive synthesis capability/laboratory on Corkern Range. 
These range modifications include two portable explosives synthesis 
buildings, an extensive instrumentation capability, an explosive 
storage magazine, and hazardous materials storage. The research and 
testing that will be carried out on ATF's Corkern Range will support a 
wide range of government projects in support of the Nation's C-IED 
strategy, as well as ATF's explosives enforcement and regulatory 
missions.
    ATF also has the sole responsibility for the regulation of the 
explosives industry, which is supported by NCETR training efforts. ATF 
Industry Operations Investigators (IOIs) attend Advanced Explosives 
Training for Investigators (AETI) at NCETR, focusing on the procedures 
required for completing the safe execution of inspections of Federal 
explosives licensee premises, as required by the Safe Explosives Act of 
2002.
                       ig access to doj documents
    Question. Do you believe that the Inspector General should have to 
seek your approval to access grand jury documents relevant to ongoing 
investigations?
    Lead-in information from original document.--
          I am very concerned about the issues that have been raised by 
        the Inspector General. Congress has been clear, as has this 
        Committee, that the Inspector General must have unfettered 
        access to any and all documents necessary to carry out his 
        duties.

    Answer. The Department's leadership appreciates the importance of 
access to information, including information subject to statutory 
disclosure restrictions, to the Office of the Inspector General's 
(``OIG'') ability to perform its oversight function and complete its 
investigations and reviews effectively. However, where there are legal 
restrictions on what the Department can do with certain sensitive 
information, the Department is obligated to ensure that any 
distribution of the information is consistent with those congressional 
directives. The Department takes its obligation to abide by these legal 
requirements very seriously.
    Section 6(a)(1) of the Inspector General Act of 1978 appropriately 
provides the Inspector General with broad access to the records in the 
Department. See 5 U.S.C. App. 3, Sec. 6(a)(1). However, Congress also 
has enacted strict limits on the disclosure and dissemination of 
certain categories of sensitive information. For instance, in Federal 
Rule of Criminal Procedure 6(e), Congress codified the venerable 
tradition of grand jury secrecy by barring an ``attorney for the 
Government'' and other enumerated persons from disclosing ``a matter 
occurring before the grand jury.'' Fed. R. Crim. P. 6(e)(2)(B). 
Similarly, in the Federal Wiretap Act, Congress expressly made it a 
crime to disclose information intercepted on a wiretap ``[e]xcept as 
otherwise specifically provided in this chapter,'' and delineated the 
narrow conditions under which investigative and law enforcement 
officers might intercept, use, or disclose wiretap information. See 18 
U.S.C. Sec. Sec. 2511(1); 2516; 2517 (Title III).
    The interaction between the general access provision in the 
Inspector General Act and Congress's specific statutory directives 
regarding the handling of sensitive information, such as Rule 6(e) and 
Title III, presents an unsettled and potentially complex legal 
question. As such, when questions regarding OIG's access to such 
materials arose in 2011 in connection with two OIG reviews, the 
Department sought to identify avenues within the relevant statutes that 
would permit disclosure of the requested materials to the Inspector 
General.
    First, in connection with the material witness review, the 
Department concluded that Rule 6(e)(3)(D) authorized an attorney for 
the Government to disclose responsive grand jury information involving 
foreign intelligence to the OIG. The Department determined that the 
Inspector General was a Federal law enforcement official authorized to 
receive access to grand jury information involving foreign intelligence 
under this provision, and the disclosure would assist her in connection 
with the performance of her law enforcement duties, given that the 
material witness review involved allegations of misconduct by law 
enforcement agents that potentially reflected a violation of criminal 
law. Likewise, the Department concluded that section 2517(1) permitted 
the Federal Bureau of Investigation to disclose Title III wiretap 
information to the OIG in connection with the material witness review 
because OIG agents are ``investigative officers'' entitled to receive 
wiretap information in connection with their law enforcement duties. 
Again, since the material witness review involved allegations of 
misconduct by law enforcement agents that potentially reflected a 
violation of criminal law, this OIG review fulfilled the statutory 
requirement that disclosure be in connection with law enforcement 
duties.
    With respect to the review of Operation Fast & Furious and related 
investigations, the Department concluded that Federal Rule of Criminal 
Procedure Rule 6(e)(3)(A)(ii) authorized the Attorney General, an 
``attorney for the Government,'' to disclose grand jury information to 
Government personnel in the OIG as necessary to the performance of the 
Attorney General's duty to enforce Federal criminal law, including his 
supervisory responsibilities over the Department's programs, policies, 
and practices related to the enforcement of Federal criminal law.
    The Department is unaware of any specific materials that the OIG 
believed necessary to its reviews, but to which the OIG was not granted 
access. However, in light of the Inspector General's continued interest 
of in addressing the legal issues implicated by the competing 
congressional directives in section 6(a)(1) of the Inspector General 
Act and other statutes limiting the disclosure and dissemination of 
particular categories of sensitive information, the Department has 
requested formal Office of Legal Counsel (OLC) guidance. As we have 
informed the Department's OIG, if the outcome of the OLC's legal review 
does not assure the OIG of the access it needs to carry out its 
mission, the Department intends to work with that office to develop 
appropriate legislative remedies.
    Question. What law or laws, in your view, prohibit the Inspector 
General from obtaining access to documents directly relevant to ongoing 
audits or investigations?
    Answer. It is not the case that statutes restricting the disclosure 
of sensitive information necessarily ``prohibit'' the OIG from 
obtaining access to documents. As we explained in response to the 
previous question, the Department has found ways to disclose the 
requested information to the OIG pursuant to exceptions to the 
statutory prohibitions. Examples of statutes that we have had occasion 
to consider in the context of OIG requests include the restrictions 
contained in Federal Rule of Criminal Procedure 6(e) (grand jury 
information); the Federal Wiretap Act, Title III of the Omnibus Crime 
Control and Safe Streets Act of 1968 (information obtained by wiretap); 
and section 1681u(f) of the Fair Credit Reporting Act (financial 
information obtained from credit agencies by FBI national security 
letters). The Department has not conducted a comprehensive survey of 
all statutes that might potentially restrict the disclosure of 
sensitive information in a manner that would raise a significant legal 
question about whether those statutory provisions limit the Inspector 
General's access to the covered information.
    Question. If it is your view that there are specific laws that 
prohibit the Inspector General from having access to documents directly 
relevant to ongoing audits or investigations, what are the relevant 
sections within those laws granting you, the Attorney General, the 
authority to preempt those prohibitions?
    Answer. As just described, statutory provisions restricting the 
disclosure of certain categories of information generally contain 
exceptions that might allow the OIG access to protected information in 
connection with investigations and audits. Some of these exceptions are 
premised on a determination by the Attorney General or another attorney 
responsible for conducting or supervising the prosecution of violations 
of Federal criminal law. Where the statute provides an exception to the 
general bar on disclosure that is premised on a determination by the 
Attorney General or another attorney for the Government, such a 
determination would be a prerequisite to the Inspector General gaining 
access to statutorily protected information under that provision. A 
determination by the Attorney General or another qualifying attorney 
authorizing the OIG to access the information, however, does not 
``preempt'' a statutory bar on disclosure; rather, the determination 
that disclosure to the OIG is appropriate is simply an application of 
the terms of an exception Congress set out in the relevant statute. The 
Department is unaware of any specific materials that the OIG believed 
necessary to its reviews, but to which the OIG was not granted access.
    Question. You mentioned that you have never denied the Inspector 
General's request to access documents. However, if that situation were 
to arise, what recourse would the Inspector General have, in your view, 
to appeal or challenge that decision?
    Answer. As stated above, the Department is committed to continuing 
to ensure that, consistent with applicable legal requirements, the OIG 
has access to all of the information it believes necessary to complete 
its reviews. Indeed, the Department is unaware of any specific 
materials that the OIG believed necessary to its reviews, but to which 
the OIG was not granted access. The Department has requested a formal 
opinion from OLC to address the legal issues implicated by the 
competing congressional directives in section 6(a)(1) of the Inspector 
General Act and other statutes limiting the disclosure and 
dissemination of particular categories of sensitive information. This 
request is pending. If the outcome of the OLC's legal review does not 
assure the OIG of the access it needs to carry out its mission, the 
Department intends to work with that office to develop legislative 
remedies. In the meantime, if the Inspector General were dissatisfied 
with the access to statutorily protected information the Department 
afforded him, he could ask the Attorney General to reconsider any 
determination made regarding the application of a statutory exception.
    Question. Since there has never been an official ruling by the 
Office of General Counsel at the Department of Justice regarding access 
to documents by the Inspector General, would you be willing to see an 
official ruling from the General Counsel on these matters? If so, when 
could we expect you to do so?
    Answer. As stated above, the Department has requested a formal 
opinion from OLC to address the legal issues implicated by the 
competing congressional directives in section 6(a)(1) of the Inspector 
General Act and other statutes limiting the disclosure and 
dissemination of particular categories of sensitive information. This 
request is pending.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                           meth in tennessee
    Question. Given that the methamphetamine epidemic is one of the 
most urgent drug problems facing our Nation, especially in rural 
communities with limited resources, why isn't the Department doing more 
to expand the Clandestine Drug Laboratory Cleanup Program?
    Answer. Tennessee has been participating in the Drug Enforcement 
Administration's (DEA's) Authorized Central Storage (ACS or 
``Container'') Program since July 2011. DEA receives funding for the 
Clandestine Drug Laboratory Cleanup Program from the Community Oriented 
Policing Services (COPS) program to assist State and local law 
enforcement with clandestine methamphetamine lab cleanups and training. 
After a shutdown of the cleanup program in February 2011 due to lack of 
funding, COPS funding was restored to restart the program in fiscal 
year 2012. Since that time DEA aggressively worked to expand the 
Container Program. There are currently 18 States with signed Letters of 
Agreement (LOA) with DEA for Container Programs with two more expected 
to be added by fiscal year 2016:
  --At the end of fiscal year 2011, there were six States with 
        operational container programs (Illinois, Indiana, Alabama, 
        Kentucky, Oklahoma, and Tennessee).
  --In fiscal year 2012, seven additional States (Arkansas, Michigan, 
        Virginia, Ohio, North Carolina, Mississippi, and Florida) were 
        operational.
  --In fiscal year 2013, Kansas, New York, and Pennsylvania signed 
        Letters of Agreement, which are expected to become operational 
        in fiscal year 2014.
  --In 2014, two States (Georgia and Iowa) were added and became 
        operational.
    Because of the expansion of the Container Program, DEA has been 
able to keep program costs down. This has allowed DEA to fulfill meth 
lab cleanup and training requests from the States participating in the 
Container Program, as well as fund on-site cleanups in the lower volume 
States that do not have high enough demand to sustain a Container 
Program economically. The Container Program has resulted in significant 
cost savings in States that have operational Container Programs (a 
contractor cleanup averages $2,730, while a container cleanup averages 
$306). In fiscal year 2013, DEA funded a total of 7,891 lab cleanups. 
Included in the total are the pickup and disposal of 7,099 labs through 
220 Container Program pickups from the 10 States participating in the 
program, and 792 State and local cleanups DEA administered during the 
same time period. In fiscal year 2014, DEA funded a total of 8,213 lab 
cleanups. Included in the total are the pickup and disposal of 7,880 
labs through 248 Container Program pickups from the 16 States 
participating in the program, and 333 State and local cleanups DEA 
administered during the same time period. While Kansas, New York and 
Pennsylvania have signed LOA's, they are not yet operational.
    At the clandestine lab training facility, DEA trains Federal, 
State, local, and foreign law enforcement officials on the latest 
techniques in clandestine laboratory detection, enforcement, and 
safety. In fiscal year 2013, DEA provided clan lab training to 1,696 
State and local law enforcement officers. In fiscal year 2014, DEA has 
provided clan lab training to 1,484 State and local law enforcement 
officers. Overall, DEA trained 39,932 law enforcement officers in 
fiscal year 2014. In addition to State and Local Clandestine Laboratory 
Certification Training, DEA also provided Site Safety Training, 
Tactical Training, and the FBI's National Improvised Explosive 
Familiarization Training course, which was also attended by the 
National Guard.
    Question. Last year Congress provided $7.5 million for a 
competitive grant program for State Anti-Methamphetamine Task Forces. 
When will the Department allow States to apply for these funds? What 
criteria will the Department use to evaluate proposals from States?
    Answer. The fiscal year 2014 COPS Anti-Methamphetamine Program 
(CAMP) was designed to advance public safety through providing funds to 
investigate illicit activities related to the manufacture and 
distribution of methamphetamine. Funds awarded in this program shall be 
used for investigative purposes to locate or investigate illicit 
activities, including precursor diversion, laboratories, or 
methamphetamine traffickers through State and local collaboration. The 
COPS Office received 19 eligible applications and made 10 awards 
totaling approximately $6 million.

Funding Provisions:

  --Fiscal year 2014 CAMP grants provided funding for 24 months to 
        State law enforcement agencies for equipment, overtime and 
        other approved personnel costs for law enforcement officers 
        assigned to the investigation of methamphetamine production and 
        trafficking.
  --Funding awarded to State law enforcement agencies may be used to 
        support law enforcement personnel costs for allied agencies' 
        officers participating in a State anti-methamphetamine task 
        force.
  --The COPS Office has identified an ``up to $1 million'' cap on award 
        amounts.

Eligibility:

  --The fiscal year 2014 COPS Anti-Methamphetamine Program was a 
        targeted competitive solicitation which will focus on funding 
        State law enforcement agencies (note: this does not include DC, 
        tribal agencies or the territories) with identified meth 
        problems, as indicated through the following sources:
    --Meth lab seizures data
    --Precursor chemicals seizures data
    --Meth-related arrests data
    --Drug arrests for Meth
  --State law enforcement agencies eligible to apply include, but are 
        not limited to the following:
    --State AG's Offices
    --State Bureaus of Investigation
    --State Park Police
    --State Police Agencies
                 doj efforts to fight counterfeit drugs
    Question. What steps have you taken to meet that requirement? What 
challenges does the Department face prosecuting these cases, and does 
the Department need increased resources or authorities to improve law 
enforcement efforts against counterfeit drugs?
    Lead-in information from original document.--
          Drug counterfeiting is a serious public health threat. Nearly 
        40 percent of the drugs Americans take are made abroad, and 
        about 80 percent of the active pharmaceutical ingredients used 
        in our drugs are manufactured overseas. The Department and U.S. 
        Attorney offices across the country play a critical role in 
        fighting counterfeit drugs by investigating and prosecuting 
        illegal counterfeiting activity. For example, last year three 
        individuals were indicted in the Middle District of Tennessee 
        for obtaining prescription drugs from ``street collectors'' in 
        New York and Miami and selling them as if they had been 
        obtained from the wholesale distribution market. Also last 
        year, 11 people were indicted for illegal importation and 
        distribution of counterfeit drugs from Turkey, India, and 
        Switzerland. Law enforcement agencies face substantial 
        challenges investigating and prosecuting these often complex, 
        global crime operations. The operations are often located 
        abroad and scattered in several countries. Law enforcement 
        needs assistance from foreign regulators and foreign law 
        enforcement officials to obtain information and gather 
        evidence, which those countries are often unable or unwilling 
        to provide.
          The 2012 Food and Drug Administration Safety and Innovation 
        Act (FDASIA) directed the Attorney General to give a higher 
        priority to the prosecution of cases involving counterfeit 
        drugs.

    Answer. The Department has taken a number of steps to meet the 
requirement of the 2012 Food and Drug Administration Safety and 
Innovation Act (FDASIA).
    In combatting counterfeit drugs, the Department of Justice holds 
the primary responsibility for the enforcement of intellectual property 
rights. The enforcement of such rights is vital in ensuring the safety 
and efficacy of the drugs that Americans take every day. Formed in 
2010, the Department of Justice Task Force on Intellectual Property 
monitors and coordinates overall intellectual property enforcement 
efforts at the Department and ensures that it continues to remain a 
priority. It is chaired by the Deputy Attorney General. Under the 
leadership of the Intellectual Property Task Force, the FBI, and 
Justice Department components including the Criminal, Civil and 
Antitrust Divisions and the Bureau of Justice Affairs have worked to 
improve the protection of intellectual property, both in the U.S. and 
abroad. Upon the release of the administration's 2013 Joint Strategic 
Plan on Intellectual Property Enforcement (JSP), the Attorney General, 
in a posting on the Department of Justice Web site, stated, ``the 
Department and its partners stand poised to take these critical efforts 
to a new level.'' The posting is available at, http://
blogs.justice.gov/main/archives/3017. The Department's core role within 
the JSP includes forging law enforcement partnerships, dedicating grant 
funding to these partners, and increased enforcement against 
counterfeit drug trafficking organizations.
    Through the Office of Justice Programs' Intellectual Property 
Enforcement Program, the Bureau of Justice Assistance (BJA) funds State 
and local projects that emphasize collaboration and coordination with 
all relevant enforcement organizations, including prosecutors, 
multijurisdictional task forces, and appropriate Federal agencies 
(e.g., local Federal Bureau of Investigation offices and U.S. 
Attorneys' Offices) in the enforcement of Intellectual Property (IP) 
laws. Specifically in the area of counterfeit drugs, the Bureau of 
Justice Assistance administered a grant in fiscal year 2014, for 
Protecting Public Health, Safety, and the Economy from Counterfeit 
Goods and Product Piracy. This funding provided national support for 
and to improve the capacity of State, local, and tribal criminal 
justice systems to address intellectual property criminal enforcement. 
BJA also offered funding for National Training and Technical Assistance 
for the Intellectual Property Enforcement Program. Additionally, the 
National Crime Prevention Council (NCPC), supported by BJA, developed a 
research-based public outreach campaign to educate the public on IP 
crimes in general, particularly about the health and safety risks that 
result from IP crime.
    The Department, through the U.S. Attorneys' Offices (USAOs), the 
Computer Crime & Intellectual Property Section (CCIPS) in the Criminal 
Division and the Consumer Protection Branch (CPB) in the Civil 
Division, has continued to prioritize and pursue investigations and 
prosecutions in every priority area identified by the Department of 
Justice Task Force on Intellectual Property (``IP Task Force'' or 
``IPTF''), including cases involving health and safety, trade secret 
theft and economic espionage, large-scale online piracy and 
counterfeiting, and links to organized criminal enterprises. The JSP 
details ongoing enforcement initiatives, including the Federal Bureau 
of Investigation Intellectual Property Program, and is located at, 
http://www.whitehouse.gov/sites/default/files/omb/IPEC/2013-us-ipec-
joint-strategic-plan.pdf.
    The passage of the 2012 Food and Drug Administration Safety and 
Innovation Act provided the Department with enhanced penalties under 
Title 18 for trafficking in counterfeit drugs. The cases below 
illustrate recent action taken by the Department to hold those 
accountable for distributing misbranded, unapproved, adulterated, or 
counterfeit drugs.
  --On February 20, 2014, Ricky Lee Campbell, of Sacramento, 
        California, pleaded guilty to conspiracy to traffic in 
        counterfeit pharmaceuticals. The U.S. Attorney's Office for the 
        Eastern District of California successfully prosecuted Campbell 
        and his co-defendant, Susan Yvonne Eversoll. The defendants 
        offered Viagra and Cialis for sale using CraigsList, 
        Pennysaver, and via text message blasts. Searches of Campbell 
        and Eversoll's residences produced more than 6,000 counterfeit 
        tablets of Viagra and Cialis. Eversoll pleaded guilty to the 
        conspiracy in December 2013, and was sentenced on March 6, 
        2014, to 18 months in prison. Campbell was sentenced on May 8, 
        2014 to a term of 41 months imprisonment, to be followed by 16 
        months of supervised release.
  --The United States Attorney's Office for the Eastern District of 
        Missouri announced on January 16, 2014, that two Turkish 
        nationals were charged with obtaining unapproved, misbranded, 
        adulterated and counterfeit cancer treatment prescription drugs 
        from Turkey and other foreign countries and smuggling the drugs 
        into the United States, including three shipments sent from 
        Turkey to Chesterfield, Missouri. According to court filings, 
        the defendants were employees of a Turkish prescription drug 
        wholesaler. They used shipping labels that concealed the 
        illegal nature of the prescription drug shipments, including 
        customs declarations falsely describing the contents as 
        ``gifts'' or ``documents'' or ``product sample'' with no or low 
        declared monetary values.
  --In January, 2014, the Southern District of Texas and the Criminal 
        Division successfully prosecuted a defendant for conspiracy to 
        import counterfeit and misbranded drugs. A total of 3,200 
        counterfeit Viagra and 4,000 counterfeit Cialis pills were sent 
        from China to the defendant's home. Although the pills looked 
        authentic, when tested, law enforcement determined that the 
        counterfeit Viagra had less active pharmaceutical ingredient 
        than was stated on the packaging, and the counterfeit Cialis 
        did not contain any of the brand's active pharmaceutical 
        ingredients.
  --The Criminal Division successfully prosecuted defendant Grisel 
        Azcuy in the Eastern District of New York on December 10, 2013, 
        for conspiracy to traffic in counterfeit goods and distribute 
        misbranded drugs in violation of 18 U.S.C. Section 371 and 
        conspiracy to distribute and possess with intent to distribute 
        pharmaceutical drugs that included oxycodone, hydrocodone, 
        alprazolam and diazepam in violation of 21 U.S.C Sections 846 
        and 841.
  --The U.S. Attorney's Office for the Southern District of California 
        announced on September 12, 2013, that defendant Martin Paul 
        Bean III was sentenced to serve 24 months in custody for his 
        role in a scheme to sell unapproved foreign oncology drugs to 
        doctors in the United States. Bean had pleaded guilty to 
        conspiracy to commit a number of Federal offenses, including 
        wire fraud, mail fraud, selling unapproved drugs, selling 
        misbranded drugs, and importing merchandise contrary to law. In 
        pleading guilty, Bean admitted that between February 24, 2005 
        and October 30, 2011, he operated a business (GlobalRx Store) 
        from his residence in Florida and unlawfully sold over $7 
        million of prescription oncology drugs to doctors throughout 
        the United States. Bean ordered unapproved drugs from foreign 
        sources, including sources in Turkey, India, and Pakistan, and 
        sold them to doctors within the United States at substantially 
        discounted prices.
  --The U.S. Attorney's Office for the Eastern District of Pennsylvania 
        announced, on September 11, 2013, that Naman Bader of 
        Philadelphia received a 12-month prison sentenced for smuggling 
        and illegally distributing more than 2 million prescription 
        pills, such as Xanax, Valium, phentermine, Ativan, Klonopin, 
        Ambien, and their generic equivalents, valued at approximately 
        $10,310,406. Additionally, approximately 25,000 counterfeit 
        Viagra and Cialis pills were seized in international mail 
        parcels during the course of the investigation. Bader's co-
        conspirator, Rehan Shah, was sentenced on December 5, 2012, to 
        15 months in prison.
  --The U.S Attorney's Office for the Southern District of Texas and 
        the Criminal Division announced on August 6, 2013 the arrests 
        of two individuals, Jamal Khattab, of Katy, Texas, and Fayez 
        Al-Jabri, of Chicago, for allegedly conspiring to traffic in 
        counterfeit and misbranded medicine, specifically Viagra. The 
        indictment charged Khattab with one count of conspiracy, one 
        count of smuggling goods into the United States, two counts of 
        trafficking in counterfeit goods, two counts of trafficking in 
        misbranded drugs and two counts of trafficking in counterfeit 
        drugs. Al-Jabri was charged with one count of trafficking in 
        counterfeit goods, one count of trafficking in misbranded drugs 
        and one count of trafficking in counterfeit drugs. Jamal 
        Khattab was sentenced on August 15, 2014 to a term of 21 months 
        incarceration, 1 year of supervised release, and payment of 
        $7,000 in restitution, plus a $300 special assessment. Fayez 
        Al-Jabri was sentenced on July 17, 2014 to a term of 41 months 
        incarceration, 3 years of supervised release, and payment of 
        $15,066.92 in restitution.
  --On June 27, 2013, the U.S. Attorney's Office for the District of 
        Colorado obtained, and the U.S. Food and Drug Administration 
        (FDA), executed seizure warrants for 1,677 Web sites that were 
        illegally selling counterfeit or misbranded drugs that 
        purported to be brand name pharmaceuticals. This enforcement 
        action was coordinated as part of as part of International 
        Internet Week of Action, and in conjunction with Interpol's 
        Operation Pangea VI. Many of the sites falsely claimed to be 
        hosted in Canada, while others falsely claimed to be affiliated 
        with major U.S. pharmacy retailers by using the names of those 
        retailers in the domain names. Drugs purchased from the sites 
        provided did not have FDA approval and did not have Canadian 
        origins. The Web sites offered medications to treat, among 
        other things, conditions related to diabetes, schizophrenia, 
        pain and inflammation.
  --On April 18, 2013, the U.S. Attorney's Office for the Northern 
        District of Illinois announced the indictment of a pharmacist 
        on 15 counts of violating the FD&C Act and FDASIA for obtaining 
        counterfeit Viagra and Cialis from China and illegally 
        dispensing the bogus medications at his pharmacy.
  --The U.S. Attorney's Office for the Central District of California 
        successfully prosecuted Edward Alarcon for a plot in which he 
        possessed, and had the intent to distribute for profit, more 
        than 2,000 Chinese-made counterfeit and misbranded Viagra 
        pills. After a 3-day jury trial in January 2013, Alarcon was 
        convicted on two counts of trafficking in counterfeit OxyContin 
        and Cialis. The evidence presented at trial showed that Alarcon 
        had purchased the bogus OxyContin from Bo Jiang, a Chinese 
        national and the alleged head of a counterfeit drug ring. 
        Alarcon had offered to sell counterfeit Cialis, Viagra and 
        Levitra on Craigslist. The district court judge sentenced the 
        defendant to 15 months in Federal prison on April 4, 2013. In a 
        related case, Francis Ortiz Gonzalez, who worked as a 
        ``dropshipper'' for Jiang in the United States, was sentenced 
        in January 2014 to 2 years in Federal prison and ordered to pay 
        $324,530 in restitution for trafficking counterfeit 
        pharmaceuticals.
    You have asked about challenges the Department faces in prosecuting 
these cases involving counterfeit drugs, including resource challenges.
    In March 2011, the U.S. Intellectual Property Enforcement 
Coordinator publically released a White Paper on Intellectual Property 
Enforcement Legislative Recommendations and it is accessible at, http:/
/www.whitehouse.gov/sites/default/files/ip_white_paper.pdf. In this 
White Paper, the administration recommended six legislative changes to 
improve U.S. enforcement efforts involving pharmaceuticals, including 
counterfeit drugs:
    1.  Require importers and manufacturers to notify the FDA and other 
relevant agencies when they discover counterfeit drugs or medical 
devices, including the known potential health risks associated with 
those products;
    2.  Extend the Ryan Haight Act's definition of ``valid 
prescription'' (and its telemedicine exemption) under the Federal Food, 
Drug, and Cosmetic Act (FFDCA) to drugs that do not contain controlled 
substances;
    3.  Adopt a track-and-trace system for pharmaceuticals and related 
products;
    4.  Provide for civil and criminal forfeiture under the FFDCA, 
particularly for counterfeit drug offenses;
    5.  Increase the statutory maximums for drug offenses under the 
FFDCA, particularly for counterfeit drug offenses; and
    6.  Recommend that the U.S. Sentencing Commission increase the U.S. 
Sentencing Guideline range for intellectual property offenses that risk 
death and serious bodily injury, and for those offenses involving 
counterfeit drugs (even when those offenses do not present that risk).
    The Department recognizes recent congressional action, but also 
reiterates the need for implementation of the other recommendations 
noted in this White Paper. For example, many online pharmacies sell 
prescription drugs that are not controlled substances under Federal 
law. Non-controlled prescription drugs are regulated under the FFDCA 
and require a valid prescription, but the FFDCA does not define what 
constitutes a valid prescription. Currently, States have different 
definitions of what constitutes a valid prescription. Internet 
pharmacies typically operate across State lines. The pharmacy may be in 
one State (or overseas), the doctor who issues the prescription may be 
in another State, and the customer may be located in a third State. In 
such cases, it is not clear which State law applies. Extending the Ryan 
Haight Act's definition of ``valid prescription'' to non-controlled 
prescription drugs would help standardize what constitutes a valid 
prescription. A Federal definition of what constitutes a ``valid 
prescription'' for non-controlled prescription drugs would also provide 
clarity in Internet pharmacy investigations where there is a question 
as to whether the drugs are being dispensed pursuant to a valid 
prescription.
    Prosecuting foreign Internet pharmacies for dispensing controlled 
and non-controlled prescription drugs under FFDCA presents some unique 
challenges for the Department of Justice. The Government Accountability 
Office (GAO) noted in a report released in July 2013 the substantial 
challenges in the criminal investigation of rogue Internet pharmacy 
operators, include the increasingly complex nature of the criminal 
organizations and the difficulties in pursuing investigations and 
prosecutions of conduct that occur mainly overseas and often span 
several foreign countries. For example, the Department may have 
difficulties prosecuting an offender because of the lack of an 
extradition treaty between the foreign country and the United States. 
The report is available at http://www.gao.gov/assets/660/655751.pdf and 
further details these challenges.
    Question. What has the Department and its current intellectual 
property law enforcement coordinators done to help stop the tide of 
counterfeit and unsafe pharmaceuticals from hitting our shores? Are 
there any recent joint operations with our partners in Asia that have 
been successful? What are the greatest challenges that you see in 
countries like China and India?
    Lead-in information from original document.--
          The Department of Justice currently funds 22 positions 
        focusing on intellectual property crime and has requested 
        funding for an additional 11 positions, including two 
        International Computer Hacking and Intellectual Property 
        Coordinators (ICHIPs).

    Answer. As detailed in the Department's Prioritizing Resources and 
Organization for Intellectual Property (PRO IP) Act Annual Report for 
fiscal year 2013, the Department has prioritized cases involving public 
health and safety, including prosecuting the importers and distributors 
of counterfeit and sub-standard medicines. These cases may fall under 
the prohibition against trafficking in counterfeit goods (18 U.S.C. 
Sec. 2320) or the Federal Food, Drug and Cosmetic Act (21 U.S.C. 
Sec. Sec. 351, 352).
    By working closely with investigative agencies and the National IPR 
Coordination Center, the Department has successfully prosecuted 
numerous cases involving counterfeit pharmaceuticals imported from 
overseas. Some recent examples include:
  --In January 2014, two Turkish nationals were charged in the Eastern 
        District of Missouri with obtaining unapproved, misbranded, 
        adulterated, and counterfeit cancer treatment and prescription 
        drugs from Turkey and other foreign countries and smuggling the 
        drugs into the United States.
  --In January 2014, a Texas resident pleaded guilty to conspiring to 
        import and attempting to traffic counterfeit drugs. The 
        counterfeit pharmaceuticals, which either did not contain any 
        active ingredient or contained an insufficient amount of the 
        active ingredient, were sent to the defendant's home in Texas 
        from China in open foil blister packs without packaging or 
        labels.
  --In December 2013, a Chicago resident pleaded guilty to conspiring 
        to traffic and trafficking in counterfeit and misbranded 
        pharmaceuticals. The defendant smuggled the counterfeit drugs 
        from China into the United States in bulk for later 
        distribution in smaller quantities. As part of the 
        investigation, an undercover agent successfully infiltrated the 
        counterfeit pharmaceutical trafficking organization and 
        received approximately 17,000 counterfeit and misbranded Viagra 
        tablets over a two-and-a-half year period.
  --In April 2013, an Illinois resident was charged with trafficking in 
        counterfeit drugs, violating the Federal Food, Drug, and 
        Cosmetic Act in connection with illegally obtaining drugs from 
        China and dispensing them at his pharmacy.
  --In January 2013, a Puerto Rican man was sentenced to 2 years in 
        prison for being a key member of an organization that 
        distributed large quantities of Chinese-made, counterfeit 
        pharmaceuticals across the United States. The defendant worked 
        as a ``dropshipper'' for the counterfeit drug ring allegedly 
        headed by a Chinese national whose last known residence was in 
        New Zealand. The purported head of the drug ring was arrested 
        by New Zealand law enforcement pursuant to a provisional arrest 
        warrant, but he fled shortly after being released on bond and 
        remains a fugitive. In a related case, in April 2013, a 
        California resident was sentenced to 15 months in prison for 
        his role in a scheme to distribute the Chinese-made counterfeit 
        pharmaceuticals. He purchased the drugs from the alleged head 
        of the counterfeit drug ring and offered to sell them on 
        craigslist.
  --In October 2012, a New Zealand physician was sentenced to 18 months 
        in prison after pleading guilty to three counts of trafficking 
        in counterfeit pharmaceuticals. The investigation into the 
        defendant's illicit activities began in 2006 after Customs and 
        Border Protection intercepted a parcel shipped from China 
        containing counterfeit drugs, and the defendant was identified 
        as the sender. The defendant was originally indicted in 
        December 2007, but remained at large until March 2012 when he 
        was arrested at San Francisco International Airport flying into 
        the United States from Hong Kong.
  --In September 2012, a Puerto Rican distributor of counterfeit 
        pharmaceuticals was sentenced to 21 months in prison. The 
        pharmaceuticals were exported from China into Puerto Rico, 
        where the defendant re-shipped the drugs into other U.S. 
        locations, including to undercover agents in Houston.
  --In July 2012, a California man was sentenced to 1 year and a day in 
        prison after pleading guilty to trafficking in counterfeit 
        pharmaceuticals. The defendant admitted that he imported these 
        products into the United States from China and India and then 
        sold the pills on craigslist.
    In addition to seizing counterfeit and misbranded drugs and 
prosecuting the distributors, the Department has seized websites used 
to facilitate distribution of illegal sales of pharmaceuticals:
  --In June 2013, the U.S. Attorney's Office for the District of 
        Colorado and the Food and Drug Administration seized 1,600 
        domain names associated with Web sites selling counterfeit or 
        misbranded drugs as a part of INTERPOL's Operation Pangea VI, 
        an international week of action targeting the online sale of 
        counterfeit and illicit medicines.
  --In October 2012, in Operation Bitter Pill, Homeland Security 
        Investigations in coordination with the Department of Justice 
        seized 686 Web sites illegally selling counterfeit 
        pharmaceuticals. The operation was part of INTERPOL's Operation 
        Pangea V.
    The Department also works closely with the State Department to 
provide training in effective law enforcement techniques to reduce the 
trade in illicit pharmaceuticals into developing countries. The sale of 
counterfeit medicines in developing countries can simultaneously 
destroy the market for legitimate products and have devastating health 
consequences on the local population. As part of a multi-year series of 
programs to build IP enforcement capacity, the Department, working with 
the World Customs Organization, was able to support a 23-nation effort 
to seize counterfeit medicines across the African continent which 
resulted in the seizure of more than 550 million doses of counterfeit 
medicine during a 10-day period in April 2013.
    In addition to our efforts to increase awareness and enforcement in 
consumer countries, we continue to develop cooperative law enforcement 
mechanisms to pursue a range of IP offenses in source countries, 
including the ongoing effort to reach the producers of counterfeit and 
substandard pharmaceuticals.
  --The U.S.-China Joint Liaison Group's Intellectual Property Criminal 
        Enforcement (JLG IP) working group provides a forum to discuss 
        ways to improve law enforcement cooperation and coordination on 
        intellectual property matters, including counterfeit 
        pharmaceuticals, and to exchange information and coordinate 
        enforcement activities. The JLG IP working group is co-chaired 
        by China's Ministry of Public Security and DOJ's Criminal 
        Division. The JLG IP working group coordinates with U.S. law 
        enforcement officials in China to facilitate the exchange of 
        evidence.
  --In May 2013, the Department of Justice hosted the third 
        Intellectual Property Crime Enforcement Network (IPCEN) 
        conference in Bangkok, Thailand. Sixty intellectual property 
        crime investigators and prosecutors from the 10 members of the 
        Association of South East Asian Nations (ASEAN), as well as 
        South Korea and China, attended. The IPCEN conference is 
        designed to help prosecutors and investigators in the region 
        develop a network of IP enforcement authorities and foster 
        bilateral and regional cooperation in IP cases, including 
        counterfeit pharmaceutical cases.
    There are no recent examples of joint operations with our partners 
in Asia that are public at this time. However, we have seen a 
substantial increase in the willingness of law enforcement officials in 
some producer nations to cooperate in the disruption of counterfeit 
pharmaceutical manufacturing facilities, and we are looking for 
opportunities to develop joint operations through the IPCEN and JLG.
    In India we have been challenged by the lack of a central law 
enforcement authority with jurisdiction over counterfeit and 
substandard pharmaceutical investigations, making a coordinated 
approach to enforcement difficult. Additionally, larger issues relating 
to patent enforcement and access to medicines in India often limit 
political will and overshadow efforts at cooperative action against 
counterfeit pharmaceuticals.
    In China, law enforcement officials recognize the growing threat of 
counterfeit pharmaceuticals to the Chinese population and take well-
publicized actions to cut down on domestic IP crime. Chinese officials 
have shown an increasing willingness to work with U.S. law enforcement 
and rights holders to ensure the legitimacy of pharmaceuticals in the 
supply chain, using the Joint Liaison Group as a coordination 
mechanism. However, the sheer volume of production in China of 
counterfeit pharmaceuticals and other IP-infringing goods continues to 
make enforcement a challenge.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                 fairness in disclosure of evidence act
    Question. Suppose I were to ask the Department to provide a 
drafting service, get a bit introspective about what might be 
acceptable bearing in mind the comments in the Judiciary hearing last 
year and send me a bill that is worth moving forward on. Would you do 
this for me?
    Lead-in information from original document.--
          Last year I introduced the Fairness in Disclosure of Evidence 
        Act with the intention of ensuring that the obligation to 
        disclose exculpatory evidence to Federal defendants in 
        accordance with the Brady ruling was uniformly applied across 
        the districts. The bill was endorsed by a wide variety of 
        organizations across the ideological spectrum from the American 
        Civil Liberties Union to the American Bar Association to the 
        U.S. Chamber of Commerce. Suffice it to say, prosecution 
        interests were not as enamored with the bill. When the bill 
        went to hearing in the Judiciary Committee last year there was 
        widespread support within the Department for taking Brady 
        obligations seriously and there was a promising colloquy with 
        Senator Leahy and others about open file discovery. At the end 
        of the day my bill was unacceptable to the department but the 
        department failed to express the parameters of a bill that 
        would be acceptable. This issue is very very important to me 
        and I intend to pursue it. I would like to find common ground 
        with the Justice Department. So rather than me continuing to 
        draft bills that are unacceptable--[continued above as the 
        start of the question]

    Answer. The Department of Justice firmly believes that rather than 
seeking legislative solutions, the American people are better served by 
the steps the Department already has taken--and will continue to take--
since the time of the Stevens prosecution. Through improved policies, 
increased training, and the appointment of new Department experts on 
the topic of discovery obligations, the Department's prosecutors have 
at their disposal an array of resources to assist them in meeting their 
discovery obligations. In addition to supervisory attorneys, this 
includes: discovery coordinators in each U.S. Attorney's Office or 
Department component; the Professional Responsibility Advisory Office; 
online resources; a full-time National Criminal Discovery Coordinator 
in the Office of the Deputy Attorney General; and experienced attorneys 
throughout the Department.
                          attorney misconduct
    Question. In advance of the next round of reporting from the GAO, 
let me ask are you satisfied with the attorney misconduct program 
within the department? Are there any changes you would like to see 
implemented? I understand that the Department has long resisted 
permitting the Inspector General to inquire into issues of attorney 
misconduct. Senator Lee, I and others think this is shortsighted. The 
Inspector General is intended to be an independent figure with the 
power to inquire into all goings on within the Department furthering 
the public interest of integrity and efficiency. Is there any good 
reason that the Department should oppose S. 2127 which would remove 
Inspector General Act impediments pertaining to attorney misconduct?
    Lead-in information from original document.--
          I would like to speak with you about the issue of attorney 
        misconduct within the department. USA Today did a series on 
        attorney misconduct, the Project on Government Oversight 
        recently issued a report attorney misconduct and I have the GAO 
        working on a study mandated by this subcommittee on the same 
        subject that will be available later this year. We hear that 
        attorney misconduct is seriously addressed but looking back at 
        the discipline meted out on the Stevens prosecutors one might 
        question whether the discipline is severe at all. And the POGO 
        report indicates that rarely if ever are disciplined 
        prosecutors referred to their State bars.

    Answer. The Department takes all misconduct allegations with the 
utmost seriousness. The Department's Office of Professional 
Responsibility (``OPR'') has been recognized consistently as a strong, 
independent entity within the Department that has a long, 
distinguished, and strong history of investigating allegations of 
attorney misconduct and recommending appropriate punishment. OPR has a 
unique expertise and has well-developed policies, procedures, and an 
analytical framework to guide its work. Importantly, OPR, unlike the 
Office of the Inspector General (OIG), has a singular focus on 
investigating attorney misconduct.
    While the Administration does not yet have an official position on 
S. 2127, similar bills have been introduced a number of times in the 
past; none have proceeded, and for good reasons. Previous efforts to 
unnecessarily expand the jurisdiction of the OIG have failed, in part, 
because expanding their jurisdiction would not create a better attorney 
discipline system, but instead would create an inconsistent and 
inefficient system while eroding accountability.
    As with S. 2127, previous efforts at expanding the OIG's 
jurisdiction have sought to effectively cede OPR's current jurisdiction 
to the OIG on all matters, allowing the OIG to handle certain attorney 
misconduct investigations of its choosing, while OPR handles the 
remainder. This concurrent jurisdiction undoubtedly would lead to 
inconsistent results without addressing any of your concerns.
    When Congress created an Inspector General (IG) for the Department 
of Justice in 1988, the Department strongly insisted upon recognition 
of the special character of Department attorneys' exercise of authority 
to investigate, litigate and give legal advice. Since its creation in 
1975, OPR has developed unique expertise in applying the complex legal 
and ethical standards applicable to Department attorneys conducting 
investigations, litigating cases, and providing legal advice. OPR has 
developed unique investigative policies and procedures, as well as an 
analytical framework that together ensure the application of fair and 
consistent findings with regard to matters of professional misconduct. 
OPR is staffed with experienced attorneys, including former attorneys 
from the OIG, as well as attorneys who worked in private practice, have 
experience with the national Innocence Project, and have experience 
with attorney ethics investigations.
    For these reasons, Congress specifically carved out of the IG's 
jurisdiction the authority to investigate allegations relating to an 
attorney's authority to investigate, litigate, and provide legal 
advice; and required that such allegations continue to be referred to 
OPR. Since 1988, the OIG has raised periodically its claim that it 
should be empowered to investigate matters falling within OPR's 
jurisdiction. Each time the issue has been raised, Congress has wisely 
refrained from altering the carefully considered limitation on the IG's 
authority.
    In its nearly 40 years' existence, OPR has been called upon to 
investigate allegations of misconduct against high-ranking DOJ 
officials, including the Attorney General and the Deputy Attorney 
General. OPR in fact acts independently and without interference from 
senior Department leadership. Since its inception, OPR has been led by 
a Counsel who is a career Senior Executive Service Department employee, 
who remains unchanged with successive Attorneys General and 
presidential administrations. No serious allegation has ever been 
raised that any Attorney General or Deputy Attorney General has 
interfered with any OPR investigation.
    Although the OIG for many years has claimed a need to increase its 
own jurisdiction, the OIG points to no instance in which Department 
senior leadership interfered with an OPR investigation; nor does the 
OIG point to a single OPR investigation that failed to appropriately 
hold accountable Department leaders or other Department attorneys. OPR 
has not hesitated to investigate senior Department leadership at the 
highest levels in the past where appropriate, and to find misconduct by 
Department attorneys when the evidence supported such findings. In any 
event, if the OIG wishes to take over an investigation that falls 
within the jurisdiction of OPR, the OIG may make such a request to the 
Deputy Attorney General.
    Moreover, your concerns about the Stevens case would not have been 
addressed had the attorney misconduct investigation been handled by the 
OIG. As I understand it, your principal objection to the Department's 
handling of the Stevens attorney misconduct investigation is your 
belief that the punishment was insufficient. Had the OIG handled the 
investigation, the perceived problem of insufficient punishment would 
not have been rectified. OPR conducted a full and thorough 
investigation and determined in a detailed, 672-page report that two 
attorneys engaged in professional misconduct and that a third exercised 
poor judgment. OPR's findings were shared with Judge Sullivan, who 
presided over the Stevens matter and with Congress.
    As a result of OPR's findings, the Department imposed significant 
periods of suspensions without pay to the attorneys who were found to 
have engaged in professional misconduct. As is the right of any civil 
servant under similar circumstances, the attorneys appealed the imposed 
discipline to the Merit Systems Protection Board (MSPB); an 
administrative judge for the MSPB vacated the suspensions based on a 
finding of harmful procedural error when the original disciplinary 
proposing official was replaced. The Department appealed that decision 
to the full Board, believing that the replacement of the proposing 
official was proper. The full board affirmed the initial decision, 
finding similar harmful procedural error. Regardless of whether OPR or 
the OIG investigated this incident of attorney misconduct, there is no 
reason to believe the MSPB outcome would have been any different. OPR 
has the authority to investigate allegations of misconduct, but does 
not have the authority to impose discipline. Likewise, the OIG would 
have had no such authority. Rather, the OIG would only have authority 
to report its findings and conclusions to the Attorney General and the 
Deputy Attorney General; the Department, under longstanding civil 
service rules, would retain authority to impose discipline. But just as 
is the case under the present system, any attorney--like all Federal 
Government workers--would retain the right to appeal a suspension of 
more than 14 days to the MSPB.
    With respect to concerns about referrals of attorney misconduct to 
State bars, OPR's long-standing policy and practice in all 
investigations is also to review the State bar rules that govern each 
individual attorney who is under investigation, and to assess whether 
there has been a violation of those specific State bar rules. If the 
Department determines that the conduct violates an applicable State bar 
rule, OPR refers the matter to the relevant State bar and provides 
information about its finding. OPR routinely makes such referrals.
    Another reason OIG's jurisdiction to include attorney misconduct is 
neither warranted or appropriate is that having two entities 
responsible for attorney misconduct investigations would necessarily 
lead to inconsistent application of the often complex rules and 
standards governing attorney conduct and would leave Department 
attorneys uncertain as to the extent of their obligations. This 
uncertainty, in turn, would reduce accountability because of the lack 
of clear direction and opaque expectations regarding attorney conduct. 
This will inevitably create a dysfunctional system in which similarly-
situated Department attorneys will be treated differently for 
essentially similar conduct. It would be grossly unfair to subject 
attorneys to disparate treatment based on which investigative entity 
takes jurisdiction; decreased accountability would be the predictable 
result.
    With respect to transparency, the Privacy Act prevents OPR from 
releasing personal information about Department employees, except in 
limited circumstances, and those same limitations would apply to the 
OIG. Accordingly, whether OPR or some other entity undertakes 
disciplinary investigations, the same Privacy Act limitations are 
applicable. Although the Privacy Act prohibits the release of protected 
information, OPR annually discloses a substantial amount of information 
about its work and findings. OPR's annual report contains substantive 
and statistical information setting forth the complaints it receives 
and the numbers of inquiries and investigations it accepts and 
resolves. The fiscal year 2012 Annual Report, for example, not only 
included summaries of representative inquiries handled by OPR during 
the year but also included summaries of nearly every investigation OPR 
closed during fiscal year 2012. Future annual reports will do the same. 
Beyond that, OPR regularly provides complainants, including defense 
attorneys or judges who complain about the conduct of Department 
attorneys, information concerning the resolution of their complaint. 
Contrary to the suggestion in the POGO report otherwise, where bar 
rules are implicated, OPR also shares its misconduct findings and 
reports with bar disciplinary authorities.
                       ted stevens investigation
    Question. During last week's hearing with the FBI Director, Mr. 
Comey indicated that an FBI Agent whose conduct in the Ted Stevens 
investigation came under scrutiny was severely disciplined. But he 
didn't explain what severely disciplined meant. One person's severe 
discipline might be another's slap on the wrist. Can you shed any light 
on whether the individual is still working for the FBI, in what 
capacity, and what the discipline was. [If not, insist once again that 
the report be filed with the subcommittee so we can determine what went 
on].
    Answer. In light of the privacy interests implicated here, FBI 
would be prepared to brief the Committee on this matter.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                                 gangs
    Question. Would a tool like this be useful on a national scale in a 
classified or unclassified manner? Do any of our Federal law 
enforcement agencies gather this type on information on gangs of 
national significance (gang profiles, membership, signs or symbols, 
signature crimes, etc.) and share it with their State and local 
partners? If this is already being done, what is the manner that the 
information is shared?
    Lead-in information from original document.--
          The Chicago Crime Commission, a non-partisan, not-for-profit 
        organization, printed The Gang Book in 2012 that details the 
        leadership, membership, locations and other unique identifying 
        factors of gangs and their factions in both the city of Chicago 
        and the suburbs. The Gang Book also published the number and 
        type of crimes reported as ``gang related.'' This information 
        is useful for suburban police departments that are experiencing 
        gang crime for the first time.

    Answer. This type of tool is already being used on a national scale 
and is very helpful. The National Gang Intelligence Center (NGIC) 
operates NGIC Online, which is an information system composed of Web 
based tools for researching gang related intelligence and sharing this 
information with the largest possible segment of the law enforcement 
community. NGIC Online can be accessed by all Law Enforcement Online 
(LEO) users, which are comprised of local, State, Federal, tribal, and 
correctional law enforcement. NGIC Online has several resources, 
including the following: Gang Encyclopedia, Gang Dictionary, General 
Intelligence Library, and Officer Safety Alerts. There is also a 
mechanism within NGIC Online wherein law enforcement can submit a 
request for information to NGIC subject matter experts for support on 
gang investigations. NGIC also produces the bi-annual gang report, 
which is available to all law enforcement through the NGIC Online 
database.
    In addition, the Department's Office of Justice Programs' (OJP), 
Bureau of Justice Assistance (BJA), administers the Regional 
Information Sharing Systems (RISS) Program, which is a federally 
funded, locally operated program that provides secure intelligence and 
information sharing to law enforcement, prosecutors, corrections, and 
probation/parole officers at all levels of government. Although Federal 
agencies participate, the focus is information sharing between law 
enforcement no matter the size of the agency. In addition to 
information sharing services, RISS provides assistance to these 
agencies in the areas of investigative support, equipment loans for 
investigation and surveillance, court preparation, training, and field 
support.
    All RISS resources are used by State, local, and tribal agencies on 
a daily basis to investigate many types of crimes, especially narcotics 
and gangs (which are connected on many occasions). One specific 
resource of interest to gang investigators in the RISS program is the 
RISSGang system. RISSGang provides a place for officers to share and 
provide gang information on a national level to include gang profiles, 
tattoos, gang signs and symbols, and types of specific crimes 
affiliated with each gang. The gang information is made available 
through the RISSGang Web site, which is available to all law 
enforcement, and has a bulletin board feature, a searchable database, 
secure e-mail, and a method for officers to securely view gang Web 
sites without revealing the officers' IP address or identity as a 
government official.
    Question. Gang activity is increasingly expanding to new forms of 
illegal activity including sex trafficking. How is DOJ communicating 
and working with State and local law enforcement to combat sex-
trafficking? How is DOJ working with other Federal agencies and our 
allies to combatting international sex tourism? What are the biggest 
trends in sex trafficking? What areas are seeing increased activity? 
Please outline the biggest loopholes within current law that enable sex 
traffickers to evade the law enforcement and criminal prosecution.
    Answer. Through the FBI's Violent Crimes Against Children Section, 
the FBI has established 69 Child Exploitation Task Forces (CETFs) 
throughout the country. The FBI partners with nearly 400 local, State, 
and Federal law enforcement agencies, with approximately 760 law 
enforcement officers to combat the commercial sexual exploitation of 
children. This robust effort allows for multi-dimensional investigative 
strategies to be employed. The national level intelligence and 
investigative resources are layered with the local level intelligence 
to develop large enterprise level investigations. In addition to 
fostering the sharing of information across law enforcement, the CETFs 
facilitate prosecutions within both State and Federal courts of those 
who facilitate the commercial sexual exploitation of children. Without 
question, because of the partnerships through the FBI CETFs, law 
enforcement is able to more fully impact this crime problem without the 
limitations of any jurisdictional boundary.
    The FBI also operates its Child Sex Tourism Initiative in which FBI 
agents assigned to our Legal Attache offices around the globe 
investigate U.S. citizens who travel overseas and engage in illicit 
sexual acts with children. These agents work with foreign law 
enforcement, non-governmental organizations (NGOs), and various victim 
services organizations in order to investigate and prosecute those 
engaged in child sex tourism. The Department of Homeland Security, U.S. 
Immigration and Customs Enforcement (ICE) also have agents stationed 
overseas that investigate child sex tourism and other crimes. The FBI 
has regular contact with ICE in order to collaborate on these cases.
    Trends related to the domestic child sex trafficking threat are 
typically reflected in the methodologies used by pimps to run their 
operations. This is reflected in the trend of using non-escort focused 
Web sites to post prostitution advertisements. Additionally, pimps are 
distancing themselves from their operations by assigning greater 
responsibility to associates and ``bottom girls'' (frequently the most 
trusted girl under the direction of a pimp). Some special events, such 
as the Super Bowl, continue to spur a surge of sex trafficking 
operations leading up to and during the event. Training and outreach 
efforts have resulted in an increased awareness of domestic child 
prostitution. As a result, law enforcement and the public are more 
conscious of indicators specific to domestic child sex trafficking, 
leading to an increase in reports of suspected trafficking. Domestic 
child sex trafficking continues to impact communities across the 
Nation.
    The Office of Justice Program's (OJP's) National Institute of 
Justice (NIJ) regularly consults with a range of State and local 
practitioners, including law enforcement, prosecutors, community 
organizations and victim service providers, to identify the prominent 
trends in human trafficking. These consultations revealed that the 
nature of trafficking cases calls into question the assumptions about 
who traffickers are, how they become traffickers and what might serve 
as the greatest deterrent to their entry into trafficking. In response, 
NIJ commissioned a study focused on answering these questions for all 
those convicted of trafficking at the Federal level, another examining 
the role of gangs in sex trafficking in San Diego, and a third 
exploring the role of organized crime in sex trafficking in the United 
States (all due to be completed in 2015). Combined with our recently 
completed studies of labor trafficking (published in 2013) and the 
unlawful commercial sex economy (published in 2014), these studies will 
provide a more clear picture of trends in sex trafficking in the United 
States.
    The Office for Victims of Crime (OVC) and the Bureau of Justice 
Assistance (BJA) jointly administer the Enhanced Collaborative Model to 
Combat Human Trafficking grant funding program to support anti-
trafficking law enforcement task forces that take a comprehensive 
approach to combating all forms of human trafficking--sex trafficking 
and labor trafficking of foreign nationals and U.S. citizens (male/
female, adults/minors). The task force model supports partnerships 
between local, tribal, State, and Federal law enforcement and victim 
service providers to build community capacity to rescue and serve 
trafficking victims. In addition to funding these task forces, OVC and 
BJA support practitioner-driven, evidence-based training and technical 
assistance (TTA) that is responsive to the needs of victim service 
organizations, law enforcement, allied professionals, and the 
communities they serve.
    Over the past several years, BJA and its partner, the Upper Midwest 
Community Policing Institute, have developed and delivered nationwide 
training for law enforcement, State prosecutors, State judges, and 
tribal law enforcement to promote awareness of human trafficking as 
well as advanced skills on how to investigate cases of human 
trafficking. In fiscal year 2014, BJA posted a solicitation seeking to 
continue the delivery of: (1) human trafficking training for 
prosecutors--to increase the capacity of State prosecutors to 
successfully prosecute perpetrators of trafficking; and (2) advanced 
human trafficking training for law enforcement--to increase the 
capacity of law enforcement to investigate, identify, and rescue 
victims of all forms of human trafficking.
                             cyber security
    Question. I am greatly concerned about the data breach incident at 
the end of 2013 that resulted in up to 110 million credit cards numbers 
stolen from Target. This is just one of many incident that happened 
last year. How does DOJ coordinate with the Secret Service, which has 
the lead agency on counterfeit activity, regarding data breaches? Do 
you have all of the legal authorities you need to effectively 
coordinate with other agencies? If not, is there further congressional 
action that will help you better protect the American people?
    Answer. Consistent with law, the FBI has a very forward-leaning 
approach to sharing information and intelligence with our partners, 
specifically the U.S. Secret Service (USSS). While the USSS is the lead 
agency for traditional counterfeit activity, an intrusion into computer 
networks is an altogether separate Federal violation, the investigation 
of which is a responsibility shared by both the FBI and USSS, and the 
FBI is the lead agency on national security intrusions. As such, the 
FBI and the Secret Service have a long history of jointly investigating 
computer intrusions, including large-scale data breaches, whether 
committed by financially-motivated criminals or other criminal actors. 
Over the past 2 years, the FBI has shared national security case 
details with the USSS, and both agencies are leading members of the 
National Cyber Investigative Joint Task Force, the founding mandate of 
which is to serve as the focal point for all government agencies to 
coordinate, integrate, and share information related to all domestic 
cyber threat investigations. In addition, both agencies engage in 
robust, bilateral collaboration at both the headquarters and field 
levels to ensure maximum resources are brought to bear against these 
criminal cyber threats in the most effective manner possible. Lastly, 
both agencies also participate in the International Organized Crime 
Intelligence and Operations Center (IOC-2), a forum for member agencies 
to meet and more effectively coordinate international criminal 
prosecutions--prosecutions which include cyber activities.
    The FBI has a variety of means to coordinate with its partner 
agencies in the U.S. law enforcement and intelligence communities. To 
successfully identify, pursue, and defeat our cyber adversaries, data 
collection and sharing among U.S. agencies must continue to evolve. 
That evolution requires a constant evaluation of the authorities 
governing such coordination including ensuring agency-specific data 
sharing restrictions, while often necessary, do not unduly burden that 
sharing. Another aspect of that evolution is increasing the speed at 
which intelligence is shared. In that vein, the FBI, working with 
partners in government and the private sector, will likely turn to 
machine-to-machine data sharing, but such enhanced coordination may 
require authorities not currently in place. This is an issue actively 
being reviewed at the present and will continue to be examined for the 
foreseeable future.
    Finally, cybersecurity legislation that requires companies to 
report intrusion activity to the Government and provides liability 
protections for those companies that share with and assist Government 
would have a positive impact on the FBI's cyber investigations.
                                 ______
                                 
               Question Submitted by Senator John Boozman
                       victims of child abuse act
    Question. I certainly hope that you will follow up on that 
commitment given that while this year funds weren't cut, they were 
significantly reduced from the levels that this subcommittee provided 
the past 2 years and I would appreciate you reaffirming your support 
for CAC's.
    Lead-in information from original document.--
          For the first time in several years, I am happy that the 
        administration's budget request did not zero out funds for the 
        Victims of Child Abuse Act, yet it reduced the funding by $8 
        million from the fiscal year 2014 enacted level. As you know, 
        VOCA funds vital programs that ensure that children who have 
        been victims of abuse receive adequate assistance and care.
          Specifically VOCA provides funding to the National Children's 
        Alliance, local Children's Advocacy Centers, and Regional 
        Children's Advocacy Centers, among other programs. These 
        centers are an essential part of communities and are deeply 
        supported by community leaders, local law enforcement, health 
        officials and members of the legal establishment.
          In a hearing in January of this year, you stated, ``I will be 
        advocating on behalf of these Children's Advocacy Centers. I 
        think they are proven to work, and given who they assist, I 
        think that as we're trying to decide what our priorities are, 
        the protection of our most vulnerable citizens, our children, 
        has to be a place where we put our money.''

    Answer. The Children's Advocacy Center (CAC) Program, funded under 
the Victims of Child Abuse Act (VOCA), is considered to be an effective 
multidisciplinary model. The CACs represent vital public-private 
partnerships. In 2012, more than 286,000 children were served at such 
centers, with over 197,000 cases of reported sexual abuse. One of the 
primary goals of the CAC Program is to ensure that child abuse victims 
are not further traumatized by the systems designed to protect them. 
CACs bring together multidisciplinary teams of child abuse 
professionals from law enforcement, prosecution, medical, mental 
health, child protective services, and victim advocacy agencies to 
coordinate the investigation and prosecution of child abuse. This model 
has been implemented in more than 850 communities throughout the United 
States and in numerous foreign countries.
    Research on the effectiveness of CACs indicates positive results 
from faster criminal charging decisions, increased prosecution rates, 
improved access to medical care, child and caregiver satisfaction and 
lower average per-case costs. Research has demonstrated that the 
coordinated response efforts also cost $1,000 less per case based on 
elimination of duplication of efforts.
                                 ______
                                 
            Questions Submitted to Hon. Michael E. Horowitz
            Questions Submitted by Senator Richard C. Shelby
    Question. Public trust and confidence are essential to successful 
Federal law enforcement efforts. However, the Department has faced 
significant issues in recent years that jeopardize that very trust and 
confidence. In fact, restoring public confidence, trust and integrity 
in the Department has been a top management challenge since 2007.
  --Seven years is a long time for any department to struggle with such 
        a serious management challenge. Has the Department made any 
        progress and if so, could you share some examples?
  --What changes, in your view, would help to restore public trust and 
        confidence? In other words, what does the Department need to do 
        to resolve this management challenge?
    Answer. We agree that the public's trust and confidence are 
essential to successful Federal law enforcement efforts, and that the 
Department of Justice (Department) has faced numerous significant 
issues in recent years that have jeopardized that support. For example, 
our 2007 and 2008 Top Management Challenges report noted the 
politicized personnel decisions of Department components had identified 
in three of our reviews. In 2010, the Office of Inspector General (OIG) 
issued a report concerning allegations that the Federal Bureau of 
Investigation (FBI) had targeted certain domestic advocacy groups for 
scrutiny based upon their exercise of rights guaranteed under the First 
Amendment to the United States Constitution. More recently, our 2012 
report on improper hiring practices in the Justice Management Division 
(JMD) found problems with nepotism in multiple offices in JMD, marking 
the third OIG investigation in the last 8 years involving improper 
hiring practices within JMD. Also in 2012, we described significant 
issues involving the conduct of both the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) and the U.S. Attorney's Office for the 
District of Arizona in connection with their handling of Operation Fast 
and Furious and Related Matters. And in a 2013 report assessing the 
enforcement priorities of the Voting Section of the Civil Rights 
Division, we identified issues in the handling of a small number of 
cases that the OIG believed risked undermining public confidence in the 
non-ideological enforcement of the voting rights laws. The review also 
revealed several incidents in which ideological polarization fueled 
disputes and mistrust that harmed the functioning of the Voting 
Section, including numerous examples of harassment and marginalization 
of employees and managers due, at least in part, to their perceived 
ideological or political beliefs.
    Despite the problems we have identified over the past several 
years, we also have noted the Department's significant efforts to 
restore its reputation for impartiality and excellence since we first 
included this issue in our Top Management Challenges report. For 
example, following our 2006 report on the FBI's handling of the Brandon 
Mayfield case, the FBI Laboratory implemented major reforms that have 
strengthened the objectivity and reliability of its latent fingerprint 
identifications and have helped restore the FBI Laboratory's reputation 
as a leader in this discipline; in response to our 2013 review of its 
purchase of promotional items, the U.S. Marshals Service instituted a 
new promotional items policy and other internal controls that we 
believe will help restore the public's confidence that appropriated 
funds will be used in the manner intended by Congress; and following 
our 2008 report on politicized hiring, the Civil Rights Division has 
taken major steps to improve public confidence that its hiring 
practices are fair, transparent, and merit-based.
    Nevertheless, significant challenges remain. One especially 
important concern that continues to be raised by, among others, Members 
of Congress, Federal judges, and public interest groups is the 
Department's ability to discipline its attorneys for misconduct. In 
December 2013, Chief Judge Alex Kozinski of the U.S. Court of Appeals 
for the Ninth Circuit issued a dissenting opinion stating that there 
was an ``epidemic of Brady violations'' by Federal and State 
prosecutors, and that ``[o]nly judges can put a stop to it.'' In 
reaching this conclusion, Chief Judge Kozinski cited a plethora of 
Federal and State court decisions finding Brady violations by 
prosecutors, and he noted that professional discipline is ``rare.'' In 
March 2013, the Project on Government Oversight (POGO) raised similar 
concerns about prosecutorial misconduct and the transparency of the 
Department's disciplinary decisions, and recommended that the OIG 
should be authorized to investigate allegations of misconduct by 
Department attorneys rather than the Department's Office of 
Professional Responsibility (OPR), which currently has responsibility 
for these investigations. As we have repeatedly noted in the past, and 
as POGO stated in its recent report, providing the OIG with this 
jurisdiction would result in independent oversight of alleged 
prosecutorial misconduct, greater transparency over the process, and an 
increase in accountability, with the inevitable result being that the 
public's trust and confidence in the disciplinary process would 
improve. This is particularly true in matters where the lack of 
independence and transparency of an OPR review might reasonably call 
its conclusions into doubt. For these reasons and others, the OIG 
supports the bipartisan Inspector General Empowerment Act of 2014 (S. 
2127), introduced by Senator Lee and co-sponsored by Senators Tester, 
Grassley, Murkowski, and Coburn, which would amend the Inspector 
General Act to allow the OIG to investigate allegations of misconduct 
involving Department attorneys.
    Question. It is my understanding that the Attorney General has 
granted all of your requests to access documents. If that is true, why 
are you concerned about the current process for accessing certain 
documents and records?
    Answer. For any OIG to conduct effective oversight, it must have 
complete and timely access to all records in the agency's possession 
that the OIG deems relevant to its review. This principle is codified 
in Section 6(a) of the Inspector General Act, which authorizes 
Inspectors General ``to have access to all records, reports, audits, 
reviews, documents, papers, recommendations or other material available 
to the applicable establishment which relate to programs and operations 
with respect to which that Inspector General has responsibilities under 
this Act.'' Refusing, restricting, or delaying an OIG's access to 
documents may lead to incomplete, inaccurate, or significantly delayed 
findings or recommendations, which in turn may prevent the agency from 
correcting serious problems in a timely manner.
    We have had multiple instances recently where one or more 
Department components have declined to provide the OIG with materials 
that were relevant to an ongoing OIG review because of a claim that the 
Inspector General Act did not authorize our access to those materials 
in light of limitations in other Federal laws. Ultimately, in each 
instance, the Attorney General or the Deputy Attorney General issued an 
order granting the OIG permission to receive the materials because they 
concluded that our ongoing reviews were of assistance to them in 
managing the Department. However, there are significant issues with 
this process. First, requiring an OIG to receive permission from 
Department leadership in order to obtain documents that the OIG has 
determined are necessary for its review is inconsistent with an OIG's 
independence. Second, authorizing access to relevant records only after 
the Attorney General or Deputy Attorney General concludes that the 
review would assist them in managing the Department is wholly 
inconsistent with the Inspector General Act, which expressly authorizes 
an independent Inspector General to determine what reviews are 
necessary and should be undertaken. Third, a process that requires the 
OIG to elevate certain document requests to the highest levels of the 
Department, including in routine audits, results in significant delays 
in the timeliness of our work. Indeed, one of our reviews was delayed 
for almost a full year because of these issues. And just this year, 
another review was delayed approximately 3 months when a component 
initially objected to producing certain materials that were highly 
relevant to an OIG audit; the OIG obtained access only after 
discussions between the Inspector General and the component head 
resolved the matter. Moreover, the FBI, which was the component that 
objected in 2010 and 2011 to producing certain documents to the OIG, 
thereby triggering the involvement of the Attorney General and Deputy 
Attorney General, has since put in place a process that requires its 
Office of General Counsel to review and produce documents to the OIG in 
connection with an audit or review. We did note the FBI Director's 
testimony before the Senate Judiciary Committee earlier this week in 
which he stated that he has directed his General Counsel to approve the 
production of documents to the OIG much faster than in recent years. 
This process, which has resulted in delays of our audits and reviews, 
is in our view a significant waste of the FBI's limited legal 
resources, not to mention of the OIG's, particularly since the Attorney 
General has stated that he is going to ensure that we receive all of 
the materials that we need for our reviews and audits.
    Question. Do you agree that certain laws include a specific process 
whereby the Attorney General is responsible for granting or denying 
access to specific documents and records? If not, could you detail the 
differences in your opinion from that of the Attorney General?
    Question. We are not aware of any laws that include a specific 
process whereby the Attorney General is responsible for granting or 
denying access to specific documents and records. On the contrary, 
Section 6 of the Inspector General Act provides OIGs with authorization 
to access relevant documents and materials that are already in the 
possession of the establishment each oversees. The only exception to 
that authorization relevant to the Department of Justice OIG is found 
in Section 8E of the Inspector General Act, which authorizes the 
Attorney General to prevent the Inspector General from obtaining 
certain information in certain circumstances, but only after the 
Attorney General has made the necessary determination under Section 8E. 
Further, the Attorney General is required to issue a written 
explanation of the reasons for his decision to the Inspector General, 
which is then provided to Congress within 30 days. These statutory 
safeguards serve to underscore the fact that the Inspector General Act 
is intended to allow the OIG complete and timely access to the 
Department's documents and materials, while providing the Attorney 
General carefully circumscribed avenues for withholding information in 
exceptional circumstances--and only with prompt and specific 
notification to the Inspector General and Congress. We have attached a 
memorandum from 2011 that summarizes our views on Sections 6 and 8E of 
the Inspector General Act as they relate to the OIG 's access to 
certain documents and materials gathered by the FBI.
    Question. What, in your view, is the best way to address the 
limitation that has been placed on your access to certain documents and 
records? Do we need to pass legislation or can the problem be remedied 
by the Attorney General? Is it as simple as the Attorney General 
requiring the entire Department to allow you unfettered access to the 
documents and records necessary to conduct oversight?
    Answer. We believe that the Attorney General or Deputy Attorney 
General can immediately remedy the problem by finding as a matter of 
policy and practice that the OIG is entitled to access all documents in 
the Department's possession that are relevant to an OIG review, and by 
directing all Department components to comply with such a finding by 
providing the OIG with timely access to relevant documents. Such a 
directive would obviate the need for additional legislation so long as 
it is in place. However, in the absence of such a finding and 
directive, given the Department's current process of requiring the OIG 
to obtain permission from Department leadership in order to obtain 
access to certain records in the Department's possession, we believe 
that corrective legislation would be necessary.
    Question. The Attorney General stated that the Office of General 
Counsel has never ruled on the issue of access to documents and records 
by the Inspector General. If the Attorney General does not seek a 
formal ruling as I have requested of him, would you be willing to seek 
a formal ruling on these matters?
    Answer. The OIG does not believe that a formal ruling is necessary 
to decide this issue because the Inspector General Act is already clear 
in authorizing the OIG to access all documents and materials in the 
possession of the Department that are relevant to our reviews. 
Moreover, the Department's practice until 2010 had been to provide the 
OIG with access to all relevant materials in the Department's 
possession.
    Nevertheless, if the Attorney General concludes that a legal 
opinion is necessary, the OIG does not object to the Department 
requesting that its Office of Legal Counsel (OLC) rule on the issue of 
OIG access to grand jury, Title III, and Fair Credit Reporting Act 
information. However, given the continuing access issues that the OIG 
is facing and the impact that those issues have on our independence, it 
is critical that such a process move expeditiously and that OLC issue 
its opinion promptly. Additionally, we would object if the Department 
were to ask OLC for a broad opinion that covered OIG access to 
documents beyond the three categories of materials currently in 
dispute, or that sought to address access to documents by other Federal 
Inspectors General, because of the impact such a broad ruling could 
have on those other Federal OIGs and the lengthy process that would 
ensue were the OLC to consult those OIGs for their views.
    Question. Mr. Horowitz, you have raised concerns about the 
distinction the Department makes between the treatment of misconduct by 
attorneys acting in their legal capacity and misconduct by other 
Department employees. In fact, your office has no authority to 
investigate misconduct by attorney's acting in their legal capacity. 
That authority has been granted to the Department's Office of 
Professional Responsibility.
  --Why do you believe that these types of investigations should be the 
        responsibility of your office rather than the Office of 
        Professional Responsibility? Are there specific examples of 
        investigations being called into question because they were 
        handled by the Office of Professional Responsibility?
    Answer. As stated in our response to the first question, we believe 
that all Department employees should be held to the same standards of 
accountability for misconduct, and we have long questioned the 
distinction between the treatment of misconduct by attorneys acting in 
their legal capacity and misconduct by other Department employees, 
including law enforcement agents. We believe the institutional 
independence of the OIG, which is codified in the Inspector General 
Act, and which OPR lacks, is critical to the effectiveness of our 
misconduct investigations. Moreover, Inspectors General across the 
Federal Government have the authority to handle misconduct allegations 
against lawyers acting as such within their agencies, and they have 
demonstrated that they are fully capable of dealing with such matters.
    Additionally, the OIG 's strong record of transparency is vital to 
ensuring the Department's accountability, particularly in cases where 
the independence or fairness of an internal review might be called into 
question. As noted in response to the first question, in recent months, 
others have expressed a similar concern, including the independent, 
non-partisan Project on Government Oversight (POGO), which issued a 
report last month that was critical of OPR's longstanding lack of 
transparency and recommended empowering our office to investigate 
misconduct by DOJ attorneys. The POGO report identifies specific 
examples of OPR investigations--including of the prosecution team in 
the case of former Senator Ted Stevens and of Department attorneys Jay 
Bybee and John Yoo in the torture memorandum issue--that it believes 
have fed skepticism about whether the Department is capable of 
investigating misconduct by its attorneys.
    Question. Would such a change require a legislative fix or is this 
something that can be handled by the Attorney General?
    Answer. In 2002, the 21st Century Department of Justice 
Appropriations Authorization Act amended Section 8E of the IG Act to 
specifically allocate to OPR exclusive jurisdiction over alleged 
misconduct by Department attorneys (except OPR attorneys) where the 
allegations relate to the exercise of the authority to investigate, 
litigate, or provide legal advice (Section 8E(b)(3)). Thus, 
notwithstanding a general provision of the IG Act (Section 9(a)(2)) 
that permits agency heads to transfer functions to the OIG, based on 
the specific language in the current law relating to jurisdiction over 
attorney professional misconduct allegations, it would appear that the 
Attorney General does not have the authority to transfer that function 
to the OIG. We therefore believe that legislation, such as the 
bipartisan legislation recently introduced by Senator Lee and co-
sponsored by Senators Tester, Grassley, Murkowski, and Coburn, is the 
best way to address the issue.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                         usa patriot act review
    Question. On March 17, 2010, I wrote to former Inspector General 
Glenn Fine and asked him to complete a number of audits of government 
surveillance authorities, including the use of Section 215 orders, pen 
register and trap and trace devices, and National Security Letters. On 
June 15, 2010, Inspector General Fine responded to my letter, 
indicating that a review to examine these provisions would be initiated 
by the Office of Inspector General. I understand that these reviews 
have commenced, yet, nearly 4 years later, I still have not seen final 
reports.
    What is the status of these reviews and when can I expect to 
receive completed reports from your office?
    Answer. We have completed the three reports regarding the above-
mentioned matters and we expect to issue our latest report on the FBI's 
use of National Security Letters in the next few weeks. We provided our 
report on Section 215 orders and our report on pen register and trap 
and trace usage to the FBI on February 28 for a classification review 
of FBI information, but still have not received a completed 
classification review from the FBI or a date on which it will be 
completed. Without completed classification reviews from the FBI and 
the non-Department agencies whose information appears in the reports, 
we are prohibited from issuing our reports, including to Congress.

                          SUBCOMMITTEE RECESS

    The next hearing will be on Thursday, April 10, at 10 a.m., 
in which we will take testimony from Secretary Pritzker, the 
Secretary of Commerce.
    [Whereupon, at 12:05 p.m., Wednesday, April 3, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 10.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, APRIL 10, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Reed, Merkley, Coons, Shelby, 
Collins, and Kirk.

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

STATEMENT OF HON. PENNY PRITZKER, SECRETARY

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everybody. The CJS 
Subcommittee will come to order.
    Today we will take the testimony of the Department of 
Commerce for the 2015 fiscal year. This is their budget 
request, and we will be listening to the Commerce Secretary, 
Penny Pritzker, testifying for the first time at CJS. One might 
recall that Secretary Pritzker was appointed in July of 2013. 
We had already had our hearings, though we've had many 
substantive and constructive conversations.
    Also, we want to note that we will be putting into the 
record the testimony of the Inspector General, Todd Zinser. But 
in the interest of time, we're just going to enter that. We 
want to thank Mr. Zinser and the Inspector General Service 
Corps for all of the work that they do that gives us important 
insights on how we can manage our people and our resources 
better. We want to thank him for that. Just the fact that we're 
going to have many votes today, we've had to condense it.
    His statement will not only be part of the record, but I 
will be including some of the issues he raises in my questions.
    There is a vote at 10:30 a.m., so it will be the goal of 
Senator Shelby, my vice chairman, and myself to make our 
statements and listen to you, Madam Secretary, and then we'll 
return for questions.
    This is one of 60 hearings that we're holding in six weeks 
because we want to complete our hearings as promptly but 
diligently as we can so we can mark up our bills and strive, 
for the first time since 1996, not to have a lame duck.
    Madam Secretary, we look forward to hearing from you on 
both the budget request and the priorities of the Department of 
Commerce. We know that you bring to us a strong business 
background and that the tradition of the Secretary of Commerce 
has always been a President's liaison to the business 
community. We note that one of the signature priorities that 
you put forth is that America is open for business, and we look 
forward to hearing about that.
    One of the things we agree about on a bipartisan basis are 
the great words of Ronald Reagan when he said ``the best social 
program is a job,'' and we want to hear how the Department of 
Commerce helps generate jobs in our country and retain jobs in 
our country, and maybe even in manufacturing bring some of 
those jobs back home.
    We know that today we want to hear about trade, innovation, 
and jobs. We want to know how the Department of Commerce is 
helping generate jobs by increasing exports and promoting 
economic growth. We need to also hear about spurring 
innovation, safeguarding our intellectual property and 
enforcing our trade laws, but at the same time having strong 
oversight.
    The Department of Commerce has been plagued by some 
persistent problems, problems with the Census, problems with 
the NOAA satellite program, but I must say that under your 
diligent management you have really tried to solve those 
problems, and we appreciate that.
    One of the areas that we see as one of the future jobs in 
this country is in the area of information quality assurance. 
The trendy, chic word now is ``cyber-security.'' But if you 
lose your identity or somebody steals your intellectual 
property, it's not a trendy phrase; it is a harsh economic 
reality affecting either a person, a business, or the future of 
our country.
    We see NIST, the National Institute of Standards and 
Technology, as one of the greatest and yet most undervalued 
agencies in the Federal Government constellation, and it 
provides the private sector a civilian portal in which they can 
engage in both inventing products, talking with each other, and 
working constructively. We want to hear the role of NIST in 
today's world and what does it take to do that, though we know 
that NIST plays a very important role in manufacturing.
    The other thing of great concern is the stealing of our 
intellectual property, and that goes to, again, cyber security. 
But in this array of agencies you have the Patent and Trade 
Office, which is absolutely crucial. We believe in private 
property. We're capitalists on this committee. We believe in 
private property and that if you invented it, you should get to 
keep it and make sure that nobody steals it.
    But we need an aggressive Patent Office. We know the 
Judiciary Committee is looking at this. We know that we've had 
a backlog.
    There's the International Trade Office and the 
International Commercial Service where we actually have people 
overseas that help our American businesses connect. We don't 
always talk about that in this committee, and we want to hear 
about it.
    And also very important is NOAA, the National Oceanic and 
Atmospheric Administration. NOAA is important to all of us who 
are coastal Senators. I'm sure they'll be coming in later. 
You're not a coastal Senator unless you--I mean, the coastal 
Senators are united that we're all concerned about fisheries, 
about the species decline, and also, the very important weather 
satellites and the Weather Service.
    Most people think weather comes from the Weather Channel. 
We think it's wonderful the way the private sector has taken 
the data and information NOAA generates and turns it into such 
a useful, exciting product for the American people. But you 
can't have the Weather Channel unless you have the Weather 
Service. And quite frankly, whether you're a military, a 
maritime service, or you are a municipal leader wondering what 
to do on a snow day or how to have tornado alerts in your 
community, you need NOAA. So we need to hear more about that.

                           PREPARED STATEMENT

    There are other questions and things that I'm going to say. 
I'm going to yield any time I have back, ask unanimous consent 
that my full statement be in the record so that Senator Shelby 
can speak, we can get you to your testimony before the vote.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    This is one of 60 hearings the Appropriations Committee will hold 
over a 6 week period. We are doing our due diligence and the necessary 
work to get the job done. Our goal is to enact all 12 Appropriations 
bills before October 1, for the first time since 1996, in order to 
restore regular order--which means certainty and reliability in the 
appropriations process.
    Today we will hear from Secretary Penny Pritzker about the 
Department of Commerce's fiscal year 2015 budget request and 
priorities. We also have written testimony from Commerce's Inspector 
General Todd Zinser.
    We welcome Secretary Pritzker, who joined the Commerce Department 
in June of last year. We are very lucky to have her. She has a strong 
business background and has been a great leader at Commerce. Now she is 
the CEO of the Department of Commerce and America's Businesswoman in 
Chief, a leader to keep the economy rolling through trade, innovation, 
and jobs.
    The Commerce Department is a major economic engine for America. The 
President's request totals $8.8 billion for the Department. Today my 
goal is to examine how these funds will spur innovation. That includes 
safeguarding our intellectual property, and enforcing our trade laws. I 
want to know how the Department will create jobs, increase exports, and 
promote economic growth. We will also discuss how Commerce protects our 
citizens through forecasts and warnings about severe weather. Finally, 
is Commerce doing all it can to protect taxpayer dollars and use funds 
wisely?
    The Secretary of Commerce is the spokesperson for American 
business. But the Secretary is also the chief manager responsible for 
addressing major challenges and persistent problems that need strong 
oversight including the National Oceanic and Atmospheric 
Administration's satellite procurement and the 2020 Census.
    The Department of Commerce needs to be cyber-obsessed, creating 
ways to protect its own DOT.GOV systems, while working with the private 
sector to better protect DOT.COM. I want to be clear--cybersecurity is 
not surveillance. Cybersecurity means understanding and protecting us 
and our information from criminals out to steal our credit card 
information and personal identities, and to rob companies' intellectual 
property.
    The total fiscal year 2015 National Institutes for Standards and 
Technology (NIST) budget request is $900 million, and includes $91 
million for cybersecurity, research, and partnerships with private 
sector. NIST's job is to partner with the private sector to solve 
today's cybersecurity problems. Earlier this year, NIST issued the 
voluntary Framework for Improving Critical Infrastructure 
Cybersecurity. Through research in the labs and at the National 
Cybersecurity Center of Excellence, NIST is generating innovation that 
protects people and companies, and creates cybersecurity jobs of the 
future that can never leave the United States.
    NIST is not the only agency standing sentry over American 
innovation. The Patent and Trademark Office (PTO) protects ideas and 
inventions helping America's economy thrive. Inventors' new ideas 
become new products and, through entrepreneurship, new companies that 
create jobs. But inventors need a patent office to protect their ideas. 
The PTO is improving and getting patents out faster, but it can do 
more. More than 600,000 patents are waiting for approval, and it takes 
almost 2\1/2\ years to get a patent. PTO needs strong oversight from 
the Secretary and Congress. The PTO has been functioning without a 
Director since February 1, 2013.
    Once a product is invented, we need to sell it around the world. 
The International Trade Administration (ITA) enforces our trade laws 
and agreements, protecting entire American industries. It promotes 
American products internationally and brings companies and jobs home to 
the United States. ITA's budget request of $507 million is an increase 
of $37 million above the fiscal year 2014 level of $470 million. The 
ITA's Foreign Commercial Service helps American companies sell more 
goods overseas, getting products from American manufacturers to 
international customers. Exporting American goods and services supports 
roughly 10 million jobs in the United States.
    The Economic Development Administration (EDA) invests in 
communities in all 50 States. EDA provides funding for projects such as 
water infrastructure for new hospitals, supporting thousands of local 
workers. Projects that promote infrastructure and innovation set our 
small businesses up for success. Every dollar put into the community 
through EDA grants leverages $10 in local investment and creates jobs 
throughout the country.
    When it comes to protecting people, every member of this 
subcommittee is pro-weather and pro-science. America has experienced 
several severe weather events these past few years and scientists 
suggest that extreme weather will continue. NOAA's satellites need to 
be fit for duty. We owe it to our communities, especially to the 
coastal States that depend on accurate hurricane forecasts and to the 
interior States that depend on timely tornado warnings. One-third of 
our GDP is directly affected by the weather. While Commerce's budget 
shows continued reforms to NOAA's satellite programs in response to 
critical reviews from this Committee and expert outside analysts, I 
remain concerned about the stability of these important satellite 
programs.
    The Inspector General identified Census planning and management as 
a key challenge for the Department of Commerce. Controlling costs for 
the 2020 Census is a top oversight concern for the Inspector General, 
the Government Accountability Office, and the Appropriations Committee. 
The budget request of $1.2 billion for the Census is an increase of 
$266 million above the fiscal year 2014 level of $945 million to 
prepare for 2020 Census. I want to know what is being done to make the 
2020 Census less expensive than the 2010 Census and to prevent techno-
boondoggles that caused 2010 Census costs to skyrocket.
    I want to thank all the men and women of the Commerce Department--
trade experts, statisticians, patent and trademark examiners, 
scientists and engineers, ocean surveyors, and weather forecasters. 
They work hard every day promoting American businesses, protecting 
American ideas and resources, keeping our economy moving forward and 
creating jobs. Secretary Pritzker--thank you for your leadership and 
also for your continued oversight of the Department of Commerce. We 
look forward to hearing your testimony.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairman.
    Welcome, Secretary Pritzker. As the chair said, this is 
your first hearing, your first appearance before this 
committee.
    The Department of Commerce, as everybody knows, is 
responsible for a broad range of activities critical to our 
Nation. Weather forecasting, fisheries management, economic 
development, and trade enforcement are just a few of the 
Department's responsibilities.
    In a time of constrained budgets, prioritization and strong 
oversight are essential to keeping the Department on the right 
path, and the request for 2015 is $8.7 billion, $568 million 
more than the 2014 enacted level.
    The budget request attempts to balance, as I understand it, 
the wide range of activities under the purview of the 
Department. Finding that balance remains a challenge. Costly 
satellite procurements and the build-up to the 2020 Census adds 
significant budget pressures that could impact other important 
core programs.
    Ensuring that priority satellite projects stay on schedule 
and on budget is essential to the overall budget picture. As 
the Department develops long-range plans for satellite 
procurements, I believe it must maintain a focus on these 
projects that ensure weather forecasters have the data and 
information they need to protect life and property. And while 
there are a number of satellite projects on the books, 
resources are limited.
    I am concerned that the Department has not prioritized 
these costly projects yet based on the value of services they 
provide to the core mission of the agency. Madam Secretary, 
when it comes to projects of this magnitude and this cost, the 
Department, I believe, must differentiate between the must-
haves, must-haves such as JPSS and GOES-R and the nice-to-
haves, nice-to-have projects like Cosmic, and Cosmic-2.
    Unfortunately, I'm not convinced that all of the satellite 
projects that the Department is focused on are truly necessary 
to the core mission of NOAA, which is very important to all of 
us that the chairman referenced. My concern is exacerbated by 
reports from the GAO and the Department of Commerce Inspector 
General suggesting that a gap in polar satellite data is 
likely.
    Without this data, weather forecasters would be unable to 
do their jobs and the safety of millions of Americans could be 
in jeopardy. Yet the Department thus far has failed to present 
a viable gap mitigation plan in the 2015 request, choosing 
instead to advance nice-to-have satellite projects. I wish you 
would look at that very, very closely. It certainly troubles a 
lot of us.
    Finally, I want to touch on the Department's request for 
Economic Development Administration funds. The Department has 
once again proposed to shift support away from traditional 
effective economic development programs that help distressed 
communities to fund a new community planning program. The 
Investing in Manufacturing Communities Partnership Program 
proposes to support 25 communities in this country, just 25 
communities that the Administration believes have the best 
economic development planning regime in place.
    The program gives selected communities a seal of approval 
intended to signal to business and industry around the world 
that the community has been chosen by the Government, by the 
Administration, as worthy of investment. Additionally, chosen 
communities will be granted priority access to Federal 
resources. Sounds like central planning to me.
    I'm concerned that this type of system allows the 
Administration ultimately to pick a lot of winners and losers, 
and there are many communities that have worked diligently in 
this country to recruit business and industry, and I worry that 
their future efforts might be disadvantaged by this new program 
if they're not chosen. And what's more, I'm concerned that they 
might be further disadvantaged in obtaining Federal grants 
because their grant applications won't be given the same 
consideration as a chosen community.
    I believe sustained growth and competitiveness should be a 
priority for communities everywhere in this country. It should 
not be restricted to a few manufacturing communities hand-
picked by this Administration or any administration, and I look 
forward to working with you at the Department on these issues 
because I think they're very important.
    We welcome you again to the committee.
    Senator Mikulski. We want to note that Senator Jack Reed 
from Rhode Island, Senator Merkley, and Senator Mark Kirk are 
here.
    Understanding the vote, I'd like to get to Secretary 
Pritzker's testimony and try to get in as many questions as we 
can before the vote.
    Madam Secretary, why don't you proceed with your testimony?

                  SUMMARY STATEMENT OF PENNY PRITZKER

    Secretary Pritzker. Thank you very much. Chairwoman 
Mikulski, Vice Chairman Shelby, and members of the 
subcommittee, thank you for this opportunity to discuss 
President Obama's fiscal year 2015 budget request for the 
Department of Commerce.

            HIGHLIGHTS OF THE DEPARTMENT OF COMMERCE BUDGET

    The Department of Commerce budget request of $8.8 billion 
reflects President Obama's commitment to support American 
businesses and create economic opportunity, while building upon 
the important investments that Congress enacted in fiscal year 
2014.
    As you may know, the Department recently rolled out its 
priorities and strategic plan called the ``Open For Business 
Agenda.'' The budget reflects our priorities in several ways. 
First, we will build on the four consecutive record-breaking 
years of American exports and the trend of rising business 
investment into the United States. We propose that the 
International Trade Administration receive an 8 percent 
increase, which will bolster our work to support current and 
potential exporters, boost in-bound investment through our 
highly effective SelectUSA program, and strengthen trade 
enforcement.
    I should also note that 2015 will conclude the biggest 
element of the President's Export Control Reform Initiative, 
which strengthens our national security and allows for more 
trade with our allies.
    Second, we will continue to support American innovation. 
The Commerce Department is becoming known as the Department of 
Innovation. Over the past few years, we have laid down more 
than 100,000 miles of broadband, bringing more opportunity to 
businesses and communities across the country. We have also 
reduced the patent application backlog, though we still have 
more work to do.
    To continue driving innovation, the budget includes 
increased funding for research at bureaus such as the National 
Institute for Standards and Technology; as you know, NIST 
attracts private sector partners to collaborate with us in 
areas ranging from advanced manufacturing to cyber security.
    Looking forward, we will expand efforts to help small 
manufacturers adopt new technologies and increase their 
competitiveness through AMTech and our MEP program.
    In addition, the budget reflects the President's call for a 
national network of manufacturing innovation, a powerful model 
focused on pre-competitive research which already has 
bipartisan support in the House and the Senate.
    We will also drive innovation through regional capacity 
building, continued support for minority-owned businesses, and 
both executive and legislative efforts to continue 
strengthening our patent system, an issue that Congress is 
currently working to address.
    Third, we will do more to unleash the potential of data. 
The budget proposes a significant increase, to $754 million, to 
prepare for an efficient and effective 2020 Census. We have 
embarked on aggressive research and testing programs that will 
help us identify ways to make it easier for people to respond 
to the Census. We will consistently review the benchmarks of 
this program to ensure that we are better able to meet our 
goals.
    As you know, business and government leaders across the 
country use crucial data to make decisions about growth and 
hiring. Also, I recently announced that we will partner with 
the private sector to make more NOAA data accessible and usable 
for entrepreneurs and the public. This budget supports this 
effort into fiscal year 2015.
    Fourth, we will gather and act on environmental 
intelligence. The budget includes $2 billion for satellites 
which provide weather and climate data to protect lives and 
property. These funds will also help businesses and communities 
adapt to a changing planet.
    I should note that these satellite programs are currently 
on schedule and on budget thanks to our rigorous monitoring and 
management efforts.
    The budget also includes $519 million for our National 
Ocean Service, which provides the resilience of our coasts, as 
well as $917 million for our National Marine Fisheries Service.

                          PREPARED STATEMENTS

    In closing, as a former business leader, I strongly believe 
that this budget reflects wise, targeted investments of 
taxpayer dollars, investments that will be highly valued by the 
Commerce Department's stakeholders. I look forward to answering 
your questions and achieving the important vision laid out in 
our Department's strategic plan.
    [The statements follow:]
               Prepared Statement of Hon. Penny Pritzker
    Chairwoman Mikulski, Vice Chairman Shelby, and members of the 
subcommittee, thank you for this opportunity to discuss with you 
President Obama's fiscal year 2015 budget request for the Department of 
Commerce. The investments included in the fiscal year 2015 budget 
request build upon the important investments you enacted in fiscal year 
2014 and I am grateful for your support.
    Our fiscal year 2015 budget requests $8.8 billion, a 7 percent 
increase over fiscal year 2014. This budget supports the Department's 
``Open for Business Agenda'' by promoting trade and investment; 
spurring innovation; fueling our data-driven economy; and producing 
environmental intelligence. Investing in these areas builds on 
President Obama's vision for creating economic opportunity for all 
Americans. This budget will help drive economic growth and job creation 
and reflects his confidence in the Department's ability to help 
businesses grow, compete, and innovate as the voice of business in the 
administration.
    The President's vision for creating economic growth is further 
supported through the Department's request in the Opportunity, Growth, 
and Security Initiative. This fully paid for initiative lays out a 
roadmap for additional investments in critical areas such as research 
and development, climate resilience, economic development, and 
manufacturing.
    We are committed to working with the Congress to pass a budget that 
will continue to help create the conditions necessary for businesses to 
grow and hire, and for the U.S. economy to thrive.
                     promoting trade and investment
    Increasing trade and investment is a critical component of growing 
our economy. Exports have driven nearly one-third of economic growth 
since 2009 and support 11.3 million jobs. Ninety-six percent of 
companies that export are small and medium enterprises (SMEs). Today, 
95 percent of potential customers are outside our borders and growing 
the number of export-related jobs, which pay 18 percent more on 
average, will require expanding our ability to reach these foreign 
markets. To promote exports and greater investment in the U.S., 
including foreign direct investment and U.S. companies reinvesting in 
America, the budget includes $497 million for the International Trade 
Administration (ITA), an 8 percent increase over the 2014 enacted 
level. I want to thank the subcommittee for their support of SelectUSA 
in fiscal year 2014 and we plan to put more muscle behind this new 
program, which will bring more foreign investment dollars to the United 
States and encourage American companies to reinvest in America.
    To reinforce the important role that investment plays in the health 
of our economy, the budget also proposes to rename the International 
Trade Administration to the International Trade and Investment 
Administration (ITIA). This new name more accurately reflects the 
Commerce Department's commitment to expanding exports while also making 
inbound investment and reshoring a bigger part of the DNA of our 
economy. Five million six hundred thousand jobs are supported by 
inbound investment and the trends are in our favor to attract more. The 
additional resources requested in the fiscal year 2015 budget will 
enable ITIA, and specifically SelectUSA, to help more states and 
regions attract additional investments and create more jobs.
    Funding requested for ITIA includes $15 million, a $7.7 million 
increase from fiscal year 2014, to accelerate operations of the 
Interagency Trade Enforcement Center (ITEC), an interagency effort to 
address unfair trade practices and barriers to boost U.S. exports, and 
$20 million, a $13 million increase from fiscal year 2014, to expand 
SelectUSA.
    The budget includes $4 million for the Bureau of Economic Analysis 
(BEA) to improve the measurement and understanding of U.S. foreign 
direct investment in support of the SelectUSA initiative. The 
additional funds will support increased export promotion activities in 
underserved markets around the world. The budget also supports the 
administration's BusinessUSA initiative, a one-stop shop to connect 
business with Federal Government resources more effectively and 
efficiently.
    The budget includes $111 million for the Bureau of Industry and 
Security (BIS), a $9 million increase, to enforce our export control 
laws to ensure that our national security is protected even as we 
foster trade. This will support BIS's continuing work on export control 
reform, which will help advance national security and economic 
competitiveness by better focusing U.S. controls on transactions to 
destinations or end users of concern, while facilitating secure trade 
for controlled items with U.S. allies and close partners by expanding 
export control officers operations, enhancing current intelligence 
efforts, and expanding the bureau's national enforcement and analytical 
capabilities.
                          spurring innovation
    Much of what makes America unique is our spirit of innovation and 
entrepreneurship. Today, the United States has 6 million workers 
employed in technology and the highest concentration of knowledge and 
technology intensive industries in the world, representing 40 percent 
of our GDP.
    To foster a more innovative U.S. economy, the budget will support 
increased regional and national capacity for innovative manufacturing, 
continue to support research and development (R&D) that leads to 
transformative changes in technology, promote intellectual property 
policy that supports innovation, and continue to strengthen the 
Nation's digital economy.
    The budget provides $141 million, a $13 million increase over the 
fiscal year 2014 enacted level, for the Hollings Manufacturing 
Extension Partnership (MEP), with an increased focus on expanding 
technology and supply chain capabilities to support technology adoption 
by smaller manufacturers to improve their competitiveness.
    The budget also provides $15 million for the Advanced Manufacturing 
Technology Consortia (AMTech), a public-private partnership that will 
support industry-led consortia developing technologies to address major 
manufacturing challenges faced by American businesses. The 
administration has also launched four manufacturing institutes to date 
and is planning to launch at least four additional manufacturing 
institutes in 2014 utilizing existing Federal funding.
    The budget provides $680 million for the National Institute of 
Standards and Technology (NIST) laboratories, an increase of $29 
million over fiscal year 2014, to accelerate advances in top research 
priorities, including advanced manufacturing, forensics, cybersecurity 
and disaster resilience, and improved scientific facilities. Included 
in this amount is $6 million for NIST to accelerate and expand 
technology transfer across the Federal Government, which will enhance 
the competitiveness of U.S. industry by sharing innovations and 
knowledge from Federal labs. NIST contributes to the success of 
businesses on issues ranging from cybersecurity to advanced 
manufacturing. This funding will enable NIST to continue to support 
economic growth in the future.
    To continue expanding broadband capacity and promoting policies to 
ensure a free and open Internet, the budget requests a total of $51 
million for the National Telecommunications and Information 
Administration (NTIA), an increase of $5 million over fiscal year 2014. 
This increase will support increasing wireless broadband access and 
critical telecommunications policy coordination.
    The budget includes $210 million for the Economic Development 
Administration (EDA) to support innovative economic development 
planning, regional capacity building, and capital projects. This 
includes $25 million for the Regional Innovation Strategies Program to 
promote economic development projects that spur entrepreneurship and 
innovation at the regional level. This investment will make our Nation 
and communities more competitive.
    The budget also includes $28.3 million for the Minority Business 
Development Agency (MBDA) that will enable the agency to continue 
supporting the national growth of minority-owned U.S. businesses, with 
additional focus on impacting regional economies and expanding into new 
markets. Minority owned firms make a significant and valuable 
contribution to our economy and export at a higher rate compared to all 
U.S. firms. This investment will promote further growth.
    Through implementation of the America Invents Act, the U.S. Patent 
and Trademark Office (USPTO) continues to make it easier for American 
entrepreneurs and businesses to bring their inventions to the 
marketplace sooner, converting ideas into new products and new jobs. 
Last year alone, the USPTO received more than 35,000 design patent 
applications and recently commemorated its 700,000th design patent. 
PTO's estimated fee collections in fiscal year 2015 are $3.4 billion.
    The budget also proposes several legislative reforms designed to 
improve the transparency and efficiency of the American patent system, 
complementing a series of administrative actions the administration 
announced in June 2013, which will help protect innovators from 
frivolous litigation and ensure the highest-quality patents in our 
system.
                     fueling a data-driven economy
    Data powers the 21st century economy, and Commerce Department data 
touches every American and helps existing businesses make better 
decisions while also providing opportunities for more entrepreneurs to 
launch startups. The budget will support data-related efforts ranging 
from our preparations for the 2020 Census to unleashing more NOAA data 
through public-private partnerships. Each day, NOAA collects and 
produces 20 terabytes of environmental data--from weather forecasts to 
climate change to ocean currents. Yet, only a small percentage of this 
valuable data, roughly two terabytes, is made easily accessible to the 
public.
    The budget includes $754 million, an increase of $260 million over 
the 2014 enacted level, for the U.S. Census Bureau to research and test 
innovative design methods necessary to achieve an efficient and 
effective 2020 Decennial Census. The budget also requests $12 million 
to invest in the development of three Commerce statistical measures 
that will improve evidence-based decisionmaking across the Federal 
Government and the private sector. This includes $5 million for the 
Census Bureau to improve the supplemental poverty measure to allow for 
more fair and accurate indexing and analysis of poverty programs.
    The budget also includes $5 million for the Census Bureau to 
increase access to critical business datasets and create a new field of 
research into the conditions and outcomes of business investments in 
research, development, and innovation by expanding existing data 
projects. An additional $2 million within BEA will initiate ``Big Data 
for Small Business,'' a new data program that will collect a Small 
Business GDP measure to support decisionmaking by business owners and 
investors as well as small business analyses.
           gathering and acting on environmental intelligence
    The President's budget makes crucial investments in our 
environment, including efforts to protect our natural resources and to 
help businesses and communities adapt to a changing planet. Through our 
network of satellites, ships, and worldwide sensors, the Department 
generates models, assessments, forecasts, and tools that provide 
information to help communities and businesses prepare for and prosper 
in a changing environment. Importantly, the proposed budget will also 
keep our satellite programs on track by providing $2 billion to fully 
fund the National Oceanic and Atmospheric Administration's (NOAA's) 
next generation of weather satellites, which are critical to its 
ability to provide accurate information to decision-makers throughout 
the government and private sector, as well as time-sensitive weather 
forecasts and warnings that help protect lives and property. This 
includes $60 million to procure additional weather instruments for the 
polar program and helps address the robustness of the polar 
constellation.
    The budget requests $519 million for the National Ocean Service to 
make critical investments in products, services and capabilities that 
will improve the resilience of the Nation's coasts. The budget also 
requests $917 million for the National Marine Fisheries Service to 
conserve, protect, and manage living marine resources, including 
important increases for next-generation stock assessments, and 
electronic monitoring and coral reef protection.
                               conclusion
    The smart investments proposed in President's fiscal year 2015 
budget will support a globally competitive economy by promoting trade 
and investment, spurring innovation, fueling a data-driven economy, and 
gathering and acting on environmental intelligence. I look forward to 
working with the subcommittee to achieve these important goals.
                                 ______
                                 
      Prepared Statement of Hon. Todd J. Zinser, Inspector General
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee:
    I appreciate the opportunity to provide testimony today as you 
consider upcoming appropriations for the Department of Commerce. The 
President's fiscal year 2015 budget requests $12.2 billion for the 
Department, including $3.4 billion for U.S. Patent and Trademark Office 
(USPTO) user-fee financing. The Department plays a pivotal role in 
implementing the President's initiatives for economic recovery and job 
creation--and, like other Federal agencies, faces significant 
challenges in the upcoming year.
    We addressed these areas in our recent Top Management Challenges 
(TMC) report,\1\ which we prepare annually as required by the Reports 
Consolidation Act of 2000.\2\ Our TMC reports in depth what we 
consider, from our oversight perspective, to be the most significant 
management and performance challenges facing the Department:
---------------------------------------------------------------------------
    \1\ U.S. Department of Commerce Office of Inspector General, 
November 25, 2013. Top Management Challenges Facing the Department of 
Commerce, OIG-14-002. Washington, DC: DOC OIG.
    \2\ 31 U.S.C. Sec. 3516(d).

  --Challenge 1. Strengthen Commerce infrastructure to support the 
        Nation's economic growth.
  --Challenge 2. Strengthen oversight of National Oceanic and 
        Atmospheric Administration (NOAA) programs to mitigate 
        potential satellite coverage gaps, address control weaknesses 
        in accounting for satellites, and enhance fisheries management.
  --Challenge 3. Continue enhancing cybersecurity and management of 
        information technology investments.
  --Challenge 4. Exercise strong project management controls over 2020 
        Census planning to contain costs.
  --Challenge 5. Continue to foster a culture of management 
        accountability to ensure responsible spending.

    Today I will summarize several challenges facing the Department, 
based on recent and ongoing audits, evaluations, and investigations. 
Recently, the Secretary and Departmental leadership published a 
strategic plan for fiscal years 2014-2018. We consider the plan a 
significant achievement in establishing a framework for the diverse 
missions of the Department and its organizational units. The plan 
established 5 strategic goals: trade and investment, innovation, data, 
environment, and operational excellence. Much of our work addresses the 
goal of ``operational excellence,'' which will be the focus of our 
testimony.
addressing issues with national oceanic and atmospheric administration 
                   (noaa) weather satellite programs
    The Department must actively manage risks associated with the 
acquisition and development of the next generation of NOAA 
environmental satellites, as they are its largest investments at more 
than 20 percent of its $8.8 billion budget request. The Joint Polar 
Satellite System (JPSS) program's challenge is to keep JPSS-1 
development on track to meet its second quarter fiscal year 2017 launch 
schedule--while taking steps to mitigate a potential data gap in the 
afternoon polar orbit, as well as implementing NOAA's Independent 
Review Team recommendations to make the constellation more robust. The 
Department must also ensure that the Geostationary Operational 
Environmental Satellite-R Series (GOES-R) program continues to meet 
requirements within its long-standing cost and schedule baselines for a 
launch readiness date of October 2015 for the first satellite.
    Of note, NOAA has improved its communication with stakeholders, as 
well as the efficacy of satellite program leadership and staffing, and 
developed a comprehensive polar satellite data gap mitigation plan.
Mitigating Potential JPSS Coverage Gaps
    In its fiscal year 2015 budget submission, NOAA requested $916.3 
million for its JPSS program, reporting that the $95 million increase 
from the prior year would not change the program's life-cycle cost of 
$11.3 billion through fiscal year 2025. The first JPSS-developed 
satellite (JPSS-1) is scheduled for launch no later than the second 
quarter of fiscal year 2017.
    The JPSS program must successfully execute to cost, schedule, and 
performance baselines established August 1, 2013. The program must also 
ensure that flight and ground schedules are fully integrated for the 
JPSS-1 mission. NOAA leadership must also ensure the program is able to 
effectively manage ongoing development while responding to concerns 
about the robustness of program development activities (e.g., the need 
for spare parts for JPSS-1 and JPSS-2 instruments and spacecraft) and 
the need for further gap mitigation.
    NOAA has begun to mitigate potential degradation to weather 
forecasting capabilities during polar-orbit data coverage gaps through 
the use of supplemental funding it received as part of the Disaster 
Relief Appropriations Act, 2013. NOAA should ensure that its gap 
mitigation plan is executed before the November 2016 design-life end of 
Suomi National Polar-orbiting Partnership (NPP), a risk-reduction 
satellite launched in October 2011.
    Consistent with our September 2012 JPSS audit report,\3\ we 
continue to project a potential 10-16-month gap between Suomi NPP's end 
of design life and when JPSS-1 satellite data become available for 
operational use. NOAA's medium-range weather forecasting (3-7 days) 
could be degraded during the period of time JPSS data are unavailable, 
but NOAA must do more research using past and current weather events to 
determine the extent to which forecasts may be affected.
---------------------------------------------------------------------------
    \3\ DOC OIG, September 27, 2012. Audit of the Joint Polar Satellite 
System: Continuing Progress in Establishing Capabilities, Schedules, 
and Costs Is Needed, OIG-12-038-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    In March 2014, we learned that the JPSS program had revised its 
projections for a coverage gap between Suomi NPP and JPSS-1. During 
2013, the program analyzed the expected reliability of Suomi NPP and 
concluded that the potential gap had narrowed to 3 months or less. It 
also determined that, should Suomi NPP have an early failure, data or 
imagery loss would be partially mitigated by data provided by legacy 
satellites. Regardless of NOAA's revised gap projection, in the long 
term those legacy satellites can no longer be expected to function, 
leaving the JPSS constellation as the sole provider of key data from 
the afternoon polar orbit. This reinforces the need to make the 
constellation more robust, as recommended by NOAA's independent review 
team.
Managing GOES-R Program Issues With Launch Readiness and System 
        Development
    With four satellites (the -R, -S, -T, and -U series), the GOES-R 
program is estimated to cost $10.8 billion over the course of its life 
cycle. GOES-R, with scope and importance comparable to JPSS, has 
experienced development and budgetary challenges that could delay the 
launch readiness date of its first satellite from the first to the 
second quarter of fiscal year 2016.
    The GOES-R program must continue to manage its ground system, 
instrument, and spacecraft development to meet requirements within its 
long-standing cost and schedule baselines--and successfully complete 
the integration and test phase. In addition, the program must 
effectively manage activities between flight and ground projects in a 
compressed development schedule environment.
    In our 2013 GOES-R audit report,\4\ we found that schedule slips 
and a potential reduction in testing activities have raised concerns 
about the satellite's readiness to launch. Funding stability in fiscal 
year 2014 and beyond is the program's top risk; an appropriation amount 
below the fiscal year 2015 requested level may delay launch. For these 
reasons, one of our recommendations was that NOAA implement a 
comprehensive plan to mitigate the risk of potential launch delays and 
communicate to users (e.g., in the National Weather Service and 
Department of Defense) and other stakeholders (e.g., the 
Administration, Congress) the changes that may be necessary to maintain 
GOES-R's launch readiness date of 2015.
---------------------------------------------------------------------------
    \4\ DOC OIG, April 25, 2013. Audit of Geostationary Operational 
Environmental Satellite-R Series: Comprehensive Mitigation Approaches, 
Strong Systems Engineering, and Cost Controls Are Needed to Reduce 
Risks of Coverage Gaps, OIG-13-024-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    In a March 2014 memorandum \5\ to the NOAA Administrator, we shared 
our initial audit observations on the GOES-R core ground system 
development and made critical observations about the performance of 
NOAA and its contractor. We observed (1) poor planning assumptions, (2) 
inability to execute the first re-plan, and (3) inadequate transparency 
about progress. Further, we found that NOAA oversight and GOES-R 
program management did not sufficiently address problems with the first 
re-plan that could now lead to increased costs--and NOAA may have to 
launch a satellite without all of the core ground system capabilities 
implemented. Based on previous performance we believe that, without 
leadership's attention, the core ground system may not meet minimum 
requirements for launch in October 2015. As a result, we believe that 
the Under Secretary of Commerce for Oceans and Atmosphere and NOAA 
Administrator should establish periodic discussions with both 
Departmental and contractor leadership to ensure the core ground system 
will meet the October 2015 launch readiness date.
---------------------------------------------------------------------------
    \5\ DOC OIG, March 6, 2014. Interim Memo re: Audit of NOAA's 
Geostationary Operational Environmental Satellite-R Series Core Ground 
System, OIG-14-014-M. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
Ongoing OIG Investigation
    In mid-2013, OIG received an anonymous whistleblower tip about a 
team-building exercise conducted by the GOES-R ground segment project 
staff that was improperly billed to the Government. In our subsequent 
investigation, we found that 21 Government employees and consultants 
employed by private companies were invited to attend a group lunch at a 
local restaurant, followed by a daytime showing of Star Trek: Into 
Darkness. Twenty individuals working on the GOES-R ground project 
attended the lunch and 18 attended the movie; the vast majority of 
participants mischarged the Government for participating in these 
activities. As a result of our investigation, those participants worked 
with NOAA to amend their records to claim personal leave for time spent 
at the lunch and movie. As a result of our investigative activities, 
approximately $3,500 that was mischarged to the Government was 
returned. OIG suggested that clear written guidance on proper 
timekeeping be communicated to agency and contractor staff in advance 
of any similar work group outings. Commendably, one consultant made a 
self-disclosure that more time was spent at the offsite event than 
determined by the program office; OIG is currently looking into whether 
the amount returned is adequate.
    For further details, see Appendix A, ``Addressing Issues with NOAA 
Weather Satellite Programs.''
 managing the census bureau's 2020 decennial planning and other census 
                             bureau issues
    The 2020 decennial census, though years away, is a massive 
undertaking that requires extensive planning and testing. For 2020, the 
Census Bureau plans to design and conduct a high-quality decennial 
operation that will cost less per household on an inflation-adjusted 
basis than the 2010 Census. Research and testing for the 2020 Census 
must be completed early in the decade, to design a census that will 
meet congressionally-mandated deadlines and to succeed at the task of 
counting millions of people and housing units. Recent and ongoing OIG 
reports on the Census Bureau meeting these challenges concern decennial 
planning, design decisions, and integration of schedule and budget.
2020 Census Planning
    During our December 2013 evaluation \6\ of 2020 Census planning 
efforts to design a 2020 decennial census that costs less per household 
than the 2010 Census, we noted significant schedule slippage in the 
Census Bureau's key research and testing programs. If continued, missed 
deadlines will translate into an untenable continuation of an already 
expensive design. According to the Bureau, the cost (in constant 
dollars) of counting each housing unit in 2010 was $94--and could reach 
an estimated $148 if the same design is repeated for 2020. Using the 
same 2010 design, and assuming no changes in the number of housing 
units over the next 10 years, the 2020 Census would cost more than $19 
billion.
---------------------------------------------------------------------------
    \6\ DOC OIG, December 3, 2013. 2020 Census Planning: Research 
Delays and Program Management Challenges Threaten Design Innovation, 
OIG-13-003-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
2020 Census Design
    To reduce 2020 Census costs, the Bureau is conducting research that 
focuses on several design features, such as offering the Internet as a 
response option, conducting a targeted address canvassing operation, 
and using administrative records to follow up on cases of nonresponse.
    An ongoing challenge we have identified is the lack of an 
established schedule. The Census Bureau revises baselines (i.e., re-
baselines), which can mask delays and give the appearance that 
schedules are met. For example, major decision points for the 2020 
Census have been re-baselined several times, with original deadlines 
pushed back from September 2014 to September 2015 (see figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

2020 Census Integrated Schedule and Budget
    Last decade, OIG recommended that the Census Bureau integrate cost 
and schedule activities to enable managers to better track the status 
of available funds, as well as forecast impending underruns and 
overruns, so that funds can be reallocated promptly. In response, the 
Bureau planned to incorporate earned value management, a process that 
combines measures of a project's schedule and cost to forecast 
performance problems. As of March 2014, the Bureau had not incorporated 
earned value management into its activity schedules, limiting its 
ability to make decisions based on objective data.
    To effectively manage a program of the size, complexity, and cost 
of the 2020 Census--and assess the return on investment of research 
efforts--managers require accurate accounting records. However, we 
recently found that many Census Bureau staff stated that they are 
charging their time to projects based on budgeted hours rather than 
actual hours worked. Inadequate accounting of employees' actual work, 
as well as inaccurate project costs, hinder the Bureau's ability to 
assess the return on investment of research efforts. Additionally, 
these issues affect the Bureau's ability to make informed decisions 
about how to accomplish budget reductions.
Ongoing OIG Investigation
    OIG is currently reviewing allegations of survey data falsification 
within the Census Bureau's Philadelphia Regional Office. OIG received 
allegations of data falsification in 2010 related to activities in this 
region, which were investigated and subsequently returned to the Census 
Bureau in 2011 for appropriate action.
    In late 2013, a whistleblower contacted OIG and provided a related 
but new complaint, which was also covered in various media outlets. The 
most recent information we received also contained new allegations that 
the Philadelphia Regional Office, through the systemic falsification of 
survey data, attempted to manipulate the unemployment report in advance 
of the 2012 Presidential election. As a result, we opened a new 
investigation, which reviewed the allegations from 2010 and also 
significantly expanded the scope to include new information. We plan to 
release our public report in 2014.
    For further details, see Appendix B, ``Managing the Census Bureau's 
2020 Decennial Planning and Other Census Bureau Issues.''
                  enhancing departmental cybersecurity
    To deal successfully with cyber threats, the Department needs to 
establish a robust incident response capability, specifically within 
the Department of Commerce Computer Incident Response Team (DOC CIRT). 
In addition, the Department must deploy a sustainable implementation of 
its three enterprise-wide cybersecurity initiatives that are underway 
to continuously monitor its IT systems, provide cyber security 
situational awareness, and meet requirements to optimize and 
standardize its individual external network connections.
    While the Department is making progress in these areas, the 
challenge the Department faces--largely because of its highly 
fragmented operating environment--is to ensure productive collaboration 
among all bureaus to effectively improve the Department's cybersecurity 
posture.
Enhancing the Department's Cyber Incident Detection and Response
    The Department needs to establish a robust cyber incident response 
capability, specifically within DOC CIRT. Furthermore--because DOC CIRT 
primarily provides incident response services only to bureaus located 
at the Department's Herbert C. Hoover Building headquarters--ensuring 
productive collaboration among all bureaus is critical for the 
Department to effectively respond to a cyber event.
    OIG recently conducted an audit of the incident detection and 
response capabilities of several bureaus within the Department. Our 
audit complemented work already done by the Department and identified 
further improvements needed in its incident detection and response 
practices. Specifically, we tested Department public-facing Web sites 
by simulating a cyber event consisting of prolonged suspicious network 
traffic that mimics real-world hacking techniques and cyber attacks. We 
found that bureaus' actions in response to our suspicious network 
activities may not stop cyber attacks in a timely manner--and are 
recommending that the Department ensure that bureaus follow NIST 
guidance to take timely action in response to a potential cyber attack.
Implementing Enterprise Cybersecurity Initiatives
    We noted, in our fiscal year 2014 TMC report, that the Department 
has three enterprise cybersecurity initiatives underway to address 
mandates from the Office of Management and Budget (OMB). The Enterprise 
Cybersecurity Monitoring and Operations (ECMO) and Enterprise Security 
Oversight Center (ESOC) initiatives support OMB's mandate \7\ to 
continuously monitor security-related information from across the 
enterprise. The Trusted Internet Connections (TIC) initiative supports 
the mandate \8\ that Federal agencies optimize and standardize their 
individual external network connections, including connections to the 
Internet. Collectively, these undertakings should significantly improve 
the Department's cybersecurity posture.
---------------------------------------------------------------------------
    \7\ Executive Office of the President Office of Management and 
Budget, April 21, 2010. Fiscal year 2010 Reporting Instructions for the 
Federal Information Security Management Act and Agency Privacy 
Management, Memorandum M-10-15. Washington, DC: OMB, 1.
    \8\ OMB, November 20, 2007. Implementation of Trusted Internet 
Connections (TIC), Memorandum M-08-05. Washington, DC: OMB, page 1. 
Also, see OMB, September 17, 2009. Update on the Trusted Internet 
Connections Initiative, Memorandum M-09-32. Washington, DC: OMB, 1.
---------------------------------------------------------------------------
    Timely implementation of these initiatives is crucial to the 
Department's cybersecurity program, particularly in light of the ever-
increasing cyber threats facing government systems. The ECMO and ESOC 
initiatives are critical to maintaining cybersecurity best practices to 
protect network components, implementing continuous monitoring, and 
providing timely cyber situational awareness across the Department. 
Thus, the Department needs to ensure that current efforts for these 
initiatives move forward as planned and that operating units cooperate 
and participate to the fullest extent. The Department projects 
spending, from the fiscal year 2015 working capital fund, $4.2 million 
for each of the ECMO and ESOC initiatives (for a total of $8.4 
million).
    Our recent audit of the Department's incident detection and 
response practices included four bureaus that have complied with the 
TIC initiative through a Managed Trusted Internet Protocol Services 
(MTIPS) provider. We found that these bureaus are not realizing the 
full benefits of incident detection and response capabilities provided 
by MTIPS. The bureaus are not working with the MTIPS provider to more 
effectively use MTIPS services to supplement their security operations 
center capabilities to fill gaps in monitoring coverage during 
nonbusiness hours. Furthermore, only one bureau is exploring 
opportunities to leverage MTIPS security services to reduce or 
eliminate services that are currently handled by the bureau.
Ongoing OIG Work
    As part of our annual Federal Information Security Management Act 
audit work, we are assessing the effectiveness of NOAA's IT security 
program by determining whether key security measures adequately protect 
its mission capabilities supported by the National Environmental 
Satellite, Data, and Information Service (NESDIS) and the National 
Weather Service (NWS). The assessments focus on NESDIS' Polar-orbiting 
Operational Environmental Satellites (POES), Geostationary Operational 
Environmental Satellites (GOES), Joint Polar Satellites System (JPSS), 
Environmental Satellite Processing Center (ESPC), Search and Rescue 
Satellite Aided Tracking (SARSAT), and NWS' Aviation Weather Center 
(AWC), Space Weather Prediction Center (SWPC), Storm Prediction Center 
(SPC), National Hurricane Center (NHC), and National Centers for 
Environmental Prediction (NCEP) Central Operations. We are currently 
making recommendations to address weaknesses we found during our 
assessments.
    For further details, see Appendix C, ``Enhancing Departmental 
Cybersecurity.''
                        reducing uspto backlogs
Reducing Patent Backlogs
    USPTO, as the authority for reviewing and adjudicating all patent 
and trademark applications, must continue to focus on issues with the 
time applicants wait before their patent applications or appeals are 
reviewed. Its longstanding challenge has been to reduce backlogs of new 
patent applications, Patent Trial and Appeal Board (PTAB) ex parte 
appeals, and requests for continued examination (RCEs). As it works to 
reduce its patent backlog and pendency--while meeting the requirements 
of the 2011 American Invents Act (AIA)--USPTO must ensure that the 
quality of its patent examination process is not adversely affected and 
to avoid requiring applicants and the public to file unnecessary and 
costly challenges to examiners' decisions.
    Since we issued the fiscal year 2014 TMC report in November 2013, 
the new application backlog has increased to 604,700 (as of February 
2014). The patent appeals backlog--which we reported on in our 2012 
audit \9\--has begun to slowly decrease and, as of November 2013, 
stands at approximately 25,000, still almost twice the size of the 
backlog in October 2010.
---------------------------------------------------------------------------
    \9\ DOC OIG, August 10, 2012. USPTO's Other Backlog: Past Problems 
and Risks Ahead for the Board of Patent Appeals and Interferences, OIG-
12-032-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    However, USPTO's backlog for requests for continued examination 
(RCE) has experienced the most variability, growing from 17,800 
applications in October 2009 to approximately 78,000 in September 2013, 
an increase of more than 340 percent. As a consequence, during the same 
period, the average waiting time between filing an RCE and receiving an 
initial decision has grown from 2.1 to 7.8 months. From the beginning 
of the fiscal year until February 2014, the RCE pendency has decreased 
to 6.9 months, but the RCE backlog still hovers near 80,000. (For 
further details on backlogs and pendency over the last 5 full fiscal 
years, see table 1. Pendency statistics as of February 2014 may reflect 
month-to-month variations; as a result, we cannot determine an overall 
trend for fiscal year 2014.)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The goal of AIA is to allow USPTO to process patent applications 
faster, reduce the patent backlog, increase patent quality through 
expedited patent challenges, and improve examiner recruitment and 
retention. AIA includes fundamental revisions to patent laws and USPTO 
practices, such as moving to a ``first inventor to file'' patent 
process to align the U.S. system with others worldwide, granting the 
agency authority to set and retain fees to ensure it has sufficient 
resources for its operations, and establishing satellite offices. The 
law also introduced new avenues for the public to challenge granted 
patents and replace previous options deemed inefficient. In September 
2013, OIG issued a report \10\ on the status of USPTO's efforts to 
implement the provisions of AIA and found that most were successfully 
implemented. As of March 26, 2014--more than 2 years since AIA's 
enactment--USPTO successfully implemented 29 of the 35 provisions they 
were responsible for on-time; 4 are not yet due, and 2 are overdue.
---------------------------------------------------------------------------
    \10\ DOC OIG, September 30, 2013. USPTO Successfully Implemented 
Most Provisions of the America Invents Act, but Several Challenges 
Remain, OIG-13-032-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
Ongoing OIG Work
    Modernizing IT and managing high-risk contracts at USPTO. As part 
of our fiscal year 2014 work plan, we are auditing USPTO's IT 
modernization projects. Our audit objectives are to:
  --Assess the impact of IT contract termination decisions made as a 
        result of the $110 million IT budget reduction, as well as the 
        appropriateness of project funding in the reduced budget 
        environment.
  --Review the progress USPTO has made in implementing the 
        recommendations from OIG's fiscal year 2011 Patent End-to-End 
        (PE2E) audit \11\--specifically, the technical progress it has 
        achieved to date, its use of the Agile methodology, and its 
        plans for future PE2E development.
---------------------------------------------------------------------------
    \11\ DOC OIG, September 29, 2011. Patent End-to-End Planning and 
Oversight Need to Be Strengthened to Reduce Development Risk, OIG-11-
033-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
  --Assess the project management and technical progress USPTO has made 
        in its development and implementation of the Trademark Next 
        Generation project, including its use of the Agile methodology.
    Examining USPTO use of high-risk contracts. We have also initiated 
an audit of USPTO's management of T&M/LH contracts, which constitute 
high risk to the Government.\12\ In fiscal year 2013, USPTO obligated 
approximately $572 million on contracts for goods and services; our 
objective is to determine whether its T&M/LH contracts are properly 
awarded and administered.
---------------------------------------------------------------------------
    \12\ This audit is part of our risk-based oversight strategy 
developed to help the Department address management challenges in its 
acquisition function; for more on high-risk contracts, see ``Incurring 
risk from the use of high-risk contracts'' in the ``Managing the 
Department's Finances, Contracts, Grants, and Operations'' section of 
this testimony.
---------------------------------------------------------------------------
Ongoing OIG Investigation
    We are looking into the work activities of paralegals in USPTO's 
Patent Trial and Appeals Board (PTAB), many of whom were brought on 
board in anticipation of the hiring of additional administrative law 
judges. In 2008, USPTO had planned to significantly increase the number 
of judges in PTAB, in order to help reduce the backlog of appeals being 
reviewed by the Board. According to USPTO, due to budget reasons, 
judges were not hired according to plan; in 2013, OIG received a 
whistleblower complaint alleging that paralegals were not being 
assigned an adequate workload to occupy a full-time schedule. We 
referred this matter to USPTO management, which conducted an 
administrative inquiry and found that--over the 4.5 years from October 
2008 to May 2013--approximately $4 million dollars was billed to 
nonproduction time. After completion of USPTO's inquiry, we 
subsequently initiated a follow-up analysis and expect to release a 
public report this later in 2014.
    For further details, see Appendix D, ``Reducing USPTO Backlogs and 
Other USPTO Issues.''
 managing the department's finances, contracts, grants, and operations
Department-Wide Oversight
    Challenges to the Department's operational excellence include 
controls over budgetary resources, procurement, and overall financial 
management. Departmental leadership is addressing a number of related 
issues, including (A) the management of appropriated funds, (B) the 
Department's and bureaus' unliquidated obligations, (C) funds spent on 
conferences, (D) funds spent on premium class travel, (E) modernizing 
the enterprise financial management system, (F) the Department's 
working capital fund, and (G) other obligations, including contracts 
and grants.
    A. Addressing the unauthorized reprogramming of funds. In response 
to hotline complaints about mismanagement of appropriated funds within 
NOAA's National Weather Service (NWS) in 2010 and 2011, the Department 
conducted a review that highlighted mismanagement of budgetary 
resources throughout NWS. The Department found significant management, 
leadership, budget, and financial control problems at NWS. Following 
the release of the report on its review, the Department identified 
specific actions for correcting the conditions that led to the report's 
findings. The Department also reported related Antideficiency Act 
violations.
    In our September 2013 review \13\ of these actions, we found that 
the Department and NOAA have taken steps to address the findings 
identified in the Department's internal inquiry and completed many 
action items, but that additional work was needed to complete several 
key action plan items to ensure proper stewardship of funds and 
compliance with laws and regulations. Although several actions needed 
to be finalized or added, the Department has made progress in 
addressing most of the original action items related to these budget 
issues. In addition to its existing action plan items, we specifically 
recommended that the Department document an analysis of NOAA's 
financial management leadership that addresses improper past practices 
and how the current leadership team can provide effective financial 
management direction. Continued Departmental leadership attention is 
essential to ensuring a culture of transparency, accountability, and 
effective oversight.
---------------------------------------------------------------------------
    \13\ DOC OIG, September 13, 2013. Status of Departmental Actions to 
Correct National Weather Service Mismanagement of Funds, OIG-13-029-1. 
Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    B. Monitoring the Department's obligation balances. Our June 2013 
report \14\ on the Department's controls over the management and 
closeout of obligation balances as of December 31, 2011, found 
inconsistent policies and processes, as well as inadequate monitoring 
activities. Specifically, we found original obligation balances that 
could not be verified, accounting records that did not accurately 
reflect Department obligations, bureaus that did not know the status of 
its obligations, and improperly liquidated contract obligations.
---------------------------------------------------------------------------
    \14\ DOC OIG, June 20, 2013. Monitoring of Department's Obligation 
Balances Needs Strengthening, OIG-13-026-A. Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    As a result of our work, we estimated that the amount of 
unliquidated obligation balances that the Department needed to 
deobligate was $159 million as of December 31, 2011. The Department did 
not have adequate internal controls, policies, and procedures to ensure 
that bureau obligations were adequately monitored and deobligated when 
appropriate. To address these challenges, the Department's financial 
management and acquisitions units agreed to (1) issue joint final 
guidance on monitoring open obligations to their respective communities 
and (2) include routine obligation monitoring as a discussion topic 
during annual finance and acquisition training sessions. The guidance 
has not yet been finalized.
    C. Overseeing conference spending. Since fiscal year 2012, the 
Department has developed and updated conference-related guidelines. 
These guidelines pertain to events that either require Office of the 
Secretary pre-approval or entail the Department or one of its bureaus 
to represent itself publicly as a host or co-host. The Department must 
continue to be transparent and responsive in its efforts to avoid 
conference mismanagement or missteps similar to those resulting in our 
recent audit report covering conferences hosted by NIST's Manufacturing 
Extension Partnership (MEP) program.
    In response to a congressional request, we audited NIST-MEP 
conference spending to develop a reasonable cost estimate of the 2012 
NIST-MEP annual conference held in Orlando and determine the legitimacy 
and reasonableness of travel costs for major conferences in fiscal 
years 2011 and 2012.\15\ OIG found that, for conferences held in fiscal 
years 2011 and 2012, NIST-MEP lacked adequate controls over much of its 
conference spending. We concluded that a NIST-MEP event planner 
retained concessions and benefits that could have been used to reduce 
the fiscal year 2012 conference's $1.1 million cost--$700,000 of which 
was spent by NIST-MEP. We recommended that NIST-MEP make a 
determination on the recovery of $148,000 that its event planner 
collected for sponsorship fees and more than $88,000 that the planner 
retained for both registration fees and a concession refund. Similarly, 
an evening reception, paid for with funds raised through the sale of 
sponsorships at the same conference, was held in lieu of reducing the 
overall cost. Further, NIST-MEP agreed to room rates for Government 
attendees that exceeded allowable maximum conference lodging rates in 
order to standardize rates for Government and nongovernment attendees, 
essentially subsidizing lodging costs to nongovernment attendees.
---------------------------------------------------------------------------
    \15\ DOC OIG, February 21, 2014. Manufacturing Extension 
Partnership Incurred Avoidable Conference Costs, OIG-14-013-A. 
Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    D. Overseeing premium travel spending. We recently examined fiscal 
year 2012 information on the Department's total premium-class travel 
approved for flight time in excess of 14 hours, as well as for medical 
disability, which totaled nearly $1.4 million. The difference in cost 
between premium and coach fares for travel due to flight time in excess 
of 14 hours was approximately $540,000, while the cost difference due 
to medical disability was approximately $475,000. With the serious 
fiscal challenges requiring Federal Departments to operate as 
efficiently as possible, we advised the Department to (1) collect, 
analyze, and report data on premium-class travel on a periodic basis to 
the Office of Commerce Services and (2) examine ways to reduce premium 
travel costs. Additional OIG work in this area of the Department's 
operations will focus on premium-class travel, specifically on the 
effectiveness of controls over approving exceptions to premium-class 
travel restrictions.
    E. Updating the enterprise financial management system. The 
financial control problems at NWS highlight the Department's need to 
implement stricter control over funds Department-wide. A lack of 
centralized data systems poses reporting and oversight challenges to 
the Department, such as effectively reporting financial data and 
monitoring financial activity across its bureaus.
    The Department and most of its bureaus use a financial system 
developed with aging technology and augmented with in-house software 
that is increasingly difficult to maintain. This system currently 
addresses core financial accounting, financial management, grants 
management, acquisition management, and property management. However, 
limitations such as high support costs and a lack of system integration 
and lack of centralized reporting capability impede the Department's 
ability to oversee and manage Department-wide financial activities.
    The Department plans to replace these legacy systems--collectively 
known as the Commerce Business System (CBS)--with Business Application 
Solutions (BAS), a commercially available system, by fiscal year 2018. 
The Department requested nearly $40 million to support BAS 
implementation activities in fiscal year 2015. While the Department has 
provided OIG with regular updates on the status of this modernization 
project, significant challenges remain because (1) the implementation 
schedule is aggressive; (2) the Census Bureau must be successfully 
converted prior to the 2020 decennial; (3) BAS will be hosted by a 
shared-service provider; (4) separate component systems will need to 
interface with BAS; and (5) adequate funding is needed.
    F. Managing the working capital fund. On March 28, 2014, we issued 
a draft report covering billing control issues related to the Office of 
the Secretary's working capital fund (WCF). This fund provides 62 
services throughout the Department valued at nearly $150 million 
annually. Our audit addressed issues on whether the Office of the 
Secretary's Financial Management Directorate charged customers using 
the correct billing rates and in accordance with Departmental 
guidelines. For 10 of the projects reviewed, we found that the Office 
of the Secretary Financial Management Directorate did not use current 
billing rates and/or the service providers did not have accurate 
supporting documentation for amounts charged to the customers. This 
problem was most noteworthy within the Office of General Counsel. 
Consequently, the customers receiving services from these projects were 
not billed correctly. We recommended that the Department require a 
process for all WCF service providers to capture and retain supporting 
documentation that accurately reflects the level of services provided 
to customers, and that the Office General Counsel develop an automated 
process to track attorney time, by customer and services provided. We 
provided the Department with our draft results and will issue our final 
report later in 2014.
    G. Administering high-risk contracts and grant awards. In fiscal 
year 2013, the Department obligated about $2.3 billion for goods and 
services that include satellite acquisitions, intellectual property 
protection, broadband technology opportunities, management of coastal 
and ocean resources, information technology, and construction and 
facilities management. Although the Department's spending requirements 
for goods and services have not diminished, available funding resources 
likely will remain uncertain. For this reason, the Department must 
maintain the workforce needed to carry out robust and thorough 
oversight of contracts to help program management achieve goals, avoid 
significant overcharges, and curb wasteful spending.\16\ Continuing to 
address high-risk contracts and maintaining a qualified acquisition 
workforce will enable better management of the Department's day-to-day 
spending.
---------------------------------------------------------------------------
    \16\ The President has acknowledged contract oversight as a Federal 
Government-wide priority; see The White House, Office of the Press 
Secretary, March 4, 2009, Memorandum for the Heads of Executive 
Departments and Agencies: Government Contracting.
---------------------------------------------------------------------------
    OIG also provides oversight of the Department's management of more 
than 70 programs authorized to award grants or cooperative agreements. 
Each program has its own rules, regulations, and eligibility 
requirements. In addition, OIG provides oversight to the National 
Telecommunications and Information Administration's management of the 
Department's most significant grant-awarding initiative over the last 5 
years, the Broadband Technology Opportunities Program (BTOP). Of the 
Department's grants programs, BTOP entails the most challenging awardee 
spending issues.
    Incurring risk from the use of high-risk contracts. In July 2009, 
the Office of Management and Budget's (OMB's) Office of Federal 
Procurement Policy issued contracting guidance to chief acquisition 
officers and senior procurement executives. The guidance--stating that 
time and materials/labor hour (T&M/LH) contracts, cost-reimbursement 
contracts, and noncompetitive contracting pose special risks of 
overspending--directed agencies to reduce by at least 10 percent the 
use of high-risk contracting authorities for new contract actions. For 
fiscal year 2013, the Department reported that it exceeded its goals in 
reducing the dollar amount of high-risk contracts, and it continues to 
track its goal based on OMB's 2009 guidance. However, our audit results 
indicate that a critical challenge remains in the use of high-risk 
contracts.
    In a report issued in November 2013,\17\ we reported weaknesses in 
the awarding and administering of T&M/LH contracts. We found that 
Departmental contracting officers did not award T&M/LH contract actions 
in accordance with the requirements of the Federal Acquisition 
Regulation and the Commerce Acquisition Manual. T&M/LH contracts are 
considered high-risk because the contractor's profit is tied to the 
number of hours worked. We also noted that contract actions in our 
sample were incorrectly coded in the Federal Procurement Data System 
(FPDS).
---------------------------------------------------------------------------
    \17\ DOC OIG, November 8, 2013. The Department's Awarding and 
Administering of Time-and-Materials and Labor-Hours Contracts Needs 
Improvements, OIG-14-001-A. Washington, DC: OIG.
---------------------------------------------------------------------------
    The Department's challenge is to better monitor and evaluate its 
T&M/LH contracts through the acquisition review board and investment 
review board processes, which are used to manage the Department's major 
acquisitions of goods and services. A further challenge it faces is to 
improve the processes for entering accurate and complete data in FPDS. 
Effective implementation of the Department's measures will be crucial 
to ensuring that the Department properly awards, administers, and 
reports high-risk T&M/LH contracts.
    Tightening controls over use of Federal funds by award recipients. 
Grant oversight requires that recipients of awards meeting certain 
dollar thresholds submit either a Circular A-133 single audit report or 
a program-specific audit report. For the period January 1, 2011--
December 31, 2013, these programs issued approximately 4,166 awards 
amounting to $3.8 billion. We review an average of 350 finding reports 
a year; of those, about 8 percent will have significant procedural or 
internal control findings. These types of awards pose particular 
oversight challenges for the Department. OIG continues to review these 
audit reports to identify trends in findings across bureau programs, as 
well as to monitor whether findings are resolved in a timely manner. 
Twice annually, we provide the Department an analysis of our review's 
results and post it on our Web site.
    Table 2 presents averages of the single audit and program-specific 
audit reports that OIG reviewed during the period January I, 2011--
December 31, 2013, the number of material findings, and amounts of 
questioned costs and funds to be put to better use reported. We have 
noted a problematic indicator in the Economic Development 
Administration's (EDA's) revolving loan fund program, NTIA's BTOP, and 
the National Institute of Standards and Technology's (NIST's) Advanced 
Technology/Technology Innovation Program. It is important that all 
Departmental program and grants management offices review these 
findings and implement internal controls to address the root causes of 
the findings, which may require program or grant operations changes in 
order to improve grant recipients' compliance with laws and 
regulations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    To improve controls over award recipients' use of Federal funds, 
bureaus need to review these single audit and program-specific audit 
reports and take action on the report findings.
    Ongoing OIG investigation into NOAA grants. As a result of a 
whistleblower's disclosures to OIG, we are currently looking into 
grants issued by NOAA to nine National Estuarine Research Reserve 
System (NERRS) facilities for approximately $1 million. In January 
2013, Congress appropriated $7 million to NOAA ``to repair and replace 
ocean observing and coastal monitoring assets damaged by Hurricane 
Sandy.'' The whistleblower, whose identity is being protected by OIG, 
alleged that a NERRS facility applied for and was awarded grant funds 
even though their equipment was not damaged by Hurricane Sandy, as 
required under the law. Our public report will be released in 2014.
Agency Oversight
    Managing Broadband Technology Opportunities Program (STOP) award 
closeouts. With approximately $3.9 billion in grant awards, the 
Recovery Act-funded BTOP represents the Department's largest grant 
program over the last 5 years. Of the Department's grants programs, 
BTOP entails the most challenging awardee spending issues.
    As of March 17, 2014, about 15 percent of BTOP funds remain to be 
disbursed--and only 21 of 224 projects had been closed, with another 
174 in the closeout process and 29 (representing about $900 million in 
awards) remaining active. Some of these awards have been extended to 
September 30, 2015. Management must remain committed to monitoring BTOP 
recipient compliance with grant award terms and achievement of intended 
benefits as the program nears completion.
    Addressing concerns with BTOP grants' closeout process. The audit 
closeout process \18\ calls for particular attention. OIG's December 
20, 2013, report \19\ identified that BTOP's award closeout process (a) 
is taking longer than expected, particularly with infrastructure 
projects and (b) could be improved by strengthening closeout policies 
and procedures and ensuring the consistent implementation of those 
policies and procedures in place. NTIA and the grants offices (NOAA and 
NIST) supporting NTIA in the implementation of BTOP have taken or are 
in the process of taking to strengthen the closeout process.
---------------------------------------------------------------------------
    \18\ This process entails the award recipient and the grants office 
ensuring that project activity is complete and the award recipient has 
met all the requirements under applicable laws, regulations, OMB 
circulars, and award terms and conditions.
    \19\ DOC OIG, December 20, 2013. Closeout Procedures for the 
Broadband Technology Opportunities Program Need Strengthening, OIG-14-
010-A. Washington, DC: OIG.
---------------------------------------------------------------------------
    Answering congressional questions about a BTOP awardee. Recently 
completed and ongoing audit work has indicated the need for continued 
management attention to awards that remain open and significant issues 
that they entail. On May 9, 2013, we received a request from the House 
to review a $100.6 million grant that BTOP awarded to EAGLE-Net 
Alliance (ENA). In responding to questions relating to the grant in a 
January 23, 2014, letter, our review found that the revised project 
will involve additional miles of constructed and leased fiber, with 
some of the completed fiber being laid in proximity to existing fiber. 
In addition, we found that two-thirds of the grant funds had been spent 
before NTIA addressed problems that led to suspension of the award in 
December 2012. Further, ENA faces challenges that include the project's 
ability to fully achieve the award's intended results (e.g., 
connections will be achieved with only 131 of 223 intended community 
institutions) and continued internal control issues.
    Examining issues with BTOP equipment acquisitions. Previous OIG 
oversight identified BTOP equipment (e.g., fiber, base tower stations, 
switches, microwave radio equipment) as a concern. As a result, we 
initiated a review with objectives to determine whether NTIA has the 
personnel and processes in place to monitor grantees' equipment 
acquisitions and assess whether grantees have appropriately acquired, 
tested and implemented the most effective equipment. As part of this 
review, we performed site visits of six recipients of BTOP awards for 
deploying broadband. On March 24, 2014, we issued a draft report to 
NTIA that credits the agency with establishing processes to monitor 
recipient's implementation of awards--but identifies weaknesses in 
grantee acquisition and implementation of equipment and recommends 
steps to improve NTIA's oversight controls.
    Supporting International Trade Administration (ITA) export programs 
under a new organizational structure. Promotion of U.S. exports is a 
critical mission of the Department. For fiscal year 2015, the 
Department has requested $497 million to support export promotion and 
regulation. ITA's U.S. and Foreign Commercial Service, within the 
Global Markets business unit, provides a broad range of services and 
counseling to U.S. exporters; other ITA business units--such as 
Enforcement and Compliance, as well as Industry and Analysis--enforce 
trade agreements and protect domestic industries such as manufacturing 
and textiles.
    ITA's challenge is to complete its internal reorganization. 
Effective October 1, 2013, the Department consolidated ITA's four 
existing business units into three to eliminate overlapping functions 
and streamline operations. ITA states that the functional realignment 
will consolidate regional expertise, strengthen industry expertise and 
strategic partnerships, and consolidate trade agreement compliance and 
trade law enforcement. In February 2014, we initiated an audit of ITA's 
consolidation to evaluate its progress, assess whether any cost savings 
have been realized, and identify any remaining challenges to this 
effort.
    Reforming Bureau of Industry and Security (BIS) export control. The 
United States' export control system is distributed among several 
different licensing and enforcement agencies. Within the Department of 
Commerce, the Bureau of Industry and Security (BIS) administers and 
enforces the Export Administration Regulations, which apply to 
controlled dual-use items and technology. These regulations serve to 
support and advance the national security, foreign policy, 
nonproliferation, and short supply interests of the United States. BIS' 
two primary functions, licensing and enforcement, are handled by Export 
Administration and Export Enforcement, respectively.
    The Export Control Reform (ECR) Initiative, launched in April 2010, 
is a three-phase effort to streamline the Nation's export control 
system by consolidating the export control efforts of multiple Federal 
agencies. As part of the export control reform, BIS has begun assuming 
increased licensing and enforcement responsibilities for former 
munitions items that have moved under Department of Commerce 
jurisdiction. The challenge for BIS will be to ensure that it has 
adequate licensing and enforcement resources to handle its new 
responsibilities.
    In May 2013 we initiated an audit in response to a congressional 
request and as part of our annual audit plan. Our objectives were to 
(1) review the adequacy of BIS' program plans and budget requests to 
address the increased workloads for licensing, outreach, and 
enforcement activities in fiscal years 2014 through 2016 and (2) 
evaluate existing BIS licensing, outreach, and enforcement activities 
and identify any areas for increased efficiencies. We focused our 
analysis on areas of BIS most affected by ECR--namely its licensing 
divisions, outreach office, and enforcement offices (excluding 
antiboycott compliance).
    On March 19, 2014, as a result of our fieldwork--and in response to 
a whistleblower complaint--we issued a memorandum to the BIS Under 
Secretary and the Department of Commerce's Chief Information Officer 
expressing our concerns with BIS' compliance with the Presidential 
directive to consolidate its export licensing system with the 
Department of Defense's U.S. Export Systems (USXPORTS) automation 
initiative. The Department of Commerce, in response to our memorandum, 
scheduled a May 1, 2014, Commerce IT Review Board meeting to discuss 
the status of BIS migration.
    Addressing issues with NOAA satellite accounting. Over the past 3 
fiscal years, the accounting firm KPMG noted several significant 
control weaknesses at NOAA related to accounting for satellites. 
Specifically, KPMG identified that NOAA in fiscal year 2013 incorrectly 
classified a satellite instrument not operational at year end as 
completed property. This error resulted in a $125 million adjustment to 
correct property values originally recorded by NOAA. In addition, NOAA 
capitalized all costs associated with JPSS without review to ensure 
that only capitalizable costs are included in construction work-in-
progress. Further, KPMG identified that NOAA did not receive and review 
the supporting documentation for $182.6 million in costs included in 
intragovernmental payments.
    Managing NOAA real property leases. Senate Appropriations Committee 
Report 113-078, related to the fiscal year 2014 budget, stated that 
NOAA (a) has a large inventory of real property commercial leases being 
held over beyond their agreed occupancy and (b) had hundreds of real 
property leases expiring over the next 4 years that will likely go into 
holdover, unless NOAA took action. Regarding these issues, we collected 
information on over 2,500 real property leases from NOAA's inventory 
valued at over $166 million. As of February 2014, NOAA had 122 
properties with nearly $2 million in annual rent in holdover status. 
This represents a 31 percent reduction from the 177 lease holdovers 
NOAA reported in August 2012. NOAA must continue to address each of its 
existing holdover leases--and look ahead to those about to expire to 
ensure that these numbers do not rise.
 strengthening first responder network authority (firstnet) to support 
                            economic growth
Overseeing the First Responder Network Authority and the Implementation 
        of the Nationwide Public Safety Broadband Network
    The Middle Class Tax Relief and Job Creation Act (The Act), signed 
by the President on February 22, 2012, included language that allocated 
some existing public safety radio frequency spectrum--along with the 
``D-Block'' spectrum--and authorized $7 billion in funding for the 
establishment of an interoperable Nationwide Public Safety Broadband 
Network (NPSBN). To oversee the existing public-safety spectrum and 
deployment of the NPSBN, the law requires the establishment of an 
independent authority within NTIA called First Responder Network 
Authority (FirstNet).
    FirstNet faces several challenges as it works toward providing 
emergency responders with a high-speed network dedicated to public 
safety. The initial challenge to FirstNet is establishing an 
organizational structure with strong internal controls. Building an 
effective organization will be essential to meet the subsequent 
challenges it faces in establishing the NPSBN. Those include:
  --Fostering cooperation among various State and local public safety 
        agencies. Committing iterative effort to effective outreach and 
        forging cooperation will be essential to building the NPSBN and 
        obtaining participation from the public safety personnel the 
        network is designed to serve.
  --Integrating existing STOP grants into the NPSBN. FirstNet should 
        use four previously funded BTOP public safety wireless projects 
        \20\ as an opportunity to learn about telecommunications 
        network equipment, best practices for NPSBN deployment, and 
        other issues.
---------------------------------------------------------------------------
    \20\ Before the creation of FirstNet, NTIA made approximately $382 
million in grant awards to seven public safety projects to deploy 
public safety wireless broadband networks. On May 11, 2012, NTIA 
partially suspended these seven public safety projects. Subsequent 
negotiations were held to determine whether they would be beneficial to 
FirstNet; as a result, FirstNet established spectrum lease agreements 
with four of the seven public safety BTOP projects.
---------------------------------------------------------------------------
  --Creating a nationwide long-term evolution network. The limited 
        funds available to implement a nationwide network that meets 
        public safety grade standards will make implementation of NPSBN 
        a challenge, particularly in geographic areas that are not 
        profitable for commercial provider operations. To ensure a 
        cost-effective NPSBN implementation, FirstNet must identify 
        existing assets through coordination efforts.
    FirstNet held its first meeting in September 2012 and has since 
made certain key hires; established a headquarters in the Washington, 
DC, area; and awarded three contracts for technical support and one 
contract for general program management and acquisition support.
Ongoing FirstNet Oversight
    In October 2013, the FirstNet board requested that OIG take over 
the review of certain allegations concerning the board's procurements 
and potential conflicts of interest. We initiated an audit in November 
2013 with the objectives of assessing (1) the rationale used to support 
the decision for selecting time and material and sole-source contract 
types for the three contracts with a total ceiling price of 
$14,350,000; (2) whether those contracts were fairly awarded and 
appropriately administered; (3) whether the services purchased under 
those contracts met industry standards, and were consistent with the 
needs of the project; and (4) FirstNet's process of reviewing ethics-
related matters as they pertain to the board, as well as any associated 
ethical determinations. We expect to issue our report later in 2014. We 
are also following up on any specific issues relating to our audit.
    The subcommittee should be aware that, since FirstNet is not funded 
through appropriations, the Department, responding to OIG's request, 
agreed that OIG would submit a request to FirstNet for oversight 
funding, which we did in September 2013. While we are yet to receive 
any funding--and the details of the transfer have not been finalized--
we now understand that FirstNet intends to transfer funding sufficient 
for 3 full-time equivalents to OIG for the balance of fiscal year 2014. 
Without funding in First Net's authorizing legislation, OIG will be 
required to make annual requests for funding from FirstNet.
    resolving ethics and compliance issues raised by whistleblowers
    Over the past year, the Department has made progress in dealing 
with issues raised by whistleblowers over OIG's hotline. In addition to 
allegations of fraud and serious misconduct which we investigate, OIG 
often receives complaints from employees and members of the public 
raising ethics, compliance, or management issues; we provide these 
complaints to operating unit leadership to address and resolve. This 
program ensures that information about potential risks received over 
our hotline is communicated promptly to operating unit management, so 
that they may quickly address problems. In some cases, OIG asks that 
operating units respond and summarize their findings, to ensure that 
management has sufficiently addressed the matter.
    In fiscal year 2013, OIG received almost 1,300 contacts over our 
hotline, of which about 600 were whistleblower complaints related to 
the Department's programs and operations. Since the beginning of fiscal 
year 2013, operating units have worked effectively to resolve issues 
provided to them on OIG hotline complaints, reducing by more than half 
what had become a major backlog in early fiscal year 2013. As of the 
end of the second quarter of fiscal year 2014, the Department had only 
40 hotline complaints for which OIG was awaiting an initial findings 
report--compared to 98 pending only 1 year prior (see figure 2).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As a result of the Department and operating units prioritizing and 
addressing OIG hotline referrals, several issues have been resolved, 
resulting in better management practices and administrative remedies. 
In fact, of the hotline referrals resolved in fiscal year 2013, the 
Department's leadership found about one in four contained issues that 
were substantiated in their management inquiries. Even in cases where 
inquiries did not find issues, the process of looking into issues often 
helps communicate to staff that compliance and ethics issues are taken 
seriously. Examples of successfully resolved issues from OIG hotline 
referrals include the following:
  --In early fiscal year 2013, OIG referred a whistleblower complaint 
        to NTIA, which confirmed that a BTOP grantee had not paid 
        employees appropriate wages as mandated by the Davis-Bacon Act. 
        NTIA informed the grantee of the issue, and appropriate action 
        was taken to remunerate employees as required by the law.
  --In late 2011, OIG received a whistleblower's hotline complaint 
        alleging that a Census Bureau employee was publishing political 
        opinions while on duty. Census looked into the issues and, with 
        additional support from OIG, uncovered evidence demonstrating 
        that the employee had used Twitter to publish political 
        opinions while at work. In 2012, we referred our file to Office 
        of Special Counsel (OSC), which has the authority to look into 
        Hatch Act violations. In February 2014, OSC issued a press 
        release announcing that it had confirmed the allegations, and 
        was concluding its investigation. The employee resigned prior 
        to OSC concluding its case.
  --In mid-2013, as the result of a whistleblower tip to OIG's hotline, 
        USPTO confirmed that an employee had been improperly claiming 
        work time and overtime while on vacation in a foreign country. 
        During the course of its inquiry, USPTO discovered that the 
        employee had provided username and password information to a 
        second USPTO employee, who logged into his account and 
        submitted previously-completed work while on leave. This gave 
        management the impression that the employee was working while 
        actually on vacation. Administrative action is pending against 
        both.
    While the Office of the Secretary and most operating units have 
made progress handling OIG hotline complaints, NOAA still faces 
challenges in this area. Leadership needs to give more timely attention 
to resolving recommendations made at the conclusion of OIG 
investigations and its own management reviews. When OIG or management 
substantiates allegations, we frequently transmit to program management 
our concluding report--which may be accompanied by recommendations to 
take appropriate administrative, disciplinary, or other policy actions. 
Departmental policy requires operating units to respond to OIG within 
60 days of receiving our report to inform us of any actions that have 
been taken or that are planned. Improved coordination among the 
Department's Office of General Counsel, operating unit leadership, and 
human resources offices would help ensure that appropriate action is 
executed in a timely manner.
    NOAA, however, currently has five pending OIG investigations that 
it has yet to take adequate action on, including two cases where senior 
scientists used Government computers to view inappropriate online 
content. Four of these five investigations were transmitted to NOAA 
more than 180 days ago, including two that remain older than 1 year 
without any action. In order for NOAA to comply with Departmental 
policies and foster a culture of management accountability, leadership 
must more diligently resolve OIG's investigative recommendations.
   appendix a: addressing issues with noaa weather satellite programs
    Managing risks in the acquisition and development of the next 
generation of environmental satellites is a continuing challenge for 
the Department. In February 2013, GAO added ``Mitigating Gaps in 
Weather Satellite Data'' to its high-risk list.\21\ The two most 
prominent programs,\22\ the Joint Polar Satellite System (JPSS) and the 
Geostationary Operational Environmental Satellite-R Series (GOES-R), 
together account for one-third of NOAA's fiscal year 2015 budget 
request. They are also the largest investments in the Department, 
accounting for more than 20 percent of the Department's $8.8 billion 
budget proposal.
---------------------------------------------------------------------------
    \21\ U.S. General Accountability Office, February 2013. High-Risk 
Series: An Update, GAO-13-283. Washington, DC: GAO, 155-160.
    \22\ Other satellite acquisitions include Jason-3, which will 
measure sea surface height, and Deep Space Climate Observatory, which 
will provide advance warnings of solar storms affecting Earth.
---------------------------------------------------------------------------
    NOAA's JPSS and GOES-R satellites will provide data and imagery for 
weather forecasting--including severe-storm tracking and alerting--and 
the study of climate change--and help lead and sustain the Nation 
during severe weather events. However, because of cost overruns, 
schedule delays, and the aging of NOAA's current constellation of 
satellites, NOAA has had to take steps to mitigate potential coverage 
gaps for these critical assets.
    JPSS evolved from a predecessor program fraught with cost overruns 
and schedule delays. NOAA's JPSS program uses the National Aeronautics 
and Space Administration (NASA) as its acquisition agent, leveraging 
that agency's procurement and systems engineering expertise--an 
arrangement based on previous partnerships between the two agencies. In 
its fiscal year 2015 budget submission, NOAA requested $916.3 million 
and reported that the JPSS program, running through 2025, would cost 
$11.3 billion. The first JPSS-developed satellite (JPSS-1) is scheduled 
for launch no later than the second quarter of fiscal year 2017. GOES-
R, with scope and importance comparable to JPSS, experienced 
development and budgetary challenges that could delay the launch 
readiness date of its first satellite from the first to the second 
quarter of fiscal year 2016. NOAA requested $980.8 million for fiscal 
year 2015 for the GOES-R series of satellites that will provide 
uninterrupted short-range severe weather warning and ``now-casting'' 
capabilities through 2036. With four satellites (the GOES-R, -S, -T, 
and -U), the program is estimated to cost $10.8 billion over the course 
of its life cycle.
JPSS
    In November 2013, NOAA's independent review recommended that NOAA's 
polar satellite launch policy be changed so that two satellite failures 
must occur in order for a gap in data to be realized. It recommended 
that NOAA promptly start a ``gap filler'' mission--likely a smaller 
satellite with key instruments--to provide additional fault tolerance 
to the JPSS constellation. Further, it recommended that NOAA 
immediately procure additional satellites to extend the JPSS 
constellation beyond JPSS-2, which would protect against future gaps 
and make current development more robust and efficient by providing 
needed spare parts and flexibility in fabrication and testing.
    NOAA has begun to mitigate potential degradation to weather 
forecasting capabilities during polar-orbit data coverage gaps through 
the use of supplemental funding it received as part of the Disaster 
Relief Appropriations Act, 2013. NOAA should ensure that its gap 
mitigation plan is executed before the November 2016 design-life end of 
Suomi National Polar-orbiting Partnership (NPP), a risk-reduction 
satellite launched in October 2011 that is flying the first versions of 
JPSS sensors.
    Consistent with our September 2012 JPSS audit report,\23\ we 
continue to project a potential 10-16-month gap between Suomi NPP's end 
of design life and when JPSS-1 satellite data become available for 
operational use (see figure A-1). NOAA's medium-range weather 
forecasting (3-7 days) could be degraded during the period of time JPSS 
data are unavailable.
---------------------------------------------------------------------------
    \23\ U.S. Department of Commerce Office of Inspector General, 
September 27, 2012. Audit of the Joint Polar Satellite System: 
Continuing Progress in Establishing Capabilities, Schedules, and Costs 
Is Needed to Mitigate Data Gaps, OIG-12-038-A. Washington, DC: 
Department of Commerce OIG.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


GOES-R
    NOAA's policy for its geostationary satellites is to have three 
satellites in orbit--two operational satellites with overlapping 
coverage and one spare for backup. Currently, GOES-13, GOES-14, and 
GOES-15 are in orbit (see figure A-2). However, GOES-13 is due to be 
retired in fiscal year 2015, at which time GOES-14 is projected to 
become operational. GOES-15 is due to be retired in fiscal year 2017. 
GOES-R is scheduled to be launched in October 2015, but there is a risk 
of launch delay. NOAA may not be able to meet its policy of having an 
on-orbit spare, even without a GOES-R launch delay, based on current 
GOES satellites' projected retirement dates. Furthermore, a launch 
delay for GOES-R beyond October 2015 increases the risk that only one 
geostationary imager will be in orbit--which would severely limit 
NOAA's capability to visualize and track severe weather events.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    appendix b: managing the census bureau's 2020 decennial planning
2020 Decennial
    Through our ongoing work on the Census Bureau's approach to and 
progress on planning for 2020 decennial census we have identified three 
time-sensitive Bureau management priorities:
  --Completing timely research for making evidence-based design 
        decisions.
  --Integrating schedule and budget to provide valid, timely, accurate, 
        and auditable performance information on which to base project 
        management decisions.
  --Accurately recording costs in the accounting system.
    Completing timely research for making evidence-based design 
decisions. To reduce 2020 Census costs, the Bureau is conducting 
research that focuses on several design features. Conducting research 
and testing is necessary to implement the changes needed to save the 
Government hundreds of millions of dollars (see table B-1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Integrating schedule and budget to provide valid, timely, accurate, 
and auditable performance information on which to base project 
management decisions. Last decade, OIG recommended that the Census 
Bureau integrate cost and schedule. In response, the Bureau planned to 
incorporate earned value management (EVM), a process that combines 
measures of a project's schedule and cost to forecast performance 
problems. As of March 2014, the Bureau had not incorporated EVM into 
its activity schedules. Because of the Bureau's budget and time 
constraints, management must be able to recognize at-risk projects by 
adopting EVM to make sound project management decisions.
    Accurately recording costs in the accounting system. To effectively 
manage a program of the size, complexity, and cost of the 2020 Census--
and assess the return on investment of research efforts--managers 
require accurate accounting records. However, we recently found that 
many Census Bureau staff stated that they are charging to projects 
based on budgeted hours rather than actual hours worked. Inadequate 
accounting for an employee's actual work and level of effort required 
in accomplishing project goals, as well as inaccurate project costs, 
hinder the Bureau's ability to assess the return on investment of 
research efforts. Additionally, these issues affect the Bureau's 
ability to make informed decisions about how to accomplish budget 
reductions.
            appendix c: enhancing departmental cybersecurity
Cyber Incident Response
    During the past year, the Department has made improvements to 
incident detection and response capabilities at DOC CIRT. For example, 
the Department conducted an internal assessment of DOC CIRT policies, 
procedures, and capabilities. It focused on strengthening DOC CIRT's 
organizational structure; its roles and responsibilities; and operating 
unit procedures for incident identification, analysis, response, and 
reporting. The Department's chief information officer has also (a) 
taken steps to ensure that all DOC CIRT staff meet Department training 
and certification requirements and (b) implemented an incident tracking 
system. In addition, the Department arranged to have the Department of 
Homeland Security conduct an independent assessment, focusing on 
incident management capabilities within the Department of Commerce.
Enterprise Cybersecurity Initiatives
    Table C-1, below, provides the goal, along with updated 
implementation status and issues, for each initiative since we issued 
the fiscal year 2014 TMC report:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    NOAA continues to make progress toward becoming its own TIC 
provider and the Census Bureau and BIS have made notable progress 
toward acquiring TIC services. The TIC initiative should significantly 
reduce the risks associated with external network and Internet 
connections. Accordingly, the Department has encouraged NOAA to 
complete its TIC implementation quickly.
---------------------------------------------------------------------------
    \24\ Title 13 guarantees the confidentiality of information 
obtained by the Census Bureau and establishes penalties for disclosing 
this information.
---------------------------------------------------------------------------
                  appendix d: reducing uspto backlogs
Reducing Patent Application Backlogs
    USPTO, as the authority for reviewing and adjudicating all patent 
and trademark applications, must continue to focus on the challenge of 
reducing the time applicants wait before their patent applications or 
appeals are reviewed. The agency's recent efforts to address its 
application and appeal backlogs and related pendency issues have 
yielded mixed results. Both the backlog and pendency for patent 
applications decreased in fiscal year 2013 (see figure D-1a). Between 
October 2009 and September 2013, the patent backlog decreased from 
approximately 720,000 unexamined new applications to approximately 
585,000. Since we issued the fiscal year 2014 TMC report in November 
2013, the new application backlog has increased to 604,700 (as of 
February 2014). The patent appeals backlog--which we reported on in our 
2012 audit \25\--has begun to slowly decrease and, as of November 2013, 
stands at approximately 25,000, still almost twice the size of the 
backlog in October 2010.
---------------------------------------------------------------------------
    \25\ U.S. Department of Commerce Office of Inspector General, 
August 10, 2012. USPTO's Other Backlog: Past Problems and Risks Ahead 
for the Board of Patent Appeals and Interferences, OIG-12-032-A. 
Washington, DC: DOC OIG.
---------------------------------------------------------------------------
    However, USPTO's backlog for requests for continued examination 
(RCE) has experienced the most variability, growing from 17,800 
applications in October 2009 to approximately 78,000 in September 2013 
(see figure D-1b), an increase of more than 340 percent. As a 
consequence, during the same period, the average waiting time between 
filing an RCE and receiving an initial decision has grown from 2.1 to 
7.8 months (see figure D-1b). From the beginning of the fiscal year 
until February 2014, the RCE pendency has decreased to 6.9 months, but 
the RCE backlog still hovers near 80,000. By law,\26\ USPTO must 
provide a patent term adjustment \27\ for an issued patent when it 
takes USPTO more than 4 months to issue a preliminary RCE 
determination.
---------------------------------------------------------------------------
    \26\ 35 U.S.C. Sec. 154(b)(1).
    \27\ A patent term adjustment legally requires USPTO to extend the 
20-year patent term because of agency delays, subject to limitations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    To address the substantial increases in the RCE backlog and average 
waiting time, USPTO (a) initiated outreach efforts to identify why 
applicants file RCEs and (b) implemented policy changes in April 2013 
and October 2013. These policy changes affected the amount of credit 
examiners received for reviewing RCEs, as well as the docketing 
procedures. Our current audit, initiated in June 2013, examines the 
causes for this backlog and assesses USPTO's efforts to remedy it. We 
anticipate issuing a final report with our findings and recommendations 
in late spring 2014.
    As it works to reduce its patent backlog and pendency (see figure 
D-1a), USPTO's challenge is to ensure that the quality of its patent 
examination process is not adversely affected and to avoid requiring 
applicants and the public to file unnecessary and costly challenges to 
examiners' decisions.

    Senator Mikulski. Well, Madam Secretary, thank you for that 
testimony.

                           WEATHER SATELLITES

    I would bring everyone's attention to the Department of 
Commerce's strategic plan. We actually have one called ``Open 
for Business,'' how the Secretary is cutting across a variety 
of her agencies to generate jobs.
    But, Madam Secretary, 62 percent of the Department of 
Commerce budget lies in NOAA.
    Secretary Pritzker. Yes.

                             NOAA SATELLITE

    Senator Mikulski. And that 62 percent in NOAA really goes 
primarily to satellites, and it also goes to Weather Service. 
Many of the questions here, however, will be related to 
fisheries management, which is one of the issues that 
frequently comes up from this coalition of coastal Senators.
    But my question will go exactly to the satellite questions 
raised by Senator Shelby and strongly felt by myself.
    As you know, there was an independent review about closing 
or eliminating the weather gap, also of great concern to 
Senator Murkowski because of the way the satellites work, what 
it does for Alaska, what it does for us in the world.
    When will we get your comprehensive plan, and how do you 
see that you want to continue to right the concerns that have 
been addressed in both the Inspector General's report and in 
that independent review commissioned by this commission, so we 
get a dollar's worth of value for our satellites?
    Secretary Pritzker. Well, thank you all for your support of 
the satellite programs. They're extremely important; and, as 
you are aware, satellite procurement is a very complex process. 
It really involves procuring instruments, procuring a bus, 
procuring a launch vehicle, and procuring a ground station, and 
getting all of that to occur at the same time.
    So the NOAA satellites program have been recently, through 
the outside report that we received, well managed and are on 
time and on budget as we speak today, and these are obviously, 
as I said in my testimony, critical assets to provide accurate 
information to decision-makers.
    As we address the issue, the challenge of the gap that was 
discussed, first of all I want to thank you for taking the most 
important and first step of funding the instruments that can be 
used for a gap filler, because that is an essential step, a 
critical step in the procurement process, as I described. We 
need to make sure those are procured first.
    As we look at the gap right now, the potential for a gap is 
still too high. So our approach to addressing this is to first, 
as it relates to JPSS-1, is to make sure that it is on 
schedule, which it is. And what we're trying to do now is to 
move JPSS-2 so that there's greater overlap with the JPSS-1 
program.
    To do that, we need to have the procurement of, as I said, 
the instruments, the bus, the ground system, and the launch to 
all occur.
    Senator Mikulski. Well, Madam Secretary, I'm going to jump 
in because we all each are going to follow the 5-minute rule.
    Secretary Pritzker. Sure.
    Senator Mikulski. I'm going to get in as many of my 
colleagues as I can.
    As I understand it, you are standing really sentry over 
this.
    Secretary Pritzker. Yes.
    Senator Mikulski. We expect also a further cost estimate 
later in April. Am I correct in that?
    Secretary Pritzker. I'm not sure of the exact timing, but 
we will get you that cost estimate----
    Senator Mikulski. We understand NOAA says they're actively 
working on a plan to be issued with the latest independent cost 
estimates as late as April 2014. We need that----
    Secretary Pritzker. Yes.
    [The information follows:]

    NOAA is currently examining options for what comes after JPSS 2. As 
we develop these options, we will work with the Committee on the best 
way forward.

    Senator Mikulski [continuing]. As we get ready to--and let 
me finish. The other thing is I want to just thank you in terms 
of your personal involvement, and also Dr. Kathy Sullivan, the 
new CEO of NOAA.
    First of all, I've heard from my other colleagues her 
availability to discuss issues, particularly these prickly 
fisheries issues. So we want to thank the fact that we feel 
communication has improved with NOAA. We feel that the 
oversight on satellites and some other programs have improved 
with NOAA. We want to keep that momentum going to get value for 
our dollar, and at the same time this communication, we resolve 
problems without trying to put it in report language.
    So I can't tell you how important it is. If you listen to 
our fishermen and our watermen, if they're cranky, then 
literally these fishermen put their hooks into us.
    And I don't want to be caught in a cranky waterman's net in 
Maryland. So I think we all get that.
    I could pursue my questions because I'm going to come back 
to the Weather Service.
    I want to also advise my colleagues that we will be having 
a separate hearing on NIST in May because of the crucial issues 
of manufacturing to cyber security, an innovative hearing.
    Senator Shelby.
    Senator Shelby. Thank you, Madam Chairman.

                       PRIORITIZATION WITHIN NOAA

    Secretary Pritzker, the Department has invested billions of 
dollars in next-generation weather satellites to provide 
critical data for forecasting and storm monitoring. We think 
that's important. And while the importance of these satellites 
cannot be overstated, NOAA also conducts a host of other 
important activities critical to our Nation's fisheries and 
coastal shorelines.
    With existing satellite programs consuming more than a 
third of NOAA's budget proposal, I believe--and I mentioned it 
in my opening statement--that prioritization of mission-
critical activities is very important. You've got so much 
money, you've got to decide where are the priorities. You did 
it in business, where you were very successful.
    Secretary Pritzker. Right.
    Senator Shelby. Are mission-critical activities, Madam 
Secretary, such as fisheries management or marine research 
deteriorating due to an insatiable appetite for new satellites 
that may not be critical to NOAA's core mission? Some of us 
believe that. Do you have any comment?
    Secretary Pritzker. Yes, I do, Senator. First of all, the 
way that we approach the NOAA budget is to really try and 
balance among a number of issues. We're trying to balance 
between the oceans and the atmosphere, between how much 
research we do internally, how much gets done externally, and 
between the short term, the medium term, and the long term, so 
that we can try and arrive at--for our dollar, that we're 
getting the most value trying to address all of the issues that 
NOAA is responsible for.
    So it is a balancing act that we undertake, as you pointed 
out, and one that we do our best to try and make sure that we 
have sufficient funds to do all the things that NOAA is asked 
to do.
    Senator Shelby. But the fisheries are not just in our 
individual States, but they're important to all of Americans, 
are they not?
    Secretary Pritzker. Absolutely. Our fisheries, as you're 
well aware, are both a source of commercial endeavor as well as 
recreational endeavor, and have significant economic impact--
both do--on the country's GDP. And I've come as Secretary to 
really respect and appreciate the size and the complexity of 
that responsibility that NOAA has, and work very closely with 
Dr. Sullivan to make sure that we're trying to acquit our 
responsibility to the highest standard.

               FISHING RED SNAPPER IN THE GULF OF MEXICO

    Senator Shelby. Madam Secretary, I'm going to reference the 
red snapper fish that's very prevalent in the Gulf of Mexico. 
In recent years, the Department has curtailed red snapper 
season in the Gulf of Mexico due to questionable stock 
assessments and poor management decisions. In fact, two weeks 
ago a Federal judge ruled that the Department mismanaged the 
red snapper fishery in the Gulf, and the result could be an 11-
day red snapper season this year, down from 40 days last year. 
The red snapper population has really grown. It probably needed 
to grow at one time.
    I believe, Madam Secretary, that we must use sound science 
and accurate data to evaluate the health of the snapper stock, 
like anything else. If we continue with today's ad hoc 
approach, we will have little certainty about the true status--
in other words, the truth--of the red snapper, and there will 
be negative economic outcomes for both commercial and, you 
mentioned, recreational fishermen in the Gulf of Mexico.
    What is the Department, in light of all this, doing to 
ensure that it can obtain more timely data to better understand 
and to manage the fisheries, including the red snapper?
    Secretary Pritzker. Senator, first of all, let me talk a 
little bit about the red snapper, then talk more about what 
we're doing in terms of stock assessment.
    So in terms of the red snapper, last summer's stock 
assessment showed additional catch could be allowed, which we 
did.
    Senator Shelby. We did.
    Secretary Pritzker. And we worked hard to update the catch 
limits. And as I understand, the 40 days was something that we 
felt we were making progress. The challenge, of course, is the 
fish, as I understand, have gotten bigger. This is good because 
this is a step toward a continuing growing of the fish 
population. And I'm well aware that recreational fishing 
spending in this country is about $4.6 billion. This is a 
significant industry, and the multiplier effect is quite large.
    Senator Shelby. What about the commercial fishing? What's 
that worth?
    Secretary Pritzker. Well, it's even larger.
    Senator Shelby. Larger.
    Secretary Pritzker. Right. So the point being this is 
extremely important, the red snapper, and the court finding is 
disappointing in the sense of it questions the science.
    So one of the things that we've asked for in our fiscal 
year 2015 budget; our stock assessments are critical data that 
obviously are affecting the decisionmaking around catch limits. 
So we've asked for a modest increase, up to $72 million, for 
next-generation stock assessment research so that we can 
continue to improve the quality of the stock assessment.
    I clearly understand the importance that this work has and 
the implications it has on both the commercial as well as the 
recreational fishing all across our coastlines. So this is 
important that we get this right and something that we 
undertake very seriously, and Undersecretary Sullivan is very 
focused on this.
    Senator Shelby. Do you agree with me, you can't just do 
things in an ad hoc way, you need real data?
    Secretary Pritzker. Absolutely, and the data needs to be 
something that we all have confidence in.

             INVESTMENT IN MANUFACTURING COMMUNITY PROGRAMS

    Senator Shelby. Madam Chairman, I've got one quick 
question, and I will be quick on it, if you'll allow me, and I 
mentioned this earlier, the Investing in Manufacturing 
Community Program. That seems like to a lot of people central 
planning. You're choosing 25 communities out of the whole 
Nation as favoritism, so to speak, and that's very dangerous, I 
think, and sounds like central planning to me. I'll talk with 
you about that again, but my time is short now.
    Thank you, Madam Chair.
    Secretary Pritzker. Thank you.
    Senator Mikulski. Senator Reed.
    Senator Reed. Thank you, Madam Chairwoman.
    And thank you, Madam Secretary. I want to raise an issue 
which is important to NOAA and particularly important to my 
home State of Rhode Island.

                     RELOCATION OF THE NOAA VESSEL

    The fishing survey vessel Henry Bigelow has been stationed, 
home-ported in Newport, Rhode Island since 2009. But because of 
the changes with respect to the Coast Guard and Navy there, 
they might not be able to stay there past roughly 2016, and 
there's some talk of moving it to Woods Hole, which would be 
about a $20 million investment, dredging and improvements; 
when, in fact, about a 5-minute cruise across the bay there is 
former Quonset Naval Station but now Quonset Point, which is 
already the home to the NOAA vessel Okeanos Explorer, which has 
a shore-side facility there, NOAA facility. It's already been 
developed. The money has been invested.
    I would just ask you to seriously consider the option of 
not taking the ship out of Narragansett Bay and spending $20 
million for it elsewhere but spending very little and simply 
transferring it across.
    And I would add another point. The Narragansett Bay complex 
is the home to URI School of Oceanography, to a laboratory of 
the Marine Fishery Service, to the Naval on the Water Warfare 
Center, to all of the facilities that are available at the 
Newport Naval Base. So for those reasons also, to me this is a 
very simple choice, which would be Narragansett Bay. Could you 
look at that option?
    Secretary Pritzker. Absolutely, we are, and Vice Admiral 
Devany is working on this issue as we speak. We have the idea 
of spending the $15 million at Woods Hole as one that is a 
challenge. So he is really working on this issue.
    In terms of the science and the laboratories that are 
there, those are very important and ones that we're rebuilding 
after they took a bit of a hit during the sequestration period. 
But we're very committed to those.
    Senator Reed. Given the tightness of your budget, and 
that's being mild, the idea of generating $20 million to do 
something that, frankly, could be done as well, and I would 
argue better, by simply moving the ship across the bay would 
make sense to me.

                          FISHERY SERVICE LABS

    A similar issue with respect to Narragansett Bay, but it 
also has a larger impact, and that's the National Marine 
Fishery Service's labs in the Northeast have taken cuts because 
of sequestration, because of other aspects. They are truly 
important as to not only the research they do but connecting 
our local fishermen into the process, getting their feedback 
and their assessment. And frankly, my fishermen feel that when 
they go to the Science Center, they get rebuffed. They're told, 
``You're not a scientist; go away.'' When, in fact, every day 
they're on the water, they have an understanding of the stocks 
and everything else that is not associated with that.
    And once again, this is so close to the School of 
Oceanography, URI, there is a reinforcement there, too.
    So I would ask you to avoid cuts in the future, but also to 
look at ways that we can invest in a partnership through the 
labs with the fishing men and women and the fishing industry, 
not just in Rhode Island but all through the Northeast.
    Secretary Pritzker. As I said, the labs are very important, 
and the rebuilding of our capacity at those labs is something 
that we're focused on, and working with the local fishing 
industry is something that we're absolutely open to and happy 
to work with you on.
    Senator Reed. Thank you, Madam Secretary.

                           OCEAN EXPLORATION

    A final point is that you have a significant cut, 27 
percent, $7 million, in ocean exploration, and it becomes more 
and more important. We are all spellbound by the fact that we 
know so little about the Indian Ocean as we search desperately 
for the remains of that aircraft, and it just shows the gaps we 
have in our knowledge. And as we cut back on ocean research 
which is valuable to understand particularly climate change, 
the opening up of the Arctic, changes globally, I would ask 
that you look closely at this item.
    Our vessel, the Okeanos Explorer, can only go to sea if the 
resources are there for exploration, and I ask you to look at 
that.
    Secretary Pritzker. I appreciate it. I mean, our fiscal 
year 2015 budget does propose $19 million for ocean exploration 
and research. While we know this is a cut, we think that's 
robust funding for us. But I'll take a look at it.
    Senator Reed. Thank you, Madam Secretary.
    Thank you, Madam Chairwoman.
    Senator Mikulski. I'm going to suggest this. We're all 
Senators and we need to trust each other. So what I mean by 
that is ordinarily they would recess the committee and come 
back for the vote. I'm going to say that Senator Kirk wants to 
ask a question and Senator Merkley wants to stay to answer a 
question, I'm going to dash to the vote and dash back, but I'm 
going to keep the committee in session and let the Senators 
ask, or let's go back and forth. Let's presume we can all trust 
each other and act according to old-school rules and Senate 
rules.
    The committee will continue to operate, and I turn to 
Senator Kirk.
    Secretary Pritzker. Thank you, Chairwoman.

                        NTIA, INTERNET CONTRACT

    Senator Kirk. Penny, I just wanted to ask you a question 
about this rolling story in the Internet media that somehow the 
Obama administration is going to give up control of the 
Internet to the U.N. or something like that. I think the guts 
of that story is the ending of a contract between NTIA and 
ICANN I think it's called. I want to make sure the essence of 
accountability to American values for an institution that we 
have built continues with First Amendment values surging 
through the Internet to make sure that those countries like 
China, which would totally interrupt those values.
    Secretary Pritzker. Senator, let me talk a little bit about 
that for a minute. First of all, I want to be absolutely clear, 
the Department of Commerce and the NTIA, which oversees this 
contract, we are committed to a free and open Internet. The 
stated policy since 1998 was--what we oversee at NTIA is a 
contract, as you said, between ICANN and the various 
organizations--there are three--that get the benefit of this 
contract, the International Engineering Task Force, the 
Regional Internet Registry, and the companies who run the 
domains. We simply monitor whether that contract is being 
implemented effectively.
    The proposal that we are suggesting is as follows. We're 
not going to proceed with anything unless we are satisfied with 
the following, which is that ICANN can continue to move forward 
as a multi-stakeholder model of governance. Two is that we 
maintain the security, the stability, and the resilience of the 
Internet's domain name system. Three, we have to meet the needs 
and the desires of our global customers, and we've got to have 
the openness of the Internet.
    But there's a final criteria that everyone needs to keep in 
mind. We will not accept a proposal where ICANN is replaced 
with a government or intergovernmental organization like the 
U.N.
    So this is not a handing over of the Internet to some other 
government. This is an evolution that was anticipated at the 
beginning that eventually NTIA would step back from this 
oversight role of a contract that actually exists between two 
parties.
    We as the United States remain a very important voice, 
would remain a very important voice in the multi-stakeholder 
process. So it's not like we're going away from this at all. 
And the thing that is important to keep in mind is we're doing 
this at a time when there's plenty of time to see if our 
criteria can be satisfied. We have a year left on the existing 
contract, our oversight contract, and then we have two 2-year 
extensions at our unilateral right. So we have a long runway to 
make sure that we're going to be confident that ICANN can 
undertake this without our continued oversight of this 
contract.
    Senator Kirk. I'm not done. Let me close by saying that the 
First Amendment, which kind of runs through your blood, and 
American involvement in ICANN to make sure that left-wing 
dictators around the world who would like to shut off the 
Internet. We need to make sure that it can't be shut off.
    Secretary Pritzker. I completely agree, and I want you to 
be reassured that the Department of Commerce and NTIA, we are 
committed to a free and open Internet.
    Senator Kirk. Thank you, Madam Secretary.
    Secretary Pritzker. Thank you.
    Senator Shelby [presiding]. Senator Merkley.

                  ANTI-DUMPING AND SUBSIDY ENFORCEMENT

    Senator Merkley. Thank you, Mr. Chair, and thank you, Madam 
Secretary, thank you for the work that your Department does 
facilitating exports which are so important to nurturing 
manufacturing, the jobs that are associated with it here in the 
United States.
    I wanted to ask about one part of this puzzle, and that is 
how the International Trade Administration handles anti-dumping 
and subsidy enforcement issues, which is a central function to 
trying to create something close to a level playing field. We 
face a variety of foreign subsidies that are unannounced.
    I find it very interesting when the WTO calls for nations 
as part of their responsibility to lay out the subsidies they 
provide, and when they don't do so, another nation has a choice 
of posting such known subsidies. And when I proposed an 
amendment to this, with two weeks a list of 200 Chinese 
subsidies was produced. It was very helpful in trying to 
understand many of the things that happen behind the scenes.
    We had testimony in my Economic Policy Subcommittee earlier 
this year about many of the things that we face, and I'm 
referring specifically to China in this case, but may well 
apply to some other countries where local officials make it 
their normal business to take land from farmers without 
adequate compensation, friends at local banks finance the 
construction of a trade development zone, they give away land, 
factories and utilities to foreign investors, which certainly 
is attractive to moving your factory to a place where these 
types of subsidies exist, and that doesn't even count the 
State-owned enterprises and the State-backed banks that not 
only control companies in China but begin to acquire companies 
here in the United States.
    I found it quite interesting that China had its first-ever 
corporate bond default. That tells you something about how 
subsidized the system is, that folks who have companies that go 
down the wrong path always seem to get bailed out.
    This process is a challenge for us to sustain jobs here in 
manufacturing in the United States, and I just wanted to ask 
about your thoughts on this. These types of subsidies are hard 
to capture, they're hard to bring cases on, and in general I 
don't think we have many in that category. But I thought I 
would ask you about that, whether the Department has been able 
to bring cases addressing the types of subsidies that I'm 
talking about, whether there is a deliberate effort to evaluate 
these strategies that are certainly not consistent with the 
structure of the WTO and their impact on our U.S. economy.
    Secretary Pritzker. Senator, first of all, let me start by 
saying both the President and I are absolutely committed to 
trade enforcement, and the Department works on this. It is a 
major focus as part of our ITA work. And I have a lot of 
confidence in the leadership team that we have that do our 
trade enforcement work. They're very, very dedicated to trying 
to address these issues.
    The question of whether we would self-initiate anti-dumping 
in countervailing duty cases, it's very rare to do that, to 
self-initiate, because a case requires the involvement of the 
industry, but we're happy to arrange consultation for any 
industry with our experts if they feel there's an area that 
needs relief. We work very closely to make sure that that 
process is very transparent.
    In terms of strengthening our trade remedy laws, 
particularly with China, I co-chair with the U.S. trade reps 
something called the U.S.-China Joint Commission on Commerce 
and Trade (JCCT), which is our annual dialogue with the Chinese 
on trade issues, and this is a constant thing that we are 
focusing on. It's a very challenging process. I won't say that 
it's easy, but it's something where our goal is really to 
prevent U.S. businesses and workers from being subject to 
unfair trade practices around the country, around the world. So 
it's something that we're very, very focused on.
    Senator Merkley. Another type of subsidy is the lack of 
enforcement of environmental standards and extremely predatory 
labor conditions in some cases, and a proposal or an idea is to 
allow companies to use the anti-dumping strategies to bring 
cases when their competitors are subsidized by the failure of 
enforcement, basically the failure to abide by the basic, core 
principles of the WTO. Have you given any thought to that 
particular approach?
    Secretary Pritzker. I have not focused myself on that, but 
it's something I'd be happy to discuss with my team.
    Senator Merkley. Thank you very much.
    Secretary Pritzker. Thank you.

                   ELECTRONIC MONITORING FOR TRAWLERS

    Senator Merkley. Can I have one sentence?
    Electronic monitoring for trawlers in the Pacific.
    Secretary Pritzker. Yes.
    Senator Merkley. They're very concerned that they're not 
getting the intention or the speed, and for these small 
trawlers to get observers flown in from other cities, San 
Francisco or Seattle, extremely inconvenient, extremely 
expensive. We need a lot of cooperation in trying to pursue the 
electronic monitoring. Thank you. I'll follow up with that.
    Secretary Pritzker. Please do, and we're very focused on 
that. Thank you.

                           MARKET COMPETITION

    Senator Shelby. Madam Secretary, I'm going to pick up on 
the mission of Commerce, and this comes out of your bulletin. I 
like the stated mission, ``to create the conditions for 
economic growth and opportunity.'' That's what we want to do in 
America, starting with education, good infrastructure, and so 
forth. All States, from Maine to California, from Florida to 
Michigan. And I like the slogan, ``America is Open for 
Business.'' The more we talk about that and the more we, in 
reality, do that, the better off we are, and that includes the 
domestic market and the foreign market, everything.

             INVESTMENT IN MANUFACTURING COMMUNITY PROGRAM

    You know this. You come out of the business community.
    But it's troubling, really troubling to a lot of us, not 
just me, where you would select, try to select 25 communities 
for special treatment in the U.S. and exclude thousands of 
communities. That's picking winners and losers, in a sense, in 
the marketplace, which is what we don't do. We let the market 
decide that.
    So this is a deviation, basically, from the principles that 
built this country and sustained this country, and that's why 
Congress has not supported this. This is something in your 
proposal that you're wanting to do that I think will run into 
trouble again in the Senate and in the House. It's something 
that maybe we ought to talk about again.
    Secretary Pritzker. Well, I would be happy to talk about 
it, and I appreciate the concern. There's no intention to pick 
winners and losers but rather to allow regions to coordinate 
their planning and to tell the Federal Government how they 
intend to address multiple areas of investment that are 
required in order for those communities to be able to support 
growth in manufacturing.
    The goal is really more to see that there are communities 
and encourage communities to create an integrated plan. It's 
not meant to pick winners or losers.
    So I would be happy to work with you to make sure that we 
address the concern.
    Senator Shelby. Well, I'd like to meet with you further. 
We'll call you and see where we go from here. But the idea of 
picking winners and losers in the marketplace, that's the tenet 
of communism, socialism, and so forth.
    Secretary Pritzker. That's not our intent.
    Senator Shelby. And it's something I think is abhorrent to 
that we're open for business.
    Secretary Pritzker. Terrific. Well, that's not our intent.
    Senator Shelby. Ultimately the market will decide winners 
and losers in the marketplace, and the government should not do 
that, should it?
    Secretary Pritzker. Senator, you and I agree on that.
    Senator Shelby. We're hoping somebody comes back.
    She's on the subway. I'll wait just a few minutes, try to 
keep this hearing going.
    We'll recess just for a few minutes until the chairperson 
comes.
    Secretary Pritzker. Terrific. Thank you, Senator.
    Senator Shelby. Thank you.
    [Recess.]

                              JOB CREATION

    Senator Mikulski [presiding]. Madam Secretary, while we 
expect Senator Collins and some other Senators to return, I'm 
going to go back to the job issue. One priority is to create 
more jobs. The other is to retain the jobs we have, and even 
the possibility of bringing jobs back home from overseas.
    But here goes to my question about trade and trade 
missions. The job of the Secretary of Commerce has been, as I 
said, the President's ambassador to business, and the 
ambassador of business to the President. And often, they have 
led trade missions around the world. So it's been both an 
executive position and a sales position.

      DEPARTMENT OF COMMERCE'S ROLE IN CREATING AND RETAINING JOBS

    You have 11 different agencies, from NIST to NOAA to Trade. 
So we're talking about everything from red snapper quotas to 
import quotas and export quotas, and so on.
    So here goes to my question. Often, the traditional role is 
assumed by the Secretary of Commerce. Tell us what you're 
doing. Are you leading trade missions? How do you see your role 
in generating jobs, retaining jobs, and even trying to bring 
jobs back home?
    Secretary Pritzker. Well, Senator, first of all, thank you 
for the question. Since day 1 when I took this job, I brought 
with me a sign to my office, and it says ``Open for Business.'' 
To me, this is my area of focus. Why is this my area of focus? 
It's my area of focus because I know that if we create the 
conditions for the private sector to thrive, they will create 
jobs.
    So one of the first things I've done is spend a lot of time 
with business leaders to understand what do they need in order 
to be successful. I've met with probably over 1,000 CEOs and 
private sector business leaders since I've been in this 
position. And what have they said to me that they need in order 
to grow their businesses?
    For example, in terms of trade and investment, I'm very 
focused on the fact that 95 percent of customers live outside 
our borders. So while American businesses are growing within 
the United States, our job with both our U.S. Export Assistance 
Center and our Foreign Commercial Service is to help those 
businesses continue to export. Why? Because 11.3 million 
Americans today, their jobs depend upon exports, and that's up 
1.6 million jobs since 2009. That's why funding of our Foreign 
Commercial Service is so important.
    At the same time, we're also trying to attract foreign 
direct investment; 5.6 million American jobs today are 
supported by American subsidiaries of foreign-owned companies. 
That's why funding of Select USA is so important, that we build 
upon these good jobs. We know they're good jobs because the 
jobs from foreign direct investment companies pay over $77,000 
a year.
    I recently as well returned from several trade missions. 
First I was in Mexico, and then I was in the Middle East. I 
will tell you that on our trip to Mexico I took a company from 
Los Angeles called Louroe Electronics. They came back and said 
that because of the five different potential business 
opportunities that they found, they're increasing their 
workforce by 10 percent.
    So we know that all of these efforts are helping to grow 
jobs in this country.
    I'm also very focused on innovation, competitiveness, and 
entrepreneurship. Why? Because I know that I think it's 40 
percent of our GDP--and I'll confirm that statistic--depends 
upon new innovation, growth in our GDP, 40 percent depends upon 
new innovation. What are we doing specifically? I made skills 
and workforce development a priority of the Department for the 
very first time in history, working with the Department of 
Labor to say how does the Department of Labor and Commerce 
affect something that I think is very important, which is 
workforce training needs to be business-led. We can no longer, 
as the Secretary of Labor would say, train and pray. We have 
got to offer people the kind of nationally recognized stackable 
credentials that they know, when they go and get that training, 
that there are jobs at the end of that endeavor.
    So, to me, that's a very important part of helping to grow 
and fill the 4 million open jobs that we have today in this 
country by helping the long-term unemployed be prepared for 
those jobs.
    Another thing that we at the Department are focused on in 
job creation is we're working across the agencies to promote 
the passage of the NNMI bill and develop these regional 
manufacturing hubs. Building a bridge between R&D and getting 
to market is something that requires some catalyst from the 
Federal Government, and those will also lead to good jobs. The 
institutes, I think, are a brilliant conception by both 
Congress and the President because of the Federal money. Why is 
the Federal money important?
    I've talked to the people who have put together these 
institutes, and they said without the catalyst of the Federal 
dollars, they would not have come together, the universities, 
the private sector, the community colleges, and the workforce 
training system, as well as the supply chains, in order to 
address this need for pre-competitive research in our country. 
And we are doing so much less of this than other countries 
around the world, and I think this is something that is very, 
very important to job creation.
    Senator Mikulski. Madam Secretary, I think I've got the 
picture there. We want to work with you.
    I want to make sure that Senator Collins has a chance to 
ask her questions.
    Secretary Pritzker. Terrific. Thank you.
    Senator Mikulski. She's on about three other subcommittees. 
So we'll come back to pick up----
    Secretary Pritzker. Sorry.
    Senator Mikulski. No, no. That was excellent. We could 
spend all day just on that, as well as the need for interagency 
cooperation. My smaller manufacturers say they need the Import 
Export Bank, they need the Foreign Commercial Service Office, 
and they need to be able to know how to use the resources of 
their own government.
    Senator Collins.

                     FISHERIES DISASTER ASSISTANCE

    Senator Collins. Thank you very much.
    First let me thank you, Madam Chairwoman, for your work, 
and that of the Vice Chairman, for your support in 
appropriating fisheries disaster assistance in last year's 
omnibus funding bill. This was no easy task but a very 
important development.

                    FISHERY DISASTER RELIEF FUNDING

    I also want to thank you, Madam Secretary, for exercising 
your authority to waive the 25 percent State matching 
requirement for fishery disaster funding. Waiving that match 
was absolutely critical given the constraints that the States 
have and to ensuring that the funding will be used in ways that 
have both immediate impacts and constructive long-term effects.
    We've been working closely with the Regional Administrator, 
John Bullard. He is making quite an effort to try to achieve a 
consensus among the affected States regarding the allocation of 
the funding, which is no easy task, I will tell you.
    Secretary Pritzker. It's not easy.
    Senator Collins. Although consensus among the affected 
States has not yet been achieved, one thing is clear to me, and 
that is that our Maine fishermen are struggling now, and 
they're very worried about what the future is going to bring.
    So there's a delicate balance between what needs to be 
addressed for the very real and immediate needs of our 
fishermen and making those targeted investments for the long 
term that will allow the fleet to survive and become more 
sustainable, and there are a lot of creative ideas out there, 
as I've learned when I attended the Fishermen's Forum this 
year.
    We're concerned about not only the short-term survival of 
our fishing communities but their long-term success also. We 
really don't want to find ourselves going from crisis to crisis 
year after year. How will you encourage NOAA to ensure that the 
$32.8 million in disaster relief is used in ways that will have 
positive, lasting effects on New England's historic ground 
fishery industry?
    Secretary Pritzker. Well, Senator, first of all, I want to 
assure you that I am very sensitive to the fact that fishing is 
a lifeblood to so many New England communities, and I 
appreciate the challenges that are created for both individual 
businesses, families, et cetera, that are affected by the 
stocks and the level at which the stocks exist.
    We are very focused on making sure that--two things: first 
of all, stock assessment is improved, which is why in our 
budget we've called for $72 million to continue improving the 
quality of our stock assessment so that we have better and more 
transparent information. So first of all, to not go from crisis 
to crisis, we need good information.
    The second is to work--you know, John Bullard, I think, as 
you said, he does not have an easy task ahead of him, but 
making a priority that we also make wise investments is one 
that I know is part of his criteria. I will make sure that 
Undersecretary Sullivan and John work closely so that we're not 
making short-sighted, if you will, investments with the scarce 
resources that we have to invest.
    Senator Collins. Thank you.
    Madam Chairwoman, could I ask a second question?
    Senator Mikulski. You absolutely can.
    Senator Collins. Thank you so much.
    Senator Mikulski. You know, your questions about these 
disasters and these data and so on affect all of us. Prior to 
your arrival, Senator, I was saying that there are so many 
members on this subcommittee, coastal Senators who have such 
common interests. Please proceed and take whatever time you 
need.

                    TRADE AND FOOTWEAR MANUFACTURING

    Senator Collins. Thank you.
    Madam Secretary, I want to switch now to a trade issue, 
especially given the emphasis that you are putting on 
increasing exports and trying to get more American 
manufacturing, which are goals that I wholeheartedly support.
    Just a few decades ago, there were more than 50,000 
footwear manufacturing jobs in this country, and many of them 
were in my State and throughout New England.
    Senator Mikulski. The famous Dexter loafers.
    Senator Collins. Exactly. That is one of them.
    Today there are fewer than 5,000, which is just incredible. 
A thousand of those jobs are in the State of Maine at three New 
Balance factories, and we have some other specialty shops in my 
State. Those jobs support many other small businesses and local 
economies, particularly in our smaller towns--Norridgewock, 
Skowhegan, Norway, Maine, for example.
    With the Trans-Pacific Partnership (TPP) discussions well 
under way, I, along with Senator King, have repeatedly met with 
the trade rep and have asked for assurances from this 
administration that any agreement is crafted in a way that 
allows those companies that continue to make shoes here and 
want to grow here have the opportunity to do so. To me, we 
ought to be rewarding those manufacturers who did stay and keep 
some of their manufacturing here in America rather than moving 
overseas.
    If done improperly, I am very concerned that TPP could have 
a disastrous effect on the remaining athletic footwear workers 
in my State.
    What update could you provide on the negotiations regarding 
these extraordinarily important issues that directly affect 
jobs?
    Secretary Pritzker. Senator, first let me start by saying I 
know how important this issue is, and it's one of great 
importance not just to you and your constituents but as a New 
Balance wearer I appreciate my Made in America running shoes, 
if you will, that I wore this morning.
    Senator Collins. Good taste.
    Secretary Pritzker. The Commerce Department works with the 
U.S. Trade Representative on negotiating these deals, and we 
have been in constant consultation with you, with the various 
stakeholders on the views regarding this and TPP.
    The latest state of negotiation, I would have to get back 
to you as to where it is, but I want you to know that we 
recognize and are well aware of how significant this issue is, 
and it has been foremost as the negotiations have--it's been 
front of mind as the negotiations have been proceeding. But I 
will have to get back to you as to what the current state of 
play is.
    Senator Collins. Thank you. That would be very helpful.
    Thank you very much.
    [The information follows:]

                       athletic footwear and tpp
    Commerce and USTR are engaging with all of our TPP partners, 
including Vietnam, on a continual basis to discuss market access 
issues, including apparel and footwear. In these discussions, we 
continue to represent the concerns of our domestic athletic footwear 
manufactures. The next set of face-to-face meetings with all TPP 
partners is scheduled for mid-May. We will continue to ensure that the 
discussions regarding market access for footwear take into account the 
interests of domestic stakeholders.

                            FISHERY DISASTER

    Senator Mikulski. Before, Senator Collins, we go to Senator 
Coons, on this whole fishery disaster, one of the first issues 
we had was our very own colleagues didn't understand how 
fisheries disaster certification worked. They thought it was 
FEMA that designated it, as compared to you, Madam Secretary. 
So one of the areas we really need to do is educate our own 
colleagues, and we need to look forward to doing that 
communication.
    Fisheries disasters have affected pretty much every area of 
the coast. As we worked on the New England fisheries disaster, 
we note that our colleagues on both sides of the aisle from the 
Pacific Northwest--Merkley, Murray, Murkowski--regardless of 
the zip code they lived in, were facing that.
    And we see that it's three things, environmental 
consequences, but mostly over-fishing, and it's not over-
fishing by us and how we enforce those laws. And then also the 
ability to collect better data. And then if over-fishing is 
caused by poachers, why punish the American fishermen as 
they're trying to make their comeback?
    And we need clear guidelines, too, on how we do help with 
fishery disasters. We want to avoid them. We saw the near 
collapse of Georgia's bank. We heard what was happening in the 
Pacific Northwest. The decline in crabs in Maryland was due to 
the decline in the Chesapeake Bay. That was environmental. So 
we've got a lot to do.
    But this is big business, and it's also, I might add, a 
part of our identity. When you think of Maine and you think of 
Maryland and you think of the great Pacific Northwest, yes, you 
might think of Microsoft, and when you have Senator Shelby 
talking about the red snapper, I've heard Senator Shelby speak 
about many things, but this shows the concern we have. So, 
let's work together on it.
    Thank you very much.
    Senator Coons.

                             MANUFACTURING

    Senator Coons. Thank you, Chair Mikulski.
    Thank you, Secretary Pritzker. Great to be with you again. 
And I'll ask a few questions, if I might, and I'll try to keep 
them focused, first about manufacturing, which we've spoken 
about before.
    American manufacturing has been making a comeback over the 
last 4 years. We lost nearly 6 million manufacturing jobs in 
the first decade of the century, but we've regained about 
600,000 in the last 4 years, and I'm eager to continue to work 
with you on initiatives that can strengthen manufacturing.
    First, I was pleased that your budget suggested an 
increased investment in the Manufacturing Extension 
Partnership, which I've seen very effectively work with small, 
local manufacturers to allow them to access the latest thinking 
and skills in terms of lean manufacturing. I'd love to hear a 
little bit about your plans for the MEP.
    And second, the National Network for Manufacturing 
Innovation is something the President is moving forward with 
existing budget authority in DOD and DOE, and I'll mention that 
the University of Maryland, the University of Maine, and the 
University of Delaware are actually collaborating on the next 
application to be a composite Center of Excellence.
    What are your plans in terms of moving forward with support 
for the authorizing bill that Senator Brown and Senator Blunt 
currently have, and how would you see the benefits of that 
network moving from something that is purely an administration 
initiative to something that is authorized legislatively and 
could then be sustained over a longer, broader range?
    Secretary Pritzker. Well, thank you, Senator. First of all, 
manufacturing is near and dear to my heart. It's something that 
I've been involved with literally all my life.
    I'll start with the Manufacturing Extension Partnerships. 
When I came into this job, I had spent 27 years in business, 
but I really did not understand what the Manufacturing 
Extension Partnerships were, and I went out to actually see and 
talk to manufacturers about is this really valuable, how could 
the Federal Government really be providing that kind of value 
added, and I was, frankly, blown away, and I had my head turned 
by the impact of the MEP. Hence, the reason we believe we 
should expand the MEP.
    Obviously, they are partnerships, they're local, and they 
work with local manufacturers to help them adopt processes 
that, frankly, large companies have easy access but it's very 
hard for a small company to do on their own. And to me, this is 
one of the great services that we provide at the Department of 
Commerce. Frankly, it's not understood well enough.
    One of the things I hope is that, along with our Foreign 
Commercial Service and our U.S. Export Assistance Centers 
(USEACs), that I could try and raise the profile of these great 
services that we offer.
    As it relates to NNMI, I'm passionate, as you know, about 
this bill. I believe that it's absolutely essential that the 
Federal Government plays a role in helping to be a catalyst for 
the development of these institutes. The gap that needs to be 
filled between R&D and deployment to market is one that very 
often a single company cannot do by themselves. And so I've 
talked to a number of the folks who have competed for the 
existing NNMI programs, and they all tell me we would not have 
come together but for the Federal catalyst of dollars.
    So I think this is really important. I have offered to 
Senator Blunt and Senator Brown--in fact, Senator Graham 
reached out to me about 10 days ago and asked me to work with 
the group to try and help get this legislation passed.
    I think one of the important parts of the legislation is 
the fact that the Commerce Department will play a role in terms 
of taking the best practices of the institutes and sharing them 
among the institutes. I think there's an enormously important 
role that today is not provided for. So I'm all in on both of 
these.
    Senator Coons. Thank you. As a co-sponsor, I'd welcome your 
assistance as an advocate for the collaboration between our 
three States and many, many others in the existing 
collaborations.
    Secretary Pritzker. Whatever I can do.
    Senator Coons. We would be grateful.

                      FOREIGN COMMERCIAL SERVICES

    Let me briefly touch on three things. The Foreign 
Commercial Service has been brought up before. I believe in 
their value. I want to work with you to strengthen their 
efficacy and reach. I'm pleased to see you've updated the model 
that's more forward-looking, and it is my hope that the African 
continent will be considered as a place where we are really in 
competition and where I think we need more of the FCS.
    The program I've mentioned to you before. This is very 
small in scale but means a lot to our coastal States, where 
providing some of the support for the operation and maintenance 
of the program helps particularly those of us who have rivers 
where there is navigational challenge. We had put report 
language in or suggested report language last year. I was 
disappointed the operations and maintenance wasn't in this 
year's budget, and I'd love to work with you on that.

           IMPROVING THE FUNCTION OF PATENT AND TRADE OFFICE

    Last, any comments you've got for me on the Patent and 
Trademark Office. Ending fee diversion was something that was a 
key piece of the American Invents Act. Making sure the Patent 
and Trademark Office is strong and that patents are high 
quality, and that they are being issued in a timely and 
appropriate manner is a real concern to me. I just, in closing, 
would love to hear your thoughts on how we can ensure an 
appropriately funded, fully functioning, strong Patent and 
Trademark Office.

                         PATENT FEE COLLECTION

    Secretary Pritzker. Well, let me comment on the Patent and 
Trademark Office. Our expectation is that we'll receive about 
$3.4 billion worth of fees this coming year, and that will 
allow us to do a number of things.
    First of all, really address the IT system, which needs 
investment--that was something that was a casualty in the 
fiscal year 2013 situation--so that more easily our examiners 
can access prior art and better understand that, as well as 
streamline the relationship with the patent applicants. One.
    Two, we are planning to expand by 1,000 patent examiners. 
We need to do that. We have a backlog which is not at the place 
we want it to be. We currently have a backlog of about 600,000 
patent applications. We'd like to run with a backlog of about 
450,000. We think that's the right balance of inventory to keep 
our workforce fully deployed, if you will, and that's something 
that we're very, very focused on, the IT system. The additional 
examiners will help us bring that down significantly over the 
next several years.
    And then the other thing that we're doing is we have 
developed an operating reserve, which is something that we 
think is very important, so that as the economy fluctuates up 
and down--a patent examiner is someone that receives, when we 
hire someone, an enormous amount of training. And what we don't 
want to do is if the economy goes up and down, we don't want to 
let go of our very valued human capital because of a 
fluctuation in the economy one year.
    So the reserve is something that we believe in this year's 
fees will allow us to be able to have a good cushion as the 
economy fluctuates.
    So the Patent and Trademark Office is making great 
progress. There is work to be done, but I have a lot of 
confidence in the leadership we have there.
    Senator Coons. Thank you, Madam Secretary. Good luck on 
your upcoming trip to Ghana and Nigeria. I very much look 
forward to hearing about it.
    Secretary Pritzker. I am very excited about it, and thank 
you for all the advice and help you've given us.
    Senator Coons. Thank you, Madam Chair.
    Senator Mikulski. Before Senator Coons goes, I want to 
raise this issue about the Patent Office and its fees. You said 
the fiscal year 2013 situation. Didn't you mean sequester?

                           PATENT OFFICE FEES

    Secretary Pritzker. Yes.
    Senator Mikulski. Didn't the Patent Office have access to 
the fees that were being paid in sequester, or were they denied 
access to fees?
    Secretary Pritzker. There was an amount that was set aside 
that we did not have access to. We feel that the fiscal year 
2015 or the $3.4 billion in fees that we expect this year will 
help address the issues that we experienced back then.
    Senator Mikulski. Well, I'm going to raise the fee issue. 
There are two important agencies that are crucial to 
innovation, in taking products to market and protecting 
intellectual property and the safety of people, the FDA and the 
Patent Office. My biotech community, which is a very thriving 
community, feels they stand in two lines to get approved, FDA 
and the Patent Office.
    So we struggle with backlogs. Both are funded by user fees. 
FDA, under sequester, did not have access to the user fees. The 
biotech, the pharma, the medical device community was 
ballistic. They're paying fees. They think they were going to 
get value--the reason they're paying fees was to get the 
trained workforce that they needed with the new innovative 
technology. They didn't have access.
    Right now, Dr. Hamburg's got $225 million worth of fees she 
thinks she's going to have for this year and maybe into 2016. 
Remember, we have not canceled sequester.
    So then we go to your Patent Office, which is really our 
Patent Office. It is crucial to every new idea, every new 
product, every new thing that could come out of Maine, 
Delaware, Maryland, our great universities, all the things you 
just talked about.
    So here is my question. I worry about this, and I really 
think OMB has to worry about this. And I think they have to 
come to grips with what we would hope--many of us want to work 
on a bipartisan basis to permanently cancel sequester. That 
would be my goal, so that every year talented managers that we 
ask to come into government, like yourself, are not worried 
about sequester, you're worried about fulfilling the mission.
    But if we go to the private sector, we're asking them to 
pay fees so they can have the capacity to fulfill the mission, 
which is patents, food safety, and the safety of 
pharmaceuticals, biotech, and medical devices. They should be 
able to get what they're paying for.
    So I would encourage you to join with Dr. Mary Hamburg at 
FDA and go to OMB and say--not for this year--thanks to the 
Murray-Ryan budget, again, a bipartisan effort, we're able to 
move ahead with this bill, but I'm looking ahead also to 2016 
so that we keep the momentum going in our economy.
    We've come a long way since the economic collapse. We know 
unemployment is going down. We know the deficit is going down. 
We know that the debt is going down. We want to keep that 
momentum going.
    One of the ways to keep it going is to make sure where some 
of the greatest innovation is occurring in our economy is able 
to have access to the government agencies they need to either 
get approval or protect their intellectual property, and 
they're paying for it, not only with their taxes but with an 
additional thing, a fee.
    So if we could get--and I'm going to be raising this with 
Director Burwell herself, that we need to make sure that if 
sequester continues, which I hope it does not, and we'll work 
hard for it not to, that those where fees are paid are not 
disadvantaged, because the private sector says we work with you 
to create a fee structure that is reasonable, rational and 
achievable, and then we put the money in the pot and they can't 
access it.
    So, we can't have this. It's counter-intuitive to what we 
want to do. So I really encourage that to my colleagues to be 
able to raise this because there are also other fees. But these 
are really the two very important ones that I think have a 
direct impact on jobs and also the direct impact on our 
economy, and we look forward to working with you and the 
administration on solving this.
    Well, I think we've covered a lot of ground here today. The 
Department of Commerce has 11 different agencies in it, from 
taking the Census to minority business development. It's a lot 
to keep an eye on. Did you feel like this was a pop quiz?
    Senator Mikulski. Well, we wish you well in your trade 
missions----
    Secretary Pritzker. Thank you.
    Senator Mikulski [continuing]. And really working 
throughout these agencies to really, again, create the kind of 
jobs that we need to create.
    I thank you very much for participating.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are no further questions, Senators may submit 
additional questions to the subcommittee for the official 
record. We request that the Department of Commerce respond to 
our colleagues within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Penny Pritzker
           Questions Submitted by Senator Barbara A. Mikulski
                      financial management system
    Question. The switch to a new accounting software system, the 
Business Application Solutions project (BAS), aims to consolidate the 
12 different systems that the Department of Commerce currently uses for 
managing finances, acquisitions, grants, and properties.
    What is the Department doing to manage the risks and ensure the 
system is not a techno-boondoggle?
    Answer. The project has a robust risk management plan that 
documents the processes, tools and procedures that are being used to 
manage and control project risks. The Department of Commerce utilizes a 
risk register which: evaluates enterprise and project risk impact, 
likelihood, and severity; identifies alternatives to achieve cost, 
schedule, and performance goals; supports informed decisionmaking on 
budget and funding priorities; provides risk information for project 
reviews and milestone decisions; and, establishes continuous monitoring 
of the health of the project over time.
    The BAS project risk is monitored routinely during extensive 
recurring executive review board sessions where risks are transparently 
discussed and mitigation strategies are reviewed and updated as 
warranted.
    In addition, the Project Manager is a Certified Project Management 
Professional (PMP) and both the Program Manager and Project Manager are 
certified as Senior Experts in the Federal Acquisition Certification 
for Program and Project Managers (FAC-P/PM).
    Question. What contingencies are being put in place to address 
delays and unexpected expenses?
    Answer. In accordance with industry standard project management 
methodology, the BAS project scope, cost, and schedule include 
contingencies commensurate with other similar-sized Federal agency 
financial management system implementations identified during market 
research interviews with other Federal agencies. There is planned 
contingency within the BAS project's schedule that would allow Census 
to be delayed until the end of fiscal year 2017 without impact to the 
2020 Decennial. The BAS project implementation approach includes 
multiple planned activities to validate deployment readiness, including 
mock conversions, significant system and user acceptance testing and 
comprehensive end user training. Any issues identified during these 
activities will be documented, actively tracked and remediation 
solutions enacted. As part of our risk assessment activities, we 
maintain a list of alternative options that is updated throughout the 
project to use if remediation activities are deemed necessary. (Note: 
BAS inserted a 5 percent management cost reserve).
                            truck scrapping
    Question. The U.S.-Colombia Trade Promotion Agreement has helped to 
broaden our trade relationship with Colombia, and the Colombian heavy 
duty truck market is very important for America's manufacturers. 
However, following the trade agreement, American truck manufacturers 
have been harmed by Colombia's adoption of a restrictive series of 
decrees regarding the scrapping and registration of commercial 
vehicles. These regulations appear to violate both the spirit and 
letter of Colombia's obligations under the bilateral Trade Promotion 
Agreement and its commitments to international obligations under the 
World Trade Organization.
    What steps has the Commerce Department taken to restore American 
truck exports to Colombia?
    Answer. The Department has been working to address the changes in 
Colombia's truck scrapping program since April of 2013. We have worked 
with other U.S. Federal agencies, including the Department of State and 
the Office of the United States Trade Representative, to analyze the 
scrapping requirements, including their legal basis, their impact on 
U.S. trade, and the political situation in Colombia leading to the 
increasingly restrictive decrees.
    The Department is working with other U.S. Government agencies and 
industry to address the problems with the new scrapping regime. These 
efforts have also included coordinating with the European Union, Japan 
and Mexico, as well as engaging in outreach to the Organization for 
Economic Cooperation and Development (OECD) which is considering 
Colombia for membership. The Department raised the issue at the 
Ministerial level during President Santo's trip to the United States in 
December. Most recently, the Department worked to arrange and 
participate in a March meeting between members of U.S. industry and 
Colombian High Counselor Jaime Bueno, Vice Minister of Trade Claudia 
Candela, and Vice Minister of Transportation Nicols Estupian. This 
March meeting has led to follow-up meetings between industry and senior 
Colombian officials.
    Question. Is the Department satisfied with the Colombian response 
to date?
    Answer. No. However, industry recently reported that follow up 
talks to the March meeting have been constructive and offer hope for a 
positive outcome. The Department will continue to explore ways to 
effectively engage the Colombian authorities on this issue.
    Question. Does the Department plan to undertake additional steps to 
resolve this dispute?
    Answer. The Department is continuing to engage the Colombian 
Government on this issue on behalf of U.S. industry. Actions are being 
considered as needed to help reopen this important market.
                     nist cyber-security framework
    Question. NIST issued the Framework for Improving Critical 
Infrastructure Cybersecurity in February 2014.
    How are you encouraging ``critical'' U.S. infrastructure to adopt 
the Framework?
    Answer. NIST plans to work with industry, the Department of 
Homeland Security (DHS), and other Government agencies to support and 
improve the Framework. The Framework is a living document that will 
evolve based on industry feedback, and best practices, including 
changes in the threat environment, as well as changes in information 
technology and cybersecurity capabilities.
    Question. NIST also issues standards and guidelines for Government 
systems. How are those standards being aligned with the Framework?
    Answer. As noted in our companion publication, ``NIST Roadmap for 
Improving Critical Infrastructure Cybersecurity,'' NIST will continue 
to serve as a convener and coordinator to work with industry, DHS, and 
other Government agencies to help organizations understand, use and 
improve the Framework. In addition, Executive Order 13636 called for 
the Framework to ``identify areas for improvement that should be 
addressed through future collaboration with particular sectors and 
standards-developing organizations.'' Based on stakeholder input, NIST 
continues to work with stakeholders on high-priority areas for 
development, alignment, and collaboration that will inform future 
revisions of the Framework.
    As the Framework evolves, NIST will lead discussions of models for 
future governance of the Framework, such as potential transfer of the 
convener role to a non-government organization, while maintaining NIST 
involvement.
    Question. What does the Department of Commerce need to do to secure 
its IT systems so it can become the role model for protecting dot-gov?
    Answer. The Department is the principal defender and champion of 
the digital economy in the Federal Government. It plays a critical role 
in working with industry and other government stakeholders on the 
development of cybersecurity standards to help protect the Nation's 
critical infrastructure assets. Within the Department of Commerce, the 
Office of the Chief Information Officer (OCIO) has developed a cyber 
security strategic plan that establishes the mission, vision, goals and 
objectives as an effort to establish itself as a role model for 
protecting dot-gov.
    In doing so, the Department has embraced the President's Cyber 
Security Cross-Agency Priority (CAP) initiatives, in collaboration with 
the Department of Homeland Security, in information security continuous 
monitoring, trusted Internet connection capabilities and traffic 
consolidation, and strong logical access authentication using Homeland 
Security Presidential Directive (HSPD-12) Personal Identify 
Verification (PIV) cards. Strengthening these key areas, as well as 
maintaining best-practices in cyber security policy, workforce 
training, and compliance, will ensure the Department continues to 
protect the Department's information and information systems, and 
remains a role model for protecting dot-gov.
    Last but not least, as an effort to achieve operational excellence 
set forth by the Department's Cyber Security Strategic Plan, the 
Department's Chief Information Officers (CIO) Council is recommending 
an enterprise security shared-service portfolio approach delivering 
efficient and effective solutions.
                            trade promotion
    Question. The fiscal year 2015 request for the International Trade 
Administration is 8 percent above the fiscal year 2014 level of $470 
million, including a $7 million increase the Interagency Trade 
Enforcement Center and a $13 million increase for SelectUSA. However, 
the President's fiscal year 2015 request has only a 1 percent increase 
for expanding trade promotion through the U.S. and Foreign Commercial 
Service, and the request does not propose opening any new overseas 
offices.
    If the trade promotion budget stays flat, how will the 
International Trade Administration (ITA) reevaluate its Overseas 
Resource Allocation Model (ORAM) to ensure that Commercial Service 
Officers are posted in the most promising export markets?
    Answer. ITA uses the Overseas Resource Allocation Model (ORAM) and 
the Gap and Opportunity (GO) Analysis to inform staffing decisions. 
Whether or not the trade promotion budget stays flat, then Global 
Markets will continue to utilize both quantitative and qualitative data 
gathered from these resource allocation tools to make informed staffing 
decisions that ensure the proper allocation of existing resources, 
including the movement of resources, especially Foreign Commercial 
Service Officers. ITA updates the ORAM on an annual basis to ensure 
that the most up-to-date data, including growth projections, are 
included in the model. The model uses economic data to rank countries 
on two indices--market size and market structure. These two indices are 
then weighted and combined to generate a composite index that allows 
the model to group countries into three tiers based on overall 
rankings. The results generated by the model are intended to be used as 
a starting point for identifying countries with the highest potential 
as a destination for U.S. exports. The model does not attempt to 
estimate an absolute level of ``appropriate'' staffing for each market 
or take into consideration the budgetary climate. Rather, the focus is 
on providing objective economic data in a consistent and rigorous 
analytical structure for allocating available resources.
    In addition to the ORAM, Global Markets utilizes the GO Analysis to 
gather qualitative data to assist senior leadership with staffing 
decisions. The GO Analysis is designed to gather primary data from the 
overseas field, providing insight to challenges and opportunities at 
each post. The GO survey allows for a formal, standardized channel for 
overseas offices to request additional support.
    The qualitative data from the GO Survey and the quantitative ORAM 
data is combined to develop country summaries, which are further 
reviewed by senior leadership, including regional leadership, before 
any resource allocation recommendations are made.
    Final staffing decisions are made by senior leaders, who after 
evaluating both the ORAM and GO survey take budgetary and any other 
factors into consideration.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                       fisheries--western region
    Question. Secretary Pritzker, the National Marine Fisheries Service 
(NMFS) plays a significant role in California. NMFS is tasked with 
managing and protecting endangered salmon species, and thus it 
participates in every major decision involving the State and Federal 
water projects in California to balance water needs for fish, the 
environment, farms, and communities.
    As I understand it, NMFS is involved in the Bay Delta Conservation 
Plan, revision of the remanded salmon biological opinion, emergency 
water operations for the current drought, and a variety of salmon 
restoration and management programs.
    In your view, is the current budget allocated to the Western Region 
of NMFS adequate to keep pace with the demands of the various 
California water initiatives?
    Answer. NOAA Fisheries' work in the Sacramento and San Joaquin 
watersheds occurs in three main program areas:

  --Regulatory and Administrative functions for the Central Valley/
        State water project;
  --Endangered Species Act (ESA) administration for the broader suite 
        of actions across the entire Central Valley/San Joaquin 
        geography; and
  --Monitoring and technical support associated with these two areas.

    NOAA Fisheries has a long history of working with its partners to 
fulfill its goals in the Sacramento and San Joaquin watersheds. These 
partners include the State of California and the Bureau of Reclamation. 
While the recent drought has increased short-term stress on completing 
regulatory requirements and highlighted the need for a more 
comprehensive management of the system focused on the long-term 
protection and recovery of salmonids, NOAA Fisheries has been able to 
keep pace with the demands of the various California water initiatives 
through its partnership efforts.
    Question. Can you please provide me with a detailed breakdown of 
your activities, the resources required, and the funding gaps to meet 
your obligations?
    Answer. NOAA Fisheries focuses resources on highest priority 
actions in the California Central Valley. Activities are supported by 
the ESA Pacific Salmon budget line. The fiscal year 2014 budget 
includes approximately $6.6 million from the line for activities in the 
California Central Valley. Actions are focused on three primary 
activity areas: (1) Endangered Species Act (ESA) review and permitting, 
(2) ESA administration, and (3) monitoring and science. See below for a 
breakdown of current activities.

  --Approximately $180,000 to assist in the immediate drought response 
        effort.
  --Approximately $400,000 per year supports biological opinion remand 
        effort, now due in February 2018.
  --Approximately $5.0 million supports ESA administration across the 
        Central Valley.
  --Approximately $1.0 million in funds are being used to support 
        monitoring and science.
  --Current work on the life cycle model is being funded through an 
        interagency agreement with the U.S. Bureau of Reclamation for 
        $1.4 million.
  --NOAA Fisheries is also conducting 3-year predation experiment 
        funded by the by the California Department of Fish and Wildlife 
        for $2.0 million.

    The fiscal year 2015 budget includes level funding for these 
activities.

    Question. Besides operation of the State and Federal water 
projects, what other factors have you identified as the major 
influences and drivers of the health and abundance of salmon?
    Answer. In addition to the impacts associated with the construction 
and operation of the Central Valley Project/State Water Project 
facilities, other main factors limiting the health and abundance of 
salmon in the Central Valley include:

  --the loss of the majority of spawning and rearing habitat by dams;
  --the loss of floodplain and riparian habitat availability along the 
        main rivers and tributaries resulting from levee construction 
        and maintenance;
  --the loss of wetland habitat in the Delta;
  --predation by non-native species;
  --hatchery production causing reduced fitness of wild fish;
  --the commercial and recreational ocean salmon fisheries;
  --poor water quality resulting from agricultural and urban land use; 
        and
  --changing river and ocean conditions due to climate change.

    Question. What has your Department done to address non-water 
project factors?
    Answer. NOAA Fisheries is the Federal agency responsible for 
managing, conserving, and protecting living marine resources in inland, 
coastal, and offshore waters of the United States. NOAA Fisheries is 
contributing to the recovery of salmon and rebuilding of the Central 
Valley aquatic systems through its West Coast Region's California 
Central Valley Area Office. We work in the Central Valley river basins 
to protect species listed under the Endangered Species Act by 
evaluating the impact of proposed Federal actions, developing recovery 
plans, seeking conservation partnerships with local governments and 
landowners, and ensuring safe fish passage.
    Pacific salmon have a unique life cycle that includes time in both 
inland and ocean habitats. They have particular needs at each stage of 
this cycle. Young salmon need clean, cool water and safe passage to the 
ocean, where they spend 3 to 6 years feeding and growing. They then 
need healthy habitat when they return to freshwater as adults to spawn. 
The work of NOAA Fisheries reflects the uniqueness of the salmon life 
cycle with biologists and engineers who:

  --restore and protect important freshwater habitat for healthy 
        rearing and spawning of salmon, such as riparian areas and 
        floodplains;
  --design safe fish passage solutions at hydropower facilities, such 
        as Federal and non-Federal dams requiring Federal licenses, and 
        at water diversions throughout California;
  --manage hatcheries to minimize impacts on wild salmon populations; 
        and
  --work with States and tribes to ensure sustainable commercial, 
        recreational, and tribal fisheries.
                    fisheries--real-time monitoring
    Question. It is my understanding that real-time monitoring of 
salmon throughout its life cycle can be extremely beneficial not only 
for managing the fish, but also for enabling more precise water 
operations. However, I have been told that NMFS's real-time monitoring 
capabilities are very limited right now.
    What are the obstacles to developing and deploying the real-time 
monitoring tools?
    Answer. Obstacles to real time monitoring of salmon include access 
limitations on private lands and labor intensive efforts and equipment 
needed over the long-term to collect the data. To take advantage of the 
best available real-time monitoring tools, an extensive fish tagging 
program is needed. Program needs include development of protocols, 
equipment (e.g., tags), adequate numbers of fish and a release strategy 
for tagged fish. In addition, receivers to detect fish movement would 
need to be installed in key locations. The receivers must be monitored 
frequently to ensure data transmission and operation is correct and the 
data must be carefully scrutinized to properly identify fish 
detections.
    Real-time monitoring requires either direct biologist reporting 
and/or remote reporting (e.g., fish tags and receiving stations in the 
river to monitor fish movements) of information on a daily (or more 
frequent) basis to inform decisionmaking needed by agency managers at 
NOAA Fisheries, California Department of Fish and Wildlife, and other 
Federal and State agencies. Frequently, other information (e.g., flow 
gauge information and water release data) related to understanding the 
impacts of water operations on salmon does not require daily reporting, 
but is needed in a timely fashion to inform the real-time management 
cycle. Currently, NOAA Fisheries partners with State and other Federal 
agencies who are already collecting the information.
    For salmon in coastal watersheds of California, NOAA Fisheries is 
engaged in technical, management, and policy discussions with the State 
of California regarding the State's Coastal Monitoring Plan. This Plan 
aims to document in real-time the status and trends of coastal 
California salmonids throughout their life cycles, and the condition of 
freshwater and estuarine habitats. However, the Plan currently lacks 
long-term State funding, dedicated staff, and able stakeholders to 
participate in monitoring.
    Question. What is needed to overcome these obstacles, and by when 
do you think you can achieve these capabilities?
    Answer. The first thing that is needed is a long term monitoring 
and science plan. As identified in the Bureau of Reclamation 
(Reclamation) and the California Department of Water Resources' Drought 
Operations Plan for April through November 2014, due to the necessity 
of rapid management decisions to achieve potential benefits to water 
storage or the conservation of species, agencies (including NOAA 
Fisheries) are interested in greater real-time operational 
decisionmaking, which the current monitoring system does not adequately 
address. To meet these real-time information needs, State and Federal 
agencies have committed to developing a robust multi-objective 
emergency fisheries monitoring and science plan, which includes 
improvements to current technology, to significantly improve the 
ability to make real-time operational decisions. NOAA Fisheries is 
developing additional temperature monitoring capabilities in the 
upstream Sacramento River area this summer. In addition, tools and 
research are also needed to improve understanding of biological effects 
associated with water operations regardless of hydrologic conditions. 
This overall plan will be developed by October 1, 2014, through a 
collaborative process led by NOAA Fisheries and the California 
Department of Water Resources in coordination with the other agencies. 
Once the plan is developed, NOAA can best determine what is needed on 
its part to move forward to monitor salmon in real time, in partnership 
with State and other Federal agencies.
                     fisheries--california drought
    Question. In the meantime, NMFS has been involved in discussions 
about emergency water operations to address California's drought 
conditions.
    Besides the operational plan released jointly by State and Federal 
agencies last week, what other actions do you plan to take to assist 
California during this historic drought?
    Answer. NOAA Fisheries, along with our Federal and State 
colleagues, are working diligently to balance all water needs while 
ensuring protections for threatened and endangered species, including 
Central Valley winter and spring-run Chinook salmon, Coastal California 
coho salmon, southern California steelhead, and the southern population 
of North American green sturgeon. Key concerns for these species 
include providing adequate cold water for salmon spawning and rearing 
and maintaining sufficient carryover storage in the event that drought 
conditions persist. Working with partners, NOAA is applying flexible 
management measures to meet multiple demands. For example, we recently 
worked with Sacramento River Settlement Contractors on options to shift 
a significant portion of their diversions this year out of the April 
and May period and into the timeframe where Keswick releases are higher 
to achieve temperature objectives on the upper Sacramento River. This 
will have benefits for both fish species and agriculture.
    In addition to the current Drought Operations Plan, the 
Administration released a white paper entitled, ``Federal Program 
Support For the California Bay-Delta Region'', which describes the wide 
array of Federal activities and programs across several agencies, that 
complement the California Water Action Plan and goals for the Bay-Delta 
and the rest of the State. The white paper is available at: http://
www.doi.gov/news/upload/Federal-Investments-for-the-California-Bay-
Delta-
Region.pdf.
    Question. Do I have your personal commitment that you will do 
everything within your authority to exercise maximum flexibility under 
the law so that more water supplies can be made available to California 
such that our farms and communities will not bear a disparate burden in 
the regulation of California's water resources?
    Answer. Droughts are hard on everyone, and we concur with the basic 
tenet that everyone ``share the pain'' in a drought farmers, urban 
residents, commercial fisherman, and the species that we work so hard 
to protect. In this extraordinarily dry year, all water users, 
including agricultural, municipal, and fish and wildlife uses will 
suffer hardship. Since December 2013, NOAA Fisheries has worked daily 
with other State and Federal agencies that supply water, protect fish 
and wildlife, and regulate water quality to cope with this serious 
drought in California. Together, along with our State and Federal 
colleagues, we have maximized regulatory flexibility to adjust quickly 
to changes in the weather and environment and bolster water supplies 
when possible while minimizing impacts to fish and wildlife. 
Importantly, this rapid intra- and inter-agency coordination has sought 
to make real-time decisions within the existing regulatory framework 
rather than waive or overrun applicable law. We share common goals with 
our Federal and State partners and seek to ensure the best possible use 
of limited water supplies.
    We are currently exploring ways in which we can work directly with 
water users and apply regulatory flexibilities to help reduce the 
negative effects of the drought on species listed under the Endangered 
Species Act (ESA) while also supporting California's agricultural 
activities. During the drought, water withdrawals from salmon and 
steelhead-bearing streams and rivers could result in a take under the 
ESA, and we are looking to work in partnership with individual water 
users to help them identify steps they can take to avoid the risk of 
takes. You have our commitment that collectively, with our partners in 
State and Federal agencies, as well as with other organizations and 
individuals, we will continue to work to meet health and human safety 
needs, legal requirements, and conservation objectives.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor
                      unfair steel trade practices
    Question. The U.S. Department of Commerce is responsible for 
conducting antidumping (AD) and countervailing duty (CVD) 
investigations as well as 5-year sunset reviews under Title VII of the 
Tariff Act of 1930. These investigations are triggered when U.S. 
companies bring cases against foreign competitors when they dump their 
products in our market by selling at less than fair value or when they 
receive government subsidies to undercut U.S. competitors in violation 
of U.S. trade law. Moreover, these laws are an integral part of ``the 
rules-based international trading system,'' and they are the last vital 
defense for U.S. manufacturing against foreign unfair trade.
    The first case involves sophisticated, high end steel pipe (Oil 
Country Tubular Goods) used in drilling for oil and natural gas which 
was brought against exports from a number of different countries 
including Korea. Exports from Korea have surged after 2009 when U.S. 
companies successfully brought a similar case against Chinese 
manufacturers over dumping the same product. As Chinese exports fell to 
almost nothing, exports from Korea have surged over the last 4 years. 
Korea is effectively targeting our market since it does not sell this 
product domestically or (in substantial volumes) to other nations. 
Ninety-eight percent of what is produced in Korea is exported directly 
to the United States.
    Currently there are two countervailing duty and antidumping 
investigations being conducted by the United States Department of 
Commerce on imports of steel reinforcing bar (rebar) from Turkey and 
Mexico. Imports from Turkey and Mexico of rebar have nearly doubled 
from 2011 to 2013. The International Trade Commission recently found 
that Mexican and Turkish rebar producers are consistently underselling 
U.S. producers which has resulted in substantial lost sales and 
depressed prices. In addition, the Department of Commerce made a 
preliminary finding that the Government of Turkey gives energy 
subsidies to its rebar industry, but that such subsidies are only de 
minimus in value. You led a letter on this issue that went out this 
week.
    I have been closely following three separate steel dumping cases, 
one involving high end pipe for drilling and two involving rebar. Both 
of these cases are now pending before the Department and are critically 
important to companies and workers in my State. I know you can't 
comment specifically on any of these cases but I have to tell you that 
domestic producers in my State are raising a lot of red flags. It is 
important to me that we get this right since the industry collectively 
employs over 1,800 people and another 500 contract workers in my State 
alone.
    These investigations are a huge responsibility for the Department 
and I understand that these cases are extremely resource-intensive. I 
know domestic companies prosecuting these cases have had difficulty 
getting complete and accurate information from foreign producers, have 
complained about repeated extensions of time given to foreign producers 
to supply information, and about the difficulty U.S. companies then 
have in litigating dumping cases when they only have access to partial 
and untimely data.
    Question. How many investigators do you have on staff and how many 
investigators would be assigned to a typical case?
    Answer. The Department is fully committed to enforcing our trade 
remedy laws so that American industries and workers have the 
opportunity to compete on a level playing field with their foreign 
competitors. The enforcement of the antidumping duty (AD) and 
countervailing duty (CVD) trade remedy laws is one of the Department's 
top priorities. The Department has received numerous steel-related 
petitions in the past months and it is currently conducting 39 
investigations involving steel products from a number of countries. The 
Department has devoted significant resources to these cases to ensure 
that unfair trade practices are identified and remedied at the border. 
Each investigation has unique facts. As such, the number of experts 
that may be assigned to a proceeding will vary from case to case. 
Typically, however, a case team will be staffed by 6 to 8 experts.
    With respect to the ongoing cases on steel products, including 
those on oil country tubular goods and rebar, the Department's 
Enforcement and Compliance Unit, whose primary mission is conducting 
these trade cases, is focused on these matters and is diligently 
scrutinizing the information on the record of this proceeding in order 
to identify the extent of any unfair dumping or subsidization.
    Question. Do you have adequate resources to conduct investigations 
on these matters?
    Answer. With respect to the question of whether the Department has 
adequate resources to conduct these investigations, Enforcement and 
Compliance currently has approximately 115 international trade 
compliance analysts, 23 policy analysts, 20 accountants, and 27 legal 
experts who are tasked with investigating allegations of dumping and 
unfair subsidization. The Department supports the request of the 
President as reflected in his budget proposal and will ensure that the 
vigorous enforcement of U.S. trade remedy laws remains a top priority. 
The Department will continue to conduct all antidumping and 
countervailing duty investigations in a thorough transparent manner, in 
accordance with U.S. law and our international obligations.
    Question. In a case like the Korea Oil Country Tubular Goods (OCTG) 
matter, how many Department of Commerce investigators would travel to 
Korea to conduct the investigation and how long would they be on site?
    Answer. A large portion of the Department's work in an 
investigation or administrative review takes place in the United 
States, with the Department analyzing information that foreign 
producers or exporters provide in response to questionnaires issued by 
the Department. In addition, in accordance with U.S. law, the 
Department verifies information relied upon in making a final 
determination in AD and CVD investigations or the final results of an 
administrative review if certain requirements are met. Typically, two 
analysts and two accountants conduct on-site verifications of each 
responding company's sales and cost of production information. The 
verification process, which may take one week or more, is designed to 
focus on a prioritized, cross section of information, and to check the 
validity of the factual information submitted by the respondent in the 
questionnaire response and confirm whether the Department can rely on 
the factual information to make its final determination.
    Question. As Secretary of Commerce, will you commit to making 
enforcement of our trade laws a top priority of the Department?
    Answer. Yes. The Department takes seriously the enforcement of our 
trade laws which provide U.S. manufacturers a means to remedy the 
market-distorting effects of unfair dumping and subsidization. The 
Department is fully committed to vigorously enforcing our trade laws 
and to addressing unfair trade practices in accordance with our 
statutes, regulations, and international obligations in order to help 
ensure that U.S. firms and workers have the opportunity to compete on a 
level playing field.
    Question. Will you take the lead--in multilateral and bilateral 
negotiations in defending, preserving and enhancing U.S. laws against 
unfair trade, and in opposing any efforts to weaken these laws?
    Answer. The Department strongly supports the goal of defending, 
preserving and enhancing U.S. trade laws. The Department works closely, 
and will continue to work closely, with the Office of the U.S. Trade 
Representative to ensure that any bilateral, multilateral or regional 
trade negotiations pursued by the United States do not undermine the 
strength and effectiveness of the U.S. unfair trade remedies, so that 
U.S. manufacturers, exporters, agricultural interests and workers all 
share the benefits that such trade agreements bring.
                 regional innovation strategies program
    Question. I am pleased to see that the Department's fiscal year 
2015 budget requests $25 million for the Regional Innovation Strategies 
Program. This funding is to be used for both grants and the science 
park loan guarantees authorized in Section 603 of the America COMPETES 
Reauthorization Act of 2010. I am also pleased to learn that the 
Economic Development Administration (EDA) is standing up a loan 
guarantee program for the science park and advanced manufacturing loan 
guarantees.
    How will this funding be apportioned between the grants and the 
loan guarantees?
    Answer. EDA is currently working to stand up the loan guarantee 
program, which is a substantial process that includes the development 
of regulations that will govern program administration. This process is 
expected to take until late 2015, at which time EDA expects to be able 
to provide its first loan guarantees. In the meantime, EDA plans to 
provide competitive grant funding through the Regional Innovation 
Strategies (RIS) program throughout fiscal year 2015 in order to 
accelerate the economic impact of the program. Fund apportionment 
between the grants and loan guarantees will be based on demand for each 
from potential applicants. At this point, it is clear that there will 
be a strong demand for grant funding, while demand for loan guarantees 
will become clearer as EDA moves further along in the program 
development process throughout 2014 and 2015. EDA will have an outreach 
campaign to industry and lenders by January of 2015. EDA would be 
pleased to provide updates on levels of demand for loan guarantees, 
which will inform the process for funding apportionments between grants 
and loan guarantees.
    Question. What results have been realized from the previous rounds 
of the I6 and Jobs & Accelerator grants?
    Answer. EDA has made a number of planning and implementation 
investments in science park projects in recent years across the 
country. For example, last year, EDA awarded a grant to the University 
of Connecticut, Storrs, Connecticut, to support the development and 
implementation of a regional economic development analysis and 
determination of opportunities associated with the 2015 opening of the 
University of Connecticut's Technology Park, which will promote 
economic growth opportunities statewide. EDA also provided funding last 
year to Prairie View A&M University, Prairie View, Texas, to support 
the development and implementation of the Prairie View Comprehensive 
Economic Development Strategy through a collaboration of the various 
academic departments, city officials, and business stakeholders to help 
establish a science and technology research park as an innovative way 
to enhance the area's economy.
    Question. What is the status of the loan guarantee program? When 
will it be operational? When will the Department issue a Federal 
funding opportunity?
    Answer. Planning for these programs is well underway, and EDA has 
consulted with other Federal agencies on best practices for how to 
implement a successful program. EDA is moving forward with standing up 
the science park loan guarantee program and the loan guarantee program 
for innovative manufacturing. A contractor has been hired to help set 
up the program including identifying staffing needs and providing a 
detailed timeline of deliverables.
    The timeline for standing up the loan program is still in 
development, so milestone dates are still tentative. EDA expects to 
have a staff hired and begin outreach to industry and lenders by 
January of 2015. Outreach will be done through the distribution of 
marketing materials and outreach to trade associations and lenders. The 
first loan Commitment is expected to happen by the end of calendar year 
2015.
                            rural broadband
    Question. As Chairman of the Communications, Technology, 
Innovation, and the Internet (CTI) Subcommittee, I have jurisdiction 
over the National Telecommunications & Information Administration 
(NTIA), which is housed under the Department of Commerce. Bringing 
high-speed broadband to all rural consumers is vital to the future of 
the Nation. Broadband is the gateway to the worldwide digital economy, 
and offer access to world-class education, healthcare, entertainment, 
and civic engagement.
    Under your leadership, how would the NTIA continue to support 
broadband deployment and adoption as the Recovery Act grant programs 
wind down?
    Answer. The $4 billion in Broadband Technology Opportunities 
Program (BTOP) grants in which NTIA has invested are helping to ensure 
that Americans have the resources and skills needed to benefit from the 
economic, educational, and civic opportunities the Internet makes 
possible. Our broadband grant projects have created or saved thousands 
of jobs while making an immediate economic impact in some of the 
country's hardest hit communities. BTOP projects have already delivered 
approximately 112,000 miles of broadband networks; connected more than 
21,000 schools, libraries, and healthcare facilities to broadband; and 
deployed more than 46,000 computer workstations across the Nation. 
These projects are making a positive difference in the communities they 
serve and laying a foundation for long-term economic growth.
    The President's 2015 budget request builds upon this success by 
repurposing funds saved from the ramping down of the BTOP grant 
program. NTIA will continue oversight of existing grants and will 
utilize our team's expertise to build coalitions and provide needed 
technical expertise to promote expansion of broadband into communities. 
For example, our team will continue to collaborate with and provide 
technical assistance to the network of State broadband leaders and 
offices like Connect Arkansas, even though our grant funding for the 
State Broadband Initiative has ended. Our strategy utilizes a public/
private partnership concept and builds on the strong working 
relationships developed with broadband providers, municipal 
organizations, innovation economy firms, non-profit organizations, 
foundations, and other Federal stakeholders. By leveraging these 
partnerships, we will develop national strategies that will encourage 
communities to elevate their broadband preparedness and innovation 
readiness, making significant strides toward meeting the 
Administration's broadband and economic development goals. It also 
enables better identification of opportunities to empower community 
leaders and provide them with tools to advance projects which attract 
new business investments and spur economic growth.
    Question. What do you think are the biggest challenges in bringing 
next generation Internet and communications networks to rural America?
    Answer. Geography, population density, cost, and lagging adoption 
are all significant challenges to bringing broadband to rural 
communities. The Department is committed to expanding broadband across 
America as an engine of economic and social growth. The President's 
2015 budget request includes repurposing funds for the purpose of 
working strategically with communities to enable them to fulfill their 
broadband needs.
                              buy america
    Question. Buy America and Buy American are separate legislation and 
regulation requirements. Buy America applies solely to grants issued by 
the Federal Transit Administration and Federal Highway Administration. 
Buy American may be applied to all direct U.S. Federal procurement.
    The Buy American Act of 1933 generally requires Federal agencies to 
purchase ``domestic end products'' and use ``domestic construction 
materials'' on contracts performed in the United States exceeding a 
purchase threshold.
    The Buy America Act which is the popular name for a group of 
domestic content restrictions that have been attached to grant funds 
administered by the Department of Transportation (DOT) generally 
requires that steel, iron, and manufactured products made primarily of 
steel or iron and used in infrastructure projects be produced or 
manufactured in the United States.
    One of the great ways to put Americans back to work is to invest in 
U.S. manufacturing and infrastructure. Buy American laws are a proven 
job creation tool that are broadly supported by the American people and 
State and local governments.
    For too long, too many companies have shipped U.S. jobs overseas. 
Meanwhile, companies that used to make things and hire people and pay 
taxes here in the United States continue to lose out on their share of 
Government contracts.
    In the past few years, more than 3 million manufacturing workers 
have lost their jobs. The Nation's infrastructure needs to be rebuilt. 
The American Society of Civil Engineers has given U.S. infrastructure a 
grade of D. Requiring companies to use Federal money to purchase 
domestic materials and manufactured goods will not harm American 
workers. Quite the contrary, it will provide much-needed jobs to 
millions of Americans and will help restore our Nation's economy.
    What can the Department of Commerce do to promote Buy American 
laws?
    Answer. The Department of Commerce works closely with the Office of 
the United States Trade Representative (USTR) to use U.S. domestic 
content laws to the advantage of U.S. exporters when trying to open 
government procurement markets abroad. The Trade Agreements Act of 1979 
generally prohibits the U.S. Federal Government from procuring goods or 
services from countries with which the United States does not have a 
reciprocal government procurement trade agreement. If our trading 
partners guarantee non-discriminatory treatment in their government 
procurement market for U.S. goods and services, the United States 
reciprocates by waiving the Buy American Act for certain procurements 
in our market.
    Question. Why is the Department not demanding more domestic content 
in the products it buys and the grants it issues?
    Answer. The Department of Commerce follows the United States 
Federal Acquisition Regulations in terms of complying with the Buy 
American Act and the domestic content requirements prescribed in the 
Act.
    Question. How can Congress strengthen Buy American?
    Answer. Whatever action Congress decides to take to strengthen Buy 
American laws should be consistent with our international trade 
obligations, as was done when Congress passed the American Recovery and 
Reinvestment Act of 2009. By having measures consistent with our 
international trade obligations, the United States avoids trade 
disputes with our trading partners that would ultimately punish U.S. 
exporters and workers.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                             steel dumping
    Question. Steel producers in my State have alerted me that low 
priced steel products are surging into the U.S. market, leading to 
significant declines in production and sales, and ultimately forcing 
companies to close facilities, lay off workers and cut worker hours. 
They believe these imports are unfairly traded and have filed trade 
cases under our dumping and subsidy laws.
    However, I am concerned that budget constraints at the Department 
threaten to undermine the vigorous application and enforcement of our 
trade laws. For example, over the past several years, the Department 
has been forced to significantly reduce its efforts to verify the 
accuracy of information submitted by foreign producers in trade remedy 
proceedings.
    Can you assure me that the Department will vigorously apply and 
enforce the U.S. trade remedy laws? And do you believe that you have 
adequate resources to do so?
    Answer. The Department is fully committed to enforcing our trade 
remedy laws so that American industries and workers have the 
opportunity to compete on a level playing field with their foreign 
competitors. The enforcement of the antidumping duty and countervailing 
duty trade remedy laws is one of the Department's top priorities. The 
Department has received numerous steel-related petitions in the past 
months and it is currently conducting 39 investigations involving steel 
products from a number of countries. This figure represents roughly 75 
percent of the Department's ongoing investigations and it has devoted 
significant resources to these cases to ensure that unfair trade 
practices are identified and remedied at the border. With respect to 
the ongoing cases on steel products, the Department's Enforcement and 
Compliance Unit, whose primary mission is conducting these trade cases, 
is focused on these matters and is diligently scrutinizing the 
information on the record of these proceedings to identify the extent 
of any unfair dumping or subsidization.
    With respect to whether the Department has the adequate resources 
to enforce U.S. trade remedy laws, the Department supports the request 
of the President as reflected in his budget proposal and will ensure 
that the vigorous enforcement of U.S. trade remedy laws remains a top 
priority. The Department will continue to conduct all antidumping and 
countervailing duty investigations in a thorough and transparent 
manner, in accordance with U.S. law and our international obligations.
    Question. Given budgetary constraints, do you agree that the 
Department should prioritize resources for those offices that have a 
primary role in investigating dumped and subsidized imports (for 
example, the office of enforcement and the office of accounting, as 
opposed to the office of AD/CVD policy)? If not, why not?
    Answer. The Department conducts all trade remedy proceedings in a 
thorough manner, in accordance with U.S. law and our international 
obligations. Enforcement and Compliance's Office of Policy and 
Negotiations is an integral part of the Department of Commerce team 
responsible for investigating allegations of unfair dumping and 
subsidization, and also provides valuable counseling and guidance to 
U.S. companies, including small and medium-sized enterprises, that are 
being harmed by foreign unfair trade practices.
                                 ______
                                 
          Question Submitted by Senator Senator Jeanne Shaheen
   international trade administration-trans-pacific partnership (tpp)
    Question. Secretary Pritzker, I'm curious to learn more about the 
role of the Department of Commerce in trade negotiations, specifically 
the Trans-Pacific Partnership (TPP). As you know, I am very interested 
in ensuring that manufacturers in New Hampshire and across the country 
are able to compete on a level playing field globally, especially in 
the areas of textile manufacturing and footwear. As the TPP is 
negotiated, we must ensure that we maintain the competitiveness of 
these industries in New Hampshire and the United States.
    As I'm sure you are aware, Vietnam is pressing for a ``relaxed rule 
of origin'' for textiles. This would run counter to the long-held U.S. 
Government position of supporting a Yarn Forward Rule of Origin, which 
would require all textile and apparel manufacturing to be completed in 
countries that are part of TPP. In fact, my colleagues and I in the New 
Hampshire Congressional delegation feel so strongly that we, as you may 
recall, sent a letter in February to you and Ambassador Michael Froman 
about this issue.
    Can you explain the Commerce Department's role in ensuring strong 
textile rules in the TPP, and how your agency interacts with the U.S. 
Trade Representative to support a TPP outcome that will be beneficial 
to textile producers in New Hampshire and across the country?
    Answer. The Department appreciated hearing from you and your 
colleagues in the New Hampshire Congressional delegation on this 
important trade matter. The Department of Commerce's Deputy Assistant 
Secretary for Textiles, Consumer Goods, and Materials has been 
intimately involved in each round of these negotiations, working with 
the Assistant United States Trade Representative (USTR) for Textiles to 
ensure that the concerns of our domestic industry stakeholders are 
addressed. The Administration strongly supports the ``yarn-forward'' 
rules of origin and is committed to reaching an agreement in the TPP 
that benefits the textile and apparel industries in all of the partner 
countries, including our own. The U.S. textile negotiating team 
includes textile experts from Customs and Border Protection to make 
sure that the agreements have strong enforcement provisions. The team 
also works in close consultation with U.S. industry and other 
stakeholders to develop a responsible approach to tariff elimination 
that ensures our textile industry will not be competitively 
disadvantaged. The Department will continue to consult with industry 
and other stakeholders on matters of concern.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                               fisheries
    Question. The Department plays a primary role in the management of 
our Nation's marine fisheries. I am especially interested in this 
because of Alabama's connection to the Gulf of Mexico. Recent reports 
have suggested there may be lasting impacts on the health of different 
fisheries following the 2010 oil spill.
    What is the Department proposing in 2015 to ensure we understand 
the long-term impacts of the Deepwater Horizon spill and how best to 
address them?
    Answer. The Department is involved in several major initiatives 
that support the environmental and economic recovery of the gulf 
following the Deepwater Horizon spill.
    For the Natural Resource Damage Assessment (NRDA) process conducted 
under the Oil Pollution Act, the Department, through the National 
Oceanic and Atmospheric Administration (NOAA), will be working with our 
State and Federal co-trustees to finalize the analysis of data gathered 
as part of the NRDA injury assessment and developing appropriate 
restoration to address oil spill injuries. This process will result in 
a Damage Assessment and Restoration Plan for which a draft will be 
presented to the public for review and a final version presented to the 
Responsible Party as a requirement under Oil Pollution Act.
    Regarding how best to address impacts, NOAA, on behalf of the 
Department, will also be working with the National Fish and Wildlife 
Foundation and our State partners to fulfill our established role under 
the Gulf Environmental Benefit Fund. In this role, the National Fish 
and Wildlife Foundation consults with NOAA for advice in restoration 
project identification and in maximizing environmental benefits of 
those projects. NOAA views this advisory role as a key opportunity to 
support the States to promote a coordinated and successful approach for 
restoring the gulf.
    NOAA is also deeply involved with the RESTORE program. Under 
section 1604 of the RESTORE Act, NOAA is authorized, in consultation 
with the U.S. Fish and Wildlife Service, to establish and administer a 
``Gulf Coast Ecosystem Restoration Science, Observation, Monitoring, 
and Technology Program'' (informally, the NOAA RESTORE Act Science 
Program). The mission of the RESTORE Act Science Program is to initiate 
and sustain an integrative, holistic understanding of the Gulf of 
Mexico ecosystem and support, to the maximum extent practicable, 
restoration efforts and the long-term sustainability of the ecosystem, 
including its fish stocks, fishing industries, habitat, and wildlife 
through ecosystem research, observation, monitoring, and technology 
development.
    Question. With regards to red snapper fishery in the gulf, will the 
Department take advantage of current technology such as electronic 
monitoring and reporting to increase the amount of real-time data it 
receives to inform management practices for recreational fishermen?
    Answer. The Department has made progress on employing electronic 
reporting for recreational reporting for Gulf of Mexico red snapper, as 
explained below.
Electronic Reporting on Headboats
    On March 5, 2014, the final rule became effective that requires 
federally permitted headboats in the Gulf of Mexico to submit their 
logbook data to NOAA Fisheries electronically on a weekly basis. The 
purpose for shifting from paper logbooks, which were submitted monthly, 
to weekly electronic reporting was to ensure effort, landings, and 
discard information of federally managed fish are recorded accurately 
and in a timely manner. The intent of the rule is to ensure annual 
catch limits are not exceeded.
    Additionally, in August 2013 NOAA Fisheries approved an exempted 
fishing permit. The exempted fishing permit, which was developed by the 
Gulf Headboat Collaborative, became effective January 1, 2014. The 
intent of the exempted fishing permit is to evaluate a new electronic 
data collection system and test whether an allocation-based management 
system can more effectively achieve conservation and management goals 
than the existing management system. A total of 17 for-hire headboats 
are currently participating in the exempted fishing permit. Vessels are 
required to have a vessel monitoring system, submit an electronic hail 
out before every trip via their vessel monitoring system, submit an 
electronic hail in via their vessel monitoring system before returning 
to report, and submit an electronic logbook to the SE Headboat Survey 
on the day of the trip. These electronic reporting requirements are 
intended to ensure landings are reported in an accurate and timely 
manner and law enforcement and port samplers have opportunities to 
inspect and validate reported landings.
Electronic Reporting on Charter Boats
    The South Atlantic and Gulf of Mexico Fishery Management Councils 
have established a joint technical committee to develop recommendations 
on how to best achieve an electronic reporting system for charter 
vessels. The committee will hold its first meeting in late May and its 
recommendations will be provided for the Councils' consideration by 
December 1, 2014. Meantime, Federal scientists and managers have 
collaborated to prepare a white paper that outlines a range of program 
objectives and alternatives for meeting those objectives to serve as a 
starting point for the committee's deliberations. Decisions by the 
Councils and the Department on the use of electronic reporting in the 
charter fleet for red snapper and other recreationally important 
species will be informed by these recommendations.
Pilot Studies Using Electronic Reporting for Pulse Fisheries
    The baseline Marine Recreational Information Program (MRIP) surveys 
conducted by NOAA Fisheries and its partners are designed primarily to 
obtain reliable estimates of annual catch and effort for unit stocks of 
our most important recreational fisheries. Fisheries such as gulf red 
snapper that are intensively prosecuted for short time periods 
(``pulse'' fisheries), or those that are infrequently encountered in 
our sampling (``rare event'' fisheries), are sampled by the MRIP 
baseline surveys, but the results are not usually available until the 
season is well under way or even ended. Moreover, the catch estimates 
for small geographic areas or short time intervals may not be 
sufficiently precise to meet the needs of managers. Recognizing this, 
the NOAA Fisheries MRIP program is conducting a series of workshops 
with Gulf of Mexico management partners to develop and test a number of 
methods, including modification of the current MRIP survey design, 
which may enable collection of supplemental red snapper catch data that 
better fits the needs of the region's managers.
    MRIP has agreed to fund three pilot projects this year two in 
Alabama and one in Texas that will use electronic reporting technology 
to obtain in-season data on red snapper catch. We believe that testing 
these three designs, and others in Florida and Louisiana that were 
reviewed in the workshops, will result in identification of workable 
approaches to supplemental data collection that are more timely and 
better suited to the challenges of red snapper and similarly managed 
fisheries in the future.
                                 trade
    Question. Secretary Pritzker, the Administration is pursuing an 
aggressive trade agenda. This requires resources to ensure we maintain 
a strong position during negotiations, but also tremendous resources in 
the future to enforce and oversee the agreements reached.
    How will closing out a major trade deal such as the Trans-Pacific 
Partnership impact the Department's future budget proposals?
    Answer. The Department of Commerce's International Trade 
Administration (ITA) plays a critical role in supporting the 
negotiation, implementation, and successful operation of trade 
agreements. Specifically, ITA works to:

  --represent the interests of exporters and investors during 
        negotiations;
  --engage our trading partners on implementing the agreement's 
        guarantees of market access and fair treatment;
  --monitor an agreement's operation to ensure those guarantees are 
        being upheld; and
  --conduct outreach on the agreement to promote exports and 
        investment.

    The Department is therefore constantly assessing its resource needs 
so that ITA will be able to fulfill its mission in these respects, and 
to ensure that U.S. industry is receiving the full benefit of the 
United States' trade agreements.

    Question. Does the Department consider the future resource needs 
required by new trade deals before entering into new trade 
negotiations?
    Answer. The Department continually endeavors to ensure that it is 
able to carry out its mission with respect to trade agreements, 
including planning for both new trade negotiations and the 
implementation and monitoring of those agreements already in place.
               trade--economic development administration
    Question. Secretary Pritzker, the Administration is pursuing an 
aggressive trade agenda. This requires resources to ensure we maintain 
a strong position during negotiations, but also tremendous resources in 
the future to enforce and oversee the agreements reached.
    With such an ambitious trade agenda, why has the Department 
proposed cutting support for programs that help American businesses 
deal with the impacts of trade agreements, such as the Economic 
Development Administration's (EDA's) Trade Adjustment Assistance (TAA) 
program?
    Answer. The Department of Commerce is committed to ensuring that we 
provide assistance to American trade impacted communities and firms. 
The lowered funding is a result of working to achieve the best and most 
balanced allocation of fixed dollars in EDA's budget across all of its 
program areas to achieve the best return on investment and greatest 
impact for the communities we serve. To improve the TAA program, EDA is 
establishing a process where the Trade Adjustment Assistance Centers 
(TAACs) will be required to compete on merit for TAA funding. EDA is 
also working with TAACs to achieve greater efficiency and cost savings. 
In addition, EDA is able to help trade-impacted communities and firms 
through its Economic Adjustment Assistance Program, thereby potentially 
reducing the need for TAA funds. Economic Adjustment Assistance is 
EDA's most flexible program and is critical to the agency maintaining 
its ability to effectively and efficiently respond in real time to 
economic dislocations as they occur, including trade impacts.
                   polar satellite program robustness
    Question. There exists a real risk for catastrophe should JPSS-1 
fail. I find it unacceptable that a program so critical to the safety 
of our Nation should be one failure away from catastrophe.
    Secretary Pritzker, what is the Department proposing in its 2015 
budget to increase the robustness of the JPSS program to ensure that 
NOAA can fulfill its weather forecasting mission in the event of a 
failure?
    Answer. The Administration remains focused on increasing the 
robustness of our polar orbiting weather satellite program and 
mitigating the potential impacts to NOAA's National Weather Service 
(NWS) forecasts, services and products in the event a gap materializes. 
The fiscal year 2015 President's budget allows NOAA to do three things 
to increase the robustness of the polar program. First, the budget 
provides sufficient funds to ensure the primary satellite providing 
operational weather data in the afternoon polar orbit, Suomi NPP, is 
operated and managed to maximize the length of its mission life. 
Second, the budget keeps the JPSS-1 spacecraft on track to launch no 
later than the second quarter of fiscal year 2017. Finally, the budget 
allows the JPSS program to purchase additional, critical long lead sub-
assemblies and parts to support the build of spare ATMS (Advanced 
Technology Microwave Sounder) and CrIS (Cross-track Infrared Sounder) 
instruments, while also protecting the accelerated JPSS-2 schedules. 
These two instruments ATMS and CrIS are the most critical to the NWS.
    The Department recognizes the need to build robustness into the 
JPSS program to maintain observations in the event of a loss of a 
satellite in the afternoon polar orbit. The formulation and 
acceleration of follow-on missions is a critical component of NOAA's 
strategy to reduce the likelihood of a gap in satellite data through a 
more robust JPSS architecture. NOAA is looking at recommendations made 
by the NESDIS Enterprise Independent Review Team's (IRT) for a robust 
polar follow-on program and a Gap Filler mission to guard against a gap 
in polar data beyond JPSS-1. The Administration acknowledges that the 
first step in any decision is the procurement of long lead parts for 
ATMS and CrIS as quickly as possible.
                        satellite gap mitigation
    Question. The Commerce IG and GAO anticipate a gap in critical data 
from polar orbiting satellites. This would be detrimental to the safety 
of millions of Americans. This is an issue we discussed with your 
predecessor last year and unfortunately, I have not seen any movement 
by the Department that indicates steps have been taken to address the 
potential gap. Great focus has been placed on redundancy but the same 
cannot be said for closing or eliminating the gap.
    Would you describe how the Department's 2015 budget proposal would 
mitigate the impacts of a gap in polar satellite data?
    Answer. The most important way to mitigate a gap in polar satellite 
data is to increase the robustness of the Nation's polar orbiting 
weather satellite program. The fiscal year 2015 President's budget 
allows NOAA to do three things to increase the robustness of the polar 
program. First, the budget provides sufficient funds to ensure the 
primary satellite providing operational weather data in the afternoon 
polar orbit, Suomi NPP, is operated and managed to maximize the length 
of its mission life. Second, the budget keeps the JPSS-1 spacecraft on 
track to launch no later than the second quarter of fiscal year 2017. 
Finally, the budget allows the JPSS program to purchase additional, 
critical long lead sub-assemblies and parts to support the build of 
spare ATMS (Advanced Technology Microwave Sounder) and CrIS (Cross-
track Infrared Sounder) instruments, while also protecting the 
accelerated JPSS-2 schedules. These two instruments ATMS and CrIS are 
the most critical to the NWS.
    The fiscal year 2015 budget supports NOAA's contribution to the 
Global Navigation Satellite System Radio Occultation (GNSSRO) program, 
an important step to mitigate the impacts of a potential gap in polar 
satellite data on the NWS forecasts, products and services. GNSSRO, a 
partnership among NOAA, NASA, U.S. Air Force, Brazil and Taiwan, will 
provide high quality radio occultation data globally. Radio occultation 
data improves the NWS's models and helps to calibrate all other 
available sources of polar data. High quality radio occultation data 
was found to be an extremely important mitigator to the effects of a 
gap in polar data in the 2013 Riverside report on the subject.
    In fiscal year 2015 NOAA continues to execute and leverage Gap 
Mitigation projects funded through the Sandy Supplemental appropriation 
(Public Law 113-2). These projects are essential in NOAA's efforts to 
mitigate the impact from the potential loss of JPSS-1 data from several 
standpoints: Observations, Modeling and Supercomputing. They expand 
NOAA's Weather and Climate Operational Supercomputing System (WCOSS) 
capacity to fully exploit observational and model improvements and 
support the use of satellite Atmospheric Motion Vectors, cloud-impacted 
satellite sounding data, the Department of Defense Special Sensor 
Microwave Imager (SSM/I) instruments, advanced imagery from 
Geostationary Operational Environmental Satellite-R Series (GOES-R 
Series), and an increased amount of aircraft data to enhance NOAA's 
Global Forecast System (GFS), to name a few. These Gap Mitigation 
projects ensure that the NWS has the ability to support improved GFS 
products in event of a JPSS-1 failure.
    These projects would only provide limited substitute for the type 
and quality of data that the JPSS satellites provide for NWS numerical 
weather prediction. The fiscal year 2015 President's budget request for 
NOAA's satellite acquisition programs ensures that they remain on 
schedule, within cost, and are launched on time to provide support to 
the Nation's weather enterprise.
    Question. Is there an actual plan to fill a gap or are you simply 
analyzing options to mitigate the gap?
    Answer. NOAA is actively planning to reduce the risk of a gap; 
however, there is no viable option for accelerating the launch of JPSS-
1 at this time. However, Suomi NPP now serves as the primary 
operational polar-orbiting spacecraft for NOAA's operational weather 
forecasting mission and is being operated and managed to maximize the 
length of its mission life. Additionally, there are legacy NASA and 
NOAA satellites that are operating beyond their design lives that are 
still returning quality observations, and which we expect to provide 
mitigation in the event of an unexpected premature failure of Suomi NPP 
or on launch failure or early failure soon after launch of JPSS-1. The 
improved use of existing satellite observations and development of 
advanced data assimilation techniques should lessen, but not eliminate, 
a gap's impact on NWS product quality.
    The Department of Commerce agrees with the November 2013 IRT report 
that the current polar satellite program is not robust. NOAA and NASA 
are currently analyzing options to minimize the length of time in which 
the polar program is ``one failure away from a gap'' and to mitigate a 
gap, should one occur. The intent of this analysis is to determine the 
most viable options for bringing the program to a more robust posture 
as soon as possible.
    This budget invests the resources needed to take the first critical 
steps to building robustness into the polar satellite program by 
beginning the purchase of copies of additional, critical long lead sub-
assemblies and parts to support the build of spare ATMS and CrIS 
instruments.
    Question. Is the Department still considering obtaining satellite 
data from other countries if there is a gap? If so, does that mean that 
the United States would be dependent on countries such as China or 
Russia for data?
    Answer. The Department already obtains critical polar-orbiting 
weather satellite data from our international partners including the 
European Organisation for the Exploitation of Meteorological Satellites 
(EUMETSAT) and the Japan Meteorological Agency (JMA) and Japan 
Aerospace Exploration Agency (JAXA).
    The Department is not planning to obtain data from Chinese or 
Russian weather satellite programs to mitigate the gap. NOAA's reliance 
on certain international partners for weather satellite data, critical 
to the protection of life and property in the United States, is an 
Administration decision.
                                 census
    Question. The budget request includes an increase in funding for 
the 2020 Census. Most of this increase is tied to investments that, it 
is argued, will produce substantial savings over the entire 2020 Census 
effort. However, the Department had a similar plan for the 2010 Census 
that resulted in lost investments worth hundreds of millions of dollars 
and an increase to the overall cost of the Census by more than a 
billion dollars as the 2010 Census returned to a paper-based non-
response follow up.
    How confident are you that the proposed investments for the 2020 
Census will actually save money?
    Answer. We are confident that we can save money in 2020 Census 
compared to the 2010 cycle provided we receive the resources required 
in fiscal year 2015 for the research, testing and development program.
    This Administration is committed to conducting the 2020 Census at a 
lower cost per household than the 2010 Census while maintaining high-
quality results. The Census Bureau updated the lifecycle estimate to 
accompany the fiscal year 2015 request. The preliminary estimate shows 
we could realize a savings of at least $5 billion from the cost of 
repeating the 2010 Census design. However, we must prove that these 
design changes will realize cost-savings through our research and 
testing program.

    The potential design-change activities include:
  --targeting our address canvassing operations to areas experiencing 
        change not already reflected in our address list;
  --optimizing self-response to include the use of the Internet and 
        other communications innovations;
  --re-engineering field operations using automation, case routing, and 
        other techniques; and
  --using administrative records to reduce workload.

    Savings ranges associated with these design options are shown in 
the updated lifecycle estimate presented in the fiscal year 2015 budget 
request. While the research we've done so far shows such savings are 
possible, there is still uncertainty. We need to complete the research 
planned for fiscal year 2015 to demonstrate that this redesigned census 
will work and that savings can be achieved.
    Our research program is not strictly focused on how to save money; 
there are other benefits to this program. Innovation will allow us to 
contain costs while maintaining the high quality census that the 
country demands. Obtaining a complete and accurate census every 10 
years becomes more complex and difficult with each successive cycle. 
For the 2020 Census, a larger, more diverse population will be more 
difficult and expensive to count. While we can reduce costs per 
household considerably by utilizing advances in technology and 
innovations in the design of the decennial census, there is a point at 
which reducing costs could lead to a significant reduction in the 
quality of census data. The 2020 research and testing program will help 
us gain a better understanding of this trade off, so we can contain 
costs without sacrificing coverage and data quality, and so we can 
share this information with the Congress and other stakeholders.
    IT projects and acquisition strategies are regularly reviewed by 
governance bodies like the Department of Commerce's Information 
Technology Review Board and Acquisition Review Board respectively.
    Question. What controls have you put in place to ensure that 
taxpayers will not be presented with another billion dollar bill at the 
last minute?
    Answer. From the standpoint of the 2020 Census program as a whole, 
to ensure that we stay on track with these cost-saving design-change 
efforts, we have completed the high-level baseline 2020 Census Schedule 
and detailed baseline schedules for the research and testing program 
including those for the 2014 Census test and will continue to mature 
the integrated master schedule. The 2020 Census Risk Review Board, 
which has representation from across the Census Bureau monitors 
program-level risks and develops mitigation plans for those risks. 
Additionally, the Economics and Statistics Administration and the 
Department of Commerce provide oversight to ensure the Census Bureau is 
on track with the research and testing activities that will drive the 
major design decisions.
    Regarding our approaches to information technology management, in 
order to avoid a repeat of the issues that the program experienced in 
the 2010 Census, which led to late decade census design changes and 
cost increases, the Census Bureau has been taking a more rigorous 
approach to information technology management, program management, and 
risk management. This approach is informed by the lessons we learned in 
the 2010 Census but also anticipates the environment of the 2020 
Census.
    With respect to technology management, the Bureau has implemented 
IT portfolio management and a strong partnership between the Chief 
Information Officer and the Associate Director for Decennial Census 
Programs. In this collaboration, leaders are making decisions about 
information technology to reduce both cost and risk compared to the 
2010 Census.
    The Bureau believes using off the shelf technology greatly reduces 
risks of failure. We also believe use of agile development approach to 
systems development (currently employed by the Census Bureau and our 
contractors) will ensure requirements are being met.
    The Department of Commerce is working with the Census Bureau to 
implement an open and transparent acquisitions process that starts in 
the planning phase of the project lifecycle, is consistent and 
repeatable, and applies to solutions regardless of whether they 
leverage in-house resources or major contracts. In addition, adapting 
program management and system engineering disciplines and best 
practices including risk, scope and cost management will help avoid the 
problems associated with the purchase of handhelds for the 2010 Census. 
These practices were put in place for the 2010 data capture system, 
which was cited by GAO as an exemplary IT investment.
    As part of the efforts to improve the 2020 Census, the Census 
Bureau is taking advantage of technology and operations research 
methods to re-engineer the field data collection operations reducing 
both the infrastructure required to support these operations and the 
actual hours that enumerators spend collecting the data.
    The Census Bureau is field testing automation throughout the 
research period in order to identify and mitigate risks associated with 
technology issues. The enumeration instrument prototype will be used in 
2014 and 2015 Census testing. The Census Bureau has instituted a mobile 
computing strategy for all current surveys and the 2020 Census.
    In addition to these efforts within the 2020 Census itself, the 
fiscal year 2015 budget proposes an initiative to bring an enterprise 
approach to data collection and processing. This Census Enterprise Data 
Collection and Processing (or, CEDCaP) initiative will change the past 
practice of building new and unique data collection processing systems 
for each survey or census including the decennial census. Instead, the 
Census Bureau will build a ``system of systems'' that offers shared 
data collection and processing services across the enterprise. This 
system will both precede and outlast the 2020 Census and will provide a 
solution that is mature and proven for the 2020 Census at an estimated 
cost lower than the cost of the 2010 Census.
    The program management discipline is not limited to the information 
technology aspects of the program. The entire 2020 Census program 
applies industry best practices for program management including the 
preparation and progressive elaboration of detailed cost estimates for 
the lifecycle of the census, and a well-established risk management 
process. As part of the risk management process, the program creates 
and executes risk mitigation plans to reduce the likelihood of these 
risks including those with large budget impacts. As the design 
decisions mature the risk management will mature to include assigning 
costs to any potential contingencies. These risk management practices 
will help us identify the sources of potential cost increases, so we 
can address these issues at the source and keep the budget impacts to a 
minimum should they occur.
    Another best practice is to conduct regular program management 
reviews open to stakeholders to increase the transparency of the 
program. This commitment to transparency will raise issues earlier in 
the program when they are easier and less costly to solve. Since 
December of 2012, the 2020 Census program has conducted quarterly day-
long Program Management Review meetings with key internal and external 
stakeholders, including representatives from the Economics and 
Statistics Administration, the Department of Commerce, GAO, OIG, OMB, 
both House and Senate oversight and appropriations committees, and the 
National Academy of Sciences. IT projects and acquisition strategies 
are regularly reviewed by governance bodies like the Department of 
Commerce's Information Technology Review Board and Acquisition Review 
Board. These meetings provide an opportunity to keep these stakeholders 
informed and to gain their input and suggestions about plans, issues, 
and research results. Towards the same ends, the 2020 Census program 
also has been actively engaged with the Census Bureau's Scientific 
Advisory Committee, its National Advisory Committee (including its 
working groups focused on key issues such as use of administrative 
records, privacy, and improvements to the Census questions on race and 
ethnicity), and a panel of experts at the National Academy of Sciences.
    All of these efforts are aimed at improving the quality of our 
programs and their results, and reducing the risks of those things that 
can lead to cost over-runs or bad outcomes, e.g., poor requirements 
definition, inaccurate cost estimates, or insufficient engagement with 
stakeholders (and thus poor understanding of their needs and goals).
       national telecommunications and information administration
    Question. NTIA serves a primary role as the representative of the 
United States on the Internet Corporation for Assigned Names and 
Numbers (ICANN) Governmental Advisory Committee (GAC).
    Over the past year, how has NTIA represented the interests of our 
Nation in protecting American companies, consumers, and intellectual 
property?
    Answer. Within ICANN's multi-stakeholder structure, the 
Governmental Advisory Committee (GAC) provides governments a meaningful 
opportunity to participate in the development of policies related to 
Internet domain name system (DNS) issues. NTIA represents the U.S. in 
the GAC, and has actively engaged with its counterparts in the GAC to 
develop consensus advice to ICANN. ICANN improved the new generic top-
level domain (gTLD) program by incorporating a significant number of 
proposals from the GAC, such as providing law enforcement and consumer 
protection authorities with significantly more tools to address 
malicious conduct, as well as enhanced mechanisms to protect 
intellectual property rights in new gTLDs.
    Over the course of three ICANN meetings in 2013, NTIA coordinated 
U.S. proposals covering a broad range of safeguards intended to 
mitigate against consumer harm and criminal abuse of the DNS, a 
majority of which were adopted and submitted as consensus GAC advice to 
ICANN (also known as the April 2013 GAC Beijing Communique). In this 
context, NTIA has actively engaged in consultations with a broad range 
of commercial interests. Ensuring the protection of the rights of 
trademark owners and ensuring appropriate consumer protections as the 
new gTLD process moves forward has been a priority over the course of 
NTIA's advocacy efforts to develop appropriate safeguards for new 
gTLDs. NTIA also contributed to the development of GAC consensus advice 
in the June 2013 Durban and November 2013 Buenos Aires Communiques that 
provided additional specificity to protect consumers and businesses in 
the new gTLD program. As a result of these efforts, ICANN updated the 
new gTLD Registry Agreements to address government concerns.
    Finally, over the last year NTIA Assistant Secretary Strickling 
personally participated in ICANN's Accountability and Transparency 
Review Team (ATRT) with a broad array of international stakeholders 
from industry, civil society, the Internet technical community, and 
other governments. This team serves as a key accountability tool for 
ICANN by evaluating progress and recommending improvements to ICANN's 
accountability, transparency, and technical competence. ICANN is 
currently implementing the 12 recommendations the ATRT made last 
December.
    Question. In what ways has NTIA altered its activities in dealing 
with ICANN via the Governmental Advisory Committee to be a stronger 
advocate for U.S. business?
    Answer. As described above, NTIA has constantly been a strong 
advocate for U.S. interests serving as the United States GAC 
representative. Specific activities over the past year are detailed in 
the response to the previous questions. NTIA has strengthened its 
outreach to U.S. businesses as new gTLDs are vetted and introduced to 
ensure a more complete understanding of business issues and stronger 
advocacy for U.S. businesses.
                         internet policy center
    Question. Can you explain how the Internet Policy Center (IPC) 
differs from the current activities NTIA performs for the Federal 
Government?
    Answer. The open Internet is a key driver for U.S. innovation and 
economic growth. It is therefore imperative that U.S. Internet policy 
remain forward-looking in its ability to balance innovation, 
resilience, privacy, rights protection, and security. Much is at stake: 
billions in trade, innovation, privacy, free expression, child 
protection, and the integrity of the Internet. NTIA currently 
undertakes significant coordination activities among Federal agencies 
as well as other Internet stakeholders in order to develop 
Administration policy; however, NTIA's capacity has not scaled to match 
the current pace and complexity of policy issues that have the 
potential to impact the Internet and its ability to function as a 
platform for economic growth and the future digital economy. The 
Internet Policy Center (IPC) will provide NTIA with the resources to 
build capacity to face the challenges of today's digital policy 
environment and to convert ad-hoc functions into institutionalized 
mission areas. Among the functions of the IPC will be policy analysis, 
policy development, global outreach, interagency coordination, and 
stakeholder engagement.
    NTIA is unique among Federal agencies in that part of its mission 
is to support, enhance, and protect the Internet as an engine of 
economic growth, innovation, and job creation. In that capacity, the 
IPC will focus on the Internet as a client. The IPC will provide the 
organizational capacity, structure, and means to protect U.S. Internet 
policy principles and equities across a range of fast-moving issue 
areas including privacy, cybersecurity, the free flow of information, 
Internet governance, network evolution, intellectual property, 
broadband and infrastructure development, and law enforcement. Through 
the IPC, the Administration will be better positioned to present a 
unified focus on Internet policy and provide the capacity and 
leadership to address a multitude of Internet policy concerns 
domestically and internationally in a more proactive, proficient manner 
than is currently possible.
    Question. Do any of the activities planned for the IPC currently 
reside in different locations within the Federal Government and if so, 
how will they transition to NTIA?
    Answer. The IPC would not displace or replace any activities or 
authorities of other Federal agencies, but would serve to complement 
and coordinate these activities more effectively to ensure a unified 
and strategic Administration voice. The need for focused policy 
attention to protect and promote innovation, stability, and economic 
growth on the Internet is critical. Without it, there is a much greater 
risk that U.S. policy will perhaps unintentionally harm the ability of 
companies to innovate and thrive and citizens to take full advantage of 
the Internet and other communication and information services. In a 
broad array of policy areas including cybersecurity, intellectual 
property, trade policy, and others, well-staffed agencies of the U.S 
Government pursue their discrete policy objectives, but those agencies 
are sometimes not well equipped to evaluate the full impact of their 
initiatives on Internet innovation, the digital economy, fundamental 
rights, and on the global, multistakeholder approach to Internet 
governance and policymaking. The IPC will advocate strongly within 
interagency discussions for the Internet as a platform to be protected 
and promoted.
    Question. Do any of these activities require a change in statute or 
authorization legislation in order to become a part of the IPC?
    Answer. No.
                      profit for constructed value
    Question. The Department has traditionally used a high profit 
benchmark to measure the fair value of merchandise in dumping cases. 
This better reflects the true value of merchandise in question. 
However, in the case of South Korean merchandise, a low measure of 
profit, based in large part on non-Oil Country Tubular Goods (OCTG) 
pipe sales was used. In addition, the measure was based largely in the 
depressed construction market instead of the more profitable energy 
sector, or an average of the two.
    Why did the Department alter its traditional measure in reaching a 
conclusion in this case?
    Answer. With respect to this very technical issue, the Department 
carefully applied the statute and its regulations to the record 
evidence presented at the time of the preliminary determination. In 
this case, because neither Korean exporter had what the Department's 
regulations refer to as a viable home- or third-country market in OCTG, 
the Department was unable to use the preferred methodology for 
calculating profit, i.e., these companies' own experience in the OCTG 
sector. U.S. law sets forth three alternative approaches to calculating 
profit in such cases, and the Department selected what it believes to 
be the most reasonable alternative based on the available record 
evidence. The Department continues to analyze this issue and will 
consider all evidence and arguments in issuing its final determination.
    Question. What was the Department's basis for choosing the 
construction market as opposed to the energy sector or an average of 
the two sectors?
    Answer. As noted above, because the facts in this investigation did 
not allow the application of the Department's preferred methodology, 
all alternative options available under the statute were considered. 
Since the Department does not have useable profit data for these 
companies' OCTG sales, one alternative specified in the statute is to 
use the profit figures for ``the same general category of products.'' 
In this case, that would entail a broad range of tubular products, 
including those sold to the construction segment. If that is not 
appropriate, the statute also provides for the Department to use ``any 
reasonable method'' to value profit. The Department continues to 
evaluate the suitability of these profit figures for the final 
determination.
                       oil country tubular goods
    Question. Secretary Pritzker, the International Trade Commission 
(ITC) recently made a preliminary determination that the American steel 
industry was materially injured by certain Oil Country Tubular Goods 
(OCTG) imports from South Korea.
    What actions are being undertaken by the Department to assist in 
reaching a final determination on this matter?
    Answer. The Department's Enforcement and Compliance Unit, which has 
as its primary mission the conduct of antidumping and countervailing 
duty cases, is focused on this matter. Our analysts recently traveled 
to South Korea to verify the information that the respondents in this 
case placed on the record of the proceeding. Please be assured that the 
Department will carefully analyze all the record evidence, and consider 
the legal arguments of the parties, before issuing a final 
determination in this matter, which will be announced no later than 
July 11, 2014.
    Question. What resources are being utilized to support the final 
investigatory phase?
    Answer. Our Enforcement and Compliance Unit's accountants, 
analysts, and lawyers are diligently scrutinizing the information on 
the record and considering the legal arguments from all parties. 
Further, in accordance with U.S. law, analysts and accountants in our 
Enforcement and Compliance Unit recently traveled to South Korea to 
verify the accuracy of the factual information submitted by the Korean 
exporters.
                              affiliations
    Question. The issue of affiliations is critical in this dumping 
investigation. The Department acknowledged concerns with a number of 
affiliations and uncertainty in whether the correct sales and cost 
databases were used for its preliminary determination.
    Can you assure the Committee these issues will be completely and 
fully investigated prior to a final determination?
    Answer. Yes. All information submitted by the two Korean exporters 
in this matter has been subject to rigorous verification by the 
Department analysts and accountants to ensure they have reliable sales 
and cost-of-production data. The Department's findings will be included 
in reports it will place on the record, and parties will have an 
opportunity to comment upon those findings prior to the issuance of the 
final determination.
                       south korean manufacturers
    Question. Additional concerns have been raised suggesting South 
Korean manufacturers are misrepresenting facts in this case on a 
variety of issues. This includes information regarding grades and costs 
of hot rolled coil used, sales made from inventory, the presence of 
affiliated warehouses, warehousing costs, as well as overhead.
    Madame Secretary, I understand that while preliminary 
investigations rely heavily on the responses of the parties involved, 
the final phase allows for the Department to deploy much greater 
resources to determine whether concerns raised in the preliminary phase 
could significantly change the findings.
    Can you assure me that the Department will dedicate sufficient 
resources needed to ensure a fair and equitable resolution to this 
case?
    Answer. Yes. The Department conducts all trade remedy proceedings 
in a thorough manner, in accordance with its statute, regulations, and 
international obligations. The Department is fully committed to 
vigorously enforcing its trade remedy laws so that American industries 
and workers have the opportunity to compete on a level playing field 
with their foreign competitors.
    Question. Further, can you assure me that concerns raised during 
the preliminary phase will be properly considered?
    Answer. Yes. The Department's Enforcement and Compliance Unit will 
diligently scrutinize all information on the record and consider the 
legal arguments from all parties before issuing its final 
determination.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                               fisheries
    Question. First, I would like to thank the Department and NOAA for 
the support it has provided to the Penobscot River Restoration project 
(over $20 million). It is my understanding that this project has raised 
more private dollars than any other river restoration project in the 
country. Through the work of the State, the Penobscot Trust, and NOAA, 
and other Federal agencies, we are on the cusp of completing what could 
be one of the largest and most successful fisheries restoration efforts 
in history.
    Across the Gulf of Maine, the restoration of sea-run migratory fish 
species is essential to rebuilding a thriving ocean fishery and healthy 
river communities. NOAA's investments in projects like the Penobscot 
River Restoration are essential to that goal.
    Completing restoration projects such as this is possible when NOAA 
ensures that funds allocated within the Fisheries Habitat Restoration 
and Species Recovery lines go to projects on the ground (and in 
water!).
    The Penobscot River Restoration Agreement has three main 
components: the removal of the Great Works Dam, the removal of the 
Veazie Dam, and the construction of a bypass of the Howland Dam. The 
first two components are complete; the third is pending. It is 
important to me and to my constituents that NOAA remain committed to 
seeing through the full implementation of the Penobscot River 
Agreement. If NOAA is not able to commit to the agreement, which 
includes the building of a fish bypass, then the work that was 
celebrated at the removal of the Great Works and Veazie dams will be 
incomplete, and the fisheries benefits will not be maximized.
    Will you ensure that NOAA will work with the State of Maine, the 
communities along the Penobscot River, including the Town of Howland, 
and the Penobscot Trust to ensure that the Agreement is fully 
implemented by fiscal year 2015?
    Answer. The Department recognizes the importance of the Penobscot 
River Watershed Restoration project, which will ultimately improve 
access to nearly 1,000 miles of river habitat to eleven species of sea-
run fish and create new community and economic benefits throughout the 
watershed. NOAA remains committed to seeing through the full 
implementation of this important restoration initiative. NOAA is 
currently working with the State of Maine, Town of Holland, the 
Penobscot Trust, the Penobscot Indian Nation and our Federal, local and 
non-profit partners to develop final plans for the Howland Dam 
restoration project, and anticipates moving towards implementation 
soon.
            international trade administration--u.s./canada
    Question. The 2006 U.S.-Canada Softwood Lumber Agreement was set to 
expire in 2013, but was extended to October 12, 2015. Some of my 
constituents have expressed concern about another extension of this 
agreement. They would much prefer to see an updated long-term agreement 
executed.
    The world timber and lumber markets have evolved since 2006. As you 
are well aware, the U.S. housing market collapse has taken a toll on 
workers in the timber industry. The Maine Forest Products Council 
estimates that we have lost more than 4,000 forestry jobs in my State 
from 2007 to 2011, for a number of reasons. As the housing industry 
recovers, and domestic demand for wood products starts to rise, we must 
ensure an unbalanced playing field between U.S. and Canadian producers 
does not cause more jobs to be lost. That is why we need to secure an 
updated long-term Softwood Lumber Agreement.
    Will you commit to develop an agreement between the United States 
and Canada, with the active involvement of the Maine and U.S. forestry 
stakeholders, with an aim to bring about a new, long-term durable U.S.-
Canada trade agreement on softwood lumber?
    Answer. The 2006 Softwood Lumber Agreement (SLA) is the most 
successful of several agreements reached over the past three decades to 
address U.S. concerns about Canadian softwood lumber imports. The 
recent extension until mid-October 2015 was made with the support of 
domestic lumber producers, and the SLA continues to provide 
predictability and stability in this very important sector in the U.S. 
economy.
    Over the years, Commerce has worked closely with several other 
agencies on the negotiation and administration of the SLA. The Office 
of the United States Trade Representative (USTR) leads an interagency 
team of experts from Commerce, State, Justice, and Customs and Border 
Protection (CBP) that devote significant time and resources to the 
enforcement and implementation of this agreement. Because Commerce's 
members of this team are very knowledgeable about provincial forest 
practices and subsidy programs that benefit Canadian lumber producers, 
their technical expertise is relied upon heavily as part of the 
interagency team in dealing with our Canadian counterparts, consulting 
stakeholders, and defending U.S. interests in arbitrations under the 
Agreement. We will continue to provide our support as USTR consults 
with Members of Congress and seeks input from all interested 
stakeholders for the evaluation of what is in the best interest of the 
United States.
    In the meantime, I assure you that Commerce will continue to press 
for and work to ensure the full enforcement and implementation of the 
current agreement.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                        manufacturing initiative
    Question. The budget provides $141 million, a $13 million increase 
over the fiscal year 2014 enacted level, for the Hollings Manufacturing 
Extension Partnership (MEP), with an increased focus on expanding 
technology and supply chain capabilities to support technology adoption 
by smaller manufacturers to improve their competitiveness.
    The budget also provides $15 million for the Advanced Manufacturing 
Technology Consortia (AMTech), a public-private partnership that will 
support industry-led consortia developing technologies to address major 
manufacturing challenges faced by American businesses. The 
Administration has also launched four manufacturing institutes to date 
and is planning to launch at least four additional manufacturing 
institutes in 2014 utilizing existing Federal funding.
    Your overall manufacturing initiative will create winners and 
losers across the country. Twelve communities will be selected this 
year and they will have the full force of the administration behind 
them. You will use existing authority to fund the program activities. 
Alaska will not fare well. This is on the back of significant cuts over 
the last few years in the EDA budget.
    When small communities are doing good work and developing 
innovative ideas to move their economy forward, grant and low interest 
loan programs should support such initiative. So for Kotzebue, Alaska 
looking to lower the cost of food to outlying villages or Wrangell, 
Alaska completing a remarkable marine park for fishing and other boat 
fleets, I am at a loss for where to send them when looking to complete 
a financial package.
    Secretary, outside of these 12 communities this year, how will you 
provide support to rural, isolated communities doing good work and 
striving to create integrated economic development plans on a small 
scale?
    Answer. The Department of Commerce has not wavered in its 
commitment to rural America. In fiscal year 2013, as part of the 
Investing in Manufacturing Communities Partnership (IMCP) effort, EDA 
provided $1.8M (of approximately $4 million total) in assistance to 12 
rural communities (of 26 total communities) to develop implementation 
strategies, which will initiate public-private partnerships tailored to 
local expertise and assets, identifying targeted industries and 
specific public investments that will enhance the attractiveness of 
regions to private investment.
    EDA also provides ongoing planning support to rural communities as 
part of its Partnership Planning program. These grants facilitate the 
development and implementation of Comprehensive Economic Development 
Strategies (CEDS), which articulate and prioritize the strategic 
economic goals of recipients' respective regions. Partnership Planning 
grants are made to the designated planning organization (e.g., District 
Organization) serving EDA-designated Economic Development Districts 
(EDDs)--of which there are currently 383 across the country--to enable 
these organizations to develop and implement relevant CEDS. Almost all 
of these Districts include, and most are primarily comprised of, rural 
areas. In addition, EDA provides Partnership Planning grants to Indian 
Tribes to help develop and implement CEDS and associated economic 
development activities. The Planning program also helps support 
planning organizations, including District Organizations, Indian 
Tribes, and other eligible recipients, with focused short-term planning 
grants designed to guide the eventual creation and retention of higher-
skill, higher-wage jobs, particularly for the unemployed and 
underemployed in the Nation's most economically distressed regions 
including many rural areas (EDA's Local Technical Assistance program 
supports these efforts as well).
    In addition, EDA-funded University Centers (approximately 60 across 
the country) provide business solutions and technical assistance to 
public- and private-sector organizations, and conduct other activities 
with the goal of enhancing regional economic development. University 
Center business solutions include basic and applied research, market 
research, feasibility studies, product development, strategic and 
financial planning, seminars and training, and management 
consultations. The University Centers are particularly attractive to 
rural communities and regions that often lack the capacity and 
resources to collect and analyze information and data on the economic 
conditions of their respective areas.
    EDA construction investments in rural America since fiscal year 
2009 are expected to save or create 37,000 jobs. EDA, in conjunction 
with other Federal agencies, devoted $9 million in total Federal funds 
for the Rural Jobs and Innovation Accelerator Initiative which invested 
in 13 best-in-class economic development projects in rural regions. 
Making sure more rural businesses of all types and sizes can compete in 
the global economy is an important step toward integrating trade into 
the DNA of our economy and creating opportunity for all Americans.
    Ensuring that more rural companies can capitalize on international 
opportunities to grow their business is key to advancing economic 
growth in rural areas and a strong rural economy is essential to our 
Nation's overall economic health. Through the International Trade 
Administration, we are working with the White House Rural Council, U.S. 
Department of Agriculture (USDA), other agencies, and partners to:

  --Host five regional forums to provide rural leaders and businesses 
        with local connections and information about resources to help 
        expand exports. (The Council will announce forum locations in 
        the coming weeks.)
  --Provide enhanced export counseling for rural businesses from trade 
        specialists in over 100 domestic locations, using the convening 
        power of USDA field staff.
  --Train USDA Rural Development staff in all 50 States plus 
        territories to expand the network of business counselors able 
        to identify export-ready rural businesses and connect them with 
        assistance.
  --Coordinate across the Administration to promote rural-produced 
        goods and services at trade events.
  --Build understanding among local leaders across the country on the 
        economic importance of exports in partnership with the National 
        Association of Counties (NACo).
  --Use BusinessUSA to better connect rural businesses with government-
        wide export resources.
                           denali commission
    Question. Secretary Pritzker, in 2013 I asked the Government 
Accountability Office to take a top to bottom look at the Denali 
Commission. This work is expected to conclude in the early summer 
months. It wasn't that I think the Denali Commission is a waste of 
taxpayers funds or that it lacks a mission. The Denali Commission's 
mission is to upgrade the third world living conditions that threaten 
the health and welfare of our Native people in rural Alaska. I abhor 
the notion that people who are desperately in need of aid the newborn 
and the Elder so often have to pay the price for bureaucratic 
infighting. Too often programs are not improved as a result of 
scrutiny. They are simply canned. The reason that I asked GAO to look 
at the work of the Denali Commission was that the ongoing wars 
involving the Commissioners, the Federal Co-Chair and the Inspector 
General fundamentally distracted the Denali Commission from its mission 
and I'm looking for strong reforms.
    My question goes to supervision of the Denali Commission. I think 
the adult supervision of the Commerce Department is very much in need. 
It's not at all evident that the work of the Federal Co-Chair has been 
evaluated, even though that person reports to you. You recently 
reappointed the Federal Co-Chair. I have to tell you that I no longer 
have confidence in that individual and made that known to your staff 
and the White House prior to the reappointment. Assistance from the 
Commerce Department's Office of the General Counsel is lacking. And I 
would submit that the Denali Commission would benefit from the depth 
and breadth of the Commerce Department's Inspector General as an 
improvement over the recently departed ``one man band'' Inspector 
General who spent most, if not all, of his working time (if one can 
call it that) in Arizona rather than Alaska. I am looking for your 
reaction to these ideas.
    I would like to play a role and an active one in the reform of the 
Denali Commission. And I would like a partner in the Commerce 
Department that I can work with.
    Would you designate someone who will work with me to see this 
project through?
    Answer. The Department and the Administration are fully committed 
to improving the livelihood of Alaskans by encouraging long-term public 
and private investments in key sectors, establishing a business 
environment that will help to create high-quality jobs and promoting 
long-term economic development in economically distressed areas of the 
State. For example, the Economic Development Administration (EDA) has 
invested over $3 million with the Alaska Works Partnership to help 
develop the Pipeline Training Center, which is training the next 
generation of pipeline workers in Alaska. EDA has also invested $1.9 
million to expand the Cold Climate Housing Research Center <http://
www.cchrc.org/>, which is making strides in finding more efficient and 
environmentally friendly means to deal with Alaska's harsh winters.
    EDA maintains the delegated responsibility for reviewing the Denali 
Commission's Annual Work Plan, and in conjunction with the Department 
have provided invaluable programmatic guidance and support to the 
Commission. In certain discrete areas the Department has a statutory 
relationship with the Commission, however, the Department generally 
defers to the Commission as an independent entity in its day-to-day 
decisionmaking, operations and policy-making; including its choice of 
selecting an Inspector General. It remains important for the Department 
to maintain that clear, distinct separation.
    Specifically addressing the Inspector General issue, the Department 
is pleased to inform you that the Denali Commission has entered into a 
memorandum of understanding (MOU) with the Department of Commerce's 
Office of Inspector General (OIG). Pursuant to this agreement, the OIG 
will provide comprehensive, independent audit and oversight services to 
the Commission on a reimbursable basis and will effectively serve as 
the interim Inspector General for the Denali Commission pending a 
permanent selection by the Commission.
    EDA is available as an advisory resource to the Commission and 
communicates with the Commission's Federal Co-Chair and Counsel on a 
regular basis.
                         electronic monitoring
    Question. NOAA acknowledges in its fiscal year 2015 budget request: 
``The goal is to deliver cost-effective and sustainable electronic data 
collection solutions that enhance monitoring of catch and by catch in 
all U.S. fisheries.'' In general, I am seeing that NOAA supports these 
goals at the Headquarters level, but efforts to make progress on the 
water in Alaska are hampered at the Regional level. The problem appears 
to be Science Center staff who seem more dedicated to designing long 
term research programs than making progress toward practical solutions. 
I am concerned that Science Center staff in the Alaska region are not 
working effectively with fishermen to move forward with the cooperative 
research program required in the fiscal year 2014 Omnibus 
Appropriations bill.
    The goal here is to validate the functionality of cameras, 
facilitate the collection of data, and improve the logistics of 
deploying electronic monitoring equipment on small fishing boats in 
Alaska. When I met with you last year you expressed an understanding of 
the importance of this issue in Alaska, and the potential for it to 
benefit fisheries around the Nation.
    Secretary Pritzker, can you commit to working with me to ensure 
that NOAA is dedicating the resources necessary to make progress toward 
the deployment of viable electronic monitoring technologies on these 
boats in 2014?
    Answer. Yes, NOAA Fisheries is committed to advancing the 
capability to use electronic monitoring (EM) technology in Alaska 
fisheries in situations where EM can provide the data needed to manage 
and conserve these fisheries. We have used EM (video) to monitor 
compliance with retention and fish handling requirements on catcher/
processors for many years. We have participated in and funded several 
past EM research projects. We are committing funding toward EM research 
in fiscal year 2014 and plan to continue to do so in the future. We are 
actively working with industry representatives and the Pacific States 
Marine Fisheries Commission (Pacific States) to develop and implement a 
cooperative EM research plan to test and compare different EM 
technologies with observers, to work out logistical issues, and to 
estimate implementation costs.

    We are conducting this cooperative research on four tracks. These 
are:

  --Track 1.--deployment of 5 to 10 current EM units from Saltwater, 
        Inc., and Archipelago Marine Research Ltd. to evaluate the 
        respective system performance, logistics and costs of 
        deployment;
  --Track 2.--deployment of 3 to 5 current EM units with observers to 
        allow analytic comparisons of data quality and data quality 
        trade-offs;
  --Track 3.--deployment of 5 to 10 new stereo camera systems with 
        observers to allow similar analysis as in #2; and
  --Track 4.--testing of current electronic logbooks in the fleet and 
        further refinement to integrate them with vessel sensor data.

    Working in collaboration with industry and Pacific States, we are 
developing study plans for each track of research and deploying EM onto 
boats in 2014. The fishing industry and Pacific States are taking the 
lead on Track 1, and NOAA Fisheries, Pacific States, and industry are 
taking the lead on Tracks 2 through 4. Work on Track 1 is already 
underway with cameras deployed on several boats in the fishery. Tracks 
2 and 3 will be underway by early summer and it will include components 
of Track 4. We look forward to evaluating the results of this work.
    This collaboration between NOAA Fisheries and industry has been ad 
hoc to date; however, in April 2014 the North Pacific Fishery 
Management Council (Council) took action to appoint membership to an EM 
sub-committee dedicated to EM testing and development. This committee 
will bring in additional industry representation ensuring balanced 
participation across the industry. The Council's EM committee is 
scheduled to meet on May 15 and 16 in Anchorage to review progress on 
cooperative research and mapping the processes forward toward 
integration of EM as a tool in Alaskan fisheries management. Several of 
the Council appointed committee members were already participating in 
our ad hoc collaboration.
    NOAA Fisheries has recently sent a letter to the participants in 
the small boat hook and line fleet soliciting their interest in 
participating in cooperative research with us on EM, and we noted that 
selected volunteers will be provided a release from observer coverage 
for the duration of the research. This provides an incentive for 
participation. Several industry members have already installed EM 
equipment and requested retroactive releases from coverage. We have not 
granted these releases because we need a coordinated effort and a 
process that ensures that all in industry are afforded the opportunity 
to participate. We asked for responses from industry for EM 
participation by May 30 and received 17 requests to participate in 
cooperative research. For any of these vessels that are selected to 
participate in the research, NOAA expects to implement EM releases 
based on criteria we develop with our newly formed EM committee.
    NOAA Fisheries is now in the second year of implementing the 
restructured Alaskan observer program, which expanded observer coverage 
to the Pacific halibut fishery, and to vessels between 40 and 60 feet 
in length in the groundfish and halibut fisheries. In implementing the 
program, we provided a mechanism to release vessels from coverage in 
cases where there was insufficient life raft or bunk capacity. This 
avoids displacing fishermen in order to accommodate an observer. The 
Council supported this initial approach to the newly observed fleet, 
and NOAA Fisheries has implemented a consistent release process, with 
verification of industry requests via follow up phone calls and site 
visits. The addition of EM will expand that release process in the near 
term in order to enable EM testing to inform subsequent Council 
decisionmaking on the use of this technology in catch estimation.
    We also are working on cooperative research with a group of trawl 
catcher/processors (``the Amendment 80 sector'') to solve a specific 
halibut bycatch problem. This research will examine the use of video to 
allow halibut to be sorted and counted on the deck of the vessel in 
order to maximize survival of the fish during handling, and to allow 
accurate accounting of the bycatch before it is returned to the sea. 
This industry sector is highly motivated to test and adopt the 
technology we have developed as it has potential to solve a significant 
bycatch issue. This research is currently underway.
                             marine debris
    Question. The 2011 devastating earthquake and tsunami that struck 
Japan resulted in a large amount of marine debris which in 2012 began 
to reach Alaska, California, Hawaii, Oregon, and Washington. In 2013, 
Alaska experienced significant debris impacts in multiple coastal 
areas, and the volume of Japan-origin debris is predicted to increase 
in 2014. The Commerce Department's fiscal year 2015 Budget Request is 
for $6,000,000, the same as enacted for fiscal year 2014. The fiscal 
year 2014 funding represented a $1 million increase over fiscal year 
2013, and this increase is expected to be used for Japan-origin debris 
activities. I am, however, concerned that this level of funding is 
insufficient to address the volume of debris still hitting Alaskan 
shores, as well as the other Pacific States. I am further concerned 
that your agency does not fully appreciate the magnitude of this 
problem, including the fact that much of the Alaskan coast is Federal 
lands which means clean-up of this marine debris is a Federal 
responsibility.
    Secretary Pritzker, are you willing to work with me to ensure that 
funds in NOAA's Marine Debris Program are allocated on a priority basis 
for grants to support clean-up marine debris clean-up and disposal 
activities in the five affected Pacific States, with priority given to 
clean-up activities on Federal land?
    Answer. I am always happy to work with you, Senator Murkowski. As 
you are aware, the Government of Japan provided $5 million to NOAA's 
Marine Debris Program to support marine debris response efforts, such 
as removal of debris, disposal fees, cleanup supplies, detection and 
monitoring. Of this amount, we provided an initial sum of $250,000 to 
each of the affected States (Alaska, Washington, Oregon, California and 
Hawaii) and the State of Alaska has requested and received an 
additional $750,000. The funding was also used to remove a large dock 
in Olympic National Park. NOAA is holding the balance of roughly $2.5 
million in reserve to distribute as new needs arise. NOAA's agreement 
process for these funds requires NOAA to approve the States' proposed 
work plans for any funding, as well as perform necessary environmental 
compliance reviews.
                         hydrographic charting
    Question. Modern, accurate geospatial information is critical to 
navigation, public safety, infrastructure planning, and resource 
management. This is particularly important in Northwest Alaska where 
increased maritime traffic in the Bering Straits region and in the 
Arctic underscore the need for current hydrographic information. In 
some areas the state-of-the-art mapping information is the result of 
lead-line survey work conducted before the United States purchased 
Alaska from Russia. There is an urgent need for updated charts, yet 
NOAA has indicated that it has an 85 year backlog for hydrographic 
surveys in Alaska.
    Secretary Pritzker, your agency plays a critical role in supporting 
hydrographic charting, including in the Arctic and Bering Straits 
Region. Can you commit to dedicating the necessary resources to conduct 
hydrographic surveys and prepare navigational charts adequate to 
address the increasing maritime traffic in these regions?
    Answer. NOAA must balance the requirements of a particular area 
with requirements of all other areas within available resources. NOAA 
has developed 5-year hydrographic survey plan to identify about 40,000 
square nautical miles of critical area and address the most critical 
survey needs in Alaska. In recent years NOAA has surveyed approximately 
500 square nautical miles annually in Arctic waters. NOAA is also 
planning to build 12 new charts for the Arctic over the next 10-15 
years.
    NOAA plans to resume full Arctic operations in 2015 under the 
President's budget request.
                       national data buoy system
    Question. I am strongly concerned with problems associated with 
NOAA's maintenance of data buoys off the coast of Alaska. These data 
buoys provide important information to mariners, including commercial 
and recreational fishermen. The longstanding outages are resulting in 
critical gaps in weather and sea condition information and contributing 
to less safe operations at sea.
    Secretary Pritzker, will you please provide documentation on how 
NOAA intends to address the maintenance backlog for the National Data 
Buoy System, including specific information on current outages in 
Alaska? I would appreciate information on NOAA's plan to schedule and 
effect repairs to restore existing data buoy operability, as well as 
the strategy to minimize outages in the future.
    Answer. The Department of Commerce and the National Oceanic and 
Atmospheric Administration (NOAA) share your concern with long outages 
for data buoys off the coast of Alaska and around the rest of the 
United States.
    NOAA is conducting maintenance, with ship support from the U.S. 
Coast Guard, for much of the National Data Buoy System from now through 
the end of September 2014. Plans are in place to restore nearly half of 
the current 27 buoy outages, including 4 of the 9 Alaska buoy outages 
that had been backlogged since 2013. Maintenance for the buoys in the 
Bering Sea and Western Aleutians is scheduled for July 2014 to restore 
long outages in that region. Schedules for maintenance for most of the 
remaining outages are being developed between the National Data Buoy 
Center and the NOAA-leveraged U.S. Coast Guard ship resources.
    NOAA will continue aggressive maintenance of the National Data Buoy 
System to improve buoy operability to 73 percent by the end of fiscal 
year 2014.
                         seafood certification
    Question. I am concerned that third party vendors are requiring 
adherence to criteria and labeling of seafood that has not been 
thoroughly vetted and approved through a public process. One of the 
more troubling aspects of this process is the failure of executive 
branch agencies to consult with NOAA on the issue of whether U.S. 
fisheries are being managed sustainably. Specifically, I am referring 
to Seafood Sustainability Guidelines developed by the Department of 
Health and Human Services, General Services Administration, and 
National Park Service that were applied to all Federal agency vendor 
and concession operations. These Guidelines were developed and 
implemented without any consultation no meetings, not even a call with 
anyone at NOAA to ask for their expertise on this issue.
    Secretary Pritzker, can you please articulate the policies and 
procedures have been put in place at NOAA to ensure that this will not 
happen again?
    Answer. Since the National Park Service published its vendor 
guidelines in June 2013 and we were made aware of the General Services 
Administration/Health and Human Service's guidelines published in 2011, 
NOAA Fisheries has worked directly with the entities involved (National 
Park Service, General Services Administration, the Department of Health 
and Human Services, the Food and Drug Administration, and the Centers 
for Disease Control) to introduce their program staffs to NOAA 
Fisheries, its stewardship mission, the reputation of U.S. fisheries as 
a global model of success in sustainable fisheries, and to offer our 
expertise to guide them in any further discussions regarding 
sustainable fisheries and seafood. Based on these interactions, the 
General Services Administration revised and republished its guidelines 
in September 2013 (see below for relevant provision), to take into 
account U.S. managed fisheries as sustainable and to refer to 
FishWatch.gov.
    ``Where seafood options are offered, provide those procured from 
responsibly managed, sustainable, healthy fisheries.44*
    44* The NOAA FishWatch Program defines sustainable seafood as 
``catching or farming seafood responsibly, with consideration for the 
long-term health of the environment and the livelihoods of the people 
that depend upon the environment.'' Verifying the health and 
sustainability of U.S. and international fisheries is not always 
simple. Domestic fisheries are managed by State and Federal agencies 
under legally established fisheries management plans. International 
fisheries are managed under sovereign laws and international treaties. 
Guidance on how to make sustainable seafood choices is found on the 
NOAA FishWatch site at www.fishwatch.gov/buying_seafood/
choosing_sustainable.htm.
    The General Services Administration's guidelines are available on 
the General Services Administration's Web site at: http://www.gsa.gov/
portal/mediaId/170091/
fileName/Guidelines_for_Federal_Concessions_and_Vending_Operations and 
at the Centers for Disease Control Web site at: http://www.cdc.gov/
chronicdisease/pdf/
guidelines_for_Federal_concessions_and_vending_operations.pdf.
    With regard to longer-term procedures and policies to ensure other 
Federal agencies coordinate with NOAA Fisheries on matters of 
sustainable fisheries and seafood, the agency is coordinating with 
stakeholders to help keep apprised of various activities as well as 
proactively introducing itself to inform them of U.S. standards for 
sustainable fisheries and offer its science expertise. It may be 
helpful to note that the issues of sustainability are an ever-
increasing matter of global interest in the market place and as such, 
the issue of sustainable seafood emerging as a topic of interest in 
other Federal agencies whose missions and expertise do not include 
sustainable fisheries is new. As NOAA Fisheries becomes aware of such 
activities, the agency directly engages one-on-one to formally 
introduce its mission and offer its expertise to advise and guide any 
sustainable seafood matter under consideration by another agency. We 
anticipate these engagements will translate into better awareness of 
NOAA Fisheries as the Federal authority on such matters.
    The most recent examples of these Federal engagements have been 
with the Department of Health and Human Services and its Federal 
advisory committee--Dietary Guidelines for Americans Committee. The 
Dietary Guidelines for Americans Committee is preparing to revise 
nutritional guidelines by 2017 and has decided to include the 
sustainability of seafood within its guidelines. NOAA Fisheries is now 
in formal discussions with the Department of Health and Human Services 
and the support staff assigned to the Dietary Guidelines for Americans 
Committee. In similar fashion, NOAA has recently reached out to the 
Department of Defense, Defense Logistics Agency, which is also 
exploring the matter of sustainable seafood as part of its food 
services mission for Defense personnel.
    Question. Also, can you please explain what steps NOAA is taking 
through FishWatch and any other program to acknowledge the successes of 
sustainable fisheries management in the U.S.?
    Answer. Beginning in 2010, NOAA Fisheries has enhanced its 
strategic communications efforts to build public familiarity and 
recognition of U.S. Federal fisheries as a global model of success in 
responsible fisheries management, and support our fishing and seafood 
industries. Key among the agency's communications assets for delivering 
this message is FishWatch. Over the last 3 years, the agency has 
expanded its proactive, strategic communications to the broader 
spectrum of the seafood supply chain, including one-on-one meetings 
with distributors, retailers, food service and culinary industries, and 
expanding participation in professional meetings, trade forums and 
various national and international initiatives addressing sustainable 
seafood in the market place (e.g. Global Sustainable Seafood 
Initiative, and The Sustainability Consortium). Based on these 
engagements and growing relationships, NOAA Fisheries has received 
extensive input on FishWatch and suggestions for improving FishWatch as 
a useful tool to industry and consumers. In response, NOAA Fisheries 
has drafted a next generation investment strategy for FishWatch 
including mobile access for the broader seafood consuming public, and 
potential capacity to serve as a public interface to acknowledge 
partnerships with the agency, possibly including U.S. fishermen and 
seafood harvested under a U.S. fisheries management plan, a 
recommendation made by NOAA Fisheries' Marine Fisheries Advisory 
Committee (MAFAC), a Federal Advisory Committee Act-compliant body that 
advises the Secretary of Commerce on all living marine resource matters 
that are the responsibility of the Department of Commerce.
    In addition, based on increased interest from the fishing industry, 
in October 2012, the agency asked MAFAC to examine whether NOAA 
Fisheries could or even should have a role in eco-labeling of U.S. 
federally managed seafood. Although MAFAC did not come to any 
consensus, in December 2013, it submitted recommendations which are 
available for public review and comment through the end of May 2014. 
The agency anticipates comments received by the public and seafood 
industries will be helpful for any next steps the agency may take. A 
summary of these recommendations follows:

  --MAFAC recommends that NOAA Fisheries improve awareness of the 
        Magnuson-Stevens FisheryConservation and Management Act (MSA) 
        and other laws and regulations governing U.S. fisheries and 
        domestic aquaculture, particularly in the domestic business-to-
        business environment.
  --MAFAC commends the educational efforts undertaken by NOAA Fisheries 
        thus far on FishWatch.gov and encourages more work in this 
        direction.
  --MAFAC recommends that NOAA Fisheries utilize the standards and 
        requirements of the MSA as the reference points to create a 
        business-to-business based approach, recognizing the 
        sustainability of wild harvest seafood products from U.S. 
        Exclusive Economic Zone (EEZ) fisheries in compliance with the 
        MSA.
  --MAFAC recommends adoption of traceability measures, implemented by 
        buyers to enable subsequent purchasers to track sustainable 
        fishery products in the marketplace.

    Full MAFAC recommendations available at: http://www.nmfs.noaa.gov/
op/
Sustainability/Sustainable_Seafood_Certification.html.
                       fisheries finance program
    Question. The President's fiscal year 2015 budget request includes 
proposed language to authorize $100,000,000 for fiscal year 2015 in 
direct loan authority for NOAA's Fisheries Finance Program (FFP) 
Account as authorized by the Merchant Marine Act. FFP loans have a 
negative subsidy rate and no appropriated funds are required. I have 
supporting the proposed language which I believe will increase 
opportunities for vessel owners to build and refinance new vessels and 
make major modifications to existing vessels to improve fishing vessel 
safety. These loans will help the fleet modernize and provide 
significant economic benefits to shipyards and support industries.
    Secretary Pritzker, will you please provide a written update on the 
status of new regulations to support this enhanced authority within the 
Fisheries Finance Program?
    Answer. An Advance Notice of Proposed Rulemaking (ANPR) is 
currently being developed to seek industry input on the potential form 
of a new vessel and vessel reconstruction loan authority. The ANPR will 
help the Department publish regulations that facilitate fleet 
modernization while supporting ongoing efforts to maintain sustainable 
fisheries. Once industry input has been received, the Department will 
publish draft regulations addressing vessel replacement, project cost, 
risk, and other matters related to effective program management. It is 
anticipated that the rulemaking process will be completed by December 
2015.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                    trans-pacific partnership (tpp)
    Question. I'd like to first acknowledge the Administration's 
commitment to the Yarn Forward Rule of Origin for textiles and apparel 
in the Trans-Pacific Partnership (TPP). As you know this rule is of 
critical importance to the U.S. textile industry and has created 
invaluable supply chains globally but in the Western Hemisphere in 
particularly. Western Hemisphere textile and apparel trade is worth $25 
billion in value and 2 million manufacturing jobs.
    With that in mind, I'd like to ask you about the Trans-Pacific 
Partnership and the status of the Market Access negotiations for the 
most sensitive textile products manufactured here in the U.S. What 
assurances can you give the committee that the Government is seeking 
the longest market access phase outs as possible in the TPP?
    Answer. The U.S. textile negotiating team has worked in close 
consultation with U.S. industry and other stakeholders to develop a 
responsible approach to tariff elimination that ensures our textile 
industry will not be competitively disadvantaged. The Department of 
Commerce's Deputy Assistant Secretary for Textiles, Consumer Goods, and 
Materials has been intimately involved in each round of these 
negotiations, working with the Assistant U.S.Trade Representative for 
Textiles to ensure that the concerns of our domestic industry 
stakeholders are addressed. In the market access talks, the Department 
has proposed a new, unique concept that provides the longest tariff 
phase-outs on the most sensitive textile and apparel products.
    Question. And how are negotiators counterbalancing this position in 
light of Vietnam's insistence on immediate access?
    Answer. The initial duty reduction provides an incentive for 
importers and retailers to source goods in TPP countries to take 
advantage of the agreement while the long phase-outs for full duty-free 
benefits on sensitive products provide domestic stakeholders and 
existing free trade agreement (FTA) and trade preference partners time 
to adjust. In addition, there are additional market access schedules 
for less sensitive textiles and apparel that provide immediate duty-
free treatment.
                                 steel
    Question. The United States is currently facing a steel import 
crisis, with dumped and subsidized steel imports from a number of 
countries and across various product lines flooding our market. These 
imports are causing injury to our steel industry and its workers.
    In response, the domestic industry has brought new trade cases in 
the past year against unfairly traded imports of rebar and oil country 
tubular goods (``OCTG''). Both of these industries desperately need 
relief. Despite the initiation of these cases, I understand that 
imports continue to flood the market, causing additional injury to the 
domestic industry. For example, U.S. imports of rebar from Turkey have 
continued to rise this year, with the U.S. market becoming the single 
largest destination for Turkish rebar.
    Despite rising imports and the desperate need for relief, the 
Department has made preliminary determinations in both cases that cause 
concern from the domestic industry.
    Can you assure the subcommittee that the Commerce Department will 
vigorously apply and enforce the U.S. trade remedy laws, including with 
respect to the above-noted cases?
    Answer. The Department is fully committed to enforcing our trade 
remedy laws so that American industries and workers have the 
opportunity to compete on a level playing field with their foreign 
competitors. The enforcement of the antidumping duty (AD) and 
countervailing duty (CVD) trade remedy laws is one of the Department's 
top priorities. The Department has received numerous steel-related 
petitions in the past months and it is currently conducting 39 
investigations involving steel products from a number of countries. 
This represents roughly 75 percent of the Department's ongoing 
investigations, and it has devoted significant resources to these cases 
to ensure that unfair trade practices are identified and remedied at 
the border. With respect to the ongoing cases on steel products, 
including those on oil country tubular goods and rebar, the 
Department's Enforcement and Compliance Unit, whose primary mission is 
conducting these trade cases, is focused on these matters and is 
diligently scrutinizing the information on the record of these 
proceedings in order to identify the extent of any unfair dumping or 
subsidization.
    Question. What is the Department doing, and what additional 
resources does the Department need, to address this import crisis on a 
comprehensive and systematic basis?
    Answer. The Department is currently conducting 39 steel-related AD 
and CVD investigations covering such products as grain-oriented 
electrical steel from China, the Czech Republic, Germany, Japan, South 
Korea, Poland, and Russia; non-oriented electrical steel from China, 
Germany, Japan, South Korea, Sweden, and Taiwan, and oil country 
tubular goods from India, South Korea, the Philippines, Saudi Arabia, 
Taiwan, Thailand, Turkey, Ukraine, and Vietnam. Numerous analysts, 
accountants, and legal advisors are assigned to these cases to identify 
the extent of any dumping or unfair subsidization that may be 
occurring. The Department of Commerce team is also working closely with 
colleagues at Customs and Border Protection in an effort to ensure that 
the Department's antidumping and countervailing duty orders are 
implemented properly and that importers are paying all amounts owed.
    In addition to its AD and CVD measures, the Department works 
closely with the Office of the United States Trade Representative in 
bilateral, trilateral and multilateral forums, such as the Organization 
for Economic Cooperation and Development (OECD) Steel Committee, to 
raise concerns with our trading partners about government-funded steel 
capacity and other government policies that cause distortions in the 
steel market both globally and domestically.
    With respect to resources, the Department supports the request of 
the President as reflected in his budget proposal. The vigorous 
enforcement of U.S. trade remedy laws is a top priority and the 
Department will continue to conduct all antidumping and countervailing 
duty investigations in a thorough and transparent manner, in accordance 
with U.S. law and our international obligations.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                   international trade administration
    Question. Over the past decade, 7 of the 10 fastest growing 
economies in the world have been in sub-Saharan Africa. Demographic 
trends suggest that by 2050 one in four workers in the world will be 
African, and the continent's population will top one billion. I believe 
that it is time for the United States to open new avenues to help 
American companies go head to head with their competitors in Africa. 
Over the last 10 years, trade with Africa from China, India, and Brazil 
has increased eight-fold. Over the same period, U.S. trade with Africa 
has increased by a multiple of only three. That is why I have joined 
with Senators Durbin to introduce legislation to create American jobs 
by increasing exports of U.S. goods and services to Africa by at least 
200 percent in real dollar value over the next 10 years. The eagerness 
and willingness to be good trade partners on the part of African 
nations is there. They want our goods and services because Africans 
know they are high quality. The desire for American products, and along 
with our ideals, is strong. The only thing missing is a cohesive 
strategy on our end. Two years ago President Obama rolled out his 
strategy towards sub-Saharan Africa and a large part of his strategy 
was to encourage U.S. businesses to trade with and invest in Africa.
    Can you discuss how the Department is implementing this pillar of 
the strategy?
    Answer. The Administration agrees that there is a need for a 
cohesive and comprehensive approach that the U.S. Government should be 
taking towards developing and increasing our commercial relationship in 
Africa. As noted, 2 years ago President Obama rolled out the Doing 
Business in Africa campaign (DBIA) to encourage U.S. companies to trade 
with and do business in Africa and to take advantage of the tremendous 
opportunities the region has to offer. The Department of Commerce has 
coordinated the efforts of U.S. Government agencies to work through one 
common DBIA strategic plan to:

  --increase trade promotion focused on the region;
  --expand trade financing and risk management programs available to 
        American companies; and
  --increase targeted communication activities to engage key 
        stakeholders and promote Africa as a strategic trade and 
        investment market.

    Consistent with this strategic plan, the Commerce Department wants 
to ensure that American businesses, especially small businesses, are 
equipped with the tools they need to do business in Africa and thereby 
create jobs at home. Several key activities that Commerce is doing this 
year to support the DBIA strategy and U.S. companies include:

  --Leading trade mission: The Department led 20 American companies on 
        an Energy Business Development trade mission to West Africa, 
        which visited Ghana and Nigeria from May 18-23 of this year. 
        This mission promoted U.S. exports and expanded U.S. companies' 
        presence in Africa by helping American firms launch or increase 
        their business in the energy sector.
  --Doubling staffing presence in sub-Saharan Africa: The Department 
        will hire an additional 6 new Foreign Service Officers, 19 
        locally engaged staff, and 2 headquarters positions that 
        directly work in or on sub-Saharan Africa issues. This 
        expansion will add additional staff to existing operations in 
        Kenya and Ghana and will open four new posts among Africa's 
        fastest growing economies--Angola, Mozambique, Ethiopia and 
        Tanzania. These four markets offer considerable opportunities 
        to American companies in sectors where we have a proven 
        successful track record.
  --Hosting an Africa Business Forum: As part of the upcoming U.S.-
        Africa Leaders' Summit, which will be held August 5-6, 2014, in 
        Washington, DC, the Commerce Department will lead a Business 
        Forum. The event will bring together hundreds of U.S. and 
        African CEOs, as well as African leaders, to explore practical 
        ways to increase trade and investment between our respective 
        markets. In connection with this Forum, Commerce is also 
        exploring ways to encourage African leaders to travel to 
        various parts of the United States and engage with local 
        business communities both directly before and immediately after 
        the Summit. Whether it is through commercial activities such as 
        trade missions, promotional outreach activities, or trade 
        policy encouraging African nations to strengthen democratic and 
        transparent institutions and improve their investment climate, 
        Commerce continues to actively support the United States' 
        increasing commercial engagement with the African continent.
                                 ______
                                 
               Questions Submitted to Hon. Todd J. Zinser
            Questions Submitted by Senator Richard C. Shelby
                     polar satellite gap mitigation
    Question. Mr. Zinser, your office and the GAO agree that there is 
still a significant risk for a gap in critical satellite data before 
the JPSS-1 satellite becomes fully operational. This data is essential 
for the protection of life and property across our country.
    In your opinion, does the Department's fiscal year 2015 budget 
proposal do enough to address the potential gap in polar satellite 
data?
    Answer. NOAA's options to reduce the likelihood of a gap are 
limited. The JPSS program determined that it could not accelerate JPSS-
1's launch date without excessive risk. The fiscal year 2015 budget 
continues activities to protect against a JPSS-1 launch delay. However, 
the budget does not specify activities intended to mitigate the 
consequences of a polar satellite data gap (i.e., forecast 
degradation), but some work in this regard was initiated with funds 
received under the Disaster Relief Appropriations Act, 2013.
    Question. Should the Department prioritize filling, or at least 
mitigating, the gap in polar satellite data over other satellite 
projects or activities that are included in the fiscal year 2015 
request?
    Answer. The extent to which the Department should prioritize 
filling or mitigating a potential gap depends, in part, on how 
successfully it can provide congressional stakeholders with a cost and 
benefit rationale of performing that activity compared with performing 
other satellite projects or activities identified in the fiscal year 
2015 budget.
                        program robustness--jpss
    Question. In addition to the potential gap in satellite data, I 
have serious concerns for the robustness of the JPSS program. The 
NESDIS Independent Review Team emphasized the danger of being just one 
failure away from catastrophe--meaning if JPSS-1 fails there is no 
backup to take its place.
    Is the Department taking sufficient steps currently, and within its 
fiscal year 2015 proposal, to ensure JPSS is a robust program that 
includes backup options in case JPSS-1 were to fail?
    Answer. The Department has begun to take steps towards creating a 
robust JPSS program. It began planning additional missions for a 
longer-term JPSS program in response to the independent review team's 
November 2013 report. NOAA's response included initiating a number of 
trade studies to identify longer-term gap filler and mitigation 
options, as well as conducting a gap filler mission concept review at 
the end of March 2014. Also in March, NOAA indicated its intent to 
procure copies of the JPSS instrument suite for JPSS-3 and JPSS-4 
missions, as well as additional spares of Advanced Technology Microwave 
Sounder (ATMS) and Cross-track Infrared Sounder (CrIS), potentially for 
a gap filler mission. The fiscal year 2015 proposal indicates that the 
requested increase in JPSS funds would support additional instrument 
procurements. While these are positive steps, NOAA needs to complete an 
acquisition strategy and other program plans (e.g., cost, schedule, and 
performance baselines) to ensure that it can meet the independent 
review team's criteria for a robust program.
                          working capital fund
    Question. The Department's funding request for Working Capital Fund 
(WCF) continues to increase year-after-year. In its fiscal year 2015 
request, the Department proposes a $25.5 million increase over fiscal 
year 2014 enacted. While requests for WCF continue to rise, along with 
the assessments made on Commerce bureaus, transparency of billing rates 
and services provided has decreased. Transparency and accountability is 
particularly lacking in WCF services provided by the Commerce Office of 
General Counsel.
    Mr. Zinser what is the latest status of your investigation into the 
operation and lack of transparency in the Department's Working Capital 
Fund?
    Answer. We have completed our audit of the Department's WCF and, on 
May 15, 2014, we issued our final report, Office of the Secretary's 
Working Capital Fund Billing Control Issues Resulted in Incorrect 
Charges.
    Question. In your opinion, does the Department take any steps to 
improve transparency and accountability within the operation and 
billing activities of the WCF?
    Answer. We believe that, once the Department implements our final 
report recommendations, it will have taken important steps toward 
improving WCF transparency and accountability.
    The audit found that the Office of the Secretary Financial 
Management directorate (OSFM) and WCF service providers did not comply 
with billing requirements established in the Department's fiscal year 
2013 WCF handbook. The noncompliance occurred because OSFM relied on 
incorrect bases of charge, inaccurate supporting documentation, and/or 
incorrect billing information for 10 of the 34 projects reviewed. As a 
result, customers were either over- or undercharged for services 
provided in fiscal year 2013, compared with the amount that should have 
been billed. (Please see Appendix C attachment at the end of my 
responses to Senator Shelby's questions for a list of fiscal year 2013 
overcharges and undercharges by WCF project that we identified in our 
audit.) The Office of General Counsel (OGC) is the service provider for 
4 of the 10 projects that did not comply with the requirements of the 
WCF handbook.
    To improve the Office of the Secretary's oversight of the WCF, we 
recommended that it:

  --update processes for calculating the correct bases of charge, and 
        obtain the most current documentation from the service 
        providers;
  --require a validation and certification process for WCF service 
        providers to capture and retain supporting documentation that 
        accurately reflects the level of services provided to 
        customers; and
  --make a determination on whether fiscal year 2013 charges should be 
        reviewed and recalculated accordingly, and whether adjustments 
        should be considered in calculating charges for fiscal year 
        2014.
                              2020 census
    Question. I continue to be concerned about the Department's ramp-up 
to the 2020 Census. This effort will cause increased budget pressures 
on the Department for the next several fiscal years. It is imperative 
that the Census Bureau carry out activities leading up to the 2020 
Census efficiently and with future budget constraints in mind.
    Mr. Zinser, does the Department take the necessary steps in its 
fiscal year 2015 proposal to ensure proper controls are in place to 
keep costs down and schedule on time leading up to the 2020 Census?
    Answer. My office actively monitors the Census Bureau's development 
of the 2020 Census and makes recommendations in areas where internal 
control weaknesses are identified. Specifically, we have addressed (a) 
the Bureau's research and testing (R&T) progress, in a report issued on 
December 3, 2013, and (b) concerns with the Bureau's formulation of 
budget estimates, in a report that we will issue as final in May 2014.
    Our December 2013 report 2020 Census Planning: Research Delays and 
Program Management Challenges Threaten Design Innovation examined the 
adequacy of the R&T program's governance and internal controls to 
manage the design effort. This audit determined that the current 
schedule suffered from research delays and lacked adequate budget 
integration. The Census Bureau concurred with our findings and 
recommendations and developed the following corrective actions (see 
Table 1) that, if implemented, should ensure that proper controls are 
in place to manage costs and the 2020 Census R&T schedule:

          TABLE 1. SUMMARY OF CENSUS BUREAU CORRECTIVE ACTIONS
------------------------------------------------------------------------
                                              Summary of Corresponding
Selected December 2013 OIG Recommendations    Census Bureau Corrective
            to the R&T Program                         Actions
------------------------------------------------------------------------
Determine when 2020 Census design           Complete a fully integrated
 decisions must be made, adhere to an        schedule, with established
 activity schedule that aligns with those    critical paths (including
 decision points, and develop a critical     end of fiscal year 2015
 path for the 2020 Census R&T schedule.      deadline for design
                                             decisions) for meeting the
                                             goals of the 2020 Census
                                             R&T program.\a\
------------------------------------------------------------------------
Define and adhere to a final testing        Analyze the testing schedule
 schedule, and determine how iterative       to ensure that the American
 testing and the American Community Survey   Community Survey is
 can be used for the operational testing     leveraged to the greatest
 phase.                                      extent possible.
------------------------------------------------------------------------
Incorporate earned value management and     Develop earned value
 budgets at the project level to             management guidelines,
 prioritize projects, as well as assess      including a resource-based
 and quantify 2020 Census research program   schedule at the project
 results.                                    level.\b\
------------------------------------------------------------------------
Source: OIG
\a\ A resource-based schedule pilot project for 2020 decennial R&T will
  occur in the summer of 2014.
\b\ The Census Bureau's full implementation of the EVM process will
  occur in fiscal year 2015.

    Our upcoming May 2014 audit report will identify significant 
internal control weaknesses in the Census Bureau's budget formulation 
and execution process, as well as the method used to record project 
salary costs. Specifically, the 2020 Census R&T program--and likely 
other Census Bureau programs--charge salary costs to projects based on 
budget estimates, instead of actual hours worked on a project. In 
addition, the R&T program was unable to provide support for fiscal 
years 2013 and 2014 budget requests. Finally, the practice of 
transferring budget between projects circumvents spending controls, 
thereby increasing the risk that incorrect or even fraudulent charges 
could be recorded without detection.
    Due to these internal control weaknesses, we were unable to assess 
the impact of recent budget reductions on the 2020 Census R&T program--
and its goal of reducing the 2020 Census per-household cost--because 
the amount of resources expended cannot be used to analyze whether 
projects are yielding desired results and should continue to be funded.
    Question. In your opinion, what activities should the Committee pay 
most attention to during this process to best ensure its success?
    Answer. In addition to monitoring the Census Bureau's research and 
testing schedule early in the decade--and the implementation schedule 
as 2020 nears--the Committee should monitor the advantages, 
limitations, and risks of:

  --the use of administrative records for decennial census activities;
  --a targeted address canvassing operation (as opposed to canvassing 
        every block in the United States) that ensures a quality list; 
        and
  --implementing an Internet response option.

    The Census Bureau successfully incorporating these decennial design 
changes could save the Government billions of dollars.
    Finally, conducting regularly scheduled congressional hearings 
provides an ideal forum for the Census Bureau to provide updates and 
respond to oversight concerns.

 ATTACHMENT: APPENDIX C, ``DETAILED OVERCHARGES AND (UNDERCHARGES) BY WCF PROJECTS IN FISCAL YEAR 2013,\1\'' OF OIG FINAL REPORT NUMBERPOIG-14-020-A, OFFICE OF THE SECRETARY'S WORKING CAPITAL
                                                         FUND BILLING CONTROL ISSUES RESULTED IN INCORRECT CHARGES, ISSUED MAY 13, 2014
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Service Providers             Office of Human Resource            Office of         Office of         Office of                   Office of General Counsel
------------------------------             Management                   Financial          Security      Administrative  ------------------------------------------------------
                              ------------------------------------     Management     -----------------      Service                                                                  Total
                                                                  --------------------  Investigation  ------------------                                                        Overcharges or
         WCF Projects          Office of Policy   Human Resource        Business             and                           Legislation and     Finance and     Administration    (Undercharges)
                                 and Programs       Management         Application       Intelligence      Electronic        Regulations       Litigation
                                                      System            Solutions          Programs      Travel Systems
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Customers:
  OS.........................             (390)           (1,490)             81,231            18,632            2,058             2,298           156,563          (166,712)           92,190
  ITA........................              877            (4,972)              1,801               227              165             1,186           (68,079)          (90,723)         (159,518)
  EDA........................              378            (1,325)                 79                 0              739            (1,441)           11,608            19,105            29,143
  NTIA.......................              958            (2,083)              2,254               227            1,584           (11,448)         (288,937)            2,947          (294,498)
  NTIS.......................              296              (757)                  0                 0              (13)            1,771           109,511            10,150           120,958
  CEN........................            8,819           (90,891)             40,796               227           (3,977)            3,075           326,940           249,345           534,334
  ESA........................              143            (3,598)                110                 0             (117)            7,513            (1,631)           (2,358)               62
  NOAA.......................           (2,542)          129,341             (35,016)              227           (6,649)            3,077          (694,208)         (147,819)         (753,589)
  NIST.......................           (7,087)          (20,198)            (12,741)              227            4,423           (12,146)          (94,772)          140,004            (2,290)
  MBDA.......................             (102)             (505)                224               227              523             2,806           137,334            (5,991)          134,516
  BIS........................               82            (2,544)             (1,687)              227            1,319             6,268             5,039           (53,109)          (44,405)
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Calculated by OIG based on documentation provided by OSFM and the service providers.
\1\ OGC's Legal Information Retrieval and OFM's Oklahoma Enterprise Application Systems were not included in this table because we did not have fiscal year 2013 data to determine the over- or
  undercharges.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee will now stand in 
recess to May 1st at 10 a.m., when we take the testimony of the 
NASA Administrator, Charles Bolden.
    I also wish to announce that there will be a full committee 
hearing on two things in which we hope to create jobs, one of 
which on April 29th we will be holding a full committee 
hearing, all hands on deck, on innovation, particularly in 
terms of life science and others, where we'll listen to 
everyone from NIH to DARPA to the Department of Energy.
    Also, later on in the spring--the date will be announced 
shortly--we will be having a full committee hearing on physical 
infrastructure, how we have to look across the committees on 
our physical infrastructure needs, whether it's in 
transportation, water and sewer, and our ports.
    Senator Coons. And rail.
    Senator Mikulski. Excuse me?
    Senator Coons. And rail.
    Senator Mikulski. Yes. But that's transportation. But our 
ports themselves. There are big ships coming through the Panama 
Canal. Maryland is ready, but we looked ahead and got ourselves 
ready. But we need viable ports. We want those imports and 
exports, and Japan is one of our great trading partners with 
Toyotas and motorcycles.
    Anyway, we will be holding a full committee hearing on kind 
of an infrastructure appropriation so we know that every 
subcommittee is looking at our physical infrastructure using 
this year's appropriations, how we can have a horizontal view 
on what this means to creating jobs and yet getting value for 
our dollar, solving important problems in transportation, the 
environment through public works, getting our ports ready for 
the new ships in the new century.
    So these are the kinds of things we'll be doing, and 
therefore the committee, for now, stands in recess until the 
full committee hearing on April 29th, and this subcommittee, 
May 1st, for NASA.
    Secretary Pritzker. Thank you very much. Thank you, 
Senator.
    [Whereupon, at 11:25 a.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 10 a.m. on Thursday, 
May 1.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                         THURSDAY, MAY 1, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby presiding.
    Present: Senators Mikulski and Shelby.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR

             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. The subcommittee will come to order.
    Administrator Bolden, as one of the most publicly 
recognized agencies in the Federal Government, NASA serves as 
an inspiration to many across the globe. For more than 50 
years, NASA has pushed the boundaries of human knowledge 
through exploration and scientific discovery.
    The cutting-edge missions and projects historically 
undertaken by NASA are technologically challenging and risky. A 
true commitment of resources, coupled with strong oversight, is 
required for these efforts to stay on schedule and on budget.
    In spite of this, NASA's 2015 budget proposal is $186 
million below the current enacted level and contains drastic 
inequities with respect to program oversight.
    This calls into question the administration's level of 
commitment to a forward-thinking, inspirational space program, 
I believe. For example, while the Space Launch System, SLS, is 
subject to strict and necessary oversight, severe budget cuts 
will ensure delays and unnecessary cost growth.
    At the same time, NASA has taken a hands-off approach with 
the commercial crew and cargo programs, choosing instead to 
commit seemingly unlimited Federal resources with little to no 
transparency or accountability. Neither of these approaches, in 
my view, is acceptable.
    And while your statement depicts SLS as critical to NASA's 
exploration goals, the requested budget does not reflect that 
commitment. Instead, the budget request maintains a resource 
level that underfunds SLS and inserts unnecessary budgetary and 
schedule risks into the future of human exploration.
    For the first time in recent memory, NASA has a strategic 
plan for space exploration that will utilize one platform to 
meet the needs of multiple exploration missions well into the 
future. That platform is SLS.
    Historically, NASA has planned a single mission and set out 
to build a program around that mission. Not so with SLS. Once 
SLS is operational, NASA will be able to provide critical 
heavy-lift capabilities to short-, medium-, and long-range 
missions. In short, SLS will provide NASA a versatile platform 
to conduct a variety of missions.
    SLS will allow NASA to break free from its decades-long 
tether to low-Earth orbit. It will enable NASA to go to an 
asteroid and achieve the ultimate goal of sending humans to 
Mars.
    In addition, SLS will create significant opportunities for 
planetary robotic science missions and space-based astronomy. 
It is the vehicle that will make NASA's goals for exploration 
possible.
    None of this will be possible if we shortchange this 
effort.
    My concerns about the budget are not focused solely on SLS. 
They also extend to NASA's commercial launch program. And while 
the commercial cargo program eventually succeeded in delivering 
cargo to the International Space Station, it came at a 
significant cost. SpaceX has flown three successful missions to 
the International Space Station, and Orbital has flown one. 
These accomplishments should be celebrated.
    Yet it is worth noting that these missions could not have 
been achieved without the investment of nearly $800 million 
taxpayer dollars. NASA paid these companies in spite of delayed 
milestones, shifting completion dates, and a final delivery 
schedule that was 2.5 years behind. All the while, NASA has 
little insight regarding the delays and even less about the 
investments made by the companies.
    Today, NASA is using the same flawed model to advance the 
commercial crew program. Once again, NASA is spending billions 
to help private companies develop a launch vehicle, but has 
little to no access to the books and records associated with 
this investment. None of these companies will publicly disclose 
investment in the so-called public-private partnership.
    The question is, is the Federal Government a majority 
investor or a minority investor? The fact is, there is no 
transparency into the true total investment in these vehicles.
    Notwithstanding the total Federal investment, I am most 
troubled that these programs lack an oversight component. Much 
like the cargo program, we are beginning to see similar issues 
surface with the crew program.
    These issues are not grounded in funding shortfalls, but 
rather in the capability of these companies to meet their own 
proposed milestones and deadlines.
    Moreover, NASA ceded its authority to investigate these 
problems when it signed the Space Act Agreements that fund 
these companies.
    I fully recognize that these are not simple efforts. They 
are technically difficult and extremely risky. That said, the 
lack of transparency, coupled with the continued demand for 
additional taxpayer resources to fund ``a commercial venture,'' 
is difficult to rationalize.
    While new and innovative ideas often require significant 
investment and involve significant risk, I believe they cannot 
come at the expense of other priority programs. They should 
never be guaranteed funding with little or no oversight.
    I plan to work with Senator Mikulski to make NASA's budget 
reflect its priorities and to address the inequities in 
accountability that are emblematic of this request.
    General, we welcome you today. We are always glad to hear 
from you and look forward to the area of questioning. Thank 
you.

            SUMMARY STATEMENT OF HON. CHARLES F. BOLDEN, JR.

    Mr. Bolden. Senator, thank you very much. I want to thank 
you and Madam Chairperson, Chairwoman Senator Mikulski, and all 
the members of this subcommittee for the final fiscal year 2014 
appropriations. We are greatly indebted to the hard work that 
you and Senator Mikulski put into leading the team to come up 
with the final number.

                    FISCAL YEAR 2015 BUDGET REQUEST

    That budget is allowing us to make substantial progress on 
our shared priorities, and our fiscal year 2015 request builds 
on that appropriation. The President's $17.5 billion budget 
request affirms the bipartisan strategic exploration plan 
agreed to with Congress back in 2010, and it keeps NASA on the 
steady path we have been following, a stepping stone approach 
to meet the President's challenge of sending humans to Mars in 
the 2030s, and you referred to that in your opening statement.
    You should have a copy of this in front of you, but I am 
going to refer to this chart off and on over the course of my 
testimony today. But for the benefit of others who are here, 
this is essentially a pictorial of the roadmap when I refer to 
the stepping stone approach that we are using to get to Mars. 
You have already commented on the critical importance of SLS on 
that, and we can talk about that as I go.
    The International Space Station remains our springboard to 
the exploration of deep space and Mars. Our commitment to 
extend the ISS until at least 2024 ensures we will have this 
unique orbiting outpost for at least another decade. This means 
an expanded market for private space companies; more 
groundbreaking research and science discovery in microgravity; 
and opportunities to live, work, and learn in space over longer 
periods of time.
    Later this year, we will see Exploration Flight Test 1, or 
EFT-1, as we call it, of Orion. NASA is pressing forward with 
the development of the Space Launch System, or SLS, and Orion, 
preparing for an uncrewed mission of the two together in fiscal 
year 2018.
    The budget also supports the administration's commitment 
that NASA be a catalyst for the growth of a vibrant American 
commercial space industry. Already, as you pointed out, two 
companies, SpaceX and Orbital Sciences, are making regular 
cargo deliveries to the International Space Station.
    Later this year, we will move beyond commercial cargo and 
award contracts to American companies to send astronauts to the 
station from American soil and end our sole reliance on Russia.
    If Congress fully funds our fiscal year 2015 request, we 
believe we can do this by the end of 2017.
    Unfortunately, due to funding levels provided for 
commercial crew for the past few years, NASA has had to extend 
our current contract with the Russians and purchase more seats 
on the Soyuz spacecraft. Instead of investing millions of 
dollars into the U.S. economy to support American jobs, we will 
be spending that money in Russia.
    While I appreciate all of the funding this subcommittee has 
provided in recent years, I ask that you fully fund our 2015 
request for this critical priority. Budgets really are about 
choices, and the choice here is between fully funding the 
request to bring space launches back to American soil or 
continuing to send millions to the Russians. It is really that 
simple.
    In addition to continuing ISS research, strengthening 
partnerships with commercial and international partners and 
building the next-generation heavy-lift rocket and crew capsule 
to take our astronauts farther into space than ever before, our 
steppingstone approach includes a plan to robotically capture a 
small near-Earth asteroid and redirect it safely to a stable 
orbit in the Earth-Moon system, which we refer to as the 
proving ground on this chart, where astronauts can visit and 
explore it.
    Our asteroid redirect mission will help us deliver 
technologies, including Solar Electric Propulsion needed for 
future deep space missions to Mars. We also enhance detection 
and characterization of Near Earth Objects (NEO) and improve 
our understanding of asteroid threats to planet Earth.
    NASA's 2015 request continues support for science missions, 
heading toward destinations such as Mars, Jupiter, and Pluto. 
It enables NASA to continue making critical observations of 
Earth and developing applications to directly benefit our 
Nation and the world. It maintains steady progress on the James 
Webb Space Telescope toward its 2018 launch.
    The budget request also supports missions currently in 
formulation, such as Europa, and the mission to achieve the 
science objectives of WFIRST, as laid out in the Astrophysics 
decadal survey. Our aeronautics program will continue to focus 
on substantially reducing fuel consumption, emissions, and 
noise to help make the Next Generation Air Transportation 
System, or NextGen, a reality.
    All of NASA's investments help drive technology and 
innovation, spur economic activity, and create jobs. That is 
why the President's Opportunity, Growth, and Security 
Initiative, with congressional approval, will provide NASA 
nearly $900 million in additional funding in fiscal year 2015 
to focus on specific areas where we can advance our priorities.
    In summary, the fiscal year 2015 budget request advances 
NASA's strategic plan for the future, will continue building 
U.S. preeminence in science and technology, improve life on 
Earth, and protect our home planet while creating good jobs and 
strengthening the American economy.

                          PREPARED STATEMENTS

    Senator Shelby, I really want to thank you again, you and 
Senator Mikulski, for the leadership you have displayed with 
this subcommittee and for the very good funding that we 
received in the fiscal year 2014 appropriations. I look forward 
to continuing to work with you and being able to be as happy 
about funding in the future. So I will be happy to respond to 
any questions you may have now.
    [The statements follow:]
           Prepared Statement of Hon. Charles F. Bolden, Jr.
    Madam Chairwoman and members of the subcommittee, I am pleased to 
have this opportunity to discuss NASA's fiscal year 2015 budget 
request. The requested budget of $17.46 billion provides the resources 
NASA needs to pursue the goals and priorities that the Congress and the 
Administration have established for the Agency and will ensure that 
NASA will remain the world's leader in space. A summary of the fiscal 
year 2015 budget request is appended to this statement.
    The President's fiscal year 2015 request supports NASA's continuing 
quest to extend human presence into deep space and on to Mars. NASA 
will continue to perform research aboard the International Space 
Station (ISS), partner with American industry for crew and cargo 
delivery to low Earth orbit (LEO), develop the Space Launch System 
(SLS) and Orion crew vehicle, and test our new capabilities in the 
proving ground of cis-lunar space before sending a human mission to the 
Red Planet. NASA will also continue to develop a rich array of 
commercial and international partnerships as part of its overall 
exploration framework. As we speak, American astronauts aboard the ISS 
are learning the fundamental lessons necessary to safely execute 
extended missions deeper into space. Later this year we will see the 
Exploration Flight Test-1 (EFT-1) of Orion atop a Delta IV Heavy launch 
vehicle. NASA is pressing forward with development of SLS and Orion, 
preparing for a first, uncrewed mission in fiscal year 2018.
    As a critical element in this long-term exploration strategy, as 
well as a source of continuing scientific and material benefits to life 
on Earth, operations in LEO remain among NASA's highest priorities. 
With the Administration's commitment to the extension of ISS operations 
through 2024, NASA looks forward to expanded research opportunities 
with continuing support from our commercial partners for both crew and 
cargo. Two American companies are launching supplies to the ISS from 
U.S. soil. NASA will complete a commercial crew competition this 
summer, and if Congress fully funds our fiscal year 2015 budget 
request, we believe we can stay on track to launch astronauts to the 
ISS from American soil by the end of 2017. This capability is 
critically important to safe/sustained operations, and will end our 
sole reliance on our Russian partners for this service. The requested 
funding is required to meet this critical near-term need.
    Consistent with the NASA Authorization Act of 2010 (Public Law 111-
267) and the National Space Policy, NASA continues to make solid 
progress on the development of SLS and Orion for a series of test 
flights including a compelling mission in the proving ground of cis-
lunar space to redirect a small asteroid into orbit around the Moon, 
and to send U.S. astronauts to rendezvous with and explore this target. 
The proving ground of cis-lunar space also puts the Nation in a 
position from which we may help our commercial and international 
partners robotically explore other destinations on that pathway, such 
as the Moon.
    The Asteroid Redirect Mission (ARM) will enable NASA to test 
powerful Solar Electric Propulsion (SEP) and integrated human/robotic 
vehicle operations in deep-space trajectories. Like the invaluable ISS, 
this mission will provide NASA with critical knowledge, experience and 
technologies for future human exploration missions deeper into space. 
Drawing on our long-term investments across three Mission Directorates, 
the fiscal year 2015 request supports continued core capability 
development and formulation of the integrated mission concept. The 
overall asteroid initiative also includes enhanced Near Earth Object 
(NEO) detection and characterization, which will extend our 
understanding of the NEO threat while providing additional 
opportunities for investigations of asteroids and demonstrations of 
technologies and capabilities.
    NASA's fiscal year 2015 request for Science supports operation of 
the world's premier constellation of spacecraft dedicated to exploring 
Earth, the solar system, and the universe beyond, while we continue to 
develop the next generation of missions in pursuit of our Nation's 
highest priority space and Earth science. The James Webb Space 
Telescope (JWST), NASA's next-generation successor to the Hubble Space 
Telescope (HST), continues on schedule for its 2018 launch. In recent 
months, NASA has completed rigorous testing of the spine of the massive 
telescope and completed the primary mirrors for integration. As we 
announced last year, we have begun work on a large Curiosity-scale 
rover for a 2020 mission to Mars, and the fiscal year 2015 request 
includes funding to continue pre-formulation activities of a potential 
mission to Europa, one of Jupiter's moons believed to harbor a vast 
subsurface ocean. NASA will launch five Earth science missions in 
calendar year 2014, taking advantage of the unique vantage point of 
space to secure new insights into our home planet. The Earth science 
budget will support airborne campaigns to the poles and hurricanes, 
development of advanced sensor technologies, and use of satellite 
observations and data analysis tools to improve natural hazard and 
climate change preparedness.
    With NASA's fiscal year 2015 request, our pioneering Aeronautics 
research program will continue to focus on substantially reducing 
aircraft fuel consumption, emissions, and noise--and help make the Next 
Generation Air Transportation System, or NextGen, a reality. NASA's 
Aeronautics Research Mission Directorate (ARMD) will continue to 
implement the strategic vision for aeronautics that NASA launched last 
year, with a focus on addressing the challenges facing the U.S. 
aviation community--civil and military--in the coming decades.
    In essential support of the Agency's broader mission, the fiscal 
year 2015 request supports an active Space Technology Program to 
advance cutting-edge technologies, providing an on-ramp for new space 
technologies, creating a pipeline that matures them from early-stage 
through flight, and delivering innovative solutions that dramatically 
improve technology capabilities for NASA, the aerospace sector, and the 
Nation. The request supports the sustained investments that NASA must 
make to mature the capabilities we need to achieve the challenging 
goals that the Congress has set for us. By the end of fiscal year 2014, 
NASA will test and deliver two candidate designs for high-power solar 
electric systems for SEP with critical applications for deep-space 
exploration as well as for Earth-orbital activities. By the end of 
calendar year 2015, NASA will have completed seven Space Technology 
missions in 24 months, including demonstration of a deep-space atomic 
clock for advanced navigation, the green propellant demonstration (an 
alternative to highly toxic hydrazine), a solar sail to demonstrate 
propellant-free propulsion, and four small spacecraft missions 
pioneering new technologies. The Space Technology Program is also 
developing high performance systems for decelerating spacecraft at 
Mars, high bandwidth laser communications with the potential to 
transform communication systems for both space exploration and 
commercial use, advanced life support technology, advanced robotics, 
and lightweight composite propellant tanks.
    The program laid out in detail in NASA's fiscal year 2015 request 
continues NASA's implementation of the priorities established for it in 
the bipartisan NASA Authorization Act of 2010. In the current 
constrained budget environment, we have designed a balanced program 
that pursues the Nation's highest priorities in science, exploration, 
and aeronautics; with a critical technology development program to 
develop essential capabilities. The fiscal year 2015 request supports 
the next steps on the way to Mars in a sustainable way. It enables NASA 
to restore an American capability for sending humans to orbit while 
continuing development of a deep-space capability for human space 
flight. This is not an either-or scenario. Each is critically dependent 
on the other. The request supports the Nation's highest priority 
science and technology goals for space. NASA appreciates the strong 
budget support the Agency has received despite a difficult budget 
environment, and we are fully committed to delivering the world's 
leading space program on behalf of the American people.
    NASA is pleased to be included in the President's Opportunity, 
Growth, and Security Initiative (OGSI). Under this initiative, NASA 
would receive nearly $885.5 million in additional funding in fiscal 
year 2015 to focus on specific priorities. This initiative recognizes 
NASA as a critical source of innovation and technology that creates 
opportunity, economic growth, and ultimately security and prosperity. 
NASA's funding under OGSI would focus on priority investment 
opportunities such as an expanded Space Technology Program, reducing 
risk and enhancing competition in the Commercial Crew Program, 
continuing currently operating science missions and accelerating work 
on potential future missions. NASA's portion of OGSI would also enable 
further development work on SLS and Orion, more fully utilize the ISS, 
and support additional Earth science mission development, advanced 
computational fluid dynamics research and increased investment in 
composite materials.
                                science
    With 95 missions in development and actively observing Earth, the 
Sun, the planets, and the universe beyond, NASA remains the world's 
premier space science organization and the critical source of 
information on the home planet. The President's fiscal year 2015 budget 
request for the Science program includes $4,972.0 million, with 
$1,770.3 million for Earth science, $1,280.3 million for Planetary 
Science, $607.3 million for Astrophysics, $645.4 million for the James 
Webb Telescope, and $668.9 million for Heliophysics.
                             earth science
    The President's fiscal year 2015 budget request enables NASA to 
continue to make critical spaceborne measurements of Earth, our home; 
to conduct and fund a comprehensive, competed scientific research 
program to turn those measurements into an understanding of our complex 
planet; and to use the measurements and understanding to develop and 
demonstrate applications that will provide direct benefit to our 
Nation, and indeed all of humanity. Today, there are 17 NASA-developed 
research satellites on orbit, making measurements of more than 60 key 
aspects of our planet's environment. This past February, in 
collaboration with the Japan Aerospace Exploration Agency (JAXA), the 
Global Precipitation Measurement mission (GPM) was launched to provide 
the first-ever, accurate, global maps of rain- and snowfall over the 
globe. During the rest of 2014, NASA will be launching four more Earth 
observing research missions: Orbiting Carbon Observatory-2 (OCO-2) to 
measure global carbon dioxide concentrations with unprecedented 
coverage and accuracy; RapidScat to the ISS, to make measurements of 
ocean wind speed and direction; Cloud-Aerosol Transport System (CATS), 
also to the Space Station, to measure atmospheric aerosols; and, in 
November, the Soil Moisture/Active Passive (SMAP) mission to make 
accurate measurements of soil moisture and freeze-thaw cycling. These 
2014 missions will be followed in 2015-2017 by the SAGE-III 
(Stratospheric Aerosol and Gas Experiment III) instrument to the ISS 
for atmospheric trace gas profile data, including ozone measurements; 
the Gravity Recovery and Climate Experiment (GRACE)-Follow On gravity 
mission with our German partners to measure changes in the Earth's 
gravity field and water storage, such as aquifer level changes; a 
constellation of eight smallsats, called Cyclone Global Navigation 
Satellite System (CYGNSS), to use reflected Global Positioning System 
(GPS) signals to measure conditions in cyclones and hurricanes; an 
instrument called Tropospheric Emissions: Monitoring of Pollution 
(TEMPO) to fly on a commercial geostationary communications satellite, 
to measure air quality over greater North America; and Ice, Cloud, and 
land Elevation Satellite-2 (ICESAT-2), to make precise measurements of 
our planet's rapidly changing ice caps and glaciers.
    NASA is now developing the Pre-Aerosol, Clouds and ocean Ecosystem 
(PACE) ocean color and aerosol continuity mission, and the NASA-Indian 
Space Research Organisation (ISRO) Synthetic Aperture Radar (NI-SAR) 
mission in collaboration with the Indian space agency to measure solid 
earth processes, ice flows, global vegetation, and response to 
disasters and geohazards. The fiscal year 2015 budget request also 
supports NASA to develop missions that will continue key climate data 
series, including a set of solar irradiance, ozone profile, and Earth 
radiation budget instruments, and follow-on capabilities in support of 
U.S. Geological Survey for sustained land imaging following our 
successful launch of Landsat-8 just 1 year ago.
              astrophysics and james webb space telescope
    NASA is making strong progress on JWST, the most powerful space 
telescope in history, and remains on cost and schedule for launch in 
2018. The Webb telescope is the next in a series of astrophysics 
missions, including the venerable, yet still unrivaled, HST and the 
incredibly productive Kepler exoplanet mission, which are 
revolutionizing our understanding of the universe. After launching in 
2018, the Webb telescope will travel one million miles from Earth, 
unfold its sunshield to the size of a tennis court, and keep its 
instruments cooled to a temperature of 370-387 degrees below zero 
Fahrenheit (40-50 Kelvin). The Webb telescope will allow us to observe 
objects even fainter than HST can see, which will allow us to study 
every phase in the history of our universe, ranging from the first 
luminous glow after the Big Bang, to the formation of solar systems 
capable of supporting life on planets like Earth, to the evolution of 
our own solar system. The fiscal year 2015 request will support work to 
continue testing the integrated science instrument module for JWST, 
continue the construction of the spacecraft that will carry the science 
instruments and the telescope, and begin the assembly of the delivered 
mirror segments into the telescope backplane.
    NASA's Astrophysics Program operating missions include the Hubble, 
Chandra, Spitzer, and Kepler telescopes; and other missions that 
together comprise an unrivaled, and in many ways unprecedented resource 
for the study of our universe. NASA is currently working with our 
German partner to identify a path forward for the Stratospheric 
Observatory for Infrared Astronomy (SOFIA), a mission with high annual 
operating costs that cannot be accommodated within the fiscal year 2015 
budget request. In fiscal year 2015, NASA's next two astrophysics 
Explorer missions will continue their development. The Neutron Star 
Interior Composition Explorer (NICER) will probe the interiors of 
neutron stars and determine the laws of physics that govern atomic 
nuclei. NICER will be launched to the ISS in 2016. The Transiting 
Exoplanet Survey Satellite (TESS) will extend the pioneering work of 
the Kepler Space Telescope, which showed us that virtually every star 
in the sky has a planetary system. TESS launches in 2017 and will 
discover rocky exoplanets orbiting the nearest and brightest stars in 
the sky in time for the JWST to conduct follow-up observations that 
will characterize their atmospheres and other properties.
                           planetary science
    Planetary Science missions continue to explore the solar system in 
unrivaled scope and depth. This past November, the Lunar Atmosphere and 
Dust Environment Explorer (LADEE) was successfully lowered into its 
optimal position in lunar orbit to enable science data collection, and 
following the mission's final low-altitude science phase impacted the 
surface of the Moon, as planned, on April 17. Using its ion engines, 
the Dawn spacecraft is nearing its next target, Ceres, the largest 
asteroid in the asteroid belt, with an expected arrival in April 2015. 
Other upcoming outer planet encounters include the New Horizons mission 
flyby of Pluto in July 2015 and the Juno mission orbit insertion around 
Jupiter in August 2016. The fiscal year 2015 budget request also 
includes funding for continuing pre-formulation activities and studies 
for a potential mission to Jupiter's icy moon, Europa; with compelling 
evidence of a liquid water ocean beneath its crust, exploration of 
Europa is vital to our understanding of the habitability of other 
planets.
    Building on the success of NASA's Curiosity rover on Mars, the 
fiscal year 2015 request supports plans for a robust multi-year Mars 
program. In a little more than a year on the Red Planet, Curiosity has 
landed in an ancient river bed, determined the age of the surrounding 
Martian rocks, found evidence the planet could have sustained microbial 
life, taken the first readings of radiation on the surface, and shown 
how natural erosion could be used to reveal the building blocks of life 
protected just under the surface. Curiosity is providing vital insight 
about Mars' past and current environments that will aid plans for 
future robotic and human missions. The current Mars portfolio includes 
the Curiosity and Opportunity rovers, the Mars Reconnaissance Orbiter, 
the Mars Odyssey orbiter, and our collaboration on the European Space 
Agency's Mars Express orbiter. It also includes the new Mars Atmosphere 
and Volatile EvolutioN (MAVEN) orbiter, launched in 2013 to study the 
Martian upper atmosphere, which will arrive at the Red Planet in mid-
September 2014. Future missions include the 2016 Interior Exploration 
using Seismic Investigations, Geodesy and Heat Transport (InSight) 
mission, which will take the first look into the deep interior of Mars; 
participation in the European Space Agency's 2016 and 2018 ExoMars 
missions; and the new Mars rover planned for launch in 2020.
    The fiscal year 2015 budget request includes enhanced funding for 
NASA's Near Earth Object survey and characterization activities in 
support of the ARM effort, as well as to protect our planet. Just last 
year, the Wide-field Infrared Survey Explorer spacecraft was 
reactivated, renamed NEOWISE and given a renewed mission to assist 
NASA's efforts to identify the population of potentially hazardous 
near-Earth objects (NEOs). NEOWISE's first discovery of its renewed 
mission came on December 29, 2013--a large near-Earth asteroid 
designated 2013 YP139, which was about 27 million miles from Earth with 
an estimated diameter of roughly 0.4 miles. NEOWISE can also assist in 
characterizing previously detected asteroids that could be considered 
potential targets for future exploration missions.
                              heliophysics
    NASA's Heliophysics Program is composed of 29 spacecraft and the 
associated research to understand the universal physical phenomena of 
magnetized plasmas and their interactions. These include the influence 
of the Sun in our local region of the galaxy, the origins of solar 
variability, and the coupling among various regions at the Earth and 
other planetary systems. Last year, NASA successfully launched the 
Interface Region Imaging Spectrograph (IRIS), a Small Explorer mission. 
Within a few months, IRIS provided a new understanding of how the outer 
solar atmosphere is heated to over a million degrees. The fiscal year 
2015 budget request will support completion of development of the 
Magnetospheric Multiscale (MMS) mission, which will launch in 2015 to 
investigate how magnetic fields connect and disconnect, often releasing 
tremendous amounts of energy in the process. NASA will continue to 
develop the Solar Probe Plus (SPP) mission for a planned launch in 
fiscal year 2018, together with our instrument contributions to the 
European Space Agency's Solar Orbiter mission; Solar Probe Plus will 
repeatedly pass through the hot outer atmosphere of the Sun, to within 
five times the Sun's diameter, which is much closer than any man-made 
object ever has flown before. Finally, the Explorer missions selected 
in 2013 to study Earth's outer atmosphere--Ionospheric Connection 
(ICON) and Global-scale Observations of the Limb and Disk (GOLD)--are 
in their preliminary design phases for planned launches in 2017.
                          aeronautics research
    NASA's Aeronautics research is making air travel cleaner, safer, 
and more efficient. NASA's fiscal year 2015 budget request provides 
$551.1 million to fulfill the Agency's strategic research agenda. This 
innovative research is aimed at transforming the aviation industry 
through game-changing advances in the safety, capacity, and efficiency 
of the air transportation system, while minimizing negative impacts on 
the environment. NASA's fiscal year 2015 research portfolio is aligned 
with six strategic research thrusts to directly address the growing 
global demand for mobility, severe challenges to sustainability of 
energy and the environment, and technology advances in information, 
communications, and automation technologies. This portfolio includes 
those activities in our current portfolio deemed to be the most 
relevant and critical, as well as new activities focused on high-risk, 
forward thinking ideas to address aviation's big problems. The Agency 
will clearly define the most compelling technical challenges facing the 
aviation industry, and retire these challenges in a timeframe that is 
supported by stakeholders and required by NASA's customers. Over the 
next 2 years, NASA will continue to develop, demonstrate, and 
transition to industry and the Federal Aviation Administration new 
vehicle and airspace management concepts and technologies to help 
realize the promise of NextGen, as well as provide technical data, 
analysis and recommendations to support the integration of unmanned 
aerial systems (UAS) into the National Air Space. We will strengthen 
our external partnerships through joint flight experiments using 
alternative aviation fuels and advanced flight deck and vehicle 
technologies, and through demonstrations of advanced sensors to improve 
safety and identify emerging faults before damage occurs. By the end of 
fiscal year 2015, NASA will close out the 6-year Environmentally 
Responsible Aviation project with a series of integrated technology 
demonstrations to demonstrate the feasibility of a suite of 
technologies to meet our aggressive environmental goals. Through the 
alignment of our research portfolio to address the most critical 
challenges facing the aviation sector, NASA will be best positioned to 
continue supporting the global competitiveness of the U.S. aviation 
industry that contributes to a $47 billion positive balance of trade, 
infuses $1.3 trillion annually into the U.S. economy and supports more 
than 10 million direct and indirect jobs.\1,2\ NASA is truly with you 
when you fly.
---------------------------------------------------------------------------
    \1\ ``Global Aerospace Industry Takes Off for the World's Largest 
Aerospace Trade Exhibition in 2012,'' July 6, 2012, International Trade 
Administration.
    \2\ ``The Economic Impact of Civil Aviation on the U.S. Economy,'' 
August 2011, FAA, Page 24, Table 5 and Page 27, Table 8.
---------------------------------------------------------------------------
                            space technology
    NASA's fiscal year 2015 request includes $705.5 million for Space 
Technology, to enable our future in space, drawing on talent from the 
NASA workforce, academia, small businesses, and the broader national 
space enterprise, by delivering innovative solutions that dramatically 
lower costs and improve technological capabilities for NASA and the 
Nation.
    By the end of fiscal year 2014, NASA will test and deliver two 
candidate designs for large deployable solar array systems, power 
processing units, and advanced thrusters to support a flight 
demonstration of SEP. In addition to being important to the future of 
human spaceflight and the ARM effort, high-power SEP can enable orbit 
transfer capability for satellites, and addresses the rapid power 
demand increases facing today's communications satellites. Having 
successfully demonstrated a 2.4-meter propellant tank in 2013, NASA 
will complete testing of a 5.5-meter diameter composite tank to enable 
lower-mass rocket propellant tanks for future systems, including the 
SLS. By the end of 2015, NASA will have completed seven Space 
Technology missions in 24 months, including demonstration of a deep-
space atomic clock for advanced navigation that has commercial 
application for improving GPS systems, the green propellant 
demonstration (a higher-performing, less toxic alternative to 
hydrazine), a solar sail to demonstrate propellant-free propulsion, and 
four small spacecraft missions pioneering new technologies. Building on 
recent successes with its Low Density Supersonic Decelerator, NASA 
plans to conduct high-speed tests--at an altitude of 170,000 feet--of 
the largest planetary parachute ever developed to enable precise 
landing of higher-mass payloads to the surface of other planets, with 
particular focus on infusing advanced capabilities into the Mars 2020 
mission and future human exploration missions.
    NASA's Space Technology investments are aligned with NASA's Human 
Exploration and Operations and Science Programs to reduce technological 
barriers and mission risk, and to foster affordable missions. The Space 
Technology Game Changing Development effort is delivering advanced 
life-support, advanced robotics, and battery technologies for system 
demonstrations planned by Human Exploration and Operations. For 
Science, Space Technology is improving navigational accuracy, 
developing advanced computing and avionics, and developing advanced 
Entry, Descent, and Landing (EDL) solutions, observatory technology, 
and optical communication technology to transmit large amounts of 
science data from deep space. Space Technology is partnering with Human 
Exploration and Operations and Science on many activities, including 
demonstration of in-situ resource utilization, optical communications, 
and advanced measurements on Mars. These precursor activities will pave 
the way and reduce risk for future Mars exploration.
                    exploration and space operations
    NASA is building the capabilities and knowledge to send humans 
farther from the home planet than we have ever been before. The fiscal 
year 2015 budget request for Exploration is $3,976.0 million with 
$2,784.4 million for Exploration Systems Development, $848.3 million 
for Commercial Space Flight, and $343.4 million for Exploration 
Research and Development. Space Operations, including the ISS and Space 
Flight Support, form a critical component of the Agency's exploration 
plans by enabling us to develop the knowledge, experience, and 
technology necessary for safely living and working in space. The fiscal 
year 2015 request for Space Operations is $3,905.4 million, with 
$3050.8 for ISS and $854.6 for Space Flight Support (SFS).
                          exploration systems
    The fiscal year 2015 request will enable NASA to continue to meet 
its milestones in the development of the Space Launch System (SLS), a 
rocket system ultimately capable of bringing an unprecedented 130 
metric tons of payload to Earth orbit. The Orion program continues on 
track for an uncrewed test flight later this year. This test flight, 
Exploration Flight Test-1 (EFT-1), will see Orion conduct two orbits of 
Earth and reenter the atmosphere at approximately 85 percent of lunar 
reentry speed of a returning deep-space exploration mission. The test 
will provide valuable data about the spacecraft's systems--most 
importantly its heat shield and structure. The flight test article for 
this mission is already in place at the Kennedy Space Center and being 
readied for this test. The fiscal year 2015 budget request supports 
progress toward a first uncrewed test of the Orion and the SLS 
together, known as Exploration Mission-1 (EM-1) in fiscal year 2018, 
with the first crewed mission of the two vehicles slated for fiscal 
year 2021-2022. Orion, SLS, and Exploration Ground Systems (EGS) are 
using the latest in systems and manufacturing technology to develop the 
safe and sustainable systems this country needs to extend human 
presence to Mars. Examples include Orion's use of time-triggered 
gigabit Ethernet, SLS' use of friction-stir welding on large structures 
to build the Core Stage, and EGS' replacement of cables from Pad 39B 
with the latest in fiber optics. In developing the Orion, SLS, and EGS, 
NASA is building a national capability for the long-term human 
exploration of space.
                      international space station
    The fiscal year 2015 request supports the ISS with its 
international crew of six orbiting Earth every 90 minutes. The Station 
is making deep-space exploration possible, as we build on the knowledge 
and experience we are gaining from the astronauts living, working, and 
conducting research on the ISS. On January 8, 2014, the Administration 
announced it is committing the United States to the extension of ISS 
operations through at least 2024. This will allow NASA to complete many 
of the research and technology development activities aboard the ISS 
necessary to enable planned long-duration human missions beyond LEO; 
extend the broader flow of societal benefits from research on the 
Station, which has already resulted in a discoveries that could have 
significant medical and industrial implications; provide NASA and its 
private-sector partners time to more fully transition to the commercial 
space industry the transportation of cargo and crew to LEO; instill 
confidence in the science community that the ISS platform will be 
available for important, long-term research endeavors; and help cement 
continuing U.S. leadership in human spaceflight going forward. NASA's 
plans for the coming year include preparing for an extended duration, 
year-long human-crewed mission--slated to launch in March 2015--to 
explore human adaptation to space; and continuing to utilize the ISS to 
improve our ability to live and work in space, including conducting 
technology demonstrations enabling future exploration. The Center for 
the Advancement of Science in Space (CASIS) continues to manage the 
National Laboratory research being conducted in the U.S. segment of the 
ISS by an array of organizations, including commercial researchers 
interested in taking advantage of this unique, microgravity facility. 
One company, NanoRacks, uses standardized hardware to provide a 
microgravity research option for scientists working in venues ranging 
from grade school to academia to industry. During its first 3 years of 
business, NanoRacks sent 91 investigations to ISS, returned 10 to 
Earth, and deployed one CubeSat--a new area of focus using satellites 
that measure about four inches on all sides.
                       commercial crew and cargo
    A top priority for NASA and the Nation is to affordably and safely 
launch American astronauts and their supplies from U.S. soil, ending 
our sole reliance on foreign providers and bringing that work back 
home. Under NASA's Commercial Resupply Services (CRS) contracts, Space 
Exploration Technologies (SpaceX) was awarded 12 cargo flights to the 
ISS, and Orbital Sciences Corporation (Orbital) was awarded 8 flights. 
Counting demonstration flights and CRS resupply flights, SpaceX has now 
completed three cargo missions to the ISS, successfully delivering 
cargo and returning scientific samples to Earth, with the fourth 
mission successfully launched to ISS on April 18. Orbital Sciences 
Corporation has completed their demonstration mission to the ISS and 
their first contract mission under CRS to deliver crew supplies, 
research and other cargo onboard the Cygnus spacecraft; the Orb 2 
mission is currently targeted for June 10. NASA continues to work with 
its commercial partners to develop a U.S. commercial capability for 
human spaceflight and plans to launch American astronauts from U.S. 
soil by the end of 2017. 2014 will be a pivotal year for NASA's 
Commercial Crew Program (CCP) as the Agency intends to award 
development and certification contract by September for the Commercial 
Crew Transportation Capability (CCtCap) phase that would lead to 
operational crewed flights to the ISS. Competition is a key to 
controlling costs over the long term, and NASA's Aerospace Safety 
Advisory Panel has opined that competition should be maintained until 
safety confidence is achieved. Through the successful execution of this 
partnership, we will return to the United States the vital capability 
to launch astronauts to the ISS from U.S. soil and return them to 
Earth.
                               education
    The Administration is proposing increased interagency coordination 
of Science, Technology, Engineering, and Mathematics (STEM) education 
investments, aligned with the 5-Year Strategic Plan released last year 
by the Committee on STEM Education (CoSTEM). The fiscal year 2015 
budget request for Education will enhance the impact of the Federal 
investment in STEM Education through greater interagency coordination 
and cooperation in support of a cohesive national STEM strategy focused 
on five priority areas: K-12 instruction, undergraduate education, 
graduate education, and broadening participation in STEM education and 
careers by women and minorities traditionally underrepresented in these 
fields, and education activities that typically take place outside the 
classroom. The Office of Education will continue its intra-agency 
consolidation of certain educational programs to eliminate duplication 
of efforts and achieve maximum leverage of resources.
    The fiscal year 2015 budget request of $88.9 million consolidates 
education activities in the Office of Education, including several 
elements that may be transferred from NASA's mission directorates under 
a competitive process. The fiscal year 2015 budget request for the 
Education account includes funding for the National Space Grant College 
and Fellowship Program, the Experimental Program to Stimulate 
Competitive Research (EPSCoR), and the Minority University Research and 
Education Project (MUREP), and STEM Education and Accountability 
Projects. These education investments link to NASA's research, 
engineering, and technology missions. Each of these investments 
provides unique NASA experiences and resources to students and faculty. 
The budget also provides $15 million to the Science Mission Directorate 
to competitively fund the best application of NASA Science assets to 
meet the Nation's STEM education goals.
                               conclusion
    Madam Chairwoman, thank you for the opportunity to appear before 
you today to provide you with our progress and status over the past 
year. I would be pleased to respond to any questions you or the other 
members of the subcommittee may have.
                                 ______
                                 
               Prepared Statement of Hon. Paul K. Martin
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee:
    The Office of Inspector General (OIG) is committed to providing 
independent, aggressive, and objective oversight of the National 
Aeronautics and Space Administration (NASA), and we welcome this 
opportunity to discuss the major challenges facing the Agency.
    Over past 12 months, NASA has achieved a number of milestones that 
advanced its space exploration and scientific discovery goals, 
including a third commercial resupply mission to the International 
Space Station (ISS or Station) by Space Exploration Technologies 
Corporation (SpaceX) and the first such mission by Orbital Sciences 
Corporation, delivery of the final three primary mirrors for the James 
Webb Space Telescope, and deployment of an Earth-observing weather 
satellite developed jointly with the Japan Aerospace Exploration 
Agency.
    While acknowledging these and other achievements, we believe that 
NASA will continue to be challenged to effectively manage its varied 
programs in the current budget and political environment. We agree with 
the observation made by the National Research Council in its 2012 
report examining NASA's strategic direction and management that, in 
effect, too many programs are chasing too few dollars at NASA. 
Accordingly, we continue to view declining budgets and fiscal 
uncertainties as the most significant external challenges to NASA's 
ability to successfully move forward on its many projects and programs.
    For example, the Administration's proposal to extend operation of 
the ISS to 2024 comes with a price tag of at least $3 billion per year. 
Some space policy experts have expressed concern that NASA will not 
have enough money to operate the Station while concurrently developing 
the Space Launch System, the Orion capsule, and other components of its 
human exploration program. Similarly, following 18 years of development 
at a cost of more than $1 billion--a 300 percent increase over initial 
estimates--the Stratospheric Observatory for Infrared Astronomy (SOFIA) 
Project achieved full operational capability in Febuary of this year. 
However, the Administration--citing operational costs of approximately 
$80 million per year--has proposed placing the observatory in storage 
during fiscal year 2015 unless NASA identifies partners willing to 
assume those costs. We are currently conducting audits examining both 
NASA's plans to extend the life of the ISS and its management of the 
SOFIA Program.
    In our most recent report on the Top Management and Performance 
Challenges facing NASA, we identified nine issues:

  --Considering Whether to Further Extend the Life of the International 
        Space Station (ISS)
  --Developing the Space Launch System and its Component Programs
  --Securing Commercial Crew Transportation Services
  --Maintaining Cost and Schedule for the James Webb Space Telescope
  --Ensuring Continued Efficacy of the Space Communications Networks
  --Overhauling NASA's Information Technology Governance Structure
  --Ensuring the Security of NASA's Information Technology Systems
  --Managing NASA's Infrastructure and Facilities
  --Ensuring the Integrity of the Contracting and Grants Processes

    The report appended to this statement provides a detailed 
description of these challenges and the work conducted by our office in 
each area. In this statement, I will highlight three issues: (1) 
securing commercial crew transportation services, (2) ensuring 
continued efficacy of the space communications networks, and (3) 
overhauling NASA's information technology governance structure.
                commercial crew transportation services
    In November 2013, NASA celebrated the 15th anniversary of the ISS. 
Since retirement of the Space Shuttle Program in July 2011, the United 
States has lacked the domestic capability to transport crew to and from 
the Station. Consequently, NASA has relied on the Russian Federal Space 
Agency (Roscosmos) for crew transportation. Between 2012 and 2017, NASA 
will pay Roscosmos $1.7 billion to ferry 30 NASA astronauts and 
international partners to and from the ISS at prices ranging from $47 
million to more than $70 million each trip. In addition, the recent 
dispute in the Ukraine and the resulting U.S. sanctions against Russia 
has intensified calls for NASA to end its reliance on the Russians for 
crew transportation.
    Currently, NASA is working with three companies--The Boeing Company 
(Boeing), SpaceX, and Sierra Nevada Corporation (Sierra Nevada)--using 
a combination of funded Space Act Agreements and more traditional 
contracts governed by the Federal Acquisition Regulation to develop 
commercial crew transportation capabilities. As of August 2013, the 
Agency had spent $1.1 billion on its commercial crew development 
efforts. NASA's goal is to secure commercial transportation for its 
astronauts to the ISS by 2017.
    As we noted in a 2013 report, NASA's Commercial Crew Program faces 
multiple challenges, including (1) unstable funding, (2) integration of 
cost estimates with Program schedule, (3) challenges in providing 
timely requirement and certification guidance, and (4) coordination 
issues with other Federal agencies.\1\
---------------------------------------------------------------------------
    \1\ NASA OIG, ``NASA's Management of its Commercial Crew Program'' 
(IG-14-001, November 13, 2013).
---------------------------------------------------------------------------
    With respect to funding, NASA's Commercial Crew Program has 
received significantly less funding than requested over the past 
several years, resulting in a 2-year delay of the expected completion 
of the development phase of the Program. Moreover, NASA has yet to 
project the total amount of funding required by year, which makes it 
difficult for the Agency to manage its wider portfolio of spaceflight 
programs and reduces the transparency of the Commercial Crew Program's 
budget submissions.
    Further, we found that the process for providing timely guidance to 
partners for satisfying NASA's human rating and certification 
requirements needs to be improved. If NASA is unable to confirm design 
requirements and provide certification guidance in a timely manner, 
NASA's partners companies could face costly and time-consuming redesign 
work late in system development. Finally, coordination of important 
safety issues with the Federal Aviation Administration (FAA) and the 
U.S. Air Force is progressing but has yet to be fully resolved. 
Resolution of issues such as approval processes for in-flight changes 
and reentry and emergency diversions require formal agreement between 
NASA, FAA, and the Air Force.
    Failure to resolve the challenges facing NASA's Commercial Crew 
Program could significantly delay the availability of commercial 
transportation services and further extend U.S. reliance on the 
Russians for crew transportation to the ISS.
                   the space communications networks
    NASA's Space Communications and Navigation (SCaN) Program is 
responsible for providing communications, navigation, and delivery of 
scientific data to space flight missions. SCaN is comprised of three 
networks: (1) the Near Earth Network, which covers low Earth orbit and 
portions of geosynchronous orbit; (2) the Space Network, which controls 
the Tracking and Data Relay Satellites (TDRS) through a network of 
geographically diverse ground systems; and (3) the Deep Space Network, 
which covers NASA mission needs beyond geosynchronous orbit. Without 
SCaN services, NASA could not receive data transmission from its 
satellites and robotic missions or control such missions from Earth, 
and space hardware worth tens of billions of dollars would be little 
more than orbital debris. While NASA has provided these services for 
over 30 years, many of its current satellite communications systems are 
aging and increasingly difficult to repair.
    The OIG is examining the SCaN Program in a series of audits. In the 
first of these reviews released earlier this week, we assessed NASA's 
efforts to maintain, replenish, and modernize the Space Network.\2\ The 
Network, which currently consists of a constellation of nine 
geosynchronous tracking and data relay satellites and three ground 
stations, plans to perform more than 175,000 hours of tracking to 
support 25 to 30 missions in fiscal year 2014. We found that key 
components of NASA's satellite and ground system projects are not 
meeting planned cost, schedule, and performance goals. Taken together, 
these delays and cost growth increase the risk that the Space Network 
will be unable to continue to provide adequate communication services 
to NASA and the other Government agencies and private entities that 
rely on Network services. Further, because of budget reductions and the 
loss of other expected revenue, the Space Network has a projected $63 
million budget shortfall in fiscal year 2016 and even larger estimated 
shortfalls in subsequent years that will make it difficult for the 
Network to meet all planned service commitments.
---------------------------------------------------------------------------
    \2\ NASA OIG, ``Space Communications and Navigation: NASA's 
Management of the Space Network'' (IG-14-018, April 29, 2014).
---------------------------------------------------------------------------
    We recommended that NASA (1) require a revised cost estimate for 
its ground system project and, based on those results, make necessary 
adjustments to its baseline commitment; (2) make the appropriate 
reports to Congress regarding the ground system project; (3) ensure the 
ground system project passes a termination review before re-baselining; 
and (4) examine options to increase funding for the Space Network.
           nasa's information technology governance structure
    Information technology (IT) plays an integral role in every facet 
of NASA's operations. The Agency spends more than $1.4 billion annually 
on a portfolio of IT assets that includes approximately 500 information 
systems used to control spacecraft, collect and process scientific 
data, and enable NASA personnel to collaborate with colleagues around 
the world. Hundreds of thousands of individuals, including NASA 
personnel, contractors, members of academia, and the public, rely on 
these IT systems every day.
    For more than 2 decades, NASA has struggled to implement an 
effective IT governance approach that appropriately aligns authority 
and responsibility commensurate with the Agency's overall mission. 
Since at least 1990, the OIG and the Government Accountability Office 
have highlighted a series of challenges stemming from the limited 
authority of NASA's Chief Information Officer (CIO), decentralization 
of Agency IT operations, ineffective IT governance, and shortcomings in 
the Agency's IT security. Because IT is intrinsic and pervasive 
throughout NASA, the Agency's IT governance structure directly affects 
its ability to attain its strategic goals. For this reason, effective 
IT governance must balance compliance, cost, risk, security, and 
mission success to meet the needs of internal and external 
stakeholders.
    In June 2013, the OIG reported that the decentralized nature of 
NASA's operations and its longstanding culture of autonomy hinder its 
ability to implement effective IT governance.\3\ Specifically, we found 
that the NASA CIO has limited visibility and control over a majority of 
the Agency's IT investments, operates in an organizational structure 
that marginalizes the authority of the position, and cannot enforce 
security measures across NASA's computer networks. Moreover, the 
current IT governance structure is overly complex and does not function 
effectively. As a result, Agency managers tend to rely on informal 
relationships rather than formalized business processes when making IT-
related decisions. While other Federal agencies are moving toward a 
centralized IT structure under which a senior manager has ultimate 
decision authority over IT budgets and resources, NASA continues to 
operate under a decentralized model that relegates decisionmaking about 
critical IT issues to numerous individuals across the Agency, leaving 
such decisions outside the purview of the CIO.
---------------------------------------------------------------------------
    \3\ NASA OIG, ``NASA's Information Technology Governance'' (IG-13-
015, June 5, 2013).
---------------------------------------------------------------------------
    With mission critical assets at stake and in an era of shrinking 
budgets, NASA must take a holistic approach to managing its portfolio 
of IT systems. To overcome the barriers that have resulted in the 
inefficient and ineffective management of the Agency's IT assets, we 
made a series of recommendations to NASA to overhaul its IT governance 
structure to centralize IT functions and establish the Agency CIO as 
the top management official responsible for its entire IT portfolio, 
including empowering the Agency CIO to approve all IT procurements over 
a monetary threshold that captures the majority of IT expenditures. We 
also recommended that the Administrator reevaluate the relevancy, 
composition, and purpose of NASA's primary IT governance boards in 
light of the changes made to the governance structure and require the 
use of reconstituted governance boards for all major IT decisions and 
investments. Finally, we suggested that the NASA Administrator 
reevaluate the resources of the OCIO to ensure that the Office has the 
appropriate number of personnel with the appropriate capabilities and 
skill sets.
    Effective implementation of our recommendations requires a cultural 
shift and significant changes to the Agency's IT management 
decisionmaking regime, including the realignment of authority and 
responsibilities. NASA management has acknowledged a need for such 
change and, in our view, is taking a measured approach to address our 
recommendations. NASA has requested and we have granted extensions for 
all of the report recommendations, and NASA anticipates implementing 
corrective actions by the end of 2014.
    In conclusion, the OIG looks forward to continuing our cooperative 
working relationship with NASA, this subcommittee, and other 
congressional committees as we conduct audits and investigations that 
focus on the Agency's top management and performance challenges.

               SPACE LAUNCH SYSTEM JOINT CONFIDENCE LEVEL

    Senator Shelby. Thank you. Thank you, Administrator Bolden.
    NASA's internal guidance requires that all major projects 
have a Joint Confidence Level of 70 percent. I am concerned 
that the budget request for SLS is a sign that NASA intends to 
advance a funding profile that supports a Joint Confidence 
Level well below the 70 percent threshold.
    In fact, if SLS passed KDPC using $1.3 billion as the base 
funding level, which is the budget request, I believe it will 
result in a Joint Confidence Level close to 50 percent, 
essentially a coin toss.
    Is there any justification, General Bolden, for advancing 
SLS with a funding profile that provides the taxpayers a 50-50 
chance that it will succeed on schedule and on budget?
    Mr. Bolden. Senator, we have used the Joint Confidence 
Level as an indicator. It is sort of like probabilistic risk 
assessment. You called it a 50-50 chance. I am comfortable with 
having SLS come in at less than a 70 percent Joint Confidence 
Level because of the maturity of the system itself.
    We are using shuttle main engines. We are getting ready to 
do main propulsion tests, so we will have the four engines that 
will go through testing at Stennis that will demonstrate that 
that system, as we designed it, is----
    Senator Shelby. Do you like where they are at this point in 
time?
    Mr. Bolden. I love where we are at this point. I am very 
confident--I would not approve moving--and I have to admit, I 
am jumping ahead of myself because it has not come to me yet.
    Senator Shelby. Sure. I understand.
    Mr. Bolden. We have not done that. But I have been 
following this pretty closely, and I am comfortable that 
because of the mature systems that we are utilizing for SLS, 
compared to some other system, a Joint Confidence Level of 70 
percent, which would be great if we had it, is not required to 
make me feel confident that we are going to be able to deliver.
    Senator Shelby. General Bolden, could you assure the 
subcommittee that the funding for SLS will be consistent with 
Joint Confidence Levels required for all other major NASA 
projects?
    Mr. Bolden. Senator, as I just said, if I understand your 
question correctly----
    Senator Shelby. Let me ask it again.
    Mr. Bolden. Well, I think I understood, but you can't fund 
enough to get SLS to a 70 percent JCL, and I don't want you to 
do that. I am not asking for that. That would be unrealistic.
    Senator Shelby. My question, could you assure the 
subcommittee that the funding level for SLS will be 
consistent----
    Mr. Bolden. Yes, sir.
    Senator Shelby [continuing]. Consistent with the Joint 
Confidence Level required for other major NASA projects?
    Mr. Bolden. I can guarantee that I will have the same 
assurance at a lower Joint Confidence Level for SLS that I have 
for other projects that are much less mature at a Joint 
Confidence Level of 70 percent.
    A 70 percent Joint Confidence Level doesn't guarantee 
success, but it has demonstrated, mainly for science missions 
because we have been religious, if you want to call it that, 
about adhering to the 70 percent Joint Confidence Level. And it 
has caused us to bring in projects on time and on cost.
    Senator Shelby. But it is very important that we keep 
funding SLS at a confidence level, a level that they can finish 
their job, on time and on budget. Does that make sense to you?
    Mr. Bolden. Yes, sir. The amounts that we have been 
submitting in the President's budget each year have been 
sufficient for my team to assure me that we will be able to 
make a launch date with SLS and Orion for our----
    Senator Shelby. 2017?
    Mr. Bolden. 2018 is what we are saying, fiscal year 2018 
right now.
    And I would caution, until we bring you----
    Senator Shelby. I thought the SLS would support a 2017 
launch date, which is the current plan. Is that wrong?
    Mr. Bolden. As I said, I will be able to tell you within a 
month for sure what the launch date is to which we are going to 
commit and what the cost for the program will be. That is what 
is going to come out of KDP-C, and we haven't crossed that 
milestone yet.
    Senator Shelby. But the costs have been pretty consistent.
    Mr. Bolden. Consistent. Yes, sir. I agree.
    The amount of money that we have requested and the amount 
of money we have spent year to year on SLS and Orion has been 
consistent. And that is what I promise we will continue to do.

                         ROCKET ENGINE PURCHASE

    Senator Shelby. Thank you. I want to shift gears, just a 
little bit.
    Late yesterday, as you well know, a U.S. Federal claims 
judge issued an injunction prohibiting the United Launch 
Alliance, the ULA, from proceeding with plans to buy Russian-
made rocket engines. This injunction, if kept in place, would 
impact, ultimately, the Department of Defense, NASA, and so 
forth.
    Is there a possibility that this injunction could impact 
NASA's missions?
    Mr. Bolden. Senator Shelby, I would prefer not to add 
conjecture on that. That is a matter in litigation right now, 
and my general counsel has been looking into this since last 
night. I am not an attorney, so I would not dare----
    Senator Shelby. So you wouldn't know whether this order 
would impact NASA's ability to pay Russia for rides to the 
space station?
    Mr. Bolden. I can only tell you that we have already paid 
Russia through 2017, so we are not impacted.
    Senator Shelby. So you are ahead?
    Mr. Bolden. So we are ahead of the game. But that is the 
way we have to be. We have told our partners that the President 
of the United States suggests that we extend the life of the 
International Space Station to 2024. We have told our 
international partners that we are committed to being able to 
carry their crew and ours to the International Space Station on 
American spacecraft by 2017. And so we are committed to that.
    However, to ensure that we can get the crews there through 
2017, we have already made the payment. We made it several 
months ago. So we are okay through 2017.
    Senator Shelby. It is also my understanding, if you can 
confirm this or to reject it, that it would take a couple 
years, that we have a backlog of engines from Russia, so there 
is not going to be an immediate impact.
    Mr. Bolden. I would defer to our partners, Orbital Sciences 
and ULA, because I go on what they tell me, and they tell me 
they have a backlog of engines to cover X number of flights.
    So for us, our missions are covered.

                       ALTERING MISSION PAYLOADS

    Senator Shelby. Sure. What changes would be required to 
alter mission payloads in the event, down the road, that the 
launch vehicle could not be used? What is the estimated cost of 
those changes? Have you gotten that far yet?
    Mr. Bolden. I will take that for the record.
    [The information follows:]
                            launch vehicles
    The changes would depend on when the launch vehicle change occurs 
in the development and ground testing cycle of the spacecraft. The 
closer to the launch date the launch vehicle change occurs, the greater 
the potential impacts. A spacecraft needs to be tested to ensure it can 
handle the launch vibration, g-force, and acoustic environment it 
expects to experience during the ascent to space. Changing launch 
vehicles would require some combination of new testing and analysis to 
assess the new launch environment impacts to the spacecraft. The 
impacts and changes could be minor or they could be large depending on 
the particular spacecraft design and its interaction with the new 
launch vehicle.
    The cost impacts resulting from changing the launch vehicle are 
time- and circumstance-dependent, but could include: spacecraft 
retesting and new analysis efforts, potential changes to spacecraft 
structure, potential requirement to procure a new payload attach 
fitting that attaches the spacecraft to the rocket and softens the 
ride, as well as any spacecraft delivery delays caused by this new 
activity. These costs could be significant, and if a planetary launch 
opportunity were missed, then likely the costs could run into hundreds 
of millions of dollars in delay costs. These spacecraft impact costs 
would be in addition to any costs required to procure a new launch 
vehicle. NASA has not made a specific assessment of cost impacts due to 
the scenario-dependent nature noted above.

    Senator Shelby. We hope we won't get that far.
    Mr. Bolden. Somebody down in the bowels of my ship may be 
doing that, but I have not asked anybody to do that.
    We are optimistic because of our partnership with 
Roscosmos. It has been steady. It has been firm. And it remains 
that way. And I remain in contact with my counterpart, who is 
equally concerned that we maintain that partnership, so I am 
comfortable.

              U.S. RELIANCE ON RUSSIA FOR LAUNCH VEHICLES

    Senator Shelby. Let me get into another area, the same 
basic area.
    Mr. Bolden. Yes, sir.
    Senator Shelby. Since retiring the space shuttle, we have 
relied solely from the Russians to get our astronauts to and 
from the International Space Station. The crisis in Ukraine and 
the current tensions with Russia have caused many people to 
question the longstanding relationship. We are all hopeful for 
a thaw there.
    In the light of recent decisions regarding sanctions, we 
are left to wonder what would happen if Russia no longer 
provided the transportation for our astronauts. And to address 
these concerns, some have advocated simply investing more 
heavily in the commercial crew program.
    General, is there any company participating in the 
commercial crew program today that could be ready to take our 
astronauts to and from the space station within a year? And 
would additional resources make that possible? And how much 
would be required? That is a big question, I know.
    Mr. Bolden. No, no. That is a good question, Senator.
    And although at least two of our--in fact, all three of the 
competitors that I know about, because we are in blackout right 
now with the contract negotiations or selection--all of them 
have flights scheduled in 2015 of one type or another, whether 
they are crewed or uncrewed, and that is normal in a 
development program.
    But just because they fly does not mean that they are ready 
to be human rated. So, with additional funds, we can accelerate 
that schedule of their flying, but they have some technical 
challenges that we should not overlook. So I am comfortable.
    We are sticking with the 2017 date that we will have 
commercial crew available.
    Senator Shelby. And we hope that things work out between us 
and Russia and the rest of the world, but if Russia were to cut 
ties with the U.S. or we were to cut ties with them, and they 
would no longer be able to provide our astronauts 
transportation to and from the space station, what are our 
options?
    If we had astronauts at the space station, would they get 
home? Or do you think that is down the road?
    Mr. Bolden. Senator, a point I think everybody should bear 
in mind is the partnership that runs the International Space 
Station is now a 15-year partnership that is pretty well-oiled. 
It depends not just on Russia and the U.S., but the other three 
partners.
    The way that we have set up the International Space 
Station, I don't want to say there is an indispensable team 
member, but the loss of any team member has an impact on the 
ability to operate the International Space Station. Should we 
or the Russians choose to pull out, the International Space 
Station as we know it no longer exists.
    The dominant member of the International Space Station team 
for day-to-day operations, navigation, crew activities, the 
science on board, is the United States. So if we were to decide 
to pull out, one of the reasons that we request cooler heads 
prevail, if we were to pull out, then there is no more of the 
type of operations that go on, on the International Space 
Station today.
    Senator Shelby. But the fact remains, does it not--correct 
me if I am wrong--that we are dependent on the Russians for the 
transportation?
    Mr. Bolden. Yes, sir. Today, we are dependent on the 
Russians. And if for some reason----
    Senator Shelby. And in the near future, too, right?
    Mr. Bolden. Yes, sir. But if something were to happen that 
caused us to have to evacuate the International Space Station, 
the contingency plan, is we have two vehicles that are there, 
two Soyuz spacecraft.
    Senator Shelby. You think it would work, don't you?
    Mr. Bolden. We get the crews into the Soyuz spacecraft, and 
we would come home. Everybody talks about the Russians 
stranding us. The Soyuz is a three-person crew, a three-person 
spacecraft. At least two of those people are essential, and 
usually one of those two essential people is a flight engineer 
who is an American astronaut.
    Senator Shelby. Okay. You think that would be the escape?
    Mr. Bolden. That is the escape right now. That is the 
emergency return vehicle. It is the nominal return vehicle. It 
is the only vehicle we have. That is why commercial crew 
support is critical for this Nation.
    Where we are today is history, and I don't even dwell on 
how we got here or anything else. I am looking to the future, 
and we are really focused on trying to make sure that we have 
American companies that are ready to fly our astronauts to the 
International Space Station and other low-Earth orbit 
destinations that I think are coming by 2017.
    And if the Congress funds to the President's requested 
level in 2015, we are on a good trajectory to get there.

                        COMMERCIAL CREW PROGRAM

    Senator Shelby. You mentioned the commercial crew 
investment. And while the commercial cargo program has finally 
experienced successes, the process is littered with technical 
challenges, missed milestones, schedule delays, and even 
requests for additional resources.
    That is not unusual now.
    Mr. Bolden. I am glad you said that, Senator. As you know 
very well.
    Senator Shelby. Program participants continue to face 
challenges in meeting the number of contracted space station 
resupply missions. NASA has chosen to use the same process and 
methodology to execute the commercial crew program.
    My questions are these. Given that the commercial cargo 
program was 2.5 years behind schedule and $200 million over 
budget, what assurance or what can you tell us here at the 
subcommittee that the commercial crew program will not suffer 
the same fate?
    In other words, how are they doing? Are they going to be 
basically on time and on the money?
    Mr. Bolden. Senator, I would like to correct one piece of 
information about funding. The total NASA investment in the 
COTS program, the commercial cargo program, was $684 million. 
So I don't think that was over any normal expectation.
    Senator Shelby. Okay.
    Mr. Bolden. Granted, it was delayed, but I would remind 
everybody of the space shuttle program. I got to Houston in 
1980 to become a member of the astronaut corps, and the space 
shuttle was to have launched in 1978. So when I got there, we 
were already 2 years behind.
    We finally launched in 1981. You will remember very well, 
being from Alabama, one of the critical delays was loss of a 
main engine on the test stand at Stennis.
    Senator Shelby. That is right.
    Mr. Bolden. Those kinds of things happen, and we are trying 
to make sure that we don't have that happen in the commercial 
crew development program. There is a difference in the way that 
we are doing the commercial crew program from a safety 
oversight perspective.
    If you were to talk to Ralph Roe, who is now my chief 
engineer, and Terry Wilcutt, the head of safety and mission 
assurance, they are intimately involved in every respect with 
the safety requirements and the human rating specifications for 
commercial crew vehicles.
    We have been working that for 2 years. We have been under 
contract with three providers, Boeing, SpaceX, and Sierra 
Nevada, to make sure that we understand how they are going to 
develop hazard reports, how they are going to track. So that is 
much more like the space shuttle program, than say people are 
familiar with COTS.
    We are now entering into a contract phase, where it is much 
more like it is traditionally done under FAR-based contracts.
    Senator Shelby. General, I will work with you and Senator 
Mikulski. Senator Mikulski and I have worked together for NASA, 
working to make sure, to the best of our ability, that NASA is 
well-funded. We have our job to do on oversight and funding.
    I wish we could find more money for all of our programs. We 
are in tough budget times, as you well know. But we are going 
to do everything we can to fund NASA.

                            ROADMAP TO MARS

    Could you take just a few minutes again--there is a little 
glare for me on that chart there--and go over that chart again?
    Mr. Bolden. Senator, I don't know, do you have a copy of it 
there on your desk? It will probably be easier----
    Senator Shelby. Just follow it.
    Mr. Bolden. I will make it really quick.
    Senator Shelby. Don't make it too quick. It is very 
involved.
    Mr. Bolden. We intended for it to be simple. Let me 
stipulate at the outset----
    Senator Shelby. A lot of work went into this.
    Mr. Bolden. A lot of work went into this.
    But you have some purists behind you there on the staff, 
who are going to be critical of my artwork.
    Senator Shelby. No, they would think you were a master. Go 
ahead.
    Mr. Bolden. Although I show four SLS vehicles orbiting 
Mars, I am taking artistic license. The SLS only goes to low-
Earth orbit, and then it falls back to Earth, so bear with me 
on that. It is trying to show the approximate number of SLS 
missions that we think it would take for a Mars mission to the 
surface of Mars.
    So other than that artwork, forgive me.
    But essentially, it shows where we are today. We are Earth-
reliant. We generally spend 6 months in low-Earth orbit. We are 
getting ready to put up a crew next year. Scott Kelly and his 
Russian counterpart, they will be there for 12 months, so that 
will expand the amount of time that we spend in low-Earth 
orbit.
    We still use the space station as our primary staging point 
to learn about human survival in a microgravity environment.
    Where we are moving is to the proving ground. This is what 
is new, and what people sometimes have a difficult time with. 
We need to get away from low-Earth orbit, so that we can learn 
how to operate our spacecraft. We don't know how to fly out 
there.
    Senator Shelby. What will take you out of low-Earth orbit? 
SLS?
    Mr. Bolden. SLS. Now, you see SLS here quite a bit. And I 
will tell you what is critical, because I want to try to 
present a complete picture. We are not leaving the Earth-
reliant arena ever. We will have to stage there.
    So what will happen for us to be successful with deep space 
exploration, is that we have a firm infrastructure that is in 
place around low-Earth orbit, multiple facilities like the 
International Space Station.
    So my hope is, within the next 5 to 10 years, you will 
start to see commercial providers putting other vehicles into 
low-Earth orbit that will be laboratories, habitation 
facilities, and the like. That infrastructure will have to be 
serviced, and that is why we need commercial crew and cargo.
    So NASA does not provide transportation to low-Earth orbit 
anymore. We are out of the access business. So it is really 
important for everyone to remember we have no exploration 
program without this low-Earth orbit infrastructure that we are 
trying to help industry put in place. We are trying to help 
American industry provide the low-Earth orbit infrastructure.
    Senator Shelby. General, at the end of the day, and, of 
course, you never know what you find out there, this is a very 
ambitious project, the Mars mission, and so forth, but so many 
missions have brought forth so many more things than you 
imagined at the beginning.
    Mr. Bolden. Yes, sir.

                        MARS MISSION POTENTIALS

    Senator Shelby. What would you expect to get out of this? 
This is an important question.
    Mr. Bolden. This is a very, very, very ambitious strategy. 
There are a number of reasons that we believe humans should be 
on Mars. One of them is to make us a multi-planet species, and 
that is a kind of funky term, but what it means is that we will 
demonstrate that humanity can live on more places than just 
Earth.
    The other thing is that it will help us learn a lot about 
Earth, because Mars, asteroids, and other places in our solar 
system sort of came from the same origin as our own planet 
Earth. So looking at Mars and the way it is today, it will help 
us understand--we need to understand how it got there, because 
we think it used to be like Earth. What did the Martians not do 
that got it to be in the bad shape that it is in right now? So 
that is another reason to go there.
    The other reason is because we are an exploring species. We 
have always done that. My and your ancestors moved away from 
the East Coast of the United States to the Mississippi. And 
they got there and they weren't satisfied, and they wanted to 
know what was on the other side of the river, and so they 
continued to go out and to pioneer.
    I use the term ``pioneer'' instead of ``explore.'' 
Exploring implies we are going to go out and come back, like 
Lewis and Clark. We are intending to pioneer Mars, which means 
we are going to put people on that planet to be there 
permanently.

                         HUBBLE SPACE TELESCOPE

    Senator Shelby. I remember in this subcommittee years back 
when people were naysayers about the Hubble telescope. They 
said, ``Oh, gosh, that is a waste of money.'' But it hasn't 
been a waste of money. It has been on the cutting edge of 
exploration.
    Mr. Bolden. It has been absolutely incredible.
    Senator Mikulski, I want to thank you. You weren't here 
when I thanked you the first time, but I am going to thank you 
again for all you have done in leading this subcommittee and 
providing appropriations for NASA.
    Senator Mikulski knows very well. It was because of her 
that we were able to fly the final Hubble servicing mission, 
STS-125, when the decision had been made at my level that we 
should try to do a robotic mission. That was demonstrated to be 
``not'' the right way to do it. Hubble today is an absolutely 
incredible facility that is fully functioning.
    Senator Shelby. A great success.
    Mr. Bolden. We intend to have the James Webb Space 
Telescope (JWST) that we launch in 2018 that will be the 
successor of Hubble. We are in formulation right now to build a 
mission that some people refer to as WFIRST, but it will 
satisfy the science requirements of WFIRST, as laid out by the 
decadal survey.
    So it is a progressive understanding of our universe.
    Senator Shelby. I think so, too.
    I yield to the chairman.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski [presiding]. Thank you very much, Senator 
Shelby. And thank you for opening this hearing. It is part of 
this very bipartisan trust that we have in each other, and I 
appreciate it.
    Because of the terrible storms in the capital region, it 
took me 2.5 hours to come from Baltimore today. We have had 
accidents, mudslides, et cetera. Trains are down.
    And I appreciate that we want to show that we can live on 
Mars. I am kind of dedicated to showing that we can live on 
Earth right this particular minute.
    Again, so I want to thank you. Administrator Bolden, I have 
already read your testimony, and I want to acknowledge the 
written testimony of NASA's Inspector General Paul Martin. We 
had hoped today to have his actual oral testimony, but because 
of the pending votes, we wanted to move as expeditiously as 
possible.

                           PREPARED STATEMENT

    Inspector General Martin has identified nine top management 
performances and challenges facing NASA, all of which this 
sucommittee strongly believes that it needs to address.
    In the interest of time, I am going to ask unanimous 
consent that my full opening statement be included in the 
record, and I am going to move right to my points and my 
questions.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    We are here today to review the 2015 budget request for NASA, an 
agency that all of us care deeply about. We have just one witness here 
today: NASA Administrator Charles Bolden, who will testify about NASA's 
budget priorities. NASA Inspector General Paul Martin has also provided 
written testimony regarding NASA's top management challenges.
    This hearing is part of the Senate Appropriation Committee's 
mission to hold more than 60 hearings in a span of 6 weeks. We are 
working diligently and intend to have all our appropriations work done 
by October 1. If successful, it will be the first time that has been 
accomplished since 1996, and it is an important part of our return to 
regular order.
    Let me start by saying that I am unhappy with NASA's budget. I 
worry about what it means for the Goddard Space Flight Center, for 
space science, for Earth science and for NASA's balanced space program.
    The President's budget request for NASA this year is $17.5 billion, 
which is actually $186 million below the fiscal year 2014 level of 
$17.7 billion.
    What I want to hear from Administrator Bolden is an explanation on 
how a cut like this impacts NASA's ability to carry out its mission. 
Frankly, my colleagues and I do not agree with how NASA's proposed 
budget balances these cuts.
    The budget before us proposes to cut science funding by $179 
million--or three percent--below fiscal year 2014. The Space Launch 
System (SLS) and Orion are cut by $365 million--or 13 percent--below 
2014.
    NASA needs this funding to support a balanced space program that 
funds human space flight, reliable and affordable transportation 
systems and space science. I want to see NASA continue its Space 
Station operations.
    It is also important to me that the agency support reliable and 
affordable transportation systems, such as a 2014 test launch for 
Orion, a 2017 launch for SLS and robust funding for a commercial crew 
to get to the International Space Station lab facilities without 
relying on the Russians.
    Finally, I want a space program that keeps NASA's near term science 
launches on schedule and on-going missions on track. I am very 
concerned that the 2015 budget does not invest adequately in future 
science missions.
    For example, the proposed fiscal year 2015 budget reduces Earth 
science by $56 million, cuts astrophysics by $61 million, inadequately 
funds a future Dark energy mission and cuts the on-going Hubble mission 
by 23 percent. That's too much, too soon. We must keep making progress 
on the scientific missions recommended by National Academies' decadal 
surveys now and in the future.
    I am pleased that NASA is extending the life of the International 
Space Station through 2020. Thank you. The Space Station is so much 
more than what everyone saw in the movie ``Gravity''. It is our 
national lab in space, and I am so proud of the astronauts there.
    As of now, there are six people aboard the ISS--two NASA 
Astronauts, three Russian Cosmonauts and one Japanese Astronaut. They 
all arrived there on the Russian Soyuz. That's because when the Space 
Shuttle retired in July 2011, the United States lost its capability to 
fly astronauts into space. The ongoing events in Ukraine have me 
worried about the uncertainty created by that reliance on Russia. Is 
NASA doing all it can to quickly taper our space program's reliance on 
Russia?
    The Members of this Committee have a space coalition that supports 
NASA's balanced missions. But to keep that support during frugal times, 
we need to be able to count on NASA to focus on improved oversight and 
accountability.
    At the request of this Committee, the Government Accountability 
Office (GAO) has been assessing NASA large projects since 2009. GAO's 
most recent assessment shows that NASA's cost and schedule performance 
is improving and that cost growth and schedule slips continue to 
decrease. That's good.
    The average cost overrun is down from 4 percent to 3 percent, while 
average launch delays are down from 4 months to under 3 months. And I'm 
especially grateful for NASA's efforts to keep the James Webb Space 
Telescope on schedule and on budget.
    Many challenges remain. NASA needs to remain vigilant. More than 80 
percent of the agency's funding is awarded by contract--that's more 
than $14 billion of their 2015 request.
    Their Inspector General has identified ongoing agency challenges, 
ranging from project and contract management to cybersecurity. We 
appreciate Inspector General Martin's written testimony on how NASA has 
implemented his recommendations.
    I want to wrap up by thanking the men and women of NASA. From the 
machinists grinding precision parts for spacecraft exploring the 
galaxy, to computer operators compiling data used for forecasting or 
understanding the Big Bang--they all do great work.
    NASA is where scientists are rewriting textbooks and winning Nobel 
prizes. But it's also where astronauts risk their lives to make 
discoveries in space. Their work is vital for understanding the 
boundaries of our universe, expanding the boundaries of science and 
keeping our tech economy moving forward.
    We need to make sure NASA's budget is adequate to meet that 
mission.

    Senator Mikulski. First of all, we want to say good morning 
to you, Administrator Bolden.
    Mr. Bolden. Good morning.
    Senator Mikulski. I am sorry I couldn't be here earlier, 
that we couldn't have had coffee together and so on. We 
appreciate your continual service to our country, and we also, 
as I said, want to thank the inspector general.
    Also, I know Senator Shelby and I really want to thank the 
men and women who work at NASA, and the men and women who are 
the civil servants at NASA, and we want to thank also the 
contractors who do so much of the important work. They have 
been under so many stresses.
    Doing space and aeronautics in and of itself is 
challenging, challenging technology, challenging environments. 
It is not just like the movie Gravity, which was mesmerizing, 
where it had a happy ending, because they faced everything from 
sequester to slam down, shut down. It has been a rough road.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. And so we really want to thank them for 
their continual dedication.
    There are many issues to discuss, one of which is the aging 
workforce at NASA, impending retirements, the recruitment and 
retention of others. But let's get right to the appropriations.

                           FUNDING REDUCTIONS

    First of all, I was deeply troubled to receive the 
President's budget. I was deeply troubled in the area of NASA 
because there was a reduction of $186 million from fiscal 2014, 
which we already knew was tight.
    I can't thank Senator Shelby enough for the way he helped 
move that omnibus. It didn't happen because of Barbara 
Mikulski. Behind me there was a whole lot of we, including my 
vice chairman. We worked together.
    So when we saw this $186 million, it was deeply troubling.
    Now, I am committed to a balanced space program, human 
spaceflight, reliable transportation system to both the space 
station and areas beyond, the space science, and, of course, 
aeronautics.
    So we saw $186 million cut, and then to rub raw the sores 
of discontent, we also saw that Goddard Space Agency was cut by 
$200 million--$200 million in very important science programs.
    Senator Shelby has also raised the cuts in SLS and Orion, 
which are the kind of hallmark for going out there.

                  MAINTAINING A BALANCED SPACE PROGRAM

    So I am going to go right to my question about how to 
maintain a balanced space program when the two major programs--
I know Senator Shelby has looked at those things related to a 
heavy-lift capacity. Are we really funding a lot of things at 
the expense of space science? Why did you take $200 million out 
of Goddard?
    Mr. Bolden. Senator, as you said, and I appreciate your 
enthusiasm for a balanced portfolio, we have sought to put in 
place a balanced portfolio for the agency.
    There are a number of projects that are in formulation, in 
which Goddard will play a critical role. The funding for those 
projects have not yet been designated and distributed. We look 
at the long-range viability of each of our centers, and I 
firmly believe that Goddard will continue to be an integral 
part of all the programs that we have going forward.
    I mention the formulation of a mission to seek out to 
satisfy the objectives of WFIRST as laid out by the decadal 
survey. None of that is reflected yet in the NASA budget in the 
out-years, or in the Goddard budget. So those will be areas 
that will be plussed-up.
    We look at all of the centers. I sit down with the center 
directors and Robert Lightfoot, and we look at what they see 
for the out-years, because stability is what the center 
directors seek. Stability in funding is something that you have 
said is a goal of yours, and I applaud you for that, because 
nothing will be as critical as stability in funding in the out-
years for our planning and for centers to feel that they know 
where the future is. The instability in funding has been the 
thing that has us where we are right now.

                             SCIENCE BUDGET

    Senator Mikulski. I understand the stability and funding 
issue. It is not only me, but it is Senator Shelby and, I must 
say, our mutual leadership. So that is why we worked with 
Senator Murray and Senator Sessions to pass a budget that 
canceled sequester. It was a tough swallow. I would have wanted 
to do more in some areas, less than others, my colleague. But 
that is to be debated.
    So you want to talk about future missions and decadal and 
is Goddard going to have a future. But it has a future now in 
its bread-and-butter issues. The two bread-and-butter issues in 
telescopes are keeping Hubble on track to continue be the 
greatest telescope since the Galileo and the James Webb.
    So with James Webb, we know that there has been a decrease 
of $13 million. I don't dispute that, but the margins are very 
thin and they are at the high-risk area. I have been out there. 
We have been there together. We have seen some of this. It is 
very exciting.
    Hubble in the meantime continues to fly and continues to 
dazzle and continues to write the science books and continues 
to make Nobel Prize winners. So at the same time, Hubble has 
been cut $23 million.
    Now I know some might say that is an accounting adjustment, 
and we are going to fix it in 2016. I don't know what 2016 is 
going to be. I know what 2015 is going to be.
    So this is what we need to do. I don't want to talk about 
future missions. I want to talk about now. I am going to talk 
about Earth science, heliophysics, planetary science. I don't 
want science to be a bank account for other projects that might 
or might not happen in the future.
    Mr. Bolden. Senator, I promised when I became the NASA 
administrator that we were not going to use science as a bank 
for any of the programs in the agency, and I think we have done 
that. We have not moved, and I refuse to move any funds out of 
science into another program area.
    What we are looking for is a balanced portfolio in the 
science, inside the Science Mission Directorate. And as I said, 
the missions in formulation--when Chris Scolese talks about the 
future, which is exactly what he is saying, when he looks at 
the out-years, he doesn't see funds for WFIRST, he doesn't see 
funds for----

                          EARTH SCIENCE BUDGET

    Senator Mikulski. I don't want to be beating a dead 
satellite here, but Earth science is $56 million below fiscal 
year 2014. And fiscal year 2014 was already tough.
    Mr. Bolden. Senator, we are finding that we have 
efficiencies in the way that we fly Earth science missions. For 
the first time ever, we have two Earth science missions that 
are going to the International Space Station this year. They 
are significantly less cost to the taxpayer.
    And we are trying to find more and more ways to get 
efficiencies in our programs.
    So I think in the long run, when I sit down with Chris 
Scolese at Goddard and Charles Elachi out at JPL and Steve 
Jurczyk down at Langley, the people who spend most of their 
time thinking about Earth science and planetary science, we 
will find that there is a balanced distribution of the funds in 
the out-years, once we get a lot of the formulation----

                        SPACE STATION EXTENSION

    Senator Mikulski. Well, you and I really strongly disagree 
on this, Administrator Bolden. We really do strongly disagree 
on this.
    But I want to go to something we do agree on, and that goes 
to the extension of the life of the space station.
    That was a bold decision on your part. But both Senator 
Shelby and I, along with our colleagues, want to make sure that 
we get research value for that. And what has been so, I think, 
strong has been the bipartisan support of both the 
appropriators, and when we look at our authorizers--and back in 
the day, it was Senator Nelson and Senator Kay Bailey 
Hutchison--the whole idea of what could be done on the space 
station was exciting. So let me get to my question about that.
    In order for the space station extension to be viable, we 
need to be able to get there.
    Mr. Bolden. Yes, ma'am.

                        NASA-RUSSIAN COOPERATION

    Senator Mikulski. We are all deeply troubled about what is 
going on in Ukraine, and the behavior of Russia and Mr. Putin's 
words and so on. We leave that to our President and our 
Secretary of State.
    But what we are worried about is the reliability. As I 
understand it, there are two ways that the space station, we 
have to be able to get there. So one, we have to keep 
commercial crew on track, and the other is, as we impose 
sanctions with the Russians, will this jeopardize their 
cooperation on Soyuz? So let's put Soyuz here.
    Let's go to commercial. One, how do you see the commercial 
cargo staying on track, particularly with the Orbital-ATK 
merger?

                        RELATIONSHIP WITH RUSSIA

    And then second, could you bring us up-to-date on the 
relations with the Russians. And no matter what happens, do you 
think that will be strong, or is that in jeopardy? Can you 
answer both those?
    Mr. Bolden. Senator, as I mentioned to Senator Shelby 
earlier, I could not state more strongly that the relationship 
between Roscosmos and NASA is solid. I communicate with my 
counterpart on a regular basis. Bill Gerstenmaier, who runs 
human exploration, was just there for a Soyuz launch, about a 
month ago, and he continues to work.
    I think that you know that Sergei Krikalev, who was a 
former crew member of mine, is in the leadership there.
    Senator Mikulski. So you are all okay and doing Kumbaya 
now, but it is a delicate situation internationally. We are 
going to be escalating our sanctions, and I am not talking 
about your current relations. I am talking about, are the 
future relations, in general, in jeopardy?
    And do you think that our aggressive pursuit of sanctions--
and I am supporting the President in his sanctions. We have to 
take a strong stand, and we are proud of our NATO alliance.
    So you see where I am heading?
    Mr. Bolden. Yes, ma'am. Senator, as much as I would love to 
delve into diplomacy and things, because I do think I have a 
worthwhile opinion, but I am going to resist the temptation to 
do that. I am going to say that what I am striving to do is 
continue the relationship I have with Mr. Ostapenko, who heads 
Roscosmos, to make sure that he does get everything that he can 
across in Russia to calm down the diplomats and the politicians 
there, as we are trying to do here in the U.S., to help people 
understand the importance of this partnership.
    We are trying to accelerate as rapidly as we can the 
availability of commercial crew, so that we can launch our 
astronauts from----
    Senator Mikulski. Well, let's move on to that. But I think, 
really, Senator Shelby and I would like to be able to stay in 
touch and also to keep an eye on it. I think it is a very 
delicate situation.
    Mr. Bolden. Yes, ma'am.

                            COMMERCIAL CARGO

    Senator Mikulski. So let's go to commercial vehicles. So 
what do you think? How are we doing on commercial cargo? And 
then let's go to commercial crew, both from a budgetary 
standpoint, and when do you think, what are the targets for 
commercial crew?
    Mr. Bolden. Senator, we are in relatively good shape. We 
are in great shape with our commercial cargo right now, because 
Orbital Sciences, that does use a Russian engine, we are told, 
has enough engines in their stockpile to get through this 
contract.
    We are in the process now of getting ready to negotiate a 
new contract for commercial cargo after 2016. Orbital, like 
most other companies, is working with the engine manufacturers 
to see if there is not a U.S. option for engines.
    So those are things that they have been doing long before 
this recent crisis took place, because they would like to get 
newer engines. The NK-33, which is now the AJ26, is an old 
Russian rocket engine. Senator Shelby knows we have been trying 
to get away from that and get to new technology as quickly as 
we can, and that work is underway. SpaceX has an American-
generated, American-manufactured, engine, so that part of the 
commercial cargo is stable, and should not be affected at all.

                            COMMERCIAL CREW

    Senator Mikulski. Now let's go to commercial crew.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. What are your target timetables? Do you 
have the resources to meet those timetables? Could you 
elaborate?
    Mr. Bolden. Senator, again, I have to thank you for 
fighting the good fight with commercial crew and trying to keep 
our funding as high as possible. Because of your efforts and 
that of Senator Shelby, the 2014 mark, while not what we would 
have wanted, was enough that, if matched with the President's 
request for $848 million in 2015, will keep us on target for 
2017 availability of American capability to launch our crews to 
space safely and reliably through competition, which we feel is 
absolutely necessary.
    Senator Mikulski. Well, as I understand it, commercial crew 
is funded at $848 million. It is $156 million above fiscal year 
2014, and your goal was to send astronauts to the space station 
on U.S. rockets by 2017. Is that right?
    Mr. Bolden. That is correct. That is the present goal.
    Senator Mikulski. So you envision American astronauts to be 
on a vehicle that can go to the space station by 2017?
    Mr. Bolden. That is correct. In an American vehicle.
    Senator Mikulski. Excuse me, that is exactly right.
    And do you feel that you have the resources to be able to 
accomplish that? We are obsessed with the safety--and I know 
you are. Boy, we are committed to the safety of our astronauts.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. Exploration is great. We love extending 
the life of the space station. But we are for the safety of 
those men and women who are so daring to do this.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. So whatever we do, we know that there is 
always risk. We know that.
    Mr. Bolden. Senator, I cannot overemphasize this. As long 
as you continue to fight as you have been doing, you and 
Senator Shelby, on the importance of commercial crew, if we can 
get the President's request funded at $848 million, based on 
having the $696 million that we have this year in 2014, we 
should be on target for an American capability in 2017.
    Senator Shelby and I were talking earlier, is it possible 
to accelerate that? With more funds, it is possible to 
accelerate that, but we are sticking with a 2017 crew launch 
availability.
    Senator Mikulski. Including all the human ratings?
    Mr. Bolden. That is all the human ratings.
    Senator Mikulski. But if we fund it at fiscal year 2015, 
this will mean competition of two providers? Do you intend to 
shrink that? I mean, right now, there are more than two 
providers.
    Mr. Bolden. If you allow me, I will stay away from saying 
how many there are going to be because I don't know how many we 
are going to select. But what I want to assure you is, no 
matter how many providers we select, the vehicle will be safe. 
It will meet our requirements in every regard. And it will be 
available in 2017.
    So that is what I can promise this subcommittee, and that 
is what is important to us right now.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. I didn't have any other questions. I just 
have some observations.
    Senator Mikulski. Well, before you do, I know you have been 
very interested in this commercial----
    Senator Shelby. We got into it a little earlier, and I 
appreciate you continuing in that vein of questioning.

                         CYBERSECURITY AT NASA

    Senator Mikulski. Well, we could talk about our telescopes, 
but I understand they are on track, but for the James Webb, 
this is a very difficult one.
    I want to go to another issue that is of keen interest, 
again, on both sides of the aisle, which is cybersecurity at 
NASA.
    As I understand it, NASA has some pretty big challenges. 
This has been identified by you. It has also been identified by 
the inspector general.
    The inspector general talks about inadequate tools for 
real-time monitoring, a high amount of unprotected network 
access points, uncoordinated adoption of cloud computing, 
failure to use best practices in managing IT vulnerabilities.
    Do you want to comment on the I.G.'s rather stern 
assessment of the cybersecurity?
    Mr. Bolden. Senator, I will say as they did with 
Congressman Wolf in an earlier hearing. We recognized long 
before anyone else, I recognized the first day I became the 
NASA Administrator, that we had a big hill to climb in terms of 
IT security, how we run our IT cybersecurity program, because 
we are among the largest areas threatened in the Federal 
Government.
    We have taken a number of actions. Now we have worked with 
NAPA to do a study of our foreign national access management. 
That study also included cybersecurity, IT security. It 
identified 27 actions, recommendations that they gave to us. I 
accepted every single one of those 27 actions. We have 
prioritized them in coordination with NAPA, in what we think 
are critical areas of importance.
    So we go down the list on a risk basis. We are already 
working on the top six. They are funded with internal NASA 
funds that we already have available.
    When we get ready to submit the 2016 budget request, we 
will have a pretty good idea how much additional funds we need 
to put into IT security and cybersecurity. We are going to have 
to put additional people on it. We are advertising right now 
for a manager for a foreign national access management program.
    Senator Mikulski. Who is in charge of this?
    Mr. Bolden. I am. I am ultimately in charge, but my chief 
information officer----
    Senator Mikulski. But you are in charge of a lot.
    Mr. Bolden. My chief information officer is Larry Sweet. I 
brought him up from the Johnson Space Center. He was the chief 
information officer there. He was competitively selected.
    Senator Mikulski. So is Mr. Sweet--in other words, have you 
put into place a management structure to oversee the 
cyberstructure, because it is very uneven.
    Mr. Bolden. We have.
    Senator Mikulski. We are worried about protecting ``dot 
mil,'' okay? I think ``dot gov'' is very nifty. And then, of 
course, there are the challenges to ``dot com'' that we see in 
the marketplace every day.
    I can't control ``dot com,'' but we can do something about 
``dot gov.'' So we really need kind of the edge of the chair on 
this.
    Mr. Bolden. Senator, when you talk about leadership, there 
are three people, three buttons that I push. Joe Mahaley heads 
our operational security branch. Robert Lightfoot, who is the 
associate administrator, has overall oversight for this. 
Senator Shelby knows him very well from his time at the 
Marshall Space Flight Center, and then Larry Sweet.
    So between the three of them, those are the three who I go 
to who can answer any questions that may come up about our 
approach and our plan in the out-years for shoring up our 
cybersecurity, our IT infrastructure.
    One of the basic problems we had was governance. There was 
no centralized governance for IT. The chief information officer 
for the agency didn't control anybody except people at NASA 
headquarters. That is unsatisfactory.
    Senator Mikulski. You have been the administrator for 5 
years.
    Mr. Bolden. And we now have, just as public relations, or 
public communications, legislative affairs, information, IT, 
that all comes to headquarters for coordination. We don't order 
people what to do. We don't control the funds at the center 
level, but we coordinate it such that funds are spent in----
    Senator Mikulski. Well, I appreciate the progress you have 
made. You have had a job for 5 years.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. This is not a new problem.
    Mr. Bolden. No, ma'am. Not by any means.
    Senator Mikulski. Cyber has been an ongoing problem. And we 
hope that there continues to be a sense of urgency.
    Senator Shelby.

                            NASA PRIORITIES

    Senator Shelby. I have no other questions, other than to 
tell General Bolden, our administrator, that we do have 
challenges. You have challenges, and both of us believe that we 
want to fund these missions.
    Mr. Bolden. Yes, sir.
    If I go back to cybersecurity, we have now, because of 
Larry Sweet, Robert Lightfoot, and Joe Mahaley, we now have 
dates assigned when we expect that we will answer the mail, 
when we will have actions complete. Some of those dates, 
unfortunately, because of budget limitations, are not next 
year. They may be 2016 or 2017. But we have a plan to get 
there. As I said, it is a risk-based plan. The things that 
leave us most vulnerable we are trying to take care of right 
now, so that we are shoring up. We are sticking our finger in 
the dike while we have somebody behind us building another 
better dike. But we are using a risk-based method for putting 
money against the problems that we have.
    Senator Mikulski. Well, we agree, I think, all of us, on 
the goals of NASA. We are troubled over these continually 
shrinking resources. Remember, we are given a cap on 
discretionary spending.
    Mr. Bolden. Yes, ma'am.
    Senator Mikulski. And there are also firewalls.
    We note that NASA's highest funding level was in 2010 when 
it was $18.7 billion. That is roughly about $1 billion less 
now. So we are not on an upswing here. There is not new money 
on the horizon, so I think we have to be candid about that.
    We are looking at this in a very strong way. We are 
committed on a bipartisan basis to a balanced space program. 
And we have big challenges ahead, and we need to cooperate with 
you. And we do appreciate your longstanding service, both in 
other capacities serving the Nation and now.
    But though we agree on the goals, I am not so sure we agree 
on some of these priorities in here.
    So we have taken your testimony, and we found it very 
informative.
    Again, I really apologize for being late. I had hoped to be 
here earlier.
    And thank you, Senator Shelby.
    And so we need to have ongoing conversations. We hope that 
within the next week, between now and next Thursday, that we 
have our allocations ready and that we will begin to do our 
markups. And it would be our goal to have CJS through the full 
committee before the Fourth of July break.
    So that is our goal. That is our timetable.
    And because of the strong bipartisan support, and strong 
tell-it-like-it-is from Senator Shelby, I think we will get it.
    So thank you very much, and we will be in touch with you 
and your staff.

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to Hon. Charles F. Bolden, Jr.
            Questions Submitted by Senator Dianne Feinstein
                                science
    Question. I have long supported the National Aeronautics and Space 
Administration's (NASA) Mars exploration program, which has really 
become a crown jewel of the agency after the successful Curiosity rover 
landing.
    However, I am concerned that continued underfunding of this program 
could lead to an inability to meet the long-scheduled goal of another 
rover launch in 2020.
    This is a real concern. Under the proposed schedule, any slip in 
component delivery will threaten the viability of the entire program, 
because scientists tell me that after 2020, the orbits of Earth and 
Mars will be millions of miles further apart. So further delay would 
only make the program more complicated and more expensive.
    Does the Administration remain committed to a 2020 launch of the 
next Mars rover, and will the requested funding level allow the program 
to remain on schedule?
    Answer. NASA's Mars Exploration Program has been, and will continue 
to be, a major success story for NASA in science, engineering, and 
technology development. The Administration's fiscal year 2015 budget 
request supports plans for a robust multi-year Mars program, which 
includes a budget profile for Mars 2020 that will allow the project to 
proceed as planned with a launch readiness date in 2020. NASA remains 
committed to finding the most cost-effective way to accomplish the Mars 
2020 mission, and has implemented proven processes and procedures to 
reduce the likelihood of cost or schedule overruns. Given these 
factors, we are confident that the requested funding level will allow 
the program to remain on schedule.
    Question. Since the mid-1990s, NASA has invested more than $1.1 
billion in the Stratospheric Observatory For Infrared Astronomy 
(SOFIA), a project that has been jointly funded with the German space 
agency (DLR). SOFIA recently achieved full operational capability in 
February 2014, just 11 days before the fiscal year 2015 budget proposed 
to cancel the program.
    Administrator Bolden, experts and scientists working on this 
project in California have indicated that they were shocked by the 
abrupt nature of this proposed cancellation.
    What was the process for reaching this assessment that SOFIA is now 
a ``lower priority program''?
    Answer. The decision to propose, as part of the fiscal year 2015 
NASA budget request, to put SOFIA into storage was primarily a 
budgetary decision driven by the tight budget caps in the Bipartisan 
Budget Act of 2013. SOFIA's scientific priority relative to other 
missions within NASA's Astrophysics portfolio was a secondary 
consideration to accommodating the level of NASA's fiscal year 2015 
Astrophysics budget request ($607 million) compared with the fiscal 
year 2014 appropriated level ($668 million). Hence, NASA has to make 
tough budget decisions in order to maximize the scientific return of 
the public investments in the astronomical sciences. Further, among the 
Astrophysics projects considered for budget reduction, SOFIA was 
identified for two reasons. First, it is the only strategic 
Astrophysics project that was not a first priority of a Decadal Survey. 
Second, while it was a priority in the 1990 Decadal Survey as a medium-
class mission, its operations costs are the second largest of all NASA 
science missions, with only Hubble Space Telescope costing more.
    Question. Could you explain why NASA did not follow its usual 
process of conducting a ``Senior Review,'' which engages experts in the 
community to set priorities and make tough decisions on whether to end 
a mission?
    Answer. Senior Reviews are reviews of the science productivity of 
operating missions to support an assessment, based on demonstrated 
science accomplishments, of the anticipated science value of an 
extended mission. At the time of the 2012 Astrophysics senior review, 
SOFIA had not entered operations and therefore had not established a 
baseline of science accomplishments appropriate for a Senior Review. 
With the successful commissioning of its fourth science instrument in 
February 2014, SOFIA entered its operations phase in May 2014.
    Question. How will you explain to the U.S. taxpayers that the 
Administration has simply changed its mind and wasted the $1 billion it 
spent building SOFIA?
    Answer. Given today's severely constrained budgets, NASA has to 
make tough budget decisions in order to maximize the scientific return 
of the public investments in the astronomical sciences. SOFIA's high 
operating cost was a primary factor in the fiscal year 2015 budget 
proposal to put SOFIA in storage, unless alternative funding sources 
are found. Any alternative accommodation of the proposed reduction in 
the NASA Astrophysics budget would similarly impact other Astrophysics 
missions. While significant funding has been spent to develop SOFIA, 
this funding is less than half of the estimated $3 billion life-cycle 
cost of the program.
    Question. As you know, SOFIA is a joint project between the United 
States and Germany. Germany has contributed 20 percent of the cost to 
develop SOFIA. Germany also built the telescope and contributed the 
engines and other components. Moreover, Germany has agreed to 
contribute 20 percent of the operating costs.
    Why would NASA choose this moment to pull out of its commitment?
    Answer. The decision to propose, as part of the fiscal year 2015 
NASA budget request, to put SOFIA into storage was primarily a 
budgetary decision driven by the tight budget caps in the Bipartisan 
Budget Act of 2013. The memorandum of understanding (MOU) with Germany 
recognizes that our ability to carry through on our agreement is 
dependent on the availability of adequate appropriated funding. Some 
examples of the rich and robust NASA-DLR cooperation at the forefront 
of discovery include the Gravity Recovery and Climate Experiment 
(GRACE), the Fermi Gamma-ray Space Telescope, the Dawn mission now on 
its way to the asteroid Ceres, and the Mars Science Laboratory/
Curiosity. Our long history of mutually beneficial collaboration will 
continue well in the future, bilaterally through missions like InSight, 
and multilaterally through the European Space Agency (ESA) where our 
work in development expands to such projects such as James Webb Space 
Telescope (JWST) and Exobiology on Mars (ExoMars)/Mars Organic Molecule 
Analyzer (MOMA).
    Question. Are you concerned that this decision will erode trust not 
only between the U.S. and Germany, but also between the U.S. and other 
international partners on projects in the future?
    Answer. No. Even the most robust space partnerships, such as those 
among the International Space Station partners, have weathered such 
developments. Our partners are very aware that in all instances our 
cooperation is based on the availability of appropriated funds, just as 
we are aware that their participation has similar funding constraints. 
NASA has a long history of very successful cooperation with nations 
around the world, and a part of that history has from time to time 
included some decisions by NASA and some by our international partners 
to re-phase, redesign, or even terminate planned cooperative 
activities.
    Some examples of the rich and robust NASA-DLR cooperation at the 
forefront of discovery include the Gravity Recovery and Climate 
Experiment (GRACE), the Fermi Gamma-ray Space Telescope, the Dawn 
mission now on its way to the asteroid Ceres, and the Mars Science 
Laboratory/Curiosity. Our long history of mutually beneficial 
collaboration will continue well in the future, bilaterally through 
missions like InSight, and multilaterally through ESA where our work in 
development expands to such projects such as James Webb Space Telescope 
(JWST) and ExoMars/MOMA.
    Other countries continue to work with NASA on a wide variety of 
international partnerships, and we have not observed any change in 
their willingness to work with us. Currently, NASA has over 600 active 
agreements with over 120 countries and anticipates that international 
cooperation will remain a cornerstone of all of its future activities.
    Question. The budget notes that SOFIA will be placed in storage 
``by fiscal year 2015'' unless other ``partners are developed to 
support the U.S. portion of SOFIA costs.'' As you know, Congress fully 
funded SOFIA operations for fiscal year 2014.
    Does NASA intend to mothball this fiscal year despite it being 
fully funded by Congress?
    Answer. NASA will not take any unilateral action without an 
appropriate reprogramming notification to the Committees on 
Appropriations. NASA has not submitted a fiscal year 2014 modified 
Operating Plan to begin the shutdown process for SOFIA.
    We can also confirm that the German Aerospace Center (DLR) and NASA 
have decided to proceed with the scheduled Heavy Maintenance Visit for 
SOFIA in Germany as planned; SOFIA arrived in Germany at the end of 
June, 2014, and the Heavy Maintenance Visit is underway.
    Question. If this occurs, how feasible do you think it would be for 
NASA to reassemble the team, should SOFIA be restarted in the future?
    Answer. It is very difficult to predict the long-term impacts on 
the team of mothballing SOFIA; however, NASA acknowledges that trying 
to reassemble the team after a period of mothballing would be difficult 
and could require substantial effort.
                            space technology
    Question. There are several significant projects and technologies 
NASA identified and funded in the budget that are important for 
providing communications and deep space navigation technology for human 
and robotic exploration. For example, the Lasercom Relay Demonstration 
(LCRD) will provide space-based optical data relays. The use of Human 
Exploration Telerobotics/Human-Robotic Systems will cooperatively 
enhance and speed up human space exploration missions to new 
destinations. Another project in the Space Technology account, Solar 
Electric Propulsion, would leverage capabilities developed and deployed 
by the commercial satellite industry and expand them with NASA funded 
developments to meet long endurance space missions.
    Do you believe the funding requested in the President's fiscal year 
2015 budget is sufficient to ensure these activities continue to 
advance human and robotic exploration as well as science missions?
    Answer. Yes. We hope that the final fiscal year 2015 appropriation 
for NASA will fund the entire Space Technology request of $706 million. 
NASA believes this funding level requested for Space Technology will 
enable the technical investments needed for NASA's future science and 
human exploration missions. The requested funding level would allow 
NASA to invest in key technology development efforts including: Solar 
Electrical Propulsion (SEP), Laser Communications Relay Demonstration 
(LCRD), Deep Space Atomic Clock (DSAC), Low Density Supersonic 
Decelerators (LDSD), Green Propellant Infusion Mission (GPIM), 
Cryogenic Propellant Storage and Transfer (eCryo), Revolutionary 
Robotics and Autonomous Systems, and other critical technologies needed 
for human and robotic exploration deeper into our solar system, leading 
to human missions to Mars. In addition, fully funding the fiscal year 
2015 Space Technology appropriations request brings new crosscutting 
technologies and capabilities that lower the cost for other Government 
agencies and the Nation's aerospace industry.
    Question. What would the impact be on these innovative technologies 
if funding did not remain at NASA's fiscal year 2015 requested level?
    Answer. A number of impacts to important efforts within Space 
Technology will occur should the appropriated funding level reduce 
below the President's budget request. The extent of the impact will 
depend on the funding scenario. If reductions are made from the 
requested levels, Space Technology will likely prioritize existing 
content by scaling back planned competitive awards for most Space 
Technology programs and slowing the start of new technology 
demonstrations. Reducing new competitive awards provides stability for 
existing efforts--especially for those near their launch readiness 
date, but severely impacts the technology pipeline for the Agency, 
resulting in a loss of capabilities and efficiencies for future 
missions.
    At the proposed House Appropriations funding level for Space 
Technology, NASA will scale back competitive awards as noted above. In 
addition, the following Technology Demonstration Missions (TDM) would 
likely continue, but with increased execution risk due to the 
elimination of most of the program's contingency funding: Laser 
Communications Relay Demonstration, Deep Space Atomic Clock, Low 
Density Supersonic Decelerators, eCryo and Green Propellant Infusion 
Mission. Development of the high-priority Solar Electric Propulsion 
would continue, as planned. Such reductions are particularly 
challenging for projects planned for launch in 2015 including: Deep 
Space Atomic Clock, Low Density Supersonic Decelerator, and the Green 
Propellant Infusion Mission.
    In addition, the fiscal year 2015 funding levels proposed in the 
House bill for Space Technology would likely result in significant de-
scoping of content or potential cancellation for the following: 
revolutionary robotics, autonomous systems, hypersonic deployable 
technologies, modeling for entry, decent and landing technologies, 
nuclear system development, Center Innovation Fund (CIF) activities, 
and new awards in the Small Spacecraft Technologies (SST) program and 
the Space Technology Research Grants (STRG) program. Reduced funding 
levels may also impact risk reduction efforts for technologies being 
developed in preparation for the Discovery 14 opportunity including 
deep-space optical communication and advanced thermal protection 
systems.
    Space Technology will prioritize technologies based on thrust areas 
identified as critical to increasing the Nation's capabilities in 
space, including those meeting the Agency's exploration and science 
goals. This includes advancement of Solar Electric Propulsion required 
for the Asteroid Redirect Mission as well as future human missions to 
the surface of Mars. These thrust areas also emphasize Space 
Technology's support of continued Mars robotic science exploration, 
expanding the capabilities of future outer planetary science missions, 
and developing the large observatory capabilities to understand the 
Universe. The thrust areas support Space Technology's investment 
strategy to enable future NASA missions while offering crosscutting 
support for the missions and capabilities of commercial and other 
government space sectors. Nevertheless, at a significantly reduced 
fiscal year 2015 funding level, as proposed by the Congress, critical 
content even within these key thrust areas will either run at risk or 
face elimination.
                    human exploration and operations
    Question. As you know, the development of a reliable means of 
repairing and refueling satellites already in orbit could allow the 
U.S. to realize significant cost-savings and ensure the continued 
operation of these satellites for the benefit of civilian and national 
security assets. It is my understanding that the Goddard Space Flight 
Center is proposing to expand their work in this important area. I also 
understand that Goddard is building off of prior investments and 
leveraging industry capabilities.
    Do you believe that in orbit refueling and servicing of satellites 
is an important research effort for NASA to undertake as a stepping-
stone to support human exploration?
    Answer. NASA is refocusing its In-Space Robotic Servicing activity 
to multi-use technology development efforts that could enable multiple 
NASA missions, including servicing potential science satellites, 
servicing government missions in low-Earth orbit, and non-NASA users, 
and provide robotic tools for an Asteroid Redirect Mission, as well 
other applications for use and/or testing on the International Space 
Station (ISS).
    Robotic Refueling Mission phase 2 hardware will be flown to ISS in 
fiscal year 2014. This hardware includes a new tool and task board, 
which will be used to demonstrate additional refueling tasks, including 
robotic operations associated with cryogenic fluid transfer. In-Space 
Servicing is also developing a tool to detect external ammonia leaks on 
ISS. This device will be critical in monitoring and determining leak 
locations on ISS, and serve as generic tool to assist in satellite 
repair.
    Question. Do you believe that NASA's relationships with commercial 
partners could be strengthened through such a program?
    Answer. NASA continues to engage private industry and other 
government agencies to determine their interest in these capabilities.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                    human exploration and operations
    Question. Administrator Bolden, you suggested that NASA's ``total 
investment in the COTS program'' was only $684 million. However, by my 
accounting, the number is closer to $800 million. I have attached a 
copy of the schedule of payments provided by your staff, which supports 
this number. Could you please explain why your ``total investment'' 
number is different than that which is reflected in the attachment?
    Answer. While the original planned amount for the entire Commercial 
Orbital Transportation Services (COTS) effort was $800 million, the 
actual available appropriations were $782 million. The $684 million 
represents the funding paid to the two remaining partners, SpaceX and 
Orbital Sciences, under COTS Space Act Agreements. The total COTS 
program funding paid to date is $781 million, broken out as follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Amount
------------------------------------------------------------------------
SpaceX...............................................                396
Orbital..............................................                288
                                                      ------------------
      Total COTS Investment in current partner Space                 684
       Act Agreements................................
 
COTS Investment in Terminated Space Act Agreement                     32
 with Rocketplane Kistler (RPK)......................
Total COTS Investment through Commercial Resupply                     18
 Services (CRS)......................................
Total COTS Other Management and Support..............                 47
                                                      ------------------
      Total COTS Program Payments through April 30,                  781
       2014..........................................
------------------------------------------------------------------------

    Question. It is my understanding that at least one of the providers 
participating in Commercial Resupply Services (CRS) has flown different 
variants of their launch vehicle for each mission--some variants being 
more significant than others. Please provide the subcommittee a 
detailed accounting of each vehicle flown by mission and the changes 
made to that vehicle relative to the original qualifying launch 
vehicle. Additionally, the subcommittee requests a detailed description 
of the changes made, if any, from one launch vehicle to the next.
    Answer. Under the Commercial Resupply Services (CRS) contract, a 
total of four flights have flown to the International Space Station 
(ISS) to date. All four flights have successfully berthed with the 
Space Station and delivered all planned cargo. Additionally, all three 
SpaceX CRS flights have successfully returned all planned cargo to 
Earth. The table below outlines the vendor, CRS flight, launch vehicle 
versions, and launch dates.


----------------------------------------------------------------------------------------------------------------
                Vendor                          Flight               Launch Vehicle            Launch Date
----------------------------------------------------------------------------------------------------------------
SpaceX...............................  CRS SpaceX-1...........  Falcon 9 v1.0..........  10/07/2012
SpaceX...............................  CRS SpaceX-2...........  Falcon 9 v1.0..........  03/01/2013
SpaceX...............................  CRS SpaceX-3...........  Falcon 9 v1.1..........  04/18/2014
Orbital..............................  CRS Orbital-1..........  Antares 120............  01/19/2014
----------------------------------------------------------------------------------------------------------------

    For the CRS program, there is not a NASA ``qualification'' of the 
commercial partner launch vehicle in the traditional definition. Each 
company is responsible for all prelaunch qualifications and 
verifications of their launch vehicle and is also responsible for 
determining what launch vehicle is appropriate for the specified 
mission parameters, including expected cargo upmass/downmass (as 
applicable), launch window and rendezvous phasing. The cargo spacecraft 
that berths to the ISS is required to meet a set of interface and 
verification requirements for each mission, which NASA reviews and 
dispositions for each flight. Launch vehicle performance and capability 
were previously demonstrated under the COTS program prior to the CRS 
contract vehicle launches. In addition, the Federal Aviation 
Administration reviews safety and performance data of the launch 
vehicles prior to each flight to ensure public safety and is 
responsible for issuing a license of each vehicle's launch and reentry. 
As NASA does not contractually qualify or verify the commercial partner 
launch vehicles, additional information on these vehicles and their 
version history should be requested from the relevant company.
    Question. I am aware that a number of significant anomalies have 
occurred with CRS launch vehicles, including seawater intrusion, engine 
loss on ascent, and the insertion of a secondary payload in the 
improper orbit just to name a few. What is the probability that such 
significant anomalies will occur with CRS launch vehicles and what 
insight does NASA have in that regard? What risk mitigation efforts are 
underway to ensure that these anomalies are not repeated? What is 
NASA's recourse when such significant anomalies occur; for instance 
what can be done about the loss of or damage to payloads returning from 
the ISS?
    Answer. Launch vehicle development and operation is a technically 
challenging undertaking. Efforts to reduce risks through design 
reviews, testing at component and system levels, and early 
identification of any risks are utilized to preclude anomalies.
    NASA participates in various production and operations contract 
milestones with the vendors to gain insight on both launch vehicle and 
spacecraft, as part of the CRS contract. NASA insight is defined as 
gaining an understanding necessary to knowledgeably assess the risk of 
contractor actions or lack thereof through observation of manufacturing 
or tests, review of documentation, and attendance at meetings and 
reviews.
    The CRS contractor has the lead for anomaly resolution for phases 
of the mission during which they have responsibility. In the event of 
an anomaly during a mission, a contractor-chaired team will determine 
the cause of the anomaly or failure to evaluate all available data in 
order to determine if the mission failure was attributable to the 
vehicle or conditions for which the contractor is expected to control 
or avoid. The appropriate corrective actions necessary to address any 
issues will be determined and coordinated with NASA. NASA is able to 
fully participate in these investigation and proposed mitigation 
implementation. In addition, NASA participates as necessary in any 
issues/anomalies that are identified during production as well.
    As part of determining mission success or failure after each return 
mission, NASA conducts a post-flight assessment of the condition of the 
payloads to determine if their condition meets the agreed to 
requirements. If the return payloads do not meet the requirements or 
are lost, and the mission therefore is only a partial success or a 
failure, NASA withholds a portion, or the entire, final payment for 
that mission.
    Question. Administrator during the Committee's NASA hearing on the 
fiscal year 2014 budget last year, you stated: `` . . . we don't know 
the precise amount, because we don't get, you know, fiscal accounting 
the way that would be required if we were working under a FAR-based 
contract, but they are now working under FAR-based contracts in the 
CCiCap program . . .  We have total insight into everything that 
they're doing, so when we get to ready to roll out the request for 
proposals here this summer, we'll be confident that we know what 
they're doing.'' These comments led me to believe that FAR-based 
contracts would provide greater transparency and oversight than the 
existing Space Act Agreements. However, NASA has stated that it will 
waive significant portions of the FAR contracting requirements under 
the proposed CctCap RFP, including those related to certified cost and 
pricing data. Could you explain how a waiver of these requirements is 
consistent with your previous statements encouraging transparency and 
accountability?
    Answer. NASA did not waive ``significant'' portions of the Federal 
Acquisition Regulation (FAR) contracting requirements under the 
Commercial Crew Transportation Capability (CCtCap) Request for Proposal 
(RFP). NASA modified several standard FAR provisions to better align 
with the contract requirements, which is part of the procurement 
process for any solicitation. NASA approved waivers/deviations for 
several RFP clauses, as permitted by the FAR, because the resultant 
clauses were appropriate and justified for the CCtCap procurement. NASA 
was fully transparent with industry regarding the waivers and 
deviations under CCtCap RFP.
    NASA did not waive any certification requirements for the initial 
award of proposals under CCtCap. FAR 15.403-1 does not allow the 
Government to require Certified Cost or Pricing Data for procurements 
when there is expected to be adequate price competition through 
multiple proposals and price is a significant factor in the evaluation, 
as is the case for CCtCap. As part of the competitive price evaluation, 
the RFP required all offerors to submit data other than cost or pricing 
data to assist the Government in determining price reasonableness. NASA 
did waive FAR 15.403-4(a) and (b)--relating to certified cost or 
pricing data after contract award. This waiver only applies to 
potential contract modifications and task orders in excess of $700,000 
during contract performance (i.e., after the award of the base 
contract). This was done in order to reduce administrative costs 
associated with the certification of cost accounting systems and to 
increase competition. Like the initial contract award process, NASA 
will require contractors to provide data other than certified cost or 
pricing data to assist in price reasonableness determinations for 
future modifications and task orders under the contract.
    In addition, NASA will have significantly greater oversight under 
the CCtCap contract than it had under Space Act agreements, through 
certification of compliance with NASA requirements, inspections, 
anomaly investigation and safety review of hazardous flight operations. 
NASA will have full technical insight into commercial vehicle design 
and performance, and has achieved a head start on this through the 
recently completed first phase of this procurement, the Certification 
Products Contracts.
    Question. How is NASA weighing individual company investment in the 
current round of awards to ensure that this is a public-private 
partnership and not a taxpayer funded development program?
    Answer. CCtCap is a firm fixed price contract and, as such, NASA is 
concerned with the price to the Government and the contractor's ability 
to perform the work at that price. As part of ensuring lifecycle cost 
management, NASA is evaluating the financial resources proposed to meet 
the milestones throughout the contract and how the total investment 
affects performance risk. NASA is not evaluating the magnitude of 
company investment.
    Question. What is the current investment level for each participant 
in Commercial Crew thus far?
    Answer. By the time the Commercial Crew Integrated Capability 
(CCiCap) is completed, NASA's investment in the three rounds of 
Commercial Crew Space Act Agreements (CCDev, CCDev2, and CCiCap) will 
be $1.533 billion. Based on representations by the companies, our 
industry partners will have made an aggregate investment of 
approximately 20 percent of the total investment through the completion 
of the Commercial Crew Integrated Capability (CCiCap) phase. The actual 
aggregate investment of the partners may be higher to the extent that 
industry has absorbed cost growth associated with hardware development 
challenges and schedule delays. A further level of definition regarding 
any company's investment in the Commercial Crew Program would be 
proprietary to that company and is Sensitive But Unclassified 
information.
    NASA has also provided an aggregate $29 million to industry for the 
Certification Products Contracts. The corresponding partner investment 
is unknown, but the partners are believed to have contributed to this 
activity, as the generation of these products has proven to be even 
more significant than we or they anticipated.
    Question. I am concerned about the lack of transparency inherent in 
Space Act Agreements and, in particular, the lack of information NASA 
has regarding the private investment in both the commercial cargo and 
crew program. Does NASA know how much each participant has invested in 
the cargo program or the crew program? Are the companies required to 
disclose their investments as a condition of their contract with NASA?
    Answer. By the time the Commercial Crew Integrated Capability 
(CCiCap) is completed, NASA's investment in the three rounds of 
Commercial Crew Space Act Agreements (CCDev, CCDev2, and CCiCap) will 
be $1.533 billion. Based on representations by the companies, our 
industry partners will have made an aggregate investment of 
approximately 20 percent of the total investment through the completion 
of the Commercial Crew Integrated Capability (CCiCap) phase. The actual 
aggregate investment of the partners may be higher to the extent that 
industry has absorbed cost growth associated with hardware development 
challenges and schedule delays. A further level of definition regarding 
any company's investment in the Commercial Crew Program would be 
proprietary to that company and is Sensitive But Unclassified 
information.
    NASA has also provided an aggregate $29 million to industry for the 
Certification Products Contracts. The corresponding partner investment 
is unknown, but the partners are believed to have contributed to this 
activity, as the generation of these products has proven to be even 
more significant than we or they anticipated.
    The industry partner investment under the COTS development program 
was a higher percentage than the percentage for crew development. For 
the ISS Commercial Resupply Services (CRS) contract, NASA is purchasing 
services under fixed-price contracts. NASA has no insight into any 
partner investments made in delivering that service. Companies have not 
been required to disclose their investments as a condition of award of 
a crew or cargo contract. The CRS, CPC, and pending CCtCap contracts 
are all fixed-price contracts, which do not require the contractor to 
disclose its expenses or investments.
    Question. Is it reasonable that to speculate that these companies 
have invested less than 5 percent of their own money in these ventures? 
If they are not required to disclose their investments, how do you know 
whether they have invested $5 or $5 million?
    Answer. By the time the Commercial Crew Integrated Capability 
(CCiCap) is completed, NASA's investment in the three rounds of 
Commercial Crew Space Act Agreements (CCDev, CCDev2, and CCiCap) will 
be $1.533 billion. Based on representations by the companies, our 
industry partners will have made an aggregate investment of 
approximately 20 percent of the total investment through the completion 
of the Commercial Crew Integrated Capability (CCiCap) phase. The actual 
aggregate investment of the partners may be higher to the extent that 
industry has absorbed cost growth associated with hardware development 
challenges and schedule delays. A further level of definition regarding 
any company's investment in the Commercial Crew Program would be 
proprietary to that company and is Sensitive But Unclassified 
information.
    NASA has also provided an aggregate $29 million to industry for the 
Certification Products Contracts. The corresponding partner investment 
is unknown, but the partners are believed to have contributed to this 
activity, as the generation of these products has proven to be even 
more significant than we or they anticipated.
    The industry partner investment under the COTS development program 
was a higher percentage than the percentage for crew development. For 
the ISS Commercial Resupply Services (CRS) contract, NASA is purchasing 
services under fixed-price contracts. NASA has no insight into any 
partner investments made in delivering that service. Companies have not 
been required to disclose their investments as a condition of award of 
a crew or cargo contract. The CRS, CPC, and pending CCtCap contracts 
are all fixed-price contracts, which do not require the contractor to 
disclose its expenses or investments.
    Question. NASA has a significant number of launches that it intends 
to launch on board Space X rockets over the next several years. In 2014 
alone, NASA ISS resupply missions account for 4 of the 13 missions 
listed on their manifest. However, we are now in May and only 2 of the 
13 missions listed have launched. With only 8 months remaining, they 
will have to launch every 22 days for the rest of the year. This would 
be more launches in 8 months of a Falcon 9 than have been completed 
over the past 3 years. Given the critical nature of resupplying the 
ISS, how is NASA preparing for the possibility that the scheduled 
launches to the ISS by Space X will not occur as scheduled?
    Answer. The remaining two flights planned for fiscal year 2014 are 
planned for July 2014 (Orb-2) and August 2014 (SpX-4). In addition, the 
European Space Agency plans to launch its Automated Transfer Vehicle-5 
this summer. The commercial strategy does not rely on a single flight 
or provider, but if CRS cargo delivery flights fall behind schedule, 
NASA will prioritize the cargo carried on those flights on the basis of 
payload criticality to the maintenance and operation of ISS. Beyond 
meeting these requirements, NASA will first satisfy additional 
requirements associated with NASA utilization missions including NASA-
sponsored Biological and Physical Research, the Human Research Program 
and Technology Development and Demonstration projects necessary to 
NASA's exploration mission. Finally, NASA would work together with the 
Center for the Advancement of Science in Space (CASIS), which manages 
the National Laboratory aspects of the ISS to determine the priority of 
utilization-related cargo, including equipment and samples supporting 
research objectives by organizations other than NASA.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                            science missions
    Question. The National Aeronautics and Space Administration (NASA) 
is identified as a supporting Federal agency for 9 elements of the 
Implementation Plan for the National Strategy for the Arctic Region, 
including:

  --Enhance Arctic Domain Awareness;
  --Develop a framework of observations and modeling to support 
        forecasting and prediction of sea ice;
  --Implement the Pilot Distributed Biological Observatory in the 
        Pacific Arctic;
  --Develop Integrated Ecosystem Research in the Beaufort and Chukchi 
        Seas;
  --Improve Understanding of Glacial Dynamics;
  --Understand Terrestrial Ecosystem Processes;
  --Understand Atmospheric Processes to Improve Climate Predictions;
  --Support a Circumpolar Arctic Observing System; and
  --Integrate Arctic Regional Models.

    Despite this long list of action items, NASA references only two 
Arctic-oriented projects in its fiscal year 2015 Budget Estimates 
document:

  --Operation IceBridge--which consists of 26 science flights from 
        Fairbanks and Greenland to collect data on sea ice, ice sheets 
        and glaciers; and
  --ICESat-2--which will continue assessments of polar ice changes once 
        launched in 2017.

    These are important projects, and I am not going to criticize NASA 
for pursuing good work related to the Arctic. However, as I have been 
with many other Federal agencies I am concerned that the statements 
made in the Administration's Arctic Implementation Plan are not matched 
with resources to support actual work when it comes to NASA. 
Administrator Bolden, could you please provide me with information 
regarding your agency's fiscal year 2015 budget support for the 9 
action items where NASA is identified as a supporting agency?
    Answer. NASA's fiscal year 2015 budget estimates document does not 
cover all of the agency's activities because it was focused on major 
items listed as specific milestones in the strategy. The strategy and 
milestones were derived from the Arctic Research Plan fiscal year 2013-
2017 developed by the Interagency Arctic Research Policy Committee 
(IARPC), in which NASA regularly participates. Apart from our major 
investments in IceBridge and ICESat 2, NASA spends an additional 
approximately $20 million on Arctic research across a range of NASA 
science-based programs, as follows:

  --Cryospheric Sciences: Supporting a diverse suite of studies of 
        Arctic sea and land ice. The sea ice studies are especially 
        focused on the connections of changes in sea ice cover to 
        climate drivers. The land ice studies are especially relevant 
        to estimates of present and future sea level rise.
  --Interdisciplinary Sciences: Supporting studies of the impacts of 
        Arctic change on the global system, and ice-ocean interaction.
  --Making Earth System data records for Use in Research Environments 
        (MEaSUREs): Supporting various studies compiling information on 
        Arctic sea ice, Greenland ice sheet, and North American snow 
        cover.
  --Modeling and Assimilation: Supporting model development for sea ice 
        components of global climate models and ice sheet models 
        relevant to sea level rise.
  --Carbon Cycle: Supporting development of the Arctic Boreal 
        Vulnerability Experiment (ABOVE) campaign, a major study 
        planned for 2015 and beyond to assess the changes occurring in 
        Arctic vegetation.
  --Earth Ventures: Supporting aircraft studies to assess the release 
        of greenhouse gases from the thawing permafrost.

    These funded activities contribute to all of the elements listed 
above, and detail can be provided as desired.
    Question. As Arctic ice continues to diminish and more and more 
nations engage in that region, I have encouraged this Administration to 
lead in the Arctic and dedicate the resources necessary to back up our 
claims of Arctic engagement.
    Administrator Bolden, I am aware that the Canadian Government is 
looking at a new satellite mission that would help maintain satellite 
communications and weather observations in the Arctic region for years 
to come. This comes at a time when our own civil weather satellite 
capability faces an ``unacceptably high'' probability of a gap in 
observations by 2017. The U.S. Navy in its Arctic Roadmap has 
highlighted the importance working with Canada on Arctic communications 
and weather. In addition, a recent GAO report cited that weather 
forecasts over the Arctic needed to be improved.
    While I understand that the National Oceanic and Atmospheric 
Administration (NOAA) is the lead agency for weather satellite 
programs, I would like to know your views on satellite observations 
needed in an increasingly ice-diminished Arctic. Also, could you please 
describe how NASA is engaged with NOAA and the Department of State 
(DOS) to evaluate the benefits that a Canadian communications and 
weather satellite mission would have to the U.S. and our monitoring 
capabilities?
    Answer. Satellite observations of the Arctic region have already 
proven to be important for advancing our understanding of the ongoing 
changes there, as well as enabling the U.S. to plan for the large 
effects that can be expected in the future.
    NASA's current and planned satellite observations provide extensive 
coverage of the Arctic. Most of NASA's satellites are in polar orbits, 
which fly over each pole approximately 15 times per day, gathering data 
routinely during these overpasses and transmitting and processing data 
back on the ground for use by the research and applications 
communities. Planned satellite data such as the ICESat 2 mission 
(launch in 2018) and GRACE Follow On (launch in 2017) will provide 
particularly important measurements of ice sheet topography and mass, 
respectively. NASA coordinates with the Canadian Space Agency and that 
nation's Environment Canada agency, both bilaterally and through 
international coordinating entities such as the Committee on Earth 
Observation Satellites (CEOS) and the Coordinating Group on 
Meteorological Satellites (CGMS); NOAA participates along with NASA in 
both CEOS and CGMS. NASA Earth Science Division and NOAA/National 
Environmental Satellite, Data, and Information Service (NESDIS) 
regularly exchange information on international interactions and 
potential future opportunities in the context of the NASA-NOAA Joint 
Working Group mandated by Section 306 the NASA Authorization Act of 
2005. NASA also regularly participates with the Department of State on 
Arctic-related issues, including those associated with the Arctic 
Council, and in interagency activities such as IARPC and the 
development of the National Arctic Strategy and the associated 
Implementation Plan.
    Although we are aware through CEOS of Canada's interest in 
developing a Polar Communications and Weather (PCW) satellite mission, 
their plans have not reached the stage of maturity at which they are 
presented for detailed discussion among the U.S. Government agencies.
    Question. As an Alaskan, I have an acute interest in the weather 
data provided by the Joint Polar Satellite System (JPSS). The impending 
gap in this critical data and the lack of robustness in the overall 
program is of great concern to the Nation and especially to my 
constituents. Secretary Pritzker addressed the gap in a recent hearing 
with this committee (April 10, 2014) by stating, `` . . . what we're 
trying to do is move JPSS-2 so that there's greater overlap with the 
JPSS-1 program. To do that, we need to have the procurement of the 
instruments, the bus, the ground system, and the launch.''
    As the acquisition agent, what is NASA currently doing to assist 
NOAA in accelerating JPSS-2?
    Answer. NASA and NOAA are assessing options to possibly accelerate 
the JPSS-2 Launch Readiness Date (LRD) from its current baseline of 
first quarter of fiscal year 2022 in order to reduce the probability of 
a gap between JPSS-1 and JPSS-2. NASA is actively working procurement 
actions for the complement of instruments as well as the spacecraft bus 
in order to get all under contract as soon as possible. The schedules 
of the instruments currently drive the JPSS-2 schedule. One instrument 
is already under contract, and final contract negotiations are underway 
for the other instruments. NASA plans to have all JPSS-2 instrument 
contracts definitized by Summer 2014. In addition, NASA plans to 
release the Request for Offer for the JPSS-2 spacecraft bus on schedule 
by the end of the fourth quarter fiscal year 2014. NASA is applying 
lessons learned from the JPSS-1 instruments and spacecraft 
manufacturing, integration and testing phase to the JPSS-2 mission 
planning, which should permit some level of acceleration.

                         CONCLUSION OF HEARINGS

    Senator Mikulski. This subcommittee stands in recess 
subject to the call of the Chair.
    [Whereupon, at 10:30 a.m., Thursday, May 1, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2015 appropriations for 
geoscience programs within the subcommittee's jurisdiction.
    The American Geosciences Institute (AGI) supports earth science 
research sustained by the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Institute of Standards and Technology (NIST), and the National 
Aeronautics and Space Administration (NASA). Frontier research on the 
Earth, energy, and the environment has fueled economic growth, 
mitigated losses, and sustained our quality of life. The subcommittee's 
leadership in supporting geoscience-based research is even more 
critical as our Nation competes with rapidly developing countries, such 
as China and India, for energy, mineral, air, and water resources. Our 
Nation needs skilled geoscientists to help explore, assess, and develop 
Earth's resources in a strategic, sustainable, and environmentally 
sound manner and to help understand, evaluate, and reduce our risks to 
hazards. AGI recognizes our Nation's financial challenges and also the 
necessity for steady and sustained growth in investment in science and 
technology for the future. AGI respectfully requests $1.322 billion for 
the Geoscience Directorate at NSF and $1.853 billion for NASA Earth 
Science programs to keep pace with inflation. AGI supports the 
President's request for $5.497 billion for NOAA and $900 million for 
NIST.
    AGI is a nonprofit federation of about 50 geoscientific and 
professional societies representing more than 250,000 geologists, 
geophysicists, and other Earth scientists. Founded in 1948, AGI 
provides information services to geoscientists, serves as a voice for 
shared interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to hazards, and the health of the environment.
    National Science Foundation.--AGI supports a minimum increase of 
$18 million over the President's request for the Geosciences 
Directorate to keep pace with inflation, and an overall budget of 
$7.255 billion for NSF. NSF is vital national incubator for scientific 
breakthroughs that will fuel economic growth and for developing the 
educated workforce that is needed to drive innovation and global 
leadership in science, engineering, and technology. AGI believes that 
investment in NSF programs, where research is funded based on 
competitive scientific merit and peer review, will pay important 
dividends in our understanding of the world we inhabit and will play a 
critical role in maintaining U.S. dominance in science and technology 
long into the future.
    NSF Geosciences Directorate.--AGI is very disappointed that the 
President's request for a 0.1 percent increase for the Geoscience 
Directorate (GEO) does not come close to matching inflation, which 
averaged 1.5 percent in 2013, and thus presents an effective cut in 
funding for geoscience research and infrastructure. AGI recognizes the 
challenges faced by Congress in balancing the Nation's budget and 
respectfully asks the subcommittee to provide the Geosciences 
Directorate with a modest funding increase of 1.5 percent over fiscal 
year 2014 levels, which would do no more than match inflation and 
maintain current funding levels for the geosciences.
    AGI asks the subcommittee to provide $254 million for Atmospheric 
and Geospace Sciences, $180 million for Earth Sciences, $362 million 
for Ocean Sciences, $85 million for Integrative and Collaborative 
Education and Research (ICER), and $441 million for Polar Programs, for 
a total investment of $1,322 million in NSF's Geoscience Directorate.
    The Geosciences Directorate (GEO) is the principal source of 
Federal support for academic earth scientists and their students who 
are seeking to understand the Earth and the processes that sustain and 
transform life on this planet. The Geosciences Directorate provides 
about 65 percent of Federal funding for basic geoscience research at 
academic institutions. According to NSF data, the Directorate 
distributes about 1,700 awards annually involving about 14,700 people 
and supporting indispensible research infrastructure and instruments.
    Understanding the Earth improves our ability to anticipate and 
mitigate the effects of natural hazards such as earthquakes, 
landslides, and tsunamis, to make long- and short-term weather 
forecasts, to locate and appropriately develop earth resources, to 
sustainably manage our environment, and to make well-informed decisions 
at all levels from the individual citizen to national and international 
policy makers.
    NSF's Division of Polar Programs (PLR) funds basic research in the 
Arctic and Antarctic and manages all U.S. activities in Antarctica as a 
single, integrated program. The polar regions are the focus of intense 
scientific and political interest as new navigation routes are opening 
access to resources and presenting security challenges. NSF-funded 
research and infrastructure are helping the United States understand 
environmental conditions in extreme environments, develop polar 
technology, and construct data-driven strategic and security policies. 
AGI suggests a minimum of $441 million for the Division of Polar 
Programs.
    NSF funds facilities that enable researchers to access locations, 
data, and technologies that serve the overall research community. AGI 
strongly supports robust and steady funding for infrastructure and the 
operation and maintenance of major facilities, including the Academic 
Research Fleet, Geodetic and Seismological Facilities for the 
Advancement of Geosciences and EarthScope (GAGE and SAGE), Ocean 
Drilling Activities, the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research (NCAR).
    Directorate for Education and Human Resources.--NSF support for 
geoscience education must be maintained if we are to meet the demand 
for a skilled workforce and an informed citizenry prepared to make 
well-informed decisions about the management of our planet and its 
resources. Outreach and education are important at all levels from K-12 
through graduate level and should include formal and informal outlets 
to facilitate lifelong learning. AGI strongly supports funding for 
geoscience education at all levels and particularly supports programs 
to diversify the geoscience student population and workforce. AGI urges 
Congress to fund programs in NSF's Directorate for Education and Human 
Resources, including NSF Scholarships in STEM, Graduate Research 
Fellowships, Climate Change Education, Research Experiences for 
Undergraduates, and Advancing Informal STEM Education.
    National Oceanic and Atmospheric Administration.--AGI supports the 
President's request for $5.497 billion for NOAA. We hope the 
subcommittee will continue to support the National Weather Service 
(NWS), Oceanic and Atmospheric Research (OAR), National Ocean Service 
(NOS), and the National Environment Satellite, Data and Information 
Service (NESDIS). These programs are critical for understanding and 
mitigating natural and human-induced hazards in the Earth system while 
sustaining our natural resources. Geoscientists rely on NOAA for much 
of the data and long-term monitoring that enable research and rapid 
response to events such as hurricanes, drought, marine oil spills, and 
a range of coastal phenomena.
    National Institute of Standards and Technology.--AGI supports the 
President's request for $900 million for the NIST. Basic research at 
NIST is conducted by earth scientists and geotechnical engineers and 
used by the public and private sectors on a daily basis. The research 
conducted and the information gained is essential for understanding 
natural hazards and for identifying the infrastructure needed to build 
resilient communities and stimulate economic growth. Advanced 
infrastructure research will help to reduce the estimated average of 
$52 billion in annual losses caused by floods, fires, and earthquakes.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but has received only a small portion of 
authorized and essential funding in the past. AGI strongly supports the 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) in this Congress. We hope the appropriations subcommittee will 
continue to support this effective and cohesive program, even if the 
authorizing legislation takes more time to complete. NEHRP is an 
excellent example of how to coordinate different entities for the 
safety and security of all. NEHRP develops effective practices and 
policies for earthquake loss reduction and accelerates their 
implementation; improves techniques for reducing earthquake 
vulnerabilities of facilities and systems; improves earthquake hazards 
identification and risk assessment methods and their use; and improves 
the understanding of earthquakes and their effects.
    National Aeronautic and Space Administration.--AGI is disappointed 
that the President proposes a 3.1 percent cut to Earth Science 
functions at NASA. NASA needs to maintain its current fleet of Earth-
observing satellites, launch the next tier, and accelerate development 
of the subsequent tier of missions. The observations and understanding 
about our dynamic Earth gained from these missions is critical to 
research and to life-sustaining functions like weather forecasting, 
emergency service response and planning, and tracking ash plumes or oil 
spills that disrupt the economy and the environment. We respectfully 
suggest that funding levels should at least match inflation and 
therefore we ask that $1,853 million be appropriated for Earth Science 
Programs within the NASA's Science Mission Directorate.
    AGI applauds NASA's successful launch of the Landsat 8 satellite in 
February, 2013, which will enable the continuation of a 40-year record 
of Earth observations in conjunctions with the U.S. Geological Survey 
(USGS). Geoscientists use Landsat data to monitor, predict, and help 
land managers to address drought, wildfires, changes in vegetation, and 
other changes to the Earth's surface. AGI strongly supports the NASA/
USGS Sustainability Land Imaging Architecture Study Team which is 
examining options for continuing Landsat-compatible observations into 
the future and urges Congress to support and fund their efforts.
    Thank you for the opportunity to present this testimony to the 
subcommittee. If you would like any additional information for the 
record, please contact Maeve Boland at 703-379-2480, ext. 228 voice, 
703-379-7563 fax, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e9848b868588878da9888e809e8c8bc7869b8e">[email&#160;protected]</a>, or 4220 King Street, Alexandria 
VA 22302-1502.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2015 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide NSF with at least $7.5 billion in fiscal year 2015.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has more than 140 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
                           nsf and innovation
    The NSF is an important engine that helps power our Nation's 
economic growth. Through its competitive, peer-reviewed research 
grants, NSF supports the development of new knowledge that will help to 
solve the most challenging problems facing society, and will lead to 
new scientific discoveries, patents, and jobs. The agency's education 
and training programs are helping to ensure that the next generation 
has the scientific, technical, and mathematical skills employers are 
seeking. Investments in research equipment and facilities enable the 
country to continue to innovate and compete globally.
    These efforts, however, require a sustained Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    The budget request for fiscal year 2015 will flat line investments 
in foundational research at a time when other nations are accelerating 
their commitments to science. The proposed $1.5 million cut from the 
Research and Related Activities account may seem small, but coupled 
with an anticipated 1.7 percent increase in inflation, NSF research 
funding would decline by $100 million next year.
    The scientific community recognizes that current fiscal conditions 
have necessarily constrained Federal funding, but NSF is a sound 
investment that pays dividends. The use of peer-review to evaluate and 
select the best proposals means that NSF is funding the highest quality 
research.
                    biological sciences directorate
    The NSF is the primary Federal funding source for basic biological 
research at our Nation's universities and colleges. The NSF provides 
approximately 66 percent of extramural Federal support for non-medical, 
fundamental biological and environmental research at academic 
institutions.
    A reduction of $12.8 million is proposed in fiscal year 2015 from 
the Biological Sciences Directorate (BIO). This is a considerably 
larger cut than is proposed for any other research directorate. If 
enacted, the funding rate for biological and environmental research 
would drop to 18 percent.
    The research supported by NSF is unique from the science funded by 
other Federal programs. Unlike most Federal agencies, which focus on 
applied research, NSF supports research that advances the frontiers of 
our knowledge about biodiversity, genetics, physiology, and ecosystems. 
Recent discoveries that stem from NSF-funded research include:
  --Discovering that members of a particular kind of bacteria work 
        together to find food and survive under harsh conditions. This 
        discovery could lead to new antibiotics or development of new 
        pest-resistant seeds.
  --Developing a new technique to manipulate the genes of grasshoppers 
        in order to prevent them from transforming into crop-destroying 
        locusts.
  --Studying the impacts of the death of lodgepole pine forests due to 
        bark beetle infestations on the timing of snowmelt and water 
        quality.
  --Working to identify the pathway that leads to cells forming into an 
        individual body, information that could lead to improved cancer 
        treatments.
    BIO funds research in the foundational disciplines within biology. 
In addition to supporting our understanding of how organisms and 
ecosystems function, BIO supports interdisciplinary research at the 
frontiers of science.
    Equally important, BIO provides essential support for our Nation's 
place-based biological research, such as field stations and natural 
science collections. The Long-Term Ecological Research program supports 
fundamental ecological research over long time periods and large 
spatial scales, the results of which provide information necessary for 
the identification and resolution of environmental problems.
    The fiscal year 2015 budget request would sustain an effort to 
digitize high priority specimens in U.S. natural science collections. 
This investment is helping to drive new fields of inquiry and helping 
scientists and the public gain access to rare and irreplaceable 
biological specimens and associated data. These efforts are stimulating 
the development of new computer hardware and software, digitization 
technologies, and database management tools.
    The Dimensions of Biodiversity program supports cross-disciplinary 
research to describe and understand the scope and role of life on 
Earth. Despite centuries of discovery, most of our planet's biological 
diversity (species) is unknown. This lack of knowledge is particularly 
troubling given the rapid and permanent loss of global biodiversity. A 
better understanding of life on Earth will help us to make new bio-
based discoveries in the realms of food, fiber, fuel, pharmaceuticals, 
and bio-inspired innovation. It will also increase our understanding of 
life on Earth and how biological systems and functions respond to 
environmental changes.
    The Major Research Equipment and Facilities Construction account is 
funding the construction of the National Ecological Observatory Network 
(NEON). Once completed, NEON will provide the infrastructure necessary 
to collect data across the United States on the effects of climate 
change, land use change, water use, and invasive species on natural 
resources and biodiversity. This information will be valuable to 
scientists, resource managers, and government decision makers as they 
seek to better understand and manage natural systems.
                             stem education
    NSF plays a central role in science, technology, engineering, and 
mathematics (STEM) education. Support for the scientific training of 
undergraduate and graduate students is critically important to our 
research enterprise. Students recruited into science through NSF 
programs and research experiences are our next generation of innovators 
and educators. In short, NSF grants are essential to the Nation's goal 
of sustaining our global leadership in science, technology, engineering 
and mathematics, and reigniting our economic engines.
    NSF's education initiatives support STEM education innovation from 
elementary school through post-graduate. The Graduate Research 
Fellowship program is an important part of our national effort to 
recruit and retain the best and brightest STEM students. NSF proposes 
to increase both the number of new fellowships as well as the 
fellowship stipend in fiscal year 2015. The Faculty Early Career 
Development program (CAREER) supports young faculty who are dedicated 
to integrating research with teaching and learning.
    The administration once again proposes major changes to STEM 
education programs. Although the plans have been scaled back since the 
fiscal year 2014 budget request, we are concerned that implementation 
of these changes will proceed before the full details are known. Given 
the considerable consequences for student education and training, we 
hope that Congress will provide careful consideration of the potential 
impacts to our Nation's pipeline of researchers and STEM-skilled 
workers.
                               conclusion
    Continued investments in the biological sciences are critical. 
Sustained support for NSF will help spur economic growth and 
innovation, and continue to build scientific capacity at a time when 
our Nation is at risk of being outpaced by our global competitors. 
Please support an investment of at least $7.5 billion for NSF for 
fiscal year 2015.
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.
                                 ______
                                 
        Prepared Statement of the American Physiological Society
    The American Physiological Society (APS) thanks you for your 
sustained support of science at the National Science Foundation (NSF) 
and the National Aeronautics and Space Administration (NASA). The APS 
is a professional society, numbering more than 10,000 members, 
dedicated to fostering research and education as well as the 
dissemination of scientific knowledge concerning how the organs and 
systems of the body function. In this letter we offer our 
recommendations for fiscal year 2015 funding levels for these two 
agencies.
  --The APS urges you to fund the fiscal year 2015 NSF budget at a net 
        level of $7.6 billion to prevent further erosion of program 
        capacity.
  --The APS urges you to restore cuts to NASA's life sciences research 
        budgets and to increase funding for the Human Research Program.
    NSF and NASA support scientific research and technology development 
programs that are critical to the future technological excellence and 
economic stability of the United States. Federal investment in research 
is critically important because breakthroughs in basic and 
translational research are the foundation for new technologies that 
help patients, fuel our economy, and provide jobs.
         nsf funds outstanding research and education programs
    NSF provides support for approximately 20 percent of all federally 
funded basic science and is the major source of support for non-medical 
biology research, including integrative, comparative, and evolutionary 
biology, as well as interdisciplinary biological research. It has been 
shown time and time again that the knowledge gained through basic 
biological research is the foundation for more applied studies that 
sustain the health of animals, humans and ecosystems.
    The majority of the NSF funding is awarded through competitive, 
merit-based peer review, ensuring that the best possible projects are 
supported. Reviewers and NSF officials consider both the intellectual 
merit of each research proposal, and also the broader impacts. The 
broader impact criteria are defined as the potential for research to 
benefit society and achieve specific outcomes. NSF has an exemplary 
record of accomplishment in terms of funding research that produces 
results with far-reaching potential. Since its inception in 1950, NSF 
has supported the work of 212 Nobel laureates.
    Biological research is just one part of the NSF portfolio. The APS 
believes that each of the NSF directorates support research that is 
critical to NSF's mission ``to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense . . .'' \1\ Collaboration between scientific 
disciplines is increasingly recognized as the best and most efficient 
way to advance science. This will only be possible with strong support 
for all disciplines of research.
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov.
---------------------------------------------------------------------------
    In addition to funding innovative research in labs around the 
country, the NSF education programs foster the next generation of 
scientists. The APS is proud to have partnered with NSF in programs to 
provide training opportunities and career development activities to 
enhance the participation of underrepresented minorities in science. We 
believe that NSF is uniquely suited to foster science education 
programs of the highest quality, and we recommend that Congress 
continue to provide Federal funds for science education through the 
NSF.
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) to recommend that the NSF be funded at a level of $7.6 
billion in fiscal year 2015 so that it can support a sustainable 
research program that follows a funding trajectory reflecting the level 
authorized in the America COMPETES Act.\2\
---------------------------------------------------------------------------
    \2\ www.faseb.org/fundingreport.
---------------------------------------------------------------------------
     support for life sciences research should be increased at nasa
    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
International Space Station, which provides an environment for the 
conduct of experiments in space. The HRP at NASA conducts unique 
research and develops countermeasures with the goal of enabling safe 
and productive human space exploration.
    During prolonged space flight, the physiological changes that occur 
due to microgravity, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
debilitating conditions and reduced ability to perform tasks. APS 
scientists are actively engaged in research that explores the 
physiological basis of these problems with the goal of contributing to 
the identification of therapeutic targets and development of 
countermeasures. The knowledge gained from this research is not only 
relevant to humans traveling in space, but is also directly applicable 
to human health on Earth. For example, some of the muscle and bone 
changes observed in astronauts after prolonged space flight are similar 
to those seen in patients confined to bed rest during periods of 
critical illness as well as during the process of aging.
    NASA is the only agency whose mission addresses the biomedical 
challenges of human space exploration. Over the past several years, the 
amount of money available for conducting this kind of research at NASA 
has dwindled. The overall number of projects and investigators 
supported by NASA through the HRP, National Space Biomedical Research 
Institute and Exploration and Technology Development program has 
decreased markedly (https://taskbook.nasaprs.com/Publication/). In the 
past, appropriations legislation specified funding levels for 
biomedical research and gravitational biology, but recent internal 
reorganizations at NASA have made it difficult to understand how much 
money is being spent on these programs from year to year. The APS 
recommends that funding streams for these important fundamental 
research programs be clearly identified and tracked within the NASA 
budget. The APS also recommends restoration of cuts to peer-reviewed 
life sciences research.
    As highlighted above, investment in the basic sciences is critical 
to our Nation's technological and economic future. The APS urges you to 
make every effort to provide these agencies with increased funding for 
fiscal year 2015.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science Society with over 39,000 members, wishes to submit the 
following statement in support of increased funding for the National 
Science Foundation (NSF) in fiscal year 2015. The NSF is the only 
Federal agency that supports innovative basic research across all 
fields of science and engineering. For over six decades, the NSF has 
invested in basic research and education at the frontiers of science 
and engineering, including high risk and transformative research not 
supported by other funding sources. In fiscal year 2013, 81 percent of 
the NSF budget supported research and related activities at colleges, 
universities and academic consortia and NSF reviewed 49,000 grant 
proposals and made 10,844 new awards to 1,922 institutions in all 
states across the Nation.
    An estimated 299,000 people were directly involved in NSF programs 
and activities in fiscal year 2013. NSF programs indirectly impact 
millions (e.g., K-12 students and teachers, general public, 
institutions like museums). NSF grants supported eight of the 13 Nobel 
Prize 2013 winners at some point in their research careers. NSF has now 
funded 212 Nobel laureates since the agency began, 41 of whom also had 
been NSF Graduate Research Fellows. Since 1952, the agency has funded 
nearly 47,800 graduate research fellows.
    NSF support of multidisciplinary research and all levels of 
education is critical to improving the future of the Nation's science 
and engineering enterprise and our global competitive edge. NSF's 
National Science Board just released its latest biennial Science and 
Engineering Indicators report, a detailed analysis of the Nation's 
position in global science and technology. Since 2001, the share of the 
world's R&D performed in the United States has decreased from 37 
percent to 30 percent, while that performed by Asian countries grew 
from 25 percent to 34 percent. It is critical to increase the NSF 
budget to help reverse this worrisome trend.
                     nsf builds r&d infrastructure
    Through competitive grants, contracts and fellowships, NSF builds 
partnerships among industry, academia and other R&D stakeholders which 
expands the Nation's technical workforce. The NSF supports 
multidisciplinary research, cutting edge facilities, and initiatives 
and consortia. Examples are the National Big Data R&D Initiative 
launched in 2012 and NSF's Ecology and Evolution of Infectious Diseases 
Initiative (EEID). In fiscal year 2013, the NSF invested more than $17 
million in 60 multidisciplinary projects to employ new computational 
analyses essential to data driven STEM breakthroughs. The effort was 
part of over $75 million spent in fiscal year 2013 to advance software, 
networking, data sciences and workforce training to support all STEM 
disciplines, via NSF's Cyberinfrastructure Framework for 21st Century 
Science and Engineering.
    Funding from NSF builds local R&D infrastructures through the long 
standing Experimental Program to Stimulate Competitive Research 
(EPSCoR) program. In mid-2013, four newly funded projects were in the 
EPSCoR portfolio: (1) a New England consortium focused on pathogenic 
bacteria in coastal regions, their environmental and economic impacts 
and decisionmaking through human interactions with natural systems; (2) 
a three State study of high elevation water resources, to create better 
computer models related to water quality; (3) a joint project in North 
and South Dakota to develop processing methods for converting biomass 
into renewable energy resources; and (4) a three State collaboration in 
New England placing a network of environmental sensors in each State, 
to collect data on carbon and nutrients in watersheds over time.
    NSF partnerships with academia are vital to energizing the U.S. 
workforce in science, technology, engineering and mathematics (STEM). 
The NSF responds to wide spread concerns about future workforce 
shortages across STEM disciplines. An example of NSF's STEM education 
strategy are five STEM projects funded last September involving 
multiple institutions in five States, to increase STEM participation of 
women and girls, underrepresented minorities and underserved rural 
areas. The nearly $4 million in EPSCoR grants will pilot new methods 
among students from middle school to early career levels.
    Another example is the diverse 2013 class of NSF Graduate Research 
Fellows, 2,000 young researchers from 434 U.S. baccalaureate 
institutions, including 1,102 women, 390 from underrepresented minority 
groups, 51 with disabilities and 28 veterans. Forty percent indicated 
interdisciplinary fields of study. In mid-2013, NSF announced the first 
53 recipients of the new Graduate Research Opportunities Worldwide 
(GROW) program, partnering with 12 countries to place NSF research 
fellows in institutions abroad.
    NSF also collaborates with the private sector to boost R&D 
entrepreneurs in the United States, in part through the competitive 
Small Business Innovation Research (SBIR)/Small Business Technology 
Transfer program. In October, under an agreement between NSF and the 
Biotechnology Industry Organization, 10 NSF funded early stage biotech 
companies presented at the 12th annual BIO Investor Forum to begin 
raising funds in the private sector. The startups focus on drug 
discovery, diagnostics and other platform technologies.
                  nsf supported microbiology research
    Within NSF, the Directorate for Biological Sciences (BIO) sustains 
a research portfolio encompassing the wide breadth of biology from 
molecules to ecosystems and the global biosphere. BIO divisions include 
those focused on environmental biology, systems biology or molecular 
biology. The Emerging Frontiers Division invests in higher risk, 
interdisciplinary activities that show promise of generating productive 
innovations. BIO also supports R&D infrastructures like the National 
Ecological Observatory Network (NEON), biological field stations and 
computerized databases that include DNA sequences of microorganisms. In 
fiscal year 2013, the directorate was able to fund 21 percent of the 
5,937 grant proposals submitted by researchers. Research reported in 
the past year illustrates the diversity of BIO's funding:
  --Bacterial DNA is more likely to be naturally transferred to human 
        tumor cells than to normal, healthy cells, suggesting a role 
        for bacterial gene transfer in cancer and other diseases 
        associated with mutations. Scientists had already shown that 
        bacteria can transfer DNA to animal genomes through previous 
        genomic sequencing studies.
  --For the first time, the banded mongoose in Botswana was identified 
        as carrying Leptospira interrogans, the bacterial cause of 
        leptospirosis, which is the world's most common illness 
        transmitted to humans by animals.
  --Scientific analysis of the 2011 record breaking algae bloom in Lake 
        Erie blamed a ``perfect storm'' of weather events and 
        agricultural practices, predicting more huge blooms in the 
        future.
  --An unusual soil bacterium is being used in modeling and simulations 
        by computational biologists to study how individual cells might 
        have evolved into more complicated configurations. Myxococcus 
        xanthus organizes itself into multicellular, three dimensional 
        structures made up of thousands of cells to hunt other microbes 
        and survive in harsh conditions.
  --The redwoods of California are being threatened by the combined 
        effects of forest fires and sudden oak death disease, linked in 
        2000 to the plant pathogen Phytophthora ramorum. Flames carried 
        into the tree canopy by the dead oaks scorch the crowns of 
        surrounding redwoods.
    Last August, BIO funded U.S. and United Kingdom scientists in four 
projects that could revolutionize farming methods: (1) to design a 
synthetic biological module that will ``fix'' nitrogen inside plant 
cells, by reengineering nitrogen fixing bacteria to build an N-fixing 
unit that can be transferred; (2) to rediscover a bacterium found only 
once (in the 1990s in a German charcoal pit) that contains a unique 
enzyme allowing nitrogen fixing in oxygen rich environments normally 
inhibitory to nitrogen fixing bacteria; (3) to genetically alter 
nitrogen fixing bacteria and a grass species similar to more complex 
cereals such as maize, to ensure a lock and key interaction between 
plant and microbe and maximize the amount of usable nitrogen delivered 
to the plant; and (4) to optimize practical applications of nitrogen 
fixing blue green algae and genetically engineer plant cells to fix 
atmospheric nitrogen directly.
    The NSF Directorate for Geosciences (GEO) also funds microbiology 
research through studies of Earth's environment and the myriad roles 
played by microorganisms. In January, the directorate awarded grants to 
four new critical zone observatories, which join six existing CZOs to 
study the zone where Earth's surface meets the atmosphere and living 
organisms. The CZOs are the first research network to holistically 
investigate this zone, so important to water quality, food supplies, 
soil health and carbon storage.
    Both GEO and BIO contribute to NSF's Ecology and Evolution of 
Infectious Diseases program jointly sponsored with the National 
Institutes of Health. EEID supports the study of ecological and 
biological mechanisms of environmental change that shape emergence and 
transmission of infectious diseases. Projects help understand how large 
scale events like habitat destruction can alter microbial diseases in 
humans and other animals. In 2013, new EEID grant recipients included 
studies on foot and mouth disease virus, honeybee killing parasites, 
impacts of livestock production practices on emerging drug resistant 
staphylococci bacteria and transmission of Tasmanian devil facial tumor 
disease. Effects of climate change on the spread of infectious disease 
is another EEID focus area, generating reports last year that model 
disease outcomes based on climate variables to guide public health 
officials. In February, researchers reported field studies showing that 
environmental temperatures significantly influence whether or not 
Wolbachia bacteria will block the malaria pathogen from developing 
within carrier mosquitoes. The Wolbachia malaria interaction is 
considered a promising new tool for controlling malaria. Other EEID 
funded studies are investigating West Nile virus, Lyme disease and 
hantavirus in the context of climate change and other environmental 
factors.
    There is no doubt that NSF contributes to the Nation's scientific 
strength and economic growth. The ASM urges Congress to increase 
funding for NSF in fiscal year 2015 to the highest level possible. The 
ASM also looks forward to continued future investment of NSF resources 
in programs related to microbiology since microbes are at the 
foundation of scientific discovery and other activities that are at the 
core of the NSF mission.
                                 ______
                                 
   Prepared Statement of the American Society of Agronomy, the Crop 
  Science Society of America, and the Soil Science Society of America
    Dear Chairwoman Senator Mikulski, Ranking Member Senator Shelby and 
members of the subcommittee: The American Society of Agronomy (ASA), 
the Crop Science Society of America (CSSA), and the Soil Science 
Society of America (SSSA) urge the subcommittee to support $7.5 billion 
for the National Science Foundation for the fiscal year 2015.
    This funding level will put the premier Government-funding agency 
for scientific research back on track to address to continue valuable 
projects that promote transformational and multidisciplinary research, 
provide needed scientific infrastructure, and contribute to preparing 
the next generation science, technology, engineering, and mathematics 
workforce.
    Specifically, we urge strong support for the following NSF 
programs:
        Within the Biological Sciences Directorate,
      -- Division of Environmental Biology (DEB), which supports the 
            Long Term Ecological Research (LTER) program.
      -- Division of Integrative Organismal Systems (IOS), which 
            supports the Plant Genome Research Program and the Basic 
            Research to Enable Agricultural Development (BREAD) 
            program.
        Within the Geological Sciences Directorate,
      -- Division of Earth Sciences (EAR), which supports the 
            Geobiology & Low-Temperature Geochemistry Program and 
            Critical Zone Observatories.
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA), represent 
over 18,000 members in academia, industry, and government, 12,500 
Certified Crop Advisers (CCA), and 781 Certified Professional Soil 
Scientist (CPSS), as the largest coalition of professionals dedicated 
to the agronomic, crop and soil science disciplines in the United 
States. We are dedicated to utilizing science to manage our 
agricultural system and sustainably produce food, fuel, feed, and fiber 
for a rapidly growing global population in the coming decades.
    Agriculture and agriculture-related industries contributed $742.6 
billion to the U.S. gross domestic product (GDP) in 2011, a 4.8-percent 
share. In 2012, 16.5 million full- and part-time jobs were related to 
agriculture--about 9.2 percent of total U.S. employment. However, even 
though increased agricultural productivity, arising from innovation and 
changes in technology, is the main contributor to economic growth in 
U.S. agriculture not all people at all times have to access to enough 
food for an active and healthy life. The global number of food-insecure 
people is estimated at 707 million in 2013, up 3 million from 2012. By 
2023, the number of food-insecure people is projected to increase 
nearly 23 percent to 868 million, slightly faster than population 
growth. The Nation's economic prosperity and security depend on our 
dedication to developing innovative, science-based solutions to meet 
our growing agricultural needs and managing efficient food systems.
                    biological sciences directorate
Division Environmental Biology (DEB)
    DEB emphasizes research on complex ecological and evolutionary 
dynamics to improve our ability to understand the reciprocal 
interactions between living systems and the environment, and inform 
essential considerations of environmental sustainability.
    The Long Term Ecological Research (LTER) Network was created by the 
National Science Foundation (NSF) to conduct research on ecological 
issues that can last decades and span huge geographical areas. For more 
than three decades, the Network has generated rigorous, site-based 
scientific research that has led to important findings on regional and 
continental scales.
    Among the major goals of long-term ecological research is to 
increase our understanding of a wide array of ecosystems at multiple 
geographical and time scales, giving society the knowledge and 
capability to address complex environmental challenges. Key research 
findings by LTER scientists provide valuable information for Federal 
agencies, land managers, and decision makers who want to develop 
responsible policies to deal with a rapidly changing world.
Integrative Organismal Systems (IOS)
    In order to meet increasing demands and develop more robust crops, 
additional fundamental understanding regarding the basic biology of 
these crops is needed.
    IOS maintains its commitment to support fundamental plant genome 
research through the Plant Genome Research Program (PGRP).
    PGRP supports genome-scale research to accelerate basic discoveries 
of relevance to basic plant biology as well as downstream applications 
of potential societal benefit such as crop improvement, development of 
new sources of bio-based energy, development of sources of novel bio-
based materials, and plant adaptation to global climate change.
    In addition, the Developing Country Collaborations in Plant Genome 
Research program links U.S. researchers with partners from developing 
countries to solve problems of mutual interest in agriculture and 
energy and the environment.
    The PGRP's Basic Research to Enable Agricultural Development 
(BREAD) Program supports basic research on early-concept approaches and 
technologies for science-based solutions to problems of agriculture in 
developing countries.
                    geological sciences directorate
Earth Sciences (EAR)
    The Earth Sciences division supports the Surface Earth Processes 
section, which researches geomorphology and land use, hydrologic 
science, geobiology, geochemistry (particularly the Geobiology and Low-
Temperature Geochemistry Program), and sedimentary geology and 
paleobiology--all crucial to the areas of agronomy, soil, and crops.
    In addition, EAR supports EarthScope which focuses on studying the 
structure and tectonics of the North American continent and an 
Instrumentation and Facilities program that supports community-based, 
shared-use facilities, as well as an education program to attract and 
support students and young investigators to the field of Earth science.
    ASA, CSSA, and SSSA also support strong funding for the Critical 
Zone Observatories that operate at the watershed scale and 
significantly advance our understanding of the integration and coupling 
of Earth surface processes as mediated by the presence and flux of 
fresh water.
    We must close the innovation deficit if the United States is to 
remain the world's innovation leader in agriculture. China continues to 
exhibit the world's most dramatic R&D growth at 20.7 percent annually, 
compared to the United States at 4.4 percent growth over the same time 
period. By 2009, agriculture R&D fell to a historically low 0.035 
percent share of the United States economy, a level far below the total 
U.S. R&D spending and that which is necessary to meet the critical 
challenges facing U.S. agriculture in the 21st century.
    Support for NSF is essential to maintain the capacity of the United 
States to conduct both basic and applied agricultural research, to 
improve crop and livestock quality, and to deliver safe and nutritious 
food products while protecting and enhancing the Nation's environment 
and natural resource base.
    Thank you for your consideration. For additional information or to 
learn more about the ASA, CSSA, and SSSA, please visit 
www.agronomy.org, www.crops.org, or www.soils.org.
                                 ______
                                 
Prepared Statement of the American Geophysical Union--Joint Response to 
                            NOAA Budget Bill
Senator Barbara Mikulski,
Chair, Subcommittee on Commerce, Justice, Science, and Related 
        Agencies,
U.S. Senate Committee on Appropriations,
142 Dirksen Senate Office Building,
Washington, DC 20510.

Senator Richard Shelby,
Ranking Member, Subcommittee on Commerce, Justice, Science, and Related 
        Agencies,
U.S. Senate Committee on Appropriations,
125 Hart Senate Office Building,
Washington, DC 20510.

Re: Support funding for the National Oceanic and Atmospheric 
Administration at or above the President's fiscal year 2015 request of 
$5.5 billion.

    Dear Chairwoman Mikulski and Ranking Member Shelby: We write on 
behalf of millions of Americans who are strongly supportive of robust 
funding and smart investment in NOAA's ocean, coastal, and fisheries 
programs. We strongly support funding for the National Oceanic and 
Atmospheric Administration at or above the President's Request of $5.5 
billion in fiscal year 2015. In addition, we support balanced 
investments across NOAA's dual atmospheric and oceanic missions--
Americans shouldn't have to choose between weather satellites and ocean 
and coastal resources that support and protect our coastal economies 
and communities. We simply need both.
    NOAA's mission to protect, restore and manage our ocean, coasts and 
Great Lakes is vitally important not only to sustain these resources 
but also to sustain our coastal economies. The National Ocean Economics 
Program has estimated that the U.S. ocean and coastal economy 
contributes more than $282 billion annually to the Nation's GDP through 
fisheries and seafood production, tourism, recreation, transportation, 
and construction. Additionally, over 2.8 million jobs in the U.S. 
depend on the ocean and coasts. Adequate funding for NOAA is critically 
important to support a healthy and resilient ocean that can continue to 
strengthen our coastal economies and communities.
    Resilience has emerged as the critical goal that unites all of 
NOAA's ocean and coastal programs. Man-made and natural ocean and 
coastal disasters over the last several years, from Department of 
Commerce declared fisheries disasters to the BP Deepwater Horizon oil 
disaster, remind us of the connection between the health of our ocean 
and coasts and the well-being of our coastal communities and economy. 
Resilience means more than just storm-ready; truly resilient 
communities are prepared to face changing ocean conditions, from 
acidification to sea level rise, changing economic conditions, from 
recession to emerging ocean uses, as well as major catastrophes, from 
Superstorm Sandy to marine debris clogging waterways. Investing in 
NOAA's programs will ensure we can respond to and mitigate the impacts 
and costs of future disasters by creating healthy and more resilient 
coastal ecosystems and communities.
    For example:
  --Coastal wetland buffer zones in the U.S. are estimated to provide 
        $23.2 billion per year in storm protection and a single acre of 
        wetland can store 1 to 1.5 million gallons of flood water or 
        storm surge.
  --Healthy fisheries are needed to support an industry of more than 
        60,000 jobs and $6.6 billion in GDP. Information provided by 
        core data collection, catch monitoring and stock assessment 
        programs within the NMFS is critical to ending overfishing.
  --Ocean and coastal observations and monitoring supports severe storm 
        tracking and weather forecasting systems, which greatly reduce 
        the cost of natural disaster preparation, evacuation, and 
        mitigation.
    The President's Request seeks modest increases in ocean, coastal, 
and fishery programs, and we support these increases as an important 
step towards robust funding for NOAA's ocean mission. In fiscal year 
2014, NOAA has finally been put back on a path towards robust and 
sustainable funding, the first step in bouncing back from significant 
cuts to critical programs from fiscal year 2011 to fiscal year 2013. 
Underfunding NOAA simply is not sustainable, we urge Congress to 
recognize the importance of our ocean, coasts, and Great Lakes by fully 
funding NOAA programs at or above $5.5 billion in fiscal year 2015.
    Signed,
                       organizations & businesses
Advanced Aqua Dynamics, Inc.
Alliance for the Great Lakes
American Geophysical Union
American Rivers
Center for Biological Diversity
Center for Coastal Studies
Chesapeake Communities
Citizens Campaign for the Environment
Coastal Conservation League
Coastal Research & Education Society of Long Island
Coastal States Organization
Conservation Law Foundation
Consortium for Ocean Leadership
Earthjustice
Environmental Defense Fund
Green/Duwamish & Central Puget Sound Watershed (Watershed Resource 
Inventory Area 9) Ecosystem Forum
Hawaii Institute of Marine Biology
International Federation of Fly Fishers
IOOS Association
Long Live the Kings
Management Association for Private Photogrammetric Surveyors (MAPPS)
Marine Conservation Institute
National Audubon Society
National Estuarine Research Reserve Association
National Marine Sanctuary Foundation
National Society of Professional Surveyors (NSPS)
Natural Resources Defense Council
Nature Abounds
The Nature Conservancy
Ocean Conservancy
Ocean Conservation Research
The Ocean Project
Oceana
Operation Splash
Project AWARE
Puget Sound Partnership
Puget Sound Salmon Recovery Council
Reef Relief
Restore America's Estuaries
Rhode Island Marine Trades Association
Save Our Shores
Save Our Wild Salmon Coalition
Scripps Institution of Oceanography
Sierra Club
Southeast Coastal Ocean Observing Regional Association (SECOORA)
Surfrider Foundation
                              individuals
Carleton Ray, Research Professor, Dept. Environmental Sciences, 
University of Virginia
Dawn J. Wright, Chief Scientist, Esri, Redlands, California
Dr. Alina M. Szmant, Professor of Marine Biology, Center for Marine 
Science, University of North Carolina, Wilmington
Dr. Rozalind Jester, Marine Science Faculty, Edison State College, Fort 
Myers, Florida
Elizabeth Rhodes, Professor of Hispanic Studies, Boston College
Harald Duell, Larchmont, New York
Jennifer I. Barrett, Owner, Island Connect Consulting, LLC, Founder, 
Hawaii Nature Hui, Honolulu, Hawaii
Jerry McCormick-Ray, Senior Scientist, Dept. Environmental Sciences, 
University of Virginia
John C. Ogden, Professor Emeritus, Integrative Biology, University of 
South Florida
Jonathan Milne, M.Sc, Atlantic and Midwest Region Program Manager, 
LightHawk, Sidney, Maine
Leesa Cobb, Executive Director, Port Orford Ocean Resource Team, Port 
Orford, Oregon
Michael Krivor, Maritime Project Manager, SEARCH--SEARCH2O, Pensacola, 
Florida
Mitchell A. Roffer, Ph.D., President, Roffer's Ocean Fishing 
Forecasting Service, Inc., West Melbourne, Florida
Sarah Towne, NOAA Fisheries West Coast Region and University of 
Washington Masters Candidate (School of Marine and Environmental 
Affairs)
Will McClintock, Ph.D., SeaSketch Director, Marine Science Institute, 
University of California Santa Barbara
Y. Peter Sheng, Ph.D., Professor and Director, Coastal and 
Oceanographic Engineering Program, University of Florida
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Chairman Mikulski, Ranking Member Shelby, and distinguished members 
of the subcommittee, thank you for accepting our testimony in support 
of fiscal year 2015 funding for activities under the Office of Justice 
Programs (OJP) and the office of Community Oriented Policing Services 
(COPS) of the U.S. Department of Justice (DOJ). We ask that no further 
cuts be made in appropriations for these programs and that, to the 
extent possible, funding be restored so that they are better able to 
serve their missions.
    As noted on its Web site: ``The Office of Justice Programs (OJP) 
provides innovative leadership to Federal, State, local, and tribal 
justice systems, by disseminating state-of-the art knowledge and 
practices across America, and providing grants for the implementation 
of these crime fighting strategies. . . . OJP works in partnership with 
the justice community to identify the most pressing crime-related 
challenges confronting the justice system and to provide information, 
training, coordination, and innovative strategies and approaches for 
addressing these challenges.''
    Elsewhere, the COPS website defines community policing as ``a 
philosophy that promotes organizational strategies that support the 
systematic use of partnerships and problem-solving techniques to 
proactively address the immediate conditions that give rise to public 
safety issues such as crime, social disorder, and fear of crime.'' 
There is an emphasis on training and technical assistance; creative, 
innovative, and experimental community policing strategies; and best 
practices, among others efforts.
    Nothing is more creative, innovative, or proactive, nor more open 
to dynamic partnerships, than addressing community safety through 
training, technical assistance, partnerships, and development of 
problem-solving strategies designed to improve the prevention, 
investigation, and prosecution of animal cruelty. Unfortunately, 
reduced funding has impaired the ability of these programs to meet the 
demand for training and assistance in this area.
    Animal cruelty is both a crime (with all 50 States now recognizing 
certain acts as felonies) and a manifestation of social disorder. The 
connection between animal abuse and other forms of violence has been 
firmly established through both experience and science. ``Animal 
abusers are five times more likely to commit crimes against people, 
four times more likely to commit property crimes, and three times more 
likely to have a record for drug or disorderly conduct offenses.'' \1\
---------------------------------------------------------------------------
    \1\ Thompson, Daria, ``The Link Between Animal Abuse and Other 
Violent Behavior,'' in Deputy and Court Officer, 2013 Number 3, p.4.
---------------------------------------------------------------------------
    One ``gold standard'' study \2\ has identified animal abuse as one 
of four significant predicators for who is likely to become a batterer. 
Criminals and troubled youth have high rates of animal cruelty during 
their childhoods, perpetrators were often victims of child abuse 
themselves,\3\ and animal abusers often move on to other crimes.
---------------------------------------------------------------------------
    \2\ Walton-Moss, Benita, Jacquelyn Campbell, et al, ``Risk Factors 
for Intimate partner Violence and Associated Injury Among Urban 
Women,'' Journal of Community Health, vol. 30, No. 5, October 2005.
    \3\ ``Woman's Best Friend: Pet Abuse and the Role of Companion 
Animals in the Lives of Battered Women,'' by Flynn (2000), as cited at 
www.ncadv.org.
---------------------------------------------------------------------------
    Another research project, which is being overseen by an FBI special 
agent, involves ``analyzing the criminal histories of offenders who 
were arrested for active animal cruelty, in order to further examine 
the potential link between animal cruelty and violence against 
persons.'' According to an initial analysis published in a dissertation 
(Leavitt, 2011), the majority of the 66 offenders examined so far ``had 
prior arrests for other crimes,'' including interpersonal violence (59 
percent), assault (39 percent), and assault of a spouse or intimate 
partner (38 percent); 17 percent had a history of sexual offenses. The 
publication of final results is expected by the end of the year.
    All of this experience combined with the growing body of research 
makes a compelling case that addressing animal cruelty is a significant 
tool for enhancing public safety. For example, the Los Angeles Police 
Department's Animal Cruelty Task Force attributes an increase in 
citizen-provided videos documenting animal cruelty to ``a deep concern 
for public safety.'' A press release (January 15, 2014) states that 
``[w]itnesses come to the realization that anyone that would commit 
such horrific acts of violence on defenseless animals could also do the 
same to humans.''
    Nowhere is this clearer than in the well-documented relationship 
between animal cruelty and domestic violence, child abuse, and elder 
abuse. Up to 71 percent of victims entering domestic violence shelters 
have reported that their abusers threatened, injured, or killed the 
family pet; batterers do this to control, intimidate, and retaliate 
against their victims; they may be trying to coerce them into allowing 
sexual abuse or to force them into silence about abuse.\4\ This poses a 
significant public safety and public health problem. In one study, 48 
percent of women responding reported they had delayed leaving an 
abusive situation out of fear for their pets. (Faver and Strand, 2003) 
Twenty-six States (this tally includes the District of Columbia and 
Puerto Rico) now specifically allow the inclusion of companion animals 
in domestic violence restraining orders.
---------------------------------------------------------------------------
    \4\ The study ``I'll only help you if you have two legs,'' or Why 
human services professional should pay attention to cases involving 
cruelty to animals, by Loar (1999), as cited on the website of the 
National Coalition Against Domestic Violence (www.ncadv.org).
---------------------------------------------------------------------------
    Another connection that is all too common, and all too dangerous, 
exists among animal fighting, gangs, drugs, illegal guns, and other 
offenses. The Animal Legal and Historical Center at the Michigan State 
University College of Law describes dogfighting in these stark terms: 
``The notion that dogfighting is simply an animal welfare issue is 
clearly erroneous. Until the past decade, few law enforcement officials 
or government agencies understood the scope or gravity of dogfighting. 
As these departments have become more educated about the epidemic of 
dogfighting and its nexus with gang activity, drug distribution rings, 
and gambling networks, many have implemented well designed, 
sophisticated task forces. The magnitude of criminal activity 
concurrently taking place at the average dogfight is of such a scope as 
to warrant the involvement of a wide range of agencies, including 
local, regional, and Federal law enforcement agencies and their 
specialized divisions such as organized crime units, SWAT teams, and 
vice squads, as well as animal control agencies and child protective 
services.''
    Animal fighting is barbaric and is a violent crime in the truest 
sense of the term. It causes immense suffering to countless numbers of 
innocent animals and its presence threatens the safety of the entire 
community. It is illegal under both State and Federal law, so it well 
serves the entire community for law enforcement to have the most 
powerful tools possible to eradicate it. In fact, as part of the new 
farm bill, Congress has added to these tools by closing a significant 
loophole in the law by making knowingly attending an animal fight 
punishable by fines and jail time and also making it a separate 
offense, with higher penalties, to knowingly bring a minor to such an 
event. This is a significant new tool. Animal fighting is fueled not 
just by those who train and fight the animals and finance the fights, 
but also by spectators. Spectators are not innocent bystanders; they 
are active participants in and enablers of these criminal enterprises--
and they also provide ``cover'' during raids by allowing the 
organizers, trainers, etc., to ``blend into the crowd'' to escape 
arrest.
    There is a need to respond proactively to animal cruelty at the 
very earliest signs and earliest ages, before it becomes a larger 
public safety issue. ``A study conducted over a 10 year period found 
that children between the ages of 6-12 years old who were described as 
being cruel to animals were more than twice as likely as other children 
in the study to be reported to juvenile authorities for a violent 
offense.'' \5\
---------------------------------------------------------------------------
    \5\ Thompson, Ibid., p.4.
---------------------------------------------------------------------------
    The U.S. Department of Justice should be commended for taking note 
of these developments in what is commonly called ``the link,'' and then 
taking steps to respond. OJP showed great vision in recognizing that by 
identifying precursor crimes, such as animal cruelty and animal 
fighting, and ensuring proper adjudication of such cases, our criminal 
justice system can reduce the incidence of family and community 
violence and change the path of potential future violent offenders.
    DOJ has given weight to the need to address animal cruelty crimes 
as part of an overall strategy for curbing community violence by 
funding programs that deal with this crime and by weaving the 
recognition of that connection into its own policies and operations. 
For instance, in 2009, what would become the Animal Cruelty Working 
Group had its first meeting. Then-Assistant Attorney General Laurie 
Robinson was aware of, and wanted to bring staff together to discuss, 
the link between animal abuse and interpersonal violence (IPV). She 
``wanted to make sure [they] were using the evidence on animal cruelty 
to inform how OJP programs were designed and implemented.''
    It is especially noteworthy that DOJ, et al, included witnessing 
animal cruelty on their Polyvictimization/Trauma Symptom Checklist, 
which was developed to ``allow lawyers and other advocates to focus on 
important information about (juvenile) clients' past victimization 
history and help advocates better identify and advocate for appropriate 
placements, disposition plans, trial strategies, services, and 
treatment.'' \6\ This recognizes the impact that witnessing or being 
forced to participate in animal abuse has on children and its 
relationship to later involvement with the criminal justice system. In 
fact, some States have even enacted or are considering provisions that 
enhance the penalty for animal cruelty when it is committed in front of 
a child.
---------------------------------------------------------------------------
    \6\ The Checklist is part of a tool (The Polyvictimization and 
Trauma Identification Checklist and Resource) developed by The 
SafeStart Center (a project of the U.S. Department of Justice's Office 
of Juvenile Justice and Delinquency Programs), the American Bar 
Association's Center on Children and the Law, and Child & Family Policy 
Associates. http://www.safestartcenter.org/pdf/Resource-
Guide_Polyvictim.pdf.
---------------------------------------------------------------------------
    In 2013, DOJ hosted a ``listening session'' on the topic of ``the 
intersection between animal cruelty and public safety'' among its own 
staff and judges, prosecutors, forensic scientists, and representatives 
from law enforcement, animal protection, domestic violence, child 
welfare, and veterinary organizations. At that meeting, which Associate 
Attorney-General Tony West attended, then-Acting Assistant Attorney-
General Mary Lou Leary said, ``The topic of animal cruelty may seem 
unimportant in the face of events like the Boston bombing, school 
shootings, and other recent tragedies, but we know there's a history of 
animal cruelty in the backgrounds of many perpetrators of violent acts. 
Understanding this link between animal cruelty and interpersonal 
violence is critical to the Department.''
    That the Department takes this seriously is evident. However, cuts 
in the OJP and COPS programs are hampering their ability to be the 
catalyst for innovative responses to animal cruelty and ``the link'' as 
envisioned in their missions and in the Department's commitment to this 
issue. Prosecutors and other members of the law enforcement community 
are eager for new thinking and better tools for dealing with animal 
cruelty crimes in their communities. Funding is needed for training, 
technical assistance, communication and coordination, and dissemination 
of best practices.
    We hope that Congress will take this important public safety need 
into consideration when determining funding for programs under BJA and 
COPS. Enabling DOJ to support initiatives addressing animal cruelty and 
its relationship to other crimes sends a very strong message to 
prosecutors, law enforcement, and, most importantly, the community at 
large, that crimes involving animals are to be taken seriously and 
pursued vigorously.
                                 ______
                                 
      Prepared Statement of Associated Universities, Incorporated
    This written testimony is submitted on behalf of Associated 
Universities, Incorporated (AUI) to ask you to continue your support of 
the National Science Foundation (NSF) in fiscal year 2015 by providing 
NSF with $7.5 billion. In particular, we urge you to provide strong 
support for the NSF Division of Astronomical Sciences and the National 
Radio Astronomy Observatory (NRAO).
    My name is Ethan Schreier, President of AUI, a non-profit 
corporation that operates the National Radio Astronomy Observatory 
under a Cooperative Agreement with the National Science Foundation. 
NRAO is a federally Funded Research and Development Center (FFRDC) that 
enables forefront research into the Universe at radio wavelengths. 
Radio astronomy has opened new vistas into the Universe, uncovering the 
birthplaces of stars and planets, super-massive black holes, 
gravitational waves and the remnant heat of the Big Bang.
    I would like to emphasize how much AUI appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the NSF and its support for science and engineering in enabling 
a strong U.S. economy, workforce, and society.
    Today, I submit this testimony to ask you to continue your support 
of NSF in fiscal year 2015 and beyond.
    NSF funds basic research that spurs innovation and discovery in all 
fields of science and engineering. As a part of this work, NSF provides 
unique Federal support for ground-based astronomy that is answering 
fundamental questions about our Universe. These questions include how 
the Universe began, how cosmic structures form and evolve, whether 
habitable worlds exist around other stars, and what organic materials 
exist in space as the building blocks of life.
    I join with the research and higher education community and request 
that you provide NSF with $7.5 billion overall. I ask that you allocate 
an additional $245 million above the budget request to Research and 
Related Activities (RRA), and within RRA, we encourage you to provide a 
proportional increase to the Division of Astronomical Sciences to $249 
million.
    NSF provides critical funding to support astronomy facilities and 
the researchers in the United States that use them to answer these 
questions. In particular, NRAO currently operates four world-leading 
telescopes funded by NSF for use by the scientific community: the 
Jansky Very Large Array (VLA) in New Mexico, the most productive, 
ground-based telescope in history; the Robert C. Byrd Green Bank 
Telescope (GBT) in West Virginia, the world's largest, fully-steerable 
telescope; the Very Long Baseline Array (VLBA), the world's largest 
scientific instrument with 10 dishes spanning North America that enable 
the most precise angular measurements of any telescope; and the new 
international Atacama Large Millimeter/submillimeter Array (ALMA), the 
largest ground-based astronomy project ever conceived and built, for 
which AUI is the North American lead, overseeing NRAO's construction 
and operations for the North American science community. Each of these 
telescopes fills a unique and essential science role, and each is the 
best in the world in its category. NRAO's Headquarters, and the focus 
of its radio technology development, is in Virginia.
    Certain physical phenomena are only observable by their radio 
signals. Just as visible light from space carries information about 
stars and the astronomical objects that are illuminated by them, radio 
waves are emitted by important celestial phenomena that are often 
invisible to our eyes, even with the best optical telescopes. For 
example, stars form from collapsing cold clouds of molecules and dust 
that are too cold and obscured to be observed by any other technique. 
The earliest stages of star formation, one of the most basic processes 
of astrophysics, are invisible even to the Hubble Space Telescope or 
the future James Webb Space Telescope and can only be studied using the 
techniques of radio astronomy. Radio astronomy also offers cost-
effective methods to complement other techniques. For example, radio 
astronomers are using accurate timing of pulsars--fast-spinning, highly 
dense, collapsed (neutron) stars--to search for the gravitational waves 
predicted by Einstein's Theory of General Relativity. This technique, 
which uses NRAO's Green Bank Telescope among other facilities, is a 
complement to the Laser Interferometer Gravitational Wave Observatory 
(LIGO) and other gravitational wave detectors.
    NRAO facilities provide transformational and unique scientific 
capabilities that enable the astronomy community to answer many 
fundamental questions about the Universe including those highlighted by 
the recent National Academy's Decadal Survey, New Worlds New Horizons, 
studying galaxies as they form and grow since the earliest times of the 
Universe, directly imaging planets in formation around nearby stars, 
and directly detecting gravitational waves from the merging of massive 
black holes.
    We ask that you continue the fiscal year 2014 level for NRAO 
operations to support ongoing activities at U.S. NRAO facilities. 
Support for these facilities will sustain groundbreaking research 
capabilities as well as our very active science, technology, 
engineering, and mathematics (STEM) education and public outreach 
programs. We additionally hope you will support the President's budget 
request for the ALMA project, now nearing completion of construction, 
at $40.17 million for fiscal year 2015. This represents a $5.9 million 
increase to the AST budget as the ALMA project ramps up to full 
operations.
    AUI also supports the important NSF initiative to fund midscale 
research infrastructure at $29 million, an increase of $8.25 million 
above the fiscal year 2014 enacted level. These funds would support 
scientific instrumentation that facilitate student training, bridging 
the gap between small laboratory-scale instrumentation and large multi-
user facilities . This midscale program request would implement a 
priority identified by the National Academy's most recent decadal 
survey of astronomy and astrophysics.
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of astronomers, to undertake activities 
that contribute to the health, security, and economic strength of the 
U.S. NSF needs sustained annual funding to maintain our competitive 
edge in science and technology, and therefore we respectfully ask that 
you continue robust support of these critical programs in fiscal year 
2015. I appreciate the opportunity to provide testimony to the 
Committee on behalf of AUI. I am happy to provide any additional 
information or assistance you may ask of us during the fiscal year 2015 
appropriations process.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
  Universities' (APLU) Board on Oceans, Atmosphere, and Climate (BOAC)
    On behalf of the Association of Public and Land-grant Universities' 
Board on Oceans, Atmosphere, and Climate (BOAC), we thank you for the 
opportunity to provide recommendations for the proposed fiscal year 
2015 budgets for the National Oceanic and Atmospheric Administration 
(NOAA), the National Aeronautic and Space Administration (NASA), and 
the National Science Foundation (NSF). BOAC represents over 300 
scientists and administrators at APLU's 235 member universities and 
systems. We support a budget of $5.6 billion for NOAA, $80 million for 
the NOAA's National Sea Grant College Program, $5.25 billion for NASA's 
Science Directorate and $7.5 billion for NSF.
    According to the National Climatic Data Center (NCDC), between 1980 
and 2013, there were 151 weather/climate disasters that each exceeded 
$1 billion in damages. Combined they totaled $1 trillion in losses. The 
Federal Government spent nearly $140 billion on disasters in 2012 
alone. Additionally, the role of the Federal Government in covering 
many of these losses has grown tremendously over the last few decades. 
Erwann Michel-Kerwann, chairman of the OECD's Board on Financial 
Management of Catastrophes, noted that in 1989, Federal relief covered 
only 23 percent of total damage whereas Federal relief covered 69 
percent of Hurricane Ike in 2008 and 75 percent of Hurricane Sandy in 
2012.
    To decrease future Federal expenditures and to make the Nation more 
prepared for natural disasters, Federal agencies are working with 
communities across the Nation to enhance their resilience. Community 
resilience is a measure of the ability of a community to prepare for, 
respond to, and fully bounce back from a variety of crises. Through 
research, Federal science agencies can play a valuable role in helping 
communities strengthen their resilience.
    In 2005, the National Science and Technology Council's Subcommittee 
on Disaster Reduction provided a framework for sustained Federal 
investment in science and technology related to disaster reduction, 
regardless of the type of disaster. They call for:
  --Providing hazard and disaster information where and when it is 
        needed.
  --Understanding the natural processes that produce hazards.
  --Developing hazard mitigation strategies and technologies.
  --Recognizing and reduce vulnerability of interdependent critical 
        infrastructure.
  --Assessing disaster resilience using standard methods.
  --Promoting risk-wise behavior.
    All of these actions require research, whether it be for the basics 
of understanding how and when natural processes become hazardous or for 
modeling potential flooding or for the social science to enhance 
communications, trust and understanding within communities to promote 
``risk-wise'' behavior.
    Below we comment on the needs of each agency and their 
collaborating science communities in making our Nation more resilient:
                                  noaa
    NOAA conducts research into natural processes and provides 
information on when natural processes may be hazardous. To create 
resiliency for the Nation, researchers and forecasters need increased 
and sustained support of satellite and in situ environmental observing 
systems. As reported in several prior and recent National Research 
Council studies, (Observing Weather and Climate from the Ground Up, a 
Nationwide Network of Networks, NRC, 2009), the needs are particularly 
acute for urbanized areas as well as mountain, ocean and coastal 
regions.
    While we recommend sustained support for NOAA's satellite programs, 
we point out that this support should not be at the expense of NOAA's 
extramural funding of research, education and outreach. Extramural 
funding is cost effective. Its highly competitive nature ensures up-to-
date qualifications and cutting-edge approaches without the continuing 
costs of developing, maintaining and updating these skills in house. It 
provides essential training in research skills to provide the next 
generation of researchers. In 2004 the NOAA Science Advisory Board's 
Research Review Team report concluded:
    ``. . . Extramural research is critical to accomplishing NOAA's 
mission. NOAA benefits from extramural research in many ways, 
including: access to world class expertise not found in NOAA 
laboratories; connectivity with planning and conduct of global science; 
means to leverage external funding sources; facilitate multi-
institution cooperation; access to vast and unique research facilities; 
and access to graduate and undergraduate students. Academic scientists 
also benefit from working with NOAA, in part by learning to make their 
research more directly relevant to management and policy. It is an 
important two-way street . . . NOAA cannot accomplish its goals without 
the extramural community, specifically the universities and 
institutions that represent the broad range of expertise and resources 
across the physical, biological, and social sciences (emphasis added). 
Moreover, there is the important issue of maintaining a scientific and 
technologically competent workforce in NOAA and the workforce is 
another ``product'' of the extramural research community . . . Also it 
is important that during difficult budget periods that NOAA not 
disproportionately target the extramural research for budget cuts.''
    Sustained observations are vitally important to ensure coastal 
communities have the information necessary to increase overall 
resiliency. NOAA's Sustained Ocean Observations and Monitoring program 
funds global observing programs, including globally deployed floats, 
drifters, and fixed moorings to provide information essential for 
accurate forecasting of hurricanes, typhoons, atmospheric rivers and 
associated flooding, heat waves, and wildfires. Data and analyses of 
ocean and atmospheric conditions are increasingly used for drought 
early warning systems, enhanced tsunami warning systems, and storm 
surge monitoring. Ocean observations are also imperative for 
calibrating and validating satellite observations. Maintaining baseline 
ocean observations in support of weather and regional climate 
predictions, fisheries management and ecosystem studies, tide and 
current monitoring, and sea level change is essential. Maintaining 
continuity of long-term data sets is essential to ensure communities 
are able to respond and adapt to today's changing world.
    NOAA's support of environmental research and education via programs 
such as the Oceanic and Atmospheric Research's Sea Grant and the Office 
of Ocean Exploration and Research programs are also critical to 
university research, education and outreach. Similarly, NOAA's role in 
understanding the oceans and coastal areas and oceanic resources 
through the National Centers for Coastal Ocean Science support and help 
maintain sustainable coastal economies.
    In particular, we would like to point out the important role of the 
National Sea Grant College Program in increasing the resilience of the 
Nation's coastal communities. Sea Grant personnel excel at working with 
local communities to address their specific needs and prepare them for 
potential hazards. For example, Virginia Sea Grant provided training to 
emergency managers and weather service meteorologists in Rstofs, a 
flood forecasting system used extensively by the National Weather 
Service and emergency managers. In 2011, that training paid off when 
decision-makers, using this training, made a timely evacuation call of 
200,000 residents during Hurricane Irene. Similarly, Virginia Sea Grant 
sponsored the development and dissemination of real-time tide 
monitoring technology (TideWatch). With information from TideWatch, 
marinas were able to properly prepare for the drastic tidal changes 
produced by storms Ida (2009) and Irene (2011) and avoid the damages 
they accrued during similar, earlier storm events. For the reasons 
listed above, we support funding of the National Sea Grant College 
Program at $80 million.
    Another critical pillar of NOAA's extramural research enterprise in 
atmospheric and ocean science, climate, weather, and marine ecosystems 
are its 16 Cooperative Institutes, involving 42 leading research 
universities and non-profit independent institutions located in 23 
States and the District of Columbia. Established through open 
solicitations, competitive Cooperative Institute (CI) partnerships 
provide NOAA direct access to key innovations at the Nation's primary 
institutions of science, social-learning, and research development. 
Recent Cooperative Institute research has focused on forecasting energy 
demand scenarios, seasonal wildfires, and large storm events; assessing 
local impacts of projected sea-level rise; improving seasonal 
precipitation and drought predictions; and understanding atmospheric 
rivers and other causes of extreme flooding. This research is 
translated into information used by private businesses and public 
sector mangers at all levels of government. CI program are 
predominantly funded by the Office of Oceanic and Atmospheric Research 
(OAR), through its ``Laboratories and Cooperative Institutes'' line, 
but are also administered and/or funded by other NOAA line offices 
including the National Marine Fisheries Service (NMFS) and the NOAA's 
Satellite and Information Service (NESDIS).
    In addition, OAR's Regional Climate Data and Information line funds 
the Regional Integrated Sciences and Assessments (RISA) program, the 
National Integrated Drought Information System (NIDIS), and associated 
programs. The RISA program supports research teams in over 30 States--
each affiliated with one or many universities--as they work with public 
and private user communities to build the Nation's capacity to prepare 
for and adapt to environmental variability and change. NIDIS provides 
dynamic and easily accessible drought information for the Nation.
                                  nasa
    Like NOAA, NASA is critical to community resilience, both for 
developing an understanding of the Earth and how it functions as well 
as collection of the data scientists use to help aid decision-makers.
    In 2007, the National Academies issued the report, ``Earth and 
Science Applications from Space: National Imperatives for the Next 
Decade and Beyond.'' The report found that between 2000 and 2009 
funding for Earth Sciences (ES) had fallen substantially. ES research 
is absolutely critical to understanding climate change, such as the 
decline of Earth's ice sheets and the health of the global oceans. Past 
investments in NASA's science mission have funded university research 
that has resulted in the development of new instruments and 
technologies and in valuable advances in weather forecasting, climate 
projections and understanding of Earth ecosystems.
    NASA is instrumental in deploying satellites used by NOAA and in 
cooperating with other countries. Furthermore, without the tools 
developed at NASA, oceanic, atmospheric, hydrologic and Earth-system 
scientists and the Nation would have only a fragmentary picture of the 
interconnected functioning of the planet's oceans, atmosphere and land. 
NASA plays a role in technology transfer from NOAA by testing new 
sensors. NASA is currently developing a sensor that will for the first 
time give scientists and resource planners a global picture of the 
world's terrestrial water supplies. Currently many lakes and rivers are 
not monitored and there is no centralized location for water resource 
information. The NASA data archive is an irreplaceable collection of 
environmental information that researchers depend upon. Furthermore, 
through its support for young scientists and graduate students, the 
NASA science mission supports innovation.
    Finally, we support funding NASA to develop and implement a 
scatterometer mission with fast community access to those data, 
capability to distinguish between wind and rain and a higher orbit for 
coverage of Alaskan waters. The scatterometer has been a critical 
component of hurricane prediction.
                                  nsf
    Understanding natural processes and how or when they become 
hazardous is critical to forecasting those hazards. This requires basic 
research, which is why BOAC supports funding of NSF. NSF supplies 
almost two-thirds of all Federal funding for university-based, 
fundamental research in the geosciences. GEO-supported research 
increases our ability to understand, forecast, respond to and prepare 
for environmental events and changes. NSF's Water Sustainability and 
Climate program addresses the pressing challenge of providing adequate 
water quantity and quality in light of both burgeoning human needs and 
increasing climate variability and change. Through facilities such as 
the Oceans Observatory Initiative, the Integrated Ocean Drilling 
Program, and NCAR-Wyoming supercomputer, NSF provides the academic 
community with advanced capabilities that it would not be able to 
afford if conducted through individual institutions. It does so without 
growing the needs for increased personnel, training and retooling in 
house at Federal laboratories and while training the next generation.
                                summary
    Together, NOAA, NASA, and NSF provide critical Earth observations 
and research funding for scientists, engineers and mathematicians 
working to increase understanding of natural phenomena of economic and 
human significance. BOAC thanks the Committee for its continued support 
of these critical agencies.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
                                  noaa
    Thank you Chairwoman Mikulski and Ranking Member Shelby for 
allowing me to submit testimony on behalf of the Nation's 213 U.S. 
accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of at least $3.981 million for the John H. 
Prescott Marine Mammal Rescue Assistance Grant Program, $2,500,000 for 
the NOAA Ocean Education Grants Program, and $12,000,000 for the Bay, 
Watershed, Education and Training Program in the fiscal year 2015 
Commerce, Justice, Science, and Related Agencies appropriations bill. 
Additionally, I urge you to reject any proposal that eliminate valuable 
ocean education programs as part of a plan to restructure Federal 
Science, Technology, Engineering, and Math (STEM) programs.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
182 million visitors, collectively generate more than $21 billion in 
annual economic activity, and support more than 204,000 jobs across the 
country. Over the last 5 years, AZA-accredited institutions supported 
more than 4,000 field conservation and research projects with 
$160,000,000 annually in more than 100 countries. In the last 10 years, 
accredited zoos and aquariums formally trained more than 400,000 
teachers, supporting science curricula with effective teaching 
materials and hands-on opportunities. School field trips annually 
connect more than 12,000,000 students with the natural world.
    During the past 20 years AZA-accredited zoos and aquariums have 
rescued and rehabilitated more than 1,800 marine animals including 
stranded dolphins, whales, sea lions, seals, sea otters, sea turtles, 
and manatees. More than 1,750 (97 percent) of these animals have been 
successfully released back into their natural habitat. While the 
Nations' accredited zoos and aquariums support wildlife rehabilitation 
through their ongoing animal rescue programs, these institutions are 
sometimes involved in addressing natural and manmade disasters such as 
the 2010 Deepwater Horizon Gulf oil spill. For example, following the 
oil spill, accredited zoos and aquariums around the country offered 
assistance by pledging the services of 200 animal care professionals 
and donating supplies, vehicles, and other resources to assist in the 
wildlife rescue efforts.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
provides grants or cooperative agreements to eligible stranding network 
participants for the recovery and treatment (i.e., rehabilitation) of 
stranded marine mammals; data collection from living or dead stranded 
marine mammals; and, facility upgrades, operation costs, and staffing 
needs directly related to the recovery and treatment of stranded marine 
mammals and collection of data from living or dead stranded marine 
mammals. Eligible applicants are currently active, authorized 
participants, including AZA-accredited zoos and aquariums, or 
researchers in the National Marine Mammal Stranding Network.
    Without the Prescott grant program, NOAA would have to rely on 
private organizations as it coordinates the response to marine mammals 
in distress; determines disease, injury and potential cause(s) of 
death; and supports emergency response for marine mammals during oil 
spills, outbreaks of diseases, and unusual mortality events. Network 
partners may not have the funds or the ability to respond to some 
stranding events, leaving animals at risk for prolonged exposure and 
likely death. Without funding for this program the critical ability to 
monitor marine mammal health trends, collect scientific data, and 
perform analysis would also be diminished. Information about the causes 
of marine mammal strandings is useful to the public because marine 
mammals can serve as an indicator of ocean health, giving insight into 
larger environmental issues that also have implications for human 
health and welfare.
    At the same time that AZA-accredited zoos and aquariums are working 
with Federal partners to conserve ocean wildlife, they also are 
providing essential learning opportunities, particularly about science, 
for schoolchildren in formal and informal settings. Increasing access 
to formal and informal science education opportunities has never been 
more important. Studies have shown that American schoolchildren are 
lagging behind their international peers in certain subjects including 
science and math.
    The NOAA Ocean Education Grants Program and Bay, Watershed, 
Education and Training Program bring students closer to science by 
providing them with the opportunity to learn firsthand about our 
world's marine resources. Through these grant programs, aquariums work 
closely with Federal, State, and local partners on projects with long-
lasting benefits not only for the students but their communities as 
well. For example, previous projects funded by NOAA Ocean Education 
Grants at AZA aquariums have focused on establishing a regional network 
of summer camp programs grounded in ocean science, enhancing teen 
conservation leadership programs, and conserving and managing coastal 
and marine resources to meet our Nation's economic, social and 
environmental needs. As schools face increased budgetary pressures, 
these types of education programs at aquariums will become even more 
important in ensuring that American schoolchildren receive the 
necessary foundation in science education that they will need to be 
competitive in the 21st century global economy.
    AZA-accredited zoos and aquariums are essential partners at the 
Federal, State, and local levels to improve education for 
schoolchildren and ensure that current and future generations will be 
good stewards of the world's oceans. Therefore, I urge you to include 
at least $3.981 million for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, $2,500,000 for the NOAA Ocean Education 
Grants Program, and $12,000,000 for the Bay, Watershed, Education and 
Training Program in the fiscal year 2015 Commerce, Justice, Science, 
and Related Agencies appropriations bill.
    Thank you.
                                 ______
                                 
  Prepared Statement of Nathan M. Bacheler, Fisheries Biologist, NOAA/
                   National Marine Fisheries Service
    Dear Members of the Senate Subcommittee on Commerce, Justice and 
Science, and Related Agencies: Acting as a private citizen on my own 
time, I would like to submit testimony for the record to strongly urge 
the subcommittee to reject the proposal in the President's fiscal year 
2015 budget to close the National Oceanic and Atmospheric 
Administration (NOAA) laboratory in Beaufort, North Carolina, and to 
instead fund this facility so that the crucial work being done there 
can continue on into the future. This laboratory is uniquely located to 
address key marine science issues throughout the east coast of the 
U.S., and its loss would represent a devastating blow to the fisheries 
interests in the region. The decision to try and close the Beaufort 
facility represents a narrow-minded approach to a temporary funding 
concern that is dwarfed in comparison by the potential damage done to 
the research conducted on the marine resources in the southeast.
    The closure of the Beaufort lab would be a grave error because of 
the loss of high-quality science and scientists associated with the 
facility. Located at the intersection of two distinct marine 
environments, the NOAA laboratory in Beaufort is uniquely situated to 
study one of the most diverse ecosystems in the country. The lab is an 
international leader in studies of harmful algal blooms (HABs) and the 
invasion of lionfish into the waters of the Atlantic Ocean, both of 
which are currently having a significant impact on the fisheries 
resources of the United States. The National Marine Fisheries Service 
(NMFS) programs at the lab are responsible for the assessment of the 
major marine fisheries stocks in the southeast, including menhaden (the 
largest fishery along the Atlantic coast as well as in the Gulf of 
Mexico) and the commercially and recreationally important snapper and 
grouper fisheries. NMFS in Beaufort also provides the only up-to-date 
information on the currently-closed red snapper fishery along the 
southeast coast through its SouthEast Fishery-Independent Survey. All 
of these programs would suffer irreparable damage were the lab to close 
because NOAA would be unlikely to retain the world-class scientists 
performing this research in the event their Federal positions were 
transferred to other NOAA facilities in the southeast; the NOAA lab is 
part of a unique conglomeration of research facilities in the Beaufort 
area, and the majority of employees would very likely try and remain in 
the area at a different institution rather than relocate to a less 
desirable location. Thus, NOAA (and NMFS in particular) would be forced 
to rebuild these programs from scratch, programs that are required to 
meet congressional mandates laid out in the Magnuson-Stevens Fishery 
Conservation and Management Act. Just as importantly for NMFS, the 
closure of the Beaufort facility would mean that the Fisheries Service 
would not have a presence along the coast between Sandy Hook, New 
Jersey and Miami, Florida--an extent that covers over two-thirds of the 
United States east coast. It is difficult for the agency to claim they 
are interested in conserving the marine resources of the southeast with 
such a large spatial gap in representation, especially compared to five 
NMFS research facilities in the Gulf of Mexico and another five in the 
northeast.
    The financial reasons given by the leadership of the National Ocean 
Service (NOS) for closing the Beaufort facility have been 
misrepresented and overblown. In their justification for closing the 
lab, NOS cited only the NOS employees that would be impacted, grossly 
underestimating the total number of workers at the site. In addition to 
NOS, the lab also houses National Marine Fisheries Service (NMFS) and 
National Estuarine Research Reserve System (NERRS) programs; between 
the three groups there are 108 Federal, State, and contract employees 
at the facility, a much larger disruption of staff than initially 
claimed. Additionally, NOS cited a cost of future maintenance repairs 
to the facility that was outdated and did not take into account recent 
work that has been done to upgrade the laboratory and its 
infrastructure. Since 2006, approximately $14 million in repairs and 
upgrades have been accomplished, including the replacement of multiple 
buildings. The closure of this facility, after so much has been 
invested in its improvement in recent years, seems like a clear waste 
of taxpayer money, especially given that a 2014 report showed that the 
facility is structurally sound.
    In summary, the closing of the NOAA facility in Beaufort is bad 
policy--it is a squandering of taxpayer funds, it is a major detriment 
to the science being conducted in the southeast, and it makes it more 
difficult for NMFS to maintain the quality of the work it is federally 
mandated to achieve. The laboratory in Beaufort has been operating 
continually since 1899 and was sited here specifically because of its 
advantageous position so close to so many of our Nation's valuable 
marine resources; Congress owes it to our country to make sure the 
high-quality work done here continues on for the next 115 years.
                                 ______
                                 
         Prepared Statement of George Boehlert, Redmond, Oregon
    To whom it may concern,
    I am writing concerning the proposed closure of the National 
Oceanic and Atmospheric Administration (NOAA) laboratory in Beaufort, 
North Carolina. I believe that closing this facility entirely is a 
mistake and have some recommendations for the subcommittee to consider.
    First, I will provide some background on my credentials to comment. 
Although I retired in 2012, I have worked with a variety of National 
Marine Fisheries Service (NMFS) laboratories during my career, and have 
served as director of two. As a graduate student, I conducted my 
research at the NMFS Southwest Fisheries Science Center in La Jolla, 
California from 1972-77. I conducted postdoctoral research at the 
Northwest and Alaska Fisheries Science Center in Seattle from 1977-78. 
In academic positions from 1978-1983 at the College of William and Mary 
and at Oregon State University, I collaborated with NOAA/NMFS 
scientists at several labs, including the Beaufort Laboratory. In 1983 
I took a position as division director at the NMFS Honolulu Laboratory, 
and served as director there in 1988-1993, and moved to Monterey, 
California in 1993 as director of the NMFS Pacific Fisheries 
Environmental Group. I left there in 2002 to return to Oregon, where I 
served as Professor and Director at Oregon State University's Hatfield 
Marine Science Center in Newport--a facility co-located with three 
different regional NOAA activities. I have served on external review 
panels of several NOAA labs and am highly familiar with the mission of 
the different organizations.
    From my own perspective, the Beaufort Laboratory has a long history 
that has served NOAA and the central Atlantic Seaboard with 
distinction. As a relatively small lab for several decades, it 
addressed key issues of the National Marine Fisheries Service's 
mission, including fisheries management (menhaden, groundfish species, 
estuarine species), fundamental fisheries ecology, protected species 
(particularly sea turtles), and fisheries habitat (including toxic 
algal blooms). It conducted these tasks with distinction, with an 
enviable publication record as well as a record of solving fundamental 
fisheries problems in the region. I am familiar with these earlier 
endeavors, not only because I collaborated with scientists there, but 
also because I served as an external reviewer of some of their programs 
in the early to mid 1990s on behalf of the National Research Council. 
Beaufort was a perfect example of the value of the smaller regional 
laboratories, meeting the mission of the larger NMFS and NOAA within 
the context of the Southeast Fisheries Science Center while 
collaborating with and augmenting regional State resource agencies.
    Problems with smaller regional labs often arise when political or 
personal forces work to give them greater autonomy and higher budgets. 
In my opinion, this is the case with the Beaufort Laboratory and has 
played a role in making it a weaker laboratory. Roughly 10 years ago, 
NOAA decided to put the Beaufort Laboratory under a different line 
office--the National Ocean Service (NOS), expanding the mission 
significantly but keeping many NMFS employees on site. The broader 
mission requires more funds, more scientists with more expertise, more 
buildings, and an expanded budget. While the mission was more diverse, 
it was also more vague and perhaps less focused on the particular 
regional needs. I am not sure why a decision to close the laboratory 
was made this year, but it may be related to the loss of focus in 
mission and thus to questions about the value of the organization.
    Finally, I do have some recommendations for the subcommittee. 
Rather than taking a meat axe approach and closing this laboratory 
entirely, I believe that an external review of the Beaufort 
Laboratory's mission and function is needed. Direction should be given 
for this review that will address key issues, including the following:
  --Critical regional needs within NOAA's mission that can be addressed 
        best by a regional lab as opposed to larger facilities located 
        in different regions. This should have significant input from 
        the regional coastal States and their resource agencies;
  --Organizational structure of the laboratory within NOAA--given the 
        critical needs identified above; for example, determining 
        whether NOS is the right place, or if NMFS a better match for 
        the regional needs; and
  --Staff size, budgets, and physical facilities required to meet these 
        needs.
    Armed with the output of such a review, a values-based decision can 
be made that is beneficial to both NOAA and the regional States; it may 
well involve significant cuts and a smaller laboratory, but will be 
based on an appropriate and well-thought out approach. I continue to 
believe that small regional labs with a clear focus, embedded within 
the larger NOAA and line office structure, are of extremely high value.
    Thank you for the opportunity to comment.
                                 ______
                                 
          Prepared Statement of the Brennan Center for Justice
    Chairman Mikulski, Ranking Member Shelby, and distinguished members 
of the Senate Appropriations Subcommittee on Commerce, Justice and 
Science, thank you for the opportunity to submit written testimony 
before the committee to discuss fiscal year 2015 budget priorities. The 
testimony is offered to the subcommittee for use during its 
consideration of Department of Justice criminal justice funding.
    The Brennan Center for Justice at New York University School of Law 
\1\ is a nonpartisan law and policy institute that seeks to improve the 
national systems of democracy and justice. The Brennan Center for 
Justice was created in 1995 by the clerks and family of the late 
Supreme Court Justice William J. Brennan, Jr. to improve our systems of 
justice and democracy. The Justice Program at the Brennan Center is 
dedicated to ensuring a rational, effective, and fair justice system. 
Our priority initiative is to reduce mass incarceration by reducing the 
criminal justice system's current size and severity; while still 
protecting public safety.
---------------------------------------------------------------------------
    \1\ This letter does not represent the opinions of NYU School of 
Law.
---------------------------------------------------------------------------
    The Department of Justice (DOJ) administers dozens of criminal 
justice grants, which total over $1 billion each year. In 2012, the 
Community Oriented Policing Services and Violence Against Women Act 
grants received more than $1.45 billion. Most notably, the Edward J. 
Byrne Memorial Justice Assistance Grant (Byrne JAG), the largest 
nationwide criminal justice grant program administered by DOJ, receives 
between $300 million to $500 million each year. It retains an enormous 
influence on criminal justice policies and priorities. JAG dollars 
reach across the entire criminal justice system. They reach all States, 
territories, and thousands of localities, mainly flowing to law 
enforcement. These funds support local police departments, drug courts, 
prosecutor and public defender offices, courts, and more. While 
important, the structure was created more than 30 years ago, based on 
criteria and priorities at a time of rising and seemingly out of 
control crime. Decades after its inception, the criminal justice system 
that JAG dollars were created to support has spiraled into one that now 
supports the world's largest population of incarcerated people and all 
of the inherent problems that come with this distinction.
    It is time for a change. A better approach, termed ``Success-
Oriented Funding'' would use the power of the purse to steer the 
criminal justice system toward the twin goals of reducing crime and 
reducing mass incarceration--goals research shows are not in conflict. 
The Brennan Center for Justice recently published a report highlighting 
a way to align fiscal and policy priorities.\2\ Grounded in economic 
principles and built on discrete models in other policy areas, Success 
Oriented Funding ties Government dollars as closely as possible to 
whether agencies or programs meet specific, measureable goals. These 
goals would drive toward what policymakers and researchers increasingly 
see as a new, modern, and more effective justice system. The model 
imports private sector business principles and applies it to public 
dollars.
---------------------------------------------------------------------------
    \2\ Chettiar, Inimai; Eisen, Lauren-Brooke, Fortier, Nicole; 
Reforming Funding to Reduce Mass Incarceration, Brennan Center for 
Justice, Nov. 2013. https://www.brennancenter.org/sites/
default/files/publications/REFORM_FUND_MASS_INCARC_web_0.pdf.
---------------------------------------------------------------------------
    Economic theory indicates that actors provided with clear positive 
rewards will usually alter their behavior to match these incentives. 
Former Chairman of President George W. Bush's Council of Economic 
Advisors and Harvard University Professor N. Gregory Mankiw articulates 
this fundamental tenet in ``Principles of Economics''--one of the most 
widely-used introductory economics textbooks. He defines the discipline 
in this way: ``People respond to incentives. The rest is commentary.'' 
\3\ By setting clear goals for success or failure of government 
agencies and programs, Success-Oriented Funding would fund ``success,'' 
achieving results-driven government. This cost-effective framework 
ensures that the government is getting a good return on its investment. 
Broad goals for funding recipients include reducing recidivism and 
crime, or reducing unnecessary prison sentences and incarceration. 
Grant-specific goals would vary depending on the agency or program 
funded. For example, grants for police could focus on reducing violent 
crime or diverting drug addicted arrestees to treatment.
---------------------------------------------------------------------------
    \3\ N.Gregory Mankiw, Principles of Economics 7 (6th ed. 2012) 
(quoting Steven E. Landsburg, The Armchair Economist 3 (2012)).
---------------------------------------------------------------------------
    Illinois has seen great success with its investment and support of 
the Adult Redeploy Illinois program, which diverts non-violent 
offenders from prison into more effective community-based services. 
Adult Redeploy Illinois provides financial incentives to local 
jurisdictions that design evidence-based services to supervise and 
treat non-violent offenders in the community instead of sending them to 
State prisons. Since 2011, Adult Redeploy Illinois sites have diverted 
more than 1,000 non-violent offenders. These sites spent an average of 
$4,400 per program participant, compared to the annual per capita 
incarceration cost of $21,500 in State fiscal year 2011. This 
represents more than $18.5 million in potential corrections savings.\4\ 
By investing in programs like Adult Redeploy Illinois, Congress can 
make inroads in achieving better taxpayer accountability while using 
funding to improve criminal justice outcomes.
---------------------------------------------------------------------------
    \4\ http://www.icjia.org/public/redeploy/pdf/articles/
Adult_Redeploy_Illinois_media_
stories_011714.pdf.
---------------------------------------------------------------------------
    Last month, President Obama introduced his fiscal year 2015 budget 
proposal for the Department of Justice, which requests $27.4 billion 
for the Justice Department, of which $173 million is set aside for 
targeted investments for criminal justice reform efforts. The budget 
also calls for an investment of $173 million to support the Attorney 
General's Smart on Crime initiative, which is intended to promote 
fundamental reforms to the criminal justice system that will ensure the 
fair enforcement of Federal laws, improve public safety, and reduce 
recidivism by successfully preparing inmates for their re-entry into 
society.
    The President's budget provides a needed boost to the types of 
competitive, evidence-based grant programs that make better use of 
taxpayer dollars. His budget also improves the Byrne JAG program, by 
calling for an additional $45 million to be funded through competitive 
grants that are conditioned on potential Byrne JAG program recipients 
making a good case for how they will use the money. The budget also 
creates a $15 million incentive grant program, essentially bonus money 
for which States and localities can compete.
    By increasing funding for competitive, evidence-based programs, the 
administration is communicating its desire to move away from blindly 
funding legacy programs without strong records of success, and towards 
modern programs that work at reducing crime and incarceration and 
improving public safety.
    The Brennan Center supports these efforts because they move 
budgeting and funding toward Success-Oriented Funding by holding 
recipients of Federal dollars accountable for their spending choices by 
implementing direct links between funding and proven results. This 
allows Congress to ensure the criminal justice system is producing 
results while not increasing unintended social costs. Success-Oriented 
funding principals improve the use of taxpayer money, promote 
accountability and reduce government waste.
    Restructuring the way taxpayer dollars are sent to law enforcement 
and other criminal justice agencies nationwide can do a great deal to 
modernize our outdated criminal justice system. Funding these incentive 
based grants would mark an important shift in how the Federal 
Government spends dollars on criminal justice. Because these dollars 
travel across the country, changing incentives for these grants can 
create change that reverberates nationwide.
    We encourage you to fully fund the Byrne Incentive grant program, 
the Byrne Innovation grant program, and the Byrne Competitive grant 
program.

Respectfully submitted,

Danyelle Solomon
Policy Counsel, Washington Office
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3b7f5a55425e57575e15685457545654557b55424e155e5f4e">[email&#160;protected]</a>

Brennan Center for Justice at
NYU School of Law
1730 M Street, NW 4th floor, Suite 413
Washington, DC 20036
(202) 249-7190

Lauren-Brooke Eisen
Counsel, Justice Program
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="18747a7d716b7d765876616d367d7c6d">[email&#160;protected]</a>
                                 ______
                                 
           Prepared Statement on the Bureau of Prisons Budget
                   organizations submitting testimony
AFL-CIO
American Civil Liberties Union
American Gateways
American Immigration Lawyers Association
Americans for Immigrant Justice
Asian Americans Advancing Justice-Chicago
Asian Americans Advancing Justice-Los Angeles
Black Alliance for Just Immigration (BAJI)
Coalicion de Derechos Humanos
Coalition for Humane Immigrant Rights of Los Angeles
Conference of Major Superiors of Men
Detention Watch Network
DRUM--South Asian Organizing Center
Enlace
Families for Freedom
Friends Committee on National Legislation
Georgia Detention Watch
Grassroots Leadership
Human Rights Defense Center
Illinois Coalition for Immigrant and Refugee Rights
In The Public Interest
International CURE
Justice Policy Institute
Justice Strategies
Maryknoll Office for Global Concerns
National Advocacy Center of the Sisters of the Good Shepherd
National African American Drug Policy Coalition, Inc.
National Center for Transgender Equality
National Immigrant Justice Center
National Immigration Forum
National Immigration Law Center
National Immigration Project of the NLG
New Sanctuary Coalition
Picture Projects/360degrees.org
Presbyterian Church (U.S.A.)
Private Corrections Institute
Private Corrections Working Group
Reformed Church of Highland Park (New Jersey)
Sisters of Mercy of the Americas--Institute Justice Team
Southern Center for Human Rights
Texas Civil Rights Project
The Sentencing Project
Transgender Law Center
United Methodist Church, General Board of Church and Society
Wilco Justice Alliance (Williamson County, TX)
                         testimony addressed to

 
 
 
The Honorable Barbara Mikulski,     The Honorable Richard C. Shelby,
  Chair                              Ranking
                                      Member
The Honorable Patrick J. Leahy      The Honorable Mitch McConnell
The Honorable Dianne Feinstein      The Honorable Lamar Alexander
The Honorable Jack Reed             The Honorable Susan Collins
The Honorable Mark Pryor            The Honorable Lisa Murkowski
The Honorable Mary L. Landrieu      The Honorable Lindsey Graham
The Honorable Jeanne Shaheen        The Honorable Mark Kirk
The Honorable Jeff Merkley          The Honorable John Boozman
The Honorable Chris Coons
 


Subcommittee on Commerce, Justice, Science,
  and Related Agencies
Senate Committee on Appropriations
SD-142, Dirksen Senate Office Building
Washington, DC 20515

Re: Do not appropriate funds for additional private prison contract 
beds in the Bureau of Prisons budget

    Dear Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee: We, the undersigned organizations working to ensure civil 
liberties and human rights in our communities, urge that you do not 
appropriate funding for any additional Bureau of Prison ``Criminal 
Alien Requirement'' (CAR) contract confinement beds beyond those that 
now exist.
    CAR prisons use taxpayer funds to incarcerate non-violent, ``low 
security'' Federal immigrant prisoners, primarily prosecuted for 
immigration violations through the highly controversial program, 
``Operation Streamline'' and related prosecution programs. These 
facilities are substandard, privately-owned, privately-operated 
segregated immigrant prisons. For the reasons set forth below, we call 
upon you to redirect funding from the wasteful prosecution and 
incarceration of low-level immigration violations and focus resources 
instead on correctional programs that will better prepare Federal 
prisoners for constructive lives when they are released from 
confinement.
    The increasing incarceration of immigrants is the direct result of 
a prosecution program known as ``Operation Streamline'' and the sharp 
increase in felony prosecutions for border crossing. Nearly 90,000 
people were convicted in Federal courts during fiscal year 2013 for 
crossing the border.\1\ Prior to ``Operation Streamline,'' which 
launched in 2005, the majority of immigrants apprehended after entering 
the United States without documentation were processed in the civil 
immigration system. Now, these migrants are charged with one of two 
Federal crimes--(1) unlawful entry to the U.S. (8 U.S.C. Sec. 1325), 
usually prosecuted as a misdemeanor with defendants facing a sentence 
of up to 180 days; or (2) unlawful re-entry after deportation (8 U.S.C. 
Sec. 1326), a felony charge carrying a Federal prison sentence of up to 
20 years.
---------------------------------------------------------------------------
    \1\ Transactional Records Access Clearinghouse, Syracuse 
University, ``Immigration Convictions for 2013,'' available at http://
tracfed.syr.edu/.
---------------------------------------------------------------------------
    Once sentenced for Sec. 1326 violations, immigrants are typically 
segregated from other Federal prisoners and sent to CAR facilities, 
dedicated private prisons for non-citizen immigrants in BOP custody, to 
serve their time. Unlike Federal prisons operated directly by the BOP, 
CAR prisons are operated under contract with multi-billion dollar for-
profit prison companies, including Corrections Corporation of America 
(CCA) and the GEO Group. Also unlike BOP facilities, CAR facilities are 
governed by policies that BOP and its private prison contractors often 
withhold from the public as ``trade secrets'' instead of open and 
transparent to the public. CAR facilities are often located in remote 
parts of the country, where prisoners are far from lawyers, courts, 
advocates and family members. Finally, unlike the BOP, the corporations 
that operate CAR prisons have an incentive to ensure the immigrant 
prisoner population continues to increase, because every prison bed 
with a body in it means higher profits.\2\
---------------------------------------------------------------------------
    \2\ Justice Strategies, ``Privately Operated Federal Prisons for 
Immigrants: Expensive, Unsafe, Unnecessary,'' September, 2012, 
available at http://www.justicestrategies.org/publications/2012/
privately-operated-Federal-prisons-immigrants-expensive-unsafe-
unnecessary.
---------------------------------------------------------------------------
    Both Federal prosecutions for border crossing and CAR prisons are 
enormously expensive to maintain at a time when budgets are tight and 
Federal dollars are sparse. The Federal Government spent an estimated 
$5.5 billion incarcerating border-crossers in the Federal prison system 
between 2005 and 2012, and the primary beneficiary of this massive cash 
flow is the private prison industry.\3\ Even as the American economy 
has faltered and businesses across the country have been forced into 
bankruptcy, the private prison industry is booming. Three companies--
GEO Group, Corrections Corporation of America (CCA), and the Management 
Training Corporation (MTC)--monopolize Federal prison contracting. CAR 
contracts are very lucrative. The CAR contract issued to house up to 
3,000 prisoners at the infamous Willacy County Processing Center, the 
``Tent City'' located in Raymondville, Texas, was valued at 
$532,318,723 over 10 years.\4\ MTC won the contract.
---------------------------------------------------------------------------
    \3\ Grassroots Leadership, ``Operation Streamline: Costs and 
Consequences,'' September 2012, available at http://
grassrootsleadership.org/sites/default/files/uploads/
GRL_Sept2012_Report-final.pdf.
    \4\ Jasen Asay, ``Private Prison Company Lands Federal Contract,'' 
Standard Examiner, June 8, 2011, available at http://www.standard.net/
topics/economy/2011/06/07/private-prison-company-lands-Federal-
contract.
---------------------------------------------------------------------------
    The number of undocumented immigrants entering the United States 
without inspection has been steadily declining for the last several 
years, largely due to economic conditions in the U.S. and countries of 
origin. Yet private prison corporations, motivated by their record 
profit margins, continue to benefit directly from the laws and policies 
that pull more and more immigrants into the Federal prison system, and 
from Federal contracts to build more prisons. Increasing funding for 
the unprecedented imprisonment of immigrants implicitly sanctions 
wasteful and abusive prosecution programs for border crossing that are 
driving the increase in the Federal prison population in the first 
place. It is up to policy makers like you to put a stop to the 
suffering of immigrant families and wasteful spending which benefits no 
one except the private prison operators.
    For all of the above reasons, we ask that you do not appropriate 
funding for any additional Bureau of Prison ``Criminal Alien 
Requirement'' (CAR) contract confinement beds beyond those that now 
exist.
    Thank you for your attention to this urgent matter. If you have any 
questions, please contact Alexis Mazon, Researcher with Justice 
Strategies at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="46272a233e2f352b273c2928062c3335322f2523353234273223212f233568282332">[email&#160;protected]</a>, (510) 725-4136, or Bob 
Libal, Executive Director of Grassroots Leadership at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f4d43464d4e436f485d4e5c5c5d40405b5c434a4e4b4a5d5c47465f01405d48">[email&#160;protected]</a>, (512) 971-0487.
                                 ______
                                 
    Prepared Statement of the California Association of Psychiatric 
                              Technicians
     federal funds used to sue & shutter federally accredited care 
                               facilities
    On behalf of approximately 14,000 California Licensed Psychiatric 
Technicians representing the Nation's gold standard in direct-care 
nursing services for people with developmental disabilities and mental 
illnesses, I am writing to respectfully request that the subcommittee, 
committee and Congress as a whole end the ability for the U.S. 
Department of Justice to use its office, powers and funding to 
discourage, downsize and close federally regulated and accredited 
congregate-care facilities.
     olmstead ruling upholds americans' rights and choices for care
    In recent years, the national demand for closure of congregate-care 
facilities such as developmental centers and State hospitals has come 
perhaps most strongly--and, perhaps, most surprisingly--from the 
Federal Government: the very Federal Government that requires these 
facilities to meet its own regulatory standards.
    To be federally certified through the U.S. Centers for Medicare and 
Medicaid Services, such congregate settings as developmental centers 
(ICF/MRs and ICF/DDs) must meet eight major criteria on management, 
client protections, facility staffing, active treatment, client 
behavior and facility practices, healthcare services, physical 
environment and dietetic services. To meet all of these major criteria, 
these accredited centers must comply with 378 specific Federal 
standards and elements. Failure to comply with any one of these 
hundreds of requirements or to swiftly correct any deficiencies means 
the loss of Federal certification as well as Federal Medicaid funding.
    In its landmark 1999 Olmstead ruling on the use and choice of 
federally accredited congregate-care settings such as these, the U.S. 
Supreme Court ruled that Americans have the right to ``community''-
based housing and care, specifically when the ``State's treatment 
professionals [including Psychiatric Technicians and other members of 
treatment teams charged with following and implementing individuals' 
program plans] have determined that community placement is appropriate, 
transfer is not opposed by the affected individual and the placement 
can be reasonably accommodated, taking into account the resources 
available to the State and the needs of others with mental 
disabilities.''
       the doj deliberately & dangerously misinterprets olmstead
    But the Federal U.S. Department of Justice--charged with upholding 
the Olmstead ruling through its Civil Rights Division and its powers 
under the Americans with Disabilities Act B has overstepped its mission 
and taken a dangerous carte blanche approach to enforcing Olmstead.
    As currently and accurately stated and emphasized on the DOJ's own 
Olmstead section of its Web site, ``The [U.S. Supreme] Court held that 
public entities must provide community based services to persons with 
disabilities when (1) such services are appropriate; (2) the affected 
persons do not oppose community based treatment; and (3) community 
based services can be reasonably accommodated, taking into account the 
resources available to the public entity and the needs of others who 
are receiving disability services from the entity.''
    Nevertheless, to date, the DOJ has filed more than 40 actions in 
more than 25 States during the past 5 years aimed at downsizing and 
closing federally regulated congregate-care facilities, regardless of 
the individual and unique wishes and needs of their residents and legal 
conservators. As part of a Federal push beginning in 2009, the DOJ has 
taken a stated and active position of ``Community Integration for 
Everyone''--whether Americans and their families and legal conservators 
wish it or not B and whether or not this position violates Americans' 
rights and choices under Olmstead:
  --In 2010's United States v. Georgia, DOJ did not consult families 
        and legal guardians prior to entering into a settlement 
        requiring closure of federally accredited congregate-care 
        facilities and forcing all residents B regardless of their 
        wishes, choices and needs guaranteed under Olmstead--into 
        community-based care.
  --In 2011's dismissal order for United States v. Arkansas, which 
        ruled against the DOJ regarding Conway Human Development 
        Center, U.S. District Judge J. Leon Holmes noted that ``all or 
        nearly all of those residents have parents or guardians who 
        have the power to assert the legal rights of their children or 
        wards. Those parents and guardians, so far as the record shows, 
        oppose the claims of the United States. Thus, the United States 
        is in the odd position of asserting that certain persons' 
        rights have been and are being violated while those persons--
        through their parents and guardians--disagree.''
  --In 2012's United States v. Virginia, families, parents and legal 
        guardians were not included in the exhaustive list of 
        stakeholders interviewed by the DOJ prior to that State's 
        settlement; families had to spend $125,000 of their own money 
        to be included in the settlement process and to include their 
        on-record opposition to DOJ's statement that ``the parties' . . 
        . desire to phase out the residential Training Centers and 
        transition all Virginians with ID/DD to community-based care is 
        readily apparent.''
   stop funding doj actions to restrict federally recognized choices
    On behalf of CAPT's members--who are trained, licensed and pledged 
to uphold the choices and rights of Californians with developmental 
disabilities and mental illnesses, wherever they wish to live and 
receive services--I am respectfully requesting that the subcommittee 
end the use of Federal funding and staff of the U.S. Department of 
Justice to discourage, downsize and close federally regulated 
congregate-care facilities against the federally and legally protected 
wishes of residents and their families.
                                 ______
                                 
       Prepared Statement of the Center for Biological Diversity
    Chairman Leahy, Ranking Member McConnell, and members of the 
subcommittee, thank you for the opportunity to submit written 
testimony. I am Brett Hartl, endangered species policy director at the 
Center for Biological Diversity. The Center is a non-profit 
environmental organization focused on the protection of native species 
and their habitats through science, policy and environmental law. The 
Center has more than 775,000 members and online activists dedicated to 
the protection and restoration of imperiled plants and wildlife, open 
space, air and water quality, and overall quality of life. We would 
like to submit testimony on the NOAA Fisheries Office of Protected 
Resources and the Enforcement and Observers budget for fiscal year 
2015. The Office of Protected Resources is responsible for protecting 
93 species under the Endangered Species Act. Enforcement and observers 
are critical to implement the protections of the Endangered Species Act 
as well as the Marine Mammal Protection Act.
    The Endangered Species Act (ESA) is America's strongest 
environmental law. It has prevented the extinction of 99 percent of the 
1,500 domestic species it protects. Were it not for the Act, scientists 
estimate that 227 of these plants and animals would have disappeared by 
2006, and even more by 2012. The Act also has had considerable success 
moving species towards recovery. For example, the gray whale was first 
protected in 1970. The eastern population, which migrates from Baja 
California to the Chukchi Sea each year, was recovered to its estimated 
pre-whaling population size in just 24 years. Similarly, after just 23 
years of protection under the ESA, the eastern population of Steller 
sea lion was delisted in 2013, having suffered for nearly a century 
from poaching, irrational predator-control actions, and from the near 
collapse of its main food sources due to unsustainable fishing 
practices. The recoveries of these species show the value and 
effectiveness of the ESA's strong protection measures.
    However, not all species that are protected by NOAA are improving. 
NOAA's 2012 recovery report to Congress indicated that approximately 16 
threatened and endangered marine species are still declining towards 
extinction. And as the extinction crisis worsens due to threats 
including climate change, many other once-common species, such as the 
staghorn and elkhorn Corals that once were the dominant reef building 
corals of Florida, have experienced major population declines and now 
are being moved from threatened to endangered status. Scientists warn 
us that the world's coral reefs are in crisis and will be destroyed 
within decades unless we act now. That is why 66 additional corals 
found in U.S. waters await final rules before they will gain the safety 
net of the ESA.
    Accordingly, we strongly support the administration's request for 
an additional $4 million dollars to complete the listing process. This 
funding is desperately needed to give NOAA the tools it needs to start 
addressing the difficult threats that the world's coral reefs face. 
However, even with this additional funding, overall funding for 
protected resources is lagging and is not keeping up with the 
biological needs of protected species in the United States.
    Marine biodiversity is at risk, along with the coastal communities 
that depend on the ocean--but there are solutions. Increasing the funds 
for the Protected Resources division of the NOAA Fisheries Service will 
ensure that declining, threatened, and endangered marine species will 
get the resources they need to recover to the point where they no 
longer need the protections of the Endangered Species Act.
            additional funding is still needed for recovery
    As scientists learn more about the oceans, it is becoming 
increasingly clear that the threats to marine biodiversity continue to 
grow. Unfortunately, funding resources to protect marine species is not 
keeping up with the biological needs of these species. Funding for 
Protected Resources peaked in 2010 at approximately $204 million and 
has since declined approximately 9 percent. This decline occurred even 
though 20 additional species--such as the Puget Sound canary rockfish 
and Atlantic sturgeon-- have been protected by NOAA under the ESA in 
the previous 4 years. As a result, the average funding per species has 
actually decreased 23 percent over the last 4 years.
    This funding situation for threatened and endangered species will 
become even more difficult if additional resources are not allocated 
since an additional 80 species--including 66 coral species, the dwarf 
sawfish, and the scalloped hammerhead shark--have been proposed for 
listing and will likely receive protection under the ESA within the 
next year. An additional 34 species are currently candidate species 
that may eventually be protected under the ESA. If funding does not 
keep up with the growing threat to marine biodiversity, the recovery of 
threatened and endangered species will become more difficult to 
achieve.
                        other protected species
    As stated above, the Center supports the $4 million budget increase 
for the ``other protected species'' category to address the listing of 
66 coral species. We would also like to point out the possibility of 
reconsidering the relative allocations of the remaining five categories 
of funding for protected resources in future years. Specifically, the 
``Other Protected Species'' category currently covers all non-salmonid 
marine fish, invertebrates, and plants. This category includes 
important animals such as the Nassau grouper, great hammerhead shark, 
queen conch, and the pinto abalone, and should not be overlooked for 
funding despite its broad characterization.
    Last year in the Commerce-Justice-Science Committee Report, 
Congress allocated $49 million to marine mammals, $13 million to sea 
turtles, $6 million to Atlantic salmon, and $65 million to Pacific 
salmon. In contrast, $7 million was allocated to ``Other Protected 
Species,'' which includes all other marine fish, invertebrates, and 
marine plants. In other words, 73 listed species received $133 million 
in recovery funding, while 20 ``other'' species received just $7 
million in funding. If all of the species currently proposed for 
listing are ultimately protected under the ESA, the number of species 
in the ``Other'' category would increase from 20 species to 100 
species, while there would be no change in the number of protected 
marine mammals, sea turtles, or salmonids. Furthermore, if the species 
that NOAA currently identifies as candidates for listing are ultimately 
protected, the number of species in the ``Other'' category would 
increase further to 132 listed species. The number of protected marine 
mammals would increase from 28 listed species to 33 listed species and 
the number of protected sea turtles and salmonids would remain the 
same.
    Simply put, in a few years time, the number of ``Other'' protected 
species may represent over 60 percent of the species under NOAA's 
jurisdiction. If the current allocations are not eventually 
reconfigured, these species would receive less than 5 percent of the 
overall recovery budget. Such limited funding would likely be 
insufficient to protect these species, let alone put them on a path 
towards recover. Accordingly, the Center recommends that the committee 
requests that NOAA develop a plan on how they will allocate resources 
within Protected Resources over the next 2 years to address the 
increase in recovery needs for these ``Other'' species going forward.
    Finally, we hope that the committee will recognize that funding for 
these new species should not come at the expense of those species that 
are currently protected. Cutting funding from species that are already 
protected by the ESA, especially those species that are still 
declining, is not a long term strategy for achieving recovery. Instead, 
additional funding should be allocated to meet the full scope and scale 
of the extinction crisis that is occurring in our world's oceans. Four 
years after the worst oil spill in the United States' history, 
scientists are just beginning to learn how severely the oil spill 
impacted the marine environment. Restoring ocean ecosystems, including 
endangered species, has proven to be more complex and costly than was 
once thought. Providing NOAA with the necessary funds to address its 
responsibilities under the ESA is an important step in protecting our 
ocean's biological diversity.
        maintain or increase funding for stranded marine mammals
    NOAA requested a decrease of $2,500,000 for the John H. Prescott 
Marine Mammal Rescue Assistance Grant Program and the Marine Mammal 
Protection Program. The President's budget request did not include 
funding for the John H. Prescott Grant Program in fiscal year 2014, but 
Congress thankfully kept the program alive. Last year California, 
Florida and the Mid-Atlantic had unusual mortality events of California 
sea lions, manatees and bottlenose dolphins. With decreased Federal 
funding, State stranding networks struggle to respond to marine mammals 
washing ashore. Virginia reportedly had over 30 animals in 2 days 
stranded on its beaches over one weekend in the last year's die-off and 
had a total of 346 dolphins die since July 1, 2013.
    Scientific investigations to understand the causes of these events 
can help assess ocean health and protect humans. In 2010, nearly 40 
percent of the Nation's population lived in coastal areas. Ensuring 
that States have adequate resources to respond to and study marine 
mammal strandings will help keep marine mammals safe and our coasts 
clean.
                increase observer coverage for fisheries
    Observer coverage in fisheries is essential to ensure the best 
possible management of our fisheries. This program ensures that our 
fisheries are on a sustainable path for long term success and allows 
NOAA to prevent whales, sea turtles, and sharks from drowning in 
fishing gear.
    This year's budget should increase funding to collect accurate 
fisheries data, especially from the observer program. While NOAA's 
request for an increase of $4,000,000 for Electronic Monitoring and 
Reporting may pave the way for future innovation, NOAA also needs an 
increase now in the budget for Enforcement and Observers.
    This funding is needed most importantly because several fisheries 
lack resources to ensure meaningful observer coverage to monitor 
bycatch of sea turtles, sharks, and marine mammals. For example in 
2012, a longline fishing area NOAA once closed to longline fishing due 
to sea turtle take (the Northeast Distant area) had no observer 
coverage during the third and fourth quarters of the year, when sea 
turtle interactions are highest. Low observer coverage undermines 
confidence in management decisions and can result in severe emergency 
measures.
    Starting in 2014 observers must report fishing and marine pollution 
violations. Additional funding will be needed to effectively implement 
the changes in policy and increase observer-related enforcement once 
observers report violations. Adequate observer program funding ensures 
a fair playing field for U.S. fishermen and keeps fishing sustainable.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization
    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization in Washington, DC that represents the Governors of the 35 
coastal States, territories and commonwealths and their issues relating 
to the sound management of coastal, Great Lakes, and ocean resources. 
CSO was established in 1972 and is recognized as the trusted 
representative of the collective interests of the coastal States on 
coastal and ocean management. For fiscal year 2015, CSO supports the 
following coastal programs and funding levels within the National 
Oceanic and Atmospheric Administration (NOAA):

 
 
 
Coastal Zone Management Grants Program      $70 million
 (Sec. Sec.  306/306A/309).
Regional Coastal Resilience Grants........  $10 million
Coastal Zone Management and Services......  $46.472 million
Coastal and Estuarine Land Conservation     $5 million
 Program.
National Estuarine Research Reserve System  $22.9 million
Coral Reef Conservation Program...........  $26.078 million
 


    The U.S. economy is an ocean and coastal economy and this needs to 
be reflected in our Federal investment into ocean and coastal programs. 
While only accounting for 18 percent of the U.S. land area, coastal 
areas are home to 163 million people and almost 5 million businesses. 
Home to coastal and ocean dependent industries, including marine 
transportation, tourism, marine construction, aquaculture, ship and 
boat building, mineral extraction, and living marine resources, coastal 
counties contribute $8.7 trillion to U.S. GDP and employ 67 million 
people. If these coastal counties were their own country, they would 
have the world's third largest economy, behind the European Union and 
the United States. Coasts and oceans are visited by nearly half of all 
Americans, adding to their health and quality of life. The non-market 
value of recreation alone is estimated at over $89 billion. Every 
American, regardless of where they live, is fundamentally connected to 
U.S. coasts, oceans, and Great Lakes. These valuable resources are a 
critical framework for commerce, public recreation, energy, and 
environmental health and merit robust investment.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing recreational, residential, 
and economic appeal, there are more pressures on our coastal and ocean 
resources. This demand, combined with an increase in natural hazards 
such as sea level rise, extreme weather, and other flooding events, 
highlight the danger of losing these invaluable national assets. 
Despite the difficult budgetary times, adequate and sustained funding 
is needed to support the key programs that are on the front lines of 
this daily battle, which continually advance coastal and ocean science, 
research, and technology to manage our coastal and ocean resources for 
future generations.
    Programs engaged in these important efforts and working to balance 
the protection of coastal and ocean resources with the sustainable 
development of the coasts include the Coastal Zone Management Program, 
Coastal and Estuarine Land Conservation Program, Regional Coastal 
Resiliency Grants, the Coral Reef Conservation Program, and National 
Estuarine Research Reserves. These programs reside within the National 
Oceanic and Atmospheric Administration (NOAA) and provide direct 
funding or services to the States, territories and regions to implement 
national coastal and ocean priorities at the State, local, and regional 
level. These types of partnership programs account for only a small 
portion of the total NOAA Federal budget but provide dramatic results 
in coastal communities. The funding for these programs is cost-
effective, as these grants are matched by the States and used to 
leverage significantly more private and local investment in our 
Nation's coasts. Maintaining funding for these programs that provide 
on-the-ground services to our local communities and citizens is well 
worth the investment. In fact, the Federal Emergency Management Agency 
(FEMA) estimates that every $1 invested in community resilience it will 
reduce disaster damages by $4.
        coastal zone management program (Sec. Sec. 306/306a/309)
    CSO recommends that these grants be funded at $70 million.--This 
funding will be allocated among the 34 States and territories that have 
approved coastal zone management programs. Pursuant to the Coastal Zone 
Management Act (CZMA), States partner with NOAA to implement coastal 
zone management programs designed to balance the need to maintain 
productive coastal and ocean resources with the need for the 
sustainable development of coastal communities. States have the 
flexibility to develop programs, policies, and strategies targeted to 
their State priorities while concurrently advancing national goals. 
Under the CZMA program, the States receive grants from NOAA, which are 
then matched with State funding and then often further leveraged with 
private and local funds. These grants have been used to support and 
enhance coastal economies by resolving conflicts between competing 
coastal uses, reducing environmental impacts of coastal development, 
and providing critical assistance to local communities in coastal 
planning and resource protection.
    These State coastal zone management programs reflect a unique and 
successful Federal-State partnership. Coastal management has become a 
national priority, as they are critical to building coastal resilience 
against extreme weather events and educating and guiding communities to 
build their homes and businesses in ways that minimize the threat of 
loss. Events like Superstorm Sandy and Hurricane Katrina reinforced the 
importance of planning ahead. Coastal zone management programs ensure 
that the national interest in a resilient coast is incorporated in 
State actions, while respecting the sovereignty, different priorities, 
and geographic variations of our diverse States.
    The CZMA State grants have essentially remained at an even funding 
level for a decade, resulting in decreased capacity in State coastal 
zone management programs and less funding available to communities. An 
increase to more than $91 million would be necessary to reach actual 
level funding that accounts for inflation since 2001 and would provide 
an additional $300,000--$800,000 for each State and territory. However, 
CSO recognizes that the current fiscal climate makes such an increase 
challenging. By maintaining current funding levels, States and 
territories would receive between $850,000 and just over $2,300,000 to 
carry out their coastal management programs based on a formula that 
considers shoreline miles and coastal population. The following are a 
few examples of activities in Maryland and Alabama that CZM State 
grants have recently funded. These types of contributions, and more, 
can be found around the Nation.
Maryland
  --Maryland's CZM Program worked with land conservation partners to 
        preserve 4,468 acres of critical coastal habitat for storm 
        protection, water-filtering benefits, fish nurseries, or 
        recreation through acquisition and easements. Maryland 
        completed projects that protected 4,980 linear feet of 
        nearshore habitat from erosion while providing critical habitat 
        through the implementation of shoreline management techniques 
        such as living shorelines.
  --Maryland's Coastal Zone Management Program has collected 1.05 tons 
        of debris as a part of annual Maryland Coast Days and 
        Assateague Coastal Clean-ups, created four new public water 
        access (non-motorized) sites, and exposed over 21,000 students 
        with the opportunity to participate in a classroom or outdoor 
        experience.
  --CZMA funding in Maryland assisted 5 coastal communities in reducing 
        vulnerability to future storm events, shoreline change and sea 
        level rise and incorporating those considerations into local 
        plans, codes and ordinances. Additionally, CZMA funding 
        assisted 6 communities that developed designs or plans to 
        reduce polluted runoff through the Watershed Assistance 
        Collaborative.
Alabama
  --Last year, CZMA funding in Alabama supported the 26th Annual 
        Alabama Coastal Clean-up with over 3,700 volunteers are removed 
        38,000 pound of marine debris.
  --In fiscal year 2013, the Alabama Coastal Area Management Program 
        provided funds for the public access improvements to City of 
        Chickasaw, City of Foley and Dauphin Island Park and Beach 
        Board; the Mobile Bay National Estuary Program to facilitate 
        Phase II of the development of the Coastal Area and Marine 
        Planning Program; the Dauphin Island Sea Lab to conduct Phase I 
        of Coastal Habitat Restoration Project Monitoring; the City of 
        Chickasaw to develop a comprehensive plan and to develop a 
        Three Mile Creek Watershed Management Plan; the City of 
        Fairhope to develop low impact development standards and 
        ordinance; Town of Dauphin Island and the City of Gulf Shores; 
        the City of Orange Beach, for local beach and dune protection 
        program; and the sea turtle/share the beach program and the 
        annual Alabama Coastal Birding Festival.
    Several years ago, a grant cap of approximately $2,000,000 per 
State was instituted to allow for funding to be spread more evenly 
across the States and territories, so as to prevent most of the funding 
from going entirely to the larger, more heavily populated States. Now, 
however, over half of the States have met the cap and no longer receive 
an increase in funding, despite increased overall funding for CZMA 
State grants since that cap was introduced. Since the cap was never 
intended to serve as a barrier to States receiving reasonable increases 
intended for all States, CSO recommends that the subcommittee include 
language in the appropriations bill report that allows the cap to be 
exceeded when it is fair and consistent with the original purposes of 
the cap. To that end, CSO suggests language declaring that each State 
will receive no less than 1 percent and no more than 5 percent of the 
additional funds over and above previous appropriations. As was 
provided previously by the subcommittee, CSO also requests that 
language be included in the appropriations bill report that directs 
NOAA to refrain from charging administrative costs to these grants. 
This is to prevent any undue administrative fees from NOAA from being 
levied on grants intended for States.
            coastal and estuarine land conservation program
    CSO requests the Coastal and Estuarine Land Conservation Program 
(CELCP) not be terminated, as has been previously proposed in the 
President's budget. Authorized by Congress in 2002, CELCP protects 
``those coastal and estuarine areas with significant conservation, 
recreation, ecological, historical, or aesthetic values, or that are 
threatened by conversion from their natural or recreational states to 
other uses.'' To date, Congress has appropriated over $250 million for 
CELCP. This funding has allowed for the completion of over 175 
conservation projects, with more in progress. CELCP projects in 28 of 
the Nation's 35 coastal States have already helped preserve more than 
100,000 acres of the Nation's coastal assets. All Federal funding has 
been leveraged by at least an equal amount of State, local, and private 
investments, demonstrating the broad support for the program, the 
importance of coastal protection throughout the Nation, and the 
critical role that Federal funding plays in reaching the conservation 
goals of our coastal communities. CELCP is the only Federal program 
entirely dedicated to the conservation of these vital coastal areas.
    The need for CELCP funding far exceeds federally appropriated funds 
in recent years. In the last two funding cycles (fiscal year 2012 and 
fiscal year 2014), NOAA, in partnership with the States, has 
identified, deemed eligible, and ranked over $64.1 million in projects 
with willing sellers and State funding match available. Adequate and 
sustained funding is needed to meet the demand of the increasingly 
high-quality projects developed by the States and submitted to NOAA. 
The importance of natural barriers in preventing and reducing storm 
impacts was recognized in the wake of Superstorm Sandy, when these 
types of areas provided buffers and increased resilience in the face of 
storm surge. Therefore, we request your support for minimally restoring 
funding at the fiscal year 2012 enacted level for CELCP.
                   regional coastal resiliency grants
    $10 million in grants for Regional Coastal Resiliency Grants is 
needed to provide competitive funding to ensure our States and 
communities are prepared to face changing ocean conditions, from 
acidification to sea level rise, changing economic conditions, from 
recession to emerging ocean uses, as well as major catastrophes, from 
tsunamis to marine debris clogging waterways. Resilient communities 
invest proactively to ensure they avoid unnecessary costs--economic, 
social, and environmental--in the future. These grants will help 
States, local communities, and other stakeholders produce on-the-ground 
results that benefit both the economy and the environment, including 
cutting edge science and practical tools like maps and surveys. This 
request is an increase above the President's request of $5,000,000 in 
order to fully establish this key competitive grant program that is 
designed to promote resilience and address shared risks of weather 
events and hazards on coastal communities and economies.
               national estuarine research reserve system
    The National Estuarine Research Reserve System (NERRS) partners 
with States and territories to ensure long-term education, stewardship, 
and research on estuarine habitats. Atlantic, Gulf, Pacific, Caribbean 
and Great Lakes reserves advance knowledge and stewardship of estuaries 
and serve as a scientific foundation for coastal management decisions. 
This unique site-based program around the Nation contributes to a 
systemic research, education and training on the Nation's estuaries.
    CSO greatly appreciates the support the subcommittee has provided 
in the past. Its support has assisted these programs to work 
collaboratively to protect our coasts, support coastal economies, and 
sustain our local communities. Without these competitive grant funds 
and key NOAA programs, States will not have the resources to help 
address local and regional coastal resilience needs and priorities, and 
leverage the Federal Government's support and expertise. Thank you for 
taking our requests into consideration as you move forward in the 
fiscal year 2015 appropriations process.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    The Columbia River Inter-Tribal Fish Commission (CRITFC) is pleased 
to share our views on the Department of Commerce's fiscal year 2015 
budget and has identified the following funding needs:
    $38.2 million for Salmon Management Activities ($11 million above 
the request) of which:
  --$26.6 million for the Columbia River Mitchell Act hatchery program 
        to implement reforms of which $6.7 million (or 25 percent of 
        the enacted amount) is directed to the tribes to enhance 
        supplementation (natural stock recovery) programs; and
  --$11.6 million for the Pacific Salmon Treaty Program, of which $9.76 
        million is for the implementation of the 2009-2018 Agreement, 
        and previous base programs; and $1,844,000 is for the Chinook 
        Salmon Agreement Implementation.
    $90 million for the Pacific Coastal Salmon Recovery Fund ($40 
million above the request) to support on-the-ground salmon restoration 
activities.
    Background.--The Columbia River Inter-Tribal Fish Commission 
(CRITFC) was founded in 1977 by the four Columbia River treaty tribes: 
Confederated Tribes of the Umatilla Indian Reservation, Confederated 
Tribes of the Warm Springs Reservation of Oregon, Confederated Tribes 
and Bands of the Yakama Nation, and Nez Perce Tribe. CRITFC provides 
coordination and technical assistance to the tribes in regional, 
national and international efforts to protect and restore the fisheries 
and fish habitat.
    In 1855, the United States entered into treaties with the four 
tribes.\1\ The tribes' ceded millions of acres of our homelands to the 
U.S. and the U.S. pledged to honor our ancestral rights, including the 
right to fish at all usual and accustomed places. Unfortunately, a long 
history of hydroelectric development, habitat destruction and over-
fishing by non-Indians brought the salmon resource to the edge of 
extinction with 12 salmon and steelhead trout populations in the 
Columbia River basin listed under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 6, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 9.
---------------------------------------------------------------------------
    Today, the treaties form the bedrock of fisheries management. The 
CRITFC tribes are among the most successful fishery managers in the 
country leading restoration efforts and working with State, Federal and 
private entities. CRITFC's comprehensive plan, Wy-Kan-Ush-Mi Wa-Kish-
Wit, outlines principles and objectives designed to halt the decline of 
salmon, lamprey and sturgeon populations and rebuild the fisheries to 
levels that support tribal ceremonial, subsistence and commercial 
harvests. To achieve these objectives, the plan emphasizes strategies 
that rely on natural production, healthy rivers and collaborative 
efforts.
    Several key regional agreements were completed in 2008. The 
Columbia Basin Fish Accords set out parameters for management of the 
Federal Columbia River Power System for fish passage. New agreements in 
U.S. v. Oregon and the Pacific Salmon Commission established fishery 
management criteria for fisheries ranging from the Columbia River to 
Southeast Alaska. The U.S. v. Oregon agreement also contains provisions 
for hatchery management in the Columbia River Basin. The terms of all 
three agreements run through 2017. We have successfully secured other 
funds to support our efforts to implement these agreements, including 
funds from the Bonneville Power Administration (BPA), the Department of 
Interior, and the Southern Fund of the Pacific Salmon Treaty, to name 
just few. Continued Federal funding support is needed to accomplish the 
management objectives embodied in the agreements.
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River Mitchell Act hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $26.6 million 
is requested for the tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $6.7 million, or 25 
percent of enacted funding, will be made available to the Columbia 
River Treaty Tribes for supplementation (natural stock recovery) 
programs. The Mitchell Act program provides regional economic benefits. 
NOAA Fisheries estimates that the program generates about $38 million 
in income and supports 870 jobs.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. In 1991, this subcommittee 
directed that ``Mitchell Act hatcheries be operated in a manner so as 
to implement a program to release fish in the upper Columbia River 
basin above the Bonneville Dam to assist in the rebuilding of upriver 
naturally-spawning salmon runs.''
    Since 1991, we have made progress in increasing the upstream 
releases of salmon including Mitchell Act fish that have assisted the 
rebuilding and restoration of naturally-spawning upriver runs of 
chinook and coho. These efforts need to continue.
    We now face the challenges of managing for salmon populations 
listed for protection under the ESA, while also meeting mitigation 
obligations. The Draft Environmental Impact Statement (DEIS) for 
operation of Columbia River basin hatcheries released by NOAA in 2010 
illustrates the conundrum we face. While the DEIS, which assumes level 
funding for Mitchell Act hatcheries, points out the need for hatchery 
reform, the implementation scenarios for the proposed alternatives to 
the status quo all call for substantial reductions in hatchery 
releases. From the tribal perspective the proposed alternatives will 
not result in the delisting of salmon populations or meet mitigation 
obligations. Under the proposed alternatives the future is increased 
regulation under the ESA, resulting in more constrained fisheries along 
the west coast The funding for the Mitchell Act program should be 
increased along with natural stock recovery program reform 
(supplementation) so that we can make progress towards ESA delisting. 
This would transition the Mitchell Act program to a much more effective 
mitigation program.
    We support hatchery reform to aid in salmon recovery, while meeting 
mitigation obligations. The CRITFC tribes are leaders in designing and 
managing hatchery facilities to aid in salmon restoration and believe 
similar practices need to be implemented throughout the basin to reform 
current hatchery production efforts. Additional funding is necessary to 
reform Mitchell Act hatcheries to accomplish conservation and 
mitigation objectives. Years of inadequate funding have taken a toll 
resulting in deteriorating facilities that do not serve our objectives.
    Evidence to Support Tribal Salmon Restoration Programs under the 
Mitchell Act.--The tribes' approach to salmon recovery is to put fish 
back in to the rivers and protect the watersheds where fish live. 
Scientific documentation of tribal supplementation success is available 
upon request. The evidence is seen by the increasing returns of salmon 
in the Columbia River Basin. Wild spring chinook salmon are returning 
in large numbers to the Umatilla, Yakima and Klickitat tributaries. 
Coho in the Clearwater River are now abundant after Snake River coho 
was once declared extinct. Fish are returning to the Columbia River 
Basin and it is built on more than 30 years of tribal projects.
    Once considered for listing under the ESA, only 20,000 fall chinook 
returned to the Hanford Reach on the Columbia River in the early 
1980's. This salmon run has been rebuilt through the implementation of 
the Vernita Bar agreement of the mid-1980s combined with a hatchery 
program that incorporated biologically appropriate salmon that spawn 
naturally upon their return to the spawning beds. Today, the Hanford 
Reach fall chinook run is one of the healthiest runs in the basin 
supporting fisheries in Alaska, Canada, and the mainstem Columbia 
River. In 2013, close to 700,000 Fall Chinook destined for the Hanford 
Reach entered the Columbia River, which was a record since the 
construction of Bonneville Dam. The predictions are for an even higher 
return this fall.
    In the Snake River Basin, fall chinook has been brought back from 
the brink of extinction. Listed as threatened under the ESA, the 
estimated return of naturally-spawning Snake River fall chinook 
averaged 328 adults from 1986-1992. In 1994, fewer than 2,000 Snake 
River fall chinook returned to the Columbia River Basin. Thanks to the 
Nez Perce Tribe's modern supplementation program fall chinook are 
rebounding and the Snake River fall chinook is well on their way to 
recovery and ESA delisting. In 2013 about 56,000 fall chinook made it 
past Lower Granite Dam. Of those, approximately 21,000 were wild, twice 
the previous record for wild returns since the dam was constructed in 
1975.
    A Request for Review of Salmon Mass-Marking Programs.--CRITFC 
endeavors to secure a unified hatchery strategy among tribal, Federal 
and State co-managers. To that end, we seek to build hatchery programs 
using the best available science and supported by adequate, efficient 
budgets. A Congressional requirement, delivered through prior 
appropriations language, to visibly mark all salmon produced in 
federally funded hatcheries should be reconsidered. We have requested 
that Federal mass-marking requirements, and correlated funding, be 
reviewed for compatibility with our overall objective of ESA delisting 
and with prevailing laws and agreements: U.S. v Oregon, Pacific Salmon 
Treaty and the Columbia Basin Fish Accords.\2\
---------------------------------------------------------------------------
    \2\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    Salmon managers should be provided the latitude to make case-by-
case decisions whether to mark fish and, if so, in the appropriate 
percentages.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. Section 
recommendation of $11.6 million for Pacific Salmon Treaty 
implementation. Of this amount, $9.76 million is for the Pacific Salmon 
Treaty base program with Alaska, Oregon, Idaho, Washington, and NOAA to 
share as described in the U.S. Section of the Pacific Salmon 
Commission's Budget Justification. In addition, we support $1.9 million 
as first provided in 1997 to carry out necessary research and 
management activities to implement the abundance based management 
approach of the Chinook Chapter to the Treaty. Costs of the programs 
conducted by State agencies to fulfill national commitments created by 
the treaty are substantially greater than the funding provided in the 
NOAA budget. State agencies supplement the Federal appropriation from 
other sources including: State and Federal grants, and the Pacific 
Coastal Salmon Recovery Fund, to the extent those sources are 
available.
    Pacific Coastal Salmon Recovery Program (PCSRF)/Watershed 
Restoration.--Funding has been sought after by the State of Alaska, the 
Pacific Northwest States, and the treaty tribes since the renewal of 
the Pacific Salmon Treaty in 1995. This would serve critical unmet 
needs for the conservation and restoration of salmon stocks shared in 
these tribal, State, and international fisheries. The PCSRF program was 
developed in 2000 to contribute to the shared effort in accomplishing 
this goal. We recommend restoring the PCSRF fiscal year 2015 funding 
level to $90 million. Long-term economic benefits can be achieved by 
making PCSRF investments on the ground to rebuild sustainable, 
harvestable salmon populations into the future.
    The State and tribal co-managers have responded to concerns raised 
by Congress regarding accountability and performance standards to 
evaluate and monitor the success of this coast wide program. The co-
managers have developed an extensive matrix of performance standards to 
address these concerns, which includes the use of monitoring protocols 
to systematically track current and future projects basin-wide. 
Tribally sponsored watershed projects are based on the best science, 
are competently implemented and adequately monitored, and address the 
limiting factors affecting salmon restoration. Projects undertaken by 
the tribes are consistent with CRITFC's salmon restoration plan and the 
programmatic areas identified by Congress.
    In summary, the CRITFC and its four member tribes have developed 
the capacity and infrastructure to lead in restoring and rebuilding 
salmon populations of the Columbia Basin. Our collective efforts 
protect our treaty reserved fishing rights and we also partner with the 
non- Indian community to provide healthy, harvestable salmon 
populations for all citizens to enjoy. This is a time when increased 
effort and participation are demanded of all of us and we ask for your 
continued support of a coordinated, comprehensive effort to restore the 
shared salmon resource of the Columbia and Snake River Basins. We will 
be pleased to provide any additional information that this subcommittee 
may require.
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership, I appreciate the 
opportunity to discuss the fiscal year 2015 Federal science budget for 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA) and the National Aeronautics and 
Space Administration (NASA). Ocean Leadership represents 90 of the 
Nation's leading oceanographic research and education institutions and 
also manages several ocean research and education programs in the areas 
of scientific ocean drilling, ocean observing, oil spills, and ocean 
partnerships. We respectfully request $7.5 billion for the NSF; $1.9 
billion for Earth Sciences at NASA; and $5.6 billion for NOAA.
    As Congress prioritizes Federal investments in the face of 
constrained budgets, it is important to recognize and maintain support 
for basic research as a core Federal responsibility. Increasing this 
investment is a priority given the shift to a science and technology 
(S&T) based economy whose foundation is built on scientific advances, 
both within specific disciplines as well as across disciplines. The 
U.S. dominance in S&T is being challenged by accelerated investment by 
other nations, as evidenced by Battelle's recent research and 
development (R&D) Global Forecast, which states: ``At the current rates 
of growth and investment, China's total funding of R&D is expected to 
surpass that of the U.S. by about 2022.'' \1\
---------------------------------------------------------------------------
    \1\ Battelle and R&D Magazine, December 2013. http://
www.battelle.org/docs/tpp/2014_global_rd_funding_forecast.pdf?sfvrsn=4.
---------------------------------------------------------------------------
                       the role of ocean science
    Recent hypotheses suggest that the extreme weather events we have 
had this past year may be attributable to a persistent shift in the jet 
stream due to a rapidly melting polar region as well as a warmer North 
Pacific Ocean. If this is the case, ice storms in Mobile, Alabama or 
monsoon-like rain events in Boulder, Colorado, may become more 
frequent, along with their significant economic costs. Unfortunately, 
as the demand for more and better data and information to understand 
ocean and atmospheric trends increases, we are instead losing our 
capabilities to collect data at sea and from space to build more 
capable and accurate long-term forecasts. For instance, the inability 
to service the buoys comprising the TAO Array (Tropical Atmosphere 
Ocean project in the equatorial Pacific) has resulted in a degradation 
of the data return rate to just 40 percent capacity from an optimally 
operating system.\2\ This situation greatly reduces our ability to 
accurately forecast El Nino and La Nina strengths and thus risks proper 
preparation to deal with episodes of droughts and flooding.
---------------------------------------------------------------------------
    \2\ El Nino monitoring system in failure mode, U.S. budget woes 
cripple a key mooring array in the tropical Pacific Ocean. Jeff 
Tollefson. Nature News, January 23, 2014. http://www.nature.com/news/
el-nino-monitoring-system-in-failure-mode-1.14582.
---------------------------------------------------------------------------
    Given that the ocean absorbs, stores and transfers most of the heat 
(and a high percentage of the carbon) on our planet, the ability to 
understand, forecast and prepare for extreme weather events requires 
investments in basic research to better understand air-ice-sea 
interactions as well as observations of the physical environment from 
space, land and sea. Without this basic knowledge and prediction 
capabilities on regional and seasonal scales, we are essentially flying 
blind in terms of managing resources (e.g. agriculture, fisheries, 
freshwater) and protecting public health. There are many major natural 
threats facing our Nation and significant challenges ahead in 
understanding, forecasting and mitigating them, all of which require 
significant financial resources. We believe that our appropriations 
requests would enable our Nation to maintain the assets and 
capabilities necessary to better understand the physical, chemical, 
geological and biological changes to the natural environment and use 
this information to help Congress, State and local governments, 
businesses and private individuals make informed and fiscally 
responsible economic and national security, public health and safety, 
and resource management decisions.
                           nsf basic research
    The National Science Foundation (NSF) is our top funding priority 
as it is the premier Federal agency tasked with supporting basic 
research, which underpins all future scientific advances. As you know, 
NSF is the only Federal agency with the mission of supporting basic 
research, and has been a primary force in providing support for 
discoveries that have driven our Nation's economy through innovation. 
Historically, Congress has appropriated top line numbers for the agency 
and has refrained from directing the course of the agency's research 
agenda or setting science or infrastructure priorities for the agency. 
We hope that this policy will continue so the Foundation can continue 
to make decisions based on the highest quality peer reviewed science, 
rather than politics.
    Given the tremendous recent impact that natural hazards have had on 
our Nation's economy and public welfare, we believe that investing in 
the geosciences is critical to advance our knowledge of the physical 
world, while social and behavioral sciences can improve our ability to 
understand and communicate key scientific findings and risks to the 
public and policymakers, who must deal with a rapidly changing planet. 
We hope that NSF can continue to fund the best minds in the Nation 
through competitive research grants, while mission agencies such as 
NOAA and NASA can support applied research and observational 
requirements to ensure our Nation has the intellectual capacity to 
develop and deal with the next generation of challenges. Thus, we 
request that Congress appropriate $140 million in additional funding 
for the ``Research and Related Accounts'' to at least match anticipated 
inflationary costs, but preferably above this level to maintain a 
positive trajectory enhancing NSF capacity to support its research 
mission.
                     noaa research and observations
    The National Oceanic and Atmospheric Administration (NOAA) requires 
timely, accurate, and sensitive observations of the planet to meet its 
many missions and mandates. Given the austere budget environment, we 
believe that NOAA can better accomplish its scientific requirements in 
a more effective way through partnerships with the extramural academic 
and industrial communities, rather than relying solely on their own 
internal scientific capability. The majority of scientific research 
expertise in areas such as climate, ocean acidification, ocean 
exploration, instrument development, data dissemination and fisheries 
management resides in the academic and industrial sectors. A greater 
commitment to extramural competitive peer-review grant opportunities to 
answer the key questions necessary to assess trends, make forecasts, 
and manage resources in a changing environment would improve efficiency 
and extend NOAA's access to the best minds in the Nation.
    We remain concerned about the Nation's earth observing satellite 
programs and the ability to maintain continuity of long-term data sets. 
We encourage NOAA to follow the NESDIS Independent Review Team's (IRT) 
recommendations for procurement models for missions beyond J2 that will 
not only reduce costs but also mitigate against data gaps. Implementing 
all the missions as an integrated program could save the agency tens of 
millions of dollars. These savings could help address other needs, such 
as recapitalization of the oceanographic fleet to help service the TAO 
Array, or supporting a more robust ocean exploration program. 
Ultimately, we need the polar observing system to be more resilient and 
more capable, which requires a more integrated approach to weather and 
climate research, monitoring and modeling. Moving NOAA's climate 
sensors to NASA without the resources to support their construction and 
operation defeats this purpose. Consequently, we hope you will continue 
your close oversight of the Federal Earth observing programs to help 
ensure that satellite missions can be cost-efficient, reliable, and 
effective.
    Of course, the ocean also impacts life beyond weather, climate and 
extreme events. The Deepwater Horizon oil spill was a tragedy with loss 
of life, economic impacts and long-term ecological implications for the 
Gulf region. The fact that it took so long to identify and track the 
location of the massive subsurface oil plume in the water column or 
forecast its trajectory highlights the significant shortcomings of the 
existing ocean and coastal observing systems. Consequently, we need to 
make sure that we are better prepared for the next spill, especially 
given offshore oil exploration in the Arctic and now proposed for the 
Atlantic coast. Ideally, there should be significant coordination 
between NOAA and the National Academies of Sciences (NAS) with regards 
to the use of criminal and civil settlement funds and fines. We have a 
unique opportunity to build a sustainable ocean and coastal observing 
system that will better enable the Gulf region to identify and prepare 
for future problems, such as oil spills, red tides, and hypoxic events, 
while also better managing their marine living resources. I hope this 
opportunity is not lost given the significant funds that will flow into 
the region.
    We are disheartened by the administration's extremely low funding 
request for NOAA's Education programs, including the elimination of the 
competitive program, which in the past has supported successful 
initiatives such as the National Ocean Sciences Bowl (NOSB). For the 
last 16 years, NOSB has exposed 26,000 students to a field of study not 
commonly offered in high school, which enhances student understanding 
of all major areas of science, technology, engineering and mathematics. 
We greatly appreciate your historical support for education programs at 
the mission agencies, and we hope that the administration will take a 
more transparent and deliberative planned approach to improving our 
Nation's STEM education programs in the future.
                nasa earth science research and missions
    We are very concerned with the administration's proposal to cut 
Earth Science funding at the National Aeronautics and Space 
Administration's (NASA), particularly at a time when NASA is supporting 
several new Earth observing missions as well as providing unprecedented 
access to their archives of Earth data. NASA has been responsive to the 
2007 ``Decadal Survey,'' but a flat budget, as well as increased 
mission responsibilities, has delayed many critical missions. While we 
support NASA taking on additional responsibilities for developing 
climate sensors from NOAA, we believe that this obligation should be 
accompanied with adequate financial resources. NASA has shown itself to 
be an effective partner with other agencies, such as with the USGS and 
their Landsat-8 mission, and with NOAA and the NPP-Suomi satellite. 
Moreover, its Venture class missions are providing flight opportunities 
for the next generation of scientists and engineers. We also support 
two NASA satellite missions, Surface Water Ocean Topography (SWOT) and 
Pre-Aerosol, Clouds, and ocean Ecosystem (PACE), which are particularly 
important to the oceans community and are tentatively scheduled for 
launch by 2020. NASA supports the only truly global view of the Earth, 
so it is critical to support its Earth science missions and research at 
a time when we see such unprecedented change to the physical 
environment of our planet.
    Madame Chair and members of the subcommittee, I greatly appreciate 
the opportunity to share our recommendations, and I encourage you to 
continue your long-standing bipartisan support for science funding in 
the fiscal year 2015 budget and into the future.
    Below is a list of the institutions that are represented by the 
Consortium for Ocean Leadership.

      Alabama

Dauphin Island Sea Lab

      Alaska

University of Alaska Fairbanks
Alaska Ocean Observing System
North Pacific Research Board

      California

Bodega Marine Lab
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratory
Naval Postgraduate School
Stanford University
University of California, Santa Barbara
University of California, Santa Cruz
University of California, San Diego (Scripps Institution of 
Oceanography)
University of Southern California
Aquarium of the Pacific
Hubbs-SeaWorld Research Institute
Romberg Tiburon Center for Environmental Studies
Esri
L-3 MariPro, Inc.
Liquid Robotics, Inc.
Teledyne RD Instruments

      Colorado

Cooperative Institute for Research in Environmental Sciences

      Connecticut

University of Connecticut
Mystic Aquarium & Institute for Exploration

      Delaware

University of Delaware
Mid-Atlantic Regional Association Coastal Ocean Observing System

      Florida

Florida State University
Harbor Branch Oceanographic Institute at FAU
University of Florida
University of Miami
University of South Florida
Earth2Ocean, Inc.
Florida Institute of Oceanography
Nova Southeastern University

      Georgia

Skidaway Institute of Oceanography of the University of Georgia
Savannah State University

      Hawaii

University of Hawaii

      Illinois

John G. Shedd Aquarium

      Louisiana

Louisiana Universities Marine Consortium
Louisiana State University

      Maine

Bigelow Laboratory for Ocean Sciences
University of Maine
The IOOS Association

      Maryland

University of Maryland Center for Environmental Science
Johns Hopkins University
Marine Technology Society
National Aquarium

      Massachusetts

Massachusetts Institute of Technology
University of Massachusetts, Dartmouth
University of Massachusetts, Lowell
Woods Hole Oceanographic Institution
Battelle

      Michigan

University of Michigan

      Mississippi

Mississippi State University
University of Mississippi
University of Southern Mississippi

      Nebraska

University of Nebraska, Lincoln

      New Hampshire

University of New Hampshire

      New Jersey

Rutgers University

      New York

Columbia University (LDEO)
Stony Brook University

      North Carolina

Duke University Marine Laboratory
East Carolina University
University of North Carolina, Chapel Hill
University of North Carolina, Wilmington
North Carolina State University

      Oregon

Oregon State University

      Pennsylvania

Pennsylvania State University

      Rhode Island

University of Rhode Island

      South Carolina

Belle W. Baruch Institute for Marine and Coastal Sciences
South Carolina Sea Grant Consortium

      Texas

Harte Research Institute
Texas A&M University
University of Texas, Austin
Fugro
Sonardyne, Inc.

      Virginia

College of William and Mary (VIMS)
Old Dominion University
CNA
Institute for Global Environmental Strategies
U.S. Arctic Research Commission
CARIS, USA
SAIC

      Washington

University of Washington
Sea-Bird Scientific

      Washington, DC

Southeastern Universities Research Association

      Wisconsin

University of Wisconsin-Milwaukee Great Lakes WATER Institute

      Australia

Institute for Marine and Antarctic Studies (IMAS) at the University of 
Tasmania

      Bermuda

Bermuda Institute of Ocean Sciences (BIOS)

      Canada

Dalhousie University
University of Victoria
                      
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations
    On behalf of the Consortium of Social Science Associations (COSSA), 
I am pleased to offer this written testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies for inclusion in the official committee record. For fiscal 
year 2015, COSSA urges the subcommittee to appropriate $7.5 billion for 
the National Science Foundation (NSF), $47.5 million for the National 
Institute of Justice (NIJ), $55.4 million for the Bureau of Justice 
Statistics (BJS), and $107 million for the Bureau of Economic Analysis 
(BEA).
    COSSA is proud to serve as a united voice for the social and 
behavioral sciences, bridging the academic research community with 
Federal policymakers. Its membership consists of more than 100 
professional associations, scientific societies, universities, and 
research centers and institutes, representing thousands of scientists 
working in industry, government, and academia.
                      national science foundation
    First, I wish to thank the subcommittee for its longstanding 
support for Federal science agencies. Despite the tough, ongoing fiscal 
challenges, the subcommittee has remained vigilant in its efforts to 
ensure adequate funding for basic research, particularly at the 
National Science Foundation. Thank you.
    COSSA joins the broader scientific community and the 21 Senators 
who signed the April 11 letter to the subcommittee in support of $7.5 
billion for NSF in fiscal year 2015, an increase of 4.6 percent. This 
amount would return NSF to its fiscal year 2010 funding level when 
adjusting for inflation and would allow the agency to recover some of 
the purchasing power lost in recent years due to sequestration and caps 
on discretionary spending. The amount would also attempt to put NSF 
back on track with the vision of the America COMPETES Reauthorization 
Act of 2010, which authorized NSF at $7.4 billion in fiscal year 2011, 
$7.8 billion in fiscal year 2012, and $8.3 billion in fiscal year 2013. 
If the U.S. is to maintain its scientific competitiveness on the global 
stage, we as a nation must continue to prioritize investments in 
science and technology and not abandon the aspirations set forth in the 
original America COMPETES Act of 2007 and its reauthorization in 2011.
    The U.S. scientific enterprise must remain insulated from political 
and ideological pressure if we are to encourage the most innovative 
science. As you move through the appropriations process this year, 
COSSA urges you to discourage and object to amendments that would 
defund or otherwise compromise specific research areas or programs at 
NSF, as we saw with the political science amendment in fiscal year 
2013. At a time when we should be investing in our knowledge economy 
and doing all we can to encourage a diverse scientific workforce, such 
efforts would instead have a chilling effect, discouraging the next 
generation of researchers to embark on science careers.
    Unfortunately, some recent efforts in the House seek to further set 
back the U.S. scientific enterprise. COSSA is deeply concerned about 
the impacts the Frontiers in Innovation, Research, Science and 
Technology Act (H.R. 4186), or FIRST Act, would have on NSF, the 
scientific community overall, and American innovation and intellectual 
competitiveness. Not only does the FIRST Act lack vision for the U.S. 
scientific enterprise by authorizing levels for NSF that would cut 
funding to the agency in terms of real dollars, it would also degrade 
NSF's gold-standard merit review process by seeking to micromanage the 
agency's award-making process. Regrettably, the legislation serves as a 
soapbox for lawmakers wishing to hurl ideological attacks on specific 
research areas, such as social and behavioral science or climate 
science. The inclusion of specific authorization levels for NSF's 
individual science directorates would set a dangerous precedent by 
allowing Congress to legislate what qualifies as meritorious science, 
as opposed to continuing to rely on a process that has served this 
Nation well; that is, entrusting qualified experts to make such 
determinations. It would also place scientific disciplines (i.e. 
biology, engineering, chemistry, social science, etc.) in direct 
competition with one another for scarce resources, thereby discouraging 
interdisciplinary science, which is becoming increasingly necessary for 
answering complex societal challenges.
    Equally distressing are the attempts to single out the Social, 
Behavioral and Economic Sciences (SBE) Directorate. The 
shortsightedness of critics of social and behavioral science research 
is disappointing. Publicly holding up individual research grants for 
ridicule based solely on their titles--research projects that a 
distinguished panel of scientific peers has determined meritorious--
misleads the American public by asserting that taxpayer funding is 
being wasted without fully understanding the projects, their intent, 
and the benefit to society and/or the progress of science.
    While we understand that the FIRST Act is an authorization bill and 
currently has no legal bearing on the fiscal year 2015 appropriations 
process, we are nonetheless concerned by these efforts in the House and 
any impact they might have on Senators looking to further target social 
and behavioral science funding at NSF. COSSA is hopeful that the Senate 
will reject the FIRST Act should it pass the House this year, and 
object to additional efforts to defund or devalue these NSF programs 
that have proven their value to the U.S. economy, national security, 
and the health of our citizens.
    As the Senate negotiates the CJS Appropriations bill this year, 
please consider the value of the social and behavioral sciences in 
helping to answer questions of national importance, such as how to 
convince a community in the path of a tornado to seek cover, or 
statistical analyses that help local governments understand crime 
patterns, among others. Without this science, and without an 
understanding of the fundamental nature of who we are, policy-making on 
major national issues will not be based on evidence and billions of 
dollars will be wasted.
    Below are just a few examples \1\ of impactful social and 
behavioral science:
---------------------------------------------------------------------------
    \1\ Bringing People Into Focus: How Social, Behavioral and Economic 
Research Addresses National Challenges, National Science Foundation 
(NSF 13-62).
---------------------------------------------------------------------------
  --Research supported by NSF has provided the Federal Communications 
        Commission (FCC) with its current system for apportioning the 
        airwaves via a fruitful, practical application of game theory 
        and experimental economics. Since their inception in 1994, FCC 
        ``spectrum auctions'' have netted over $60 billion in revenue 
        for the Federal Government. The U.S. system of partitioning 
        airwaves is now emulated in several other countries around the 
        world, resulting in total worldwide revenues in excess of $200 
        billion.
  --Researchers at Indiana University, Drexel University, and Arizona 
        State University developed spatial models to help manage the 
        location of sex offenders. Their research addressed concerns 
        regarding the impact of sex offender residency laws on a 
        community, considering important factors such as whether 
        residency restrictions lead to high concentrations of offenders 
        in specific areas, distribute the risk across a community 
        equitably, and keep sex offenders from living near minors. 
        Improving the development and evaluation of sex offender 
        residency policies in advance of any legislation allows public 
        officials the opportunity to consider the resulting 
        distribution of offenders in terms of local residents, better 
        meeting the needs of communities.
  --Researchers at Washington University in St. Louis investigated 
        emotion recognition using nonverbal cues such as facial 
        expressions, vocal tones, and body language. Based on this 
        research, the Army Research Institute now incorporates 
        education on nonverbal communication into soldier training, 
        thereby assisting troops in understanding cross-cultural, 
        nonverbal communication with non-English speaking citizens with 
        whom they interact overseas. Thus, this research has the 
        potential to provide human solutions in military situations. It 
        has been demonstrated that enhancing troops' interpersonal 
        skills can enable them to anticipate and diffuse conflict, as 
        well as facilitate cooperation, negotiation and compromise.
     national institute of justice and bureau of justice statistics
                       u.s. department of justice
    COSSA urges the subcommittee to appropriate $47.5 million for the 
National Institute of Justice (NIJ) and $55.4 million for the Bureau of 
Justice Statistics (BJS) within the U.S. Department of Justice (DOJ). 
These levels are equal to the President's fiscal year 2015 budget 
request. Taken together--roughly $100 million--this modest investment 
represents the only source of Federal research dollars committed to 
enhancing our understanding of crime and the criminal justice system.
    As the research arm of DOJ, NIJ plays a critical role in helping us 
understand and implement science-based strategies for crime prevention 
and control. The President seeks additional investment for the 
Comprehensive School Safety Initiative in fiscal year 2015 as part of 
the Opportunity, Growth, and Security Initiative; the initiative 
received $75 million in fiscal year 2014. COSSA urges the subcommittee 
to continue its support for this critical activity, the research from 
which will help ensure that policies and investments made at U.S. 
schools to address the safety of students, teachers and administrators 
will be evidence-based.
    BJS' national data collections play an important role in providing 
statistical evidence needed for criminal justice policy decision 
makers. In particular, these programs provide the critical data 
infrastructure supporting the administration's commitment to focus on 
data-driven, evidence- and information-based, ``smart on crime'' 
approaches. COSSA supports the request for an additional $1 million for 
the National Survey of Public Defenders and an additional $1.5 million 
for the National Public Defenders Reporting Program. Further, we 
endorse the administration's efforts to ``explore the feasibility of 
statistical collections in important topical priority areas, including: 
recidivism and reentry, prosecution and adjudication, criminal justice 
data improvements and victimization statistics.''
    Increased investment in criminal justice science is needed to 
ensure future policies and decisions are evidence-based and to contain 
escalating costs associated with public safety. COSSA applauds NIJ's 
increased efforts to disseminate research results to practitioners, 
putting it in the hands of those who need it.
                      bureau of economic analysis
                         department of commerce
    COSSA urges the subcommittee to appropriate $107 million for the 
Bureau of Economic Analysis (BEA) within the U.S. Department of 
Commerce. This is equal to the amount included in the fiscal year 2015 
budget request. BEA plays a critical role in helping the Nation 
understand our economy through the National Income and Product 
Accounts, which provides economic data at the national as well as 
industry levels.
    Further, BEA proposes a new $1.9 billion initiative in fiscal year 
2015, ``Big Data for Small Business.'' This would allow BEA to create a 
new Small Business Gross Domestic Product to track the health of the 
U.S. small business sector, thereby addressing the need for more public 
data relating to small businesses. COSSA supports this activity.
    Thank you for the opportunity to express these views on behalf of 
the social and behavioral science community. Please do not hesitate to 
contact me should you require additional information.
                                 ______
                                 
Prepared Statement of Ford ``Bud'' Cross, Ph.D. National Oceanographic 
            and Atmospheric Administration (NOAA) (Retired)
    This testimony addresses the portion of the National Oceanic and 
Atmospheric Administration's (NOAA's) fiscal year 2015 Budget that 
proposes to close their research laboratory in Beaufort, North 
Carolina, where I served as Laboratory Director from 1985-2000.
    The purpose of this testimony is to enter my strong objection to 
the proposed closure of NOAA's Beaufort Laboratory, Norlth Carolina by 
NOAA's National Ocean Service (NOS). Having worked at the Lab for 33 
years that included serving as Laboratory Director for 15 years, I 
would like to provide you with my assessment of the validity of the 
NOAA justification for closing the Beaufort Laboratory. (I still 
interact with Lab staff and visit the lab frequently.)
    NOAA's Beaufort Laboratory is part of the NOS National Centers for 
Coastal Ocean Science (NCCOS) and the Lab's official name is the 
National Center for Fisheries and Habitat Research. In addition to NOS 
(42), staff from the National Marine Fisheries Service (NMFS) (51), and 
the State of North Carolina (8) share the Beaufort facility. NCCOS also 
has research Centers or Laboratories in Charleston, S.C., Oxford, 
Maryland, Kasitsna Bay, Alaska, and two Centers at NOAA Headquarters in 
Silver Spring, Maryland. In recent years, NOAA has tried unsuccessfully 
to close two other NOS laboratories, Oxford, MD, and Kasitsna Bay, 
Alaska.
    NOS claims that about $58 million is needed to upgrade the Beaufort 
facility. This estimate is based on an outdated (2010), and somewhat 
inaccurate, facilities assessment report that resulted from a site 
visit in 2009. Since 2000, about $14.5 million has been spent to 
upgrade many structural deficiencies, and two new buildings were 
constructed ($8 million). Also, almost $1 million of Hurricane Sandy 
funds currently are being used to further upgrade the facility for 
storm protection, and the State of North Carolina is spending about 
$500,000 for storm water improvements as well. That's over $23 million 
in upgrades in less than 15 years.
    Why were these upgrades not taken into account when the fiscal year 
2015 budget was submitted? In my opinion, the argument that the 
Beaufort facility is in poor shape and an unsafe work environment is 
not accurate. The figure of $58 million to repair the facility does not 
take recent upgrades into account, and does not reflect a more recent 
informal inspection of the Lab where ``no structural issues'' were 
found. Thus, the Beaufort facility is not in a rundown condition, nor 
is it an unsafe place to work. A visit to the facility will bear these 
points out. Most of funds currently being identified as needed to 
repair the facility were actually identified to replace older buildings 
with state-of-the-art facilities in order to allow the Beaufort Lab to 
take full advantage of its location.
                        impact on nccos programs
    If the Laboratory is closed, the impact on the NCCOS research there 
will be significant, as much of it must be conducted in a laboratory 
and field setting. Priority research in the following areas would be 
disrupted or eliminated: harmful algal blooms, coastal toxic metal 
pollution, sea level rise, invasive species (lionfish), mapping of 
seagrass beds, and coastal planning for sustainable marine aquaculture. 
(Yet, NOS/NCCOS is requesting an additional $4 million in fiscal year 
2015 for similar work.) Several of the NCCOS scientists at Beaufort 
have received national and international awards for research, and one 
received the NOAA Lifetime Scientific Achievement Award. Virtually all 
of this research is conducted cooperatively with universities, State 
agencies, other Federal agencies, or other NOAA programs. Again, much 
of this research cannot be conducted away from the coast.
    Is this research of low priority to NOAA/NOS/NCCOS?
                        impact on nmfs programs
    Since 1899, when the Beaufort Laboratory was created by Congress, 
until 2000, the Laboratory belonged to the National Marine Fisheries 
Service, or its precursor agencies. In the late 1990's, the 
Administrator of NOAA directed the Assistant Administrator (AA) for NOS 
to develop a research capability within NOS. To satisfy that request, 
five field laboratories were transferred in 2000 from NMFS to NOS, 
including Beaufort. However, NMFS fisheries and protected species 
research remained at the Lab. Their contribution to O&M costs is based 
on the ratio of NOS to NMFS staff. The NMFS fisheries and protected 
species research would be highly impacted if the Lab closed. Much of 
this research is used by fisheries and protected species managers, and 
primarily requires the coastal Lab.
                      fisheries stock assessments
    The primary fisheries research at the Beaufort Lab deals with stock 
assessments of more than 100 species of reef fish (mainly snappers and 
groupers) that exist between Cape Hatteras and the Florida Keys. The 
Lab monitors the catch of about 100 head boats along the southeast 
Atlantic coast. They then combine these data with estimates of the 
commercial catch and other recreational catch to produce an estimate of 
the total fishing effort on the populations of reef fish. These data 
are then coupled with economic information to estimate the economic 
effect of various management scenarios. This information is then 
provided to the South Atlantic Fisheries Management Council who has the 
responsibility to manage fisheries in the exclusive economic zone 
(EEZ).
    The South Atlantic Fishery Management Council depends on the 
Beaufort Laboratory for providing the science upon which these 
management recommendations are based for the reef fish fishery. 
Attempts to transfer this staff to another location will fracture it, 
disrupt the flow of information to the South Atlantic Council, and 
result in an unnecessary expenditure of relocation funds.
                                menhaden
    The Beaufort Laboratory is the only entity that monitors the catch 
of the Atlantic menhaden fishery (since 1955), and the Gulf of Mexico 
menhaden fishery (since 1964). Stock assessments are made periodically, 
and the information is provided to the Atlantic States Marine Fishery 
Commission and the Gulf States Marine Fisheries Commission for 
management purposes. Similar to reef fish, the unnecessary disruption 
of this research will be costly. It could result in the loss of the 
longest and most continuous data bases in the U.S., and essential 
management information to the Commissions would be delayed at best.
                           protected species
    The unique geological location of the NOAA's Beaufort Laboratory 
lends itself to one of the best locations along the Atlantic coast to 
conduct research on marine mammals and sea turtles. This is due to the 
unique mix of estuarine habitats that exists in coastal North Carolina 
and the opportunity to interact directly with commercial fishermen. The 
objectives of this research are to better understand the direct and 
indirect effects of fisheries, climate change, and other environmental 
factors in support of the conservation and recovery of these species as 
mandated by Federal law. This research cannot be done effectively from 
a non-coastal location or out of North Carolina.
     noaa sentinel site cooperative (http://oceanservive.noaa.gov/
   sentinelsites/north-carolina.htlm) (http://oceanservice.noaa.gov/
                             sentinelsites)
    NOAA's Beaufort Laboratory is one of only five such sites that NOAA 
has established in the United States. These sites were established to 
leverage existing research and monitoring resources to ensure resilient 
communities and coastal ecosystems in the face of changing 
environmental conditions. The focus of the North Carolina site is sea 
level change and coastal inundation adaptation and planning. About 20 
partners (Federal, State, and other organizations) are involved in this 
effort in which the NOAA Lab is a key player. For more information on 
this Program, see the links given above. Why would NOAA pull the 
Beaufort Lab out of one of only five sentinel sites in the Nation?
        north carolina marine science and education partnership 
                            (www.ncmsep.com)
    The central portion of the North Carolina coast has been a focus of 
marine research for well over 100 years. After the establishment of the 
Beaufort Lab in 1899, the Duke Marine Laboratory and the University of 
North Carolina's Institute were established in the late 1940's and the 
North Carolina State University Marine Lab (CMAST) was established in 
the 1990's, all within five miles of each other. This concentration of 
labs has resulted in a center of expertise in coastal North Carolina of 
international and national significance. In 2002, the Carteret County 
Economic Development Council convened a meeting of the leaders of 
marine institutions and organizations and community leaders in the 
county. From that meeting, the North Carolina Marine Science and 
Education Partnership (MSEP) was formed. Currently, there are 18 
organizations that comprise MSEP, including the Carteret Country Public 
School System. Members of MSEP meet regularly to discuss ways to better 
cooperate on research, education, and outreach projects. For example, 
MSEP developed and is running a Coastal Marine Science Competition for 
13-18 year old
students in the multi-County region (https://www.sites.google.com/site/
msepcompetition/). For NOAA to eliminate the Beaufort Laboratory from 
such an organization so closely tied to their overall missions is 
puzzling at best.
                                summary
    1.  In my opinion, the justification for closing NOAA's Beaufort 
Laboratory is weak. The facility report is not up to date, and not 
entirely accurate. The $58 million price tag includes replacing the two 
story research building that would be beneficial but the laboratory is 
operational and safe without it. Also, NOAA has constructed a new 
maintenance building and a $7 million building to house administrative 
staff, the library and the NEERS staff, and has spent an additional $14 
million in facility upgrades, since 2000. I strongly urge that a site 
visit be made so Congress can be assured that the Lab is functional and 
safe.
    2.  The closing of the Lab will destroy critical masses in habitat, 
fisheries, and protected species research. NOAA argues that the 
scientists and support staff will be moved to other locations, but 
there is no plan. Those scientists and staff who chose not to move will 
be riffed. There is no way NOAA can successfully move any part of the 
staff in its entirety to maintain any semblance of a critical mass in 
any one of the three research areas. The result will be a major 
disruption of research that is of high priority to NOAA, and again, not 
for a valid reason.
    3.  NOAA prides itself in its capacity to reach out and interact 
with constituents and partners. The Beaufort Laboratory is the epitome 
of those relationships. A high percentage of the research conducted 
there is with collaborators. Graduate students and post-doctoral 
students from various universities, sponsored by Lab staff, conduct 
their research at the Laboratory. As described above, the Lab is an 
integral part of the North Carolina Marine Science and Educational 
Partnership and NOAA Sentinel Site project. Is it in the best interests 
of NOAA to walk away from these relationships?
                            recommendations
    I would like to make the following three recommendations to the 
subcommittee:

    1.  For reasons given above, please do not close NOAA's Beaufort 
Laboratory. The level of unnecessary disruption to research, 
partnerships, and personal lives is far too great for the questionable 
justification given.
    2.  If the Laboratory remains in NOS, it should have its own line 
item in the NOS/NCCOS budget. This will prevent NOS/NCCOS from 
continually bleeding the Lab of money and positions.
    3.  And my most preferred recommendation is to move the Beaufort 
Laboratory back to the National Marine Fisheries Service, where it 
spent its first 100 years. I cannot believe that NMFS agreed up front 
to this proposed closure. The impact to their programs is too great. It 
would be interesting to know if a paper trail exits between NOS and 
NMFS on this matter.
                                 ______
                                 
  Prepared Statement of Michelle Duval, Morehead City, North Carolina
    As a resident of Carteret County and a fisheries management 
professional engaged at both the State and Federal levels, I want to 
express my opposition to the proposed closure of the National Oceanic 
and Atmospheric Administration (NOAA) Beaufort Lab. The lab has a rich 
history of conducting a wide variety marine science research. There are 
significant collaborations that occur between the Beaufort Lab and 
academic institutions in the area that inform the science used for 
management. Closure of the Beaufort Lab would eliminate those 
collaborations, simply due to the fact that those researchers will not 
be in close proximity to one another. Having received my doctorate in 
1997 from the Duke Marine Lab, which shares Pivers Island with the NOAA 
Beaufort Lab, I have witnessed these collaborations firsthand. However, 
I wanted to express a few very specific concerns regarding fisheries 
science and long term fiscal impacts of the lab closure that merit 
consideration. (Please note that I am not an employee of the Beaufort 
Lab).

    1.  Impacts to fishery-independent surveys.--Most of the federally-
managed fish species in the southeast are considered ``data poor'' when 
compared to other regions, particularly the snapper grouper complex. 
Information collected through fishery-independent surveys (i.e., 
surveys that do not rely on commercial and recreational catches) is 
critical to filling in knowledge gaps regarding species distribution, 
abundance, longevity and reproduction--essential elements for a stock 
assessment. There is only one fishery-independent survey for snapper 
grouper species in the southeast, and its geographic range has always 
been limited by available resources. Only since 2010 have the necessary 
staff resources been allocated to the Beaufort Lab to expand the 
northern range of this survey from just south of Cape Lookout, North 
Carolina north to Cape Hatteras, North Carolina (as well as add a video 
monitoring component to the survey). Closing the lab and relocating the 
staff would set this program back substantially through survey 
interruption and re-hiring of staff with the appropriate skills to 
replace those unable to relocate.
    2.  Impacts to fisheries stock assessments.--It has taken 10 years 
to build the necessary analytical capacity at the Beaufort Lab to 
conduct much-needed stock assessments for commercially and 
recreationally important fishes in the southeast. These scientists work 
together as a team in completing assessments; they also work side by 
side with the survey scientists mentioned above, as well as the 
scientists who process the biological samples collected to provide 
information critical for the assessments. The ability for the 
assessment team to interact directly with the other teams of scientists 
collecting the data is invaluable. Closing the Beaufort Lab and 
relocating personnel would have significant negative impacts on the 
efficiency and productivity of the process, at a time when the demands 
have never been greater. It will not be possible to relocate all 
personnel to a single location, and the fact is that not all personnel 
will be able to relocate due to spousal commitments, childcare 
obligations, etc. The existing team of assessment scientists are 
nationally and internationally respected and not easily replaced. Loss 
of specialized skill sets that have taken years to acquire is a very 
real risk.
    3.  Downstream fiscal impacts.--Closure of the lab and relocation 
of staff will have significant downstream fiscal impacts that do not 
appear to have been taken into consideration. The development of stock 
assessments in the southeast is a very collaborative process, involving 
the assessment team, other State and Federal agency scientists, and 
fishermen coming together in person to review and discuss data being 
considered for an assessment. Moving the staff from the Beaufort Lab to 
other locations (such as the NOAA lab in Pascagoula) will incur 
additional travel costs in the form of bringing those staff back into 
the region for stock assessments, (or transporting all other 
participants to where the assessment team is located). Similarly, there 
will be additional travel costs to bring fishery independent survey 
staff back to cruise deployment locations; this would likely reduce the 
magnitude of future sampling efforts at a time when they need to be 
expanded, both spatially and temporally.

        With regard to local impacts, even if all existing staff were 
able and willing to relocate (which is unlikely, as noted above), the 
cost of relocation and potentially buying those staff out of existing 
homes is not trivial. The economy and current real estate market simply 
cannot absorb such an influx of houses. At the local level, these NOAA 
employees are important, year-round contributors to an economy that is 
seasonally dependent on tourism.

    Finally, NOAA's proposal to close the lab would leave a notable 
absence in geographic coverage between Sandy Hook, New Jersey and 
Miami, Florida along the Atlantic coast. This is at odds with the NOAA 
presence along the Gulf of Mexico, with labs located in Panama City, 
Florida; Pascagoula, Mississippi; Stennis, Mississippi; Lafayette, 
Louisiana; and Galveston, Texas. This coverage along the Gulf coast 
represents a much larger investment of resources over a shorter stretch 
of coastline. Given the Beaufort Lab's location near the intersection 
of two major biological and oceanographic convergence zones, it seems 
the agency should be investing more in this facility rather than less, 
particularly in light of NOAA's commitment to determining the impacts 
of climate change on fisheries resources. In closing, the $54 million 
figure being cited as the cost of maintaining the Beaufort Lab appears 
excessive considering the condition of the facilities. While I 
appreciate the administration's desire to reduce its overall footprint, 
an updated maintenance estimate and comparison to similar NOAA 
facilities should be considered.
    I very much appreciate the opportunity to comment on such an 
important issue.
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for the 
National Science Foundation (NSF). ESA requests a robust fiscal year 
2015 appropriation of $7.5 billion for NSF, including strong support 
for the Directorate for Biological Sciences (BIO).
    Advances in basic biological sciences, including entomology, 
provide the fundamental knowledge that is the basis for overall 
scientific progress and the development of new technologies and 
strategies that address societal challenges related to economic growth, 
security, and human health and well-being. Entomologists' basic 
research on insect anatomy, classification, and genetics improves our 
understanding of evolution and biodiversity. Better knowledge of insect 
behavior and the dynamics of insect populations is an important 
component to the study of ecosystems and the environment. Additionally, 
insects play a critical role in our ability to explore the 
underpinnings of biological processes at the cellular and molecular 
level. Insects including Drosophila flies have long served as model 
systems for animals that scientists use to study biochemistry, 
microbiology, molecular biology, and toxicology, among other subjects. 
In many cases, insects are ideal for use in laboratory experimentation 
because they are inexpensive, easy to handle, have relatively short 
life spans, and do not require special facilities required to maintain 
vertebrate animals.
    NSF is the only Federal agency that supports basic research across 
all scientific and engineering disciplines, except for the medical 
sciences. In fiscal year 2013, the foundation supported an estimated 
299,000 researchers, scientific trainees, teachers, and students, 
primarily through competitive grants to nearly 2,000 colleges, 
universities, and other institutions in all 50 States. NSF also plays a 
critical role in training the next generation of scientists and 
engineers, ensuring our Nation will remain globally competitive in the 
future. For example, the NSF Graduate Research Fellowship Program 
selects and supports science and engineering graduate students 
demonstrating exceptional potential to succeed in science, technology, 
engineering, and mathematics (STEM) careers.
    Through activities of its BIO Directorate, NSF advances the 
forefront of knowledge about complex biological systems at multiple 
scales, from molecules and cells to organisms and ecosystems. In 
addition, the directorate contributes to the support of research 
resources, including important biological collections and biological 
field stations. NSF BIO is also the Nation's primary funder of 
fundamental research on biodiversity and environmental biology.
    For example, NSF-funded researchers have recently examined the 
wide-ranging effects of an ongoing bark beetle invasion which threatens 
the destruction of millions of acres of forests in the Western United 
States.\1\ The death of pine trees caused by bark beetles has severe 
implications for the forest's canopy and water systems, and creates 
conditions that favor devastating forest fires. The study has provided 
new insights into how invasive insect species that damage or destroy 
plants can affect entire ecosystems at the watershed scale.
---------------------------------------------------------------------------
    \1\ Mikkelson, KM, et al. ``Bark beetle infestation impacts on 
nutrient cycling, water quality and interdependent hydrological 
effects.'' Biogeochemistry (2013).
---------------------------------------------------------------------------
    Another NSF-funded researcher \2\ is studying a phenomenon that 
allows a locust to change its color depending on how densely populated 
an area is with other locusts; this trait is believed to cause locust 
swarms, which can be very destructive to agriculture. Migratory locust 
swarms, one of the biblical plagues, continue to contribute to famine 
in Africa. The current research is examining how the locusts change 
their appearance, and whether these genetic traits can be manipulated 
to maintain an appearance that is not conducive to forming swarms. The 
results of this study could provide a new way to control locusts 
without relying on chemical pesticides, which can have negative effects 
on the surrounding ecosystem.
---------------------------------------------------------------------------
    \2\ CAREER: ``Evolution of locust swarms and phenotypic plasticity 
in grasshoppers.'' NSF Award Abstract #1253493.
---------------------------------------------------------------------------
    One example of how NSF's support for basic research using insects 
contributes to our understanding of human and animal biology is a 
recent NSF-funded study on the behaviors of Drosophila vinegar 
flies,\3\ which has advanced scientists' knowledge about neurobiology 
of insects, animals, and humans. The results of the research may also 
help inform the field of robotics; scientists believe that modeling the 
functions of the insect brain can help develop algorithms able to 
control robotic systems. Other NSF-funded research on Drosophila 
genetics \4\ is helping scientists understand gene mutations in humans, 
as humans and these tiny flies share conserved genetic similarities.
---------------------------------------------------------------------------
    \3\ van Breugel, F, et al. ``Plume-tracking behavior of flying 
Drosophila emerges from a set of distinct sensory-motor reflexes.'' 
Current Biology (2014).
    \4\ CAREER: ``Investigating the evolution of gene regulation at 
Drosophila Hox genes.'' NSF Award Abstract #0845103.
---------------------------------------------------------------------------
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, ESA supports an 
overall fiscal year 2015 NSF budget of $7.5 billion. Within this 
budget, ESA requests robust support for the NSF BIO Directorate, which 
funds important research studies and biological collections, enabling 
discoveries in the entomological sciences to contribute to our 
understanding of environmental and evolutionary biology, physiological 
and developmental systems, and molecular and cellular mechanisms.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for NSF. For more information about the Entomological 
Society of America, please see http://www.entsoc.org/.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2015 appropriation of a 
minimum of $7.6 billion for the National Science Foundation (NSF). This 
demonstrates commitment to the critical mission of the agency and is an 
important first step in returning to a model of sustainable growth.
    FASEB, a federation of 26 scientific societies, represents more 
than 120,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. Our 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences.
    Progress in science and technology is becoming increasingly 
interdisciplinary, as discoveries in one field fuel progress in 
another. NSF is the only Federal research agency dedicated to advancing 
all fields of fundamental science and engineering. As a result, the 
broad research portfolio of NSF is critical for our Nation's capacity 
for innovation and essential for our prosperity, quality of life, and 
national security.
    The NSF Graduate Research Fellowship Program awards approximately 
2,500 3-year fellowships annually to outstanding graduate students 
pursuing advanced degrees in science, technology, engineering, or 
mathematics. These fellowships support the education and training of 
the next generation of researchers, ensuring a robust and competitive 
workforce. NSF graduate research fellows have become leaders in the 
scientific community.
    Of the U.S. Nobel Laureates in the sciences, 200 received NSF 
funding over the course of their careers, including the 2013 prize 
winners in physiology or medicine, chemistry, and economics.
    Recent examples of NSF-funded research include:
  --Harnessing More Solar Energy.--Researches have developed a new 
        material for solar panels that is cheaper, more efficient, and 
        can harness energy from visible and infrared light, unlike 
        previous materials that could only use ultraviolet light. The 
        new material, developed by NSF-funded researchers, increases 
        efficiency by absorbing and converting six times the energy of 
        its predecessors. Researches are currently scaling up the 
        prototype to a full size solar panel for implementation on the 
        national power grid.
  --New Microscope Detects the Movement of Atoms.--NSF-funded 
        researchers have developed a new electron microscope that can 
        detect the movement of atoms and molecules. The cutting-edge 
        technology allows users to observe the fundamental 
        transformations of matter: chemical reactions and the electric 
        charges of interacting atoms. The new microscope has immediate 
        applications in the clean energy industry, development of 
        nanotechnology, and countless other scientific endeavors.
  --Preventing Post-operative Infections.--Infection at the surgical 
        site is one of the most common types of post-operative 
        complications, which lengthens hospital stays and increases 
        healthcare costs. Scientists with NSF support have developed a 
        new antibiotic coating for surgical sutures. Lab tests have 
        shown that the new coating is 1,000 times more effective at 
        preventing infection than previous coatings, and even prevents 
        the spread of staphylococcus aureus, the variety of ``staph'' 
        that frequently causes virulent post-surgical infections.
  --New Storm Radar Saves Lives.--Researchers supported by NSF are 
        building an advanced radar network to detect severe storms 
        earlier. Using novel algorithms, the network can generate 
        information faster and with more geographic specificity, 
        enabling first responders to take action before a storm hits. 
        Researchers are currently testing the system in southwestern 
        Oklahoma and Dallas/Ft. Worth, Texas. Once it is broadly 
        implemented, the system will reduce injuries, enable first 
        responders to be more effective, and save lives.
  --Preserving Bat Colonies to Protect the Ecosystem.--Agricultural 
        pests cost the U.S. farm industry over $1 billion per year in 
        lost crop yield and additional cost of pesticide use. NSF-
        funded researchers studied bat colonies in the cotton and corn 
        growing region of southern Texas and found that bats are 
        valuable to farmers because they consume insects that destroy 
        crops, reducing the need to use pesticides. Protecting bat 
        colonies in crop-growing regions will both decrease pesticide 
        cost to farmers and reduce the presence of chemicals on food 
        people eat.
                     maintaining global leadership
    Scientific and technological advances keep our Nation 
internationally competitive by spurring the innovations that fuel 
economic growth. NSF's broad portfolio of fundamental research expands 
the frontiers of knowledge, opening the way to these innovations. 
Through its education initiatives, NSF ensures that the U.S. will 
continue to have an unrivaled scientific and engineering workforce.
    NSF-funded research leads to major scientific breakthroughs, many 
of which provide the basic knowledge that stimulates innovation in the 
private sector. We must build on prior NSF investment and provide an 
adequate funding level to advance discovery, educate the next 
generation of scientists and engineers, and retain our position as the 
global leader in innovation. In fiscal year 2015, FASEB recommends a 
minimum of $7.6 billion for the NSF. This is the level that the America 
COMPETES Act authorized for the agency for 2011 and is an important 
first step in returning to a model of sustainable growth.
    Thank you for the opportunity to offer FASEB's support and 
recommendations for the NSF.
                                 ______
                                 
   Prepared Statement of John Fieberg, Ph.D., Assistant Professor of 
 Quantitative Ecology, Department of Fisheries, Wildlife, Conservation 
                    Biology, University of Minnesota
    Dear Members of the Senate Appropriations Subcommittee of Commerce, 
Justice, Science, and Related Agencies: I recently became aware of the 
National Oceanic and Atmospheric Administration's (NOAA's) National 
Ocean Service's (NOS) request to close the Beaufort Laboratory. Having 
collaborated with scientists at the Beaufort lab, I am well aware of 
the many ways the laboratory's staff contribute to NOAA's mission: they 
provide state-of-the-art fishery stock assessments that help to 
determine how many fish can be sustainably caught in the southeast 
United States, they conduct fishery-independent surveys to collect the 
data necessary for conducting informative stock assessments, and they 
conduct cutting edge research aimed at improving the way we ``do'' 
science in support of fisheries management. In short, closing the 
Beaufort lab would be a significant loss, not only for the 100-110 
staff employed by the lab, but also the fishing and marine science 
communities that benefit from their work. Thus, I am writing to request 
that NOAA's Beaufort Laboratory closure proposed in the 2015 
President's Budget Request be removed from the NOS budget.
    The recommendation to close the laboratory was largely driven by 
financial considerations related to the long-term cost of maintaining 
the infrastructure at the laboratory. Unfortunately, this decision was 
based on inaccurate, outdated information that overstated the costs of 
maintaining the NOAA Beaufort Laboratory. Several recent investments in 
new construction and renovations, totaling approximately $14 million 
dollars, were not properly considered when making the recommendation. 
Recent facility improvements include:

  --2006: Administration Building replaced (with North Carolina NERRs)
  --2007: Bridge replaced--cost shared with Duke University
  --2008: Maintenance Building replaced
  --2009: Air conditioning/Air handler replacement and mold abatement
  --2009:  Sample Storage/Chemical Storage/Haz-Mat buildings 
        consolidated and replaced
  --2014:  Seawall repair, electrical upgrade and State of North 
        Carolina funded storm water control

    In addition, the NOS request underestimated the staff that would be 
impacted by the closure by not including the more than 40 National 
Marine Fisheries Service staff and staff members of the North Carolina 
National Estuarine Research Reserve co-located at the facility.
    It is surprising that the request for closure comes at a time when 
the National Ocean Service is requesting an increase of $4 million in 
funding for another center to support Ecological Forecasting of Harmful 
Algal Blooms (HAB), Hypoxia, pathogens and Species Distributions (see 
budget summary, page 8, paragraph 1). The Beaufort Laboratory has both 
the expertise and facilities required to address these issues. 
Researchers and research teams at the Beaufort Laboratory have 
repeatedly been recognized for their work. Further, the laboratory's 
excellent research capabilities and reputation also attract support, 
both from other branches of NOAA and from other organizations which 
have recognized potential benefits of the Laboratory's studies, and 
long have augmented the support provided by NOAA.
    In summary, the closing of the Beaufort Laboratory does not make 
economic sense, given the recent investments in facility infrastructure 
and the need to address emerging marine issues identified by the 
National Ocean Service. More importantly, closing the laboratory would 
have significant negative consequences for the 100-110 staff employed 
by the lab and also the large fishing and marine science communities 
that rely on the outstanding quality of work of the lab and its 
members.
                                 ______
                                 
     Prepared Statement of Dr. Janelle Fleming of Seahorse Coastal 
             Consulting, LLC and Discovery Diving Co., Inc.
In Re:  Potential closing of Beaufort, North Carolina laboratory of 
    NOAA, National Marine Fisheries Service, Southeast Fisheries 
    Science Center.

    Dear Committee on Appropriations Senators,

    This letter is not a formal testimony, but rather a comment on how 
this laboratory has guided some of my research as a student and as an 
independent consultant and how essential the lab is to the functioning 
of the local economy and research. You may or may not be aware of the 
fact that President Obama has targeted the closing of the Beaufort 
National Oceanic and Atmospheric Administration (NOAA) lab as part of 
the 2014-2015 budget proposal. This is the only Federal lab between 
Miami, Florida and Sandy Hook, New Jersey. This lab houses over 150 
scientists, technicians, and office personnel that conduct important 
research locally as well as nationally and internationally.
    In terms of ecology and physical oceanography, North Carolina is in 
a unique position because it maintains both tropical and temperate 
characteristics. During the summer, the Gulf Stream pushes up from 
Florida and winds bring it close to shore, bringing it with tropical 
species of algae and animals (fish, mammals, etc). During the winter, 
the Greenland current pushes down from the North Atlantic and brings 
the temperate species into the area. The capes also allow for a 
tremendous amount of recirculation within the area and these different 
species have learned to adapt to the changing currents found of the 
North Carolina coast. All this is to say that North Carolina is 
uniquely situated to study fisheries issues, sediment transport issues, 
wind energy issues, and sea level rise issues, just to name a few. The 
NOAA lab has been essential in understanding the scientific root cause 
of some of the major questions about physical circulation and its role 
governing the ecology of the area.
    As a graduate student, I had the fortune of working with some of 
the NOAA scientists on my Ph.D. project. Their advice in terms of data 
collection and analysis, were pivotal in determining some of the causes 
of wind-driven circulation in the Neuse River Estuary and how that 
might lead to fish kills. As the scientists were down the street, I 
could call them, make an appointment and meet with them that day. 
Nowhere else in the world, do you get that type of interaction. In 
Beaufort, we are able to do this because of the logistics.
    As an independent consultant, I was able to work with Dr. Pat 
Tester on Harmful Algal Blooms, both in North Carolina, South Carolina, 
Georgia and Florida, but also in Belize. Innovative measurement and 
monitoring techniques have been developed at the Beaufort NOAA lab in 
conjunction with the local universities in the area, Duke University, 
North Carolina State University, and University of North Carolina-
Chapel Hill.
    Finally, I have been collaborating with Dr. James Morris on the 
Lionfish invasive species epidemic that is affect the local fisheries 
in North Carolina as well as Florida and the Caribbean. We have just 
recently started an experimental project that seeks to develop a 
commercial fishery for the lionfish. Being able to communicate with the 
researchers face to face has lead to several advancements in our 
experimental techniques and furthered the studies.
    In closing, when you look at this item in the President's budget 
proposal, I would like you to think of three things:
    1. What would the removal of a vibrant research organization do on 
the ``brain drain'' within a local community, rich with university 
collaboration?
    2. Does it make sense to centralize and reduce the number of 
laboratories that cover the coast, given that each region has their own 
specific characteristics?
    3. If the laboratory is closed, more money and time would be lost 
in transitioning those full time Government employees to a different 
laboratory and the research that they are currently working on would be 
delayed 2-3 years.
    Please reconsider this budget as the Beaufort NOAA lab affects 
approximately $58 million into the local economy and aids in fisheries 
independent research such as advanced procedures in stock assessment, 
fisheries oceanographic research, and oceanic observations.
    Thank you,
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) supports strong and 
sustained investments in earth science research and education at the 
National Science Foundation (NSF) and National Aeronautics and Space 
Administration (NASA). We believe investment in these agencies is 
necessary for America's future economic and science and technology 
leadership, both through discoveries that are made and the talent 
developed through their programs. In addition, this research addresses 
such critical societal issues as energy and mineral resources, water 
availability and quality, climate change, waste management, and natural 
hazards. The United States faces a looming shortage of qualified 
workers in these areas that are critical for national security. We are 
very concerned that cuts in earth science funding will cause students 
and young professionals to leave the field, potentially leading to a 
lost generation of professionals in areas that are already facing 
worker shortages and inhibit potential economic growth. GSA urges 
Congress to provide the National Science Foundation at least $7.5 
billion in fiscal year 2015.
                about the geological society of america
    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
    As the National Science Board's recent 2014 Science & Engineering 
Indicators reports, America's share of the world's R&D fell from 37 
percent to 30 percent from 2001 and 2012. As other nations have been 
increasing their support for long-term, high-risk research, we have 
been allowing ours to stagnate or decline. We must reverse that trend 
and tackle our mounting innovation deficit if we want to retain our 
global economic leadership.
                      national science foundation
    The Geological Society of America (GSA) urges Congress to provide 
the National Science Foundation (NSF) at least $7.5 billion in fiscal 
year 2015. GSA greatly appreciates your efforts to increase the NSF 
budget in recent years. Although NSF was able to regain some of its 
loss from sequestration in fiscal year 2014, GSA remains concerned 
about the impact of flat and declining research budgets on our Nation's 
future innovations and innovators. We feel that allowing NSF's budget 
to catch up with research inflation costs over the past few years is 
the first step to putting NSF back on the path necessary to maintain 
and regain America's future economic and science and technology 
leadership. We are concerned about the cuts to the Research and Related 
Activities Account and flat funding (0.1 percent increase) in 
geoscience research in the request, but appreciate that $552 million 
was proposed to allow growth in the agency in the Opportunity, Growth, 
and Security Initiative.
    The Earth sciences are critical components of the overall science 
and technology enterprise and NSF investment and should be increased. 
NSF's Directorate for Geosciences supports approximately 65 percent of 
all basic university research in the geosciences: the largest Federal 
support for Earth science research essential for developing policies 
regarding land, mineral, energy, public safety and water resources at 
all levels of government. This Directorate regularly receives a large 
number of exciting research proposals that are highly rated for both 
their scientific merit and their broader impacts; the funding rate for 
research grants dropped to 23 percent last year, leaving many 
meritorious projects unfunded.
    Increased investments in NSF's earth science portfolio are 
necessary to address such issues as natural hazards, energy, water 
resources, climate change, and education. Specific needs include:
  --Natural hazards remain a major cause of fatalities and economic 
        losses worldwide. Several areas in the United States are 
        vulnerable to damages from earthquakes, tsunamis, volcanoes, 
        and landslides--as evidenced by the recent landslide in 
        Washington. NSF research that improves our understanding of 
        these geologic hazards will allow for better planning and 
        mitigation in these areas that will reduce future losses. We 
        urge Congress to support NSF investments in fundamental earth 
        science research that underpin basic understanding and 
        innovations in natural hazards monitoring and warning systems.
  --Mineral resources are essential to modern civilization, and a 
        thorough understanding of their distribution, consequences of 
        their use, and the potential effects of mineral supply 
        disruption is important for sound public policy. The Division 
        of Earth Sciences supports proposals for research geared toward 
        improving the understanding of the structure, composition, and 
        evolution of the Earth and the processes that govern the 
        formation and behavior of the Earth's materials. This research 
        contributes to a better understanding of the natural 
        distribution of mineral and energy resources for future 
        exploration. In particular, GSA encourages support for research 
        on critical minerals, for which our Nation is dependent upon 
        foreign sources.
  --The devastating droughts in California highlight our dependence on 
        water. NSF's research addresses major gaps in our understanding 
        of water availability, quality, and dynamics, and the impact of 
        both a changing and variable climate, and human activity, on 
        the water system. Increased public investment is needed to 
        improve the scientific understanding of water resources, 
        including improved representation of geological, biological, 
        and ecological systems, for informed decisionmaking.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's deep-time history 
        can increase confidence in the ability to predict future states 
        and enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
             national aeronautics and space administration
    GSA supports earth science and planetary exploration research at 
NASA and is concerned about cuts in the fiscal year 2015 request, 
although increases are proposed in the Opportunity, Growth, and 
Security Initiative. This research is important to understand the 
evolution of Earth; to deepen and expand human understanding of our 
place in the universe; to reinforce science, technology, engineering 
and math (STEM) education and effective training of the next generation 
of scientists; to increase U.S. competitiveness in science and 
technology development; and to enhance the quality of life through 
technological innovation. In addition, the discoveries and technologies 
of these programs form the basis of many industries and partnerships 
that drive economic growth.
    Planetary missions at NASA are designed to collect data to better 
understand the history and workings of the entire solar system, to gain 
insight into the formation and evolution of Earth and the other 
planets, to understand how life began on Earth, and to determine 
whether extraterrestrial habitable environments and life forms exist 
(or ever did exist) elsewhere in the solar system or beyond. To support 
these missions, planetary scientists engage in both terrestrial field 
studies and Earth observation to examine geologic features and 
processes that are common on other planets, such as impact structures, 
volcanic constructs, tectonic structures, and glacial and fluvial 
deposits and landforms. Geochemical studies include investigations of 
extraterrestrial materials now on Earth, including lunar samples, tens 
of thousands of meteorites, cosmic dust particles, and, most recently, 
particles returned from comets and asteroids.
    Exploration of other planets in the solar system requires major 
national and international initiatives, significant funding levels, and 
long timelines for mission planning and collaborative research. For 
scientists, the funding cycle is much shorter than typical mission 
cycles, and in particular, graduate student and career-development 
timelines are much shorter than mission timeframes. Therefore, the 
growth and continued development of a robust workforce capable of 
conducting complex space missions and analyzing the scientific data 
returned from such missions does not depend on individual missions as 
much as it depends upon a consistent, sustained program that educates 
and develops planetary scientists.
    GSA supports NASA earth observing systems, including Landsat, and 
their research into our planet. By providing adequate resources to 
maintain current and develop next-generation satellites, the Nation 
will continue to have access to data that is used by diverse 
stakeholders ranging from farmers to water managers to make critical 
decisions.
      support needed to educate future innovations and innovators
    Research in Earth science and geoscience education is fundamental 
to training the next generation of Earth science professionals. The 
United States faces a looming shortage of qualified workers in these 
areas that are critical for national security. We are very concerned 
that cuts in earth science funding will cause students and young 
professionals to leave the field, potentially leading to a lost 
generation of professionals in areas that are already facing worker 
shortages.
    A 2013 report by the National Research Council, ``Emerging 
Workforce Trends in the Energy and Mining Industries: A Call to 
Action,'' found, ``Energy and mineral resources are essential for the 
Nation's fundamental functions, its economy, and its security . . . In 
mining (nonfuel and coal) a personnel crisis for professionals and 
workers is pending and it already exists for faculty.''
    Another recent study, ``Status of the Geoscience Workforce 2011,'' 
by the American Geosciences Institute found: ``The supply of newly 
trained geoscientists falls short of geoscience workforce demand and 
replacement needs. . . . aggregate job projections are expected to 
increase by 35 percent between 2008 and 2018. . . . The majority of 
geoscientists in the workforce are within 15 years of retirement age. 
By 2030, the unmet demand for geoscientists in the petroleum industry 
will be approximately 13,000 workers for the conservative demand 
industry estimate.''
    Increased NSF and NASA investments in earth science education at 
all levels to meet these needs and develop an informed electorate. 
Knowledge of the earth sciences is essential to science literacy and to 
meeting the environmental and resource challenges of the twenty-first 
century. NSF's Education and Human Resources Directorate researches and 
improves the way we teach science and provide research and fellowship 
opportunities for students to encourage them to continue in the 
sciences. Similarly, NASA's educational programs have inspired and led 
many into science careers.
    Please contact GSA Director for Geoscience Policy Kasey White at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed869a85849988ad8a88829e828e84889994c3829f8a">[email&#160;protected]</a> for additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, planetary research, energy and mineral resources, 
natural hazards, climate change, and public investment in earth science 
research.
                                 ______
                                 
   Prepared Statement of John J. Govoni, Ph.D., Ecological Consultant
    In the President's Budget request for 2015, the National Oceanic 
and Atmospheric Administration (NOAA), National Ocean Service (NOS), 
proposes to close the NOAA Laboratory located in Beaufort, North 
Carolina (reference the President's fiscal year 2015 Budget for NOS, 
Coastal Science, Assessment, Response and Restoration: NOAA Blue Book, 
page 8). The reasons given are cost savings by closing an aged 
facility. The request does not, however, cite dollar amounts that would 
be incurred with closure, and ignores the $14 million dollars recently 
invested in infrastructure replacements and refurbishments at the 
Beaufort Laboratory. The United States Government can ill-afford to 
close the Beaufort Laboratory, as proposed in the President's fiscal 
year 2015 budget request.
    The Beaufort Laboratory located in Beaufort, North Carolina, was 
formerly named the U.S. Fisheries Commission Laboratory at Beaufort and 
the Beaufort Laboratory of the NOAA--National Marine Fisheries Service 
(NMFS), and is now formally named the NOAA, NOS, Center for Coastal 
Fisheries and Habitat Research (CCFHR). It is the second oldest Federal 
marine research Laboratory in the U.S. For the past 115 years, the 
Beaufort Laboratory has served the Nation by providing timely and much 
needed research products used to guide the effective management of the 
Nation's natural resources. The Beaufort Laboratory has gained 
prominent recognition, reputation, and credibility both nationally and 
internationally. It is the only Federal, coastal ocean, research 
laboratory between New Jersey and Miami, Florida.
    The Beaufort Laboratory operates research programs within three 
different NOAA components: NOS, NMFS, and the National Estuarine 
Research Reserve System (NERRS). No consideration of NMFS or NERRS 
operations, given the proposed closure, is reflected in the President's 
budget request for NOS fiscal year 2015. If enacted, the closure 
proposed to begin as early as October 2014, will have severe impacts on 
the multiple programs of NMFS, NOS, and NEERS.
    Curiously, in the same budget proposal, NOAA requests an increase 
of $4 million to support ecological forecasting. With this increase, 
NOAA and NOS' National Centers for Coastal Ocean Science (NCCOS) will 
develop and implement ecological forecasts for harmful algal blooms 
HABs), hypoxia, marine pathogens, and marine species distributions. 
Ironically, at the same time it is proposing to close the Beaufort 
Laboratory; the Beaufort Laboratory has well-established expertise and 
facilities required to address many of those very same issues, and is 
currently doing so. Closure of the Beaufort Laboratory would be 
operationally and fiscally irresponsible.
    The laboratory currently employs nationally and internationally 
known scientists, who are providing essential and necessary support for 
the resolution of other national issues (NOS). These issues include: 
the impacts of invasive species on marine ecological communities; 
ecological forecasting of the condition of habitats and ecosystems that 
support many commercially and recreationally exploited species; harmful 
algal blooms that can and do impact human health; and aquaculture 
planning and sustainability for the Atlantic and Pacific coasts, Gulf 
of Mexico, Caribbean (U.S. possessions), and the Hawaiian archipelago. 
The Beaufort Laboratory also supports efforts at recovery from oil 
spills, coral reefs, and sea-grass beds, and the restoration of the 
Nation's shorelines and marshes. The Beaufort Laboratory's excellent 
research capabilities and reputation have attracted, and continue to 
attract, support from other branches of NOAA, from other Federal 
Organizations, and from non-governmental organizations (NGO's) that 
have long recognized the benefits provided by the Beaufort Laboratory. 
This inter-agency cooperation, and the efficiency that this cooperation 
provides, would be lost with closure.
    The Beaufort Laboratory (NMFS) conducts fish stock assessments for 
the South Atlantic Fishery Management Council, the Caribbean Fisheries 
Management council, the Gulf States Marine Fisheries Council, and the 
Atlantic States Marine Fisheries Commission. These are all 
organizations mandated by Federal Law. The support of management 
councils and Commissions provided by the Beaufort Laboratory would be 
lost with the closure of the Beaufort Laboratory. Closure is thus 
organizationally irresponsible.
    The Beaufort Laboratory currently employs 71 Federal employees and 
33.5 contractors. Some of the Federal employees could be relocated, but 
contract employees would lose their jobs. Further, the cost of 
relocating permanent Federal employees is not accounted for in the 
President's budget request. Eight North Carolina State employees work 
at the Rachel Carson National Estuarine Research Reserve (a reserve 
within the NERRS System) headquartered at the Beaufort Laboratory. The 
impacts to the employees, their families, and the local community have 
not been evaluated in the proposed budget request. Thus, closure would 
be an embarrassment to a Government committed to increasing job 
opportunities and supporting economic recovery.
    The President's budget for fiscal year 2015 cites the age of the 
Beaufort Laboratory and the need for infrastructure repairs and 
improvements that exceed agency budget resources. Considerable tax 
dollars have been invested in renovating the Beaufort Laboratory; 
dollars invested toward this end since 2006 currently approach $14 
million. A new administration building, that serves not only NOS and 
NMFS operations at the Beaufort Laboratory, but also the North 
Carolina, Department of the Environment and Natural Resources, Division 
of Coastal Management and the Rachael Carson, has been constructed, and 
has been in operation for 10 years. A new Bridge that accesses Pivers 
Island--both the Beaufort Laboratory and the Duke University Marine 
Laboratory--has been constructed and is in operation. A new Maintenance 
Facility has been constructed. A new scientific collection storage 
building has been constructed. Storm-water drainage systems have been 
constructed. The seawall that surrounds the Federal half of Pivers 
Island is currently being renovated. Yet, the two extant, old 
structures that remain have been renovated and are fully functional and 
operable. Further, the Beaufort Laboratory contains a large and diverse 
array of valuable scientific equipment that cannot be maintained or 
effectively used with the loss of support staff. The large Government 
investment in facilities and equipment would be wasted should the 
Beaufort Laboratory close. Closure would be fiscally irresponsible.
    With the President's fiscal year 2015 budget request, NOAA proposes 
to shift the funding to the Washington, District of Columbia area, 
which is among the most expensive locations nationally: this is not 
cost effective! The cost of providing laboratory and office space at 
Beaufort is cheaper than most other coastal areas of the United States. 
In addition, the District of Columbia area has no access to the marine 
environments represented at Beaufort, and District of Columbia does not 
have the laboratory space and equipment to replace what would be lost 
with the closure of the Beaufort Laboratory.
    Since taking over the Beaufort Laboratory from the NMFS in 1998-99, 
NOS has withdrawn support and drained resources. There has been an 
approximate 45 percent reduction in NOS staff over the past 9 years and 
a concomitant approximate 35 percent reduction in funding. This steady 
withdrawal of support is inexplicable, counter-productive to NOAA's 
mission, and unwarranted.
    I urge this subcommittee to oppose the proposed closure of the 
Beaufort Laboratory when Congress considers the 2015 Appropriations 
Bill. I urge this subcommittee to encourage Congress to inform NOAA 
that requests for closure of the Beaufort Laboratory will not be 
entertained in the future, and that Congress should direct NOAA to 
restore the Beaufort Laboratory staffing, operational support, and 
research funding. I urge the U.S. Congress to restore budget line-item 
appropriations for the Beaufort Laboratory.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)
                            agency involved
    Department of Justice.
                            program involved
    COPS Tribal Resources Grant Program (TRGP) Hiring and Equipment/
Training Program under the Coordinated Tribal Assistance Solicitation 
(CTAS).
             summary of glifwc's fiscal year 2015 testimony
    GLIFWC appreciates the increase of $3.5 million proposed by the 
Administration for the Tribal Resources Grant Program (TRGP), providing 
a total of $20 million for this critical program. The TRGP has enabled 
GLIFWC to solidify its communications, training, and equipment 
requirements, essential to ensuring the safety of GLIFWC officers and 
their role in the proper functioning of interjurisdictional emergency 
mutual assistance networks in the treaty ceded territories. GLIFWC also 
supports the administration's recommendation to dedicate $15 million in 
COPS Hiring funds for hiring new law enforcement officers in tribal 
communities. This program currently allows GLIFWC to maintain one 
additional Conservation Enforcement Officer as well as to provide vital 
training and equipment for all its Officers.
            ceded territory treaty rights and glifwc's role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (PL 93-638). It 
exercises authority delegated by its member tribes to implement Federal 
court orders and various interjurisdictional agreements related to 
their treaty rights. GLIFWC assists its member tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing, restoring and protecting ceded territory 
        natural resources and their habitats.
    For over 25 years, Congress and various administrations have funded 
GLIFWC through the BIA, the Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, that 
affirm the treaty rights of GLIFWC's member tribes. Under the direction 
of its member tribes, GLIFWC operates a ceded territory hunting, 
fishing, and gathering rights protection/implementation program through 
its staff of biologists, scientists, technicians, conservation 
enforcement officers, and public information specialists.
                        community-based policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers work 
within the tribal communities they primarily serve. The officers are 
based in reservation communities of the following member tribes: in 
Wisconsin--Bad River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, 
Sokaogon Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; 
and in Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert. To 
develop mutual trust between GLIFWC officers and tribal communities, 
officers provide outdoor skills workshops and safety classes (hunter, 
boater, snowmobile, ATV) to 300 tribal youth in grades 4-8 annually. 
GLIFWC's officers also actively participate in summer and winter youth 
outdoor activity camps, kids fishing events, workshops on canoe safety 
and rice stick carving, and seminars on trapping and archery/bow 
safety. GLIFWC officers also work to support drug and alcohol 
prevention efforts in the Lac du Flambeau school system by sponsoring a 
snowshoe making workshop for tribal youth.
    GLIFWC's member tribes realize it is critical to build 
relationships between tribal youth and law enforcement officers as a 
means of combatting gang recruitment and drug/alcohol abuse in 
reservation communities. GLIFWC is taking a pro-active approach to 
support these efforts and obtained fiscal year 2013 Department of 
Justice (DOJ) funding to hire a Youth Outreach Officer. Over the next 3 
years, this Officer will work to improve and expand youth outdoor 
recreation activities in partnership with the other GLIFWC officers. 
The program's goal is to build and expand these relationships to help 
prevent violations of tribal off-reservation codes, improve public 
safety and promote an outdoor lifestyle as an alternative to a 
lifestyle characterized by youth gangs \1\ and substance abuse.\2\
---------------------------------------------------------------------------
    \1\ The American Indian and Alaska Native (AI/AN) youth population 
is more affected by gang involvement than any other racial population. 
15 percent of AI/AN youth are involved with gangs compared to 8 percent 
of Latino youth and 6 percent of African American youth nationally. 
(National Council on Crime and Delinquency: Glesmann, C., Krisberg, 
B.A., & Marchionna, S., 2009).
    \2\ 22.9 percent of American Indian and Alaska Native (AI/AN) youth 
aged 12 and older report alcohol use, 18.4 percent report binge 
drinking and 16.0 percent report substance dependence or abuse. In the 
same group, 35.8 percent report tobacco use and 12.5 percent report 
illicit drug use. (2010 National Survey on Drug Use and Health: Summary 
of National Findings).
---------------------------------------------------------------------------
               interaction with law enforcement agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of State or Federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
interjurisdictional legal training attended by GLIFWC officers, tribal 
police and conservation officers, tribal judges, tribal and county 
prosecutors, and State and Federal agency law enforcement staff. DOJ 
funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders trained in the use of defibrillators, and to 
train them in search and rescue, particularly in cold water rescue 
techniques. When a crime is in progress or emergencies occur, local, 
State, and Federal law enforcement agencies look to GLIFWC's officers 
as part of the mutual assistance networks. In fact, the role of 
GLIFWC's officers in these networks was further legitimized in 2007 by 
the passage of Wisconsin Act 27, which affords GLIFWC wardens the same 
statutory safeguards and protections that are afforded to their 
Department of Natural Resources (DNR) counterparts. GLIFWC wardens will 
now have access to the criminal history database and other information 
to identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.
    DOJ has acknowledged that, ``[t]he officer-to-population ratio 
still remains lower on Indian reservations than in other jurisdictions 
across the country. . . . tribal law enforcement has a unique challenge 
of patrolling large areas of sparsely populated land'' (DOJ 2014 Budget 
Summary--Public Safety in Indian Country). GLIFWC's participation in 
mutual assistance networks located throughout a 60,000 square mile 
region directly addresses this problem in an effective and cost 
efficient manner.
                     glifwc programs funded by doj
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the mutual assistance networks in 
the ceded territories. GLIFWC's COPS grants have provided a critical 
foundation for achieving these goals. Significant accomplishments with 
Tribal Resources Grant Program funds include: (1) assisting the Apostle 
Island National Lakeshore in protecting 138,000 recent ice caves 
visitors on Lake Superior; (2) working in partnership with the United 
States Forest Service to combat illegal marijuana grow sites on public 
lands; and (3) participating in drug sweeps held on the Lac du Flambeau 
and the Menominee reservations that required large numbers of law 
enforcement officers to coordinate arrests simultaneously.
    Increased Versatility and Improving Public Safety.--Bayfield County 
is the third largest county in Wisconsin, covering 2,042 square miles, 
yet it possesses a population of only 15,014 residents.\3\ This vast, 
rural county is located on the shores of Lake Superior and contains the 
Apostle Island National Lakeshore, which typically hosts 150,000 
visitors throughout an entire year.
---------------------------------------------------------------------------
    \3\ 2010 census.
---------------------------------------------------------------------------
    In 2014, the cold winter and multi-media technology resulted in a 
dramatic increase in visitors to the ice caves at the Lakeshore. 
Suddenly, law enforcement needed to provide safety for the 138,000 
unexpected visitors who walked over a mile onto Lake Superior to view 
the ice caves. The National Park Service and local law enforcement 
quickly became overwhelmed with the large volume of visitors and 
requested GLIFWC assistance. GLIFWC responded with certified law 
enforcement officers trained in emergency ice rescue and wilderness 
first aid. Officers were also equipped with snowmobiles for patrol and 
emergency response. GLIFWC's incident command center trailer was used 
to provide a base for enforcement activities at the site and a 20-foot 
airboat was on standby to respond to medical emergencies. It was the 
COPS Tribal Resources Grant Program that provided training for GLIFWC 
officers and funding to purchase the snowmobiles, the incident command 
center trailer, and the 20-foot airboat.
    Partnerships combat illegal marijuana grow sites on public lands.--
With Federal, State and local law enforcement partners, GLIFWC officers 
have provided assistance in efforts to intervene in cannabis 
cultivation operations. Over the past 3 years, GLIFWC wardens have 
participated in three raids of such operations located on public land 
within treaty ceded territories, including: (1) an interagency cannabis 
arrest of 5 individuals in Ashland county and the destruction of 9,400 
plants in 2011; (2) an interagency cannabis arrest of 6 individuals in 
Langlade County and the destruction of 9,000 plants in 2012; and (3) 
joint grid patrols with the assistance of National Guard helicopters 
that identified 2 grow sites in 2013. In 2013, GLIFWC officers also 
participated in closing down an outdoor cannabis cultivation operation 
on the Menominee Reservation, resulting in the destruction of 1000 
plants and 2 arrests. GLIFWC has used DOJ COPS funding to provide 
equipment and tactical training to its wardens to enhance their 
effectiveness in these rural and heavily-wooded environments.
    Operation Pandora.--In 2011, GLIFWC officers utilized the COPS 
Tribal Resources Grant Program to participate in training with the 
North-Central Drug Enforcement Group to expand professional 
relationships and establish a foundation for cooperative initiatives to 
protect officers and improve community safety. In 2013, GLIFWC officers 
applied their training and participated in Operation Pandora, a multi-
agency effort that brought together 11 law enforcement agencies from 
seven counties. Approximately 40 officers and agents participated in 
early morning raids at local residences on the Lac du Flambeau 
Reservation, serving seven search warrants from an ongoing 
investigation into synthetic and prescription drug trafficking on the 
reservation. The operation resulted in 35 arrests.
    Looking to the Future.--In 2014, GLIFWC applied to the DOJ TRGP 
program for $301,071 to: (1) continue participation in the North-
Central Drug Enforcement Group and train GLIFWC officers to identify 
and safely control those suspected of using synthetic drugs; (2) 
purchase Tasers to improve officer safety; (3) provide training to 
maintain law enforcement, first aid, and emergency rescue 
certifications; (4) support interagency efforts to control illegal 
cannabis cultivation operations on public lands within the 1836, 1837 
and 1842 Chippewa ceded territories with training in human tracking 
skills and the purchase of night vision equipment; and (5) provide 
officers with trucks, boats and ATV's to improve and increase community 
policing efforts through safety programs. TRGP resources will allow 
GLIFWC conservation officers to conduct essential cooperative 
conservation, law enforcement, outreach, and emergency response 
activities. We ask Congress to support the DOJ COPS TRGP program at no 
less than its proposed fiscal year 2015 level.
                                 ______
                                 
       Prepared Statement of Jonathan Hansen, Madison, Wisconsin
    To whom it may concern,
    I am writing to discuss the proposed closure of the National 
Oceanic and Atmospheric Administration (NOAA) Beaufort Laboratory 
located in Beaufort, North Carolina. The lab is part of the Department 
of Commerce, National Oceanic and Atmospheric Administration and houses 
employees of the National Marine Fisheries Service (NMFS), National 
Ocean Service (NOS), and National Estuarine Research Reserve (NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, the Center for Marine Sciences and Technology 
(CMAST), and the Institute of Marine Science. The NOAA Beaufort 
Laboratory is the center of productive fisheries science informing 
fisheries management for the Atlantic and Gulf coasts and is currently 
the only NMFS lab between Sandy Hook, New Jersey, and Miami, Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . .  $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S. Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              -- 177 educational programs
              -- 4947 participants
                  Teacher workshops
              -- 28 teacher workshops
              -- 412 participants
                  Summer camps
              -- 109 camp sessions
              -- 921 participants
                  Summer public field trips
              -- 96 field trips
              -- 1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              -- 1170 volunteers
              -- 2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                   Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              -- 31 workshops
              -- 1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
    Prepared Statement of Craig A. Harms, D.V.M., Ph.D.; Diplomate, 
     American College of Zoological Medicine; Associate Professor, 
  Department of Clinical Sciences, College of Veterinary Medicine and 
               Center for Marine Sciences and Technology
    Dear Senate Subcommittee on Commerce, Justice, Science, and Related 
Agencies: In reference to the proposed closure of the National Oceanic 
Atmospheric Administration (NOAA) Laboratory in Beaufort, North 
Carolina, I urge you to ensure that does not occur. Closure of the NOAA 
Beaufort Laboratory would be a considerable blow to the marine sciences 
and education hub of Carteret County. With it's over 100 years of 
history, the NOAA Laboratory has been a catalyst for attracting 
excellent scientists and other marine science laboratories, and 
conducting important research on harmful algal toxins, invasive 
species, protected species, and stock assessments critical to fishery 
management decisions. The close aggregation of a slew of top flight 
marine laboratory and education facilities in Carteret County 
(including the NOAA Beaufort Laboratory, Duke Marine Laboratory, 
University of North Carolina (UNC) Institute of Marine Sciences, North 
Carolina State University (NCSU) Center for Marine Sciences and 
Technology, North Carolina Aquarium at Pine Knoll Shores, North 
Carolina Maritime Museum, North Carolina Division of Marine Fisheries, 
Carteret Community College Aquaculture Program, North Carolina 
SeaGrant) at the convergence of major marine life zones, is a 
tremendous asset. As determined by a recent American Association for 
the Advancement of Science (AAAS) study of the University of North 
Carolina System marine laboratories in North Carolina, the programs of 
these multiple facilities are not duplicative, but rather are 
synergistic. The loss of the NOAA Laboratory would weaken all aspects 
of scientific productivity, marine education, and the economic driver 
of marine sciences community.
    I moved to Morehead City in 2000 to take up a position at the NCSU 
Center for Marine Sciences and Technology (CMAST) as soon as it opened. 
As the only full time faculty member from the College of Veterinary 
Medicine based at CMAST, people wondered just what a veterinarian would 
be doing at a marine laboratory. There has been no shortage of 
veterinary applications to marine science to keep me busy. Much of my 
work has been shaped by collaborations with scientists at the NOAA 
Beaufort Laboratory, particularly at the outset working with scientists 
in the protected species division of the National Marine Fisheries 
Service (NMFS) on sea turtles and marine mammals, but extending to work 
on invasive lionfish and development of mariculture. Collaborating with 
the NOAA Beaufort Laboratory has lead to far flung collaborations 
including participating in the sea turtle rescue response to the 
Deepwater Horizon oil spill, follow-up monitoring of dolphin health in 
the Gulf of Mexico, and work with the International Whaling Commission 
improving humane responses to large whale live stranding events, among 
others.
    There are things that a Federal facility can do that academic and 
nonprofit institutions are less well equipped to handle. An example was 
a mass stranding of pilot whales on the Outer Banks in January 2005. 
Having the direct links in Washington both within NOAA and with other 
relevant Federal agencies was essential for timely information exchange 
as the response and investigation transpired. The area academic and 
State agencies could not have managed that response nearly so well 
without those links.
    Commercial fishermen with whom I served on the Sea Turtle Advisory 
Committee of the North Carolina Marine Fisheries Commission have 
similarly expressed concern about the possible closure of the NOAA 
Beaufort Laboratory. As much as they bristle at the regulatory arm of 
NOAA, they appreciate good science on fisheries stocks for framing the 
debates on management decisions. Because of the productive 
collaborations NOAA scientist have formed with commercial fishermen 
over the years, on both commercial fisheries species and protected 
species research, fishers know that NOAA Beaufort Laboratory scientists 
will produce good science with unbiased results, to the extent their 
resources allow. A recent intent to sue by commercial fishing groups 
against the North Carolina Division of Marine Fisheries (DMF), North 
Carolina Wildlife Resources Commission (WRC), and NOAA, seeks to 
require carrying out a stock assessment for sea turtles in North 
Carolina. The eventual outcome of that legal action is of course an 
open question, but if an effective and valid stock assessment of sea 
turtles is to be carried out, it would be nearly impossible without the 
people, expertise, and facilities currently in place at the NOAA 
Beaufort Laboratory, and trying to create that capacity from scratch 
would be prohibitive.
    With offshore energy exploration and development proposed off of 
the North Carolina coast, both fossil fuels and wind, having a Federal 
marine science laboratory on site will be vital to monitor effects and 
to facilitate responses to adverse events if necessary. This is not the 
time to close down a venerable and vital marine science research 
facility in this area of critical biogeographic and economic 
importance.
                                 ______
                                 
  Prepared Statement of Patricia Harms, Morehead City, North Carolina
    The Subcommittee on Commerce, Justice, Science, and Related 
Agencies:

    The Atlantic ocean off our East Coast is an irreplaceable treasure 
which requires our attention and care. The closure of the National 
Oceanic and Atmospheric Administration (NOAA) laboratory in Beaufort, 
North Carolina would be a tragic loss to the vital research it 
contributes on coastal and ocean issues. Please take this proposed 
closure out of the National Ocean Service (NOS) budget.
    I cannot believe siphoning off projects to non-agency scientists 
could have the value we have right here, right now. Do look at the 
quality research that has come from the Beaufort NOAA Laboratory. This 
lab is in an excellent location, the only lab between New Jersey and 
Florida, collaborating with Duke University, North Carolina State, and 
University of North Carolina marine scientists. all of whom have 
facilities in Beaufort and Morehead City. They do work together which 
multiplies their value. With concerns over climate change and sea level 
rise, it would seem of even more importance to support NOAA in its 
present location. Hurricanes and weather related issues are also of 
great concern to our maritime and coastal areas. A number of ventures 
proposed off our coast such as sonic testing, oil exploration, and wind 
turbines will require monitoring of their effects on the ocean and its 
inhabitants. I would expect NOAA to be necessary to these and other 
possible changes in the ocean and in the estuaries
    It is true that we have tourism and beaches, but marine science is 
of great importance to our economy as well. Residents and tourists are 
very attuned to the work of marine scientists in the area. Volunteers 
walk the beaches to spot sea turtle nest sites, our citizens know that 
their observations of the ocean and sea life are important. We also 
have the Aquarium in Pine Knoll Shores, a renowned Maritime Museum in 
Beaufort, the Rachel Carson Reserve, and the Beasley Sea Turtle 
Hospital nearby, which relies on NOAA and other marine science 
institutions here. Both commercial and recreational fishermen also 
depend on NOAA. It has been averred that maintaining the lab would 
require too much in infrastructure costs, but according to more recent 
appraisals this is not the case. There is an 2014 engineering report 
listing improvements that have been made. The loss of the NOAA lab in 
Beaufort would be a serious blow to the area and to the country.
    The NOAA lab in Beaufort should be supported and expanded, not 
removed.
                                 ______
                                 
 Prepared Statement of Howard F. Horton, Ph.D., Professor Emeritus of 
                   Fisheries, Oregon State University
    Dear Senators:

    This letter is to urge you to remove the closure of the Beaufort 
Laboratory in North Carolina from National Oceanic and Atmospheric 
Administration (NOAA's) National Ocean Service's budget request. I have 
had a long association with colleagues in the Beaufort Laboratory and 
consider their work to be essential to protecting and enhancing our 
marine species and their environment in coastal areas nationwide.
    In particular, their pioneering work in developing methods to 
detect the presence of and to assess the impacts of toxic marine algae 
is vital to the production of our marine fauna and for the safety of 
human and other affected birds, fish and animals. This important 
research has application throughout the northern and southern 
hemispheres and is not duplicated elsewhere. To stop this activity 
would be a major setback to our knowledge and management of toxic 
marine algae.
    In addition, the location of the laboratory fosters valuable 
research on sustainable fisheries; conservation of sea turtles, 
dolphins, seagrass estuaries, and offshore reefs; invasive species; and 
changes in climate and sea levels. These studies facilities and support 
research affecting not just North Carolina, but the East and West 
Coasts of the U.S. including Alaska.
    Furthermore, the laboratory provides employment for approximately 
108 scientists and staff to conduct this much needed research and their 
presence contributes over $58 million to the local economy.
    From the standpoint of its unique location, the cadre of excellent 
scientists producing much needed cutting edge science, and their 
contribution toward conserving our natural marine resources, I urge you 
to help support existence of this valuable research facility and its 
associated personnel.
                                 ______
                                 
   Prepared Statement of Dr. Donald E. Hoss, Beaufort, North Carolina
    Dear subcommittee members: My name is Don Hoss and I am writing 
this letter to strongly oppose the request by National Oceanic and 
Atmospheric Administration (NOAA)/National Ocean Service (NOS) to close 
the NOAA NOS/National Marine Fisheries Service (NMFS) laboratory in 
Beaufort, North Carolina (NOAA fiscal year budget summary, page 8, 
paragraph 3) because of the long-erm cost of maintaining the facility. 
I was employed at the Beaufort Laboratory from 1958 until my retirement 
in 2002. I spent my last years as Director of the Laboratory, so I am 
familiar with the physical condition of the facility. I also know of 
its importance to the marine science community and the local and 
national community in general. The Beaufort Laboratory is the second 
oldest Federal Fisheries Laboratory in the United States dating to 
1899. It was located at Beaufort because of the unique marine and 
estuarine ecosystem adjacent to the North Carolina coast. It is 
recognized as one of the most respected fisheries laboratories in this 
country, and in countries around the world, for the quality of its 
research on marine issues that affect the economy of sport and 
commercial fisheries, and the health of the marine waters of the United 
States.
    Statements have been made that this ``aging facility'' requires 
infrastructure repairs and improvements exceeding agency budget. 
Nothing could be further from the truth. The fact that the Beaufort 
Laboratory is the second oldest Federal fisheries laboratory in the 
country does not mean that it is operating out of a 19th century 
facility. Only two building on the facility dates to the late 1950's 
and it has had many renovations over the years. In 1963 a new two story 
laboratory was built and it was completely renovated in 1993-94. In 
recent years NOAA has invested approximately $14 million in new 
construction and renovations at the laboratory. A new administration 
building has been constructed with space for the North Carolina 
National Estuarine Research Reserve Program. The bridge to Pivers 
Island (cost shared with Duke Marine Laboratory) has been replaced and 
a new chemical storage building has been built. Other improvements 
include air conditioning/air handler replacement and mold abatement as 
well as seawall repair, electrical upgrade and State of North Carolina 
funded storm water control. An updated engineering report in 2014 
documented that the Beaufort facility is NOT unsound.
    In their closure request the National Ocean Service understated the 
number of Beaufort Laboratory employees that would be affected and the 
effect that it would have on them. They did not account for the more 
than 40 National Marine Fisheries Service staff or the 8 staff members 
of the North Carolina National Estuarine Research Reserve, located at 
the laboratory.
    The current staffing at the Laboratory is as follows: 70 full-time 
Federal employees (39 National Marine Fisheries and 31 National Ocean 
Service staff); 32.5 contract positions (full and part time); and 6 
North Carolina National Estuarine Research Reserve System (NERRS) 
staff. While the missions of the laboratory have been increased in 
recent years, the budget of the laboratory has decreased by 
approximately 30 percent and the NOS staff has decreased by 45 
positions. NOS States that all full-time employees will be offered 
other positions so that none will lose their jobs due to the closure. 
This is of little comfort to the contract employees, some of whom have 
worked at the facility for over 10 years. It is also not true (based on 
past experience) that all of the permanent employees will be able to 
move to other locations (due to various family matters) and, therefore, 
they will lose their jobs.
    It is ironic that while the National Ocean Service, NOAA is calling 
for the closure of one of the most respected NOAA scientific 
laboratories in the country it is, at the same time, requesting an 
increase of $4 million to another center (located in a more expensive 
region and in a non coastal area) to support the same type of research 
in which the Beaufort Laboratory is a recognized leader (see budget 
summary, page 8, paragraph 1).
    In its 100 plus years the Beaufort Laboratory has established an 
extraordinary record for scientific excellence in its research in 
critical problems related to the public concern for coastal and ocean 
issues. This includes, but is not limited to, fisheries stock 
assessment (i.e. reef fish and menhaden), species distribution and life 
history, hypoxia, marine mammals and sea turtles, critical habitat 
evaluation, pollution effects (including oil spills) and harmful algal 
blooms to name a few.
    NOAA has repeatedly recognized the laboratory, research teams and 
individual researchers for the outstanding quality of their work. It is 
hard to understand why NOAA would request an increase in funding for 
research in many of the above areas in fiscal year 2015 and then 
propose to close the Beaufort Laboratory, the very laboratory best 
positioned to do this research.
    I urge you to reject the proposed closure of the NOAA Beaufort 
Laboratory. Should you have additional questions I would be more than 
happy to address them.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    On behalf of the Innocence Project, thank you for allowing me to 
submit testimony to the Senate Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies as it considers budget requests 
for fiscal year 2015, and thank you for the subcommittee's support of 
innocence and forensic science research programs in fiscal year 2014. I 
write to request fiscal year 2015 funding for the following programs, 
please:
  --$4 million for the Wrongful Conviction Review and Capital 
        Litigation Improvement Programs (the Wrongful Conviction Review 
        Program is a part of the Capital Litigation Improvement 
        Program), at the Department of Justice (DOJ), Bureau of Justice 
        Assistance;
  --$4 million for the Kirk Bloodsworth Post-Conviction DNA Testing 
        Program (the ``Bloodsworth Program'') at the DOJ, National 
        Institute of Justice (NIJ);
  --$12 million for the Paul Coverdell Forensic Sciences Improvement 
        Grant Program (the ``Coverdell Program'') at the NIJ;
  --$6 million for the Department of Justice to support the National 
        Commission on Forensic Science; research at the National 
        Institute of Justice; and related forensic science standards 
        setting activities at the National Institute of Standards and 
        Technology (NIST);
  --$11 million for NIST to support forensic science research and 
        measurement science.
    Freeing innocent individuals and preventing wrongful convictions 
through reform greatly benefits public safety. Every time DNA 
identifies a wrongful conviction, it enables the identification of the 
real perpetrator of those crimes. True perpetrators have been 
identified in approximately half of the over 300 DNA exoneration cases. 
Unfortunately, many of these real perpetrators had gone on to commit 
additional crimes while an innocent person was convicted and 
incarcerated in their place.
    To date, 316 individuals in the United States have been exonerated 
through DNA testing, including 18 who served time on death row. These 
innocents served on average more than 13 years in prison before 
exoneration and release. However, I want to underscore the value of 
Federal innocence programs not to just these exonerated individuals, 
but also to public safety, fairness, and achieving true justice for 
victims of violent crimes. It is important to fund these critical 
innocence programs because reforms and procedures that help to prevent 
wrongful convictions enhance the accuracy of criminal investigations, 
strengthen criminal prosecutions, and result in a stronger, fairer 
system of justice that provides true justice to victims of crime.
                   wrongful conviction review program
    Particularly when DNA is not available, or when DNA alone is not 
enough to prove innocence, proving one's innocence to a level 
sufficient for exoneration is difficult compared to ``simply'' proving 
the same with DNA evidence. Innocents languishing behind bars require 
expert representation to help navigate the complex issues that 
invariably arise in their bids for post-conviction relief. And the need 
for such representation is enormous when only a small fraction of cases 
involve evidence that could be subjected to DNA testing. (For example, 
it is estimated that among murders, only 10 percent of cases have the 
kind of evidence that could be DNA tested.) Realizing the imperative 
presented by such cases, the Bureau of Justice Assistance (BJA) 
dedicated part of its Capital Litigation Improvement Program funding to 
create the Wrongful Conviction Review program.\1\ The program provides 
applicants--non-profit organizations and public defender offices 
dedicated to exonerating the innocent--with funds for providing high 
quality and efficient representation for potentially wrongfully 
convicted defendants in post-conviction claims of innocence. The 
program's goals, in addition to exonerating the innocent, are 
significant: to alleviate burdens placed on the criminal justice system 
through costly and prolonged post-conviction litigation and to 
identify, whenever possible, the actual perpetrator of the crime.
---------------------------------------------------------------------------
    \1\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    Numerous local innocence projects have enhanced their caseloads and 
representation of innocents as a result of the Wrongful Conviction 
Review grant program, including those in Florida, Ohio, and in North 
Carolina at Duke University School of Law. The Reinvestigation Project, 
run through the Office of the Appellate Defender in New York, used 
funding that led to the exonerations of Latisha Johnson and Malisha 
Blyden and the identification of one of the real perpetrators. The 
Arizona Justice Project recently exonerated four innocent Arizonians 
who had served over a combined 100 years. The Exoneration Initiative in 
New York, cleared a backlog of hundreds of cases which allowed them to 
secure three exonerations and provided critical support that led to two 
other exonerations. The grant also helped California Innocence Project 
(CIP) free Daniel Larsen after 13 years in prison, and helped Hawaii 
Innocence Project recently secure the release of the first Native 
Hawaiian exonerated by DNA testing.
    To help continue this important work, we urge you to please provide 
a total of $4 million for the Wrongful Conviction Review and the 
Capital Litigation Improvement Programs to help bring them to parity 
with the critical Bloodsworth Program, that focuses on post-conviction 
DNA testing and cases. (The Wrongful Conviction Review Program is a 
part of the Capital Litigation Improvement Program.)
                        the bloodsworth program
    The Bloodsworth Program provides hope to innocent inmates who might 
otherwise have none by helping States more actively pursue post-
conviction DNA testing in appropriate situations. These funds have led 
to great success, and many organizational members of the national 
Innocence Network have partnered with State agencies that have received 
Bloodsworth funding.\2\
---------------------------------------------------------------------------
    \2\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
---------------------------------------------------------------------------
    The Bloodsworth Program does not fund the work of organizations in 
the Innocence Network directly, but State applicants which seek support 
for a range of entities involved in settling innocence claims, 
including law enforcement agencies, crime laboratories, and a host of 
others--often in collaboration with each other, and with Innocence 
Network organizations. For example, a Bloodsworth grant allowed the 
Arizona Attorney General's Office to partner with the Arizona Justice 
Project to canvass the Arizona inmate population, review cases, locate 
evidence and file joint requests with the court to have evidence 
released for DNA testing. In addition to identifying the innocent, 
Arizona Attorney General Terry Goddard has noted that the ``grant 
enable[d] [his] office to support local prosecutors and ensure that 
those who have committed violent crimes are identified and behind 
bars.'' \3\ Such joint efforts have also been pursued in Connecticut, 
Louisiana, Minnesota, North Carolina, and Wisconsin.
---------------------------------------------------------------------------
    \3\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-Federal-DNA-grant.htm 
(last visited Mar. 13, 2012).
---------------------------------------------------------------------------
    The Bloodsworth program is a relatively small yet powerful 
investment for States seeking to free innocent people who were 
erroneously convicted and to identify the true perpetrators of crime. 
The program has resulted in the exonerations of 22 wrongfully convicted 
persons in 10 States, and the true perpetrator was identified in 8 of 
those cases. We ask that you please provide $4 million to continue the 
work of the Bloodsworth Post-Conviction DNA Testing Program.
                         the coverdell program
    Recognizing the need for independent government investigations in 
the wake of forensic scandals, Congress created the forensic oversight 
provisions of the Coverdell Program, a crucial step toward ensuring the 
integrity of forensic evidence. Specifically, in the Justice for All 
Act, Congress required that

        [t]o request a grant under this subchapter, a State or unit of 
        local government shall submit to the Attorney General . . . a 
        certification that a government entity exists and an 
        appropriate process is in place to conduct independent external 
        investigations into allegations of serious negligence or 
        misconduct substantially affecting the integrity of the 
        forensic results committed by employees or contractors of any 
        forensic laboratory system, medical examiner's office, 
        coroner's office, law enforcement storage facility, or medical 
        facility in the State that will receive a portion of the grant 
        amount.\4\

    The Coverdell Program provides State and local crime labs and other 
forensic facilities with much needed funding to efficiently and 
effectively carry out their work. As forensic science budgets find 
themselves on the chopping block in States and localities, the survival 
of many crime labs may depend on Coverdell funds. To both support crime 
labs and help ensure the integrity of forensic investigations in the 
wake of allegations of negligence or misconduct, we ask that you please 
provide $12 million for the Coverdell Program.
---------------------------------------------------------------------------
    \4\ 42 U.S.C. Sec. 3797k(4) (emphasis added).
---------------------------------------------------------------------------
                      forensic science improvement
    To continue the critical work to improve forensic science, and help 
prevent wrongful convictions, we request:
  --$6 million for the Department of Justice, including:
    --$1 million for the DOJ-NIST National Commission on Forensic 
            Science to continue its work.
    --$2 million for the National Institute of Justice to conduct 
            laboratory efficiency and implementation research in this 
            area.
    --$3 million to go to NIST to support technical standards 
            development in forensic science through the proposed 
            Organization of Scientific Area Committees.
  --$11 million for the National Institute of Standards and Technology 
        (NIST) at the Department of Commerce. As the sole entity that 
        is both perfectly positioned and capable of conducting 
        measurement science and foundational research in support of 
        forensic science, NIST's work will improve the validity and 
        reliability of forensic evidence, a need cited by the National 
        Academy of Sciences 2009 report, ``Strengthening Forensic 
        Science in the United States: A Path Forward.'' NIST's 
        reputation for innovation will result in technolgical solutions 
        to advance forensic science applications and achieve a 
        tremendous cost savings by reducing court costs posed by 
        litigating scientific evidence and redirecting resources to 
        identifiying the true perpetrators of crime.
     additional note on the department of justice's budget requests
    DOJ's fiscal year 2015 budget proposal, as it has in past years, 
would defund the Coverdell and Bloodsworth Programs. Zeroing out these 
programs would negatively impact the State requirements and incentives 
to prevent wrongful convictions and ensure the integrity of evidence, 
which have been critical to the advancement of State policies to 
prevent wrongful convictions. Coverdell forensic oversight requirements 
have created State entities and processes for ensuring the integrity of 
forensic evidence in the wake of scandal and are essential to ensuring 
the integrity of forensic evidence in the wake of identified acts of 
negligence or misconduct. Innocence Project recommends that Congress 
fund these two programs by name, in order to preserve their important 
incentive and performance requirements, and to help to achieve their 
goals of providing access to post-conviction DNA testing and supporting 
State and local crime labs that process a significant amount of 
forensic evidence, helping to ensure public safety.
    Thank you so much for your time and consideration of these 
important programs, and the opportunity to submit testimony. We look 
forward to working with the subcommittee this year.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    IME is a nonprofit association founded over century ago to provide 
accurate information and comprehensive recommendations concerning the 
safety and security of commercial explosive materials. IME represents 
U.S. manufacturers, distributors and motor carriers of commercial 
explosive materials and oxidizers as well as other companies that 
provide related services. The majority of IME members are ``small 
businesses'' as determined by the U.S. Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. IME member 
companies produce 99 percent of these commodities. These products are 
used in every State and are distributed worldwide. The ability to 
manufacture, distribute and use these products safely and securely is 
critical to this industry.
    Commercial explosives are highly regulated by a myriad of Federal 
and State agencies. ATF plays a predominant role in assuring that 
explosives are identified, tracked, purchased, and stored only by 
authorized persons. We offer the following comments to give perspective 
about the need to ensure that ATF has sufficient funds to carry out its 
mission to ensure that commercial explosives are not misappropriated 
for criminal or terrorist purposes.
                  atf's explosives regulatory program
    The administration's fiscal year 2015 budget request envisions a 
current services appropriation for explosives industry operations. We 
understand the current pressure to reduce the Federal budget deficit 
and the shared sacrifice that all segments of the Government are being 
asked to make to help the economy recover. We also understand the 
public attention to other programmatic responsibilities of ATF, and the 
attendant pressure to divert resources to these responsibilities. 
However, the success of the Bureau's explosives industry programs in 
preventing the misappropriation of commercial explosives should not be 
used against us. ATF needs to retain a cadre of trained personnel to 
perform services needed by our industry. The commerce of explosives is 
so closely regulated that failure to provide adequate personnel and 
resources hurts our industry, our customers, and the U.S. economy.
    By law, ATF must inspect over 11,000 explosives licensees and 
permittees at least once every 3 years and conduct background checks of 
so-called ``employee possessors'' of explosives and ``responsible 
persons.'' \1\ ATF estimates that the requirement to inspect 100%of the 
licensees and permittees within their 3-year license/permit cycle 
consumes between 25 percent and 41 percent of available inspector 
resources per year.
---------------------------------------------------------------------------
    \1\ Fiscal year 2015 ATF Budget Submission, page 15.
---------------------------------------------------------------------------
    Unfortunately, ATF's fiscal year 2015 budget submission does not 
provide retrospective workload indicators such as the number of 
compliance inspections that were accomplished, the number of public 
safety violations, and what those violations were in fiscal year 2013. 
This data have been provided in prior budget submissions. In fiscal 
year 2014, ATF reported that, during fiscal year 2012, it:
  --Conducted 5,390 explosives licensee and permittee compliance 
        inspections that identified and corrected 1,528 public safety 
        violations;
  --Completed 1,249 Federal Explosive License (FEL) applicant 
        inspections;
  --Processed 4,222 FEL applications (new & renewal);
  --Completed 77,965 explosives employee/possessor background checks; 
        and
  --Completed 12,188 explosives responsible persons background 
        checks.\2\
---------------------------------------------------------------------------
    \2\ Fiscal year 2014 ATF Budget Submission, page 26.
---------------------------------------------------------------------------
    We are certain that the subcommittee appreciates the need for 
annual reporting of these workload indicators to establish trend-lines 
that may point to new resource needs or reallocation and whether or not 
new safety concerns are being recognized. For example, we are very 
interested in understanding what public safety violations were found in 
past inspections. This data helps us to determine whether we need to 
enhance our industry best practices. Looking at ATF's fiscal year 2013 
and 2014 budget submissions, the Bureau identified 1,392 public safety 
violations during fiscal year 2011,\3\ and, as noted above, during 
fiscal year 2012, this number rose to 1,528. The subcommittee should 
direct ATF to consistently report this data in future budget 
submissions.
---------------------------------------------------------------------------
    \3\ Fiscal year 2013 ATF Budget Submission, page 42.
---------------------------------------------------------------------------
    ATF did report that, in 2011, it met its statutory responsibilities 
95.8 percent of the time, and in 2012, 105.7 percent of the time. 
However, in 2013, this performance rate fell to 88.2 percent. With the 
budget agreement enacted earlier this year, ATF estimates that its 
productivity will increase to 92 percent in 2014 and has set a target 
of 94 percent in 2015, which, while it represents an improvement over 
the 2013 number, is still not optimum.\4\ When ATF is unable to meet 
its responsibilities, there are adverse impacts on our industry. 
Without approved licenses and permits from ATF, our industry cannot 
conduct business. Delays in servicing our needs may lead to disruptions 
in other segments of the economy that are dependent on the products and 
materials we provide.
---------------------------------------------------------------------------
    \4\ Fiscal year 2015 ATF Budget Submission, page 18.
---------------------------------------------------------------------------
    One key workload indicator is the number of background checks 
performed. One component of this investigation is determining whether 
any of our employees have terrorist ties. To make that determination, 
ATF submits names to the FBI to be run against the Terrorist Screening 
Database (TSDB). Currently, ATF does not follow the common practice of 
other Federal agencies with vetting programs that re-vet names at will. 
Rather, the agency runs the names in association with applications for 
new or renewal of ``FELs'' or Federal explosives permits. Because ATF 
does not re-vet names when information on the TSDB changes, ATF's 
program is not deemed equivalent to the vetting and clearance 
procedures used by other agencies. Harmonizing ATF's procedures with 
those used by these other programs will allow ATF's vetting program to 
be reciprocally recognized by these programs. This outcome would add 
intelligence value to all Government vetting programs sharing the same 
platform, and provide savings to the Federal Government and the 
regulated community. We urge the subcommittee to encourage ATF to 
enhance its vetting procedures.
    As the subcommittee considers ATF's budget request, we ask that the 
Bureau's ability to perform its regulatory oversight of the explosives 
industry in a timely fashion not be compromised in the push for fiscal 
discipline and that it be given the resources to preform to current 
state-of-the-art oversight practices.
                       atf's regulatory workload
    Since 2003 when ATF was transferred to the Department of Justice, 
the agency has issued eight rulemakings of importance to IME, including 
two which were interim final rules. It has finalized three, withdrawn 
two, merged two, and docketed but not published three. Of the four 
rulemakings still pending, one is an interim final rule which dates to 
2003. In the absence of a process to ensure timely rulemaking that is 
capable of keeping up with new developments and safety practices, 
industry must rely on interpretive guidance and variances based on 
outdated requirements in order to conduct business. While we greatly 
appreciate ATF's accommodations, these stop-gap measures do not afford 
the surety, continuity and protections that rulemaking would provide 
the regulated community, nor do they allow the oversight necessary to 
ensure that all parties are being held to the same standard of 
compliance. These regulatory tasks are critical to the lawful conduct 
of the commercial enterprises that the Bureau controls. ATF should be 
provided the resources needed to make timely progress in this area.
    ATF is also a key member of the Interagency Working Group (IWG) 
convened under Executive Order (EO) 13650.\5\ The EO tasked the IWG 
with identifying options to improve chemical security and safety after 
the tragic accidental explosion in West, TX as well as other recent 
industrial chemical accidents. Earlier this year, the IWG presented 
options for stakeholder comment.\6\ Among these options, several 
pertain to ATF.
---------------------------------------------------------------------------
    \5\ http://www.whitehouse.gov/the-press-office/2013/08/01/
executive-order-improving-chemical-facility-safety-and-security.
    \6\ https://www.osha.gov/chemicalexecutiveorder/
Section_6ai_Options_List.html.
---------------------------------------------------------------------------
  --ATF asks whether it should close the regulatory gap surrounding 
        black and smokeless powder. An examination of information from 
        the Bomb Data Center (BDC) on the type and frequency of fillers 
        used in bombings and attempted bombings supports closing this 
        regulatory gap. It makes little sense to impose stringent 
        controls on the explosives industry only to allow a consumer 
        exemption that can be exploited by those with criminal or 
        terrorist intent.
  --The IWG also asks about updating its regulatory requirements for 
        physical security at magazines. IME supports ATF's 
        consideration of the adequacy of current locking standards,\7\ 
        and supports the development of a rule on magazine key control. 
        IME is ready to assist in any other research projects to help 
        achieve our common goal of ensuring magazine integrity and 
        security.
---------------------------------------------------------------------------
    \7\ A study on this topic was conducted by an IME member company, 
and the results were reported at an IME meeting where ATF officials 
were in attendance.
---------------------------------------------------------------------------
  --The EO also directs ATF to determine the feasibility of sharing 
        information with States and localities. While we oppose the 
        sharing of security-sensitive information about explosives in 
        public forums, we do support enhancing communications with 
        local emergency responders. Specifically, we support annual FEL 
        reporting to local fire safety authorities of the type, 
        capacity, and location of magazines where explosives are 
        stored. Current rules require a one-time notification.\8\
---------------------------------------------------------------------------
    \8\ 27 CFR 555.210(f).
---------------------------------------------------------------------------
    Each of these options, if pursued, would add to ATF's regulatory 
workload. ATF should have the resources to keep its regulations up to 
date.
                        atf-industry partnership
    The BDC is the sole repository for explosives-related incident 
data, and contains information on thousands of explosives incidents 
investigated by ATF and other Federal, State, and local law enforcement 
agencies. While this data helps government entities to perform trend 
analysis and to compare incidents for similarities and crime 
methodologies, BDC data also helps our efforts to refresh and update 
best practice recommendations. Until 2006, this data was routinely 
provided to industry stakeholders. We are pleased that after an 8-year 
hiatus, ATF has again provided the regulated community with key data on 
bomb and improvised device fillers, as well as information on thefts, 
losses and recoveries categorized by the type and amount of explosives 
involved. The data also indicates the point in the supply chain where 
the reported thefts and losses occurred. ATF has committed to releasing 
this data on an annual basis and it needs the resources to continue 
this important service.
    Explosives manufacturers and importers are required to mark 
products with codes to aid domestic and foreign law enforcement 
agencies in tracing these materials if they are lost or stolen. 
Explosives manufacturers and importers and others in the global supply 
chain cooperate in tracing efforts. However, various government 
entities are imposing their own unique system of identification marks 
without reciprocally recognizing each other's marks. These redundant 
and competing marks are creating non-tariff barriers to trade. We have 
petitioned the United Nations to help develop a harmonized marking 
scheme and expect this issue to be considered by the international 
community at meetings in July 2014. We have asked ATF to join with us 
in working to harmonize a global marking standard.
    Since 2003, ATF, with our support, has required background checks 
of persons authorized to possess explosives. While, as noted above, 
this background check includes vetting against the TSDB, being named on 
the database does not disqualify individuals from possessing 
explosives. We think this is an oversight. The late-Senator Frank 
Lautenberg and Representative Peter King introduced legislation, S. 34 
and H.R. 720, respectively, to close this glaring security gap in the 
Federal explosives law. This legislative change, advocated by both 
Presidents Bush and Obama, will better harmonize the vetting and 
clearance procedures used by the ATF with other government agencies 
that perform security threat assessments of individuals seeking to 
engage in security-sensitive activities. As these standards are 
harmonized, opportunities to leverage other vetting programs and 
security credentials increase. This outcome would add intelligence 
value to all government vetting programs sharing the same platform, and 
provide savings to the Federal Government and the regulated community.
    Each of these collaborative initiatives requires resources. We 
request that ATF be given the requisite funds to advance these 
initiatives.
                           industry standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements.\9\ We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered to ATF 
recommendations that we believe will enhance safety and security 
through our participation in the rulemaking process, in the Bureau's 
important research efforts, and in other standard-setting activities.
---------------------------------------------------------------------------
    \9\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In this regard, IME has spent years developing a credible 
alternative to strict interpretation of quantity distance tables used 
to determine explosives setback distances. IME continues to collaborate 
in this effort with the Department of Defense Explosives Safety Board 
as well as Canadian and U.S. regulatory agencies, including ATF. The 
result is a windows-based computer model for assessing the risk from a 
variety of commercial explosives activities called IMESAFR.\10\ ATF and 
other regulatory agencies recognize the value of IMESAFR and have 
participated in development meetings for Version 2.0. ATF is also 
evaluating existing licensed locations with this risk-based approach 
and has agreed to accept variance requests based on IMESAFR 
evaluations. These efforts are vital if ATF is to remain at the 
forefront of technologies designed to safeguard the public. We strongly 
encourage ATF's continued support of this project. The benefits of 
risk-based modeling should continue to be recognized by ATF and 
resources should be provided to develop policies that allow the use of 
such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \10\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities. Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years of experience in the U.S. and Canada 
and can be adjusted to account for different explosive sensitivities, 
additional security threats, and other factors that increase or 
decrease the base value.
---------------------------------------------------------------------------
                               conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the critical 
role ATF plays in helping our industry achieve and maintain safe and 
secure workplaces. Industry and the public are dependent on ATF having 
adequate resources to fulfill its regulatory responsibilities. It is up 
to Congress and, in particular, this subcommittee to ensure that ATF 
has the resources it needs. We strongly recommend full funding for 
ATF's explosives program.
                                 ______
                                 
   Prepared Statement of Daniel Jensen, Morehead City, North Carolina
    I am writing to specifically discuss the proposed closure of the 
National Oceanic and Atmospheric Administration (NOAA) Beaufort 
Laboratory located in Beaufort, North Carolina. The lab is part of the 
Department of Commerce, National Oceanic and Atmospheric Administration 
and houses employees of the National Marine Fisheries Service (NMFS), 
National Ocean Service (NOS), and National Estuarine Research Reserve 
(NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, the Center for Marine Sciences and Technology 
(CMAST), and the Institute of Marine Science. The NOAA Beaufort 
Laboratory is the center of productive fisheries science informing 
fisheries management for the Atlantic and Gulf coasts and is currently 
the only NMFS lab between Sandy Hook, New Jersey, and Miami, Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . .  $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S.Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              --177 educational programs
              --4947 participants
                  Teacher workshops
              --28 teacher workshops
              --412 participants
                  Summer camps
              --109 camp sessions
              --921 participants
                  Summer public field trips
              --96 field trips
              --1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              --1170 volunteers
              --2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                  Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              --31 workshops
              --1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
   Prepared Statement of Nancy Jensen, Morehead City, North Carolina
    I am writing to specifically discuss the proposed closure of the 
National Oceanic and Atmospheric Administration (NOAA) Beaufort 
Laboratory located in Beaufort, North Carolina. The lab is part of the 
Department of Commerce, National Oceanic and Atmospheric Administration 
and houses employees of the National Marine Fisheries Service (NMFS), 
National Ocean Service (NOS), and National Estuarine Research Reserve 
(NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, the Center for Marine Sciences and Technology 
(CMAST), and the Institute of Marine Science. The NOAA Beaufort 
Laboratory is the center of productive fisheries science informing 
fisheries management for the Atlantic and Gulf coasts and is currently 
the only NMFS lab between Sandy Hook, New Jersey, and Miami, Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . .  $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S.Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              -- 177 educational programs
              -- 4947 participants
                  Teacher workshops
              -- 28 teacher workshops
              -- 412 participants
                  Summer camps
              -- 109 camp sessions
              -- 921 participants
                  Summer public field trips
              -- 96 field trips
              -- 1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              -- 1170 volunteers
              -- 2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                  Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              -- 31 workshops
              -- 1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
Prepared Statement of Dr. David F. Johnson, Former Director of the NOAA 
                     Beaufort Laboratory (Retired)
    Testimony.--My statement is submitted in strong and direct 
opposition to the closure of the National Oceanic and Atmospheric 
Administration (NOAA) marine science laboratory located in Beaufort, 
North Carolina, as is presently proposed in the President's fiscal year 
2015 Budget for:

  --NOAA
  --National Ocean Service (NOS)
  --Coastal Science, Assessment, Response and Restoration:
    --National Centers for Coastal Ocean Science (NCCOS), (NOAA Blue 
            Book, page 8), the cost is not specified in the Budget 
            document.

    The recommendation to close this laboratory is based on dated and 
faulty information, and has not been well justified in the 
administration's budget. I respectfully request this subcommittee to 
consider:

  --directing NOAA's National Ocean Service to withdraw the request for 
        closure of the Beaufort Laboratory, and
  --prevent the National Ocean Service from withdrawing support, 
        leading to an operational failure of the Laboratory.

    The balance of my statement will provide greater detail and 
justification for this position.
    The Beaufort Laboratory (the formal name is the NOAA, NOS, Center 
for Coastal Fisheries and Habitat Research located in Beaufort, North 
Carolina) is the second oldest Federal marine laboratory in the U.S., 
founded in 1899. This national laboratory is a prime location for 
marine science and provides the only Federal access to the most diverse 
marine ecosystem in the U.S. Within a short distance of the Beaufort 
Laboratory, ecological communities can be accessed which represent the 
northern extent of southern species and the southern extent of northern 
species. Offshore and adjacent to the Gulf Stream are reef communities 
representative of tropical environments. This location provides access 
to a ready supply of clean, high salinity, seawater which is so 
essential to marine cultures. In addition, this location provides ship 
access through a deep water inlet. I submit this location is an asset 
which should not be abandoned by NOAA.
    In the budget request, the National Ocean Service proposes ``to 
reduce its physical footprint and fixed costs by closing the Beaufort 
North Carolina laboratory''. A NOAA spokeswoman in Maryland, Ciaran 
Clayton (Director of Communications and External Affairs), was quoted 
in our local newspaper: ``this aging facility requires infrastructure 
repairs and improvements exceeding agency budget resources. . . .'' In 
subsequent discussions and clarifications for this budget, it seems 
this argument forms the basis for the requested closure. This argument 
is based on outdated information. A recent engineering survey indicates 
some previously reported structural concerns were minor and easily 
addressed without major cost. Please also be informed NOAA has been 
slowly upgrading the facility. In recent years, NOAA has provided 
approximately $14.5 million in infrastructure improvements, including 
three new buildings and a new bridge. In fact, NOAA just initiated a 
new construction project at the Beaufort Laboratory with more than a 
million dollars in funding. Under these present circumstances, closure 
would be a waste of recent Federal funding.
    The proposal for closure was revealed to the Laboratory's partners 
and public with the release of the President's budget for 2015. This 
was a surprise to the National Marine Fisheries Service (NMFS), NERRS 
and contract partners using the facility, and the many State and 
academic partners involved in joint scientific efforts. I am unaware of 
formal efforts to evaluate the costs and impacts of such a closure on 
these many partner organizations. The loss of the ongoing activities at 
the Laboratory and the disruption to partner activities will have 
effects which will ripple across numerous agencies and programs. This 
lack of evaluation seems programmatically and scientifically 
irresponsible.
    The Beaufort Laboratory has a long and extraordinary record for 
scientific excellence. The laboratory employs a number of 
internationally and nationally known scientists, who are providing 
support essential to international, U.S., and North Carolina issues. 
Without this ongoing support, NOAA programs like Harmful Algal Blooms, 
ecosystem forecasting and invasive species (lionfish) will be severely 
impacted. NMFS programs which, among others, represent management and 
recovery of key commercial species (snapper, grouper, menhaden) will be 
disrupted. The pioneering and essential work of these research teams 
(composed of leading scientists, junior scientists, technicians and 
essential support staff) will be terminated with the dissolution or 
dispersal of the teams. I am unaware of any NOAA efforts to evaluate 
the impacts to the many scientific programs through the loss of this 
scientific prestige.
    The local community will be severely impacted. The laboratory 
provides jobs for 108 people who include not only NOAA, but also State 
and private partners. Beaufort is a small community which would be 
heavily impacted by the economic losses associated with these jobs, and 
those of related family members. I am unaware of any analysis of the 
economic impacts to the community.
    The large Government investment in scientific equipment would be 
underutilized or wasted. The laboratory contains a large and diverse 
array of scientific equipment which cannot be maintained or effectively 
used with closure, or the loss of highly specialized support staff. I 
am unaware of any evaluation of the disposition of this equipment and 
the support requirements.
    The cost to provide laboratory and office space at Beaufort is 
cheaper than most areas of the United States. With tightening budgets, 
it would seem to make more sense to relocate employees to Beaufort. 
From this location, NOAA scientists would have access to facilities, 
equipment and ecosystems which are unavailable where many NOAA 
scientists are presently located.
    In summary, this proposal is ill conceived and not supported by any 
reasonable evaluation of the circumstances. I urge your subcommittee to 
oppose the closure of the Beaufort Laboratory.
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairwoman Mikulski, Ranking Member Shelby, and other distinguished 
Members of the Subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2015 Commerce, Justice, Science, and Related 
Agencies appropriations bill.
    The Joint Ocean Commission Initiative, a collaborative, bipartisan 
effort to catalyze ocean policy reform, urges incremental but 
significant increases for programs necessary to understand, protect, 
and restore our oceans and coasts, so vital to our Nation's economy and 
security. In particular we ask you to continue the progress made in the 
President's fiscal year 2015 budget request and provide $5.6 billion 
for NOAA to protect those core programs that sustain our oceans.
    We greatly appreciate your strong support of ocean and coastal 
issues over many years, and we understand the difficult choices made 
each year regarding scarce resources to address critically important 
issues under your jurisdiction. Our written testimony covers the 
following issues: coastal resilience; ocean observations; ocean 
acidification; STEM consolidation; ocean exploration; science, 
research, and education; and the Arctic.
                           coastal resilience
    The Joint Initiative strongly supports the Regional Coastal 
Resilience Grant program in NOAA's fiscal year 2015 budget, and we ask 
that you consider funding this program at $10 million, a $5 million 
increase from the President's fiscal year 2015 proposal. This program 
can provide competitive funding to support multi-State regional ocean 
partnerships that coordinate data sharing and decisionmaking across 
jurisdictions, implement innovative solutions to shared priorities, and 
effectively engage ocean and coastal stakeholders.
    These partnerships are critical as coastal States and communities 
confront challenges such as ocean acidification, sea level rise, 
growing ocean uses, burgeoning populations, and increasing threats from 
extreme weather events. Resilient coastal communities are not only able 
to minimize loss and negative impacts to life, property, and the 
coastal ecosystem, they are also able to quickly return residents to 
productive activities and restore essential services. This is 
imperative to facilitating full and timely economic, social, and 
environmental recovery. Recognizing the importance of regional 
solutions, Governors have already joined together to share information 
and coordinate with Federal agencies, businesses, nongovernmental 
organizations, and local governments to better adapt to changes 
underway in our oceans and on our coasts.
    Funding the Regional Coastal Resilience Grant program at $10 
million will still only address a small fraction of the demand, but it 
will enable partnerships to more efficiently apply limited resources to 
ensure the health of our oceans and coasts.
                      sustained ocean observations
    Sustained observations are vitally important to ensure coastal 
communities have the information necessary to increase overall 
resiliency. NOAA's Sustained Ocean Observations and Monitoring program 
funds global observing programs, including floats, drifters, and fixed 
moorings to provide information essential for accurate forecasting of 
hurricanes, typhoons, rivers and associated flooding, heat waves, and 
wildfires.
    Funding NOAA's Sustained Ocean Observations and Monitoring program 
at $41.3 million will help maintain the continuity of long-term data 
sets that are essential for ensuring that communities are able to 
respond and adapt to today's changing world.
                          ocean acidification
    The Joint Initiative encourages you, at a minimum, to include the 
$8.8 million increase in the President's fiscal year 2015 budget 
request for Integrated Ocean Acidification, bringing the total funding 
level to $15 million.
    As oceans become more acidic, there is an urgent need to understand 
the chemistry, variability, and impact of acidification on the marine 
environment. Ocean acidification is happening along every shoreline in 
the United States. In the Pacific Northwest, it is killing young 
oysters by the billions, threatening the shellfish industry. In 2011, 
the State of Washington convened a Blue Ribbon Panel on Ocean 
Acidification, which identified gaps in scientific knowledge and 
recommended strategies to mitigate immediate threats and improve 
industry resilience. While shellfish and coral reefs receive most of 
the attention related to ocean acidification, fisheries, aquaculture, 
and coastal ecosystems around the Nation will be greatly affected.
    While ocean acidification is a global problem needing global 
solutions, funding the Integrated Ocean Acidification program at NOAA 
at increased levels will allow us to measure and assess the emerging 
threat of ocean acidification, better understand the complex dynamics 
causing and exacerbating it, work to determine its impact, and develop 
mechanisms to address the problem.
                           stem consolidation
    The Joint Initiative is deeply alarmed by the major restructuring 
in the administration's proposal that would consolidate science, 
technology, engineering, and mathematics (STEM) programs, including the 
elimination of funding for ocean education programs in NOAA. We 
appreciate your thoughtful response to the STEM consolidation proposal 
in the fiscal year 2014 Omnibus Appropriations report, noting that the 
proposal ``failed to sufficiently recognize or support a number of 
proven, successful programs.'' We believe NOAA education programs--
specifically the NOAA Competitive Education Grants Program, Ocean 
Exploration and Research education, and Sea Grant STEM education 
activities including all State Sea Grant Program STEM activities-- fall 
into this category.
    By eliminating key ocean education programs at NOAA, we are 
concerned that ocean science content may be lost in the proposed 
consolidation, as it is not traditionally viewed as a ``core science.'' 
In addition, removing education programs from mission-driven agencies 
such as NOAA, where research is sponsored and conducted, will isolate 
scientific research and its results from ocean education efforts. 
Educating and cultivating current and future ocean stewards is 
critical, especially given the tremendous growth in careers that 
require ocean-related education and knowledge. A recent report by the 
statutorily-created Ocean Research Advisory Panel (ORAP) forecast a 
need for approximately one million more college graduates than 
currently estimated in STEM fields over the next decade. This report 
underscores the need for a STEM literate, and ocean literate, workforce 
to fill positions in commerce, energy, transportation, food production, 
national security, recreation, and tourism.
    The Joint Initiative strongly urges you to fund NOAA education 
programs at increased levels.
                           ocean exploration
    The Joint Initiative appreciates your long standing support of 
ocean exploration at NOAA and requests that you provide $30 million for 
the Ocean Exploration program to increase the pace, scope, and 
efficiency of exploration.
    A bipartisan effort since inception, the Ocean Exploration program 
was strongly endorsed by Congress when created in 2002. The program has 
greatly contributed to our knowledge of the ocean, including Arctic 
surveys that enabled the U.S. to argue for an extension of our 
Exclusive Economic Zone; baseline characterization of the Deepwater 
Horizon site in the Gulf before and after the oil spill; discovery of 
new gas hydrates stretching from Cape Cod to Cape Hatteras, with 
implications for ocean acidification; and new fishery habitat maps off 
the Northeast.
                    science, research, and education
    The Joint Initiative calls attention to the need for consistent and 
dedicated funding for ocean science, research, and education. We ask 
you to increase funding for ocean science research, infrastructure, and 
grant programs at NOAA, National Science Foundation (NSF), and National 
Aeronautics and Space Administration (NASA) that are working to improve 
our understanding of critical physical and biological ocean processes. 
These programs provide local, State, and national decision makers with 
the information they need to make informed decisions.
    In particular, we encourage you to provide $7.5 billion for the NSF 
to support core ocean and coastal research and research infrastructure, 
which are critical to understanding processes that impact the health of 
the ocean and its role as the ``flywheel'' that drives global 
environmental dynamics. Unfortunately, funding challenges within NSF 
have has significantly impacted the Geosciences Directorate and its 
Division of Ocean Science, thereby seriously eroding funds available to 
support core research. We also urge $1.8 billion in funding for the 
NASA's Earth Science Division to support critically important ocean and 
coastal science and education, including ground support and data 
processing for the multiple Earth observation missions scheduled for 
launch this year, and key missions currently under development.
                                 arctic
    The Joint Initiative recommends that the fiscal year 2015 
appropriations bill make a significant investment toward implementation 
of the National Strategy for the Arctic Region. This will enable the 
United States to prepare for taking over chairmanship of the Arctic 
Council in 2015 and lay the groundwork for sound international 
management of the region while protecting a sensitive and rapidly 
changing ecosystem.
    The changes occurring in the Arctic are not well understood. The 
area is seeing an influx of international activity as changes in sea 
ice coverage and thickness open new shipping routes and provide 
opportunities for energy exploration. Taking over chairmanship of the 
Arctic Council is a real opportunity to be an international leader in 
the Arctic; however, increased funding for Federal agencies operating 
in the Arctic under your jurisdiction, such as NOAA and NSF, is 
essential if we are to do so. NOAA provides a range of important 
services essential to our understanding of the Arctic including ocean 
observation services, weather and sea ice predictions, mapping and 
charting, and sound management of marine resources.
                           concluding remarks
    The Joint Initiative is acutely aware of the challenges you face 
addressing the funding needs of agencies and programs across the 
government. However, the Joint Initiative believes a commitment to 
understanding and protecting our Nation's ocean and coasts is an 
investment in the future of our country that will provide significant 
economic, social, ecological, and national security benefits.
    Thank you for considering our requests as the subcommittee begins 
it fiscal year 2015 appropriations process. The Joint Initiative 
sincerely appreciates your attention to this matter and stands ready to 
assist you in advancing positive and lasting changes in the way we 
manage our Nation's oceans and coasts.

       Joint Initiative Co-Chairs and Leadership Council Members

The Honorable William Ruckelshaus <rm-bond> The Honorable Norman Mineta

    Frances Beinecke <rm-bond> Don Boesch <rm-bond> Lillian Borrone 
                   <rm-bond> The Honorable Norm Dicks

 Vice Admiral Paul Gaffney <rm-bond> Robert Gagosian <rm-bond> Sherri 
                     Goodman <rm-bond> Scott Gudes

 Vice Admiral Conrad Lautenbacher <rm-bond> Margaret Leinen <rm-bond> 
                         Christopher Lischewski

  The Honorable Jane Lubchenco <rm-bond> Julie Packard <rm-bond> The 
                         Honorable Leon Panetta

   John Pappalardo <rm-bond> Pietro Parravano <rm-bond> Diane Regas 
                         <rm-bond> Randy Repass

    Andrew Rosenberg <rm-bond> Patten White <rm-bond> The Honorable 
                         Christine Todd Whitman

                                 ______
                                 
Prepared Statement of G. Todd Kellison, Carteret County, North Carolina 
    Resident and Chief, Fisheries Ecosystems Branch, NOAA Fisheries/
         Southeast Fisheries Science Center/Beaufort Laboratory
    Dear Members of the U.S. Senate Subcommittee on Commerce, Justice 
and Science, and Related Agencies: First, allow me to state that while 
I am a National Oceanic and Atmospheric Administration (NOAA) employee, 
I have written this letter on my own time, with my own resources and 
not as any part of my NOAA-related job. The comments I offer below are 
my personal opinion as a citizen regarding the proposed closure of the 
NOAA Beaufort Laboratory in Beaufort, North Carolina.
    I am gravely concerned about the proposal in the 2015 President's 
budget to close the NOAA Beaufort Laboratory. The Laboratory is part of 
the National Oceanic and Atmospheric Administration; it is administered 
by the National Ocean Service (NOS), but also houses the National 
Marine Fisheries Service (NMFS) and National Estuarine Research Reserve 
System (NERRS). The Laboratory is a stalwart of fisheries and oceanic 
science, with an outstanding national and international reputation for 
advancing science in numerous areas: population dynamics and stock 
assessments; Gulf and Atlantic menhaden biology, movement, and 
assessments; harmful algal blooms; hypoxia; habitat science; pathogens; 
and science to support management of economically important fisheries. 
NOAA and the President have repeatedly recognized individual 
researchers, research teams, and the Laboratory as a whole for its 
outstanding quality of scientific work. Furthermore, the Laboratory is 
the originator and centerpiece of an internationally esteemed 
consortium of marine science institutions, including the marine 
laboratories of Duke University, North Carolina State University, the 
University of North Carolina at Chapel Hill, and the North Carolina 
Division of Marine Fisheries. Beaufort was chosen because it is a prime 
location where northern and southern marine ecological communities 
intersect, and as such the Laboratory provides the only Federal access 
to the most diverse marine ecosystem in the United States. There is no 
other location where these opportunities can be accessed as easily or 
as cheaply. The Beaufort Laboratory is the only NMFS facility on the 
Atlantic coast between Sandy Hook, New Jersey and Miami, Florida, a 
stretch of over 1200 miles of coastline.
    The request to close the laboratory was based on current funding 
allocation, but inaccurate and outdated information that overstated the 
costs of maintaining the facility was used in the analysis that led to 
this request. Currently, the lab houses 108 employees from NOS, NMFS, 
and NERRS. The NOS initiated the proposed closure, but the request 
understated the number of NOS employees and did not account at all for 
employees from NMFS or NERRS. In effect, this mistake excluded more 
than half the staff of the Laboratory. Furthermore, the request was 
based on estimated costs for the Laboratory's upkeep and maintenance 
that were in error. Since 2006, several activities have been completed 
to keep the facility in good working condition, including replacement 
of the administration building, replacement of the maintenance 
building, replacement of the chemical storage building, replacement of 
the bridge to the facility, repair of the seawall, and other 
improvements (air conditioning, electrical, storm water runoff), which 
totaled approximately $14 million. After such investments, closing the 
Laboratory now would represent a conspicuous waste of tax-payer money. 
Finally, contrary to previous claims, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound. Based 
on mistakes both in the number of staff at the facility and in the 
costs associated with its upkeep, the budgetary calculations used to 
justify the proposed closure were fundamentally flawed.
    I highlight below, by line office, the critical role that the NOAA 
Beaufort Laboratory has played in helping NOAA achieve its Strategic 
Mission (1) to understand and predict changes in climate, weather, 
oceans, and coasts, (2) to share that knowledge and information with 
others, and (3) to conserve and manage coastal and marine ecosystems 
and resources.
                                  nos
    While the National Ocean Service is calling for the closure of the 
Beaufort North Carolina laboratory, it is requesting an increase of $4 
million to another center to support Ecological Forecasting of Harmful 
Algal Blooms (HABs), Hypoxia, pathogens, and Species Distributions. 
These areas of research are the bread and butter of NOS at the Beaufort 
Laboratory. In fact, NOAA would not have the strength it currently has 
in forecasting HABs if it were not for the Laboratory's seminal and 
award-winning work that has been ongoing from the 1980s to this day. 
Furthermore, the Beaufort Laboratory initiated the first-ever study of 
the invasive lionfish in the U.S. South Atlantic, and it has continued 
to play a pivotal role in monitoring the distribution and abundance of 
this invasion throughout the South Atlantic, Gulf of Mexico, and 
Caribbean, providing information that has been critical for mitigation 
and management strategies. It is ironic and perplexing that the fiscal 
year 2015 President's budget requests increased research funding for 
coastal ocean issues, including harmful algal blooms, hypoxia, and 
coastal ecosystem management, while at the same time proposing to close 
an existing facility that already has both well-established expertise 
and facilities required to address many of those very same issues.
                                  nmfs
    The Beaufort Laboratory provides the stock assessment science that 
allows NOAA to fulfill its obligation toward the Magnuson-Stevens 
Fishery Conservation and Management Act, as mandated by Congress. The 
stock assessment science of the NOAA Beaufort Laboratory focuses on 
marine fish populations that are ecologically and economically vital to 
the region and Nation, including snapper-grouper and pelagic species 
managed by the South Atlantic Fishery Management Council, Atlantic 
menhaden managed by the Atlantic States Marine Fisheries Commission, 
and Gulf menhaden managed by the Gulf States Marine Fisheries 
Commission. Atlantic menhaden support the largest fishery on the U.S. 
Atlantic coast, and Gulf menhaden support the largest fishery in the 
Gulf of Mexico. To enable robust stock assessments, sampling of the 
Atlantic and Gulf menhaden fisheries has been conducted by the Beaufort 
Laboratory for decades, and monitoring of snapper-grouper species has 
been accomplished by the Laboratory's Southeast Fishery-Independent 
Survey. Removing this sampling and monitoring from the Beaufort 
Laboratory would not only result in a significant disconnect between 
NOAA and the communities that it serves, but would also degrade the 
quality of stock assessments at a time when Congress is rightly calling 
for improvements.
                                 nerrs
    NERRS is partnered with the North Carolina Coastal Reserve, with 
program headquarters at the NOAA Beaufort Laboratory. This program 
supports long-term research, water-quality monitoring, education, and 
coastal stewardship. In 2002, Congress provided NOAA with ``. . .  
$5,000,000 for the Beaufort Laboratory for necessary repairs to 
existing facilities and to construct a joint laboratory, dock, and 
other facilities in collaboration with the Rachel Carson National 
Estuarine Research Reserve.'' With this funding, NOAA invested $1.28 
million and the State of North Carolina invested $42,000 for the 
construction of a joint building at the NOAA Beaufort Laboratory to 
serve the Reserve's mission. The joint building was completed in 2007 
and was constructed specifically with the Reserve's education programs 
in mind: the auditorium regularly hosts coastal training program 
workshops and the teaching classroom hosts school groups, teacher 
workshops, field trips, and lectures to support K-12 Estuarine 
Education Program activities. The NOAA Beaufort Laboratory is a 5-
minute boat ride from the Rachel Carson component of the Reserve, and 
this close proximity is essential for performing Reserve activities 
efficiently to conduct mission-critical work, including educational 
programs, water quality and habitat monitoring, research programs, and 
stewardship of the site, which involves species monitoring, debris 
clean-ups, feral horse management, and access point maintenance. In 
short, NERRS activities in education, training, and stewardship have 
been extensive, and they would not be feasible from any other Federal 
laboratory.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
detriment to NOAA's ability to accomplish its own Strategic Mission and 
to meet its obligations toward such congressional mandates as the 
Magnuson-Stevens Fishery Conservation and Management Act. The only 
argument for closing the laboratory was financial, but that argument 
was based on flawed estimates of maintenance costs and an outdated 
engineering report, which has since been revised with opposite 
conclusions regarding the lab's structural integrity. Relative to 
NOAA's budget, any cost savings associated with closing the Laboratory 
would be trivial; however the loss to the Nation would be significant.
                                 ______
                                 
        Prepared Statement of Mary E. Kentula, Corvallis, Oregon
    I am writing on opposition of the proposed closure of the National 
Oceanic and Atmospheric Administration (NOAA) Center for Coastal 
Fisheries and Habitat Research located in Beaufort, North Carolina 
(hereafter the Beaufort Lab), as recommended on page 8 of NOAA's 2015 
Budget Summary. As someone who has worked in the field of aquatic 
science for over 30 years, I am concerned that one of the Nation's 
premier research facilities may be closed. The Beaufort Lab is located 
strategically where the entire East and Gulf Coasts can be easily and 
cheaply accessed. The Lab is manned by an impressive team of nationally 
and internationally known scientists who conduct research critical to 
the understanding of the Nation's coastal ecosystems and the protection 
of our fisheries and other enterprises supporting the economy of 
coastal communities.
    I have had the opportunity to work with scientists from the 
Beaufort Lab throughout my career. I have been consistently impressed 
with the quality of their work and their commitment to the mission of 
NOAA. One of the invaluable services such facilities provide is the 
ability to assemble technical teams from a variety of backgrounds and 
organizations to address difficult problems. This includes expertise 
from academia, the private sector, and other government agencies, as 
well as scientists from the natural and social sciences. Because of the 
mix of skills and perspectives, these teams are highly creative and 
productive. The Beaufort team has been very successful in using this 
approach, for example, to address the protection and restoration of 
coastal ecosystems and to provide guidance to coastal communities on 
how best to manage their lands in a productive and sustainable way.
    I understand the intension is to move the Federal scientists to 
other laboratories; however, the teams that have formed over the years 
to conduct what NOAA deemed high priority research will be disbanded, 
along with the associated institutional history. The time and effort 
lost while the capability is rebuilt will be costly in real dollars as 
well as in delays to important work. In addition, the investment in the 
large and diverse array of equipment at the Beaufort Lab will be lost 
and the funds used to purchase and maintain the equipment wasted. In 
this time of budget constraints, it is ``penny wise and pound foolish'' 
to destroy a well-functioning unit and lose the investment in the staff 
and equipment.
    There is also the impact to the community of Beaufort to consider. 
I have read articles expressing concerns about the potential closure of 
the NOAA Lab. One account mentions the NOAA lab is the largest member 
of the North Carolina Marine Science and Education Partnership which 
accounts for over 58 million dollars in funding for research and, with 
the addition of the education component, more than 100 million dollars 
is brought into Carteret County. Loss of a key component of this hub 
for research and education would be devastating to the economy of the 
area and its citizens.
    I urge the Committee on Appropriations Subcommittee on Commerce, 
Justice, Science and Related Agencies to remove the recommendation to 
close the NOAA Center for Coastal Fisheries and Habitat Research from 
NOAA's budget for 2015 and thus prevent the loss of an outstanding 
center for high priority and critical research on coastal systems and 
fisheries.
    Thank you for your consideration.
                                 ______
                                 
 Prepared Statement of Nikolai Klibansky Ph.D., Atlantic Beach, North 
                                Carolina
    Dear subcommittee members,

    I am writing this letter as a private citizen using only my own 
resources on my own time. I write on behalf of myself and no other 
agency to express my opposition to the closure of the National Oceanic 
and Atmospheric Administration (NOAA) Beaufort Laboratory in Beaufort 
North Carolina, proposed in the fiscal year 2015 budget. The Beaufort 
Lab is a part of the National Oceanic and Atmospheric Administration 
within the U.S. Department of Commerce. Employees of National Estuarine 
Research Council (NERR), the National Marine Fisheries Service (NMFS), 
and the National Ocean Service (NOS) are housed at the Lab.
    Though I am currently a post-doctoral research associate for the 
National Research Council working at the Beaufort Lab I am there 
temporarily and closure of the lab would likely occur after I am gone. 
But as a citizen, a voter, and a scientist I find that closing the lab 
would be a loss for us all, for the gain of none.
    While I am strongly in favor of fiscal responsibility, and I 
appreciate public officials trying to save taxpayers money, it is clear 
to me that closure of the Beaufort Lab would cost far more in 
intellectual capital and scientific information than would be gained in 
dollars and cents. The Beaufort Lab is the second oldest marine lab in 
the United States, commemorated in downtown Beaufort by the kind of 
historical marker that honors battlefields and the birthplaces of 
presidents. It is the only lab of its kind on the East Coast from Cape 
May, New Jersey to Miami, Florida, situated in an ideal location near 
Cape Hatteras which serves as the most significant marine ecological 
boundary on this coast. As a North Carolina resident for nearly 7 
years, I assure you that this Federal facility is a point of pride to 
North Carolina voters, who live and breathe to enjoy a healthy ocean, 
and many who feed their families from it.
    The organizations housed within the Beaufort Lab perform essential 
functions for us all, providing information needed to properly manage 
marine fisheries like red snapper, mahi mahi, and shrimp; and to 
mitigate harmful algal blooms and the formation of marine dead zones. 
Other personnel dedicate their time to managing barrier beach islands 
and marshes that protect the mainland, human lives, and billions of 
dollars in coastal real estate from the damaging effects of massive 
hurricanes like Katrina and Sandy.
    Though the argument has been made that closure of the Beaufort lab 
would save money, this is apparently based on inaccurate numbers. In 
the budget it was claimed that the buildings are all falling apart and 
the costs to repair them would be prohibitively expensive, and yet the 
largest building on the property was built less than 10 years ago and 
houses the largest proportion of employees. Of all the NOAA labs on the 
East Coast, the Beaufort Lab is situated on some of the least expensive 
property. It seems highly unlikely that proper accounting would show a 
financial benefit of the closure the Lab that would come close to the 
damage it would inflict. I don't expect that the calculations in the 
budget were intentionally biased, but they are quite clearly wrong. 
Therefore I urge you to do what is in your power, to see that the 
Beaufort Lab is maintained and protected.
                                 ______
                                 
          Prepared Statement of Lund's Fisheries Incorporated
    Dear Chairwoman Mikulski and Ranking Member Shelby: On behalf of 
the 150 employees of our family-owned, vertically-integrated seafood 
processing facility and the company-owned and independently-owned 
commercial fishing vessels and crew whom work to support us here in the 
port of Cape May, New Jersey, I am writing in strong opposition to the 
fiscal year 2015 budget proposal to close the National Oceanic and 
Atmospheric Administration (NOAA) National Ocean Service (NOS)/National 
Marine Fisheries Service (NMFS) Fisheries Laboratory in Beaufort, North 
Carolina.
    While the Beaufort Fisheries Laboratory is the second oldest marine 
fisheries lab in the United States, contrary to the budget proposal's 
justification that the lab be closed because it is structurally 
unsound, a recent engineering report, reflecting more than $14 million 
in new construction and renovations, states that this is not an 
accurate description of the facility's capabilities or infrastructure.
    More importantly, from the perspective of our fishing company, the 
Beaufort Laboratory is strategically located, geographically, to 
monitor the ecological resources and communities of both the northern 
range of southern species and the southern range of northern species, 
which are vitally important to marine fisheries on both the Atlantic 
and Gulf coasts. This location is critical for continued study of 
emerging issues, like climate change-related warming of ocean habitats, 
so that fishery managers may be informed of resulting species regime 
shifts, which are challenging our ability to sustainably manage the 
region's living marine resources.
    Specifically, the Beaufort Laboratory houses a state-of-the-art 
population dynamics and stock assessment program that focuses on a 
number of important, regional commercial fishery species, including 
Atlantic and Gulf Menhaden, which provide a critical source of bait for 
the lobster fisheries of the northeast and the crab and crawfish 
fisheries of the mid-Atlantic, south and southeast.
    Atlantic menhaden, for example, support the largest fishery on the 
Atlantic coast, and Gulf menhaden support the largest fishery in the 
Gulf of Mexico, worth more than $125 million, combined, to local and 
regional coastal economies including the Port of Cape May. Decades of 
experience in assessing and monitoring these fishery resources is 
housed in Beaufort, the loss of which to the region would be 
significant and, we believe, unnecessary.
    Thank you for the opportunity to provide you with our view of this 
important budget issue. It is clear to us that this proposal should be 
rejected and that the Beaufort Fisheries Laboratory should be 
maintained by NOAA. We urge you and the other members of the 
subcommittee to adopt this point of view.
    Please do not hesitate to contact me if I can provide you or your 
staff with any additional information in support of maintaining the 
Beaufort Laboratory.
            With best regards,

                                        Jeffrey B. Reichle,
                                                         President.
                                 ______
                                 
        Prepared Statement of the Marine Conservation Institute
    Ms. Chairwoman and members of the subcommittee: Marine Conservation 
Institute, based in Seattle, Washington, is a nonprofit conservation 
organization that uses the latest science to identify important marine 
ecosystems around the world and advocates for their protection for us 
and future generations. We wish to thank the members of the 
subcommittee for the opportunity to submit written testimony on the 
fiscal year 2015 appropriations for the National Oceanic and 
Atmospheric Administration (NOAA).
    Marine Conservation Institute was instrumental in President Bush's 
designation of the Papahanaumokuakea Marine National Monument 
(Northwest Hawaiian Islands) and the Pacific Remote Island Marine 
National Monuments, which has given rise to our concern for the only 
species of endangered marine mammal, the Hawaiian Monk Seal, that is 
found entirely within U.S. territorial waters. Marine Conservation 
Institute supports $5.0 million in base funding for the Hawaiian Monk 
Seal recovery program, which is one element of the Marine Mammal 
program within the Protected Resources budget line. If funded at $5 
million, the Hawaiian Monk Seal program would receive approximately 35-
45 percent more than allocated in the fiscal year 2014 spending plan 
and about double what has been requested in the last two Presidential 
budgetn. Though these suggested percentage increases, by themselves, 
would seem large, the amount that the Protected Resources budget would 
increase in order to accommodate this request is quite small: 1.3 
percent ($2.5 million increase to $186 million).
              why hawaiian monk seal recovery is important
    NOAA is responsible for recovering populations of the Hawaiian monk 
seal, one of the most critically endangered marine mammals in the 
world. The monk seal is also the only marine mammal whose entire 
distribution range lies within our national jurisdiction; thus the U.S. 
is solely responsibility for its continued survival. Over the last 50 
years, the Hawaiian monk seal population has experienced a severe 
decline of 60 percent, and now the population is slightly more than 
1,000 individuals. Various factors have contributed to the seal's 
decline including: human hunting of the species to near extinction in 
the mid-1800's; entanglement in marine debris and fishing gear; loss of 
habitat for pupping and resting; and competition for food in the 
Northwestern Hawaiian Islands; to name a few.
    There is reasonable hope for the monk seal if a small subpopulation 
in the main Hawaiian Islands can continue to grow beyond its current 
level of 130-200 individuals. However, this population growth has 
generated increased conflicts with citizens and recreational fishermen 
who unintentionally hook or entangle monk seals. In 2012 alone, there 
were 15 confirmed hooking incidents, and three seals died as a result. 
Hostility toward the seal has become toxic in some communities, 
prompting at least four intentional seal killings on Kaua'i and 
Moloka'i in a little over a year. Due to the efforts of private 
foundations and funders, Marine Conservation Institute has been able to 
successfully conduct culturally appropriate anger reduction activities 
on Kaua'i in the last 2 years, and there has not been an intentional 
killing since then. But this kind of private funding is not a permanent 
solution for plugging a hole in NOAA's budget.
    It has been conservatively estimated that 30 percent of the monk 
seals are alive today due to direct actions by NOAA and its 
partners.\1\ However, we are concerned that funding for the monk seal 
has severely decreased in recent years (a level as low at $2.7 million 
in 2011). Furthermore, our analysis indicates that cuts to the monk 
seal program have been disproportionate compared to other marine mammal 
species under NOAA's jurisdiction.
---------------------------------------------------------------------------
    \1\ McAvoy, Audrey. ``Feds--Efforts to rescue monk seals helping 
species.'' Associated Press in West Hawaii Today, January 26, 2012.
---------------------------------------------------------------------------
    Lower funding levels in recent years have already severely affected 
recovery efforts by reducing seasonal field camps essential for 
population monitoring and seal protection in the Northwest Hawaiian 
Islands; hampering critical community liaison efforts to explore and 
explain the importance of the monk seal in Native Hawaiian culture; 
removing specialists who eliminate sharks preying on seal pups; and 
diminishing research programs that develop mitigation measures for 
fisheries interactions and other human-seal interactions.
             funding level necessary for monk seal recovery
    Marine Conservation Institute strongly recommends the subcommittee 
devote a modest absolute increase in funding, an additional $2.5 
million, to reach $5.0 million in fiscal year 2015 to begin to 
reinstate NOAA's lost capacity to recover the species.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is pleased 
to submit testimony to the subcommittee with a series of 
recommendations that we believe would strengthen the Nation's research 
and education enterprise. NAML is a nonprofit organization representing 
the ocean, coastal and Great Lakes interests of member laboratories 
that employ thousands of scientists, engineers and professionals 
nationwide. NAML labs conduct high quality research and education in 
the natural and social sciences and translate that science to improve 
decisionmaking on important issues facing our country. NAML requests 
the subcommittee to:
  --Provide strong support for competitive, merit-based ocean, coastal, 
        and Great Lakes research, infrastructure and education programs 
        at the National Oceanic and Atmospheric Administration (NOAA), 
        the National Science Foundation (NSF), and the National 
        Aeronautics and Space Administration (NASA). This issue is 
        discussed in detail later in this statement;
  --Support the research infrastructure of marine laboratories that 
        will lead to better integration of environmental data networks 
        into Federal information and observing system networks and in 
        so doing achieve cost effective science-based decisionmaking 
        regarding the management of marine, coastal and Great Lakes 
        ecosystems and related resources;
  --Increase the co-location of Federal scientists and Federal research 
        infrastructure initiatives at NAML laboratories as well as 
        increased coordination and cooperation between NOAA's ocean, 
        coastal and Great Lakes research and education programs; and
  --Advance a diverse, distributed ocean science education agenda 
        through strong support for ongoing programs within NSF, NOAA, 
        and NASA. NAML is concerned that the administration `s STEM 
        education consolidation plan will terminate K-12 STEM education 
        and fellowship activities within the Sea Grant program as well 
        as terminate important ocean literacy activities in the Office 
        of Education at NOAA. NAML urges the committee to reinstate 
        these activities within NOAA.
the role of marine laboratories in the nation's research and education 
                               enterprise
    Ocean, coastal and Great Lakes marine laboratories are vital, cost-
effective, place-based ``windows on the sea.'' They connect communities 
with cutting edge marine, coastal and social sciences, while also 
providing students and citizens with meaningful learning experiences. 
The members of the National Association of Marine Laboratories (NAML) 
work together to improve the quality and relevance of ocean, coastal 
and Great Lakes research, education and outreach. In particular, NAML 
laboratories compete for support for the:
  --Conduct of basic and applied research of the highest quality making 
        use of the unique capabilities of coastal laboratories;
  --Revitalization of research infrastructure through increased cost-
        effective networking of capabilities;
  --Unique role that coastal laboratories play in conducting education, 
        outreach and public service;
  --Encouragement of wise use and conservation of marine and coastal 
        habitats and resources using ecosystem-based management 
        approaches;
  --Coastal and other observing systems that collect front line data 
        needed to improve predictions of natural and human-caused 
        disasters, the management of marine resources, research, and 
        education; and
  --Increased public ocean and Great Lakes literacy to promote greater 
        environmental stewardship.
oceans, coasts and great lakes--vital for economic growth and enhanced 
                           coastal resiliency
    The ocean, coasts, coastal watersheds, and the Great Lakes play a 
central role in the well being of the Nation. Over 8.5 million people 
reside in the 100-year coastal flood hazard area. More than half of the 
United States population lives in 673 coastal watershed counties, and 
these counties generate 58 percent ($8.3 trillion) of the Nation's 
gross domestic product (GDP)--even though they comprise only 25 percent 
of the Nation's land area. Every day, the marine environment supplies a 
multitude of products and services that enhance and support the lives 
and livelihoods of citizens. In 2011, Americans, on average, ate 15 
pounds of fish and shellfish per person--4.7 billion pounds all 
together--making the U.S. second in the world in total seafood 
consumption. Offshore oil production in Federal waters accounts for 24 
percent of total U.S. crude oil production. If American coastal 
watershed counties were considered an individual country, that country 
would have a GDP higher than that of China. The United States has 
jurisdiction over 3.4 million square miles of oceans--an expanse 
greater than the land area of all 50 States combined. This vast marine 
area offers many environmental resources and economic opportunities, 
but also presents threats such as damaging tsunamis and hurricanes, 
industrial accidents and outbreaks of water borne pathogens. The 2010 
Gulf of Mexico Deepwater Horizon oil spill, the 2011 Japanese 
earthquake and tsunami, and the 2012 Superstorm Sandy are vivid 
reminders that our understanding of our oceans and coastal areas is far 
from complete. Developing sufficient capabilities to sustain ocean-
based economies and protect our coasts and coastal communities from 
natural and man-made hazards will require a sustained investment in 
research, infrastructure and education and training. NOAA's budget 
request contains several programs designed to reduce coastal and 
community vulnerability to future storms, inundation and sea level 
rise. NAML encourages the Committee to support these resilience 
programs
                  naml priority--investing in research
    NAML believes America is driven by innovation--advances in ideas, 
products and processes that create new industries and jobs, contribute 
to our Nation's health and security, and support a high standard of 
living. In the past half-century, educated people and the knowledge 
they produce have increasingly driven innovation. It is essential that 
the Nation reaffirms and revitalizes the unique partnership that has 
existed between the Federal Government, the States and business and 
industry with the Nation's research and education enterprise. In doing 
so, we encourage the innovation that leads to high-quality jobs, 
increased incomes, security, health, and prosperity for the Nation. 
Investing in the Nation's research enterprise should be seen as a high 
priority that has contributed significantly to our long-term prosperity 
and technological preeminence through interdisciplinary research 
spanning a landscape of disciplines, from physics to geology, chemistry 
to biology, engineering to social sciences and modeling to observation. 
NAML believes that research and education programs at the major Federal 
science agencies with ocean and coastal responsibilities should be 
viewed as priority investments in the future health and well being of 
the Nation.
    Programs that support the extramural community via competitive, 
merit-based research provide highly cost-effective returns on 
investment, leverage additional resources to meet science and 
management priorities, and distribute economic and societal benefits 
over a broad array of communities. While NOAA has acknowledged his 
assertion on many occasions, its support for its extramural partners 
has continued to decline. From background information developed for the 
NOAA Science Advisory Board's R&D Portfolio Review Task Force support 
by the Office of Oceanic and Atmospheric Research (OAR) for extramural 
R&D has declined by $60 million since 2005--from $171.6M to $107.1M 
while the percentage of OAR's research activities to support extramural 
programs has dropped from just over 50 percent down to 34 percent of 
the total. In the National Ocean Service (NOS), support for extramural 
R&D has declined from a level of $21.6M in 2005 to $13.7M in 2011 while 
intramural support has grown from a level of $53 million in 2005 to a 
level of $58 million in 2011. Moreover NOAA has repeatedly proposed the 
termination of numerous extramural programs--such as the John H. 
Prescott Marine Mammal Grants program--and the consolidation of 
research programs--such as Ocean Exploration and Research--which has 
led to the dramatic reduction in extramural research and education 
support.
    Beyond cutting back on its extramural support, NOAA now seeks 
permission to ``receive and expend funds made available by, any . . . 
private organization, or individual (proposed Section 108 of the 
General Provisions in the NOAA Section of the Appendix to the fiscal 
year 2015 Budget).'' This would enable NOAA to compete against non-
Federal and private entities for private sector support. Thus not only 
is NOAA cutting back its own support, it intends to further exacerbate 
the situation by competing against its partners for the limited 
available non-Federal resources needed to fill the gaps created by 
NOAA's decision to scale back its extramural support.
    NAML urges the Committee to restore to the maximum extent possible 
NOAA support for its extramural research, education, and other related 
programs while also limiting NOAA's ability to compete with the private 
sector for non-Federal resources needed for research, education, and 
conservation programs.
    Much attention has been justifiably focused on the need for our 
Nation to continue its support of premier basic research programs. It 
is also important to maintain strong support for mission-oriented 
ocean, coastal and Great Lakes research, observing and monitoring 
programs. Further, NAML believes that developing exchange programs 
between Federal agencies and marine laboratories--such as co-location 
of Federal scientists and Federal research infrastructure initiatives 
at NAML laboratories--will further strengthen the capacity of both 
sectors while also reducing costs by eliminating duplicative 
activities.
          naml priority--investing in research infrastructure
    NAML believes that a comprehensive range of ocean and coastal 
research infrastructure will be needed to meet growing demands for 
scientific information and to enable the safe, efficient, and 
environmentally sustainable use of the ocean. Institutional barriers 
have inhibited collaborative efforts to plan for the deployment, 
operation and maintenance of high-cost critical infrastructure assets 
such as ships, satellites, observing systems and cyber-infrastructure 
for data sharing, networking and collaborative use of available 
facilities. Marine laboratories often play a critical role in 
supporting studies that extend across decades. Marine laboratories can 
provide the infrastructure to collect data throughout a lifetime, and 
even maintain important data streams that extend well beyond any single 
researcher. Marine laboratories are often a hotbed of sensor 
development and testing. With technology changing rapidly, marine 
laboratories provide the expertise to maintain a level of 
standardization that ensures such data can be interpreted accurately 
even as protocols change in response to improving technology. Marine 
laboratories are playing an increasing important role in supporting 
networks that extend beyond any single lab. Because environmental 
processes occur on a wide range of spatial and temporal scales, data 
streams are standardized and networked to varying degrees to facilitate 
cross-site and long-term analyses. Finally, given the complexity and 
interconnected nature of many environmental processes, marine 
laboratories provide important opportunities to weave together the work 
of many researchers across diverse disciplines to detect patterns and 
understand processes that would not be apparent from any single study 
or data stream.
naml priority--science, technology, engineering and mathematics (stem) 
                               education
    NAML's education mission is two-fold: to enhance ocean STEM 
education to ensure that all citizens recognize the role of the oceans, 
coasts and Great Lakes in their own lives and the impacts they 
themselves have on these environments; and to provide formal research 
and training opportunities at K-12, college, and post-graduate levels 
to ensure a technically-qualified, and ethnically diverse workforce 
capable of solving problems and answering questions related to the 
protection, restoration and management of coastal and ocean resources, 
climate variability and society's needs. An informed and engaged public 
is essential to understand complex ocean- and coastal-related issues, 
balance the use and conservation of marine resources, and maximize 
future benefits from the ocean. The public should be armed not only 
with the knowledge and skills needed to make informed choices, but also 
with a sense of excitement about the marine environment. Public 
understanding of human impacts on the marine environment should be 
balanced with recognition of the benefits to be derived from well-
managed ocean resources. Inland communities need to be just as involved 
as seaside communities, because of the connection among the ocean, the 
atmosphere and the land. Ocean-related education also has the potential 
to help stem the tide of science illiteracy threatening to undermine 
the Nation's health, safety and security. The scientific literacy of 
U.S. high school graduates is well below the international average. 
This progressive loss of literacy weakens the Nation's ability to 
maintain its traditionally strong foundation in science and 
mathematics. NAML laboratories seek to expand the engagement of 
individuals from groups that have been historically under-represented 
in ocean research, education and outreach. This is particularly 
important in fulfilling the goal of achieving a diversified STEM 
pipeline to meet future science and ocean workforce needs.
    NAML remains concerned with certain elements of the 
administration's STEM Education Consolidation proposal for fiscal year 
2015. A total of 31 STEM education programs at nine key R&D mission 
agencies (including NOAA, NSF, and NASA) will be impacted by this 
proposal. It is important for mission agencies to help support the next 
generation of scientific and technical talent--much of which will be 
needed by these agencies in future years. We urge the subcommittee to 
reject these particular consolidation proposals and support the 
continuation of these programs within their current agencies.
    NAML appreciates the opportunity to present these views to the 
subcommittee as it begins work on the development of the fiscal year 
2015 appropriations bill.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), this 
testimony addresses important programs in the Department of Justice 
(DOJ) and Department of Commerce. NCAI is the oldest and largest 
American Indian organization in the United States. Tribal leaders 
created NCAI in 1944 as a response to termination and assimilation 
policies that threatened the existence of American Indian and Alaska 
Native tribes. Since then, NCAI has fought to preserve the treaty 
rights and sovereign status of tribal governments, while also ensuring 
that Native people may fully participate in the political system. As 
the most representative organization of American Indian and Alaska 
Native tribes, NCAI serves the broad interests of tribal governments 
across the Nation. As Congress considers the fiscal year 2015 budget 
and beyond, leaders of tribal nations call on decision-makers to ensure 
that the promises made to Indian Country are honored in the Federal 
budget.
                              introduction
    Annual funding decisions by Congress are an expression of our 
Nation's moral priorities. Numerous treaties, statutes, and court 
decisions have created a fundamental contract between tribal nations 
and the United States: tribes ceded millions of acres of land that made 
the United States what it is today, and in return tribes have the right 
of continued self-government and the right to exist as distinct peoples 
on their own lands. And for its part, the United States has assumed a 
trust responsibility to protect these rights and to fulfill its solemn 
commitments to Indian tribes and their members.
    Part of this trust responsibility includes basic governmental 
services in Indian Country, funding for which is appropriated in the 
discretionary portion of the Federal budget. Tribal governments exist 
to protect and preserve their unique cultures, identities, and natural 
environments for posterity. As governments, tribes must deliver a wide 
range of critical services, such as education, workforce development, 
and first-responder and public safety services, to their citizens. The 
Federal budget for tribal governmental services reflects the extent to 
which the United States honors its promises to Indian people.
                         department of justice
    The bi-partisan Indian Law and Order Commission (ILOC) recently 
released its report to Congress and the President emphasizing that 
``[n]ow is the time to eliminate the public safety gap that threatens 
so much of Native America.'' \1\ The public safety problems that 
continue to plague tribal communities are the result of decades of 
gross underfunding for tribal criminal justice systems; a uniquely 
complex jurisdictional scheme; and the historic, abject failure by the 
Federal Government to fulfill its public safety obligations on American 
Indian and Alaska Native lands. Residents and visitors on tribal lands 
deserve the safety and security that is taken for granted outside of 
Indian Country. The time is now to remedy the disparities.
---------------------------------------------------------------------------
    \1\ Indian Law & Order Commission. (November 2013). A roadmap for 
making Native America safer: Report to the President & Congress of the 
United States, Executive Summary, p. v. Retrieved on January 10, 2014, 
from www.aisc.ucla.edu/iloc/report/files/A_Roadmap_
For_Making_Native_America_Safer-Full.pdf.
---------------------------------------------------------------------------
    Congress has taken historic steps in recent years with the passage 
of the Tribal Law and Order Act in 2010 and the Violence Against Women 
Reauthorization Act of 2013 (VAWA 2013), both of which begin to address 
some of the structural barriers to public safety in tribal communities. 
For the promise of these laws to be fully realized, however, these laws 
must be fully implemented, which requires sufficient resources for 
tribal justice systems and ongoing coordination and consultation 
between various Federal agencies and tribal governments. The Department 
of Justice recognized this reality in its recently issued Proposed 
Statement of Principles. The Proposed Statement articulates DOJ's 
belief that stable funding at sufficient levels for essential tribal 
justice functions is critical to the long-term growth of tribal 
institutions.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Justice. (November 2013). Proposed statement 
of principles for working with federally recognized Indian tribes, p. 
2. Retrieved on January 10, 2014, from www.justice.gov/tribal/docs/
statement-of-principles-for-working-with-tribes.pdf.
---------------------------------------------------------------------------
    Increased and targeted funding in the following program areas will 
have a huge impact on safety in tribal communities for tribal citizens, 
residents, and visitors to tribal lands. This would also help foster 
economic development on tribal lands and improve the quality of life in 
immeasurable ways. As the Federal Government balances the Federal 
budget, it must also pledge to honor its distinct legal, treaty, and 
trust obligations to assist tribal nations in providing public safety 
to their citizens. Highly-functioning criminal justice systems and 
basic, on-the-ground police protection are fundamental priorities of 
any government; tribal governments are no different.
    As the ILOC asserts, ``[h]ow we choose to deal with the current 
public safety crisis in Native America--a crisis largely of the Federal 
Government's own making over more than a century of failed laws and 
policies-- can set our generation apart from the legacy that remains 
one of [the] great unfinished challenges of the Civil Rights Movement. 
Lives are at stake, and there is no time to waste.'' \3\
---------------------------------------------------------------------------
    \3\ Indian Law & Order Commission.
---------------------------------------------------------------------------
    Provide at least $395.4 million for the Department of Justice (DOJ) 
public safety initiatives in Indian Country (including $375.4 million 
in discretionary funds and $20 million from the Crime Victims Fund, a 
mandatory account).--The Crime Victims Fund, administered by the Office 
for Victims of Crime (OVC) within DOJ's Office of Justice Programs 
(OJP) includes the $20 million set-aside for tribal victim assistance 
within the Crime Victims Fund, which was initiated in fiscal year 2014. 
The Crime Victims Fund was initially established to address the need 
for victim services programs, and to assist tribal, State, and local 
governments in providing appropriate services to their communities. The 
Fund is financed by collections of fines, penalty assessments, and bond 
forfeitures from defendants convicted of Federal crimes, but until last 
year, tribes have only been eligible to receive a very small portion of 
the discretionary funding from the Fund. The tribal funding is 
requested as part of OVC's Vision 21 Initiative, a strategic planning 
initiative based on an 18-month national assessment by OJP that 
systematically engaged the crime victim advocacy field and other 
stakeholder groups in assessing current and emerging challenges and 
opportunities facing the field. The initiative focuses on supplemental 
victims services and other victim-related programs and initiatives in 
areas like research, legal services, capacity building, national and 
international victim assistance, and--of course--tribal assistance.
    The Department proposes bill language for a 7 percent tribal set-
aside from all discretionary Office of Justice Programs to address 
Indian Country public safety and tribal criminal justice needs. Under 
the fiscal year 2015 request, the 7 percent set-aside totals 
approximately $102.8 million--a slight increase from last year's 
request.
    This year's DOJ budget also requests a total of $1.6 million for 
the Office of Tribal Justice (OTJ) to, amongst other things, help fund 
a total of six attorney positions in fiscal year 2015. This request is 
identical to fiscal year 2014. The request for additional staffing 
resources was made in recognition of the increased workload and duties 
of OTJ staff in recent years, particularly since the Tribal Law & Order 
Act of 2010 established OTJ as a permanent component of the Department. 
Hundreds of Federal cases, in addition to other conflicts needing 
resolution are generated in Indian Country each year, and OTJ serves as 
the primary point of contact between all 566 federally recognized 
tribes and DOJ on these matters. Additionally, with the special 
domestic violence criminal jurisdiction (SDVCJ) tribal provisions of 
the Violence Against Women Reauthorization Act of 2013, OTJ plays an 
important role in implementation. OTJ coordinates these complex 
matters, the underlying policy, and emerging legislation between more 
than a dozen DOJ components active in Indian Country. As such, it is 
imperative that OTJ has the necessary resources to sufficiently fulfill 
all of these obligations.
    Additionally, the fiscal year 2015 budget request for tribes under 
the Community Oriented Policing Services (COPS) program to fund tribal 
law enforcement expenses is $35 million, an increase of $15 million 
from the fiscal year 2014 requested amount. This program provides 
funding and resources to meet the public safety needs of law 
enforcement and advance community policing on tribal lands. The 
President's fiscal year 2015 increase brings the amount closer to his 
request in fiscal year 2012 (which was closer to $42 million). These 
funds are critical for the hiring and retention of tribal law 
enforcement officers.
    DOJ's fiscal year 2015 Budget Request for Indian Country programs 
is an increase over its fiscal year 2014 numbers, which is particularly 
encouraging given the current budget climate in Washington, DC. 
Moreover, DOJ's request provides tribes with more flexibility in how 
they spend their DOJ grant dollars, demonstrating the Justice 
Department's continued commitment to tribal self-determination and the 
improved administration of justice on Indian lands.
    office on violence against women--violence against native women
    NCAI urges Congress to fully fund the programs authorized in the 
Violence Against Women Act (VAWA), including the funds authorized for 
tribal implementation of VAWA special domestic violence criminal 
jurisdiction. In fiscal year 2015, VAWA in CJS should be funded at the 
authorized level of $569.5 million instead of $422.5 million. Tribes 
receive statutory set-asides.
    VAWA is a cornerstone of our Nation's response to domestic 
violence, sexual assault, dating violence, and stalking. Its effective 
coordinated community response model helps hundreds of thousands of 
victims find safety and receive services while holding thousands of 
perpetrators accountable for their actions. VAWA also supports victims' 
long-term stability and security, and it addresses the unique barriers 
that many victims face in accessing services and finding justice.
    It is estimated that one in three Indian women will be raped and 
that 6 in 10 will be physically assaulted in their lifetimes. This 
violence threatens the lives of Native women and the future of American 
Indian tribes and Alaska Native villages. No area of need is more 
pressing or compelling than the plight of American Indian and Alaska 
Native women and children fleeing physical and sexual violence.
    On March 7, 2013, President Obama signed into law the Violence 
Against Women Reauthorization Act (VAWA 2013) which recognizes and 
affirms the inherent sovereign authority of Indian tribes to exercise 
Special Domestic Violence Criminal Jurisdiction (SDVCJ) over all 
persons--Indian and non-Indian--who commit crimes of dating violence, 
domestic violence, and violations of protection orders within Indian 
Country. The bill authorized $5 million for tribes to implement the new 
VAWA provisions and otherwise strengthen tribal justice systems.


                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                       Present
               Name of Grant Program                  Fiscal year     Fiscal year    fiscal year     Authorized
                                                    2013 enacted *    2014 budget        2015          level
----------------------------------------------------------------------------------------------------------------
COMMERCE, JUSTICE, SCIENCE APPROPRIATIONS
STOP--Grants......................................         $176.18         $193            $193           $222
Sexual Assault Services Program (SASP)............           23.30           27              27             40
Services for Rural Victims........................           34.02           36              33             50
Civil Legal Assistance for Victims................           38.22           37              42.5           57
Transitional Housing (OVW)........................           23.30           24.75           25             35
Grants to Encourage Arrest Policies...............           46.61           50              50             73
CHOOSE Youth Program..............................            4.66            5               5             15
SMART Program.....................................            4.66            5               5             15
Grants to Support Families in the Justice System..           14.45           15              16             22
Research on Violence Against AIAN Women...........            0.93            1               1              1
Nat'l Clearinghouse on Sexual Assault of AI/AN                0.47            0.5             0.5            0.5
 Women............................................
National Tribal Sex Offender Registry.............            0               0              --              1
Tribal Jurisdiction...............................           --              --              --              5.0
                                                   -------------------------------------------------------------
      VAWA CJS Total..............................          388.24          417.0           422.5          569.5
----------------------------------------------------------------------------------------------------------------
* With sequestration and rescissions.

                         department of commerce
    Provide $35 million for the Minority Business Development Agency 
(MBDA).--Created by Executive Order in 1971, the MBDA was established 
to support minority business development centers and received funding 
of almost $63 million to carry out this mission. Since then, MBDA's 
funding has shrunk by over 50 percent to an estimated $30.5 million for 
fiscal year 2013 and $29.3 million for fiscal year 2014. After MBDA 
revamped its cooperative assistance grants to Minority Business Centers 
(MBCs), the Native American Business Enterprise Centers (NABECs) were 
eliminated and their services were consolidated with the MBCs. About 
$13 million of MBDA's budget is disbursed to the MBCs to provide 
business consulting; advice on business financing; and some procurement 
technical assistance to minority businesses, entrepreneurs, and tribal 
enterprises.
    With the service gap created by the elimination of NABECs, the need 
for an increased level of funding for MBDA is even greater. MBDA must 
sustain and expand support for these centers, which provide important 
assistance to businesses that help them grow and develop, thereby 
creating a stronger private sector and healthier national economy. The 
MBDA also supports minority contractors' teaming efforts to pursue 
Federal contracts, directs efforts to track minority business data, 
collaborates with the Office of Native American Affairs, and is 
increasing its focus on global trade.
    Fund the Office of Native American Affairs (ONNA) at a minimum of 
$1.25 million as part of the Commerce Department Management Budget.--In 
the late 1990s, the Secretary of Commerce established ONAA) within the 
Secretary's office that was codified by the enactment of the Native 
American Business Development, Trade Promotion and Tourism Act of 2000 
(Public Law 106-464) (the 2000 Act). Since then, funding for the Office 
has been partial and very limited. In order to carry out its mission, 
ONAA must receive adequate support to implement Indian policy 
initiatives and expand Native American business development initiatives 
both domestically and internationally. Funding made available through 
Commerce's Departmental Management budget would help ONAA's efforts, 
particularly given the reduced focus of MBDA on specific Native 
American business assistance.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Natasha Anderson, Staff Attorney, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="47292629232235342829072924262e69283520">[email&#160;protected]</a>, Amber Ebarb, NCAI Budget and Policy Analyst, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbaaaea9aab9a98ba5a8aaa2e5a4b9ac">[email&#160;protected]</a> or Brian Howard, Legislative Associate, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e4c4641594f5c4a6e404d4f4700415c4900">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the National Court Appointed Special Advocate 
                              Association
    Chairwoman Mikulski, Vice Chairman Shelby, members of the 
subcommittee, thank you for the opportunity to submit remarks on the 
Department of Justice (DOJ) fiscal year 2015 budget. On behalf of the 
National Court Appointed Special Advocate (CASA) Association's network 
of 933 State and local CASA and guardian ad litem (GAL) programs in 49 
States, including Maryland and Alabama, I strongly urge the 
subcommittee to fully fund the Court Appointed Special Advocates 
program through DOJ's Office of Juvenile Justice and Delinquency 
Prevention at the Congressionally authorized level of $12 million. This 
funding, along with significant local and State sources, will be used 
to expand advocacy on behalf of abused and neglected children, a 
vulnerable population that is highly at-risk of juvenile delinquency 
and incarceration.
    We appreciate the subcommittee's long standing recognition of the 
overwhelmingly positive impact CASA programs have in the lives of 
abused and neglected children, and we urge your ongoing support as we 
strive to achieve our national goal of providing a CASA volunteer for 
every child in foster care. In the U.S. today, too many of our 646,000 
foster youth are going it alone. They want and need advocates to help 
them reach their full potential, and every day, CASA programs across 
the country provide an important voice in the lives of children beyond 
the walls of the courtrooms in which their cases are heard.
    The effectiveness of the CASA/GAL program model in achieving 
positive, long-term outcomes for children in care is well documented 
and well supported. CASA volunteer advocates are an influential 
protective factor in children's lives. A child with a CASA/GAL 
volunteer is more likely to receive needed counseling services, less 
likely to experience disruptive changes of placement, and more likely 
to pass all their courses in school. As community members with a vested 
stake in the long-term success of the children they serve, CASA 
volunteers advocate against tremendous odds for the fundamental right 
of every individual to live in a safe and secure environment.
    As the subcommittee is acutely aware, foster youth face an 
extensive range of risk factors, including a much greater chance of 
juvenile delinquency and incarceration than the general youth 
population. According to data last collected by the National Institute 
of Justice in 2011, children who suffer from abuse and neglect are 28 
percent more likely to be arrested as adults and 59 percent more likely 
to be arrested as juveniles.
    Through smart, targeted investments in a program that provides a 
stable, supportive advocacy-based presence in children's lives, 
together, we can stem the tide of youth delinquency in this Nation and 
move our young people--high-risk foster youth included--toward a safe 
and promising future. The value of saving a high risk youth from a life 
of crime has been reliably estimated to range between $2.6 and $5.3 
million. Our programs provide one-on-one advocacy and mentoring 
throughout the course of a child's case that is critical to keeping the 
lives of foster youth on a positive trajectory and away from a 
devastating future.
    As with a number of programs across the Federal Government, the 
Court Appointed Special Advocate program has weathered its share of 
funding cuts over the past few fiscal years as Congress works to 
achieve deficit reduction. I assure you that our programs have left no 
stone unturned in our quest to serve children, but we need the support 
of Congress to help vulnerable children, a population to whom we all 
share a significant obligation. These Federal funds, which are 
leveraged with other State and local resources, have been a significant 
driver of increased service to children.
    While CASA funding has decreased by half of the fiscal year 2011 
enacted level, the need for effective advocacy for foster youth in the 
courtroom--and the need for the robust training, technical assistance, 
and other resources that make this advocacy possible--has not at all 
diminished. Additionally, CASA/GAL programs across the Nation are 
reporting that their cases are increasingly complex and challenging--
including cases involving the overmedication of foster youth as just 
one example--which require additional time, energy, and resources, all 
of which are stretched significantly across our programs.
    We ask the subcommittee to provide funding for a program that not 
only transforms the lives of foster youth, but is also an effective 
cost investment of taxpayer dollars at a time in which every single one 
of those dollars must be spent wisely. CASA/GAL programs, in addition 
to advocating for a child's best interest in the courtroom and ensuring 
that he/she has the services needed to succeed, work to move the child 
out of the foster care system as quickly and as safely as possible. 
Less time in care is a better outcome for the child and it is a better 
outcome for State governments and Federal child welfare programs, 
compared to the cost of keeping a child in care.
    CASA volunteers save tens of millions of dollars in child welfare 
and other costs to society, as we work to keep at-risk youth out of the 
burgeoning prison system and on the path to promising, fulfilling 
futures. More than 90 percent of children with CASA volunteers never 
re-enter the foster care system. By reducing long-term placements, 
subsequent victimization, and reentry into the system, the CASA program 
substantially reduces foster care costs and significant costs 
associated with long-term services for children who have endured 
traumatic and difficult circumstances through no fault of their own.
    To put this in simple accounting terms, it costs the Federal 
Government $3,250 per month to keep a child in the foster care system. 
Every child with a CASA volunteer saves the taxpayer approximately 
$24,375 per year, because our volunteers are moving these children 
safely out of the system. While a more efficient use of resources is of 
paramount importance, let me also emphasize the value of our work in 
purely human terms. Every day a child spends in the foster care system, 
is a day he or she can never get back. It is a day that they are unable 
to do many of the things that we take for granted in the lives of our 
own children--making lasting friendships, forming a bond with a 
teacher, enjoying the movements of everyday life with a loving family 
that is truly their own. All children deserve a safe, nurturing, 
permanent home.
    I would also like to thank the subcommittee for continuing to 
provide strong funding for DOJ's competitive youth mentoring grants 
program. This funding is critical to strengthening and expanding the 
reach of organizations across the country that positively impact the 
lives of at-risk and underserved youth through one-on-one mentoring. 
The mentoring programs funded through these grants build needed assets 
in young people and change their lives for the better.
    We again ask the subcommittee to fund the Court Appointed Special 
Advocates program at $12 million in fiscal year 2015 to address an 
overwhelming need for advocacy on behalf of abused and neglected 
children. Thank you for your consideration of our request.
                                 ______
                                 
   Prepared Statement of the National Crime Prevention Council (NCPC)
    Thank you, Chairwoman Mikulski and Ranking Member Shelby, for the 
opportunity to submit testimony to the subcommittee in support of 
funding for the U.S. Department of Justice's crime prevention programs. 
In fiscal year 2015, we respectfully urge the subcommittee to 
appropriate $25 million for the Byrne Memorial Competitive Grants 
Program, $15 million for the Economic, High-Technology, Cybercrime 
Prevention program, and $75 million to continue the Comprehensive 
School Safety Program.
    Within the funds for the Byrne Competitive Grants program, we 
respectfully request that the subcommittee provide specific guidance to 
the Office of Justice Programs (OJP) to continue its historic support 
for two essential crime prevention functions. The first is ensuring the 
existence of independent, non-governmental national repositories of 
best practices and evidence-based crime prevention. This ensures that 
State and local law enforcement have access to the best materials on 
effective crime prevention practices--to get the best possible outcomes 
from the subcommittee's investments in Byrne Justice Assistance Grants 
and in OJP's other State and local assistance programs. The second 
essential function is a strong national public education campaign to 
reach the general public with evidence-based crime prevention 
messages--a tactic which has been shown to have tremendous impact in 
changing individual and collective behavior to prevent crime.
    We also want to applaud the Department of Justice (DOJ) for a well 
thought out, comprehensive grants program that supports the work of its 
Intellectual Property Crimes Task Force. In the last few years, OJP has 
awarded grants to State and local law enforcement to encourage strong 
investigations and effective prosecutions of Intellectual Property 
crimes, which cost our economy 373,000 jobs and $58 billion per year, 
and pose serious threats to Americans' health and safety.
    The Department also wisely included a demand reduction component to 
this comprehensive effort. In partnership with DOJ, late in 2011 NCPC 
launched a public education campaign to increase public awareness of 
the consequences of purchasing counterfeit and pirated products. The 
campaign addresses the impacts to health and safety, support for 
organized criminal elements, and job loss. We hope the subcommittee 
will support this effort and encourage OJP to continue this sensible 
approach of including demand reduction and public education in the 
effort to fight Intellectual Property crime. Grants through the 
Economic, High-Technology, Cybercrime Prevention program can continue 
this important purpose.
    Like all Americans, we remain troubled by the increase of violent 
activity in our schools, and support efforts to continue the 
Comprehensive School Safety Initiative with $75 million in fiscal year 
2015. School safety must be addressed through a sustained commitment 
nationally--both to reassure schools that they have a partner, and to 
reassure parents that work is being done to make their schools a safe 
place for their children. Though new, the initiative is a research-
focused plan to increase the safety of schools nationwide. DOJ has just 
begun work to detail the root causes of school violence, develop 
technologies and strategies for increasing school safety, and provide 
pilot grants to test innovative approaches to enhance school safety 
across the Nation. Significant funding in fiscal year 2015 will 
continue this commitment and realize the gains made in fiscal year 
2014.
    School safety has been at the heart of NCPC's work for much of our 
history. Our signature Be Safe and Sound in School (B3S) initiative 
combines target hardening and Crime Prevention Through Environmental 
Design techniques with concrete ideas on engaging the school and 
surrounding community in activities to promote a culture of respect in 
schools. These techniques include: participation by students, staff, 
parents, teachers and administrators in strategic planning for school 
safety; improved surveillance and maintenance; training; and ongoing 
evaluation.
    Background.--NCPC's mission is to be the Nation's leader in helping 
people keep themselves, their families, and their communities safe from 
crime. Through different media and methods, NCPC enables communities 
and law enforcement to work together to create safe environments, 
especially for children and youth. Established in 1980, the NCPC-led 
National Citizens' Crime Prevention Campaign and related initiatives 
have featured our beloved icon McGruff the Crime Dog and his signature 
message that beckons all Americans to ``Take a Bite Out of Crime.''
    McGruff has had lasting impact. Eighty-three percent of adult 
Americans recognize McGruff. Over 80 percent of kids would follow his 
advice on crime prevention. Over 90 percent of adults describe McGruff 
as informative, trustworthy, and effective. And 72 percent think he's 
cool. Further, Federal resources invested in the National Citizens' 
Crime Prevention Campaign have been well leveraged. For every $1 of 
Federal investment, the Campaign generated $100 or more in donated 
media. Over its history, the Campaign has produced $1.4 billion worth 
of donated advertising.
    Since the inception of the Campaign, NCPC, a private, non-profit, 
tax-exempt 501(c)(3) organization, has maintained a close partnership 
with DOJ and local law enforcement. Together we create cost-effective 
and award-winning public education campaigns, launch groundbreaking and 
comprehensive support initiatives for crime-besieged cities, provide 
training and technical assistance, produce and distribute hundreds of 
ready-to-use publications filled with practical tips, expand the reach 
of crime prevention tools through online resources, conduct 
conferences, and more. Our goal is to give Americans the tools they 
need on the ground and in the field.
    Supporting Crime Prevention Practitioners.--To the greatest extent 
possible, NCPC designs messages and trains law enforcement, community 
leaders, and other individuals on crime prevention practices with 
proven outcomes based on the highest standards of research. NCPC's 
commitment to promoting the most effective crime prevention tools is 
based our capacity to monitor crime prevention research and translate 
that research into practice.
    With additional support from DOJ, NCPC provides National Training 
and Technical Assistance to address the nationwide gap in education 
opportunities for new law enforcement officers, which was a result of 
local department cuts in training and crime prevention budgets. NCPC 
has also recorded or released five podcast interviews with experts in 
the field on topics such as Neighborhood Watch and Citizen Corps, 
crime-free multi-housing, and what a crime prevention officer is worth. 
Soon NCPC will develop a toolkit for new officers, which will include 
PowerPoint presentations, fact sheets, and resources on basic crime 
prevention that they can share with their communities.
    National Crime Prevention Activities.--NCPC works closely with 
State and local law enforcement and their national organizations to 
anticipate and respond to persistent crime challenges, emerging crime 
trends, and changing crime prevention needs nationwide.
    Through a Byrne Competitive grant, NCPC is working with DOJ and a 
number of other partners to conduct a crime prevention awareness 
campaign to address the dangerous and costly problem of intellectual 
property (IP) crime, such as pirating and counterfeiting. Our goal for 
the campaign is to engage the public in demand reduction and decrease 
threats to public health and safety. We are also working with law 
enforcement to bring the consequences of IP theft to the forefront for 
the public. Through focus groups and survey assessments NCPC uncovered 
that consumers do not expect to get caught. They do not believe that 
law enforcement is overly concerned about this problem because if law 
enforcement were concerned, the public would be more aware of the crime 
and subsequent IP prosecutions. In order to educate the public, we need 
to encourage and equip those officers and agencies who understand the 
impact to talk about IP investigations and arrests in the same way they 
would about a big drug bust or capture of a violent criminal.
    We are also working on several other public education campaigns to 
help people protect themselves, particularly from fraud. In 2013, NCPC 
hosted a virtual conference for consumers and organizations that 
support them in avoiding and recovering from mortgage fraud. It 
provided valuable information to homeowners on how to protect 
themselves against mortgage scams. This complements our individual- and 
community-focused work on foreclosure fraud and vacant property crime. 
Its reach will soon be expanded through public service advertising.
    Additionally, we are tailoring crime prevention information to the 
overlooked population of young people ages 18 to 24. As teens and young 
adults leave their homes to pursue education and employment for the 
first time they are often the victims of criminals and scams that prey 
on their inexperience. That is why we are developing programs to help 
these young people ``Be Smarter,'' live safely and protect themselves 
as they handle their first credit cards, first apartments, first cars, 
first college campuses, first vacations on their own, and first jobs.
    We are providing practical, ready-to-use resources on crimes 
against senior citizens. Senior citizens are vulnerable to 
telemarketing and financial fraud that threaten their financial 
stability. We are also educating the public on the underreported crime 
of elder abuse. An alarming number of senior citizens are physically, 
emotionally, sexually, or financially abused--frequently by people they 
trust. We are striving to ensure that people of all ages can speak out 
and act to prevent abuse and victimization and live in safe 
communities. On April 10, we held a virtual conference to protect 
senior citizens from physical abuse and financial exploitation. For law 
enforcement and direct service organizations, this is also a wonderful 
opportunity to learn how to better serve the victims of such scams. It 
remains available online at http://engage.vevent.com/rt/
ncpcsafeseniors.
    Four years ago, NCPC set out to work on a new crime prevention 
initiative that would ``inspire us to live in ways that embody 
respect... where we live, learn, work, and play.'' That is our vision 
for the Circle of Respect. Lack of respect contributes to school 
violence, property theft, online aggression, and cyberbullying among 
teens. Studies show that young people join gangs because it is the only 
place they get respect.
    The Circle of Respect is a national initiative that engages and 
challenges children, young people, adults, families, and communities to 
promote a culture of respect that transcends what has been a 
traditional tolerance of unacceptable behavior. The Circle of Respect 
website will also host VOICES--a user-generated site for teens to speak 
about personal experiences of respect within their families, peers, and 
communities. We will use their submitted artwork, poetry, short 
stories, music, and films to guide development on respect-centered 
materials for other youth, service providers, and crime prevention 
practitioners.
    When McGruff and NCPC came on the scene almost 35 years ago, 
community groups and individual citizens thought that crime prevention 
was the sole responsibility of law enforcement. Working together with 
DOJ, local law enforcement, and communities all across the Nation, we 
have ``moved the needle'' so that today, we know that crime prevention 
is everyone's business. McGruff has carried the message that all 
people--whether they are 7 or 107--can do their part to prevent crime 
and make America safer. That's what ``Take A Bite Out of Crime'' means. 
Three out of four adults now know they have a personal responsibility 
for helping to keep their communities safe from crime.
    New forms of crime are growing, such as identity theft, mortgage 
and foreclosure fraud, and cybercrimes of every stripe. We must 
effectively deploy our tightening resources to combat crime. Crime 
extracts a significant financial cost--approximately $3.2 trillion per 
year--borne by victims and their families, employers, communities, and 
taxpayers. In 2011, governments at all levels spent more than $236 
billion for police protection, correctional facilities, and legal and 
judicial costs--corrections alone costs $81 billion annually. In 2010 
violent crimes (murder, rape, assault, and robbery) cost Americans $42 
billion. In 2011, consumers lost an estimated $1.5 billion to fraud. 
There is also an unknowable opportunity cost both financial and social. 
We cannot afford these upwardly trending costs in today's economy. 
Research concludes that crime prevention initiatives are cost 
effective; we can pay modest costs now or exorbitant ones later.
    Crime Prevention in fiscal year 2015.--In an era of tightening 
budgets, investment in prevention initiatives reduces the need for 
government spending on intervention, treatment, enforcement, and 
incarceration. Therefore, investment in crime prevention has never been 
more critical. There is no doubt that when individuals, community 
groups, and businesses work closely with law enforcement to help keep 
watch over their communities, crime is prevented.
    Though most crime prevention activities are local, the Federal 
Government sets the tone by promoting crime prevention strategies that 
work. It provides leadership through funding, education, technical 
assistance, and support for State and local programs. Research and 
identification of what works, and translation and transmission of 
evidence-based best practices and lessons learned to and among the 
field require national leadership.
    Thank you again for allowing NCPC to submit written testimony and 
for your ongoing commitment to State and local crime prevention 
programs. NCPC is proud to have worked with Congress, DOJ, State and 
local law enforcement and other agencies, and the private sector in the 
past, and we believe we can continue to be an effective partner going 
forward. As Congress continues its work to prevent crime, please 
consider NCPC and McGruff as a resource and as your active 
collaborators in building safer communities.
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and members of the subcommittee, my name is William Reay 
and I am the Director of the Chesapeake Bay National Estuarine Research 
Reserve in Virginia, administered by the Virginia Institute of Marine 
Science. I submit this testimony in my capacity as President of the 
National Estuarine Research Reserve Association (NERRA). NERRA is a 
not-for-profit scientific and educational organization dedicated to the 
protection, understanding, and science-based management of our Nation's 
estuaries and coasts.
    For fiscal year 2015, NERRA strongly recommends the following 
reserve system programs and funding levels within the National Oceanic 
and Atmospheric Administration (NOAA):

 
 
 
NERRS Operations..........................  $22.9 million
NERRS Procurement, Acquisition, and         $1.7 million
 Construction (PAC).
 

    The National Estuarine Research Reserve System (NERRS) program and 
its sites bring the strength of NOAA science and stewardship to 
important coastal regions across the Nation. NERRS encompasses 28 
protected reserves located in estuaries that are home to our most 
productive habitats and populated communities--that support science-
based coastal resource management, research, and education to meet 
national priorities as mandated by Congress in the Coastal Zone 
Management Act (CZMA) of 1972. The States have been entrusted to 
operate and manage NOAA's program in 22 States and Puerto Rico, where 
over 1.3 million acres of land and water are protected in perpetuity. 
What distinguishes the NERRS is the community and State implementation 
of programs and local control of these places that form this Federal-
State partnership program.
    The administration's fiscal year 2015 request for the NERRS is a 
total of $21.3 million. This amount will result in a reduction of 
funding to each State because a 29th reserve, located in Hawaii, will 
be added this year. Therefore, the administration's budget represents 
reduced funding to States from last year's appropriation (enacted 
fiscal year 2014 budget at $21.3 million). After reviewing the detailed 
NOAA budget request sent to the Congress, it is clear that States 
implementing this national program are left short-changed in their 
ability to fulfill the vision of Congress in its creation of the NERRS 
program.
    NERRA is deeply concerned with the administration's funding levels 
that we believe are inconsistent with key tenants of NOAA's own 
strategic plan--specifically, enhancing community and economic 
resiliency and strengthening science in support of coastal management. 
The administration's fiscal year 2015 requested funding level will 
diminish the NERRS's capacity to deliver important research, education 
and training to its State, local, and regional partners.
    First, the administration budget requests flat-funds the program at 
the fiscal year 2014 level of $21.3 million. Flat-funding in the face 
of the program adding a 29th reserve in fiscal year 2015 will in effect 
result in reduced budgets for each of the current reserves. This 
funding level is problematic because in addition to the new Hawaii 
reserve that is on track to join the system in fiscal year 2015, there 
are two more known--one in Louisiana, and one in Connecticut--in 
process for future years. Equally troubling is the absence of any 
mention of the expected expansions in NOAA's fiscal year 2015 budget 
submission. In addition to projected losses to the States operating 
NERRS sites, the administration's budget will mean less funding for 
science and monitoring of sea level rise change impacts at a time when 
community need is great.
    Investments in the NERRS are dollar-smart because funding for the 
program is matched by the States and leveraged significantly, resulting 
in an average of more than five other local and State partners 
contributing to the work at each reserve. Funding of $22.9 million for 
the NERRS would be a minimal level to provide each reserve with the 
necessary funding to assist our coastal communities, industries and 
resource managers to enhance coastal resiliency in a changing 
environment.
    Second, within the budget request for NOAA, the administration is 
again proposing the elimination of funding for the Bay-Watershed 
Education and Training (B-WET) regional programs--a reduction of $7.2 
million in funding. The rationale provided for program reductions is 
misleading in stating that NOAA education experiences will continue to 
be provided by programs including the NERRS. Where States are eligible 
for B-WET funding, reserves are able to increase their educational 
capacity by as much as 50 percent, as documented in the Chesapeake Bay 
NERR (VA) for example. NERRA strongly opposes the cut of B-WET regional 
programs and any of the other NOAA STEM educational programs.
making coasts more resilient and saving the nation dollars through the 
               national estuarine research reserve system
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Through science and science-based management of more than 1.3M 
acres of protected land, NERRS provides numerous benefits to 
communities that result in improved water quality, increased upland 
flood and erosion control, and improved habitat quality that support 
local fisheries and provide storm protection to coastal communities. 
The approximate $10 million Federal contribution in science supports 
NERRS research and a coastal observing system capacity that informs 
regional policy that saves communities money. For example, research 
conducted by the Rookery Bay NERR at Naples, Florida, resulted in 
modified best management practice training for Florida's landscape 
industry, thus saving local businesses hundreds of thousands of 
dollars. It is important to emphasize that the work at each reserve 
goes beyond its property boundaries and creates a number of 
environmental and economic benefits for the communities and regions 
where they exist.
    Additionally, NERRS supports community planning initiatives by 
providing training to local officials and residents about critical 
resource management issues such as impending hazards, storm water 
control, shoreline management, and habitat restoration. The NERRS 
training is designed to help people on the ground and to get resources 
in the hands of the community--all of which amount to saving States and 
local communities more than $13.4 million annually.
    The reserves have a tremendous positive impact on our economy 
including work to maintain clean water, keep the seafood and fishing 
industry viable, provide opportunities for local tourism, and provide 
communities with practical help and science-based information to 
address coastal hazards. Estuaries, where rivers meet the sea, provide 
nursery ground for two-thirds of commercial fish and shellfish. 
Protected and well managed estuaries including those managed by the 
NERRS keep commercial and recreational fishermen sustainable, 
contributing over $2.7B to the shellfish and seafood industry in 2012 
and 2009 respectively in States that have a reserve and over $28 
billion in ocean-dependent industries in 2011 along our coasts (Source: 
National Ocean Economic Program and NOAA Fisheries, Office of Science 
and Technology). In 2010, coastal counties that included a NERR 
supported more than 468,000 jobs in ocean-dependent industries (Source: 
Bureau of Labor Statistics; NOAA).
    Protection of these important estuaries within the NERRS can have a 
significant impact on specific ecologically and economically important 
species. For example, Apalachicola Bay, Florida, home to one of three 
reserves in the State, produces approximately 90 percent of Florida's 
oyster harvest and 10 percent of the total U.S. harvest (Source: 
Wilber, 1992).
    Beyond the economic benefits to our national, State, and local 
economies, reserves operate national infrastructure that brings science 
to the management of our coasts and helps our communities prepare for 
weather and accident related disasters. NERRS is a leader in coastal 
monitoring that provides immediate and long-term data to assess water 
quality in support of State environmental programs and water dependent 
industries, enhance understanding of harmful algal blooms, guide and 
track habitat restoration and reconstruction strategies, identify 
ecosystem impacts from changing sea levels and temperature, aid in 
weather and marine forecasting, and improve emergency and insurance 
industry response to storm surges and inundation.
    Being integral members of coastal communities is a key element to 
NERRS successful delivery of science and monitoring data as evidenced 
in the Deep Water Horizon Oil Spill of 2010, a coastal area that is 
home to five reserves. We know that the billion dollar tourism and 
seafood industries depend upon clean water, and during the Deep Water 
Horizon Oil Spill crisis the communities and industries along the Gulf 
Coast relied on disaster support efforts including the wide variety of 
data supplied by the five Gulf Coast NERRs, some of which continues 
today.
    Each reserve receives operation funds from NOAA that are matched by 
the States and are used to leverage significantly more private and 
local investments that results in each reserve having, on average, more 
than five program partners assisting to implement this national 
program. In addition, the program significantly benefits from 
volunteers that are engaged in habitat restoration, citizen science and 
education which offset operation costs at reserves by donating 
thousands of hours. Annually, volunteers contribute more than 100,000 
hours to the NERRS with an estimated value of over $2.2 million.
    NERRS have made countless economic contributions to their local 
communities, States, and the Nation. In the aftermath of Superstorm 
Sandy, the Jacques Cousteau Reserve in New Jersey was cited by CNN as 
being ``a natural sponge . . . for absorbing storm and tidal surges.'' 
(November 3, 2012). In the category of eco-tourism, more than 2 million 
people annually visit the NERRS: an estimated more than $20 million is 
generated annually in direct benefit from these visitor use 
opportunities (estimated using Federal, State, and local park entry 
fees). Visitors to our reserves walk and snowshoe the trails, paddle 
the waterways, watch wildlife, hunt and fish, engage in community 
stewardship and restoration programs, and participate in numerous 
public outreach activities and events at each of our 28 reserves.
    In addition, NERRS strategically contributes more than $4.9M 
annually in education relief to offset costs to communities that face 
tight budgets in meeting the needs of local school districts. Through 
Estuaries 101 curriculum, NERRS prepares the next generation workforce 
in the key disciplines of science, technology, engineering and math 
(STEM education). The B-WET regional program funding is money that is 
spent in addition to the annual NERRS money invested in the education 
programs. The NERRS educate more than 83,000 children annually.
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and has resulted 
in not only the preservation of critical coastal lands as described 
above, but also in the increase of construction jobs. For example NERRS 
creates more than 60 jobs for each $1 million of Federal construction 
(PAC) money spent. In addition, NERRS leveraged investments of more 
than $115 million to purchase over 30,000 acres of coastal property 
over the last 12 years.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based industries.
    With NERRA's fiscal year 2015 request of $22.9 million for the 
NERRS and $1.7 million for NERRS PAC, the program will be able to 
maintain delivery of credible scientific research that contributes to 
the resiliency of the natural and built communities and that yields a 
high rate of return to the 28, soon to be 29, coastal gems around the 
country. We urge the subcommittee to support this request, and to 
restore funding for the B-WET regional programs.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
                fiscal year 2015 appropriations request
    The National Marine Sanctuary Foundation (NMSF) works with Congress 
and the National Oceanic and Atmospheric Administration (NOAA) to 
connect fellow citizens to the underwater places that define the 
American ocean--the National Marine Sanctuary System. We remain 
concerned that NOAA's Office of National Marine Sanctuaries (ONMS) has 
not received sufficient appropriations for several budget cycles. 
Recognizing the coastal job creation benefits provided by sanctuaries, 
NMSF respectfully requests that the subcommittee remedy this situation 
by appropriating:
  --$5.5 million to the National Marine Sanctuary Program--
        Construction/Acquisition Base, within NOAA's Procurement, 
        Acquisition, and Construction account; and
  --$51 million to the Sanctuaries and Marine Protected Areas Base, 
        within NOAA's Operations, Research, and Facilities account.
    Joining NMSF in this request is the national network of community-
based, non-profit organizations that support sites within the sanctuary 
system. On behalf of their members, the Channel Islands Sanctuary 
Foundation (California), Cordell Marine Sanctuary Foundation 
(California), Farallones Marine Sanctuary Association (California), 
Friends of Thunder Bay National Marine Sanctuary (Michigan), Hawai`i 
National Marine Sanctuary Foundation (Hawaii), Monterey Bay Sanctuary 
Foundation (California), Olympic Coast Alliance (Washington), Sanctuary 
Friends Foundation of the Florida Keys (Florida), and Stellwagen Alive! 
(Massachusetts) support funding the National Marine Sanctuary System at 
these levels (Appendix I).
    While we recognize the challenges of providing increased funding in 
the current budget climate, we believe that the President's fiscal year 
2015 budget request fails to address critical sanctuary contributions 
to job creation and economic growth. It also continues a disturbing 
trend of underfunding the sanctuary program--despite signals from 
Congress that the program warrants additional funds.
  the national marine sanctuary system and noaa's office of national 
                           marine sanctuaries
    Encompassing over 170,000 square miles of marine and Great Lakes 
waters, the National Marine Sanctuary System includes 13 national 
marine sanctuaries and Papahanaumokuakea Marine National Monument. 
Sanctuaries protect vibrant ocean ecosystems, conserve essential 
habitat for endangered and commercially important marine species, and 
safeguard historical and cultural resources.
    Congress provides funding to ONMS through separate accounts for 
operations and procurement; both are vital components for maintaining a 
robust and effective sanctuaries program.
  --The Operations, Research and Facilities (ORF) account funds 
        operation of a variety of education, research, monitoring and 
        management programs managed by ONMS, including development and 
        implementation of research and monitoring programs, cultural 
        resource programs, education and outreach activities; 
        permitting; and management of volunteer programs and citizen 
        advisory councils.
  --The Procurement, Acquisition and Construction (PAC) account funds 
        the purchase and overhaul/restoration of assets managed by 
        ONMS, including construction of vessels, visitor facilities, 
        and exhibits; development of partnerships for education and 
        outreach; and safety improvements and repairs to NOAA-owned 
        facilities.
      national marine sanctuaries are unique and successful ocean 
                           conservation tools
    Generations of Americans have grown up, worked jobs, and supported 
their families on the waters of our national marine sanctuaries. Among 
all the statutes enacted by Congress to govern ocean resources, the 
National Marine Sanctuaries Act stands alone in terms of the 
comprehensiveness, community participation, transparency and balanced 
approach provided for all stakeholders. An independent legal analysis 
concluded that ``the National Marine Sanctuaries Act is the best 
existing mechanism available for preserving ocean ecosystems,'' due to 
sanctuaries' commitment to public participation, community engagement, 
and use of a place- and ecosystem-based approach.\1\
---------------------------------------------------------------------------
    \1\ Perkins Coie LLP. (2013)'' Area-Based Management of Marine 
Resources: A Comparative Analysis of the National Marine Sanctuaries 
Act and Other Federal and State Legal Authorities.'' Available: http://
www.nmsfocean.org/files/ABMReport.pdf.
---------------------------------------------------------------------------
    Unlike other ocean resource laws, the National Marine Sanctuaries 
Act protects nationally significant places and their natural, 
historical, and cultural riches. Experience shows that this approach is 
vital to maintaining the healthy seascapes that underpin our productive 
economies, supporting thousands of businesses while maintaining public 
access for recreation, research, and education.
     national marine sanctuaries are economic engines for coastal 
                              communities
    National marine sanctuaries are vital to the success of coastal 
businesses and job creation. According to the National Ocean Economics 
Program, 70 percent of ocean and coastal employment in the tourism and 
recreation sector depend on visitor opportunities requiring clean 
beaches, clean water, and abundant fish and wildlife promoted by 
national marine sanctuaries. Benefits of funding national marine 
sanctuaries far outweigh the Federal outlays that support them:
  --Over 64,000 jobs and $4.5 billion in GDP contributed annually from 
        the marine tourism and recreation sector in the two counties 
        adjacent to Florida Keys National Marine Sanctuary.\2\
---------------------------------------------------------------------------
    \2\ National Ocean Economics Program. (2011) ``Ocean Economy 
Data.'' Available: http://www.oceaneconomics.org.
---------------------------------------------------------------------------
  --Over $126 million in whale watching revenue and 600 jobs at 31 
        businesses resulting from less than $2 million invested in the 
        Stellwagen Bank National Marine Sanctuary off of 
        Massachusetts.\3\
---------------------------------------------------------------------------
    \3\ O'Connor, Simon et al (2009). Whale Watching Worldwide: tourism 
numbers, expenditures and expanding economic benefits, a special report 
from the International Fund for Animal Welfare. Prepared by Economists 
at Large. Available: http://www.ifaw.org/Publications/Program
_Publications/Whales/asset_upload_file841_55365.pdf.
---------------------------------------------------------------------------
  --2,100 jobs and a $291 million budget from marine science and 
        education at the Monterey Bay National Marine Sanctuary, more 
        than 100 times the $3 million investment by taxpayers.\4\
---------------------------------------------------------------------------
    \4\ Monterey Bay Crescent Ocean Research Consortium. (2012) ``Major 
Marine Sciences Facilities in the Monterey Bay Crescent- 2012.'' 
Available: http://web.me.com/paduan/mbcorc/
Membership_Info_files/MontereyBayLabs2012-2.pdf.
---------------------------------------------------------------------------
    national marine sanctuaries start and stay in local communities
    Public participation is a hallmark of the sanctuary program. 
Coastal communities have a controlling influence on sanctuary 
priorities to ensure unique, local circumstances are addressed. All 
sanctuary rules and regulations are developed on a site-by-site basis, 
and, from the outset, sanctuaries are designed to accommodate multiple 
uses of the ocean.
    National marine sanctuaries are created by and for the people: 
citizens and communities around the Nation recognized the benefits of 
sanctuaries and expressed strong interest in establishing sanctuaries 
in their own coastal waters. Over 700 Sanctuary Advisory Council 
representatives from the fishing, tourism, and maritime commerce 
industries; Tribes, State and local government; and researchers, 
educators, and conservationists help manage sanctuary operations. Over 
100,000 hours are contributed by local sanctuary volunteers each year.
               national marine sanctuaries and education
    Through education and outreach programs, sanctuaries function as 
living classrooms that provide students with the knowledge and tools to 
act as responsible ocean stewards. Science, technology, engineering and 
mathematics (STEM) education programs are a key part of national marine 
sanctuaries mission. Eliminating important education infrastructure, 
such as NOAA Office of Education's Bay Watershed Education and Training 
(B-WET) and NOAA's Teacher at Sea program, hinders the ability to 
deliver meaningful watershed education initiatives in sanctuaries.
    We strongly encourage you to oppose any efforts to move or 
terminate the Dr. Nancy Foster Scholarship Program (NFSP). The direct 
connections between students and researchers in sanctuaries are 
critical for the effectiveness of the NFSP. While we support the 
administration's efforts to recognize efficiencies across STEM 
education initiatives, NFSP should remain administered by ONMS, as 
consistent with the National Marine Sanctuaries Act.
national marine sanctuaries' programmatic outlook under reduced fiscal 
                        year 2015 funding levels
    Funding decreases and level-funding have resulted in layoffs and 
cutbacks to mission critical sanctuary programs. A lack of funds 
results in cuts to public access and recreation opportunities, 
cancellation of partnerships that leverage private funds for taxpayer 
benefit, and the dismantling of successful education initiatives. 
Budget cuts may result in reduced operations at visitor centers; a lack 
of contingency funding needed in case of emergencies like oil spills; 
and additional inoperable vessels. Of particular concern are proposals 
to reduce funding for necessary and ongoing renovation and construction 
projects.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves: limiting visitor center 
hours, eliminating research programs, and diminishing enforcement 
capacities prevents ONMS from fulfilling its statutory mandates, while 
also reducing the economic activity and job creation from which healthy 
communities benefit. Funding sanctuaries below recommended levels could 
force the program to:
    Reduce public access and recreation opportunities for all 
Americans.--Funding cuts risk the Florida Keys National Marine 
Sanctuary's 767 mooring buoys, which provide public access and 
recreational opportunities within the sanctuary while protecting coral 
reefs and shipwrecks from anchor damage.
    Restrict enforcement operations that protect legal fishermen.--Lack 
of funding jeopardizes on-water patrols for illegal fishermen in the 
Florida Keys National Marine Sanctuary. In a single 2013 case, illegal 
fishermen were charged with over 1,300 violations for pilfering 664 
yellowtail snapper from a closed area that was shown to have provided 
benefits to both fish populations and commercial and recreational 
anglers.
    Cut visitor center hours.--Sanctuary visitor centers act as a 
public face of NOAA to over 350,000 visitors per year, including 
Monterey Bay National Marine Sanctuary Exploration Center (California), 
Mokupapapa Discovery Center (Hawaii), Great Lakes Maritime Heritage 
Center (Michigan), and Florida Keys EcoDiscovery Center (Florida).
    Cancel education and outreach programs that leverage private 
funds.--Reduced funding jeopardizes education and outreach activities 
on the water, at sanctuaries and visitor centers, and in classrooms.
  noaa needs sufficient funds to fulfill its responsibilities to the 
                            american people
    We strongly support the Friends of NOAA Coalition request to fund 
the agency at no less than $5.6 billion in fiscal year 2015.--From 
weather forecasts to fisheries management, NOAA provides decision 
makers with critical data, products, and services that promote and 
enhance the Nation's economy, security, environment, and quality of 
life. Insufficient funding will only serve to diminish the economic 
activity and job creation that is successfully revitalizing communities 
across America.

                                              Jason Patlis,
                                                 President and CEO.
 letter from the national marine sanctuary foundation, cordell marine 
sanctuary foundation, farallones marine sanctuary association, friends 
   of thunder bay national marine sanctuary, hawai`i national marine 
    sanctuary foundation, monterey bay & channel islands sanctuary 
 foundations, olympic coast alliance, sanctuary friends foundation of 
                the florida keys, and stellwagen alive!
                                                    April 25, 2014.

Hon. Barbara Mikulski,
Chairwoman, Appropriations Subcommittee on Commerce, Justice, Science, 
Dirksen Senate Office Building, Washington, DC.
Hon. Richard C. Shelby,
Ranking Member, Appropriations Subcommittee on Commerce, Justice, 
Science, Hart Senate Office Building, Washington, DC.

    Dear Chairwoman Mikulski and Ranking Member Shelby:

    As Congress begins negotiations on the fiscal year 2015 Commerce, 
Justice, Science, and Related Agencies Appropriations bill, we 
respectfully request that you prioritize programmatic requests for:
  --National Marine Sanctuary Program--Construction/Acquisition, within 
        the National Oceanic and Atmospheric Administration's (NOAA) 
        Procurement, Acquisition, and Construction (PAC) account at a 
        level of $5.5 million; and
  --Sanctuaries and Marine Protected Areas Base, within NOAA's 
        Operations, Research, and Facilities (ORF) account, at a level 
        of $51 million.
    We are deeply concerned by recent decreases to sanctuaries' PAC 
account, which result in multiple, unfinished construction projects, 
and prevent NOAA's Office of National Marine Sanctuaries (ONMS) from 
acquiring the vessels necessary to complete core research, education, 
and law enforcement missions that simply cannot be accomplished from 
land alone. Facilities supported by PAC funds anchor tourism and 
recreation economies and serve as the public face of the government's 
ocean management. We strongly encourage you to support PAC funds that 
provide critical links between our ocean and the millions of Americans 
who visit the coast each year.
    Among all the statutes enacted by Congress to govern ocean 
resources, the National Marine Sanctuaries Act stands alone for its 
comprehensive, community-driven, transparent and balanced approach. 
While seeking to sustainably protect resources within sanctuaries, the 
law allows compatible commercial and recreational activities. 
Sanctuaries serve as economic engines for our communities and 
businesses, supporting thousands of jobs and generating billions of 
dollars in local revenues. Sanctuaries serve as living laboratories for 
research and centers for civic pride.
    Sanctuaries are making essential contributions to marine ecosystem 
health and coastal job creation, and sufficient ORF funding will allow 
ONMS to sustain progress to date. ONMS has not received adequate 
appropriations in past budget cycles, despite the program's increased 
responsibilities. Lack of funds will force ONMS to cut public access 
and recreation opportunities, cancel collaborative efforts with museums 
and universities that leverage private funds for taxpayer benefits, and 
terminate education initiatives. We strongly encourage you to ensure 
that funding for these priorities is added to the base level for the 
Marine Sanctuary Program.
    Closing visitor centers, eliminating research programs, diminishing 
enforcement capacities, and abolishing education initiatives will 
prevent ONMS from implementing management plans--driven and informed by 
local communities--for yet another year. We strongly urge you to remedy 
this situation by supporting an overall appropriation of $56.5 million 
for sanctuaries in fiscal year 2015.
    Thank you for your consideration. We wish you all the best for the 
remainder of the 113th Congress.
    Sincerely,

                    Jason Patlis, National Marine Sanctuary Foundation; 
                            Tom Lambert, Cordell Marine Sanctuary 
                            Foundation; Chris Kelley, Farallones Marine 
                            Sanctuary Association; Charles N. Wiesen, 
                            Friends of Thunder Bay National Marine 
                            Sanctuary; Lynette Poncin, Hawai`i National 
                            Marine Sanctuary Foundation; Dennis J. 
                            Long, Monterey Bay & Channel Islands 
                            Sanctuary Foundations; Jill Silver, Olympic 
                            Coast Alliance; George Neugent, Sanctuary 
                            Friends Foundation of the Florida Keys; and 
                            William Grafton, Stellwagen Alive!
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence
    Chairwoman Mikulski, Vice Chairman Shelby and distinguished members 
of the Appropriations Committee, thank you for this opportunity to 
provide testimony on the importance of investing in Violence Against 
Women Act programs and the Victims of Crime Act. I sincerely thank the 
Committee for its ongoing support for these lifesaving programs.
    I am the President and CEO for the National Network to End Domestic 
Violence (NNEDV), the Nation's leading voice for victims of domestic 
violence and their advocates. We represent the 56 State and territorial 
domestic violence coalitions, their over 2,000 member domestic violence 
and sexual assault programs, and the millions of victims they serve. 
Our direct connection with victims and those who serve them gives us a 
unique understanding of their needs and the vital importance of these 
continued investments.
    The purpose of this testimony is to request an investment of the 
full authorized amount of $569.5 million in the Violence Against Women 
Act (VAWA) and the release of $1.5 billion from the Victims of Crime 
Act Fund administered by the U.S. Department of Justice in the fiscal 
year 2015 Budget.
    Incidence, Prevalence, Severity and Consequences of Domestic and 
Sexual Violence.--The crimes of domestic and sexual violence are 
pervasive, insidious and life-threatening. In 2011, the Centers for 
Disease Control and Prevention (CDC) released the first-ever National 
Intimate Partner and Sexual Violence Survey, which found that domestic 
violence, sexual violence, and stalking are widespread. Domestic 
violence affects more than 12 million people each year, and nearly 
three in ten women and one in four men have experienced rape, physical 
violence, or stalking in his or her lifetime. The terrifying conclusion 
of domestic violence is often murder, and every day in the U.S. an 
average of three women are killed by a current or former intimate 
partner.\1\ The cycle is perpetuated as approximately 15.5 million 
children are exposed to domestic violence every year.\2\ One study 
found that men exposed to physical abuse, sexual abuse and adult 
domestic violence as children were almost four times more likely to 
have perpetrated domestic violence as adults.
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics (2008). Homicide Trends in the 
U.S. from 1976-2005. U.S. Dept. of Justice.
    \2\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
---------------------------------------------------------------------------
    In addition to the terrible cost of domestic and sexual violence to 
individual victims and their families, these crimes cost taxpayers and 
communities. According to the Centers for Disease Control, based on 
1999 figures, the cost of intimate partner violence exceeds $5.8 
billion each year, $4.1 billion of which is for direct healthcare 
services.\3\ Translating this into 2012 dollars, based on share of GDP, 
the annual cost to the Nation is over $9 billion per year, more than 
two-thirds of which is for direct healthcare services. In addition, 
domestic violence costs U.S. employers an estimated $3 to $13 billion 
annually.\4\
---------------------------------------------------------------------------
    \3\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(Georgia): Centers for Disease Control and Prevention; 2003.
    \4\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385.
---------------------------------------------------------------------------
    Despite this grim reality, we know that when a coordinated response 
is developed and immediate, essential services are available, victims 
can escape from life-threatening violence and begin to rebuild their 
lives. To address unmet needs and build upon their successes, VAWA 
programs and the Victims of Crime Act fund release should receive 
significant increases in the fiscal year 2015 Commerce, Justice, 
Science Appropriations bill.
    The Need for Increased Funding to Maintain Programs and Bridge the 
Gap.--At a Congressional briefing in March, NNEDV released Domestic 
Violence Counts (the Census), a 24-hour national snapshot of domestic 
violence services. The report revealed that in just one day in 2013, 
while more than 66,000 victims of domestic violence received services, 
over 9,640 requests for services went unmet due to lack of funding and 
resources. In 2013, domestic violence programs reported that they had 
laid off nearly 1,700 staff positions, including counselors, advocates 
and children's advocates, and also had to reduce or completely 
eliminate over 1,280 services, including emergency shelter, legal 
advocacy, and counseling. I strongly encourage you to read the Census 
at www.nnedv.org/census2013 to learn more. Additionally, since 2011, at 
least 19 local domestic violence programs have been forced to close 
entirely and sequestration meant that approximately 140,000 more 
victims were unable to access services last year.
    For those individuals who are not able to find safety, the 
consequences can be dire, including homelessness or continued exposure 
to life-threatening violence. In order to meet the immediate needs of 
victims in danger and to continue to prevent and end domestic violence, 
VAWA funding must be increased and additional funds must be released 
from VOCA.
                   violence against women act (vawa)
    Violence Against Women Act (VAWA)--$569.50 million funding 
request.--Since its passage in 1994, VAWA has been the cornerstone of 
our Nation's response to domestic violence. Now in its 20th year, VAWA 
has contributed to substantial progress toward ending domestic 
violence. Despite this progress, an unconscionable need remains for 
victim services. The progress and promise of VAWA, and related programs 
aimed at addressing domestic and sexual violence, can only be only be 
fulfilled if the programs receive continued investment through the 
appropriations process. We have highlighted the following programs as 
key priorities and we urge you to support full funding for these and 
all VAWA programs as you work on the fiscal year 2015 CJS bill.
    VAWA STOP Program--$222 million funding request.--VAWA's STOP Grant 
Program is at the core of effective coordinated community responses to 
domestic violence and sexual assault. These coordinated responses help 
hundreds of thousands of victims find safety and get the services they 
need to start over, while holding perpetrators accountable. As the 
foundational VAWA program, the STOP program awards funds to every State 
and territory through a formula-based system. States use this STOP 
funding for law enforcement, prosecution, and courts training and 
response. Many States establish special units in law enforcement 
agencies and prosecutors' offices to address domestic and sexual 
violence. Victims benefit from services including advocacy, crisis 
intervention, local crisis hotlines, counseling and support, and victim 
witness notification. We urge you to provide $222 million to support 
these essential, comprehensive services.
    Additionally, we urge you to include report language that would 
exempt the STOP program from the Prison Rape Education Act (PREA) 
penalty, which would cut 5 percent of the STOP funding in States that 
are not in compliance with PREA.
    Legal Assistance for Victims (LAV)--$57 million funding request.--
Research indicates that the practical nature of legal services gives 
victims long-term alternatives to their abusive relationships. However, 
the retainers or hourly fees for private legal representation are 
beyond the means of most victims of domestic violence, dating violence, 
sexual assault and stalking. In fact, almost 70 percent of all victims 
are without legal representation. The Civil Legal Assistance for 
Victims Program is the only federally funded program designed to meet 
the legal needs of victims. Due to the high demand for these services, 
the Office on Violence Against Women receives almost 300 applications 
per year, and only one-third of these are funded. Last year, funding 
for LAV was cut by $4 million despite its efficacy and the great demand 
for these services. Targeted increases to the LAV program are a sound 
investment in long-term solutions to violence. We urge you to provide 
$57 million for this program.
    Rural Grant program--$50 million funding request.--The Rural Grant 
Program supports services for victims of domestic violence and sexual 
assault living in rural and isolated areas. Rural victims face unique 
barriers including lack of access to child care, legal services, and 
public transportation, under-resourced law enforcement, and a shortage 
of safe shelter and services. Funding for this program has either been 
cut or remained stagnant for the last several years despite the great 
need and a number of States becoming newly eligible through the most 
recent VAWA reauthorization. We urge you to provide $50 million for 
this program.
    Transitional Housing program--$35 million funding request.--This 
vital VAWA program helps communities in every State offer victims a 
safe place to begin to rebuild their lives. In just one day in 2013, 
5,270 adults and 7,561 children were housed in domestic violence 
transitional housing programs. On the same day, however, 5,778 requests 
(60 percent of the unmet requests) for emergency shelter or 
transitional housing were denied due to a lack of capacity. The extreme 
dearth of affordable housing produces a situation where many victims of 
domestic violence must return to their abusers because they cannot find 
long-term housing, while others are forced into homelessness. Increased 
investment in the Transitional Housing program will allow more States 
and localities to ensure that victims indo not have to make these 
unfathomable choices. We urge you to provide $35 million for this 
program.
    Grants to Encourage Arrest (GTEAP)--$73 million funding request.--
GTEAP helps communities develop and sustain a seamless and 
comprehensive criminal justice response to domestic violence, enhancing 
victims' safety and holding perpetrators accountable. GTEAP encourages 
State, local, and tribal governments and State, local, and tribal 
courts to treat domestic violence, dating violence, sexual assault, and 
stalking as serious violations of criminal law requiring the 
coordinated involvement of the entire criminal justice system. The 
homicide reduction initiative set aside ($4 million) is designed to 
address the risk of homicide of abuse victims, especially those in 
escalating domestic violence situations. Increased investment in GTEAP 
at $73 million will allow communities to continue this lifesaving work.
    Sexual Assault Services Program--$40 million funding request.--The 
Sexual Assault Services Program (SASP) is the only Federal funding 
source dedicated to providing direct services to adult and minor 
victims of sexual violence and is distributed through a State formula 
grant. Services include hotlines, crisis intervention, advocacy, and 
accompaniment through medical and legal systems. Increased funding will 
help eliminate waiting lists and respond to the unmet needs of victims. 
We urge you to provide $40 million for this vital program.
    Remaining VAWA programs--full funding (see chart below).--All VAWA 
programs work together to improve the system-wide response domestic and 
sexual violence and to meet the unique and pressing needs of victims. 
VAWA programs should be funded at their full authorization levels, as 
indicated in the table below.

    VAWA AND OTHER RELATED PROGRAMS--Appropriations for Fiscal Years 2012, 2013, 2014, and 2015--Campaign for
                                   Funding to End Domestic and Sexual Violence
                        [All numbers are expressed in millions.]--Updated: March 6, 2014
----------------------------------------------------------------------------------------------------------------
                                                            Fiscal year
                                                          2013 reduced by               President's
     Name of Grant Program      Fiscal year  Fiscal year   sequestration   Fiscal year  fiscal year   Authorized
                                2012 budget  2013 budget  and rescissions  2014 budget  2015 budget     level
                                                                \1\
----------------------------------------------------------------------------------------------------------------
COMMERCE, JUSTICE, SCIENCE APPROPRIATIONS.......................................................................
----------------------------------------------------------------------------------------------------------------
STOP--Grants to Combat              $189.00      $189.00        $176.18        $193.00      $193.00      $222.00
 Violence Against Women.......
Sexual Assault Services               23.00        25.00          23.30          27.00        27.00        40.00
 Program (SASP)...............
Services for Rural Victims....        34.00        36.50          34.02          36.00        33.00        50.00
Civil Legal Assistance for            41.00        41.00          38.22          37.00        42.50        57.00
 Victims......................
Transitional Housing (OVW)....        25.00        25.00          23.30          24.75        25.00        35.00
Grants to Encourage Arrest            50.00        50.00          46.61          50.00        50.00        73.00
 Policies \2\.................
CHOOSE Youth Program \3\......         5.00         5.00           4.66           5.00         5.00        15.00
SMART Program \3\.............         5.00         5.00           4.66           5.00         5.00        15.00
Grants to Support Families in         16.00        15.00          14.45          15.00        16.00        22.00
 the Justice System...........
Violence on College Campuses           9.00         9.00           8.39           9.00        11.00        12.00
 (Campus Grants)..............
Protections and Services for           5.75         5.75           5.36           5.75         5.75         9.00
 Disabled Victims.............
Elder Abuse Grant Program.....         4.25         4.25           3.96           4.25         4.25         9.00
National Institute of Justice          3.00         3.50           3.26           3.25         3.00        --
 (NIJ)........................
Research on Violence Against           1.00         1.00           0.93           1.00         1.00         1.00
 Indian Women.................
National Resource Center on            1.00         0.50           0.47           0.50         0.50         1.00
 Workplace Responses..........
Nat'l Clearinghouse on Sexual          0.50         0.50           0.47           0.50         0.50         0.50
 Assault of American Indian
 and Alaska Native Women......
Outreach to Underserved                0.00         0.00           0.00           0.00        --            2.00
 Populations..................
National Tribal Sex Offender           0.00         0.00           0.00           0.00        --            1.00
 Registry.....................
Tribal Jurisdiction...........        --           --             --             --           --            5.00
                               ---------------------------------------------------------------------------------
      VAWA CJS Total..........       412.50       416.00         388.24         417.00       422.50       569.50
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                           Fiscal year
                                Fiscal year  Fiscal year   2013 reduced  Fiscal year  President's     Funding
                                2012 budget  2013 budget        by       2014 budget  fiscal year     request
                                                          sequestration               2015 budget
----------------------------------------------------------------------------------------------------------------
VOCA Fund Cap \4\.............      $705.00      $730.00        N/A          $745.00      $810.00        $1.50B
    State Victim Assistance          379.00       425.20        N/A            --           --          500.00
     Grants...................
    Tribal VOCA Funding Stream        --           --            --            --           20.00        20.00
    Vision 21 & Trafficking           --           --            --            12.50        35.00        35.00
     Initiatives..............
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                          Fiscal year
                                                        2013 reduced by               President's
    Name of Grant Program     Fiscal year  Fiscal year   sequestration   Fiscal year  fiscal year    Authorized
                              2012 budget  2013 budget  and rescissions  2014 budget  2015 budget      level
                                                              \1\
----------------------------------------------------------------------------------------------------------------
LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION APPROPRIATIONS..................................................
----------------------------------------------------------------------------------------------------------------
                            ADMINISTRATION FOR CHILDREN AND FAMILIES............................................
----------------------------------------------------------------------------------------------------------------
Family Violence Prevention        $129.50      $129.50        $121.19        $133.50      $135.00      $175.00
 and Services Act (FVPSA)
 \5\/Domestic Violence
 Shelters...................
National Domestic Violence           3.20         3.20           3.04           4.50         5.00         5.00
 Hotline \5\................
----------------------------------------------------------------------------------------------------------------
                                  CENTERS FOR DISEASE CONTROL...................................................
----------------------------------------------------------------------------------------------------------------
Rape Prevention and                $41.70       $41.70         $39.39         $38.00       $38.00       $50.00
 Education..................
DELTA--Domestic Violence             5.40         5.40           5.13           5.20         5.20         6.00
 Prevention Enhancement and
 Leadership Through
 Alliances \5\..............
Preventive Health and Health         7.00         7.00           7.00           7.00         0.00         7.00
 Services Block Grant
 (PHHSBG) Sex Offense Set-
 Aside \6\..................
----------------------------------------------------------------------------------------------------------------
                                   OFFICE ON WOMEN'S HEALTH.....................................................
----------------------------------------------------------------------------------------------------------------
Violence Against Women              $2.30        $2.30          $2.30          $2.30        $2.30       $10.00
 Health Initiative..........
----------------------------------------------------------------------------------------------------------------
      L-HHS Total...........       189.10       189.10         178.05         190.50       185.50       253.00
----------------------------------------------------------------------------------------------------------------
PLEASE NOTE: This chart will continue to be updated throughout the fiscal year 2015 Appropriations process.
Updates can be found at www.nnedv.org/funding.
\1\ Rescissions and sequestration: The L-HHS programs were reduced by a 0.189 percent across the board cut for
  fiscal year 2012. In fiscal year 2012, VAWA DOJ programs were subject to an across-the-board rescission of
  1.877 percent. In fiscal year 2013, most discretionary programs, including those at OVW, were subjected to
  Sequestration cuts between 5-7 percent. Also, in fiscal year 2013 and fiscal year 2014, the final bills each
  included a $12 million rescission from OVW from unobligated or deobligated funds.
\2\ In fiscal years 2012, 2013, and 2014, and in the President's fiscal year 2015 budget, $4 million has been
  set aside in GTEAP for a homicide reduction initiative.
\3\ VAWA 2013 consolidated youth and prevention programs into two programs. Appropriations funded these programs
  as one consolidated program for the past several years. The chart above divides the amounts given to the
  Consolidated Youth program into the two new programs to demonstrate the funding history. Both the President's
  fiscal year 2014 budget and the final fiscal year 2014 bill consolidated these programs and funded them at $10
  million overall. This chart estimates that roughly $5 million will be spent on each.
\4\ VOCA Notes: State victim assistance grants are a portion of the total VOCA ``cap'' and are distributed to
  States on a population-based formula. The total annual amount for State victims assistance grants is
  determined by a formula and is not specified in Appropriations bills or Presidential budgets. We highlight
  this portion of VOCA because it funds local victim service programs and is a priority for the field. Vision
  21: The President's fiscal year 2014 and fiscal year 2015 Budgets proposed setting aside $25 million dollars
  from the amount of money released from the VOCA fund for the Vision 21 initiative, $20 million for tribal
  victim services and $10 million to address trafficking. In the final fiscal year 2014 bill, Congress
  appropriated $12.5 million for the Vision 21 initiative from its general CJS funds and not as a set-aside of
  VOCA funds. We support $35 million for Vision 21 through CJS funds. Tribal funding: We support the President's
  request for a VOCA Tribal funding set-aside.
\5\ FVPSA, the National Domestic Violence Hotline, and DELTA are authorized through the Family Violence
  Prevention and Services Act (FVPSA).
\6\ PHHSBG is authorized through the Public Health Services Act and includes a mandatory set-aside for providing
  services to rape victims and for rape prevention. The sex-offense set-aside was not cut by sequestration in
  2013.

                  victims of crime act (voca) funding
    VOCA uses non-taxpayer money from the Crime Victims Fund for 
programs that serve victims of crime, including State formula victim 
assistance grants. These funds, which are generated by fines paid by 
Federal criminals, provide support for services to four million victims 
of all types of crimes annually, through 4,400 direct service agencies 
such as domestic violence shelters, rape crisis centers, and child 
abuse treatment programs. Additional VOCA funds are critically needed 
to respond to the crisis caused by the dangerous lack of services for 
victims of domestic and sexual violence.
    With an obvious need for increased funding, and a more than ample 
balance of at least $11 billion in the Fund, now is the time to 
establish a long-term, logical and consistent basis for determining the 
annual VOCA cap in order to release additional money for the purpose 
Congress intended and for which it has been collected. The balance in 
the Crime Victims Fund is more than enough to significantly increase 
VOCA funding without jeopardizing the Fund's future sustainability.
    We urge you to request that the committee set the annual VOCA 
funding release level at no less than the amount deposited into the 
Fund during the previous full fiscal year. This number is approximately 
$1.5 billion for fiscal year 2014. We urge you to release $1.5 billion 
from the VOCA fund in fiscal year 2015 to address the needs of victims 
of crime.
    In addition, once at least $500 million is guaranteed for the State 
victim assistance grants, we request that there also be a Native 
American tribal funding stream for victim services. We also request 
funding for the Office for Victims of Crime's Vision 21 Initiative 
through CJS appropriations.
                               conclusion
    These programs work together to prevent and end domestic and sexual 
violence. While our country has made continued investments in the 
criminal justice response to these heinous crimes, we need an equal 
investment in the human service, public health and prevention responses 
in order to holistically address and end the violence. These vital, 
cost-effective programs help break the cycle, reduce related social 
ills, and will save our Nation money now and in the future.
                                 ______
                                 
         Prepared Statement of the Native American Rights Fund
    The Native American Rights Fund (NARF) \1\ submits this written 
statement for the record. We respectfully request this subcommittee's 
consideration as you develop the fiscal year 2015 Commerce, Justice, 
Science and Related Agencies appropriations bill of maintaining funding 
within the Department of Justice (DOJ), the Office of Justice Program's 
State and Local Law Enforcement Assistance account, at approximately $3 
million as provided in recent years to the Bureau of Justice Assistance 
(BJA), within assistance to Indian tribes, for the Tribal Civil and 
Criminal Legal Assistance, Training and Technical Assistance grant 
program.
---------------------------------------------------------------------------
    \1\ Founded in 1970, the Native American Rights Fund (NARF) is the 
oldest and largest nonprofit law firm dedicated to asserting and 
defending the rights of Indian tribes, organizations and individuals 
nationwide. NARF's practice is concentrated in five key areas: the 
preservation of tribal existence; the protection of tribal natural 
resources; the promotion of Native American human rights; the 
accountability of governments to Native Americans; and the development 
of Indian law and educating the public about Indian rights, laws, and 
issues.
---------------------------------------------------------------------------
    Twenty-five Indian Legal Services programs, which are the Indian 
program components of the Legal Services Corporation, operate in 23 
States. They annually provide both civil and criminal legal 
representation in tribal courts to hundreds of individual Native 
American clients, including juveniles, who meet Federal poverty 
guidelines.\2\ Legal work encompasses a broad array of cases, including 
domestic violence, pro se assistance, family member prisoner visitation 
and re-entry, child welfare and adoption, employment and home 
foreclosure assistance.
---------------------------------------------------------------------------
    \2\ In 2000, Congress enacted the Indian Tribal Justice Technical 
and Legal Assistance Act (Public Law 106-559), which specifically 
authorized the Department of Justice to provide grants to ``non-profit 
entities . . . which provide legal assistance services for Indian 
tribes, members of Indian tribes, or tribal justice systems pursuant to 
Federal poverty guidelines'' [emphasis added]. The Indian Tribal 
Justice Technical and Legal Assistance Act of 2000 was reauthorized 
through fiscal year 2015 as part of the Tribal Law and Order Act 
(Public Law 111-211).
---------------------------------------------------------------------------
    In addition to individual representation, these Indian Legal 
Services programs are currently assisting more than 160 tribes and/or 
tribal judicial systems in such activities as tribal court development 
and improvement, development of tribal dispute resolution and 
peacemaker/mediation systems, drafting of civil and criminal codes and 
rules of procedure and other structural development for court 
implementation, and training of tribal court and justice systems 
personnel and tribal court lay advocates and guardians ad litem.
    Specific project examples with recent funding from BJA include a 
State-wide tribal court support group; a video-conferencing system for 
court appearance; development of Domestic Violence ordinances; work 
with a newly-established Tribal Wellness Drug and Alcohol Court; 
helping to review a tribal criminal and juvenile justice system and to 
recommend reforms based on traditional tribal values and restorative 
justice concepts; assisting juvenile clients who have severe truancy, 
chemical dependency, and mental health issues to receive education, 
treatment, counseling, and other holistic wraparound services to avoid 
out of home placements and further criminal/delinquent behavior and 
consequences; and partnering with a tribal court and tribal college on 
a tribal advocacy certificate program.
    In many instances, these Indian Legal Services programs have been 
``on the ground,'' in these tribal communities, for decades, an 
integral part of the legal structure of the reservation communities 
they serve. The programs' representation of individual tribal citizens 
and training for and assistance to tribal governments and tribal 
judicial systems help keep citizens safe, help assure that tribal 
justice systems are grounded in solid codes and laws so that those 
communities can better attract business investments, and provide 
economic opportunities by training tribal citizens to work in the 
justice system as advocates and judges. The Indian Legal Services 
programs' work in developing and strengthening the institutions of 
tribal justice and creating a solid legal infrastructure on the 
reservations ultimately builds sustained economic opportunity and 
growth in those tribal communities.
    Between fiscal year 2010 and fiscal year 2013, these Indian Legal 
Services programs have competed with other non-profit entities and 
received grant funding under DOJ's Office of Justice Programs' Bureau 
of Justice Assistance's Tribal Civil and Criminal Legal Assistance, 
Training and Technical Assistance (TCCLA) grant program to supplement 
Legal Services Corporation resources and other Federal grant funds in 
order to expand services to tribal citizens and tribal justice 
systems.\3\ The Native American Rights Fund serves as the administering 
agency for these grant funds to the National Association of Indian 
Legal Services (NAILS), an umbrella association of the Indian Legal 
Services programs.
---------------------------------------------------------------------------
    \3\ In fiscal year 2010, under TCCLA, NAILS was awarded $1.25 
million for civil legal assistance and $1.1 million for criminal legal 
assistance; in fiscal year 2011, NAILS was awarded $536,363 for tribal 
civil legal assistance, and $1.1 million for tribal criminal legal 
assistance; in fiscal year 2012, NAILS was awarded $850,659 for tribal 
civil legal assistance, and $875,000 for tribal criminal legal 
assistance; and in fiscal year 2013, NAILS was awarded $715,944 for 
tribal civil legal assistance, and $515,940 for tribal criminal legal 
assistance. We are awaiting announcement of an fiscal year 2014 
solicitation, upon which the Indian Legal Services programs plan to 
submit applications for both tribal civil and criminal legal assistance 
for fiscal year 2014 funding.
---------------------------------------------------------------------------
    The fiscal year 2014 Consolidated Appropriations Act (Public Law 
113-76) provided $30 million for ``assistance to Indian tribes.'' We 
have not yet learned in full detail how DOJ intends to allocate these 
funds. However, we note that the reports of both the House and Senate 
Appropriations Committees accompanying your stand-alone fiscal year 
2014 CJS appropriations bills directed again that DOJ allocate fiscal 
year 2014 funds based on tribal consultation for such purposes as 
tribal courts, alcohol and substance abuse reduction grants, tribal 
detention facilities, and tribal civil and criminal legal assistance. 
We are hopeful that this report language will encourage the Department 
to allocate some fiscal year 2014 funding for the TCCLA grant program.
    With respect to the fiscal year 2015 budget request, the 
administration has again proposed bill language in General Provisions--
Department of Justice for several setasides for DOJ funding, including 
a setaside of 7 percent for tribal criminal (note: not criminal AND 
civil, as provided now, through TCCLA) justice assistance.
    Because the Indian Legal Services programs are not tribal 
governments, and do not want to have to compete with tribes for DOJ 
funding,\4\ what is most helpful is to have a specific funding amount 
for tribal civil and criminal legal assistance, a reference to the 
authorizing statute that allows DOJ to award grants for these services 
(Public Law 106-559), and a mention of the inclusion of the purpose of 
providing tribal civil and criminal legal assistance.
---------------------------------------------------------------------------
    \4\ Having to compete with tribal governments for a portion of the 
overall DOJ funds for Indian Country assistance is, as a policy matter, 
something that the Indian Legal Services programs have worked hard over 
the years to avoid, and which led us to get the initial authorizing 
legislation enacted in 2000, Public Law 106-559.
---------------------------------------------------------------------------
    If in fiscal year 2015, as in fiscal year 2014, (though at a lesser 
percentage than the administration requested), the Senate 
Appropriations Committee should agree with DOJ's request for a tribal 
set-aside, or if, as under the final fiscal year 2014 Consolidated 
Appropriations Act, you should, instead, provide an overall ``lump 
sum'' amount to OJP for ``assistance to Indian tribes,'' we would ask 
for your consideration of report language, as included in recent years, 
that would encourage DOJ to make some funding available to non-tribal 
governmental entities such as Indian Legal Services programs for the 
purpose of the provision of tribal civil and criminal legal assistance 
services.
    Prior years' instructive report language of the Appropriations 
Committees has directed the Office of Justice Programs to consult with 
tribal stakeholders in determining how the overall amount of funding 
for tribal assistance will be allocated, and has specifically mentioned 
tribal civil and criminal legal assistance. That report language has 
been helpful in ensuring that the Department of Justice provide 
approximately $3 million in funding to the Tribal Civil and Criminal 
Legal Assistance, Training and Technical Assistance grant program, for 
which Indian Legal Services has competed for funding awards.
    Funding of approximately $3 million should be appropriated in 
fiscal year 2015, as in recent years, for tribal civil and criminal 
legal assistance, and tribal court development work, as undertaken by 
Indian Legal Services programs. Thank you for your attention to and 
consideration of this submission.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the National Oceanic and 
Atmospheric Administration fiscal year 2015 appropriations. My name is 
Billy Frank, Jr. and I am the Chairman of the Northwest Indian 
Fisheries Commission (NWIFC). The NWIFC is comprised of the 20 tribes 
that are party to the United States v. Washington \1\ (U.S. v. 
Washington). I am providing written testimony for the record in support 
of funding for the National Oceanic and Atmospheric Administration 
(NOAA)/National Marine Fisheries Service (NMFS) and National Ocean 
Service (NOS).
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2015 appropriations requests
  --$110.0 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS)
  --$14.7 million for the Pacific Salmon Treaty, including the 
        Additional $3.0 million for the 2008 Chinook Salmon Agreement 
        (NOAA/NMFS)
  --$15.8 million for the Mitchell Act Hatchery Program (NOAA/NMFS)
  --$20.0 million for the Regional Ocean Partnership Grants Program 
        (NOAA/NOS)

    We are generally pleased with the President's fiscal year 2015 
budget request as it establishes a good starting point. However, it's 
just that--a starting point--much more needs to be done. It promotes a 
strong stewardship in sustaining our vital natural resources. The 
natural resources that we depend on are vital to our tribal 
communities, economies and jobs. The President's budget provides for 
economic growth by paying for new investments while protecting the 
environment. Our economy depends on a healthy natural environment. The 
land and the many natural resources we depend on are a necessity for 
our communities to thrive. We need to continue to improve the condition 
of our changing environment for the benefit of future generations.
    The western Washington treaty tribes brought to the Federal 
Government our Treaty Rights at Risk (TRAR) initiative almost 3 years 
ago. We are slowly creating change in the manner in which government 
agencies operate but it has not yet been enough to change the 
trajectory of salmon recovery in our region from a negative to a 
positive direction. In this initiative we asked the Federal Government 
to take charge of salmon recovery because it has the obligation and 
authority to ensure both the recovery of salmon and the protection of 
tribal treaty rights. We requested that the Federal Government 
implement their fiduciary duties by better protecting salmon habitat 
and the tribes' treaty-reserved resources. The treaty-reserved right of 
the western Washington treaty tribes to harvest salmon is at risk. The 
danger exists due to diminishing salmon populations, which limits or 
eliminates our right to harvest. All of this is due to the inability to 
restore salmon habitat faster than it is being destroyed. Wild salmon 
and their habitat continue to decline despite massive reductions in 
harvest and a significant investment in habitat restoration. We have 
all made a huge investment in the recovery of salmon and their habitat. 
These good investments must continue and will contribute to recovery as 
we work to slow down the continued loss of habitat. Fulfilling these 
Federal obligations is not an option and by addressing our TRAR--we 
will recover the salmon populations.
    Adequate funding is needed in order to restore salmon habitat. A 
critical funding source for this work is the Pacific Coastal Salmon 
Recovery Fund (PCSRF). The PCSRF assists tribes in the implementation 
of salmon recovery plans and moves us in the direction of achieving the 
recovery goals, which is a direct request in our TRAR initiative. As 
Congress considers the fiscal year 2015 budget, we ask you to consider 
our requests that are further described below.
                       justification of requests
Provide $110.0 million for NOAA Pacific Coastal Salmon Recovery Fund

    We support the restoration of the PCSRF to the $110.0 million 
level, an increase of $60.0 million over the President's request. These 
funds have decreased from the peak of $110.0 million in fiscal year 
2002. We continue to support the original congressional intent of these 
funds that would enable the Federal Government to fulfill its 
obligations to salmon recovery and the treaty fishing rights of the 
tribes.
    The PCSRF is a multi-State, multi-tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover wild 
salmon throughout the Pacific coast region. The PCSRF supports projects 
that restore, conserve and protect Pacific salmon and steelhead and 
their habitats. PCSRF is making a significant contribution to the 
recovery of wild salmon throughout the region by financially supporting 
and leveraging local and regional efforts. Salmon restoration projects 
not only benefits fish populations and their habitat but provides much 
needed jobs for the local communities.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations. The key tribal objective is to protect and restore 
important habitat in Puget Sound and along the Washington coast that is 
essential for western Washington tribes to exercise their treaty-
reserved fishing rights consistent with U.S. v. Washington and Hoh v. 
Baldrige \2\ and also promotes the recovery of ESA listed species and 
other salmon populations. These funds support policy and technical 
capacities for tribes to plan, implement, and monitor recovery 
activities. The tribes use these funds to support the scientific salmon 
recovery approach that makes this program so unique and important. In 
addition to watershed restoration and salmon recovery work they also 
help fund fish hatchery reform efforts to allow for the exercise of 
tribal treaty fishing rights. It is for these reasons that the tribes 
strongly support the PCSRF.
---------------------------------------------------------------------------
    \2\ Hoh v. Baldrige--A Federal court ruling that required fisheries 
management on a river-by-river basis.
---------------------------------------------------------------------------
Provide $14.7 million for NOAA Pacific Salmon Treaty, including the 
        Additional $3.0 million associated with the 2008 Chinook Salmon 
        Agreement
    We support the Pacific Salmon Commission (PSC)/U.S. Section's 
request of $14.7 million, an increase of $3.9 million over the 
President's request. We also support as part of their request $1.5 
million for the Puget Sound Critical Stock Augmentation Program and 
$1.5 million for the Coded Wire Tag (CWT) Program as required by the 
2008 Pacific Salmon Treaty (PST) Chinook Annex Agreement. The Puget 
Sound Critical Stock funding covers the operation and maintenance costs 
for the hatchery augmentation programs established for Dungeness, 
Stillaguamish, and Nooksack Chinook. These hatchery efforts were 
initiated in connection with the 2008 Chinook Agreement of the U.S./
Canada PST as the conservation needs of these populations could not be 
met by harvest restriction actions alone. The CWT funding allows for 
continued maintenance and efficiency improvements of the coast-wide CWT 
program. This is essential for the sustainability and management of our 
fisheries resources. Currently there is not enough funding allocated to 
carry out the requirements of the PST, which causes the PSC to not be 
able to perform all of its responsibilities required in the treaty and 
its Chinook and coho annexes.
    The PST was implemented in 1985 through the cooperative efforts of 
tribal, State, U.S. and Canadian Governments, and sport and commercial 
fishing interests. The PSC was created by the United States and Canada 
to implement the treaty, which was most recently updated in 2008. The 
PSC establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues. As co-managers of the fishery resources in 
western Washington, tribal participation in implementing the PST is 
critical to achieve the goals of the treaty to protect, share and 
restore salmon resources.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fisherman from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
The 2008 update of the treaty gave additional protection to weak runs 
of Chinook salmon returning to Puget Sound rivers. The update also 
provided compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
Provide $15.8 million for NOAA Mitchell Act Hatchery Programs
    We support the President's request of $15.8 million for the 
Mitchell Act Hatchery Programs. Funding is provided for the operation 
of 17 fish hatcheries that release between 50 and 60 million juvenile 
salmon and steelhead in Oregon, Washington, and Idaho. This program has 
historically provided fish production for tribal treaty fisheries, and 
recreational and commercial fisheries in the Columbia River and the 
ocean. It is especially important to us in that they provide 
significant fish production for harvest opportunities for tribal treaty 
fisheries along the Washington coast. Providing adequate funding to 
maintain the current production levels from the Mitchell Act hatcheries 
on the Columbia River is important as this production not only supports 
coastal salmon fisheries but dampens the impact of Canadian fisheries 
under the terms of the PST Chinook Annex on Puget Sound and coastal 
stocks.
    Overall production from these hatcheries has been reduced from more 
than 100 million to fewer than 60 million fish. This hatchery 
production is intended to mitigate for the lost production caused by 
the hydropower dam system on the Columbia River. Substantial changes 
have been made, and will continue to be required of the Mitchell Act 
Program, due to the application of the ESA throughout the Columbia 
Basin. Adequate funding will also allow these facilities to be 
retrofitted to meet current ESA standards as identified through the 
hatchery reform process.
Provide $20.0 million for NOAA Regional Ocean Partnership Grants 
        Program
    We request $20.0 million for the Regional Ocean Partnership. It 
appears the President's fiscal year 2015 budget didn't include a 
request for this program but we feel it is necessary to highlight it 
since it is so critical to our regional approach to coastal management. 
Funding for this competitive grant program has in the past been 
included within the National Ocean Service/Coastal Management account 
and supports regional ocean partnerships, including coastal and marine 
spatial planning. This program was developed to advance effective 
coastal and ocean management through regional ocean governance by 
improving communications, aligning priorities and enhancing resource 
sharing.
    The Hoh, Makah, and Quileute Tribes, and the Quinault Indian Nation 
helped form the Intergovernmental Policy Council with the intent to 
strengthen management partnerships through coordination and focus of 
work efforts. They have pioneered cooperative partnerships with the 
State of Washington and the Federal Government in an effort to advance 
management practices in the coastal waters. Through this partnership, 
the entities hope to coordinate rockfish research, habitat mapping, and 
deep sea coral and climate change considerations. The four coastal 
tribes and the State also wish to engage in an ocean monitoring and 
research initiative to support and transition into an ecosystem-based 
fisheries management plan for the Washington coast. This tribal-State 
effort would be in collaboration with NOAA and consistent with regional 
priorities identified by a regional ocean planning body. Effective 
management of the ocean ecosystem and its associated resources requires 
the development of baseline information against which changes can be 
measured. For the tribes and State to conduct an ocean monitoring and 
research initiative off the Washington coast, they will need funding to 
support this effort. Healthy oceans are essential if we value stable 
climates that will sustain our economies and our lives. Tribes must be 
partners in the efforts to research, clean up and restore the 
environment in order to deal with identified problems.
                               conclusion
    We are sensitive to the budget challenges that Congress faces. 
However, we need your continued support in upholding the treaty 
obligations and fulfilling the trust responsibility of those treaties 
in order for tribes to be successful. We respectfully urge you to 
continue to support our efforts to protect and restore our great 
natural heritage that in turn will provide for thriving economies. 
Thank you.
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2015 funding for National Oceanic and 
Atmospheric Administration (NOAA). Ocean Conservancy has worked for 40 
years to address ocean threats through sound, practical policies that 
protect our ocean and improve our lives. We support funding for NOAA at 
or above the President's request of $5.5 billion, and we support 
balanced investments across NOAA's atmospheric and oceanic missions. We 
recommend the following funding levels for specific programs.


----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2014         Fiscal year 2015         Fiscal year 2015
     Account, Program or Activity              enacted            President's request       recommended level
----------------------------------------------------------------------------------------------------------------
OPERATIONS RESEARCH AND FACILITIES
National Ocean Service:
  Coastal Science, Assessment,
   Response, and Restoration:
    Marine Debris....................  $6 million.............  $6 million.............  $8 million
    Arctic Spill Preparedness........             --            $1.315 million increase  $1.315 million increase
  Coastal Management Grants:
    Regional Coastal Resilience                   --            $5 million.............  $10 million
     Grants.
National Marine Fisheries Service:
  Marine Mammals.....................  $49.717 million........  $47.217 million........  $49.717 million
  Fisheries Research and Management    $177.833 million.......  $181.833 million.......  $181.833 million
   Programs.
  Expand Annual Stock Assessments....  $69.745 million........  $72.245 million........  $75.6 million
  Fisheries Statistics...............  $22.361 million........  $22.361 million........  $23.9 million
  Climate Regimes & Ecosystem          $2.031 million.........  $2.879 million.........  $2.879 million
   Productivity.
    Distributed Biological Obs.                   --            $848,000 increase......  $848,000 increase
     (Arctic).
Office of Oceanic and Atmospheric
 Research:
  Integrated Ocean Acidification.....  $6.051 million.........  $14.922 million........  $15 million
  Regional Climate Data and            $37.312 million........  $52.312 million........  $52.312 million
   Information.
    NOAA Arctic Research Program.....             --            $2.190 million increase  $2.190 million increase
Program Support:
  NOAA Wide Corporate Services &       $113.139 million.......  $125.139 million.......  $125.139 million
   Agency Mgmt. Base.
  Marine Operations & Maintenance....  $172.181 million.......  $175.032 million.......  $175.032 million
----------------------------------------------------------------------------------------------------------------

            regional coastal resilience grants: $10 million
    The resilience of our coastal communities is a critical mission for 
NOAA and the National Ocean Service. But resilience means more than 
just storm-ready; truly resilient communities are prepared to face 
changing ocean conditions, from acidification to sea level rise, 
changing economic conditions, from recession to emerging ocean uses, as 
well as major catastrophes, from Superstorm Sandy to marine debris 
clogging waterways. Resilient communities invest up-front today to 
ensure they avoid unnecessary costs--economic, social, and 
environmental--in the future. Regional approaches are an effective and 
efficient way to address the full range of changing ocean and coastal 
conditions and risks--bringing communities, States, and Federal 
agencies together to share their collective knowledge and experience 
and move forward on shared priorities. Regional Coastal Resilience 
Grants from NOAA support work to advance resilience by supporting 
regional priorities for ocean and coastal science and activities.
    Because regional grants were left unfunded for the first time in 
fiscal year 2014, ongoing efforts through States and partnerships (like 
the Regional Ocean Partnerships) have been threatened--interfering with 
progress to support local and regional ocean and coastal needs and 
priorities, or leverage the Federal Government's expertise and data 
collection capacity. Failure to restore the regional competitive grant 
funding and provide an increase to $10 million will undermine and 
threaten the progress these partnerships have made. For these reasons, 
we request that the Regional Coastal Resilience Grants within NOAA's 
National Ocean Service be funded at $10 million.
                    preparing for a changing arctic
    We support the three funding increases requested by NOAA in fiscal 
year 2015 that make investments we need now to be prepared for economic 
and ecological challenges of a changing Arctic.
  --Arctic Spill Preparedness: $1.315 million increase.--Currently, 
        there is no demonstrated technology, technique or 
        infrastructure to respond effectively to an oil spill in icy 
        Arctic waters. Funding to support improved models, increased 
        capacity and coordination, and research is urgently needed. 
        Along with a precautionary approach, these efforts can guide 
        decisions about whether development activities should occur in 
        the Arctic and, if so, when, where, and how they occur.
  --Distributed Biological Observatory (Arctic): $848,000 increase.--
        The Arctic marine ecosystem provides irreplaceable benefits, 
        but our understanding of this ecosystem is hampered by a lack 
        of reliable baseline data, critical science gaps, and limited 
        documentation and application/use of traditional knowledge. 
        Funding will provide much-needed support for collection of 
        baseline data and analysis of ecosystem functions in Arctic 
        marine waters so we better understand Arctic fisheries and 
        other valuable ecosystem services. Without this better 
        understanding our ability to make informed decisions is 
        compromised.
  --NOAA Arctic Research Program: $2.190 million increase.--
        Temperatures in the Arctic are warming at twice the rate of the 
        global average and seasonal sea ice is diminishing rapidly. 
        Funding to expand and improve NOAA's Arctic Observing Network 
        is critical to track and understand these profound changes and 
        provide products that inform industries and decision-makers and 
        support our ability to adapt.
                       marine debris: $8 million
    Marine debris has become one of the most pervasive pollution 
problems facing the world's oceans, coasts and waterways. Research has 
demonstrated that persistent debris has serious effects on the marine 
environment, wildlife and the economy. Marine debris causes wildlife 
entanglement, ghost fishing, destruction of habitat, navigational 
hazards, vessel damage and pollutes coastal areas. There is also 
increasing concern over the threat of microplastics to the marine food 
web and potentially humans. NOAA's Marine Debris program supports 
existing monitoring and research efforts to better understand 
accumulation rates of debris and debris source and sink dynamics. The 
program catalyzes scientific research efforts to quantify the direct 
and indirect economic impacts caused by marine debris on coastal 
communities and economies that rely on them. And increasingly, NOAA's 
program is emphasizing research on microplastics in the ocean and their 
toxicological impacts on marine organisms. NOAA's Marine Debris program 
was originally authorized at a level of $10 million. We support funding 
for this program at $8 million, a $2 million increase over fiscal year 
2014.
                    marine mammals: $49.717 million
    We do not support NOAA's proposed cut of $2.5 million dollars from 
the John H. Prescott Marine Mammal Rescue Assistance Grant Program. 
This cut would harm marine mammal stranding networks, which are the 
first responders for sick or dying marine mammals. Marine mammals face 
significant threats in the Gulf of Mexico, with the Galveston Bay Spill 
providing the latest example. Programs in Texas and Florida in 
particular would be harmed by this cut because they are not currently 
benefitting from BP Natural Resource Damage Assessment dollars that are 
temporarily filling funding gaps in northern Gulf rescue centers, but 
not elsewhere.
                   fisheries science and information
    We support funding for programs that implement the ``Magnuson-
Stevens Fishery Conservation and Management Act''. As we review the Act 
for reauthorization, it is important to note that the Act is working--
NOAA has made great strides towards ending overfishing and continued 
investments in these programs are needed.
  --Expand Annual Stock Assessments: $75 million.--This funding line 
        provides critically needed resources for fisheries managers to 
        assess priority fish stocks, implement the requirement for 
        annual catch limits (ACLs), and ensure the successful recovery 
        of overfished populations. The survey and monitoring and stock 
        assessment activities funded under this line give fishery 
        managers greater confidence that their ACLs will avoid 
        overfishing while providing optimal fishing opportunities. 
        Because the information provided by stock assessments is so 
        vital for sustainable management of U.S. fisheries, increased 
        funding for stock assessments should remain among the highest 
        priorities in fiscal year 2015.
  --Marine Operations and Maintenance: $175.032 million.--Marine 
        Operations and Maintenance should be funded at or above the 
        President's Request level of $175.032 million. Days at sea 
        funded by this line are functionally tied to fishery stock 
        assessments, and the two programs must be viewed together. In 
        addition, while not currently requested in the NOAA budget, we 
        encourage Congress to consider the needs of the NOAA fleet as 
        well.
  --Fisheries Statistics (Marine Recreational Information Program): 
        $23.9 million.--Despite their often sizeable economic and 
        biological impacts, much less data are collected from 
        recreational saltwater fisheries than commercial fisheries due 
        to the sheer number of participants and limited sampling of 
        anglers' catches. The low level of data collection and lack of 
        timely reporting of data in these fisheries is a large source 
        of uncertainty and has become a flashpoint for controversy in 
        regions where catch restrictions have been adopted to rebuild 
        overfished stocks, particularly in the Southeast. By all 
        accounts, improved sampling and timelier reporting of catch 
        data are needed for successful management of marine 
        recreational fisheries.
  --Fisheries Research & Mgmt. Programs (elec. monitoring): at least 
        $181.833 million.--We support increasing funding for electronic 
        monitoring and reporting by at least the $4 million requested 
        by NOAA. This funding has been requested for nationwide 
        efforts, but in the Gulf of Mexico alone, where managers need 
        electronic monitoring to keep track of catch and prevent 
        overruns in the red snapper fishery, there is significant need 
        for additional funding. In conjunction with the charter-for-
        hire, seafood, environmental and regulatory communities across 
        all five Gulf States, we recommend that NOAA direct $2 million 
        of increased funding to create an electronic data collection 
        program for the federally-permitted charter boat fishery in the 
        Gulf of Mexico.
                     integrated ocean acidification
    In recent years, scientists have raised the alarm about ocean 
acidification--a process whereby ocean waters' absorption of carbon 
dioxide emissions alters marine acidity. These changes can have far-
reaching consequences for marine life, including economically important 
species like shellfish. For example, the shellfish industry in the 
Pacific Northwest has been devastated in recent years as increasingly 
acidic water impacted oyster hatcheries, nearly wiping out several 
years-worth of oyster ``seed.''
    Given the magnitude of the potential impacts of ocean acidification 
we believe this area warrants significantly more research investment. 
The President's fiscal year 2015 request of $15 million is a good step 
in the right direction of the actual on-the-ground needs for Ocean 
Acidification research. Funding at the $15 million level will allow 
NOAA to improve the understanding of ocean and coastal acidification 
impacts and to develop tools and adaptive strategies for vulnerable 
industries and stakeholders. These tools may include advanced 
technologies to enhance the U.S. Ocean Acidification Observing System, 
develop models to better understand carbonate chemistry dynamics and 
impacts, and provide valuable data products for coastal resource 
managers and other stakeholders. By increasing funding for Integrated 
Ocean Acidification to this level, NOAA will be able to take these 
concrete actions to more effectively tackle the economic, on-the-ground 
implications of ocean acidification and better plan for future 
strategies that will protect our Nation's key ocean and coastal 
economic assets.
noaa wide corporate services & agency management base: $125.139 million
    We support the administration's request for a $12 million increase 
for NOAA wide Corporate Services & Agency Management Base. As 
Administrator Sullivan said recently, it is rarely popular to invest in 
back-of-house functions, but if you do not support these critical 
functions, program delivery suffers. Appropriate funding for 
organizational hygiene ultimately allows the agency to more effectively 
carry out its mission, and thus results in benefits to ocean programs.
                                 ______
                                 
Prepared Statement of Dr. James Oliver, University of North Carolina at 
                               Charlotte
    Dear Sirs: The President's 2015 budget lists closure of the Center 
for Coastal Fisheries and Habitat Research, National Centers for 
Coastal Ocean Programs, National Ocean Science, National Oceanic and 
Atmospheric Administration (NOAA), at Beaufort North Carolina. I wish 
to strongly voice my opposition to this aspect of the budget, which I 
feel is not in our Nation's best interests.
    The Government has invested heavily in this facility: The Beaufort 
Laboratory facility has, over the last few years, had major upgrades of 
approximately $14 million. The lab is also rich in manpower, with a 
total of 108 staff and contractors who would be directly affected by 
the proposed closure.
    Scientific expertise.--The President's same budget also includes an 
increase of $4 million to another center to support ecological 
forecasting of harmful algal blooms (HABs), the effects of the 
decreasing levels of oxygen in our coastal waters, and an increase in 
human and animal pathogens. This is ironic in that the Beaufort 
Laboratory is a recognized leading facility for such studies, and has 
the expertise and facilities needed to address them. Their acknowledged 
reputation attracts support from other NOAA offices and other 
organizations that realize the benefits of this laboratory's 
experience.
    Along with numerous other ocean scientists, many of whom like 
myself who enjoy scientific collaborations with the Beaufort Lab, I 
plead for Congress to direct NOAA to restore support and funding to 
full operational levels in order to fully utilize the capacity of the 
NOAA Beaufort Laboratory.
    Thank you for studying this issue for the benefit of our country's 
scientific efforts.
                                 ______
                                 
 Prepared Statement of Omega Protein, Inc. and Daybrook Fisheries, Inc.
                                                    August 8, 2014.
    Dear members: This letter is submitted on behalf of the roughly 
1500 men and women employed by the menhaden industry in the Gulf of 
Mexico and the Mid-Atlantic, many if not most of whom work and fish 
here in Louisiana. The two remaining commercial menhaden fisheries, 
Omega Protein, Inc. and Daybrook Fisheries, Inc., which combined, 
produce an economic impact in excess of $1 billion to these regions and 
manufacture products that support domestic and foreign agriculture, 
aquaculture, and human health and nutrition industries, among many 
others. To do so, our industry must depend on credible and accurate 
scientific and commercial information, which for over a half century 
has been provided by the scientists and researchers at the National 
Oceanic and Atmospheric Administration (NOAA) Southeast Fisheries 
Science Center's (``SEFSC'') Beaufort, North Carolina Lab.
    In his fiscal year 2015 budget, President Obama proposes to close 
the Beaufort Lab and consolidate its operations at other SEFSC 
facilities to be determined in the future. While the President does not 
include a separate line item in his budget for this proposal, the 
closing accounts for a fraction of the $14 million projected savings 
from the Department of Commerce's reorganization of six science and 
technology programs; perhaps a million dollars per year, according to 
staff. We respectfully and urgently request that you oppose this 
proposal and continue funding the Beaufort Lab in the fiscal year 2015 
budget and beyond.
    The Beaufort Lab and its staff of over 100 employees support the 
management activities of the Gulf States and Atlantic States Marine 
Fisheries Commissions, primarily by conducting and leading the menhaden 
stock assessment (the Southeast Data Analysis and Review, or ``SEDAR'') 
for each region. It also collects, digitizes, and analyzes commercial 
catch data provided by the companies' captains in detailed logbook 
form. This information is an essential component of the joint Federal/
State menhaden management system and critical for continuing science-
based, sustainable management of these economically and ecologically 
important stocks.
    As such, we are concerned that the Beaufort Lab's closure presents 
a serious risk of disruption and loss of menhaden expertise. The Lab 
currently houses personnel with nearly a century of combined experience 
with the Atlantic and Gulf menhaden fisheries-biologists who provide 
aging data for the stock assessment and who have tracked and analyzed 
the fisheries for decades. It is nearly a certainty that longest 
serving and most knowledgeable staff will not make transition to a new 
location. If the assessment scientists likewise choose to remain in 
North Carolina, the National Marine Fisheries Service (``NMFS'') would 
essentially be faced with starting its menhaden program from the 
ground-up, if it chooses to continue it at all.
    While the menhaden industry has received assurances that NOAA 
Fisheries is committed to continuing to provide support for these 
fisheries, we remain concerned for the future. Given that the States 
take the lead in managing the Gulf and Atlantic menhaden fisheries, it 
is not difficult to imagine NMFS deciding, as an additional cost-
cutting measure, to forgo its role entirely.
    It also should not be overlooked that Beaufort Lab is one of the 
few remaining scientific institutions NMFS has in the Mid-Atlantic 
region. Beaufort is the center of research on Southeast U.S. 
Continental Shelf Large Marine Ecosystem. It houses NMFS scientific and 
management personnel from SEFSC's Miami and Pascagoula Labs doing 
research on fisheries, marine mammals (such as on Northern right 
whales, whose calving areas are off the North Carolina coast), sea 
turtles, and habitats unique to the area. Beaufort is the only NMFS lab 
located in the breeding areas of loggerhead, green, and Kemp's Ridley 
sea turtles in the Northern Recovery Unit. In order to continue these 
lines of study, NMFS would essentially have to recreate the Beaufort 
Lab.
    In short, the Beaufort Lab's closure would create a significant gap 
in our scientific understanding of the Gulf and Mid-Atlantic marine 
systems and fisheries. This action also unnecessarily jeopardizes 
America's largest fishery by volume, the Gulf and Atlantic menhaden 
fisheries. This is simply too much for such negligible potential 
savings. We strongly urge you to support its continued funding.
            Sincerely,
                                             Bret Scholtes,
                               President & CEO, Omega Protein, Inc.
                                              Gregory Holt,
                                President, Daybrook Fisheries, Inc.
                                 ______
                                 
              Prepared Statement of the Planetary Society
    The Planetary Society has serious concerns for the future of NASA's 
Planetary Science Division as proposed in the fiscal year 2015 NASA 
budget request. For the 3rd year in a row, the White House has proposed 
cuts to the program that will ensure the decline of planetary 
exploration over the course of this decade. The core recommendation of 
the National Academy's planetary science decadal survey--the crucial 
balance of small, medium, and flagship missions, combined with steady 
research and technology funding--is not supported by this request, 
which, at $1.28 billion, is nearly $220 million below the recommended 
$1.5 billion per year needed to implement a program consistent with the 
intent of the decadal survey.
    NASA's Planetary Science program has a clear direction provided by 
the Visions and Voyages planetary science decadal survey and has 
maintained a productive, successful, and unprecedented program of 
exploration throughout the past decade. The Curiosity rover is 
approaching the base of an 18,000-foot Martian mountain; the Cassini 
spacecraft has confirmed an underground ocean on Saturn's moon, 
Enceladus; New Horizons will fly by Pluto next year for the first time 
in human history. These are highly engaging, exciting, and compelling 
events delivered by NASA's planetary program. They inspire generation 
after generation of students and the public to embrace science and 
engineering. They dramatically demonstrate the United States' 
engineering and scientific prowess. But despite this, the White House 
has proposed cuts year after year that threaten the health of this 
program.
    Previous actions by the Senate and House Appropriations Committees 
have mitigated the losses to planetary science that would have come 
about had the White House's original requests in fiscal year 2013 and 
fiscal year 2014 been enacted. But even with these partial 
restorations, the United States' scientific exploration of the solar 
system is approaching a nadir not seen since the 1980s. The number of 
new missions launching during the period covered by the current decadal 
survey has dropped by half compared to the previous decade [Figure 1]. 
When Cassini at Saturn and Juno at Jupiter end their missions in 2017, 
there will be no NASA missions exploring the outer planets for the 
first time since the 1970s. Decades of hard-earned capability and 
engineering know-how will be placed at risk just as Europe, India, 
Russia, and China are committing to solar system exploration.
    Even if a new mission to the outer planets were selected tomorrow, 
the United States would still face a minimum 6-year gap. The ``fade to 
black'' predicted by respected NASA veterans Bobby Braun and Noel 
Hinners \1\ has come to pass. The question facing NASA and the Congress 
is how long to make this period last.
---------------------------------------------------------------------------
    \1\ U.S. Planetary Science: Fading to Black. Space News, April 22, 
2013.
---------------------------------------------------------------------------
    The administration's budget proposal ensures a long period of 
darkness. Based on statements within the budget document, the number of 
new planetary science missions in development dwindles to two (Mars 
2020 and the next small-class Discovery mission) by 2016, the lowest 
level in decades. While NASA officials have stated their intention to 
increase the cadence of the Discovery missions by the end of the 
decade, the budget makes no statement to this effect. It also suspends 
one of the major components of a balanced planetary program: the 
medium-class ``New Frontiers'' mission line. If this occurs, exactly 
zero of the competitively-selected medium-class missions recommended by 
the decadal survey for 2013-2022 will be implemented. This represents a 
notable change in policy, as all previous budgets anticipated a new New 
Frontiers opportunity in 2016.
    The administration did take a tentative step towards a mission to 
explore Europa, which would help address the lack of outer planets 
exploration. The Planetary Society wishes to recognize the importance 
of this mission, and we are happy to see NASA and the White House take 
this step.
    Europa, the moon of Jupiter with a vast liquid water ocean, is a 
destination long sought by the scientific community. It ranked as the 
most important flagship mission in the first decadal survey and the 
second-most important in the current decadal survey. Last year's 
discovery of likely water plumes erupting from Europa's south pole only 
served to increase the moon's scientific importance. These plumes 
significantly lower the cost of performing initial analysis of Europa's 
water, as a spacecraft could far more easily fly through and collect 
plume samples instead of landing and boring through a thick ice sheet.
    But the White House requests a mere $15 million to study a low-cost 
Europa mission concept, despite having received over $140 million in 
the past 2 years to advance the Europa Clipper concept mission from the 
Jet Propulsion Laboratory and the Applied Physics Laboratory, which had 
already reduced the cost of a major scientific mission by over 50 
percent from the original decadal concept. To reduce it further, as 
NASA is proposing, raises serious questions of the scientific return 
possible from such a mission. We are all for cost-savings, but we must 
ensure that this once-in-a-generation opportunity to explore Europa 
achieves the preponderance of scientific goals as defined in the 
decadal survey, and sufficiently moves our understanding of Europa to 
the point where NASA could subsequently attempt a landing on the 
surface.
    The timing for the Europa mission, not mentioned in the fiscal year 
2015 request but stated by NASA officials as ``mid-2020s,'' is also a 
concern. We support section 321 of H.R. 2687, the NASA Authorization 
Act of 2013, which sets key policies for planetary missions, including 
the goal to launch by 2021 a major Europa mission that is responsive to 
the decadal survey. A similar provision is now the 2014 NASA 
Authorization bill currently working its way through the House Science 
Committee.
    The administration's budget deserves praise for funding continued 
operations for several existing planetary science missions, notably the 
popular Curiosity rover on Mars and the long-lived Cassini orbiter at 
Saturn. The next major mission to Mars appears to have a reasonable, if 
tight, budget profile that supports its launch in 2020. Additionally, 
the request provides adequate funding to maintain the Department of 
Energy's Plutonium-238 infrastructure and restart program, crucial for 
continued access to destinations where solar power is not feasible. We 
strongly support these decisions, and urge Congress to do so as well.
    But the budget proposal does place the continued operation of two 
functioning planetary spacecraft at risk. Both the Opportunity rover 
and the Lunar Reconnaissance Orbiter are zeroed out in the base 
proposal. Instead, they are moved to the President's Opportunity, 
Growth, and Security Initiative. The Planetary Society believes in 
maximizing taxpayer value for NASA assets by continuing operations as 
long as missions remain scientifically valuable. We fully expect the 
upcoming senior review at NASA to validate the scientific returns of 
both missions, and strongly recommend that both continue operations 
whether or not the OGSI is passed into law.
    The major NASA achievements in planetary exploration slated for 
fiscal year 2015--Curiosity at Mt. Sharp, New Horizons at Pluto, Dawn 
orbiting Ceres--represent what's great about the country. They are bold 
feats of engineering and scientific prowess. They are optimistic--each 
one faced immense challenges that were overcome by careful thought and 
planning. They engage the public with their bold feats of discovery. 
They are also all initiatives from the previous Presidential 
administration.
    Spacecraft take time to design, build, and fly. We are not so much 
concerned for the health of the current set of missions (Opportunity 
and LRO are notable exceptions) so much as we are concerned for the 
health of the program going forward. NASA already faces the biggest gap 
in solar system exploration in decades, and has dropped its launch rate 
for this decade by half, but this can still change. Wise action by the 
Congress and a receptive administration can embrace planetary science 
for what it is: a unique and hard-earned capability that is worth a 
small investment--$1.5 billion per year, less than 9 percent of NASA's 
total budget--to maintain a peerless program of exploration that 
inspires the country.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1: Funding level of NASA's Planetary Science Division from 2003-
2019, adjusted for inflation and displaying the number of missions 
planned to be in development according to NASA Budget requests during 
this period. The average budget for 2003-2013 is $1.5 billion per year. 
Modifications to the budget have been made to preserve programmatic 
consistency. Note that by the end of the decade the Division is working 
on only two new missions while maintaining an aging set of spacecraft 
and funding Pu-238 development, scientific research, NEO detection, and 
instruments on foreign missions. Raw data and methods are available at 
http://planetary.org/planetary-funding-chart.

Note: funding projections suggest that the Discovery 14 mission could 
begin development in fiscal year 2018 or fiscal year 2019, though this 
is unstated in the budget request and therefore not represented here.
                      about the planetary society
    The Planetary Society has inspired millions of people to explore 
other worlds and seek other life. Today, its international membership 
of over 40,000 individuals makes the non-governmental Planetary Society 
the largest space interest group in the world. Carl Sagan, Bruce Murray 
and Louis Friedman founded the Planetary Society in 1980. Bill Nye, a 
long time member of the Planetary Society's Board, serves as CEO.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program
    RISS serves thousands of law enforcement and public safety agencies 
across the country in their effort to successfully resolve criminal 
investigations, apprehend and prosecute offenders, maintain security, 
and ensure officer safety through nationwide deconfliction. Agencies, 
officers, and public safety professionals turn to and rely on RISS to 
access intelligence systems, investigative databases, analytical 
support, training, and a host of other services and resources. RISS is 
a leader and an innovator in technology and investigative support and 
has enabled law enforcement to significantly improve information 
sharing across jurisdictions, resulting in thousands of arrests and 
prosecutions and millions of dollars in seizures. It is imperative that 
these advances continue and be built upon in order to ensure a safer 
Nation. Fiscal year 2015 funding for RISS is requested at $45 million. 
This funding will support the continued operation of the six regional 
intelligence centers, the RISS Technology Support Center, and all of 
RISS's technology, investigative, and deconfliction services and 
resources.
    In fiscal year 2012, RISS's funding was reduced 40 percent from $45 
million to $27 million. RISS continued to provide the best possible 
service and solutions to its agencies and partners. RISS worked 
diligently to maintain its core services and secure infrastructure. In 
addition, RISS was asked by numerous agencies, including many Federal 
agencies, to participate in initiatives and help identify solutions. 
However, in some cases, agencies experienced decreases in analytical 
and investigative case support, training, and other investigative 
services. The RISS fiscal year 2013 appropriation was $35 million, a 
significant increase over fiscal year 2012. Because of sequestration 
and administrative fees, however, RISS's net funding for fiscal year 
2013 was $29.5 million. The fiscal year 2014 appropriation included 
RISS at $30 million. After administrative fees are applied, however, 
RISS's allocation will be $27 million--less than fiscal year 2013. The 
fiscal year 2015 President's budget includes RISS at $25 million, which 
at that level would exacerbate an already critical situation for the 
local, State, Federal, and tribal agencies RISS serves.
 riss provides secure information and intelligence sharing capabilities
    RISS operates the RISS Secure Cloud (RISSNET)--a sensitive but 
unclassified (SBU) law enforcement cloud provider. RISSNET connects 
disparate systems, provides bidirectional sharing, and offers a 
federated search of connected systems. RISSNET serves as the secure 
infrastructure for hundreds of critical resources and investigative 
tools. The owners of these resources rely on RISSNET for its secure 
infrastructure. Currently, 84 systems are connected or pending 
connection to RISSNET. Without RISSNET and the hundreds of resources it 
supports, agencies would be greatly limited in their ability to 
retrieve, exchange, and use information to prevent and solve crimes.
    Examples of RISS-developed resources accessible via RISSNET include 
the RISS Criminal Intelligence Database (RISSIntel), the RISS Officer 
Safety Event Deconfliction System (RISSafe), the RISS Officer Safety 
Web site, the RISS National Gang Program (RISSGang), the RISS Automated 
Trusted Information Exchange (ATIX), and the RISSLeads Investigative 
Website. RISS also develops secure hosted websites for partners to 
share information, post materials, and communicate. There are more than 
30 sites housed on RISSNET, including the Assured SBU Network 
Interoperability Working Group, the National Interagency Fire Center, 
the Medicaid Fraud Control Units, the Medicaid Integrity Institute, and 
the Federal Law Enforcement Training Center.
    The RISSIntel user interface provides for a real-time, online 
federated search of more than 35 RISS and partner intelligence 
databases, including State systems, the California gang intelligence 
system (CalGang), and systems connected via the National Virtual 
Pointer System (NVPS). This search does not require the RISSNET user to 
have a separate user account with the respective partner systems. This 
simplified sign-on approach enables officers to save time and quickly 
retrieve critical information. Millions of records are available via 
RISSIntel and bidirectionally from connected partner systems.
    The RISSGang Program consists of the RISS National Gang 
Intelligence Database, the RISSGang Website, and information resources. 
The database provides law enforcement agencies with access to gang 
records, including suspects, organizations, weapons, photographs, and 
graffiti. The website provides resources, information, and 
publications. RISS completed a system-to-system interface between 
RISSIntel/RISSGang and CalGang, enabling authorized users to initiate a 
federated search. RISS completed the connection to the Bureau of 
Alcohol, Tobacco, Firearms and Explosives' GangNet and is working to 
connect other gang systems.
    RISS ATIX provides a secure platform for law enforcement, public 
safety, first responders, and the private sector involved in securing 
our Nation from terrorism and other disasters to share information. 
Community groups include local, county, State, and tribal levels of 
emergency management, law enforcement, and government, as well as 
public and private utilities, transportation, agriculture, chemical 
manufacturing, private security, environmental protection, banking and 
finance, and hospitality industries. The RISS ATIX resources include 
secure Web pages, secure discussion forums, a document library, and 
secure e-mail.
    Each RISS Center maintains a secure Web site to provide users with 
access to RISSIntel, other RISSNET resources, and investigative 
systems, such as the RISS Property and Recovery Tracking System, the 
Cold Case Database, and the Pseudo Violator Tracking System. The number 
of investigative records available through these different systems 
exceeds 37 million. During fiscal year 2013, more than 73 million 
transactions occurred via RISSNET.
            riss supports the nation's public safety mission
    RISS is a key player in Federal information sharing initiatives. 
RISS supports and partners with Federal agencies, such as the Law 
Enforcement National Data Exchange (N-DEx); the Federal Law Enforcement 
Training Center; the Office of the Program Manager, Information Sharing 
Environment (PM-ISE); the Homeland Security Information Network (HSIN); 
the National Criminal Intelligence Resource Center; the United States 
Secret Service's Targeted Violence Information Sharing System; the 
Medicaid Fraud Control Units; and the National Motor Vehicle Title 
Information System.
    The N-DEx and RISS Information Sharing Partnership aims to expand 
the availability of case management, investigative, and intelligence 
data as well as critical analytical tools. Access to N-DEx will be 
available to authorized RISSNET users via the Law Enforcement 
Enterprise Portal without requiring an additional username or password. 
This capability enables officers to obtain needed information quickly, 
saves officers' time, streamlines operations, and enhances law 
enforcement's ability to respond to crime in their community 
effectively and efficiently. This effort was launched in the Rocky 
Mountain Information Network (RMIN), a RISS Center, and plans are under 
way to expand it to the other RISS Center regions throughout 2014.
    RISS is the only non-Federal entity participating in the Assured 
SBU Interoperability Initiative under the auspices of the White House 
and the PM-ISE. This initiative seeks to expand federated access to 
resources and to provide simplified sign-on capabilities for officers 
to access multiple systems simultaneously. RISS is at the forefront in 
providing simplified, federated access. More than 18,000 users from 
trusted partner systems are using Federated Identity to access RISSNET 
resources. In addition, RISS built and hosts the NVPS Message Hub to 
provide access to the NVPS participant agencies and to RISS member 
agencies that submit records to the RISSIntel databases via RISSNET. 
Through these partnerships, RISS offers cost-effective and time-saving 
solutions while further strengthening information sharing, public 
safety, and officer safety.
    The RISS Centers have strong partnerships with fusion centers. 
Almost all fusion centers have access to RISSNET. RISS intelligence 
analysts interact daily with staff at various fusion centers. Some 
analysts are collocated. RISS provides technical on-site assistance to 
fusion centers to integrate RISS services and resources into their 
daily operations and coordinates the delivery of RISS services with 
fusion center personnel. During fiscal year 2013, RISS initiated the 
Northeast Fusion Center Intelligence Project, which will connect 17 
existing fusion centers' intelligence systems to RISSIntel via RISSNET. 
By leveraging RISSNET and RISSIntel, fusion centers can securely share 
intelligence data among themselves and other entities and analyze 
criminal and terrorism data across jurisdictional boundaries, while 
safeguarding privacy and civil liberties.
    RISS is supported by the International Association of Chiefs of 
Police, the National Sheriffs' Association, the National Narcotic 
Officers' Associations' Coalition, the National Alliance of Gang 
Investigators Associations, and many others. RISS's partnerships have 
resulted in an unprecedented level of information and intelligence 
sharing.
           riss enhances officer safety through deconfliction
    RISSafe is an essential component in helping to ensure officer 
safety. RISSafe stores and maintains data on planned law enforcement 
events--such as raids, controlled buys, and surveillances--with the 
goal of identifying and alerting affected agencies and officers of 
potential conflicts impacting law enforcement efforts. The interaction 
between RISSafe and RISSIntel provides comprehensive officer safety 
event and subject deconfliction services. RISSafe Mobile enables 
officers to access RISSafe from their smartphones and other mobile 
devices. RISSafe is accessible and monitored on a 24/7/365 basis and 
available at no cost to all law enforcement agencies regardless of RISS 
membership. It is impossible to put a monetary value on the number of 
officers that RISSafe has helped protect from harm or, worse, death.
    Since its inception, more than 757,000 operations have been entered 
into RISSafe, resulting in more than 263,000 identified conflicts. 
Currently, 22 RISSafe Watch Centers are operational, 16 of which are 
operated by organizations other than RISS, such as State agencies, 
fusion centers, and High Intensity Drug Trafficking Areas (HIDTA). As 
of March 4, 2014, RISSafe and HIDTA's Case Explorer have been connected 
in the six RISS regions. Work is under way to expand connectivity with 
other deconfliction partners.
    The RISS Officer Safety Website serves as a nationwide repository 
for issues related to officer safety, such as concealments, hidden 
weapons, armed and dangerous threats, officer safety videos, special 
reports, and training.
         riss provides critical investigative and case support
    RISS offers law enforcement agencies and officers comprehensive 
investigative services, from the beginning of an investigation to the 
ultimate prosecution and conviction of criminals. An officer can 
simultaneously query connected intelligence databases; retrieve 
information from specialized investigative databases and resources; use 
analytical products, such as crime scene diagrams, link-analysis 
charts, digital forensics, and audio/video services; solicit assistance 
from research staff to help sift through information, conduct research, 
and help identify the missing piece of the puzzle; borrow surveillance 
and investigative equipment; obtain training on new and emerging 
topics; and access critical publications and law enforcement-sensitive 
briefings. In fiscal year 2013, the RISS Centers developed 27,015 
analytical products, loaned 4,062 pieces of specialized equipment, 
responded to 210,404 requests for research and technical assistance, 
and trained 46,579 individuals.
    RISS is an excellent return on investment for our Nation. Over the 
last 10 years, officers leveraging RISS's services arrested almost 
48,000 offenders and seized more than $765.8 million in narcotics, 
property, and currency. Without RISS's services and resources, 
criminals, drugs, stolen property, and other contraband might still be 
on our streets. Every day, officers use RISS to help solve cases and 
stay safe. To view success stories from every State and other 
information regarding RISS, visit www.riss.net/Impact.
    It would be counterproductive to require local and State RISS 
members to self-fund match requirements or to reduce the amount of 
Bureau of Justice Assistance discretionary funding. Agencies require 
more funding to fight the Nation's crime problem. RISS is unable to 
make up the decrease in funding that a match would cause, for it has no 
revenue source of its own. RISS has been instrumental in breaking down 
the communications barriers among the criminal justice community and 
providing seamless access to critical information, intelligence, and 
investigative resources. RISS is A Proven Resource for Law Enforcement. 
RISS's services and programs directly impact law enforcement's ability 
to successfully resolve investigations and prosecute criminals while 
providing the critical resources and officer safety deconfliction 
necessary to safeguard law enforcement officers and citizens. With the 
ongoing threats to our communities and Nation, more support for RISS is 
needed, not less. RISS is grateful to provide this testimony at your 
request and appreciates the support this committee continuously 
provides to the RISS Program.
                                 ______
                                 
                 Prepared Statement of Research!America
    Research!America, a public education and advocacy alliance 
committed to advancing medical and other scientific research and 
development, appreciates the Senate Committee on Appropriations 
Subcommittee on Commerce, Justice, Science and Related Agencies' 
stewardship over such a critical subset of our Nation's discretionary 
funding priorities. As the subcommittee begins the process of 
prioritizing fiscal year 2015 funding, we urge you to consider the 
following thoughts on the National Science Foundation (NSF) which is 
entrusted with sustaining our Nation's sophisticated research 
infrastructure, partnering with the private sector to accelerate 
innovation, and maintaining our global leadership. For fiscal year 
2015, we request that the National Science Foundation receive at least 
$7.6 billion in Federal funding to allow its continued growth as a 
driver for basic research.
    The National Science Foundation (NSF) plays a pivotal role in 
advancing basic and social sciences research. The funding, or lack of 
it, allocated to NSF will bear on our Nation's ability to compete in 
key export markets within the global economy, foster business 
development that grows and maintains jobs across the country, utilize 
social sciences research for more efficient Federal spending based on 
advanced understanding of the use of social services, devise evidence-
based strategies for empowering Americans to overcome the need for such 
services, meet our solemn obligations to our troops, bolster national 
security, and ensure top-line education for scientists and medical 
researchers at our Nation's colleges and universities. The stakes truly 
are that high.
                     nsf as an innovation incubator
    In fiscal year 2015, we urge you to fund NSF with at least $7.6 
billion to continue the trajectory of increased basic research which is 
so critical to society. NSF supports research in fundamental sciences 
and engineering to keep the United States at the forefront of 
scientific discovery. The source of approximately 21 percent of all 
federally funded basic research, NSF funds over 300,000 scientists, 
engineers, educators, and basic researchers through more than 11,000 
grants annually. The fruits of NSF basic research are integral to our 
Nation's innovation cycle. Countless innovations that Americans depend 
on every day, like laser technologies and Internet search functions, 
are products of NSF-supported research. NSF has also supported the work 
of more than 200 Nobel Prize winners in the past 60 years.
nsf as a conduit to evidence-based, strategic use of government dollars
    NSF's support of social sciences research is grossly underestimated 
in its value to taxpayers, the wellbeing of children and other 
vulnerable populations, and the prosperity of our Nation. Designing and 
executing social services programs without evidence-based foundations 
is akin to shooting in the dark, wasting resources, and comprising the 
mission. When you think of child welfare programs, the need for social 
sciences research is crystal clear. It would be tragic if programs 
inadvertently created disincentives for proper foster care, for 
example. Social sciences research enables a better understanding of 
international markets, boosting the ability of businesses to succeed in 
our globalized economy. It is a dangerous mistake to dismiss the 
importance of such research.
                           nsf as an educator
    In an era when a capable scientific workforce is crucial, NSF funds 
the education and training of the future STEM staff and leaders through 
various K-12, undergraduate, and graduate education programs. The only 
agency with a federally-mandated mission requiring incorporation of 
science and engineering education in all funded research, NSF helps to 
develop skilled researchers who not only extend scientific innovations 
but also educate future generations. For more than 20 years, the 
Advanced Technological Education program (ATE) has offered scientific 
educational support and opportunities to more than 54,000 undergraduate 
and associate degree students via almost 300 active grants. Without 
sufficient Federal funding, fundamental educational programs like ATE 
are at risk for cutbacks which will weaken the future scientific 
workforce of America and hinder our countries growth as a global 
innovator.
                  the threat of sequestration's return
    The Ryan-Murray Bipartisan Budget Act provided America with 2 years 
of partial relief from sequestration after across the board budget cuts 
dramatically impacted the Nation's research capability in March 2013. 
Unfortunately, sequestration will go back into full effect in 2016 
unless Congress takes action, and it will be in effect for 2 years 
longer than originally established under the 2011 Budget Control Act. 
The return of sequestration's budget cuts to discretionary spending, 
including that for NSF, poses potentially devastating setbacks to our 
Nation's research. Short-changing scientific innovation and basic 
research is not a solution to the Federal deficit or debt. For example, 
neglecting medical research undercuts strategies to fight chronic 
disease and the multipronged Federal costs that arise from it, while 
squandering opportunities to increase private sector and Federal 
revenues through new medical innovations.
    Research!America appreciates the difficult task facing the 
subcommittee as it seeks to simultaneously confront the budget deficit, 
strengthen the United States, and promote the well-being of Americans. 
There are few Federal investments that confer as many benefits as 
medical research--new cures, new businesses, new jobs, new solutions to 
healthcare cost inflation, and new fuel to drive U.S. leadership in a 
global economy shaped by the ability of countries to continuously 
innovate. We firmly believe that investing in NSF is a means of 
advancing our Nation's innovative capacity in both the short- and long-
term. Thank you for your leadership and consideration; we know that 
your task is extraordinarily difficult, and that our Nation is 
fortunate to have such pragmatic, committed and gifted leaders at the 
helm.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for the Nation. Restore America's Estuaries is a 
national alliance of community-based coastal conservation organizations 
across the Nation that protect and restore coastal and estuarine 
habitat. Our member organizations include: American Littoral Society, 
Chesapeake Bay Foundation, Coalition to Restore Coastal Louisiana, Save 
the Sound--a program of the Connecticut Fund for the Environment, 
Conservation Law Foundation, Galveston Bay Foundation, North Carolina 
Coastal Federation, EarthCorps, Save The Bay--San Francisco, Save the 
Bay--Narragansett Bay, and Tampa Bay Watch. Collectively, we have over 
250,000 members nationwide.
    As you craft your fiscal year 2015 Commerce, Justice, Science and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA) for core programs which greatly support coastal community 
economies:

  --$24 million for Fisheries Habitat Restoration
    (CJS: NOAA: ORF: NMFS: Habitat Conservation & Restoration: 
        Fisheries Habitat Restoration)

  --$3 million for the Coastal and Estuarine Land Conservation Program 
        (CELCP)
    (CJS: NOAA: PAC: NOS: CELCP Acquisition)

  --$22.9 million for National Estuarine Research Reserve System
    (CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
        National Estuarine Research Reserve System)

  --$1.7 million for National Estuarine Research Reserve Construction
    (CJS: NOAA: PAC: NOS: NERRS Construction)

    These non-regulatory investments strengthen and revitalize 
America's communities by buffering against storms, supporting 
commercial fisheries, preventing erosion, protecting vital 
infrastructure, eliminating public safety hazards, and providing new 
recreational opportunities.
   noaa, fisheries habitat restoration--community-based restoration 
                                program
(CJS: NOAA: ORF: NMFS: Habitat Conservation & Restoration: Fisheries 
        Habitat Restoration)
    NOAA's Fisheries Habitat Restoration line provides critical funding 
for the Community-based Restoration Program and newly transferred 
Estuary Restoration Program which was transferred to NMFS in fiscal 
year 2014 from the National Ocean Service. The request includes a 
modest $3.3 million increase above fiscal year 2014 enacted levels for 
the Community-based Restoration Program to allow funding of new 
projects in fiscal year 2015, while maintaining current funding levels 
for the Estuary Restoration Program.
    NOAA's Community-based Restoration Program (CBRP), accomplishes on-
the-ground projects to restore the Nation's coastal, marine, and 
migratory fish habitat. The program provides technical expertise--
including engineering, construction, and monitoring--as well as funding 
to regional and national partners, and directly to local communities to 
carry out science-based restoration projects. Federal investments in 
restoration are highly leveraged with local, State, and private funds 
to provide long-lasting benefits to communities and economies.
    The community-engagement aspect of the program is critical to long-
term restoration efforts because restoration projects occur over time 
and require long-term community support. To date, the program has been 
highly successful at improving the health of coastal habitats across 
the Nation, benefiting both the environment and the economy through 
partnerships involving community members in direct, hands-on service. 
By working collaboratively with more than 1,500 organizations, the 
program has restored over 97,000 acres of habitat and involved more 
than 290,000 volunteers, contributing more than 1 million volunteer 
hours.
    We also request the committee include report language strongly 
encouraging NOAA to implement programmatic enhancements in fiscal year 
2015 to ensure inclusion of a broader, ecosystem-based management 
philosophy and expand their selection criteria. We would strongly 
support the following report language and urge the committee to include 
the following:
        The Committee maintains strong support for the Community-based 
        Restoration program. The committee recognizes the importance of 
        fish habitat restoration for threatened and endangered species. 
        The Committee also recognizes the importance of habitat 
        restoration activities for protecting communities, preventing 
        species from being listed, and providing enhanced tourism and 
        recreational opportunities. Moving forward, the committee urges 
        NOAA to implement the following recommendations: (A) Expand 
        criteria for project selection to include a broader ecosystem-
        based management philosophy and expand criteria to 
        recreationally important species, managed commercial species, 
        and their forage species; (B) Select diversity of project sizes 
        based on watershed impact and prioritize proposals that include 
        multiple projects in single watersheds, in addition to 
        individual large projects; (C) Encourage public and direct 
        community engagement: from training seminars to volunteer 
        engagement; (D) Support overarching science investments to 
        advance monitoring, improve techniques, and advance valuation.
    In the fiscal year 2014 omnibus appropriations, the Estuary 
Restoration Program was transferred from the National Ocean Service to 
the National Marine Fisheries Service under the Fisheries Habitat 
Restoration line without additional funding. The Estuary Restoration 
Act established a comprehensive interagency organization, the Estuary 
Habitat Restoration Council, which is comprised of five key Federal 
restoration agencies and leads a coordinated approach to enhance 
estuary habitat restoration. Under the Act, NOAA is responsible for 
maintaining the National Estuaries Restoration Inventory (NERI).
    In November 2012, the Estuary Habitat Restoration Council approved 
the 2012 Estuary Habitat Restoration (EHR) Strategy and 5-year action 
plan. The action plan identifies outcomes and milestones to ensure that 
restoration efforts are coordinated, evaluated, and tracked across 
agencies with the goal of ensuring efforts are effective and efficient. 
Without modest funding, cross-agency collaboration will be disrupted, 
causing duplicative and potentially clashing efforts.
    Restore America's Estuaries urges your continued support of the 
Estuary Restoration Council and NOAA's Estuary Restoration Program and 
asks that you provide no less than $500,000 within requested funding 
for fiscal year 2015.
     noaa, coastal and estuarine land conservation program (celcp)
(CJS: NOAA: PAC: NOS: CELCP Acquisition)
    The Coastal and Estuarine Land Conservation Program (CELCP) was 
created in 2002 to provide State and local governments with matching 
funds needed to protect the most significant coastal and estuarine 
areas under threat of development and not presently protected through 
regulatory mechanisms. CELCP is the only Federal land protection 
program with an explicit focus on coastal lands and natural resources.
    The program is implemented cooperatively with willing sellers and 
matched with State and local funds, often playing a key role in uniting 
local, State and Federal efforts to protect an area. While our Nation's 
coastal protection need is far greater, Restore America's Estuaries 
respectfully requests $3 million in funding for the program in fiscal 
year 2015 to ensure the future of this critical tool for coastal 
habitat conservation. This investment will allow the program to 
continue to address our Nation's most pressing coastal resource needs, 
especially in an age of increasing extreme weather and other coastal 
hazards.
        noaa, national estuarine research reserve system (nerrs)
(CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
        National Estuarine Research Reserve System)/(CJS: NOAA: PAC: 
        NOS: NERRS Construction)
    The National Estuarine Research Reserve System (NERRS) is comprised 
of 28 protected reserves that support long term research, education, 
training, and stewardship. Through an effective partnership between 
NOAA and coastal States, the NERRS plays a critical role in sustaining 
resilient coasts and coastal communities.
    The States have been entrusted to operate and manage NOAA's program 
in 22 States and Puerto Rico, where over 1.3 million acres of land and 
water are protected in perpetuity.
    Restore America's Estuaries respectfully requests $22.9 million for 
NERRS operations in fiscal year 2015. At this funding level, the 28 
existing reserves will maintain level funding and provide support for 
the addition of the 29th reserve in Hawaii. The designation of a Hawaii 
NERR will fill an unrepresented bio-geographic region in the NERR 
system.
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Through science and science-based management of more than 1.3 
million acres of protected land, NERRS provides numerous benefits to 
communities that result in improved water quality, increased upland 
flood and erosion control, and improved habitat quality that support 
local fisheries and provide storm protection to coastal communities.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:

  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested. That's more than twice as many 
        jobs as the oil and gas sector and road construction industries 
        combined.

  --More fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.

  --Resiliency.--Restoring coastal wetlands can help knock down storm 
        waves and reduce devastating storm surges before they reach the 
        people and property along the shore.

  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.

    Thank you and we greatly appreciate you taking our requests into 
consideration as you move forward in the fiscal year 2015 
appropriations process. We stand ready to work with you and your staff 
to ensure the health of our Nation's estuaries and coasts.
                                 ______
                                 
 Prepared Statement of Roffer's Ocean Fishing Forecasting Service, Inc.
                                                    April 22, 2014.
    Dear Senators: I am president of Roffer's Ocean Fishing Forecasting 
Service, Inc. I am writing this testimony to ask you to keep the 
Beaufort, North Carolina National Marine Fisheries Laboratory open.
    This lab has a long history of cooperative research with the Duke 
University, North Carolina State University, and University of North 
Carolina-Chapel Hill, among many others. We have had positive 
experiences working with staff at this lab over many years. While being 
well known for working with Atlantic menhaden, sea grasses, red tide, 
and salt marshes they are integrated in the stock assessment process of 
many species from king mackerel to snappers and groupers, triggerfish 
and other coral reef species, shrimp, as well as, turtles and marine 
mammals. See http://www.sefsc.noaa.gov/labs/beaufort/ for more details 
on their important work including their work with the Chevron fishery 
independent survey. They work with the head boat fisheries as well.
    National Oceanic and Atmospheric Administration (NOAA) had recently 
invested in approximately $14 million in upgrades. It has been 
estimated that this lab affects $58 million into the local economy 
(http://www.newsobserver.com/2014/04/01/3750561/false-savings-in-
cutting-beaufort.html) and it seems to us that this investment should 
be allowed to generate intellectual profit.
    These are critical times in fisheries management and we need the 
contributions from these scientists and staff. This important research 
laboratory has had a renowned history since its origin in 1899. It is 
the second oldest marine laboratory in the United States. It presently 
employs approximately numerous people, including scientists who are 
recognized both internationally, nationally and regionally for the 
excellent quality work they do to support objective ecosystem based 
fisheries management. They may not be seen as a high profile lab. as is 
the Miami Laboratory, but they are the only Federal Fisheries lab 
between Miami, Florida, and Sandy Hook, New Jersey. In my opinion we 
don't need less labs studying fish and our fisheries for improved 
management, we need more. Present employees at other National Marine 
Fisheries Service (NMFS) labs are already over subscribed and stretched 
thin.
    It seems to me that this laboratory may be being closed more for 
political reasons rather than objective ones.
    Bottom line: Keep this laboratory open. Perhaps assign it 
completely to NOAA NMFS and not NOAA National Ocean Service (NOS). Also 
more money should be invested in fisheries independent research, 
advanced procedures in stock assessment, fisheries oceanographic 
research, and for ocean observations.
            Sincerely,
                                 Mitchell A. Roffer, Ph.D.,
                                                         President.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    Chairman Wolf and distinguished members of the subcommittee, I am 
George L. Thurman, Principal Chief of the Great Sac and Fox Nation. 
Thank you for accepting this written testimony which presents to you 
our tribal priorities for funding programs with the Office of Justice 
Services, Department of Justice.
    We understand the fiscal constraints of the country but feel that 
there is budget inequity for tribal program funding which has been 
further impacted with the cuts we incurred due to the 2013 sequester. 
Tribes should not be unfairly targeted for reductions and rescissions 
and forced to bear the fiscal constraints of this country alone. A key 
intent of the Murray/Ryan budget deal was to soften the blow of the 
sequester for Indian Country but unfortunately that was not the case.
    As you consider the 2015 appropriations for the Office of Justice 
Programs, we ask that you exempt tribes from any further sequestration.

    1.  Fully fund the Tribal Law and Order Act as authorized.
    2.  Fully fund the Violence Against Women Act.
    3.  Tribal Grants--Utilize the Department of Justice (DOJ) 
appropriations as base funding with tribes setting own priorities.
    4.  Tribal set-aside from all discretionary Office of Justice 
programs.

    The Sac and Fox Nation also support the appropriations requests of 
the National Congress of American Indians.
                      about the sac and fox nation
    The Sac and Fox Nation is headquartered in Stroud, Oklahoma, and 
our tribal jurisdictional area covers Lincoln, Payne, and Pottawatomie 
Counties. Of the 4,000 enrolled tribal members, 2,600 live in Oklahoma. 
We are proud to pay tribute to a Sac and Fox descendent and Great 
Native American, Jim Thorpe. One of the most revered Olympic athletes 
who has ever represented the United States; Mr. Thorpe won the 
pentathlon and decathlon in the 1912 Olympics.
           fully fund tribal law and order act as authorized
    The Tribal Law and Order Act (TLOA) had three basic purposes:

    1.  Make Federal departments and agencies more accountable for 
serving Native peoples and land;
    2.  Provide greater freedom for Indian tribes and nations to design 
and run their own justice systems; and
    3.  Enhance cooperation among tribal, Federal and State officials 
in key areas such as law enforcement, training, interoperability and 
access to criminal justice information.

    The Sac and Fox Nation operates a Juvenile Detention Center which 
provides services to 46 tribes in Oklahoma, Kanas and Texas, as well as 
the State of Oklahoma. We are anxious to advance the opportunities that 
TLOA can offer to further expand and increase access to our facility. 
However, unless TLOA is fully funded, facilities such as ours will not 
be able to attain the full potential and help to guide children in the 
system towards a successful future.
    The full potential of TLOA cannot be realized or implemented 
without sufficient resources for tribal justice systems and ongoing 
coordination and consultation between tribal governments and various 
Federal agencies. DOJ recognizes the importance of completing the 
circle when it issued the ``Proposed Statement of Principles'', in 
which is referenced that a stable funding at sufficient levels for 
essential tribal justice functions is critical to the long-term growth 
of tribal institutions.
          fully fund violence against women act as authorized
    We applaud the work of Indian Country and Congress to successful 
get a comprehensive Violence Against Women Act reauthorized. Prior to 
this bill Native women were denied equal access to justice. Thank you 
for helping us to protect our mothers, daughters, sisters and wives 
from jurisdictional gaps or safe havens for criminals. But without 
appropriations, this is an idle victory. We urge you to fully fund at 
the authorized amount.
 tribal grants--utilize doj appropriations as base funding with tribes 
                         setting own priorities
    Eliminate the competitive grant funding process and utilize Justice 
Department appropriations as base funding where tribes and tribal 
courts themselves determine their own priorities.
    Competitive funding for tribal priorities is a no win situation 
that continues to pit tribe against tribes. One of the biggest issues 
with DOJ funding is that it is competitive. In order to obtain the 
funding--on behalf of their tribal courts--tribes must compete against 
each other based on DOJ's priorities and guidelines rather than 
identifying their own priorities to best serve their citizens at the 
local level.
    Instead the approach should be to utilize DOJ appropriations as 
base funding so that tribes are encouraged to determine their 
priorities. It appears that DOJ understands this concept inasmuch as it 
posed the idea of base funding in the form of a block grant during 
tribal consultation on the Office of Violence Against Women (OVW). We 
propose that DOJ not merely propose this for OVW but consider this for 
appropriations across the board.
            tribal set-aside from office of justice programs
    Create a 7 percent tribal set-aside from all discretionary Office 
of Justice programs funding. Ensure that they are allocated as flexible 
base funding. Also, provide funding above the fiscal year 2010 level 
for each formerly separate program area including tribal courts, jail 
construction, legal assistance, juvenile delinquency prevention and 
substance abuse prevention.
    The 7 percent set-aside was cut in the passage of the fiscal year 
2012 Consolidated and Further Continuing Appropriations Act. As a 
result tribal justice programs were cut across the board and continue 
to struggle to address the increasing need of these funds which were 
further impacted by the sequestration.
    Again, thank you for this opportunity.
                                 ______
                                 
   Prepared Statement of Zeb Schobernd, Morehead City, North Carolina
    Dear members of the subcommittee,

    I am writing to strongly urge the subcommittee to reject the 
proposal in the President's fiscal year 2015 budget to close the 
National Oceanic and Atmospheric Administration (NOAA) laboratory in 
Beaufort, North Carolina, and to instead fund this facility so that the 
crucial work being done there can continue on into the future. This 
laboratory is uniquely located to address key marine science issues 
throughout the east coast of the U.S., and its loss would represent a 
devastating blow to the fisheries interests in the region. The decision 
to try and close the Beaufort facility represents a narrow-minded 
approach to a temporary funding concern that is dwarfed in comparison 
by the potential damage done to the research conducted on the marine 
resources in the southeast. While I am addressing the subcommittee as a 
private citizen concerned about this issue and not representing the 
interests of any Federal agency or my employer, I have been a 
contractor for NOAA for most of the past decade and can attest to both 
the quality of the research done at this facility and the harm that 
would be caused by its closing.
    The financial reasons given by the leadership of the National Ocean 
Service (NOS) for closing the Beaufort facility and have been 
misrepresented and overblown. In their justification for closing the 
lab, NOS cited only the NOS employees that would be impacted, grossly 
underestimating the total number of workers at the site. In addition to 
NOS, the lab also houses National Marine Fisheries Service (NMFS) and 
National Estuarine Research Reserve System (NERRS) programs; between 
the three groups there are 108 Federal, State, and contract employees 
at the facility, a much larger disruption of staff than initially 
claimed. Additionally, NOS cited a cost of future maintenance repairs 
to the facility that was outdated and did not take into account recent 
work that has been done to upgrade the laboratory and its 
infrastructure. Since 2006, approximately $14 million in repairs and 
upgrades have been accomplished, including the replacement of multiple 
buildings. The closure of this facility, after so much has been 
invested in its improvement in recent years, seems like a clear waste 
of taxpayer money, especially given that a 2014 report showed that the 
facility is structurally sound.
    Beyond the financial considerations, however, the closure of the 
Beaufort lab would be a grave error because of the loss of high-quality 
science and scientists associated with the facility. Located at the 
intersection of two distinct marine environments, the NOAA laboratory 
in Beaufort is uniquely situated to study one of the most diverse 
ecosystems in the country. The lab is an international leader in 
studies of harmful algal blooms (HABs) and the invasion of lionfish 
into the waters of the Atlantic Ocean, both of which are currently 
having a significant impact on the fisheries resources of the United 
States. The NMFS programs at the lab are responsible for the assessment 
of the major marine fisheries stocks in the southeast, including 
menhaden (the largest fishery along the Atlantic coast as well as in 
the Gulf of Mexico) and the commercially and recreationally important 
snapper and grouper fisheries. NMFS in Beaufort also provides the only 
up-to-date information on the currently-closed red snapper fishery 
along the southeast coast through its SouthEast Fishery-Independent 
Survey. All of these programs would suffer irreparable damage were the 
lab to close because NOAA would be unlikely to retain the world-class 
scientists performing this research in the event their Federal 
positions were transferred to other NOAA facilities in the southeast; 
the NOAA lab is part of a unique conglomeration of research facilities 
in the Beaufort area, and the majority of employees would very likely 
try and remain in the area at a different institution rather than 
relocate to a less desirable location. Thus, NOAA (and NMFS in 
particular) would be forced to rebuild these programs from scratch, 
programs that are required to meet congressional mandates laid out in 
the Magnuson-Stevens Fishery Conservation and Management Act. Just as 
importantly for NMFS, the closure of the Beaufort facility would mean 
that the Fisheries Service would not have a presence along the coast 
between Sandy Hook, New Jersey and Miami, Florida--an extent that 
covers over two-thirds of the United States east coast. It is difficult 
for the agency to claim they are interested in conserving the marine 
resources of the southeast with such a large spatial gap in 
representation, especially compared to five NMFS research facilities in 
the Gulf of Mexico and another five in the northeast.
    In summary, the closing of the NOAA facility in Beaufort is bad 
policy--it is a squandering of taxpayer funds, it is a major detriment 
to the science being conducted in the southeast, and it makes it more 
difficult for NMFS to maintain the quality of the work it is federally 
mandated to achieve. The laboratory in Beaufort has been operating 
continually since 1899 and was sited here specifically because of its 
advantageous position so close to so many of our Nation's valuable 
marine resources; Congress owes it to our country to make sure the 
high-quality work done here continues on for the next 115 years.
                                 ______
                                 
 Prepared Statement of Dr. Amy M. Schueller, Research Fishery Biologist
    I am writing the following letter as a private citizen on behalf of 
myself during off-duty hours using only personal resources. I am not 
speaking for the Federal Government or any of its agencies in any 
capacity.
    I am writing to specifically discuss the proposed closure of the 
National Oceanic and Atmospheric Administration (NOAA) Beaufort 
Laboratory located in Beaufort, North Carolina. The lab is part of the 
Department of Commerce, National Oceanic and Atmospheric Administration 
and houses employees of the National Marine Fisheries Service (NMFS), 
National Ocean Service (NOS), and National Estuarine Research Reserve 
(NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, CMAST, and the Institute of Marine Science. The 
NOAA Beaufort Laboratory is the center of productive fisheries science 
informing fisheries management for the Atlantic and Gulf coasts and is 
currently the only NMFS lab between Sandy Hook, New Jersey, and Miami, 
Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . . $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S.Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              -- 177 educational programs
              -- 4947 participants
                  Teacher workshops
              -- 28 teacher workshops
              -- 412 participants
                  Summer camps
              -- 109 camp sessions
              -- 921 participants
                  Summer public field trips
              -- 96 field trips
              -- 1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              -- 1170 volunteers
              -- 2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                  Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              -- 31 workshops
              -- 1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
         Prepared Statement of Scientific Diving International
    Dear Chairwoman Mikulski: I am a marine scientist who has had 
extensive experience in marine bivalve fisheries. I write to offer my 
opinion regarding the proposed closing of the National Oceanic and 
Atmospheric Administration (NOAA) Beaufort laboratory in Beaufort, 
North Carolina. This laboratory has a long and storied history and a 
reputation for excellence within the scientific community. It is also 
positioned in an excellent place to conduct needed research on marine 
finfish and shellfish populations. As these populations come under 
increasing pressure from both commercial and recreational interests the 
work of fisheries scientists become vastly more important.
    The National Marine Fisheries Service (NMFS) has an unparalleled 
staff of scientists that perform critical and necessary work on fish 
and shellfish stocks. Their work has allowed populations of many 
animals to recover and become stable along a number of regions of the 
U.S. coast. NMFS scientists have a completely unforgiving task and that 
is to prevent the collapse of fisheries stocks and thereby to prevent 
the degradation of coastal marine ecosystems. I say unforgiving because 
although this seems like an honorable goal it means that NMFS 
scientists have to say no to a lot of people, there simple are not 
enough fish to go around.
    Electronics and the Internet have made adequate fishers out of 
people who would have starved in the past. I once visited the small 
town of Cortez in Florida and spoke with a member of one of the 
original Cortez fishing families. When they arrived in Cortez a 
fisherman could feed his family using a row boat or a small sailing 
skiff. The area in front of this gentleman's home he called ``the 
kitchen'' because they could reliably get a family meal from there if 
all else failed. This is not the case any longer nor has it been for 
decades, however in many areas fisheries management has prevented the 
complete collapse of coastal ecosystems. Despite their valiant effort 
fish and shellfish stocks are under constant attack from development 
and overzealous fishers whose only understanding of fisheries 
management boils down to some scientist in a white lab coat taking 
``our'' fish.
    The United States put a lot of effort and financial resources into 
the NMFS and NOAA in the 1960s-1980s but, like any issue, people lose 
interest in issues that are still relevant. Marine research, not just 
for exploitation of resources, is an area that has and will pay 
dividends to our Nation and also to the environment. It is not a time 
to retrench and look only to the bottom line, it is time to renew our 
commitment to a healthy marine environment and ecosystems that can 
sustain reasonable harvest. Please keep the Beaufort Lab open, we 
cannot afford to lose it.
    Sincerely,
                                     Dan C. Marelli, Ph.D.,
                                      President and Diving Officer.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    Madam Chair and members of the subcommittee, my name is LaDon Swann 
and I am the director of the Alabama-Mississippi Sea Grant Consortium. 
I submit this testimony in my capacity as president of the Sea Grant 
Association (SGA). The SGA appreciates very much the steadfast support 
this subcommittee has provided the National Sea Grant College Program 
over the years. As a result, Sea Grant has been able to deliver a 
number of quantifiable benefits to the residents of our ocean and 
coastal communities, which are documented below.
    To continue to achieve a high rate of return on Federal investment 
and to produce meaningful and quantifiable benefits to coastal 
residents in the future, the SGA recommends that the National Sea Grant 
College Program within National Oceanic and Atmospheric Administration 
(NOAA) be funded in fiscal year 2015 at $80 million. The request is 
consistent with the guidance provided in the fiscal year 2012 
conference report that said:

        The Committee recognizes the important role the Sea Grant 
        program plays in connecting coastal and Great Lakes communities 
        with practical research and results, and encourages the growth 
        of this program in future budget requests.

    The National Sea Grant College Program addresses national 
priorities at the local level, by identifying citizens' needs in order 
to help guide State and national research agendas. Sea Grant funds the 
best competitive science at our Nation's colleges and universities. The 
scientific discovery is effectively delivered through Sea Grant's 
robust extension, outreach and education programs to inform public and 
private decisionmaking in order to enhance the practical use and 
conservation of coastal, marine, and Great Lakes resources while also 
expanding economy and maintaining a sustainable environment.
    The administration's fiscal year 2015 request for the National 
College Sea Grant Program is a total of $63.4 million of which $2 
million is for marine aquaculture. This represents a total reduction 
from last year's appropriation of $4 million (from $67.4 million to 
$63.4 million). After reviewing the detailed NOAA budget request sent 
to the Congress, it is clear that important changes to the Sea Grant 
program proposed by the administration are obscured within the bottom 
line requested for the program.
    The Sea Grant Association is deeply concerned with several of the 
proposed changes and believes they are inconsistent with NOAA's own 
strategic plan and reduces Sea Grant's effectiveness at delivering 
important research, education and extension to its State, local, and 
regional partners.
    First, within the budget request NOAA is proposing to terminate 
funding within Sea Grant for all State Sea Grant Program STEM 
activities such as K-12 teacher training, curricula development, and 
education; and Sea Grant/National Marine Fisheries Service (NMFS) 
Graduate Fellowships. This proposal is part of the administration's 
fiscal year 2015 proposal to reorganize Federal funding for STEM 
education, where a total of 31 STEM education programs at nine key R&D 
mission agencies (including NOAA, National Science Foundation (NSF), 
and National Aeronautics and Space Administration (NASA)) will be 
terminated. The Sea Grant Association strongly opposes the termination 
of the education programs both within Sea Grant and elsewhere in NOAA.
    It is important for mission agencies to help support the next 
generation of scientific and technical talent--much of which will be 
needed by these agencies in future years. Education (particularly STEM 
education) within the Sea Grant program is explicitly authorized in the 
legislation enacted by Congress to create the Sea Grant Program. The 
Sea Grant statute recognizes and reinforces the linkage between 
research, education and extension by relying on the land-grant college 
and university model of research and education in service to the 
public. We urge the subcommittee to reject these particular 
consolidation proposals and support the continuation of these programs 
within their current agencies.
    Second, within the budget request for Sea Grant, the administration 
is proposing a $1 million reduction (from last year's level) in 
research funding available for competitively awarded projects under two 
specific focus areas: Healthy Coastal Ecosystems; and Resilient Coastal 
Communities and Economies. This proposed reduction is inconsistent with 
NOAA's stated priorities and strategic plan. Because of Sea Grant's 
prior accomplishment (detailed elsewhere in this testimony) NOAA should 
be strengthening Sea Grant's role in coastal resiliency as a way to 
help make the Nation's ocean, coastal, and Great Lakes economies more 
productive.
    Third, within the budget request for Sea Grant, the administration 
is proposing to reduce marine aquaculture research by $2.5 million; 
down to a total of $2 million. This funding decrease is shortsighted 
and will reduce the number of external grants NOAA provides for 
decision support tools and technology transfer related to sustainable 
domestic marine aquaculture. It will also reduce base-funded 
sustainable seafood industry research performed for NMFS.
    The SGA's proposal for fiscal year 2015 is $80 million, which 
includes a specific enhancement of the Resilient Coastal Communities 
and Economies focus area. Funding Sea Grant at $80 million would also 
allow for the restoration of funding for STEM education, healthy 
coastal ecosystems, and marine aquaculture at levels at least equal to 
fiscal year 2014 levels.
        the return on investment to the nation through sea grant
    The rationale behind the SGA's proposed growth for Sea Grant is 
related to the specific metrics developed that can be used to assess 
the value of this program. In fiscal year 2013, Sea Grant returned the 
following quantifiable benefits to the Nation in return for the Federal 
investment:
  --$485 million in direct economic benefits to the Nation, which 
        represents a 7 to 1 return on the Federal investment;
  --3,400 new businesses were created or retained, and more than 15,000 
        jobs were created or retained due to Sea Grant efforts;
  --600 communities across the Nation have adopted more sustainable 
        economic or environmental development practices and policies;
  --Sea Grant expanded the Nation's workforce by supporting more than 
        900 undergraduate and more than 980 graduate students, 
        resulting in 335 graduate or undergraduate degrees awarded; and
  --Nearly $100 million annually in additional public and private 
        sector investments in Sea Grant supported activities are 
        leveraged by the subcommittee's annual appropriation for the 
        Sea Grant program.
    Approximately 95 percent of the Federal funding provided to Sea 
Grant leaves Washington and goes primarily to State university-led 
programs where it is used to conduct research, carry out extension, and 
education programs, and deliver valuable services to States that 
participate in this program. In addition, Federal funding through the 
Sea Grant program has a significant leveraging impact with every 
Federal dollar invested attracting more than two additional dollars in 
matching funds and other public and private sector resources.
                  the role of sea grant in supporting
    the nation's coastal communities--increasing coastal resiliency
    In addition to the annual positive scientific and economic impacts 
delivered by the National Sea Grant College Program summarized above, 
the relationships formed in coastal communities and with local 
stakeholders have proved extremely beneficial and supportive in 
disaster response. Beginning with hurricane Katrina and including the 
major disasters of the Deepwater Horizon oil spill and most recently 
hurricane Sandy, the Sea Grant network has provided substantial and 
much needed ``boots-on-the-ground'' assistance to affected communities. 
Following each of these disasters, it was often Sea Grant extension, 
outreach and education programs that brought the first response to 
these impacted communities.
    Sea Grant works with Federal and State agencies to provide critical 
information following natural and man-made disasters. In the wake of 
these events, Sea Grant programs assist affected communities and States 
by facilitating community planning and capacity building by working 
with Department of Commerce Disaster Response Teams, Federal Emergency 
Management Agency (FEMA) mitigation assessment teams, State resource 
agencies for fishery and aquaculture impacts, local governments, 
industry groups, as well as others in addressing coastal impacts.
    Immediately following every event, Sea Grant extension 
professionals and scientists were there, helping communities assess 
impacts to coastal businesses including commercial fishing, tourism, 
local marinas, and aquaculture businesses. Sea Grant also helped 
determine the extent of changes in coastal geology, barrier islands, 
beach erosion, and sand dune migration. Sea Grant capabilities allows 
the program to provide expertise and experience in assessing other 
environmental impacts such as marine debris and changes to water 
quality and communicating the results to affected coastal communities. 
Sea Grant adds to its ongoing efforts of providing coastal communities 
with technical assistance, helping to prepare community recovery plans, 
long-term resilience plans, and explaining the consequences of future 
mitigation choices ranging from seawalls to green infrastructure. Sea 
Grant has expanded its role to include the development of tools and 
programs that address the long-term health impacts of disasters on 
coastal residents and help these communities to be better prepared for 
these disasters.
                          concluding thoughts
    America must use its coastal resources wisely to increase the 
economic development and resilience of our coastal communities and U.S. 
working waterfronts while sustaining the health and productivity of the 
ecosystems on which they depend.
    With the SGA's fiscal year 2015 request of $80 million for Sea 
Grant, the National Sea Grant College Program will be uniquely 
positioned to continue to make significant contributions to improve the 
lives and livelihoods of the Nation's coastal communities and 
economies. We hope the subcommittee will be able to support this 
request and restore funding for Sea Grant STEM and other NOAA education 
activities, the NMFS Fellowship program, research in the key Sea Grant 
focus areas, and marine aquaculture.
    Thank you for the opportunity to present these views. The SGA would 
be happy to answer questions or provide additional information to the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the National Consortium for Justice Information 
                             and Statistics
                              introduction
    Thank you, Madam Chair and members of the subcommittee, for the 
opportunity to submit testimony on the Department of Justice (DOJ) 
funding to be provided for in the fiscal year 2015 Commerce, Justice, 
Science, and Related Agencies appropriations bill. In particular, 
SEARCH recommends that the National Criminal History Improvement 
Program (NCHIP) receive an appropriation of $50 million, and the 
National Instant Criminal Background Check System (NICS) Act Record 
Improvement Program (NARIP) receive an appropriation of $5 million.
    SEARCH, The National Consortium for Justice Information and 
Statistics (SEARCH), is a nonprofit membership organization created by 
and for the States. SEARCH's Governor-appointed, dues-paying members 
from the States and territories have the responsibility, among other 
things, to oversee both NCHIP and NARIP within their States.
    Over the years, States have made great strides in meeting their 
criminal history record improvement goals under both programs. Last 
year's increase in funding for these programs as reflected in the 
fiscal year 2014 Commerce, Justice, Science and Related Agencies 
appropriations was welcomed by the States who continue to use the 
funding to modernize, enhance and more effectively share data for 
critical criminal justice and public safety decisions.
    With recent NCHIP and NARIP funding, for example, the Kentucky 
State Police (KSP) has created a firearms application database which 
collects and houses mental health records, judgments and citations used 
for supporting documentation when entering denied persons in NICS 
Index. Funding also allowed for an interface with the State Department 
of Corrections to obtain offender records and update criminal history 
dispositions, as well as focus on NICS Index entries. With these 
efforts, over 22,500 State criminal histories were reviewed, resulting 
in over half being entered into NICS Index, ultimately keeping guns out 
of the hands of persons prohibited from receiving or possessing 
firearms. Kentucky anticipates applying for future funding to improve 
upon their demonstrated success in enhancing records in these 
databases.
    Maryland has used NCHIP and NARIP funding over the past 2 years to 
focus on missing disposition issues, completeing thousands of 
incomplete records, and now over 90 percent of arrests in the State 
database have a final disposition. This updated information is 
available for critical decisions like gun sales, employment for persons 
working with vulnerable populations, and overall criminal justice 
business on the State and Federal level.
    Georgia is actively using NCHIP funding to ensure synchronization 
of State and Federal criminal history files and to provide accurate and 
complete criminal history record information for both criminal justice 
and public safety decisionmaking.
    There is still work to be done to realize a truly complete and 
accurate national criminal history background check system. That system 
not only informs a variety of critical public safety decisions, but 
also noncriminal justice decisions, such as those regarding applicants 
for employment and licensing, to volunteers who work with children and 
other vulnerable populations, to individuals purchasing firearms. In 
light of recent, tragic events due to gun violence, and the 
simultaneous demand for accurate, complete and timely criminal records 
for a range of decisions, a priority placed on NCHIP and NARIP funding 
is essential.
    The States are eager to leverage fiscal year 2014 and new funds in 
fiscal year 2015 funding to engage in broad-scale initiatives and 
partnerships with other State agencies to improve and enhance chriminal 
history record information collection and sharing.
    SEARCH appreciates the subcommittees' recognition that while both 
NCHIP and NARIP each focus on improvements to the efficiency, 
effectiveness, timeliness and accuracy of criminal history record and 
associated data for decisionmaking purposes, each program emphasizes 
specific and distinct goals. NARIP funding has been heavily focused on 
enhancing decisionmaking for firearms purchases, such as increasing the 
number of disqualifying mental health records available to the system. 
NCHIP is focused on a broader range of criminal history improvements 
that individual States have prioritized (improving arrest and 
disposition matching, increasing conviction record availability in the 
Federal systems, etc.). Perhaps most significantly, by current law, 
still less than half of the States qualify for NARIP funding to improve 
their contributions to NICS.\1\ Thus, the majority of the States rely 
on NCHIP for criminal history record and repository improvements 
related to all criminal and non-criminal justice decisionmaking. As 
such, SEARCH makes two key recommendations:
---------------------------------------------------------------------------
    \1\ NARIP has two main requirements: States must (1) establish a 
process where those adjudicated as ``mentally defective'' can seek to 
reinstate their right to purchase a firearm, and (2) comply with a 
process to estimate the number of NICS disqualifying records they 
maintain. Only 20 States have met requirement #1.
---------------------------------------------------------------------------
1. Support NCHIP funding for improvements to State criminal history 
        record information so that States can effectively exchange 
        information witho ther States and the FBI.
    The NCHIP program has been successful in helping States to improve 
the accuracy, reliability and completeness of their automated, criminal 
history record systems. It is important to note that information stored 
in the State's criminal history record repositories is the same 
information that is used for criminal justice decisionmaking (such as 
at arrest, filing of charges, sentencing and inmate housing) as well as 
for other public safety and civil decisions (such as decisions 
regarding firearms transfers, or for individuals applying for 
employment or volunteer work with vulnerable populations).
    Unlike the NARIP, all States qualify for funding under NCHIP to 
improve their criminal history record systems. States who cannot 
qualify for NICS funding will be significantly hampered in their 
efforts to help improve the Nation's criminal history record system if 
they cannot access sufficient resources via NCHIP.
    NCHIP's broad objective is to enhance the criminal justice 
capabilities of State governments by improving the accuracy, 
completeness and timeliness of criminal history records. These State 
systems support Federal records systems, including the Federal Bureau 
of Investigation (FBI) Interstate Identification Index (III).\2\ 
Indeed, 70 percent of all III records are maintained by the States and 
30 percent are maintained by the FBI.\3\
---------------------------------------------------------------------------
    \2\ The Interstate Identification Index is the national system 
designed to provide automated criminal history record information of 
Federal offenders and records of offenders submitted by all States and 
territories.
    \3\ Survey of State Criminal History Information Systems 2010, 
Bureau of Justice Statistics, U.S. Department of Justice, Office of 
Justice Programs (November 2011) (https://www.ncjrs.gov/pdffiles1/bjs/
grants/237253.pdf).
---------------------------------------------------------------------------
    Indeed States have used NCHIP funding to solve a variety of 
information sharing problems. Virginia used the funding to provide 
electronic access to criminal history records on-site at gun shows, 
ensuring a rapid check to prevent the transfer of firearms to 
prohibited persons.
    States have used NCHIP widely to improve the completeness and 
accuracy of criminal history record as well as to create links with the 
courts to allow automated updates and disposition reporting. In 
Florida, such work over the past several years resulted in updates to 
over 2.5 million dispositions.
    The increase in funding for NCHIP in fiscal year 2014 and, 
hopefully, in fiscal year 2015, will reinvigorate a program that had 
suffered in years past from considerably reduced funding. Because State 
criminal history records are the primary source for the FBI III 
database, any constraints on the States weakens the ability of many 
State and Federal programs to identify threats and keep our Nation 
safe.
2. Continue to invest in background screening for firearms purchases.
    One of the key tools in keeping firearms out of the hands of those 
who should be prohibited from having them is a robust National Instant 
Criminal Background Screening System (NICS). Given the tragedies of 
recent years, significant focus has been placed on our Nation's 
background screening system for firearms purchases.
    Approximately 90 percent of records used to make firearms transfer 
determinations are records maintained and made available by the States. 
And, therefore, the overwhelming majority of firearms transfer denials 
are based on State records. Continued funding to improve the system's 
effectiveness for existing requirements related to background screening 
for firearms purchases is essential.
    For example, in New York, NARIP grant funds have significantly 
improved the records that New York State makes available to the NICS 
Index. New York built and deployed the NICS Transmission System to 
allow New York State to efficiently transmit mental health involuntary 
admissions records, civil guardianships and order of protections to 
provide better safeguards that prevent firearms from getting into the 
wrong hands. The State also completed system changes to collect and 
report Misdemeanor Crimes of Domestic Violence (MCDV) convictions to 
NICS as firearm permit prohibitors so that vulnerable spouses, children 
and intimate partners are further protected. The State also completed 
analysis and significant system enhancements to improve the accuracy 
and completeness of disposition data made available to NICS via New 
York's Criminal History Reports.
    Today, the accuracy, completeness and reliability of the Nation's 
criminal history record system is more important than ever before, for 
law enforcement investigations; officer safety; sentencing and other 
criminal justice purposes; for expungement and other reentry 
strategies; for homeland security and anti-terrorism purposes; for 
public non-criminal justice purposes, such as security clearances and 
employment suitability; and for research and statistical programs that 
provide critical guidance for justice assistance decisions and for 
shaping law and policy. Without an adequate level of funding for the 
States, the quality of criminal records available nationwide will 
continue to be negatively impacted.
    As you can see from the examples above, for both of NICS and NCHIP, 
SEARCH encourages Congress to allow States to use funding at their 
discretion to address the specific challenges each State faces in 
making more records available to the national system. Funding should 
also encourage adherence to performance metrics and accountability 
measures. SEARCH supports that Congress should expect, and States 
should define, specific and measurable goals for which they will use 
the funding to demonstrate progress and impact. SEARCH also encourages 
Congress to fund technical assistance and technology investments for 
States to improve automated information sharing systems in support of 
NICS.
                               conclusion
    SEARCH thanks the Chairman and members of the subcommittee for 
their steadfast support of these programs in the face of daunting 
budget challenges. Given the reliance on criminal history record 
systems for critical decisions that keep our citizens safe from guns, 
predators, terrorists and other criminals, it is a worthwhile and 
needed investment.
    We urge Congress to continue the investment in the Federal-State 
criminal background screening partnership that comprises NICS. NICS is 
a critical tool in the fight against gun violence, but funding for its 
improvement must envision a national scope that is inclusive of all the 
States. As Florida representatives noted, their successes with 
information sharing would not have been possible without the support of 
NARIP and NCHIP funding.
    Meaningful NCHIP funding will more broadly improve this Nation's 
criminal justice information sharing backbone. And the Federal 
investment can be leveraged many times over by contributing to the 
ability of State and local criminal justice agencies to provide timely, 
accurate and compatible information to Federal programs such as III. As 
Kentucky representatives stated, none of the improvements they had made 
would be possible without this funding.
    On behalf of SEARCH's governor's appointees, and the thousands of 
criminal justice officials who participate in the SEARCH network and 
who benefit from SEARCH's efforts, we thank you for your consideration.
                                 ______
                                 
 Prepared Statement of Dr. Kyle Shertzer, Morehead City, North Carolina
    Dear Subcommittee on Commerce, Justice, Science, and Related 
Agencies: I am gravely concerned about the proposal in the 2015 
President's budget to close the National Oceanic and Atmospheric 
Administration (NOAA) Beaufort Laboratory located in Beaufort, North 
Carolina. This lab is part of the National Oceanic and Atmospheric 
Administration; it is administered by the National Ocean Service (NOS), 
but also houses the National Marine Fisheries Service (NMFS) and 
National Estuarine Research Reserve System (NERRS). Although I am 
writing this letter as a private citizen, and the views expressed are 
not intended to represent those of any government agency, I am a 
scientist at the NOAA Beaufort Lab and therefore have firsthand 
knowledge regarding the value of this laboratory to the Nation, in 
terms of its contributions toward marine science, natural resource 
management, and public outreach. The proposal to close this laboratory 
is a short-sighted reaction to a short-term problem.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science, with an outstanding national 
and international reputation for advancing science in numerous areas: 
population dynamics and stock assessments; Gulf and Atlantic menhaden 
biology, movement, and assessments; harmful algal blooms; hypoxia; sea 
grass; pathogens; and snapper and grouper monitoring and ecology. NOAA 
and the President have repeatedly recognized individual researchers, 
research teams, and the Laboratory as a whole for its outstanding 
quality of scientific work. Furthermore, this lab is the originator and 
nexus of an internationally esteemed consortium of marine science 
institutions, including the marine laboratories of Duke University, 
North Carolina State University, the University of North Carolina, and 
the North Carolina Division of Marine Fisheries. Beaufort was chosen 
because it is a prime location where northern and southern marine 
ecological communities intersect, and as such this lab provides the 
only Federal access to the most diverse marine ecosystem in the United 
States. There is no other location where these opportunities can be 
accessed as easily or as cheaply. It is the only NMFS facility on the 
Atlantic coast between Sandy Hook, New Jersey and Miami, Florida, a 
stretch of over 1200 miles of coastline.
    The request to close the laboratory was based on current funding 
allocation to NOS, but inaccurate and outdated information that 
overstated the costs of maintaining the facility was used in the 
analysis that led to this request. Currently, the lab houses 108 
employees from NOS, NMFS, and NERRS. The NOS initiated the proposed 
closure, but the request understated the number of NOS employees and 
did not account at all for employees from NMFS or NERRS. In effect, 
this mistake excluded more than half the staff of the lab. Furthermore, 
the request was based on estimated costs for the lab's upkeep and 
maintenance that were in error. Since 2006, several activities have 
been completed to keep the facility in good working condition, 
including replacement of the administration building, replacement of 
the maintenance building, replacement of the chemical storage building, 
replacement of the bridge to the facility, repair of the seawall, and 
other improvements (air conditioning, electrical, storm water runoff), 
which totaled approximately $14 million. After such investments, 
closing the lab now would represent a conspicuous waste of tax-payers' 
money. Finally, contrary to previous claims, an updated engineering 
report (2014) documents that the facility is NOT structurally unsound. 
Based on mistakes both in the number of staff at the facility and in 
the costs associated with its upkeep, the budgetary calculations used 
to justify the proposed closure were fundamentally flawed.
    I highlight below, by line office, the critical role that the NOAA 
Beaufort Laboratory has played in helping NOAA achieve its Strategic 
Mission (1) to understand and predict changes in climate, weather, 
oceans, and coasts, (2) to share that knowledge and information with 
others, and (3) to conserve and manage coastal and marine ecosystems 
and resources.
                                  nos
    While the National Ocean Service is calling for the closure of the 
Beaufort North Carolina laboratory, it is requesting an increase of $4 
million to another center to support Ecological Forecasting of Harmful 
Algal Blooms (HABs), Hypoxia, pathogens, and Species Distributions. 
These areas of research are the bread and butter of NOS at the Beaufort 
Lab. In fact, NOAA would not have the strength it currently has in 
forecasting HABs if it were not for the lab's seminal and award-winning 
work that has been ongoing from the 1980s to this day. Furthermore, the 
Beaufort Lab initiated the first-ever study of the invasive lionfish in 
the U.S. South Atlantic, and it has continued to play a pivotal role in 
monitoring the distribution and abundance of this invasion throughout 
the South Atlantic, Gulf of Mexico, and Caribbean, providing 
information that has been critical for mitigation and management 
strategies. It is ironic and perplexing that the fiscal year 2015 
President's budget requests increased research funding for coastal 
ocean issues, including harmful algal blooms, hypoxia, and coastal 
ecosystem management while at the same time proposing to close an 
existing facility that already has both well-established expertise and 
facilities required to address many of those very same issues.
                                  nmfs
    The Beaufort Laboratory provides the stock assessment science that 
allows NOAA to fulfill its obligation toward the Magnuson-Stevens 
Fishery Conservation and Management Act, as mandated by Congress. The 
stock assessment science of the NOAA Beaufort Laboratory focuses on 
marine fish populations that are ecologically and economically vital to 
the region and Nation, including snapper-grouper and pelagic species 
managed by the South Atlantic Fishery Management Council, Atlantic 
menhaden managed by the Atlantic States Marine Fisheries Commission, 
and Gulf menhaden managed by the Gulf States Marine Fisheries 
Commission. Atlantic menhaden support the largest fishery on the U.S. 
Atlantic coast, and Gulf menhaden support the largest fishery in the 
Gulf of Mexico. To enable robust stock assessments, sampling of the 
Atlantic and Gulf menhaden fisheries has been conducted by the Beaufort 
Lab for decades, and monitoring of snapper-grouper species has been 
accomplished by the lab's Southeast Fishery-Independent Survey. 
Removing this sampling and monitoring from the Beaufort Lab would not 
only result in a significant disconnect between NOAA and the 
communities that it serves, but would also degrade the quality of stock 
assessments at a time when Congress is rightly calling for 
improvements.
                                 nerrs
    NERRS is partnered with the North Carolina Coastal Reserve, with 
program headquarters at the NOAA Beaufort Lab. This program supports 
long-term research, water-quality monitoring, education, and coastal 
stewardship. In 2002, Congress provided NOAA with ``. . . $5,000,000 
for the Beaufort Laboratory for necessary repairs to existing 
facilities and to construct a joint laboratory, dock, and other 
facilities in collaboration with the Rachel Carson National Estuarine 
Research Reserve.'' With this funding, NOAA invested $1.28 million and 
the State of North Carolina invested $42,000 for the construction of a 
joint building at the NOAA Beaufort Lab to serve the Reserve's mission. 
The joint building was completed in 2007 and was constructed 
specifically with the Reserve's education programs in mind: the 
auditorium regularly hosts coastal training program workshops and the 
teaching classroom hosts school groups, teacher workshops, field trips, 
and lectures to support K-12 Estuarine Education Program activities. 
The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel Carson 
component of the Reserve, and this close proximity is essential for 
performing Reserve activities efficiently to conduct mission-critical 
work, including educational programs, water quality and habitat 
monitoring, research programs, and stewardship of the site, which 
involves species monitoring, debris clean-ups, feral horse management, 
and access point maintenance. In short, NERRS activities in education, 
training, and stewardship have been extensive, and they would not be 
feasible from any other Federal laboratory.
    In conclusion, closure of the NOAA Beaufort Laboratory would be 
devastating scientifically and economically. It would cripple NOAA's 
ability to accomplish its own Strategic Mission and to meet its 
obligations toward such congressional mandates as the Magnuson-Stevens 
Fishery Conservation and Management Act. As I understand it, the only 
argument for closing the laboratory was financial, but that argument 
was based on flawed estimates of maintenance costs and an outdated 
engineering report, which has since been revised with opposite 
conclusions regarding the lab's structural integrity. To be blunt: 
Relative to NOAA's budget, cost savings associated with closing the 
lab, if any, would be trivial; however the loss to the Nation would be 
monumental.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)
    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2015 by providing NSF with $7.5 billion. In particular, we 
urge you to provide strong support for key applied mathematics and 
computational science programs in the Division of Mathematical Sciences 
and the Division of Advanced Cyberinfrastructure.
    Full Statement.--We are submitting this written testimony for the 
record to the subcommittee on Commerce, Justice, Science, and Related 
Agencies of the Committee on Appropriations of the U.S. Senate on 
behalf of the Society for Industrial and Applied Mathematics (SIAM).
    SIAM has approximately 14,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has almost 500 institutional members, including colleges, 
universities, corporations, and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2015 and beyond. In particular, we join with the 
research and higher education community and request that you provide 
NSF with $7.5 billion.
    As we are reminded every day, the Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, chemistry, 
computer science, and others. SIAM recognizes the challenging fiscal 
situation; however, we also face an ``innovation deficit,'' the 
widening gap between the actual level of Federal Government funding for 
research and what the investment needs to be if the U.S. is to remain 
the world's innovation leader. Federal investments in mathematics, 
science, and engineering remain crucial as they power innovation and 
economic growth upon which our economy and fiscal health depend.
                      national science foundation
    NSF provides essential Federal support for applied mathematics and 
computational science, including more than 60 percent of all Federal 
support for basic academic research in the mathematical sciences. Of 
particular importance to SIAM, NSF funding supports the development of 
new mathematical models and computational algorithms, which are 
critical to making substantial advances in such fields as neuroscience, 
energy technologies, genomics, analysis and control of risk, and 
nanotechnology. In addition, new techniques developed in mathematics 
and computing research often have direct application in industry. 
Modern life as we know it--from search engines like Google to the 
design of modern aircraft, from financial markets to medical imaging--
would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
                 nsf division of mathematical sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides the core support 
for all mathematical sciences. DMS supports areas such as algebra, 
analysis, applied mathematics, combinatorics, computational 
mathematics, foundations, geometry, mathematical biology, number 
theory, probability, statistics, and topology. In addition, DMS 
supports national mathematical science research institutes; 
infrastructure, including workshops, conferences, and equipment; and 
postdoctoral, graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, the human body, and 
energy efficient building systems. SIAM strongly urges you to provide 
DMS with the highest possible funding level to reverse the damaging 
cuts of recent years and enable critical mathematical research and 
related mathematical education and workforce development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. NSF, 
with its support of a broad range of scientific areas, plays an 
important role in bringing U.S. expertise together in interdisciplinary 
initiatives that bear on these challenges. DMS has traditionally played 
a central role in such cross-NSF efforts, with programs supporting the 
interface of mathematics with a variety of other fields. SIAM endorses 
DMS participation in NSF-wide initiatives such as Cyber-enabled 
Materials and Manufacturing for Smart Systems (CEMMSS), to develop 
computational tools for transforming materials discovery, and BioMaPS, 
to advance research at the intersection of biology, mathematical and 
physical sciences, and engineering.
              nsf division of advanced cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Division of 
Advanced Cyberinfrastructure (ACI) in the Directorate for Computer and 
Information Science and Engineering (CISE) focus on providing research 
communities access to advanced computing capabilities to convert data 
to knowledge and increase our understanding through computational 
simulation and prediction.
    SIAM strongly urges you to provide ACI with the highest possible 
level of funding to invest in the computational resources and science 
needed to solve complex science and engineering problems. In addition, 
SIAM strongly endorses ACI's role as steward for computational science 
across NSF, strengthening NSF support for relevant activities and 
driving universities to improve their research and education programs 
in this multidisciplinary area.
    SIAM strongly supports ACI data activities, including data 
infrastructure, tools, and repositories, as well as the NSF-wide Big 
Data initiative. The explosion in data available to scientists from 
advances in experimental equipment, simulation techniques, and computer 
power is well known, and applied mathematics has an important role to 
play in developing the methods and tools to translate this shower of 
numbers into new knowledge. The programs in ACI that support work on 
software and applications for the next generation of supercomputers and 
other cyberinfrastructure systems are also very important to enable 
effective use of advances in hardware, to facilitate applications that 
tackle key scientific questions, and to better understand increasingly 
complex software systems.
    SIAM continues to support the agency-wide initiative 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21). This program works to develop comprehensive, integrated, 
sustainable, and secure cyberinfrastructure to accelerate research and 
capabilities in computational and data-intensive science and 
engineering.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step the Federal 
Government can take to ensure the future prosperity and welfare of the 
U.S. SIAM strongly supports significant funding for the Graduate 
Research Fellowship (GRF) program and the Faculty Early Career 
Development (CAREER) program. Strong investments in these programs will 
support thousands of new graduate students, which will help develop the 
country's next generation of scientists.
    Before reaching the graduate and early career stage, young 
mathematicians and scientists gain critical interests and skills as 
undergraduates. SIAM supports efforts by NSF to improve undergraduate 
science, technology, engineering, and mathematics (STEM) education, and 
notes the key role that mathematicians play in training for these 
fields.
         mathematics and international science and engineering
    Science knows no borders, and nowhere is this truer than in 
mathematics. Mathematical research typically advances through the close 
collaboration of small groups of researchers, without the need for 
expensive equipment and using universal mathematical notation to 
minimize language obstacles. In addition, mathematics, as an enabling 
discipline for all of science and technology, and as a foundation for 
science education, plays a key role in addressing many of the most 
challenging problems that the world faces, such as infectious disease 
and sustainable energy generation. International scientific cooperation 
is not just good science, however; it can also foster understanding and 
goodwill between societies more broadly. Mathematical and scientific 
activities can aid in promoting United States international policy 
goals by building relationships and trust with other countries, 
enhancing the global image of America, and spurring global development.
    SIAM believes strongly in the Federal Government's support of 
international science and technology initiatives that help advance U.S. 
foreign policy and security, including cooperative research programs 
that further scientific knowledge applicable to major societal 
challenges, promote development of research and education capabilities 
abroad, and introduce U.S. students to global issues and collaborative 
relationships.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
United States. NSF needs sustained annual funding to maintain our 
competitive edge in science and technology, and therefore we 
respectfully ask that you continue robust support of these critical 
programs in fiscal year 2015.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM. SIAM looks forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2015 appropriations process.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
    Mr. Chairman and members of the subcommittee, my name is Carol Ann 
Mason, Ph.D. I am a professor of pathology and cell biology, 
neuroscience, and ophthalmic science at Columbia University. I study 
the development of visual pathways in mammalian brains, with a focus on 
how neurons in the eye are encoded to project to the correct side of 
the brain, setting up the circuit for binocular vision. This statement 
is in support of increased funding for the National Science Foundation 
(NSF) for fiscal year 2015. I am pleased to submit this testimony in my 
capacity as president of the Society for Neuroscience (SfN). On behalf 
of the nearly 40,000 members of SfN, thank you for your past support of 
neuroscience research at NSF.
    The Society stands with others in the research community in 
requesting at least the President's budget request of $7.3 billion for 
NSF for fiscal year 2015. Sequestration has taken an enormous toll on 
the research enterprise, coming on top of recent years when funding has 
failed to keep pace with the cost of research--let alone the scientific 
opportunities that are available. SfN urges Congress to reverse the 
current course and find ways to invest more in scientific discovery. 
Let's work to put research on a trajectory of sustained growth that 
recognizes its promise and opportunity as a tool for economic growth 
and, ultimately to advancing the health and well-being of Americans.
               neuroscience: an investment in our future
    Even in the face of the difficult funding situation, the last 
several years have been a tremendously exciting and productive time for 
neuroscience discoveries. Major research advances on brain development, 
imaging, genomics, circuits, computational neuroscience, neural 
engineering, and many other disciplines are leading to new tools, new 
knowledge, and greater understanding that were unimaginable even a few 
years ago.
    All told, there are more than 1,000 debilitating neurological and 
psychiatric diseases that strike over 100 million Americans each year, 
costing an estimated $760 billion a year. Advances made possible by 
publicly-funded research will help us maintain and restore healthy 
brain function. Now more than ever, it is time to fan the flames of 
research in order to ensure life-changing breakthroughs continue.
    Resources provided to NSF will support the Nation's best and 
brightest researchers at the forefront of promising discoveries, 
graduate students at the start of their careers, and the development of 
advanced scientific tools and infrastructure that will be broadly 
available to the research community. These researchers are the ones who 
will be answering some of the vexing questions facing the field of 
neuroscience: how do the genetic, molecular, and cellular elements of 
the brain interact to allow for brain function and behavior? How will 
new tools such as brain-machine interfaces, computational models, and 
advanced imaging techniques deepen scientific capacity for inquiry, and 
contribute to better health and quality of life in the years ahead? NSF 
is uniquely positioned to address questions of this kind because of its 
emphasis on integrative and interdisciplinary research and its long 
history of funding research that leads to the development of life-
changing neurotechnologies.
    NSF funding is an investment in America. Funding for research 
supports quality jobs and increases economic activity. In fiscal year 
2012 alone, NSF supported 39,862 senior personnel, 4,596 postdoctoral 
fellows, and 25,550 graduate students through 11,524 awards. Ninety 
percent of the NSF budget goes right back to fund extramural research 
in every State. Many of my colleagues can point to their first NSF 
grant as the launching pad for a career in science.
    Finally, without robust, sustained investment, America's status as 
the preeminent leader in biomedical research is at risk. Other 
countries are investing heavily in biomedical research to take 
advantage of new possibilities. Even with the growing philanthropic 
support, private sector cannot be expected to close the gap. The lag 
time between discovery and profitability means that the pharmaceutical, 
biotechnology, and medical device industries need federally-funded 
basic (also known as fundamental) research to develop products and 
treatments. The foundation that basic research provides is at risk if 
federally-funded research declines.
                          the brain initiative
    The Brain Research through Application of Innovative 
Neurotechnologies (BRAIN) Initiative--announced by the President last 
April--will enable NSF and other Federal agencies to develop tools and 
plans that will help accelerate fundamental discoveries in 
neuroscience. The scientific community is providing direction through 
diverse workshops being held throughout the country.
    The overarching goal of the BRAIN Initiative is to integrate across 
scales (genes to behavior) and disciplines (engineering and life 
sciences) to establish predictive theories of brain structure and 
function, and the use of these theories to maintain and restore the 
healthy brain. The Initiative has a strong focus on technology and 
cyber tool development and the training of new generations of 
scientists to use the resources that emerge from the BRAIN Initiative, 
both of which have the potential to benefit all of neuroscience and 
even non-neuroscience research.
    BRAIN--as with all the neuroscience research that takes place with 
Federal support--can only be successful if it is part of a broad effort 
by Congress and the administration to prioritize biomedical research so 
that it can reach its full potential. Such an investment will also help 
ensure the U.S. remains a global leader, even as other nations ramp up 
their investments in neuroscience research.
                    cross-disciplinary neuroscience
    NSF-funded basic research continues to be essential for discoveries 
that will inspire scientific and medical progress for generations. The 
work supported by NSF has led to the development of new technologies 
that have revolutionized neuroscience research. The following examples 
are just a few of the many basic research success stories in the 
science of the brain emerging now thanks to interdisciplinary research 
funded by a strong historic investment in NSF and other research 
agencies.
                       green florescent proteins
    Basic research funded by NSF creates revolutionary advances in 
science, such as green florescent protein (GFP)--a transformative tool 
in cellular biology which allows scientists to look at the brain in 
unprecedented detail. The works that lead to its discovery and 
development for use in research received the Nobel Prize in Chemistry 
in 2008.
    The discovery of GFP revolutionized scientists' view of the nervous 
system allowing them to add an incredible range and depth to images of 
the brain. With this protein and others like it, researchers are 
applying colors to brain cells to look at under the microscope. This 
enables them to map intricate details of brain cells, in particular, 
how brain cells connect to each other. Understanding these connections 
and their susceptibility to change help researchers better understand 
the healthy brain and how they might be damaged in a variety of 
disorders.
    More than 100 years ago, scientists got their first glimpse at 
brain cells under a microscope after successfully staining cells with 
dark pigment. This and similar techniques are limited because they 
can't be used in living cells and they can only stain in a single 
color. GFP is a molecule that glows green under blue or ultraviolet 
light. Since its discovery, scientists have developed similar molecules 
that glow many different colors. Moreover, GFP can be used to visualize 
activity of a living cell. These light-emitting proteins have been used 
to illuminate the inner workings of brain cells by letting scientists 
track the movement of molecules inside the cells or watch how neurons 
react to environmental stimulation in living brains. Scientists have 
also used GFP to help answer questions about brain structure by using 
it to identify specific cells in specific areas and trace connections 
between two brain areas.
    Recently, GFP has been adapted to help trace many brain regions at 
a time. In 2007, researchers found a way to make brain cells emit one 
of nearly 100 colors. They genetically engineered mice to carry 
multiple copies of a chain of three or four genes for different colored 
fluorescent proteins. In each cell, the combination of the colors 
emitted from each chain led to unique color blends. Just as a 
television produces a wide spectrum of colors by mixing red, green, and 
blue pixels, this so-called ``brainbow'' technique cast neighboring 
cells in colors from aquamarine to magenta. This technique allows 
scientists to map many pathways in the brain to a much larger extent 
than before and has allowed for a deeper understanding of brain 
circuits. GFP is now widely used to track everything from how nerve 
cells develop to how cancer spreads through the body to how HIV travels 
from infected to non-infected cells. In the field of neuroscience 
specifically, this technology will continue to evolve and will be 
instrumental in our efforts to understand brain structure and function.
                        brain-machine interface
    The brain is in constant communication with the body in order to 
perform every minute motion from scratching an itch to walking. 
Paralysis occurs when the link between the brain and a part of the body 
is severed, and eliminates the control of movement and the perception 
of feeling in that area. Almost 2 percent of the U.S. population is 
affected by some sort of paralysis resulting from stroke, spinal cord, 
or brain injury, or other cause. Basic research funded by the NSF has 
provided fundamental understanding of how the brain controls movement, 
which in turn has led to advances in next-generation prosthetics.
    In the 1990s, scientists developed an array of electrodes that 
allowed them to study an unprecedented number of nerve cells at once--
almost 50 at a time. This research demonstrated that brain cells 
communicate in clusters, not in isolation. In other words, cells work 
together to direct complex behaviors. Since then, scientists have found 
ways to translate messages from clusters of neurons into a language 
that an artificial device can understand and convert into movement. 
Fundamental research in humans and animals led to the discovery that 
thinking of a motion activates neurons in the same way that actually 
making the movement would--opening the possibility for thought to 
operate robotic devices.
    Thanks to successes in animal research, brain-controlled 
prosthetics are now being piloted in humans. Paralyzed humans implanted 
with electrodes can learn to guide a machine to perform various motor 
tasks such as picking up a glass of water. These advances, while small, 
enable substantial improvements in the quality of life for people 
suffering from paralysis. As deeper understanding of the language of 
the brain occurs in concert with advances in biomaterials, 
neurotechnologies, and computational power, scientists hope to 
eventually broaden the abilities of such devices to include thought-
controlled speech and more.
                understanding the development of vision
    My own area of research is the development of the circuits 
underlying vision. For binocular vision to function, the brain must 
receive information from both eyes. Nerve fibers from each retina grow 
to the `optic chiasm,' at the midline of the bottom of the brain. Here, 
nerve fibers from each eye cross to the other side of the brain. Other 
axons, however, are repelled at the midline and project to the same 
side of the brain. These connections underlie binocular vision which 
enables animals, including humans, to calculate how far objects lie in 
the distance.
    One area of my research focuses on this question and the molecular 
mechanisms that prompt some growing nerve fibers to ``stop in their 
tracks'' and reroute to the same side. These two groups of cells in the 
eye, each taking different routes, are endowed with distinct genes that 
direct their time of birth and their growth to the regions where they 
make their synaptic connections. Understanding their genetic 
``signatures'' and growth helps us to learn how to encourage stem cells 
to be integrated into the diseased eye and injured nerve fibers to 
regrow in the correct circuits. We also investigate how the retinal 
pigment epithelium (RPE) surrounding the eye, directs retinal 
development. Perturbations in the RPE occur in albinism and in juvenile 
forms of macular degeneration, the latter leading to blindness, and our 
gene identification efforts are important for gene therapy at early 
stages of the disease. Moreover, understanding how tracts are laid down 
is essential for unraveling the basis of defects in fiber pathways and 
synapse formation in neurodevelopmental disorders such as autism. This 
research is made possible with support primarily from NIH, especially 
the National Eye Institute and with a team of innovative and 
collaborative scientists and trainees in my lab and in our community, 
and provides a foundation for future discovery and new understanding 
about diseases of the eye and other neurodevelopmental conditions.
                     the future of american science
    As the subcommittee considers this year's funding levels, please 
consider that significant advancements in the biomedical sciences often 
come from young investigators. The current funding environment is 
taking a toll on the energy and resilience of these young people. 
America's scientific enterprise--and its global leadership--has been 
built over generations. NSF alone has awarded over 46,500 Graduate 
Research Fellowships since 1952. Many young scientists receive their 
first grants from NSF on their way to having careers as independently-
funded investigators. Without sustained investment, we will quickly 
lose that leadership. The culture of entrepreneurship and curiosity-
driven research could be hindered for decades.
    We live at a time of extraordinary opportunity in neuroscience. A 
myriad of questions once impossible to consider are now within reach 
because of new technologies, an ever-expanding knowledge base, and a 
willingness to embrace many disciplines. To take advantage of the 
opportunities in neuroscience we need an NSF appropriation that allows 
for sustained, reliable growth. That, in turn, will lead to improved 
health for the American public and will help maintain American 
leadership in science worldwide. Thank you for this opportunity to 
testify.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I am pleased to submit this testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies. UCAR is a consortium of over 100 research institutions, 
including 77 doctoral degree granting universities, which manages and 
operates the National Center for Atmospheric Research (NCAR) on behalf 
of the National Science Foundation (NSF).
    I urge the subcommittee to provide the maximum amount of support 
possible for the vital research and education programs administered by 
the NSF, the National Aeronautics and Space Administration (NASA), and 
the National Oceanic and Atmospheric Administration (NOAA) in fiscal 
year 2015.
    On February 6, the National Science Board (NSB) released its latest 
report entitled ``Science and Engineering Indicators 2014''. The 
biennial report makes it increasingly clear that the United States' 
predominance in science and technology (S&T) eroded further during the 
last decade, as several Asian nations--particularly China and South 
Korea--rapidly increased their innovation capacities. According to the 
NSB report, the major Asian economies taken together now perform a 
larger share of global research and development (R&D) than the U.S., 
and China performs nearly as much of the world's high-tech 
manufacturing as the U.S.
    The NSB report makes it increasingly clear that the U.S., Japan, 
and Europe no longer monopolize the global R&D arena. Since 2001, the 
share of the world's R&D performed in the U.S. and Europe has 
decreased, respectively, from 37 percent to 30 percent and from 26 
percent to 22 percent. In this same time period, the share of worldwide 
R&D performed by Asian countries grew from 25 percent to 34 percent. 
China led the Asian expansion, with its global share growing from just 
4 percent to 15 percent during this period. Recognition on the part of 
national leaders that S&T innovation contributes to national 
competitiveness, improves living standards, and furthers social welfare 
has driven the rapid growth in R&D in many countries.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    China and South Korea have catalyzed their domestic R&D by making 
significant investments in the S&T research enterprise and enhancing 
S&T training at universities. China tripled its number of researchers 
between 1995 and 2008, whereas South Korea doubled its number between 
1995 and 2006. And there are indications that students from these 
nations may be finding more opportunities for advanced education in 
science and employment in their home countries.
    In addition to investing in their research and teaching 
enterprises, these countries have focused their attention on crucial 
sectors of the global economy, including high-tech manufacturing and 
clean energy. The size of China's high-tech manufacturing industry 
increased nearly six-fold between 2003 and 2012, raising China's global 
share of high-tech manufacturing from 8 percent to 24 percent during 
that decade, closing in on the U.S. share of 27 percent. In addition, 
emerging economies now invest more in clean energy--a critical 21st 
century industry--than advanced economies do. In 2012, emerging 
economies invested nearly $100 billion in clean energy, primarily wind 
and solar, with China serving as the ``primary driver of investment'' 
with $61 billion. China's investment is more than double the $29 
billion spent in the U.S.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    One of the most notable S&T trends of the last decade has been the 
increased innovation capacity of emerging economies as they narrowed 
many gaps with the West. However, the U.S. S&T enterprise remains the 
global leader. For example, the U.S. invests twice as much as any other 
single nation in R&D, despite slipping to tenth in world ranking of the 
percentage of its GDP it devotes to R&D. In 2011, the U.S. spent $429 
billion on R&D, compared to China's $208 billion and Japan's $146 
billion. Among other S&T metrics, the U.S. leads in high quality 
research publications, patents, and income from intellectual property 
exports.
    While the U.S. remains the world's leader in science and 
technology, there are numerous indicators showing how rapidly the world 
is changing and how other nations are challenging our predominance. As 
other countries focus on increasing their innovation capacities, we can 
ill afford to stand still. We now face a competitive environment 
undreamt of just a generation ago as indicated in the chart entitled 
R&D Expenditures as a Share of Economic Output for Selected Countries/
Economies: 1996-2011.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Federal Government has a critical role in funding R&D. To a 
large extent, the Federal Government devotes resources to R&D to fund 
projects that, despite their potential for improving economic growth 
and people's well-being, would be unattractive for businesses to 
pursue. Businesses tend to underinvest in R&D because the returns from 
their investment are often smaller than the returns to the economy as a 
whole.
    The knowledge generated from a basic research project can often be 
used--without compensation--by other firms within and outside their 
industry. To make up for this underinvestment, the Federal Government 
has played a major role in funding R&D. Federal support for basic 
research is particularly crucial because the lack of direct commercial 
applications from basic research projects--as well as the uncertainty 
of project success--can deter businesses from performing basic research 
even though some studies have shown that it is this form of R&D that 
generates the greatest economy-wide returns.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Economists studying the link between science funding and economic 
growth have found that innovation through R&D is the primary driver of 
growth over the long run. Nobel prize winning MIT economist Robert 
Solow famously found that over half of increases in economic 
productivity can be attributed to new innovations and technologies. 
Another similar study that attempted to quantify the impact of R&D on 
economic growth found that increases in the level of research intensity 
in the U.S. and four other developed countries may have accounted for 
close to 50 percent of U.S. economic growth between 1950 and 1993.
    The return on investments in the atmospheric sciences exemplifies 
how Federal R&D drives economic growth. The commercial weather industry 
leverages U.S. investments in weather observation, atmospheric 
research, and computer modeling to produce tailored products for a wide 
variety of clients, including the general public. There are now more 
than 350 U.S. commercial weather companies, and they are estimated to 
generate nearly $3 billion in annual revenues. The growth rate of this 
industry is estimated to be about 10 percent per year.
    This entire weather industry is directly dependent on the Federal 
scientific infrastructure, and most of its tools and technologies were 
developed in universities and laboratories with Federal R&D dollars. In 
fact, a nationwide survey indicates that the U.S. public obtains 
several hundred billion forecasts each year, generating $31.5 billion 
in benefits compared to costs of $5.1 billion, a 6 to 1 direct return 
on investment.
    Even though Federal support for research--particularly basic 
research--is inextricably linked with long term economic growth, 
Federal funding for basic research has dropped since 2004. In real 
dollars, the Federal Government spends less on non-defense R&D than it 
did 10 years ago, even as Asian R&D investments have ballooned. R&D is 
no longer prioritized in the Federal budget as it once was. As a 
percent of GDP, U.S. Federal R&D has been cut by over one third from 
1.3 percent to 0.8 percent since 1976. Many of these cuts have fallen 
on the atmospheric and geospace sciences, and universities and 
laboratories including NCAR have been forced in recent years into 
difficult layoffs of researchers and other staff. This comes at a steep 
cost to our future.
    This subcommittee--with its oversight for the NSF, NOAA, and NASA--
is singularly responsible for determining over 50 percent of the annual 
Federal investment in non-biomedical non-defense research--the very 
research portfolio so critical to long term economic growth and 
international competitiveness. For all of these reasons--though 
confronted by extreme constraints in overall spending--it is vitally 
important for the future health and well-being of our citizens that the 
Congress do all it can to support this subcommittee's ability to fully 
fund its R&D portfolio as exemplified in the funding decisions you will 
be making regarding NSF, NOAA, and NASA. The University Corporation for 
Atmospheric Research and its more than 100 member institutions 
respectfully urge the subcommittee to maintain its strong priority 
commitment for research and education as it moves to develop its fiscal 
year 2015 appropriations recommendations.
    We appreciate very much the opportunity to provide these views and 
stand ready to provide whatever assistance we can to the subcommittee 
and its members.
    Thank you.
                                 ______
                                 
     Prepared Statement of Brian Vandersea, Vice President, Oral & 
                    Maxillofacial Surgery Associates
    Dear members of the subcommittee,

    I want to express my strong opposition to President Obama's 2015 
budget proposal to close the National Oceanic and Atmospheric 
Administration (NOAA) National Ocean Service (NOS)/National Marine 
Fisheries Service (NMFS) lab in Beaufort, North Carolina, and urge the 
subcommittee to help reinstate funding for this essential resource. 
This laboratory is a vital part of the local, national, and 
international marine science community. It has partnerships with 
academic institutions such as North Carolina State University, 
University of North Carolina-Chapel Hill, Duke University, East 
Carolina University and University of North Carolina-Wilmington. 
Without collaboration with the NOAA NOS/NMFS Beaufort Lab, each of the 
marine science programs at these institutions will suffer. 
Additionally, the laboratory's partnerships with economic development 
activities such as the North Carolina Marine Science and Education 
Partnership, North Carolina Biotechnology Center, and Marine 
Biotechnology Center of Innovation are important to the Morehead City/
Beaufort/eastern North Carolina economies. This laboratory has served 
North Carolina and the Nation for 115 years by executing top-notch, 
award winning, marine science.
    The NOAA Beaufort Laboratory is situated in a prime location, 
between tropical and temperate waters, and provides the only Federal 
access to one of the most diverse marine ecosystems in the United 
States. It is unthinkable that the U.S. Government would give up on a 
facility that is located in such a strategic position on our national 
coastline.
    A prime example of research ongoing at the NOAA Beaufort Lab that 
is important to me is their ongoing work on harmful algal blooms. 
Having grown up in New Bern, North Carolina, the Neuse River, which is 
literally in my parents' back yard, experiences periodic algal blooms 
and fish kills. After a fish kill, the NOAA Beaufort Lab tests water 
samples and dead fish to determine the cause(s) for these kills. This 
gives local residents ease of mind regarding the health of our river 
ecosystems and the seafood that we purchase from local commercial 
fishermen. In the early 1990's there was an extensive fish kill that 
was supposedly caused by the algae ``Pfiesteria''. This caused a lot of 
people to stay off of and away from the local rivers and made them 
anxious about buying local seafood. Needless to say, this resulted in 
major economic damage to eastern North Carolina. The Beaufort Lab's 
tireless efforts led to a better understanding of the Pfeisteria 
lifecycle and helped ease the fears of the local communities affected 
by these types of fish kills. The Beaufort Lab is able to investigate 
problems of this nature world-wide. This gives me a sense of security 
in the seafood that I purchase and confidence in the water quality 
where my seafood originates.
    In conclusion, the NOAA NOS/NMFS Laboratory in Beaufort, North 
Carolina is home to critical research that can only be conducted at 
this unique location, and my family members and I are direct 
benefactors of all of their hard work. The science that is conducted at 
the Beaufort is of the highest quality and has won national and 
international recognition all being done on a limited budget for quite 
some time.
    Why would the Government want to close down a facility that 
produces high quality products at a minimal cost to the United States 
public? I urge you to please restore full funding for this important 
Federal laboratory.
                                 ______
                                 
  Prepared Statement of Dr. Harold Vandersea, New Bern, North Carolina
    Dear Committee members,

    Acting as a private citizen on my own time, I would like to submit 
testimony for the record.
    I have recently been informed that the Presidents fiscal year 2015 
budget proposal includes plans to close down the National Oceanic and 
Atmospheric Administration (NOAA) Beaufort Laboratory in Beaufort, 
North Carolina. This is a misguided decision. To learn why, I would 
like the Senate Subcommittee of Commerce, Justice, Science, and Related 
Agencies to consider the following testimony.

    Issue presented in budget.--Long term cost of maintaining the NOAA 
Beaufort Laboratory (NOAA, National Ocean Service, National Centers for 
Coastal Ocean Science, Center for Coastal Fisheries and Habitat 
Research)

    ``To strengthen NOAA's coastal science in the long run, NOAA 
proposes to reduce its physical footprint and fixed costs by closing 
the Beaufort, North Carolina laboratory . . .'' 

    On this budget item, a NOAA spokesperson in Silver Spring was 
quoted saying: ``this aging facility requires infrastructure repairs 
and improvements exceeding agency budget resources. . . .''

    Response.--Urge proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget.

    Inaccurate, outdated information that overstated the costs of 
maintaining the NOAA Beaufort Laboratory was used in the analysis that 
led to the request to close this facility. An updated engineering 
report (2014) documents the condition of the facility is not 
structurally unsound. Additionally, there have been substantial 
improvements to the facility:

Facilities Upgrades:

    2006-- Administration Building replaced (with North Carolina 
National Estuarine Research Reserve System (NERRs))
    2007--Bridge replaced--cost shared with Duke University
    2008--Maintenance Building replaced
    2009-- Air conditioning/Air handler replacement and mold abatement
    2009-- Sample Storage/Chemical Storage/Haz-Mat buildings 
consolidated and replaced
    2014-- Seawall repair, electrical upgrade and State of North 
Carolina funded storm water control

    Additionally, the National Ocean Service (NOS) initiating the 
closure request understated the NOS staff and did not account for the 
more than 40 National Marine Fisheries Service staff or the 6 staff 
members of the North Carolina National Estuarine Research Reserve 
(Rachel Carson) co-located at the facility. In total 108 staff and 
contractors will be directly affected by this closure.

    Issue.--While the National Ocean Service, NOAA is calling for the 
closure of the Beaufort North Carolina laboratory, it is requesting an 
increase of $4 million to another center to support Ecological
    Forecasting of Harmful Algal Blooms (HAB), hypoxia, pathogens and 
Species Distributions.

    Response.--NOAA should not close the facility that has a proven 
track record with successful and effective research conducted on 
harmful algal blooms (HAB) and species distributions.

    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood.Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In regards to species distribution research, Beaufort Laboratory 
staff initiated the study of the invasive lionfish in the U.S. South 
Atlantic Bight, providing timely information on distribution, abundance 
and ecology to inform mitigation and management strategies throughout 
the southeast U.S., Florida Keys, Gulf of Mexico and the Caribbean.

Additional Impacts of the Beaufort Lab Closure:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff are currently located at the NOAA Beaufort Lab 
        which serves as the headquarters office for the program.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.

    The NOAA Beaufort Lab provides an ideal base from which to manage 
the Rachel Carson Reserve due to its close proximity to the Reserve 
site, location on calm inland waters, and boat launching facilities. 
Additionally, many NOAA staff conduct or have conducted research at the 
Rachel Carson Reserve and are able to provide professional perspectives 
that are valuable to Reserve research and management.

    Request.--The Senate Subcommittee of Commerce, Justice, Science, 
and Related Agencies decline to endorse the recommendation to close the 
Beaufort Laboratory and request current and accurate information from 
the Beaufort Laboratory leadership on costs for maintaining the 
Laboratory.

Desired Outcomes:

  --NOAA's Beaufort Laboratory closure proposed in the 2015 President's 
        Budget Request should not be included in the NOS budget.
  --Congress should inform NOAA that requests for closure of NOS 
        laboratories will not be entertained in the future.
  --Congress should direct NOAA to restore staffing, operational 
        support and funding for science to full operational levels to 
        utilize the capacity of the NOAA Beaufort Laboratory.
  --NOAA should provide a report and a timeline to Congress with a 
        strategy to address these concerns.
                               in summary
    Inaccurate, outdated information that overstated the costs of 
maintaining the NOAA Beaufort Laboratory was used in the analysis that 
led to the request to close this facility. The request understated the 
number of staff housed at this facility, and did not include NMFS or 
North Carolina NERRs employees. For 115 years, the NOAA Beaufort lab 
has had a rich history of involvement in local, national, and 
international marine science issues. The laboratory has produced award 
winning science in Fisheries and Harmful Algal Bloom research and is 
respected for the expertise and knowledge of the staff working there. 
The programs that NERRs conducts at the facility are clear evidence of 
the Beaufort lab's commitment to education and outreach--closing the 
facility would disrupt and greatly increase the hardships of running a 
successful marine science educational program. The lab originatedin 
Beaufort, North Carolina because of its unique position, being at the 
edge of two biogeographic regions (i.e., Cape Hatteras), and at the 
cusp of expanding tropical regions. It is critical that a NOAA lab of 
this strength continues in this location given the imperative to 
understanding fisheries management, coastal ecosystem management, 
climate impacts, coastal pollution, and harmful algal bloom issues in 
the mid and south Atlantic regions. Closing the Beaufort lab would 
leave a NMFS ``facilities-based-gap'' from Sandy Hook, New Jersey to 
Miami, Florida. This fact alonereveals the shortsightedness of the 
President's proposal. I hope the committee carefully considers this 
testimony and the testimonies of others that voice similar opinions 
against the President's proposal to close the Beaufort NOAA Laboratory.
    Thank you for your consideration in this matter. The closing of 
this facility will impact greatly the entire eastern coast of the 
United States as well as all the other areas that this lab collaborates 
with to assist with fishery issues.
                                 ______
                                 
                       Prepared Statement of VOR

  Protecting the Interests of Residents of Medicaid-Licensed Facility 
 Homes for Persons With Intellectual Disabilities in Actions Conducted 
by the Department of Justice's Civil Rights Division That Affect Their 
                          Choice of Residency

                            i. introduction
    VOR, a national advocacy organization for people with intellectual 
and developmental disabilities (I/DD) and their families, express 
gratitude to Chairwoman Barbara Mikulski and members of the 
Subcommittee on Commerce, Justice, Science and Related Agencies for 
this opportunity to submit testimony for the record in consideration of 
fiscal year 2015 appropriations for the Department of Justice.
    VOR's members look forward to working with Senators and their staff 
to ensure the civil rights of our most fragile citizens with I/DD.
           ii. summary: legislative choice language proposal
    As explained in detail below, VOR asserts that legal proceedings 
and related actions, such as investigations, brought against States by 
the Department of Justice's Civil Rights Division under the Americans 
with Disabilities Act (ADA) have caused significant financial and 
emotional hardships, and sometimes harm, to individuals with 
developmental and intellectual disabilities and their families. The 
concern is widespread: the Department of Justice has filed more than 40 
actions in more than 25 States. VOR views these ``Olmstead 
enforcement'' actions to violate the spirit and even, at times, the 
letter of the Olmstead decision, especially with regard to the 
requirement of individual choice [Olmstead v. L.C. ex rel. Zimring, 527 
U.S. 581 (1999)]. To correct for this injustice, VOR urges the Senate 
to adopt the following choice language relating to Department of 
Justice appropriations:

        ``No funds appropriated for any Department of Justice program 
        shall be expended to promote any law or policy that limits the 
        choices of individuals with intellectual and developmental 
        disabilities (or, if an individual has a legal representative, 
        the legal representative), seeking living arrangements they 
        believe are most suitable to their needs and wishes.''

                             iii. rationale
A. Background on Forced Deinstitutionalization
    There is a national trend towards deinstitutionalization, whereby 
individuals are encouraged and sometimes forced to move out of 
Medicaid-licensed care facilities (including Intermediate Care 
Facilities for Persons with Intellectual and Development Disabilities, 
``ICFs/IID'') and into residential settings.
    However, there are significant concerns among the family members 
and legal guardians of individuals residing in State-run and private 
ICFs/IID regarding the adequacy of opportunities for residents to make 
their views and preferences known throughout the process. They are also 
concerned about whether State-run and private facilities are being 
closed before adequate community placements are available; whether 
Medicaid reimbursements rates are adequate to facilitate the services 
necessary in such community placements for residents to lead safe and 
fulfilling lives; whether, due to a lack of adequate local community 
placements, some residents are being placed in community facilities too 
far from family members sometimes to meet the goals of integration into 
the community; the pace of transfers; and the pressure being put on 
legal representatives to move residents from their ICF/IID homes and 
other specialized facilities.
B. The U.S. Department of Justice's Olmstead Enforcement
    As stated above, legal proceedings and related actions, such as 
investigations, brought against States by the Justice Department's 
Civil Rights Division under the ADA have caused significant financial 
and emotional hardships, and sometimes harm, to individuals with I/DD 
and their families. VOR views these ``Olmstead enforcement'' actions to 
violate the spirit and even, at times, the letter of the Olmstead 
decision [Olmstead v. L.C. ex rel. Zimring, 527 U.S. 581 (1999)].
    In particular, the Supreme Court in its Olmstead decision 
establishes the right to community-based housing and care only when the 
``State's treatment professionals have determined that community 
placement is appropriate'', ``transfer is not opposed by the affected 
individual'' and ``the placement can be reasonably accommodated, taking 
into account the resources available to the State and the needs of 
others with mental disabilities'' [Olmstead at 587].
    The Court clarified its holding as follows:

        ``We emphasize that nothing in the ADA [Americans with 
        Disabilities Act] or its implementing regulations condones 
        termination of institutional settings for persons unable to 
        handle or benefit from community settings . . . Nor is there 
        any Federal requirement that community-based treatment be 
        imposed on patients who do not desire it.''527 U.S. 581, 601-02 
        (1999) (see also, Justice Kennedy's concurring opinion, ``It 
        would be unreasonable, it would be a tragic event, then, were 
        the Americans with Disabilities Act of 1990 (ADA) to be 
        interpreted so that States had some incentive, for fear of 
        litigation to drive those in need of medical care and treatment 
        out of appropriate care and into settings with no assistance 
        and supervision'').

    It is not the Justice Department's place to substitute its 
ideological view that all residents of ICFs/IID and similar facilities 
are better served in community placements for the Supreme Court's 
specific tests for community placement, which includes the judgments of 
the legal representatives of behalf of incapacitated residents.
    Yet, Olmstead investigations and actions by the Justice Department 
against States have been pursued with the express intent of ``Community 
Integration for Everyone'' [DOJ Olmstead Enforcement website, 2014], 
have rarely included consultation with families and legal guardians, 
and have led to settlements requiring deinstitutionalization without 
regard to assessments of individual needs and choices. As recognized by 
U.S. District Judge J. Leon Holmes in his order dismissing the Justice 
Department's case against the State of Arkansas:

        ``Most lawsuits are brought by persons who believe their rights 
        have been violated. Not this one. The Civil Rights Division of 
        the Department of Justice brings this action on behalf of the 
        United States of America against the State of Arkansas and four 
        State officials in their official capacities alleging that 
        practices at Conway Human Development Center [a Medicaid-
        licensed ICF/IID] violate the rights of its residents 
        guaranteed by the Fourteenth Amendment, the Americans with 
        Disabilities Act, and the Individuals with Disabilities 
        Education Act. All or nearly all of those residents have 
        parents or guardians who have the power to assert the legal 
        rights of their children or wards. Those parents and guardians, 
        so far as the record shows, oppose the claims of the United 
        States. Thus, the United States is in the odd position of 
        asserting that certain persons' rights have been and are being 
        violated while those persons--through their parents and 
        guardians--disagree.'' [U.S. v. Arkansas (June 8, 2011, 
        dismissal order) (emphasis added); see also, Olmstead: 
        Community Integration for Everyone--Olmstead Enforcement, U.S. 
        Department of Justice Civil Rights Division (website) (emphasis 
        added): detailing the Division's Olmstead enforcement efforts 
        in more than 40 matters in more than 25 States in the past 5 
        years].

    In United States v. Virginia (2012), families and legal guardians 
were conspicuously absent from the long list of stakeholders 
interviewed by the Justice Department prior to settlement and families 
spent $125,000 to overcome Justice Department and Commonwealth 
opposition to secure intervention of right [see, United States v. 
Virginia, Memorandum Order Approving Motion to Intervene (May 9, 2012): 
``[T]he Petitioners have a significant, protectable interest in 
receiving the appropriate care of their choice and protecting their 
rights under the ADA. See Olmstead v. L.C. ex rel. Zimring, 527 U.S. 
581, 602 (1999) (`Nor is there any Federal requirement that community-
based treatment be imposed on patients who do not desire it.'') . . . 
The Petitioners are all [ICF/IID] Training Center residents who wish to 
continue receiving institutional care in their current settings. As 
such, their interests are certainly affected by a lawsuit alleging 
deficiencies in their care and a consent decree whose stated purpose is 
to prohibit the unnecessary institutionalization of Virginians with ID/
DD . . . The parties' [Justice Department and Commonwealth] desire to 
phase out the residential Training Centers and transition all 
Virginians with ID/DD to community-based care is readily apparent.''].
    In United States v. Georgia (2010), the Department did not consult 
with families and legal guardians before entering a settlement that 
requires that the closure of Georgia's ICFs/IID and forces all 
residents from these homes. The Settlement does not provide families 
and legal guardians any decisionmaking authority except in the context 
of community transition. As discussed next, significant harm to 
affected individuals has followed transitions in Georgia and other 
States.
C. The Human Consequences
    VOR is also deeply concerned by the many reported outcomes of 
abuse, neglect and death of individuals with intellectual and 
developmental disabilities in community settings [see e.g, Letter from 
U.S. Senator Chris Murphy to Daniel R. Levinson, Inspector General, 
U.S. Department of Health and Human Services (March 4, 2013): ``I write 
to you today to request that you undertake an immediate investigation 
into the alarming number of deaths and cases of abuse of 
developmentally disabled individuals in group homes. In particular, I 
would like you to focus on the prevalence of preventable deaths at 
privately run group homes across this Nation and the widespread 
privatization of our delivery system.''; ``In State Care, 1,200 Deaths 
and Few Answers,'' New York Times (November 5, 2011): investigation 
finding that more than 1,200 deaths in State-run group homes in the 
past decade have been attributed to either ``unnatural or unknown 
causes''; and Bagenstos, Samuel R., The Past and Future of 
Deinstitutionalization Litigation, 34 Cardoza L. Rev. 1, 15, 21 (2012), 
which raises serious questions about the adequacy of community-based 
placements; notably, Mr. Bagenstos is a former Principal Deputy 
Assistant Attorney General in the Obama Justice Department's Civil 
Rights Division and was a key litigator in deinstitutionalization 
cases.]
    In Georgia, where a Justice Department Settlement Agreement with 
the State in U.S. v. Georgia calls for the transition of nearly 1,000 
individuals with I/DD and the closure of all State-operated ICFs/IID 
and the transition of 9,000 individuals with mental illness from 
facility-based care, the Georgia Department of Behavioral Health & 
Developmental Disabilities' Office of Quality Management released its 
Annual Quality Management Report (February 2014) finding that in 2013 
there were 82 unexpected deaths, 1,200 hospitalizations, 318 incidents 
requiring law enforcement services, 305 individuals who were 
expectantly absent from a community residential or day program, and 210 
alleged instances physical abuse of mentally ill and developmentally 
disabled individuals. Similar concerns, including some mortalities, 
were confirmed in a March 23, 2014 report from Elizabeth Jones, the 
Independent Reviewer in U.S. v. Georgia. In report, Jones cites an 
``urgent need to ensure competent and sufficient health practitioner 
oversight of individuals who are medically fragile and require 
assistance with most aspects of their daily lives.'' [see, ``Report: 
Developmentally Disabled Need Better Care,'' Georgia Health News (April 
10, 2014); see also, ``Widespread Abuse, Neglect and Death in Small 
Settings Serving People with Intellectual Disabilities,'' VOR (rev. 
February 2014)].
                             iv. conclusion
    Given these concerns, VOR respectfully request that language be 
added to appropriations legislation to require individual choice, 
nothing more or less, as follows:

        ``No funds appropriated for any Department of Justice program 
        shall be expended to promote any law or policy that limits the 
        choices of individuals with intellectual and developmental 
        disabilities (or, if an individual has a legal representative, 
        the legal representative), seeking living arrangements they 
        believe are most suitable to their needs and wishes.''

    Thank you for your consideration. For more information please 
contact Tamie Hopp, VOR Director of Government Relations & Advocacy at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c7b3afa8b7b787b1a8b5e9a9a2b3e9">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of James R. Waters, Morehead City, North Carolina
    The Honorable Barbara Mikulski, Chair, and other members of the 
subcommittee, I am a retired Federal employee. I spent most of my 
professional career at the Beaufort Laboratory as an employee of 
National Oceanic and Atmospheric Administration (NOAA's) National 
Marine Fisheries Service, and was disappointed and saddened to learn of 
the recent proposal to close the lab.
    The Beaufort Laboratory, located in Beaufort, North Carolina, has a 
history of more than 100 years of research about fisheries and the 
marine environment. The history of publications in professional 
journals attests to this research. Within the past 35 years or so, the 
focus of research has evolved to reflect the requirements and mandates 
of major Federal legislation, including the Magnuson-Stevens Fishery 
Conservation and Management Act, the Marine Mammal Act, and the 
Endangered Species Act. In particular, fishery scientists at the 
Beaufort Lab collect data, perform biological analyses and develop 
models with which to evaluate the status of important recreational and 
commercial species, especially for reef fishes that often are slow-
growing, long-lived and vulnerable to overfishing and depletion, and 
for menhaden, which supports a major industrial fishery that produces 
fishmeal and oil. The Beaufort Laboratory works with stakeholders and 
fishery managers at the South Atlantic Fishery Management Council, Gulf 
of Mexico Fishery Management Council, NOAA's Southeast Regional Office, 
Atlantic States Marine Fisheries Commission, Gulf States Marine 
Fisheries Commission, and various State fisheries agencies to evaluate 
the effects of existing and proposed methods of achieving sustainable 
fisheries for these species.
    I urge the Senate subcommittee to question whether a closure of the 
Beaufort Laboratory is in the best interests of the American taxpayer. 
If the Beaufort Lab were closed, taxpayers would incur major expenses 
to relocate personnel to other Federal facilities. These facilities 
probably are inadequately sized to accommodate the influx of 
transferred employees, and as a result taxpayers would incur additional 
major expenses to either lease office/laboratory space or expand 
existing facilities. These costs could be minimized if Federal 
employment was terminated for some or all staff at the Beaufort Lab, 
but then taxpayers would lose the benefits of the data and analyses 
that would no longer be forthcoming with which to meet the mandates of 
major Federal legislation. In my opinion, taxpayers would suffer a net 
loss if the Beaufort Lab were closed.
    Thank you for the opportunity to comment on this important issue. I 
hope that NOAA's Beaufort Laboratory will continue to be the source of 
productive research about fisheries and the marine environment for many 
years to come.
                                 ______
                                 
   Prepared Statement of Dr. Michael P. Weinstein, Senior Scientist, 
  Center for Natural Resources Development and Protection, New Jersey 
                        Institute of Technology
    The National Marine Fisheries Laboratory at Beaufort, North 
Carolina has played a critical role in developing science to inform 
policy for more than a century. It is the only Federal facility between 
Miami and New Jersey Atlantic that is heavily invested in applied 
science to comply with the ``bottom up'' provisions of the Magnuson 
Stevens Fishery Conservation and Management Act. Its scientists were 
among the first to recognize the linkage between coastal wetlands and 
seagrass meadows as primary nurseries for the early life stages of 
finfish and shellfish including seatrout, menhaden and many other 
species that contribute to the U.S.-wide $50 billion commercial and 
recreational fishery. The facilities location on Pivers Island, 
adjacent to the Duke Marine Laboratory and near the University of North 
Carolina and North Carolina State University marine science 
laboratories is ideal for catalyzing Federal-university partnerships in 
cooperative marine research.
    I wholeheartedly concur with North Carolina's congressional effort 
to keep the lab open, and similarly agree that ``the NOAA Beaufort 
Laboratory is a prime location and provides the only Federal access to 
the most diverse marine ecosystem in the United States,'' as noted by 
Dr. David B. Eggleston, a professor at North Carolina State University. 
The Federal-university complex employs 500 staff, and hosts more than 
160,000 square feet of research buildings and 40 laboratories. These 
facilities supports a $58 million economy, according to the county's 
economic development council.
    If this facility is closed, a gaping hole would be left in the 
continuity of Federal research along the Atlantic Coast; one that 
serves as the direct liaison between university basic research and its 
application through practical ``use inspired'' research of the sort 
that is conducted at NMFS Beaufort. The lab should remain open.
                                 ______
                                 
Prepared Statement of Douglas A. Wolfe, Ph.D. NOAA (Retired), Beaufort, 
                             North Carolina
    My statement is in direct opposition to the closure of the National 
Oceanic and Atmospheric Administration (NOAA) marine science laboratory 
located in Beaufort, North Carolina, as presently proposed in the 
President's fiscal year 2015 budget for the National Ocean Service 
(NOS), Coastal Science, Assessment, Response and Restoration: National 
Centers for Coastal Ocean Science (NCCOS) (NOAA Blue Book, page 8).
    This facility, identified in the budget request as the Beaufort, 
North Carolina laboratory, has a long tradition of: (1) excellence in 
marine science and research, (2) fisheries management, (3) marine 
environmental restoration, and (4) collaboration with regional 
university programs in marine science research and education. 
Originally founded in 1899 by the U.S. Fisheries Commission, the 
Beaufort Laboratory is the second-oldest (after Woods Hole) Federal 
marine science facility in the United States. Its closure is is not at 
all justified in the budget documents cited above and I respectfully 
request this subcommittee to:

    1.  direct NOAA's National Ocean Service not to close the 
Laboratory, and
    2.  recommend full funding for staffing and operations at the 
Beaufort Laboratory in fiscal year 2015 and subsequent years.

    The balance of my statement will provide greater detail and 
justification for this position.
    In the NOAA Bluebook: fiscal year 2015 Budget Summary, the National 
Ocean Service proposes (on page 8) ``to reduce its physical footprint 
and fixed costs by closing the Beaufort North Carolina laboratory . . 
.'' A NOAA spokeswoman in Silver Spring, Ciaran Clayton (Director of 
Communications and External Affairs), was further quoted in our local 
newspaper: ``this aging facility requires infrastructure repairs and 
improvements exceeding agency budget resources..'' This appears to form 
the entire basis for the NOAA/NOS/NCCOS request for lab closure. But in 
fact, NOAA has routinely been maintaining and improving this facility. 
The two-story laboratory, originally constructed in 1963, was renovated 
in 1994 to remove the outdated seawater systems from the building and 
to correct the structural damage caused by that flaw in the original 
design. A new (2014) engineering report found no residual structural 
problems in this building. More recently, a new administration building 
was constructed in 2007 at a cost of $7 million to house administrative 
and support staff offices, new library and conference room facilities, 
and the Offices of the North Carolina Estuarine Research Reserves 
(NERRS). In 2008 the maintenance building was replaced at a cost of 
$960,000. In 2009 a chemical storage and hazmat building was 
constructed at a cost of $1 million. Bridge renovation/replacement 
(2007) and seawall repairs (2014) were performed at a cost of $3.5 
million. Several smaller aging structures were demolished and removed 
from the premises. The total cost of facility upgrades within the past 
7 years exceeds $14 million, including a $1 Million cost-sharing 
contribution from NERRS, $500,000 of North Carolina State funds for 
stormwater runoff management, and a shared cost with Duke University 
for the bridge work. The present facility is modern in appearance and 
houses state-of-the art scientific instrumentation and equipment in 
support of the research programs conducted by the staff.
    While the request for closure of the Beaufort Laboratory is 
presented in the NOAA/NOS/NCCOS budget statement, the Beaufort 
Laboratory in fact is occupied by programs and staff of three different 
NOAA components: NCCOS employs a permanent staff of 31; the National 
Marine Fisheries Service (NMFS) has a permanent staff of 40 at the 
facility, and NERRS--a program funded cooperatively by NOAA and the 
State of North Carolina--supports a permanent staff of 8 (all State 
employees of North Carolina). The Center employs 33 additional 
personnel--most of them science-related--on a temporary or contract 
basis. The ramifications of laboratory closure are not reflected in the 
budgets shown for either NMFS or NERRS. Nor have the impacts to the 
employees and their families and to the local community been carefully 
evaluated.
    The Beaufort Laboratory has established an extraordinary record for 
scientific excellence in its research. NOAA and the Department of 
Commerce have repeatedly recognized individual researchers, research 
teams, and the Laboratory as a whole for the outstanding quality of the 
work performed there (with Commerce Gold Medals, Career Achievement 
Awards, Technology Transfer Award, etc.). Staff members at the 
Laboratory have also received major recognition and awards from 
professional scientific societies, including the Phycological Society 
of America and the Geochemical Society.
    The laboratory's excellent research capabilities and reputation 
also attract support--both from other branches of NOAA and from other 
outside agencies which have recognized potential benefits of the 
Laboratory's studies, and have augmented the base-level program support 
provided by NOAA. For example, the Office of Aquaculture provided 
nearly $1 million in fiscal year 2014 to conduct a feasibility study 
for sustainable aquaculture on the U.S. Atlantic coast, Gulf of Mexico, 
Caribbean (U.S. possessions), the Pacific west coast, and the Hawaiian 
archipelago. Other recent research initiatives of the NCCOS staff at 
the Beaufort Laboratory include (a) ecology of and responses to harmful 
algal blooms; (b) restoration of injured habitats including seagrass, 
saltmarsh, and reef systems; (c) ecosystem responses to climate change; 
and (d) population dynamics and spread of invasive species, such as 
lionfish. The current focus of the NMFS staff at the Beaufort 
Laboratory is on: (a) studies of population dynamics and stock 
assessments in support of fisheries management, especially of Atlantic 
menhaden and the offshore snapper/grouper and other reef fisheries; (b) 
population dynamics and health of protected and endangered species, 
including sea turtles and marine mammals; (c) densities of coral and 
the reproduction and life histories of reef fish; and (d) ecological 
studies on the ecosystem structure and function of the southeastern 
U.S. continental shelf system that supports these fisheries and 
protected species. The reponsibility of NERRS staff at the Beaufort 
Laboratory is direction and management of the four major Estuarine 
Research Reserves in North Carolina, one of which--the Rachel Carson 
Reserve--is located directly across the navigation channel from the 
Beaufort Laboratory, which provides a most convenient and economical 
logistics base for field research, training and educational programs at 
their reserve.
    It is ironic (to the point of giving an impression of fiscal 
irresponsibility) that the NOS/NCCOS budget initiative for fiscal year 
2015 requests increased research funding for coastal ocean issues , 
including harmful algal blooms, hypoxia, and coastal ecosystem 
management at the same time it is proposing to close the Beaufort 
Laboratory, which has well-established expertise and the facilities 
required to address many of those very same issues.
    The Beaufort Laboratory is strategically located for temperate and 
subtropical marine and estuarine habitat studies on the east coast of 
North America. It was no accident that Beaufort, North Carolina was 
selected by the U.S. Bureau of Fisheries as the location for this 
laboratory, and not surprising that several Universities and State 
agencies have also located marine research facilities in the same area. 
North Carolina has one of the longest coastlines and greatest estuarine 
areas of any State on the east coast; and the Gulf Stream approaches 
the coast more closely at Cape Hatteras and Cape Lookout than at any 
other point north of Cape Kennedy, Florida-- accounting for the 
occurrence of tropical corals and reef habitats just at and beyond the 
edge of the broad continental shelf. Laboratory scientists at the 
Beaufort Laboratory have developed academic affiliations with several 
nearby universities, especially with North Carolina State University, 
University of North Carolina-Wilmington, and East Carolina University, 
and have helped to sponsor graduate student research on many topics 
related to NOAA's initiatives. Close ties and research collaboration 
also exist between laboratory scientists and the faculty at the 
adjacent Duke University Marine Laboratory, and the University of North 
Carolina Institute of Marine Sciences in nearby Morehead City. The 
Beaufort Laboratory is an excellent living example of a truly effective 
Federal-Academic Partnership. The NERRS facility at the Beaufort 
Laboratory also provides educational experience and opportunities to 
thousands of elementary and secondary school students every year.
    The Beaufort Laboratory also provides administrative support and 
scientific direction for a field laboratory at Kasitsna Bay, Alaska, 
where researchers are quantifying ecosystem change and studying 
variability in ocean acidification in nearshore subarctic Alaskan 
habitats. In partnership with the University of Alaska, Native 
corporations and marine conservation groups, the Kasitsna Bay facility 
provides training in diving for scientific objectives, marine ecology 
and oceanography; conducts field science camps for high school 
students; and offers field housing for visiting researchers and 
students including NOAA undergraduate and graduate student interns. The 
implications of Beaufort Lab closure on the operation of the Kasitsna 
facility appear not to have been considered.
    In conclusion I will repeat my earlier recommendation and request 
the Honorable Members of the Senate Appropriations Subcommittee on 
Commerce, Justice, Science and Related Agencies to formulate 
appropriate strategies to:

    1.  direct NOAA/NOS not to close the Beaufort Laboratory as 
currently proposed, and remove all references to such closure in the 
final appropriation; and
    2.  direct NOAA to restore full funding for operations, staffing 
and research at the Beaufort Laboratory in fiscal year 2015 and 
subsequent years.

    Thank you for your consideration.
<DOC>
<HEAD>


 
       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Alexander, Senator Lamar, U.S. Senator From Tennessee, Questions 
  Submitted by...................................................   120
American:
    Geophysical Union--Joint Response to NOAA Budget Bill, 
      Prepared Statement of the..................................   276
    Geosciences Institute, Prepared Statement of the.............   267
    Institute of Biological Sciences, Prepared Statement of the..   269
    Physiological Society, Prepared Statement of the.............   271
    Society:
        For Microbiology, Prepared Statement of the..............   272
        Of Agronomy, the Crop Science Society of America, and the 
          Soil Science Society of America, Prepared Statement of 
          the....................................................   275
Animal Welfare Institute, Prepared Statement of the..............   278
Associated Universities, Incorporated, Prepared Statement of.....   281
Association of:
    Public and Land-Grant Universities' (APLU) Board on Oceans, 
      Atmosphere, and Climate (BOAC), Prepared Statement of the..   282
    Zoos and Aquariums, Prepared Statement of the................   285

Bacheler, Nathan M., Fisheries Biologist, NOAA/National Marine 
  Fisheries Service, Prepared Statement of.......................   286
Boehlert, George, Redmond, Oregon, Prepared Statement of.........   287
Bolden, Hon. Charles F., Jr., Administrator, National Aeronautics 
  and Space Administration:
    Prepared Statement of........................................   229
    Questions Submitted to.......................................   256
    Statement of.................................................   225
    Summary Statement of.........................................   227
Boozman, Senator John, U.S. Senator From Arkansas, Questions 
  Submitted by 



Brennan Center for Justice, Prepared Statement of the............   288
Bureau of Prisons Budget, Prepared Statement on the..............   290

California Association of Psychiatric Technicians, Prepared 
  Statement of the...............................................   292
Center for Biological Diversity, Prepared Statement of the.......   293
Coastal States Organization, Prepared Statement of the...........   296
Collins, Senator Susan M., U.S. Senator From Maine, Questions 
  Submitted by...................................................   208
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................   299
Comey, Hon. James B., Director, Federal Bureau of Investigation:
    Prepared Statement of........................................     5
    Statement of.................................................     1
    Summary Statement of.........................................     4
Consortium:
    For Ocean Leadership, Prepared Statement of the..............   301
    Of Social Science Associations, Prepared Statement of the....   305
Coons, Senator Christopher A., U.S. Senator From Delaware, 
  Questions Submitted by.........................................   112
Cross, Ford ``Bud'', Ph.D. National Oceanographic and Atmospheric 
  Administration (NOAA) (Retired), Prepared Statement of.........   307

Duval, Michelle, Morehead City, North Carolina, Prepared 
  Statement of...................................................   310

Entomological Society of America, Prepared Statement of the......   311

Federation of American Societies for Experimental Biology, 
  Prepared Statement of the......................................   313
Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by 




Fieberg, John, Ph.D., Assistant Professor of Quantitative 
  Ecology, Department of Fisheries, Wildlife, Conservation 
  Biology, University of Minnesota, Prepared Statement of........   314
Fleming, Dr. Janelle, Seahorse Coastal Consulting, LLC and 
  Discovery Diving Co., Inc., Prepared Statement of..............   315

Geological Society of America, Prepared Statement of the.........   316
Govoni, John J., Ph.D., Ecological Consultant, Prepared Statement 
  of.............................................................   318
Graham, Senator Lindsey, U.S. Senator From South Carolina, 
  Questions Submitted by.........................................   216
Great Lakes Indian Fish and Wildlife Commission (GLIFWC), 
  Prepared Statement of the......................................   320

Hansen, Jonathan, Madison, Wisconsin, Prepared Statement of......   322
Harms:
    Craig A., D.V.M., Ph.D.; Diplomate, American College of 
      Zoological Medicine; Associate Professor, Department of 
      Clinical Sciences, College of Veterinary Medicine and 
      Center for Marine Sciences and Technology, Prepared 
      Statement of...............................................   325
    Patricia, Morehead City, North Carolina, Prepared Statement 
      of.........................................................   326
Holder, Hon. Eric H., Jr., Attorney General, Department of 
  Justice:
    Prepared Statement of........................................    41
    Questions Submitted to.......................................    94
    Statement of.................................................    35
    Summary Statement of.........................................    39
Horowitz, Hon. Michael E., Inspector General, Department of 
  Justice:
    Prepared Statement of........................................    84
    Questions Submitted to.......................................   132
    Statement of.................................................    82
Horton, Howard F., Ph.D., Professor Emeritus of Fisheries, Oregon 
  State University, Prepared Statement of........................   326
Hoss, Dr. Donald E., Beaufort, North Carolina, Prepared Statement 
  of.............................................................   327

Innocence Project, Prepared Statement of the.....................   328
Institute of Makers of Explosives, Prepared Statement of the.....   331

Jensen:
    Daniel, Morehead City, North Carolina, Prepared Statement of.   334
    Nancy, Morehead City, North Carolina, Prepared Statement of..   336
Johnson, Dr. David F., Former Director of the NOAA Beaufort 
  Laboratory (Retired), Prepared Statement of....................   339
Joint Ocean Commission Initiative, Prepared Statement of the.....   340

Kellison, G. Todd, Carteret County, North Carolina Resident and 
  Chief, Fisheries Ecosystems Branch, NOAA Fisheries/Southeast 
  Fisheries Science Center/Beaufort Laboratory, Prepared 
  Statement of...................................................   343
Kentula, Mary E., Corvallis, Oregon, Prepared Statement of.......   345
Kirk, Senator Mark, U.S. Senator From Illinois, Questions 
  Submitted by 



Klibansky Nikolai, Ph.D., Atlantic Beach, North Carolina, 
  Prepared Statement of..........................................   345

Landrieu, Senator Mary L., U.S. Senator From Louisiana, Questions 
  Submitted by 



Leahy, Senator Patrick J., U.S. Senator From Vermont, Questions 
  Submitted by 




Lund's Fisheries Incorporated, Prepared Statement of.............   346

Marine Conservation Institute, Prepared Statement of the.........   347
Martin, Hon. Paul K., Inspector General, National Aeronautics and 
  Space Administration, Prepared Statement of....................   236
Merkley, Senator Jeff, U.S. Senator From Oregon, Questions 
  Submitted by 



Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Opening Statements of 




    Prepared Statements of 



    Questions Submitted by 



    Statement of.................................................   246
Murkowski, Senator Lisa, U.S. Senator From Alaska, Questions 
  Submitted by 





National:
    Association of Marine Laboratories, Prepared Statement of the   348
    Congress of American Indians, Prepared Statement of the......   351
    Consortium for Justice Information and Statistics, Prepared 
      Statement of the...........................................   397
    Court Appointed Special Advocate Association, Prepared 
      Statement of the...........................................   354
    Crime Prevention Council (NCPC), Prepared Statement of the...   356
    Estuarine Research Reserve Association, Prepared Statement of 
      the........................................................   359
    Marine Sanctuary Foundation, Prepared Statement of the.......   361
    Network to End Domestic Violence, Prepared Statement of the..   365
Native American Rights Fund, Prepared Statement of the...........   370
Northwest Indian Fisheries Commission, Prepared Statement of the.   372

Ocean Conservancy, Prepared Statement of the.....................   374
Oliver, Dr. James, University of North Carolina at Charlotte, 
  Prepared Statement of..........................................   377
Omega Protein, Inc. and Daybrook Fisheries, Inc., Prepared 
  Statement of...................................................   377

Planetary Society, Prepared Statement of the.....................   378
Pritzker, Hon. Penny, Secretary, Department of Commerce:
    Prepared Statement of........................................   143
    Questions Submitted to.......................................   188
    Statement of.................................................   137
    Summary Statement of.........................................   142
Pryor, Senator Mark L., U.S. Senator From Arkansas, Questions 
  Submitted by...................................................   194

Regional Information Sharing Systems (RISS) Program, Prepared 
  Statement of the...............................................   382
Research!America, Prepared Statement of..........................   385
Restore America's Estuaries, Prepared Statement of...............   386
Roffer's Ocean Fishing Forecasting Service, Inc., Prepared 
  Statement of...................................................   388

Sac and Fox Nation, Prepared Statement of the....................   389
Schobernd, Zeb, Morehead City, North Carolina, Prepared Statement 
  of.............................................................   390
Schueller, Dr. Amy M., Research Fishery Biologist, Prepared 
  Statement of...................................................   391
Scientific Diving International, Prepared Statement of..........   394
Sea Grant Association, Prepared Statement of the.................   395
Shaheen, Senator Jeanne, U.S. Senator From New Hampshire, 
  Question Submitted by..........................................   198
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Opening Statement of.........................................   225
    Questions Submitted by 







    Statements of 




Shertzer, Dr. Kyle, Morehead City, North Carolina, Prepared 
  Statement of...................................................   399
Society for:
    Industrial and Applied Mathematics (SIAM), Prepared Statement 
      of the.....................................................   401
    Neuroscience, Prepared Statement of the......................   404

University Corporation for Atmospheric Research, Prepared 
  Statement of
  the............................................................   407

Vandersea:
    Brian, Vice President, Oral & Maxillofacial Surgery 
      Associates, Prepared Statement of..........................   412
    Dr. Harold, New Bern, North Carolina, Prepared Statement of..   412
VOR, Prepared Statement of.......................................   415

Waters, James R., Morehead City, North Carolina, Prepared 
  Statement of...................................................   417
Weinstein, Dr. Michael P., Senior Scientist, Center for Natural 
  Resources Development and Protection, New Jersey Institute of 
  Technology, Prepared Statement of..............................   418
Wolfe, Douglas A., Ph.D. NOAA (Retired), Beaufort, North 
  Carolina, Prepared Statement of................................   418

Zinser, Todd J., Inspector General, Department of Commerce:
    Prepared Statement of........................................   146
    Questions Submitted to.......................................   218
<DOC>
<HEAD>


 
                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF COMMERCE

                        Office of the Secretary

                                                                   Page

2020 Census 



    Summary of Census Bureau Corrective Actions--Table 1.........   220
Addressing Issues with National Oceanic and Atmospheric 
  Administration (NOAA) Weather Satellite Programs 



    GOES-R.......................................................   163
    Managing GOES-R Program Issues With Launch Readiness and 
      System Development.........................................   148
    Mitigating Potential JPSS Coverage Gaps......................   147
    NOAA Afternoon-orbit Polar Satellite Constellation With 
      Potential Continuity Gap--Figure A-1.......................   163
    Ongoing OIG Investigation....................................   148
    Potential Policy Gaps for Geostationary Operational 
      Satellites--Figure A-2.....................................   164
    JPSS.........................................................   162
Affiliations.....................................................   207
Anti-Dumping and Subsidy Enforcement.............................   176
Athletic Footwear and TPP........................................   183
Buy America......................................................   197
Census 



    Managing the Bureau's 2020 Decennial Planning and Other 
      Census Bureau Issues.......................................   148
        2020 Census:
            Design...............................................   149
                Shifting Deadlines--Figure 1.....................   149
            Integrated Schedule and Budget.......................   149
            Planning.............................................   149
        Ongoing OIG Investigation................................   150
Denali Commission................................................   210
Department of Commerce's Role in Creating and Retaining Jobs.....   179
Electronic Monitoring............................................   211
    For Trawlers.................................................   178
Enhancing Departmental Cybersecurity 



    Cyber Incident Response......................................   166
    Department's Enterprise Cybersecurity Initiatives--Table C-1.   167
    Enhancing the Department's Cyber Incident Detection and 
      Response...................................................   150
    Enterprise Cybersecurity Initiatives.........................   166
    Implementing Enterprise Cybersecurity Initiatives............   150
    Ongoing OIG Work.............................................   151
Finances, Contracts, Grants, and Operations......................   153
    Agency Oversight.............................................   157
        Addressing:
            Concerns With BTOP Grants' Closeout Process..........   158
            Issues With NOAA Satellite Accounting................   159
        Answering Congressional Questions About a BTOP Awardee...   158
        Examining Issues With BTOP Equipment Acquisitions........   158
        Managing:
            Broadband Technology Opportunities Program (STOP) 
              Award Closeouts....................................   157
            NOAA Real Property Leases............................   159
        Reforming Bureau of Industry and Security (BIS) Export 
          Control................................................   158
        Supporting International Trade Administration (ITA) 
          Export Programs Under a New Organizational Structure...   158
    Department-Wide Oversight....................................   153
        Addressing the Unauthorized Reprogramming of Funds.......   153
        Administering High-Risk Contracts and Grant Awards.......   155
            Incurring Risk From the Use of High-Risk Contracts...   155
            Tightening Controls Over Use of Federal Funds by 
              Award Recipients...................................   156
        Analysis, by Bureau, of OIG-Reviewed Single Audit 
          Reports--Table 2.......................................   157
        Managing the Working Capital Fund........................   155
        Monitoring the Department's Obligation Balances..........   154
        Ongoing OIG Investigation Into NOAA Grants...............   157
        Overseeing:
            Conference Spending..................................   154
            Premium Travel Spending..............................   154
        Updating the Enterprise Financial Management System......   154
Financial Management System......................................   188
Fisheries 



    California Drought...........................................   193
    Disaster Assistance..........................................   181
    Electronic Reporting for Recreational Reporting for Gulf of 
      Mexico Red Snapper:
        Reporting on:
            Charter Boats........................................   200
            Headboats............................................   200
        Pilot Studies Using Electronic Reporting for Pulse 
          Fisheries..............................................   200
    Finance Program..............................................   215
    Real-Time Monitoring.........................................   192
    Western Region...............................................   191
Fishery:
    Disaster.....................................................   183
        Relief Funding...........................................   181
    Service Labs.................................................   174
Fishing Red Snapper in the Gulf of Mexico........................   172
Foreign Commercial Services......................................   185
Fueling a Data-Driven Economy....................................   145
Gathering and Acting on Environmental Intelligence...............   146
Highlights of the Department of Commerce Budget..................   142
Hydrographic Charting............................................   213
Improving the Function of Patent and Trade Office................   186
International Trade Administration...............................   217
    Trans-Pacific Partnership (TPP)..............................   198
    U.S./Canada..................................................   208
Internet Policy Center...........................................   206
Investment in Manufacturing Community Program 



Job Creation.....................................................   179
Managing the Census Bureau's 2020 Decennial Planning.............   164
    2020 Decennial...............................................   164
    Accurately Recording Costs in the Accounting System..........   165
    Completing Timely Research For Making Evidence-Based Design 
      Decisions..................................................   164
    Costly 2010 Census Operations and 2020 Research Efforts to 
      Address Them--Table B-1....................................   165
    Integrating Schedule and Budget To Provide Valid, Timely, 
      Accurate, and Auditable Performance Information on Which To 
      Base Project Management Decisions..........................   165
Manufacturing....................................................   184
    Initiative...................................................   209
Marine Debris....................................................   213
Market Competition...............................................   178
National:
    Data Buoy System.............................................   213
    Telecommunications and Information Administration............   205
NIST Cyber-Security Framework....................................   190
NOAA:
    Cooperative Research to Develop and Implement a Cooperative 
      EM Research Plan to Test and Compare Different EM 
      Technologies With Observers, To Work Out Logistical Issues, 
      and To Estimate Implementation Costs.......................   212
    Marine Fisheries Advisory Committee (MAFAC) Recommendations 
      on NOAA Fisheries Having a Role in Eco-Labeling of U.S. 
      Federally Managed Seafood..................................   215
    Satellite....................................................   170
NTIA, Internet Contract..........................................   175
Ocean Exploration................................................   175
Oil Country Tubular Goods........................................   207
Patent:
    Backlog and Pendency Decreases and RCE Backlog and Pendency 
      Increases Through February 2014............................   169
    Fee Collection...............................................   186
    Office Fees..................................................   187
Polar Satellite:
    Gap Mitigation...............................................   218
    Program Robustness...........................................   201
Prioritization Within NOAA.......................................   172
Profit For Constructed Value.....................................   206
Program Robustness--JPSS.........................................   219
Promoting Trade and Investment...................................   144
Reducing USPTO Backlogs 



    New Application, Appeal, and RCE Backlogs and Pendency--Table 
      1..........................................................   152
    Ongoing OIG:
        Work.....................................................   152
        Investigation............................................   153
    Patent Backlogs..............................................   151
        And Pendency Decreases and RCE Backlog and Pendency 
          Increases Through 2014--Figures D-1a and D-1b..........   169
    Reducing Patent Application Backlogs.........................   168
Regional Innovation Strategies Program...........................   195
Relocation of the NOAA Vessel....................................   174
Resolving Ethics and Compliance Issues Raised by Whistleblowers..   160
    Complaint Referrals to Bureaus Awaiting Initial Response--
      Figure 2...................................................   161
Rural Broadband..................................................   196
Satellite Gap Mitigation.........................................   202
Seafood Certification............................................   214
Secretary's Working Capital Fund (WCF)--Attachment: Appendix C, 
  ``Detailed Overcharges and (Undercharges) by WCF Projects in 
  Fiscal Year 2013,'' of OIG Final Report Number OIG-14-020-A, 
  Office of the Secretary's Working Capital Fund Billing Control 
  Issues Resulted In Incorrect Charges, Issued May 13, 2014......   222
South Korean Manufacturers.......................................   208
Spurring Innovation..............................................   144
Steel............................................................   216
    Dumping......................................................   198
Strengthening First Responder Network Authority (FirstNet) to 
  Support Economic Growth........................................   159
    Ongoing FirstNet Oversight...................................   160
    Overseeing the First Responder Network Authority and the 
      Implementation of the Nationwide Public Safety Broadband 
      Network....................................................   159
Trade............................................................   201
    And Footwear Manufacturing...................................   182
    Economic Development Administration..........................   201
    Promotion....................................................   190
Trans-Pacific Partnership (TPP)..................................   216
Truck Scrapping..................................................   189
Unfair Steel Trade Practices.....................................   194
USPTO Backlogs...................................................   151
    New Application, Appeal, and RCE Backlogs and Pendency--Table 
      1..........................................................   152
    Ongoing OIG:
        Work.....................................................   152
        Investigation............................................   153
    Reducing Patent Backlogs.....................................   151
Weather Satellites...............................................   170
Working Capital Fund.............................................   219
                               __________

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

Actions/Cases Taken to Hold Those Accountable for Distributing 
  Misbranded, Unapproved, Adulterated, or Counterfeit Drugs 



Adam Walsh Child Protection and Safety Act of 2006 Funding Levels 
  by Component...................................................    95
Assets Forfeiture................................................   101
Attorney Misconduct..............................................   127
Autonomy of Office...............................................    93
Becoming Smarter on Crime........................................    43
Boston Marathon Bombing..........................................    36
Budget Cuts......................................................   103
Bulletproof Vest Program.........................................   113
Bureau of Prisons................................................    36
    Most Successful Programs.....................................   104
Cases Prosecuted Involving Counterfeit Pharmaceuticals Imported 
  From Overseas 



Civil and Criminal Fines, Penalties, and Settlement..............    40
Cooperative Law Enforcement Mechanisms to Pursue IP Offenses in 
  Source Countries 



Cuts.............................................................   114
Cyber Security 



    Improvements.................................................    90
Drugs 



    Courts.......................................................    73
    Monitoring...................................................    65
    Related Crime................................................    51
Effects of Sequestration.........................................    78
Efforts to Fight Counterfeit Drugs...............................   121
Enforcing Immigration Laws and Addressing the Immigration Case 
  Backlog........................................................    47
Fairness in Disclosure of Evidence Act...........................   126
Federal Prisons 



    Percentage of the Prison Population Connected in Some Way to 
      Violent Crime..............................................    52
Financial Fraud..................................................    67
Fiscal Year 2015 Budget..........................................    37
    Cuts.........................................................   113
Forensics Reform.................................................   102
Funding for the Bureau of Alcohol, Tobacco, Firearms and 
  Explosives (ATF) Attrition.....................................   106
Future Work and Top Challenges Facing DOJ........................    86
    Crisis in the Federal Prison System Continues................    86
    DOJ Must Continue its Efforts to Protect Taxpayer Funds From 
      Mismanagement and Misuse...................................    87
    Major Challenges for the Department..........................    86
Gangs 



    Of National Significance.....................................    66
Granting Asylum..................................................    62
Heroin:
    And Prescription Drug Abuse..................................    64
    Crisis.......................................................    50
Human Trafficking................................................    96
    Curriculum Development.......................................   100
    Future Trainings.............................................   101
    Investigations and Initiatives...............................    99
    Prosecutions.................................................    98
    Training 



IG access to DOJ documents.......................................   118
Immigration Courts 



    Court Backlog................................................   108
Improving:
    Collaboration with Foreign Law Enforcement Partners..........    46
    Our Ability to Implement and Enforce Gun Safety Measures.....    45
Indicting Corporations...........................................    67
Inspector General................................................    38
    Access.......................................................    92
Investigating Cybercrime and Protecting Our Nation's Critical 
  Networks.......................................................    46
Investing in State, Local and Tribal Assistance Programs that 
  Work...........................................................    48
Legislative Changes to Improve U.S. Enforcement Efforts Involving 
  Pharmaceuticals, Including Counterfeit Drugs Recommended by the 
  Administration.................................................   124
Maintaining Safe and Secure Prison and Detention Facilities......    47
Methamphetamine:
    Container Program............................................   120
    COP Anti-Methamphetamine Program (CAMP)......................   120
        Eligibility..............................................   121
        Funding Provisions.......................................   120
    Meth in Tennessee............................................   120
New Orleans Consent Decree.......................................   109
Office of the Inspector General:
    Oversight of the Department's Operations.....................    84
    Position Regarding Access to Documents and Materials Gathered 
      by the Federal Bureau of Investigation.....................    55
        Introduction.............................................    55
        I. The Inspector General Act.............................    57
            A. GThe Inspector General Act Grants the OIG Full and 
              Prompt Access to any Documents and Materials 
              Available to the DOJ, Including the FBI, that 
              Relate to the OIG's Oversight Responsibilities.....    57
            B. GThe Only Limitation on the OIG's Authority to 
              Conduct Audits and Investigations within its 
              Jurisdiction is Section 8E of the Inspector General 
              Act, and that Limitation Must Be Invoked by the 
              Attorney General...................................    58
        II. Grand Jury Secrecy Rules.............................    58
            A. GGOIG Attorneys Are ``Attorneys for the 
              Government''.......................................    59
            B. GThe OIG is entitled to Receive Grand Jury 
              Materials Involving Foreign Intelligence 
              Information........................................    60
        III. Conclusion..........................................    61
Payment Fraud....................................................   112
Prison Staffing..................................................    72
Prisoner Reentry.................................................   103
Prosecuting:
    Financial and Mortgage Fraud.................................    47
    GITMO Detainees in U.S. Courts...............................   105
Prosecution of Senator Stevens...................................    69
Protecting the American People from Terrorism and other National 
  Security Threats...............................................    44
Recent DOJ OIG Oversight of the Department's Operations..........    84
Role of Inspector General........................................    53
Safeguarding the Most Vulnerable Members of Society..............    43
Safety of Correctional Officers..................................    71
Senator Stevens Prosecution......................................    69
Sentencing Reform................................................    52
Sex Trafficking..................................................    77
Smart Crime Initiative...........................................   114
Stopping Child Predators.........................................    94
    Adam Walsh Child Protection and Safety Act of 2006 Funding 
      Levels by Component........................................    95
Strengthening the Independent Oversight of the DOJ...............    88
    Access to Documents Relevant to OIG Reviews..................    88
    Limitations on the DOJ OIG's Jurisdictions...................    89
Summary of the Department of Justice Office of the Inspector 
  General's Position Regarding Access to Documents and Materials 
  Gathered by the Federal Bureau of Investigation................    55
    Introduction.................................................    55
    I. The Inspector General Act.................................    57
        A. GThe Inspector General Act Grants the OIG Full and 
          Prompt Access to any Documents and Materials Available 
          to the DOJ, Including the FBI, that Relate to the OIG's 
          Oversight Responsibilities.............................    57
        B. GThe Only Limitation on the OIG's Authority to Conduct 
          Audits and Investigations within its Jurisdiction is 
          Section 8E of the Inspector General Act, and that 
          Limitation Must Be Invoked by the Attorney General.....    58
    II. Grand Jury Secrecy Rules.................................    58
        A. GGOIG Attorneys Are ``Attorneys for the Government''..    59
        B. GThe OIG is entitled to Receive Grand Jury Materials 
          Involving Foreign Intelligence Information.............    60
    III. Conclusion..............................................    61
Task Forces......................................................   101
Ted Stevens Investigation........................................   129
TEDAC/HDS/NCETR Facilities.......................................   115
Terrorism........................................................    78
Terrorist Asylum.................................................   105
Transition Technical Assistance Providers........................    72
Unaccompanied Alien Children.....................................   107
USA PATRIOT Act Review...........................................   136
Victims of Child Abuse Act 



Web Sites Seized That Were Used to Facilitate Distribution of 
  Illegal Sales of Pharmaceuticals...............................   125
White Collar Crime:
    FTE Workyears Over the Last 6 Fiscal Years, Including 
      Overtime Hours That Average More Than 200 Additional FTE 
      Per Fiscal Year--Table.....................................   112
    Prosecution..................................................   110
                               __________

                    FEDERAL BUREAU OF INVESTIGATION

Agent Joy Whistleblowing.........................................    22
Agriculture Espionage............................................    19
Budget...........................................................    15
Child Exploitation and Child Pornography.........................    24
Criminal.........................................................     8
    Crimes Against Children......................................    10
    Financial Crimes.............................................     9
    Gangs/Violent Crime..........................................     9
    Indian Country...............................................    10
    Public Corruption............................................     9
    Referrals from Financial Regulatory Agencies.................    27
    Transnational Organized Crime................................    10
Critical Incident Response Group.................................    12
    Active Shooter Training......................................    12
    Tactical Operations & Crisis Response........................    12
Cyber Security 


    Efforts with Private Industry................................    30
Employer Misconduct Relating to Stevens Investigation............    21
Espionage........................................................    19
Follow-up on deferred and non-prosecution........................    29
Forensics Reform.................................................    26
Hazardous Devices School 



Human Trafficking:
    In Native Communities........................................    23
    Of Native Americans..........................................    23
Information Technology...........................................    13
International Offices............................................    13
Investigating multinational companies............................    28
Leadership Development...........................................    14
Legal Attache Offices............................................    20
Mortgage Fraud Cases.............................................    28
National Security................................................     6
    Counterintelligence..........................................     7
    Counterterrorism.............................................     6
    Cyber........................................................     8
    Intelligence.................................................     7
    Weapons of Mass Destruction..................................     7
Offsets..........................................................    14
OIG Report.......................................................    30
Online Sex Trafficking...........................................    32
OPR Report on Ted Stevens Case Agent.............................    22
Science & Technology.............................................    11
    Criminal Justice Information Services........................    12
    Laboratory Services..........................................    11
    Operational Technology.......................................    11
Senator Stevens Investigation....................................    22
Shooting of Ibragim Todashev.....................................    25
State and Local Law Enforcement..................................    16
Terrorist Explosive Device Analytical Center.....................    18
Training.........................................................    14
Victim Assistance................................................    13
White-Collar Crime...............................................    26
    Mortgage Fraud 2008-2014--White-Collar Crime Table...........    27
    Other White-Collar Crime 2008-2014--White-Collar Crime Table.    27
                               __________

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

Aeronautics Research.............................................   233
Altering Mission Payloads........................................   241
Astrophysics and James Webb Space Telescope......................   231
Commercial:
    Cargo........................................................   251
    Crew.........................................................   252
        And Cargo................................................   235
        Program..................................................   243
        Transportation Services..................................   236
    Orbital Transportation Services (COTS) Program...............   259
        Payments Through April 30, 2014--Table...................   259
    Resupply Services (CRS)......................................   260
        Flights to the International Space Station--Table........   260
Cybersecurity at NASA............................................   253
Earth Science....................................................   231
    Budget.......................................................   250
Education........................................................   235
Exploration:
    And Space Operations.........................................   234
    Systems......................................................   234
Fiscal Year 2015 Budget Request..................................   227
Funding Reductions...............................................   248
Heliophysics.....................................................   232
Hubble Space Telescope...........................................   246
Human Exploration and Operations.................................   259
International Space Station......................................   234
Launch Vehicles..................................................   241
Maintaining a Balanced Space Program.............................   249
Mars Mission Potentials..........................................   245
NASA:
    Information Technology Governance Structure..................   238
    Priorities...................................................   255
    Russian Cooperation..........................................   251
Planetary Science................................................   232
Relationship With Russia.........................................   251
Roadmap to Mars..................................................   244
Rocket Engine Purchase...........................................   240
Science 



    Budget.......................................................   249
    Missions.....................................................   263
Space:
    Communications Networks......................................   237
    Launch System Joint Confidence Level.........................   239
    Station Extension............................................   250
    Technology 



The Space Communications Networks................................   237
U.S. Reliance on Russia for Launch Vehicles......................   241

                                   [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
